<html>
<title> - SUPPLEMENTAL NUTRITION ASSISTANCE PROGRAM</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


               SUPPLEMENTAL NUTRITION ASSISTANCE PROGRAM

=======================================================================

                                HEARINGS

                               BEFORE THE

                       SUBCOMMITTEE ON NUTRITION

                                AND THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

    JANUARY 12, 2016; MARCH 2, 2016; MAY 12; JUNE 22; JULY 6, 2016; 
               SEPTEMBER 13, 2016; AND NOVEMBER 16, 2016

                               __________

                            Serial No. 114-3

                               __________

                                 Part 4

                               __________
                               
                               
                               
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                               


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov
                         
                         
                                ____________
                                
                                
                      U.S. GOVERNMENT PUBLISHING OFFICE
98-359 PDF                  WASHINGTON : 2016                      
                        
________________________________________________________________________________________                         
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d4b3a4bb94b7a1a7a0bcb1b8a4fab7bbb9fa">[email&#160;protected]</a>  
                       
                         


                        COMMITTEE ON AGRICULTURE

                  K. MICHAEL CONAWAY, Texas, Chairman

RANDY NEUGEBAUER, Texas,             COLLIN C. PETERSON, Minnesota, 
    Vice Chairman                    Ranking Minority Member
BOB GOODLATTE, Virginia              DAVID SCOTT, Georgia
FRANK D. LUCAS, Oklahoma             JIM COSTA, California
STEVE KING, Iowa                     TIMOTHY J. WALZ, Minnesota
MIKE ROGERS, Alabama                 MARCIA L. FUDGE, Ohio
GLENN THOMPSON, Pennsylvania         JAMES P. McGOVERN, Massachusetts
BOB GIBBS, Ohio                      SUZAN K. DelBENE, Washington
AUSTIN SCOTT, Georgia                FILEMON VELA, Texas
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHELLE LUJAN GRISHAM, New Mexico
SCOTT DesJARLAIS, Tennessee          ANN M. KUSTER, New Hampshire
CHRISTOPHER P. GIBSON, New York      RICHARD M. NOLAN, Minnesota
VICKY HARTZLER, Missouri             CHERI BUSTOS, Illinois
DAN BENISHEK, Michigan               SEAN PATRICK MALONEY, New York
JEFF DENHAM, California              ANN KIRKPATRICK, Arizona
DOUG LaMALFA, California             PETE AGUILAR, California
RODNEY DAVIS, Illinois               STACEY E. PLASKETT, Virgin Islands
TED S. YOHO, Florida                 ALMA S. ADAMS, North Carolina
JACKIE WALORSKI, Indiana             GWEN GRAHAM, Florida
RICK W. ALLEN, Georgia               BRAD ASHFORD, Nebraska
MIKE BOST, Illinois
DAVID ROUZER, North Carolina
RALPH LEE ABRAHAM, Louisiana
JOHN R. MOOLENAAR, Michigan
DAN NEWHOUSE, Washington
TRENT KELLY, Mississippi

                                 ______

                    Scott C. Graves, Staff Director

                Robert L. Larew, Minority Staff Director

                                 ______

                       Subcommittee on Nutrition

                  JACKIE WALORSKI, Indiana, Chairwoman

RANDY NEUGEBAUER, Texas              JAMES P. McGOVERN, Massachusetts,  
GLENN THOMPSON, Pennsylvania         Ranking Minority Member
BOB GIBBS, Ohio                      MARCIA L. FUDGE, Ohio
ERIC A. ``RICK'' CRAWFORD, Arkansas  ALMA S. ADAMS, North Carolina
VICKY HARTZLER, Missouri             MICHELLE LUJAN GRISHAM, New Mexico
DAN BENISHEK, Michigan               PETE AGUILAR, California
RODNEY DAVIS, Illinois               STACEY E. PLASKETT, Virgin Islands
TED S. YOHO, Florida                 BRAD ASHFORD, Nebraska
DAVID ROUZER, North Carolina         SUZAN K. DelBENE, Washington
RALPH LEE ABRAHAM, Louisiana
JOHN R. MOOLENAAR, Michigan

                                  (ii)
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

          Subcommittee on Nutrition--Tuesday, January 12, 2016

Conaway, Hon. K. Michael, a Representative in Congress from 
  Texas, opening statement.......................................   553
DelBene, Hon. Suzan K., a Representative in Congress from 
  Washington; submitted letter on behalf of Katharine Ryan, 
  Policy and Research Manager, Food Lifeline.....................   599
Hartzler, Hon. Vicky, a Representative in Congress from Missouri; 
  submitted letter on behalf of Roger P. Allison, Vietnam Veteran 
  & Executive Director, Missouri Rural Crisis Center.............   597
Kirkpatrick, Hon. Ann, a Representative in Congress from Arizona; 
  submitted letter on behalf of Angie B. Rodgers, President and 
  Chief Executive Officer, Association of Arizona Food Banks.....   600
Lujan Grisham, Hon. Michelle, a Representative in Congress from 
  New Mexico; submitted letter on behalf of New Mexico 
  Association of Food Banks......................................   598
McGovern, Hon. James P., a Representative in Congress from 
  Massachusetts, opening statement...............................   552
Walorski, Hon. Jackie, a Representative in Congress from Indiana, 
  opening statement..............................................   549
    Prepared statement...........................................   551

                               Witnesses

Leibman, J.D., Abby J., President and Chief Executive Officer, 
  MAZON: A Jewish Response to Hunger, Los Angeles, CA............   554
    Prepared statement...........................................   555
Tebbens, Erika, Ballston Spa, NY.................................   558
    Prepared statement...........................................   560
Faris, Vinsen, Executive Director, Meals-on-Wheels of Johnson and 
  Ellis Counties in North Central Texas, Cleburne, TX............   562
    Prepared statement...........................................   563
Schneidewind, J.D., Eric J., President-elect, AARP, Washington, 
  D.C............................................................   568
    Prepared statement...........................................   570

                           Submitted Material

Aster, Kristen, Manager, Hunger Advocacy Network, submitted 
  statement......................................................   604
Bivens, Rodney, Executive Director, Regional Food Bank of 
  Oklahoma; Eileen Bradshaw, Executive Director, Community Food 
  Bank of Eastern Oklahoma, submitted letter.....................   606
Corina, Gina, Executive Director, Utahns Against Hunger, 
  submitted letter...............................................   607
Jacobs & Cushman San Diego Food Bank, submitted briefing.........   601
Shiffer, Cristin Orr, Senior Advisor for Policy and Survey, Blue 
  Star Families, submitted letter................................   608
Woodings, Karen, Advocacy Manager, Central Pennsylvania Food 
  Bank, submitted letter.........................................   609
Zimet, Hon. Susan, Executive Director, Hunger Action Network of 
  New York State, submitted statement............................   612
Loaves and Fishes, St. Stephen and the Incarnation Episcopal 
  Church, submitted letters on behalf of:
    Chamberlin, David, U.S. Army Veteran.........................   613
    Meier, Duane A., U.S. Army Korean War Veteran................   613
Food Bank of Alaska, submitted statement.........................   614

                Full Committee--Wednesday, March 2, 2016

Conaway, Hon. K. Michael, a Representative in Congress from 
  Texas, opening statement.......................................   615
    Prepared statement...........................................   616
Peterson, Hon. Collin C., a Representative in Congress from 
  Minnesota, opening statement...................................   617

                               Witnesses

Muth, Stephanie, Deputy Executive Commissioner, Office of Social 
  Services, Texas Health and Human Services Commission, Austin, 
  TX.............................................................   618
    Prepared statement...........................................   620
Dean, Stacy, Vice President for Food Assistance Policy, Center on 
  Budget and Policy Priorities, Washington, D.C..................   623
    Prepared statement...........................................   624
Cunnyngham, Karen, Senior Researcher, Mathematica Policy 
  Research, Washington, D.C......................................   643
    Prepared statement...........................................   644

                           Submitted Material

Wareing Evans, Tracy, Executive Director, American Public Human 
  Services Association, submitted letter.........................   685

                 Full Committee--Thursday, May 12, 2016

Conaway, Hon. K. Michael, a Representative in Congress from 
  Texas, opening statement.......................................   689
    Prepared statement...........................................   691
Peterson, Hon. Collin C., a Representative in Congress from 
  Minnesota, opening statement...................................   691

                               Witnesses

Hanna, Kathy, Senior Director Enterprise Payments and Store 
  Support, The Kroger Co., Cincinnati, OH; on behalf of Food 
  Marketing Institute............................................   693
    Prepared statement...........................................   694
Wright, Jimmy, Owner, Wright's Market, Opelika, AL; on behalf of 
  National Grocers Association...................................   705
    Prepared statement...........................................   706
Beech, J.D., Douglas M., Legal Counsel and Director of Government 
  Relations, Casey's General Stores, Inc., Ankeny, IA; on behalf 
  of National Association of Convenience Stores..................   709
    Prepared statement...........................................   710
Martincich, Carl, Vice President of Human Resources and 
  Government Affairs, Love's Travel Stops and Country Stores, 
  Oklahoma City, OK; on behalf of National Association of Truck 
  Stop Operators (NATSO) Representing America's Travel Plazas and 
  Truckstops.....................................................   714
    Prepared statement...........................................   715

                Full Committee--Wednesday, June 22, 2016

Adams, Hon. Alma S., a Representative in Congress from North 
  Carolina, prepared statement...................................   750
Conaway, Hon. K. Michael, a Representative in Congress from 
  Texas, opening statement.......................................   747
    Prepared statement...........................................   749
    Submitted statement on behalf of Pat Bebo, M.S., R.D.N., Ohio 
      State University Extension; on behalf of SNAP-Ed Program 
      Development Team, Land-grant University Cooperative 
      Extension..................................................   803
Peterson, Hon. Collin C., a Representative in Congress from 
  Minnesota, opening statement...................................   750

                               Witnesses

Wisdom, M.D., M.S., Kimberlydawn, Senior Vice President, 
  Community Health & Equity and Chief Wellness and Diversity 
  Officer, Henry Ford Health System, Detroit, MI.................   751
    Prepared statement...........................................   753
    Submitted question...........................................   821
Foerster, M.P.H., Susan B., Emeritus and Founding Member, 
  Association of SNAP Nutrition Education Administrators, 
  Carmichael, CA.................................................   757
    Prepared statement...........................................   759
    Supplementary material.......................................   809
Sharma, Ph.D., R.D., L.D., Shreela V., Associate Professor, 
  Division of Epidemiology, Human Genetics and Environmental 
  Sciences, University of Texas; Co-Founder, Brighter Bites, 
  Houston, TX....................................................   765
    Prepared statement...........................................   767
    Submitted question...........................................   822
Britt-Rankin, Ph.D., Jo, Associate Dean/Program Director, Human 
  Environmental Sciences Extension, University of Missouri, 
  Columbia, MO; on behalf of Extension Committee on Organization 
  and Policy.....................................................   770
    Prepared statement...........................................   771
    Submitted question...........................................   822

                           Submitted Material

Academy of Nutrition and Dietetics, submitted statement..........   818
Laurie M. Tisch Center for Food, Education & Policy, submitted 
  statement......................................................   820

                Full Committee--Wednesday, July 6, 2016

Conaway, Hon. K. Michael, a Representative in Congress from 
  Texas, opening statement.......................................   825
    Prepared statement...........................................   826
Peterson, Hon. Collin C., a Representative in Congress from 
  Minnesota, opening statement...................................   827

                               Witnesses

Shahin, Jessica, Associate Administrator for SNAP, Food and 
  Nutrition Service, U.S. Department of Agriculture, Washington, 
  D.C............................................................   828
    Prepared statement...........................................   829
    Supplementary material.......................................   915
Brown, Kay E., Director, Education, Workforce, and Income 
  Security, U.S. Government Accountability Office, Washington, 
  D.C............................................................   834
    Prepared statement...........................................   836
Yost, Hon. Dave, Auditor, State of Ohio, Columbus, OH............   859
    Prepared statement...........................................   861
    Supplementary material.......................................   916

                           Submitted Material

Wareing Evans, Tracy, Executive Director, American Public Human 
  Services Association, submitted letter.........................   917

    Subcommittee on Nutrition--Tuesday, Tuesday, September 13, 2016

McGovern, Hon. James P., a Representative in Congress from 
  Massachusetts, opening statement...............................   923
Walorski, Hon. Jackie, a Representative in Congress from Indiana, 
  opening statement..............................................   921
    Prepared statement...........................................   922

                               Witnesses

Stillman, J.D., David, Assistant Secretary, Economic Services 
  Administration, Washington Department of Social and Health 
  Services, Olympia, WA..........................................   925
    Prepared statement...........................................   927
Anderson, Jon, Deputy Director, Office of Family Independence, 
  Georgia Division of Family and Children Services, Atlanta, GA..   934
    Prepared statement...........................................   936
Weber, Peter, Founder, Fresno Bridge Academy, Fresno, CA; 
  accompanied by Kim McCoy Wade, J.D., CalFresh Branch Chief, 
  California Department of Social Services, Sacramento, CA.......   941
    Prepared statements:
        Weber, Peter.............................................   943
        McCoy Wade, J.D., Kim....................................   946

              Full Committee--Wednesday, November 16, 2016

Conaway, Hon. K. Michael, a Representative in Congress from 
  Texas, opening statement.......................................   969
    Prepared statement...........................................   972
McGovern, Hon. James P., a Representative in Congress from 
  Massachusetts, opening statement...............................   974
Peterson, Hon. Collin C., a Representative in Congress from 
  Minnesota, opening statement...................................   973
Walorski, Hon. Jackie, a Representative in Congress from Indiana, 
  opening statement..............................................   973

                               Witnesses

French, Eric, Director of Grocery, Amazon, Seattle, WA...........   976
    Prepared statement...........................................   977
    Submitted question...........................................  1065
Lovelace, Gunnar, Founder and Co-Chief Executive Officer, Thrive 
  Market, Marina del Ray, CA.....................................   979
    Prepared statement...........................................   981
Beal, J.D., Michael J., Vice President, Secretary, and Chief 
  Operating Officer, Balls Food Stores, Kansas City, KS; on 
  behalf of National Grocers Association.........................   983
    Prepared statement...........................................   985
Hess, Pamela, Executive Director, Arcadia Center for Sustainable 
  Food & Agriculture, Alexandria, VA.............................  1025
    Prepared statement...........................................  1027
Newport, M.S., R.D./L.D., Melinda R., Director, WIC and Child 
  Nutrition Programs, Chickasaw Nation Department of Health, Ada, 
  OK.............................................................  1031
    Prepared statement...........................................  1033

.              
                SUPPLEMENTAL NUTRITION ASSISTANCE PROGRAM
  (PAST, PRESENT, AND FUTURE OF SNAP: ADDRESSING SPECIAL POPULATIONS)

                              ----------                              


                       TUESDAY, JANUARY 12, 2016

                  House of Representatives,
                                 Subcommittee on Nutrition,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 1300 of the Longworth House Office Building, Hon. Jackie 
Walorski [Chairwoman of the Subcommittee] presiding.
    Members present: Representatives Walorski, Thompson, Gibbs, 
Crawford, Hartzler, Benishek, Davis, Yoho, Abraham, Conaway (ex 
officio), McGovern, Adams, Lujan Grisham, Plaskett, Ashford, 
DelBene, and Kirkpatrick.
    Staff present: Caleb Crosswhite, Jadi Chapman, Mary Nowak, 
Mollie Wilken, Scott C. Graves, Stephanie Addison, Faisal 
Siddiqui, John Konya, Lisa Shelton, Mary Knigge, Nicole Scott, 
and Carly Reedholm.

OPENING STATEMENT OF HON. JACKIE WALORSKI, A REPRESENTATIVE IN 
                     CONGRESS FROM INDIANA

    The Chairwoman. Welcome to today's Nutrition Subcommittee 
hearing. I want to thank everyone for taking the time to be 
here, and I want to thank, in particular, our witnesses for 
your participation. I also want to bring to your attention 
today's orange juice, compliments of Representative Ted Yoho of 
Florida.
    The Supplemental Nutrition Assistance Program, or SNAP, is 
by far the nation's largest Federal food assistance program. 
Last year, we began a review of the past, present, and future 
of SNAP, holding ten hearings at the full Committee and 
Subcommittee level. The review started from a broad 
perspective, but has narrowed in focus, examining such topics 
as the role of the charitable sector in fighting hunger, and 
the use of evidence-based solutions to measure outcomes.
    One of the last hearings of 2015, we examined the effect of 
hunger on children, how they can break the cycle of poverty. In 
our first hearing of 2016, we are picking up where we left off 
by looking at challenges facing special populations. Seniors, 
veterans, and active-duty military families each have unique 
needs. Speaking broadly, they are more vulnerable than many 
other populations to illnesses and physical and mental 
impairments that affect their ability to be fully independent.
    A simple trip to the grocery store may not be so simple if 
you have to maneuver a motorized wheelchair. Their ability to 
prepare food may be hampered by arthritis or an inability to 
stand for long periods of time. Climbing the economic ladder 
through work is not necessarily an available avenue to them. 
And yet under SNAP, they are treated under a one-size-fits-all 
model.
    Consider the makeup of the veteran population alone. As a 
Member of the Veterans Affairs Committee, I am well aware of 
the range of ages and abilities under this one umbrella. You 
have seniors who fought in World War II and Korea, baby boomers 
who served in Vietnam, and those who more recently returned 
home from Afghanistan and Iraq, and everyone in between. Some 
are in perfect health. Others face one or multiple diseases, or 
physical, or mental conditions, such as Alzheimer's, arthritis, 
PTSD, or traumatic brain injury. And as more women answer the 
call to serve our country, that means women will make up a 
greater proportion of the veteran population. Given the 
diversity in the makeup of this population, one size cannot 
possibly fit all.
    As for active duty military, the USDA has estimated there 
are between 2,000 and 20,000 military families signed up for 
SNAP. However, a quirk in the eligibility calculation adds a 
needless complication to a family's decision whether or not to 
live on the base. The housing provided to a family living on a 
base does not count toward SNAP eligibility, which lowers their 
income and increases the benefit. On the other hand, the 
allowance that a family receives to live off a base does count 
toward eligibility, which raises their income and decreases the 
benefit. There are plenty of pros and cons that a military 
family must weigh as they decide whether or not to live on the 
base, but that shouldn't be needlessly clouded by whether or 
not they get a higher benefit from SNAP.
    Finally, the ranks of seniors are set to swell as the baby 
boomer generation enters retirement and health advancements 
help people live longer. Seniors have the lowest rate of SNAP 
participation of any demographic the program serves, but they 
also have the lowest rate of food insecurity. A low rate of 
food insecurity, however, doesn't give license to overlook the 
many factors that contribute to hunger among seniors, including 
a fixed income, illness, healthcare costs, specialized diets, 
and access to transportation.
    Before I close, I want to reiterate a theme that has been 
consistent throughout this entire review process. SNAP does not 
operate in a vacuum. SNAP alone will not end hunger, food 
insecurity, or poverty. SNAP is a piece of the larger puzzle. 
Everyone; the Federal Government, state governments, not-for-
profits, the private-sector, researchers, and recipients 
themselves, have a role to play in lifting Americans out of 
poverty and up the economic ladder.
    Today we will hear from witnesses who can attest to 
challenges faced by each group, and potential ways to lower 
barriers. I thank each of our witnesses for being here and 
lending your expertise, and I look forward to hearing from you.
    [The prepared statement of Mrs. Walorski follows:]

    Prepared Statement of Hon. Jackie Walorski, a Representative in 
                         Congress from Indiana
    Good morning, happy New Year, and welcome to today's Nutrition 
Subcommittee hearing. I want to thank everyone for taking the time to 
be here and I want to thank, in particular, our witnesses for their 
participation.
    The Supplemental Nutrition Assistance Program, or SNAP, is by far 
the nation's largest Federal food assistance program. Last year, we 
began a review of the past, present, and future of SNAP, holding ten 
hearings at the full Committee and Subcommittee level.
    The review started from a broad perspective, but has narrowed in 
focus, examining such topics as the role of the charitable sector in 
fighting hunger and the use of evidence-based solutions to measure 
outcomes.
    One of the last hearings of 2015 examined the effect of hunger on 
children and how they can break the cycle of poverty. In our first 
hearing of 2016, we are picking up where we left off by looking at 
challenges facing special populations.
    Seniors, veterans, and active-duty military families each have 
unique needs. Speaking broadly, they are more vulnerable than other 
populations to illnesses and physical and mental impairments that 
affect their ability to be fully independent.
    A simple trip to the grocery store may not be so simple if they 
have to maneuver a motorized wheelchair. Their ability to prepare food 
may be hampered by arthritis or an inability to stand for long periods 
of time. Climbing the economic ladder through work is not necessarily 
an avenue available to them.
    And yet, under SNAP, they're treated under a one-size-fits-all 
model.
    Consider the makeup of the veteran population alone. As a Member of 
the Veterans Affairs Committee, I'm well aware of the range of ages and 
abilities under this one umbrella. You have seniors who fought in World 
War II and Korea, baby boomers who served in Vietnam, those who more 
recently returned from Afghanistan and Iraq, and everyone in between. 
Some are in perfect health. Others face one or multiple diseases, or 
physical, or mental conditions, such as Alzheimer's, arthritis, PTSD, 
or traumatic brain injury. And as more women answer the call to serve 
our country, which means women will make up a greater proportion of the 
veteran population. Given the diversity in the makeup of this 
population, one size cannot possibly fit all.
    As for active duty military, the USDA has estimated that there are 
between 2,000 and 20,000 military families signed up for SNAP. However, 
a quirk in the eligibility calculation adds a needless complication to 
a family's decision whether or not to live on the base. The housing 
provided to a family living on a base does not count toward SNAP 
eligibility, which lowers their income and increases the benefit. On 
the other hand, the allowance that a family receives to live off a base 
does count toward eligibility, which raises their income and decreases 
the benefit. There are plenty of pros and cons that a military family 
must weigh as they decide whether or not to live on the base, but that 
shouldn't be needlessly clouded by whether or not they get a higher 
SNAP benefit.
    Finally, the ranks of seniors are set to swell as the baby boomer 
generation enters retirement and health advancements help people live 
longer. Seniors have the lowest rate of SNAP participation of any 
demographic the program serves, but they also have the lowest rate of 
food insecurity. A low rate of food insecurity, however, doesn't give 
license to overlook the many factors that can contribute to hunger 
among seniors, including a fixed income, illness, health care costs, 
specialized diets, and access to transportation.
    Before I close, I want to reiterate a theme that has been 
consistent throughout this review: SNAP does not operate in a vacuum. 
SNAP alone will not end hunger, food insecurity, or poverty. SNAP is a 
piece of the larger puzzle. Everyone--the Federal Government, state 
governments, nonprofits and the private-sector, researchers, and 
recipients themselves--has a role to play in lifting Americans out of 
poverty and up the economic ladder.
    Today we'll hear from witnesses who can attest to challenges faced 
by each group and potential ways to lower barriers. I thank each of you 
again for being here and lending your expertise and I look forward to 
hearing from you.

    The Chairwoman. I would now like to recognize Ranking 
Member McGovern for his opening statement.

 OPENING STATEMENT OF HON. JAMES P. McGOVERN, A REPRESENTATIVE 
                 IN CONGRESS FROM MASSACHUSETTS

    Mr. McGovern. Well, thank you very much. And welcome to the 
witnesses here today.
    This is the tenth hearing on SNAP, and some have wondered 
to what end. Well, Speaker Ryan and Republican presidential 
candidates gave us the answer last Saturday at their so-called 
forum on poverty in South Carolina, and I have to say that I am 
deeply troubled.
    We have known for a long time that Speaker Ryan supports 
block-granting SNAP. We have seen it year after year in his 
budgets. But if that is where all of this is going, that is bad 
news for poor people, and it is bad news for the vulnerable 
populations that our witnesses here today represent.
    Proposals like Speaker Ryan's to block-grant SNAP would 
decimate one of the key features of the program; that it can 
quickly respond to an economic downturn, that when the 
breadwinner in a household loses his or her job, a family can 
quickly access SNAP to keep food on the table until they get 
back on their feet.
    After this last recession, there is good data emerging 
showing that SNAP worked as it was supposed to, and expanded to 
help more families who needed it. And now that our economy is 
recovering, SNAP caseloads are declining and will continue to 
decline as the economy continues to get better. Simply put, 
SNAP is working.
    The Temporary Assistance for Needy Families, or TANF, on 
the other hand, which was converted into a block-grant in the 
1990s, barely responded at all to the recession. In fact, we 
have seen and are seeing states shift TANF funds away from core 
antipoverty purposes, and instead using these funds to plug 
holes in other areas of their state budgets, leaving vulnerable 
families out of luck.
    The reality is that block-granting SNAP would be 
catastrophic for the program. Funding would be capped and 
states would either have to reduce the benefit, which we all 
know from the many hearings that we have held is already 
inadequate, or they would have to cut people off. Either way, 
it would make hunger worse. And we know what happened with 
TANF, that states wouldn't have to use their SNAP block-grant 
funding to actually feed people. States could use that money 
for just about whatever they choose.
    So we shouldn't change the entitlement structure of SNAP. 
Block-granting SNAP is a bad idea, period. It would make hunger 
worse in this country, and I urge my colleagues to think twice 
about going down the dangerous road of block-grants.
    Now, in terms of today's hearing, I see that the title is; 
Past, Present, and Future of SNAP: Addressing Special 
Populations. Today's witnesses are among the most distinguished 
experts on senior and veteran hunger, but I think that we are 
only scratching the surface on special populations receiving 
SNAP. We should also be talking about the disabled, Native 
Americans, ex-offenders, and ABAWDs, able-bodied adults without 
dependents. These are all groups that have unique and often 
complicated circumstances, and we should be focused on making 
sure that they have access to adequate food benefits. I hope 
these populations will not be forgotten. But bottom line, if 
all of his is about block-granting SNAP, or as Jeb Bush said, 
``eliminating the food stamp program,'' then I would just 
respectfully express to my Republican colleagues and the 
leadership here to be prepared for a fight. If we have any 
function in this Congress, it ought to be to making sure that 
the least among us are not forgotten or not invisible, and that 
we ought to be there to offer a helping hand.
    And again, I thank the witnesses, and look forward to 
hearing your testimony.
    The Chairwoman. Thank you, Mr. McGovern. I see the Chairman 
of the full Committee has joined us. The chair would now like 
to recognize Chairman Conaway for his statement.

OPENING STATEMENT OF HON. K. MICHAEL CONAWAY, A REPRESENTATIVE 
                     IN CONGRESS FROM TEXAS

    Mr. Conaway. Well, thanks, Chairwoman. I appreciate your 
holding this hearing.
    SNAP is a broad program. It is complicated. There are many 
facets to it. You can't brag on it or criticize it in a 30 
second sound-bite with any real granularity. And so unbundling 
the program to see its various parts and pieces, has great 
value, and that is kind of what we have been doing. And so 
bringing you here today to help us understand the impact that 
SNAP has on the populations that you are the most involved with 
is important for the Committee to help us understand. And this 
Committee has made no proposals in changing SNAP, in spite of 
the Ranking Member's comments to the contrary. And so we are 
trying to learn, trying to understand it, because I would be 
hard pressed to say any program in government is perfect and 
works perfectly for everyone. If it can't be improved, that is 
a pretty tall comment to make, and I don't think you can make 
that claim about anything. So helping us understand the direct 
impact that these programs have on alleviating issues that your 
populations face day in and day out, in addition to hunger, is 
appropriate and a good use of our time.
    So, Madam Chair, I appreciate you holding the hearing, and 
I yield back my time.
    The Chairwoman. Thank you, Mr. Chairman.
    The chair would request that other Members submit their 
opening statements for the record so the witnesses may begin 
their testimony, and to ensure there is ample time for 
questions. The chair would like to notify Members that they 
will be recognized for questioning in order of seniority for 
Members who were here at the start of the hearing. After that, 
Members will be recognized in order of arrival. I appreciate 
the Members' understanding.
    Witnesses are reminded to limit their oral statements to 5 
minutes. All of the written statements will be included in the 
record.
    I would like to welcome our witnesses to the table. Abby 
Leibman, President and CEO, MAZON, Los Angeles, California; 
Erika Tebbens, former military spouse; Vinsen Faris, Executive 
Director, Meals-on-Wheels of Johnson and Ellis Counties, 
Cleburne, Texas; Eric Schneidewind, President-elect, AARP, 
Lansing, Michigan.
    Ms. Leibman, please begin with your testimony when you are 
ready.

    STATEMENT OF ABBY J. LEIBMAN, J.D., PRESIDENT AND CHIEF 
  EXECUTIVE OFFICER, MAZON: A JEWISH RESPONSE TO HUNGER, LOS 
                          ANGELES, CA

    Ms. Leibman. Distinguished Members of the Subcommittee on 
Nutrition of the Committee on Agriculture, thank you for the 
opportunity to testify before you today.
    I am Abby Leibman, President and CEO of MAZON: A Jewish 
Response to Hunger, a national nonprofit organization working 
to end hunger among people of all faiths and backgrounds in the 
United States and Israel.
    In response to learning that a startling number of our 
partners were providing food assistance to a growing number of 
military families and veterans, MAZON's Board of Directors made 
these issues a core priority for our education and advocacy. 
After an exhaustive search for accurate data from government 
and private sources, we learned the following: First, we found 
that literally hundreds of thousands of veterans are 
experiencing food insecurity, without receiving assistance from 
SNAP and other available benefit programs. Food insecurity 
among veterans, old and young, is nearly double the prevalence 
of food insecurity and very-low food security for the general 
U.S. population. Second, we also uncovered serious indications 
of food insecurity among currently-serving members of the 
military.
    The causes: low pay among lower-ranking enlistees, high 
unemployment among troop spouses, larger household sizes, 
challenges around activation and deployment, and unexpected 
financial emergencies.
    How do we know this? In addition to reports from our 
colleagues operating food pantries, MAZON learned from a source 
at the Pentagon that there are food pantries operating on or 
near every single Naval and Marine base in the United States.
    There can be no denying that food insecurity among military 
families is real and a painful reality. The experiences that 
Erika Tebbens will share with you today provide insight into 
just what those realities look like.
    There are three important actions that we urge Congress to 
take now to begin to address this growing problem. Demand more 
data. Despite strong anecdotal evidence, food insecurity among 
military families is not adequately documented or monitored by 
government agencies. What data we have been able to secure are 
often contradictory, out-of-date, or simply incomprehensible. 
No one really knows the military and veteran population numbers 
for government nutrition programs, let alone the estimates for 
the true level of need in these populations. Accurate data is 
essential if our nation is to better understand the scope of 
food insecurity among military families, and allow us to find 
the gaps and provide meaningful solutions. But make no mistake, 
if even one military family goes without adequate nutritious 
food, this nation is not meeting its responsibility to those 
who serve our country. But, of course, data alone is not the 
answer. You must remove policy barriers. Federal policies are 
actually denying struggling military families the resources 
they need to prevent food insecurity.
    Including the basic allowance for housing as income when 
determining SNAP eligibility is not only inconsistent with its 
treatment by other Federal programs, it has made thousands of 
struggling families ineligible for vital SNAP benefits. In 
order to survive, they must turn to food pantries on and off 
military bases.
    The BAH is not included as income for the purposes of 
calculating income taxes and eligibility for WIC and Head 
Start. The BAH should be consistently excluded as income for 
the purposes of determining eligibility for all nutrition 
assistance programs. We urge agency collaboration. For 
veterans, this is not only essential; it is becoming a matter 
of life and death. A growing number of veterans, particularly 
disabled veterans, are caught in the middle of bureaucratic 
delays and Federal agency silos, unaware of, or unable to, 
access nutrition assistance benefits, despite their obvious 
need. For veterans awaiting a disability determination, delays 
and multiple appeals are commonplace and last for almost a year 
in some communities. During this time, these men and women are 
unable to access nutrition assistance benefits and literally 
have nothing to eat.
    What can we do? We can start by ensuring that the 
government agencies charged with their care actually 
communicate with each other. VA social workers can use a simple 
two-question food insecurity screening tool, and refer those 
who screen positive to resources that support access to 
adequate healthy food, including SNAP. But perhaps the best way 
to prevent hunger among veterans is to protect and strengthen 
the SNAP Program. Right now, an estimated 60,000 veterans face 
the loss of SNAP benefits because of the expiration of the time 
limit waiver for ABAWDs. Cuts to SNAP hurt millions of 
Americans, including military families and veterans. This 
reality of limited data, unfair policy barriers, and 
bureaucratic silos comes at a time when the need among military 
families and veterans has never been greater. It is up to you 
to make the changes that will make this reality less impactful 
on their food insecurity. If not now, when? If not you, then 
who?
    Thank you.
    [The prepared statement of Ms. Leibman follows:]

   Prepared Statement of Abby J. Leibman, J.D., President and Chief 
 Executive Officer, MAZON: A Jewish Response to Hunger, Los Angeles, CA
    Distinguished Members of the Subcommittee on Nutrition and 
Committee on Agriculture, thank you for the opportunity to testify 
before you today.
    I am Abby Leibman, President and CEO at MAZON: A Jewish Response to 
Hunger, a national nonprofit organization working to end hunger among 
people of all faiths and backgrounds in the U.S. and Israel. Founded in 
1985, MAZON partners with literally hundreds of food banks, pantries, 
and direct service agencies that provide for people who are hungry and 
advocate for other ways to end hunger and its causes. MAZON's Board of 
Directors has made hunger among military families a core priority for 
our education and advocacy efforts. MAZON has a strong interest in the 
development of sensible and compassionate food and nutrition policies 
for military and veterans families. It is on this topic that I would 
like to speak with you today.
    MAZON believes that those who make great personal sacrifices in 
service to our country should not have to struggle to provide regular, 
nutritious meals to their families.
    We first became concerned about this issue more than 4 years ago 
when our colleagues from the emergency food network shared concerns 
about the up-tick in the number of military families and veterans 
turning to them for food assistance.
    Across the country, service members were (and still are) showing up 
at food pantries, sometimes in uniform, looking for help in feeding 
their families. While many emergency food providers have responded by 
developing specific and innovative programs to assist food-insecure 
military families, most of these organizations are strapped by 
increasing demands for services in general and have limited capacity to 
address this population.
    MAZON was alarmed by these reports about struggling military 
families and veterans and determined to investigate the issue. We 
conducted an exhaustive search for accurate data from the Department of 
Defense, USDA, the Department of Veterans Affairs, Congress, and direct 
service providers. We found that hunger is experienced too often among 
veterans, especially those veterans having difficulty transitioning 
back to civilian life and the workforce, waiting extended periods of 
time for disability determinations, or struggling to make ends meet 
when their disability pay is low.
    For currently serving members of the military, food insecurity is 
triggered by a number of different circumstances, including low pay 
among lower ranking enlistees, high unemployment among military 
spouses, larger household sizes, challenges around activation and 
deployment, and unexpected financial emergencies. There is clear 
evidence of widespread reliance on food pantries and distribution 
programs on and near military bases; in fact, MAZON learned from a 
source at the Pentagon that there are food pantries operating on or 
near every single Naval and Marine base in the United States! There can 
be no denying that food insecurity among military families is a real 
and painful reality and that government safety net programs are not 
adequately meeting the needs of those who serve our country.
    There are three important actions that we urge Congress to take now 
to begin to address this growing problem:
    Demand more data--Despite strong anecdotal evidence, food 
insecurity among military families is not adequately documented or 
monitored by government agencies, and indeed the problem has long been 
obscured and ignored. Data are often withheld from the public or are 
excessively difficult to obtain. What data we have been able to secure 
are often contradictory, out of date or simply incomprehensible.
    For example, USDA's most recent data indicates that approximately 
2,000 active duty service members participate in the SNAP program. 
However, we believe the scope of the need is significantly larger than 
that number reflects. This figure only counts families that self-report 
as active duty military and is derived using a methodology that experts 
have deemed skewed to underreport the number of military families for 
multiple reasons. Indeed, according to the U.S. Census Bureau's 
American Community Survey, 19,455 active duty service members were 
estimated to receive SNAP in 2014. Similar data for WIC is not even 
available. So no one really knows the military and veteran 
participation numbers for these programs, let alone estimates for the 
true level of need in these populations.
    Blue Star Family's Military Family Lifestyle Survey offers a 
glimpse of the economic hardship and food insecurity challenges for 
active duty families, as well as some of the barriers that make it more 
difficult for them to get needed assistance. The 2015 survey reported 
more than 7% of responding active duty military and spouses faced food 
insecurity within the past year. Nearly 6% of respondents sought 
emergency food assistance through a food bank, pantry, or charitable 
organization, while only 2.4% participated in SNAP.
    A more complete understanding of the scope and characteristics of 
the growing problem of food insecurity among military families and 
veterans will enable DOD, USDA, the VA and Congress to better identify 
gaps in Federal food program usage and provide a meaningful response to 
the unique challenges confronting these vulnerable households.
    MAZON has sought out additional data to help in this effort by 
working with colleagues in the House Armed Services Committee to 
request a [Government] Accountability Office report to explore these 
issues. Having the House Agriculture Committee weigh in on the need for 
better government data and accountability, including guidance for the 
GAO report, will give greater urgency to the call for an effective 
response to this issue.
    However, I must underscore here that in our view, if even one 
military family goes without adequate and nutritious food, this nation 
is not meeting its responsibility to those who serve our country! Upon 
Senate passage of the FY16 NDAA bill, the Chairman of the House Armed 
Services Committee stated, ``It is critical for our troops to know that 
we can put politics aside to support them, their families, and their 
mission to protect our country.'' Sadly, when the problem of food 
insecurity among military families continues to go unscrutinized and 
unaddressed, such self-congratulatory rhetoric rings hollow.
    But data alone is clearly not the answer.
    Remove policy barriers now--Federal policies are denying currently 
serving military families who are struggling the resources they need to 
help keep them from experiencing food insecurity.
    Many lower ranking service members--especially those with multiple 
dependents who live off base or in privatized housing--are 
systematically made ineligible for SNAP because their housing allowance 
is counted as income. For these families, the best option available to 
them is to frequent food pantries on and off military bases.
    The Basic Allowance for Housing is excluded as income for the 
purposes of calculating income taxes and eligibility for some Federal 
programs, including WIC and Head Start. By the same token, we believe 
that the BAH should be consistently excluded as income for the purposes 
of determining eligibility for all nutrition assistance programs. The 
intent of the BAH is to provide housing for uniformed service members 
with minimal military overhead costs by relying on the civilian housing 
market. Yet treating the BAH benefit as income for determining 
eligibility for SNAP puts some military families at an unfair 
disadvantage and disqualifies them from receiving vital food 
assistance.
    MAZON strongly urges an immediate fix to this problem in a way that 
does not come at the expense of access for others or any funding for 
nutrition assistance programs. This is a simple and common sense policy 
change that should be immediately undertaken because it is the right 
thing to do and would rectify a past slight to military families. 
Though Members of Congress and Pentagon leaders recently expressed 
worry that current funding levels leave our armed forces at ``the lower 
ragged edge of readiness,'' similar concern has been notably absent for 
the struggling military families who honorably serve our country 
despite living on their own personal ``ragged edge.''
    MAZON has been working for several years with anti-hunger 
advocates, military service organizations, food banks and pantries, and 
champions on Capitol Hill to eliminate this unnecessary and harmful 
policy barrier. Legislation was introduced in 2015 in both the House 
and Senate that proposed excluding the BAH as income for the 
determination of nutrition assistance benefits. Sadly, these proposals 
were swiftly blocked and the problem of food insecurity for currently 
serving families remains.
    Surely we owe it to our military families to remove unfair barriers 
to access for needed benefits. Making this policy correction supports 
the national goal of mission readiness for our armed forces and also 
promotes fiscal responsibility as these families--particularly the 
children--experience improved health outcomes from higher levels of 
food security and better nutrition, which in turn yield reductions in 
long-term health care costs. The recent report about SNAP by the White 
House Council of Economic Advisers vividly demonstrates the important 
role of SNAP in reducing both poverty and food insecurity and documents 
the significant long-term impacts of SNAP for children in the areas of 
health, education, and economic self-sufficiency.
    Urge agency collaboration--A growing number of veterans--and 
particularly disabled veterans--are getting caught in the middle of 
bureaucratic delays and Federal agency silos, unaware of or unable to 
access nutrition assistance benefits despite their obvious need.
    Unacceptable portions of the veteran community, who used to get 
``three squares a day'' as soldiers, now do not know where their next 
meal will come from. It is estimated that over 300,000 elderly veterans 
are food-insecure and confront the same barriers faced by all seniors 
trying to access benefits--stigma, misinformation about potential 
eligibility, and a daunting application process. More recent vets face 
serious challenges as well. According to a 2012 University of Minnesota 
study of soldiers returning from the wars in Iraq and Afghanistan, one 
in four veterans report being food-insecure (27%), and 12% of those 
vets were classified as having very-low food security. These rates are 
nearly double the prevalence of food insecurity and very-low food 
security for the general U.S. population. In addition, we know that 
many veterans return from combat with disabilities that make it more 
difficult to maintain gainful employment and provide food for 
themselves and their families. Households with a disabled veteran are 
nearly twice as likely to be food-insecure as households that do not 
have someone with a disability. Ensuring that all veterans have access 
to adequate and nutritious food is critical, and providing such access 
to disabled veterans is the least this nation owes to its returning and 
injured soldiers.
    Unfortunately, this is a promise that is not always kept. Veterans 
who are awaiting a disability determination face enormous challenges in 
making claims through the VA's daunting claims process, where delays 
and multiple appeals are commonplace. During this waiting period, many 
veterans are unable, or limited in their ability, to access nutrition 
assistance benefits.
    For veterans applying for assistance or seeking medical care 
through VA facilities, USDA and the VA must do more to help these 
veterans navigate the application process and connect them to benefits 
and resources available to help them meet their basic needs. USDA could 
help the VA serve as a conduit for outreach and education about SNAP 
and proactively link vets to nutrition assistance through eligibility 
screenings and application assistance. Better coordination between USDA 
and the VA would go a long way in connecting disabled, aging, and 
struggling veterans with available nutrition assistance, contributing 
to better long-term health outcomes, lowering health care costs, and 
reducing unnecessarily high rates of poverty and homelessness in this 
population.
    A simple but highly effective intervention would involve VA social 
workers and health care professionals adopting as standard practice the 
utilization of a two-question food insecurity screening tool and then 
referring those who screen positive to resources that support access to 
adequate, healthy food, including SNAP. The recent adoption of a 
similar policy by the American Academy of Pediatrics provides an 
exciting precedent for an effective intervention that promises smart 
and cost-effective ways to help ensure that veterans don't come home to 
hunger.
    Perhaps the best way to prevent hunger among veterans is to protect 
and strengthen the SNAP program. It has been repeatedly demonstrated 
that SNAP effectively reduces food insecurity and poverty rates, 
contributes to savings in long-term health care costs, and positively 
impacts long-term health, education, and economic self-sufficiency 
outcomes. And yet, recent attempts to cut SNAP--including a proposal 
during the last farm bill process that put 170,000 veterans' benefits 
at risk--only exacerbate the problem of veteran hunger. And right now, 
an estimated 60,000 veterans face the loss of SNAP benefits because of 
the expiration of the time limit waiver for ABAWDs. Cuts to SNAP, in 
addition to causing harmful impacts on American families struggling to 
get by and get back on their feet, also hurt military families and 
veterans who receive critical assistance from the program.
Conclusion
    The unfortunate reality of what I have outlined today--of limited 
data, unfair policy barriers, and bureaucratic silos--comes at a time 
when the need among military families and veterans has never been 
greater.
    There has been a sad and ineffective response to military hunger 
issues in the past. When media stories about military families on SNAP 
circulated in the late 1990s, Congress was concerned about the optics 
of members of our military receiving food stamps. In order to get these 
families off of SNAP, Congress in 2000 created a parallel program--the 
Family Subsistence Supplemental Allowance (FSSA)--administered by the 
Department of Defense with an explicitly stated goal of removing 
military families from the SNAP rolls. This little-known and poorly 
administered DOD program did not work either to get military families 
off of SNAP, or more importantly, to adequately address the challenges 
of food insecurity that are faced by some military families. It was 
such a failure, in fact, that Congress recently voted in the 2016 NDAA 
bill to sunset the failed FSSA program domestically at the end of 2016. 
However, without any additional action taken, Congress has effectively 
abandoned the thousands of struggling military families who fall 
through the cracks of SNAP eligibility and turn instead to the 
emergency food system out of desperation. These families deserve more 
than failed policies and government indifference.
    Therefore MAZON: A Jewish Response to Hunger strongly urges 
Congress to take action now to effectively address the problems of 
military and veteran food insecurity that I have shared with you and 
that have been tragically ignored for far too long. The bipartisan-
appointed National Commission on Hunger, in its final report released 
just last week, made recommendations to address military food 
insecurity consistent with what I have outlined for you today. I hope 
that my testimony and the personal reflections shared by Erika Tebbens 
provide the necessary justification for expeditious Congressional 
action.
    The principle of leaving no one behind is deeply embedded in the 
ethos of the U.S. military. If Congress continues to ignore the problem 
of hunger among service members and veterans, we are surely leaving 
them behind and in the enemy hands of hunger and poverty.
    MAZON welcomes the opportunity to work with you to create lasting 
and meaningful change to meet the needs of our military and veteran 
families. Thank you.

    The Chairwoman. Thank you, Ms. Leibman.
    Ms. Tebbens, please proceed with your testimony.

          STATEMENT OF ERIKA TEBBENS, BALLSTON SPA, NY

    Ms. Tebbens. I would like to begin by thanking all of you 
for taking the time to hear my testimony, and for MAZON for 
working on this important issue and giving me this opportunity. 
Being able to speak on behalf of active duty military families 
who may be too afraid to speak out on this matter is a great 
honor, and I hope my story can help them.
    In 2003, my ex-husband, Colin, was assigned to his first 
Naval duty station as a culinary specialist at the Bremerton 
Naval Hospital in Washington. I was leaving my job as a high 
school teacher and a Master's Degree program, just two courses 
short of graduating. The job prospects in our new town were 
bleak, and I was constantly told that I was over qualified in 
interviews. I finally managed to secure employment in two 
positions; as a bank teller making $9 an hour, and as a baker 
at a diner making $10 an hour. I was working 35 to 40 hours a 
week, but still only making \1/2\ of my previous salary.
    Then in March 2004, I found out I was pregnant. A coworker 
mentioned the WIC Program to me. I had never heard of it, and I 
thought it absurd a military family would qualify for any type 
of assistance, especially because we weren't the lowest rank of 
enlisted personnel. Colin was an E4, which is quite good for 
someone with less than 2 years of service. When they told us 
our family qualified, they also told us that many military 
families are eligible but don't realize it. How could this be? 
I was quite embarrassed, but had to accept both the help and 
the disapproving glares when handing over my vouchers at the 
grocery store.
    All this time, I was continuing to apply for a job with 
better pay but continued to be deemed over qualified, and it 
didn't help that I was also very visibly pregnant.
    Our son, Jack, was born in November 2004. He had to be 
delivered via caesarian section, meaning I was not allowed to 
go back to work for 6 weeks. When I was medically cleared for 
work, I could only take shifts on Saturdays, when Colin could 
watch Jack. We had no family locally and could not afford 
childcare. This is when things got incredibly difficult. We 
went to the Navy Marine Corps Relief Society for advice, and 
their only recommendation was that we apply for a low interest 
credit card called Military Star. Taking on more debt did not 
seem like a reasonable solution.
    With a lot of shame and reluctance, I applied for SNAP 
benefits. When we were denied, I was devastated and confused. I 
felt like we were doing everything right but we were still 
stuck. I also didn't understand why we would qualify for one 
government food program but not another. My husband and I 
shared one used car, and had no cable or other amenities. We 
kept a vegetarian diet because we couldn't afford to buy meat. 
I exclusively breast-fed Jack until he was 6 months old too, 
which saved us the expense of formula. I was also forced to 
defer my student loan payments, but that only prolonged the 
debt.
    The stress that this financial burden caused was profound 
and constant, and was amplified by the stress of caring for a 
newborn. The problem was our basic allowance for housing, or 
BAH. In the SNAP application, BAH was being included as income, 
despite the fact that the WIC application specifically excludes 
it, and both programs fall under the USDA. When we moved there 
was no military housing available to us, so we were forced to 
rent an apartment. We intentionally chose an apartment where 
our BAH would cover both the rent and the utilities. BAH is 
calculated by the local cost of living, and varies greatly 
across duty stations. Since we lived in a high cost of living 
area, this inflated our gross income substantially. This is why 
we were denied essential SNAP benefits, and why many military 
families are also denied. On paper, it appears these families 
are economically stable, when in reality they might not earn 
enough to support their children.
    I feel it is an oversight as part of the application 
process because I could not imagine that legislators would ever 
consciously want members of the military and their families to 
be food-insecure.
    Thankfully, I found a great full-time job when Jack was 18 
months old, and we were able to leave the WIC Program. We 
haven't needed it since. We are lucky, but that doesn't change 
the fear, stress, and panic we felt during the first 18 months 
of my son's life.
    Being in a military family is challenging. We have to make 
so many sacrifices. Missed time with loved ones, not having a 
constant place to call home, job security for dependents, and 
so much more. One thing military families should never have to 
worry about is having enough food.
    I sincerely hope you will consider revisions to SNAP for 
military families because they deserve to be taken care of by 
the country they serve.
    Thank you for your time.
    [The prepared statement of Ms. Tebbens follows:]

         Prepared Statement of Erika Tebbens, Ballston Spa, NY
January 7, 2015

  Subcommittee on Nutrition,
  Committee on Agriculture,
  U.S. House of Representatives,
  Washington, D.C.

    To the Honorable Members of the Nutrition Subcommittee:

    When my son Jack was born, I was married to a Culinary Specialist 
at the Bremerton Naval Hospital in Washington. He was an E4, after 
enlisting as an E3, and we were proud of his solid ranking. I have a 
bachelor's degree, and before we moved I had nearly completed a 
Master's Degree in Secondary Education.
    I left a $30,000/year position as a teacher when we were assigned 
to the Kitsap Peninsula. The job prospects in our new town were bleak, 
and I was constantly told I was ``overqualified'' in interviews. I 
finally managed to secure only part-time employment in two positions--
as a bank teller and as a baker at a diner. I was working 35-40 hours a 
week but making \1/2\ my previous salary.
    When we found out I was pregnant we were barely making ends meet. 
Thankfully we were good cooks with plenty of knowledge about healthy 
eating. Even while sticking to affordable staples like beans and rice 
or vegetable soups, our grocery bill was awfully high. I struggled with 
having to choose between healthy, nutritious food and processed, cheap 
food.
    A coworker happened to mention the WIC program to me. I had never 
heard of it before. I was certain as a military family we wouldn't 
qualify, but I made an appointment at our local WIC office anyway. The 
office was in a private building in our town, not on the base. That 
meeting was quite enlightening. I learned that it's quite common for 
civilian OBGYNs to give information about the program to pregnant 
women. But I never heard it mentioned once in all my visits to the 
military hospital.
    The pre-screening process for the WIC program was fast and simple, 
and the women working there were knowledgeable and supportive. To my 
surprise, we qualified, and I learned that this is true as well for 
many military families.
    I used the WIC benefits while pregnant and continued to search for 
a better paying job, but just kept hearing that I was 
``overqualified.'' I also suspect no one was interested in hiring a 
woman who was very visibly pregnant.
    Our son Jack was born in November 2004. He had to be delivered via 
caesarean section, meaning I was not allowed to work for 6 weeks. Once 
I was medically cleared to return to work, I could only work shifts on 
Saturdays, when my husband wasn't working. There was simply no way we 
could afford childcare, and, like so many military families, we had no 
local support system.
    Our financial challenges with an infant mounted, and I ran out of 
solutions. I reluctantly applied for SNAP benefits and was denied. I 
felt confused, scared, and ultimately dumbfounded. How could we qualify 
for one government food assistance program, but not another? Why didn't 
we qualify for SNAP when we were struggling to put food on the table 
for our family?
    Although both the WIC and SNAP programs fall under the USDA, the 
WIC application specifically excludes additional military allowances, 
such as the housing allowance, as part of your monthly income. The SNAP 
program, in contrast, does require counting our Basic Allowance for 
Housing (BAH) as income when applying.
    Most people don't realize military families often acquire housing 
in a different way than their civilian counterparts. On the whole, our 
military subsidizes housing expenses for active-duty military families, 
whether you live on-base or off. If you reside in off-base or 
privatized military housing, the subsidy is determined by the cost of 
living in your area. But including the BAH as part of determining 
eligibility for government programs, which only happens if you live off 
base or in privatized housing, artificially inflates a family's gross 
income. So that's what happened to us.
    We were rejected because our housing allowance was included as part 
of our income, which made it seem like we were making more money than 
we were. I've since learned that this is a common reason why military 
families are denied access to SNAP benefits.
    We were left wondering how we were going to survive even while my 
husband went to work serving his country.
    After being denied for SNAP, I didn't know what else to do. There 
weren't any other options for our family. When we moved, there was a 
wait list for on-base military housing so we chose an apartment that 
was under our housing allowance in an attempt to make ends meet. We 
also shared one used car, and lived without cable or other amenities in 
an attempt to get by.
    We were making payments on my graduate school loans, which also 
weren't considered in benefit eligibility. As a responsible adult, I 
pay my bills. I wasn't going to just stop paying. For some time I had 
them deferred, but that was only a temporary solution.
    I breast-fed Jack exclusively until he was 6 months old, but the 
costs of having a child piled up. Diapers, wipes, and other necessities 
were a constant strain on our budget. We shopped the commissary, 
because it was cheaper, but our food bills were still more than we 
could afford. I remember putting groceries on the credit cards more 
times than I could count. There are few things more disheartening than 
worrying about where your next meal is going to come from.
    My life--and my son's life--are much better now. All debts from 
that time have been paid, and we are food-secure and living 
comfortably. I was able to leave the WIC program after I went back to 
work full-time when Jack was about 18 months old. We can now afford to 
give generously to various charities and donate to our local food 
pantries. For 4 years, I managed a local farm that accepted WIC and 
SNAP benefits. I lived the experience of stretching each dime, so when 
people shopped with my farm, I would go to great lengths to help them 
make the most of the meager benefits.
    Being in a military family is challenging in ways most people can 
never imagine. You make so many sacrifices: missed time with loved 
ones; not having a constant place to call ``home;'' job security for 
dependents; and so much more. I don't ever want another military family 
to worry about food the way we did.
    If we had been of a lower rank, I honestly don't know how we would 
have survived. No military family should have to experience the fear 
and shame of being food-insecure, but we should also be giving them the 
resources and information to get help.
    I hope that these reflections from my personal experiences, and the 
other stories that follow collected by MAZON: A Jewish Response to 
Hunger,* help you to better understand the particular challenges of 
food insecurity faced by too many of our military families.
---------------------------------------------------------------------------
    * Editor's note: the referenced ``collection of stories'' was not 
included with the submitted testimony.
---------------------------------------------------------------------------
            Sincerely,
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
            
Erika Tebbens.

    The Chairwoman. Thank you, Ms. Tebbens.
    Mr. Faris, please proceed.

STATEMENT OF VINSEN FARIS, EXECUTIVE DIRECTOR, MEALS-ON-WHEELS 
OF JOHNSON AND ELLIS COUNTIES IN NORTH CENTRAL TEXAS, CLEBURNE, 
                               TX

    Mr. Faris. Madam Chair, distinguished Members of the 
Subcommittee, thank you for the opportunity to be here with you 
today.
    In addition to leading Meals-on-Wheels of Johnson and Ellis 
Counties, I also have the honor of serving as the immediate 
past Board Chair of Meals-on-Wheels America. All told, there 
are more than 5,000 Meals-on-Wheels senior nutrition programs 
throughout our country, all unified in a mission to support our 
communities' most vulnerable seniors to live safely, 
healthfully, and independently in their own homes. Today we are 
challenged like never before in addressing the growing needs of 
a rapidly aging population that is increasingly struggling with 
hunger, and paying for basic living needs like rent, utilities, 
and prescriptions.
    Take Emily, for example, whose story is similar to the 
thousands of seniors in your states and districts who are 
significantly at risk of hunger and isolation. Emily is 92, a 
retired nurse who worked for 40+ years, and receives about $850 
a month in Social Security benefits. She suffers from severe 
osteoporosis and is physically unable to leave her home to go 
to a grocery store or stand to cook and prepare her own meals. 
Emily relies on a Meals-on-Wheels volunteer to bring her a 
nourishing hot meal every day. This friendly visit and personal 
connection is the only human contact Emily may regularly have.
    Like most Meals-on-Wheels clients, the nutritious meals 
Emily receives help her to maintain her independence, to live 
in her own home, and to avoid unnecessary trips to the 
hospital. Meals-on-Wheels offers her a lifeline that is a much-
preferred, economical, and commonsense alternative to other 
long-term care options.
    As you know, the consequences of hunger and food insecurity 
are both socially and economically profound. For seniors, even 
a slight reduction in nutritional intake can exacerbate 
existing health conditions, accelerate physical impairment, 
impede recovery from illness, injury, or surgery, and increase 
the risk of chronic disease. Today, one in six seniors 
struggles with hunger, and those experiencing very-low food 
security has increased 63 percent between the start of the 
recession in 2007 and 2013. Findings from a recent study showed 
that seniors on Meals-on-Wheals' waiting list are among our 
nation's most at-risk and vulnerable populations. Specifically, 
these seniors are more likely to report poorer health, higher 
rates of anxiety and depression, and fall more frequently. 
Eighty-seven percent of these at-risk seniors required 
assistance with grocery shopping.
    It is imperative that proven and effective programs 
designed to meet the nutritional and social needs of special 
populations such as seniors like Emily be further strengthened. 
Any legislative and policy changes should enhance nutritional 
access and assure individual safety, security, health, and 
well-being. We can either invest a modest amount in proper 
nutrition for our seniors now, or spend significantly more on 
the adverse consequences that will increase healthcare costs 
later.
    Accordingly, we urge consideration of the following: First, 
protect and support SNAP. On average, seniors on SNAP receive 
only $129 a month. However, it can mean the difference between 
having to choose between meals or prescriptions. SNAP must be 
supported and recognized as a critical pillar to reducing 
senior hunger.
    Second, reauthorize and support the Older Americans Act. 
The Act has been the primary piece of Federal legislation 
supporting social and nutrition services for older Americans 
since 1965. Despite the Act's longstanding bipartisan, 
bicameral support, it has been unauthorized since 2011, and 
remains woefully under-funded.
    Third, modify Medicare and Medicaid to meet the nutritional 
needs of our most vulnerable. It is notable that a senior can 
receive Meals-on-Wheels for an entire year for about the same 
cost of 1 day in the hospital, or 1 week in a nursing home. 
Accordingly, we recommend that Medicare and Medicaid plans 
include coverage for home-delivered meals prepared and 
delivered by private, nonprofits, with physician 
recommendations.
    The time to act is now, especially given the magnitude of 
the senior hunger problem, coupled with our rapidly aging 
population. The good news is that the infrastructure already 
exists to meet these challenges through successful programs 
administered by USDA and HHS. Working together to ensure that 
no senior in need struggles with hunger and isolation is an 
investment in our nation's fiscal future, and it is also a 
preventative prescription for significantly reducing Medicare 
and Medicaid expenses. This is an issue that is not only within 
our reach to solve, but it is also the right thing to do for 
all of the Emilys in our communities.
    Thank you.
    [The prepared statement of Mr. Faris follows:]

Prepared Statement of Vinsen Faris, Executive Director, Meals-on-Wheels 
   of Johnson and Ellis Counties in North Central Texas, Cleburne, TX
    Chairman Conaway, Chairwoman Walorski, Ranking Member Peterson, 
Ranking Member McGovern and distinguished Members of the Subcommittee--
good morning. Thank you for the opportunity to testify before you today 
at this important hearing. I am Vinsen Faris, Executive Director of 
Meals-on-Wheels of Johnson and Ellis Counties, located immediately 
south of Dallas--Fort Worth in Cleburne, Texas.
    As well as having the privileged responsibility of delivering more 
than 1,200 nutritious meals to needy homebound seniors in our 1,700+ 
mile\2\ area each day, I also have the honor of serving as the 
Immediate Past Chair of the Board of Meals-on-Wheels America. Meals-on-
Wheels America is the oldest and largest national organization 
comprised of and representing community-based senior nutrition programs 
that are dedicated to addressing senior hunger and isolation in every 
state. By providing leadership, research, education and training, 
grants, and advocacy support, Meals-on-Wheels America helps to empower 
community programs, just like Meals-on-Wheels of Johnson and Ellis 
Counties, to improve the health and quality of life of the seniors they 
serve.
    All told, there are more than 5,000 Meals-on-Wheels programs--both 
congregate and home-delivered--in communities across the country that 
are delivering vital social and nutrition services to seniors 60 years 
of age or older. These programs are big and small, rural, suburban and 
urban, and serve nutritious meals in both the home, where one's 
mobility is limited, and/or in congregate settings, such as senior 
centers; delivering a total of roughly one million meals daily.\1\ 
While each program is certainly unique in regard to its daily 
operations, we are unified in our mission to support our communities' 
most vulnerable seniors to live safely, healthfully and independently 
in their own homes for as long as they wish. We also share the same 
challenges in addressing the growing needs of a rapidly aging 
population that is increasingly struggling with hunger and paying for 
basic living needs, like rent, utilities and prescriptions.
---------------------------------------------------------------------------
    \1\ Administration for Community Living. Data Source: AGID State 
Profiles. Retrieved from www.agid.acl.gov.
---------------------------------------------------------------------------
    Take Emily, for example, one of the over 2,800 clients we serve in 
Johnson and Ellis Counties, whose story is similar to the thousands of 
seniors in your states and districts who are significantly at risk of 
hunger and isolation and rely on Meals-on-Wheels to be able to live at 
home. Emily is 92, a retired nurse who worked for 40 years in Johnson 
County, raised her family there, and brings in about $850.00 a month in 
Social Security benefits. She suffers from severe osteoporosis and is 
physically unable to leave her home to go to a grocery store to 
purchase food or to cook or prepare her own meals. Instead, she relies 
on a Meals-on-Wheels volunteer to bring her a nourishing hot meal every 
day--her primary source of food. This friendly visit and personal 
connection is the only human contact Emily will have each day.
    Like most Meals-on-Wheels clients, the nutritious meals Emily 
receives help her to maintain her independence, to live in her own 
home, which she prefers, and to avoid unnecessary trips to the hospital 
or premature placement in a nursing home, often paid for through 
Medicare and/or Medicaid. According to the 2013 National Survey of 
Older Americans Act Participants, 92% of Meals-on-Wheels recipients 
reported that the meals enabled them to continue living at home, and 
83% said that eating the meals improved their health.\2\ For Emily, 
Meals-on-Wheels offers a lifeline that is a much preferred, economical 
and common sense alternative to other long-term care options.
---------------------------------------------------------------------------
    \2\ Administration for Community Living. Data Source: AGID National 
Survey of OAA Participants. Retrieved from www.agid.acl.gov.
---------------------------------------------------------------------------
    At no other time in our history, however, has the issue of senior 
hunger been at a more critical level. Regardless of what statistic you 
see, it is undeniable that the problem is grave, growing and expensive. 
Today, 9.6 million seniors \3\--or one in six--may not know from where 
their next meal will come. All the more concerning to this Subcommittee 
is the fact that the number of seniors 60+ experiencing ``very-low food 
security''--or ``hunger,'' as the National Commission on Hunger just 
expressed in their report released last week--has increased 63% between 
the start of the recession in 2007 to 2013.\4\
---------------------------------------------------------------------------
    \3\ Ziliak, J., & Gunderson, C. (2015, April). The State of Senior 
Hunger in America 2013: An Annual Report. Retrieved from www.nfesh.org/
wp-content/uploads/2015/04/State-of-Senior-Hunger-in-America-2013.pdf.
    \4\ Ziliak, J., & Gunderson, C. (2015, April). Supplement--The 
State of Senior Hunger in America 2013: An Annual Report. Retrieved 
from www.nfesh.org/wp-content/uploads/2015/04/NFESH_2015_Report-
_Supplement_032515.pdf.
---------------------------------------------------------------------------
    As you know, the consequences of hunger and food insecurity are 
both socially and economically profound. For seniors, however, even a 
slight reduction in nutritional intake can exacerbate existing health 
conditions, accelerate physical impairment, impede recovery from 
illness, injury and surgery, and increase the risk of chronic 
disease(s). The Causes, Consequences, and Future of Senior Hunger in 
America (http://www.mowaa.org/document.doc?id=13)--the first ever 
assessment of the state of senior hunger in America released in 2008--
found that a senior facing the threat of hunger has the same chance of 
much more severe activities of daily living (ADL) limitations as 
someone 14 years older.\5\ This means there is a large disparity 
between a senior's actual chronological age and his or her ``physical'' 
age, such that a 67 year old senior struggling with hunger is likely to 
have the ADL limitations of an 81 year old.
---------------------------------------------------------------------------
    \5\ Ziliak, J., & Gunderson, C. (2008, March). The Causes, 
Consequences, and Future of Senior Hunger in America. Retrieved from 
www.mowaa.org/document.doc?id=13.
---------------------------------------------------------------------------
    Furthermore, findings from a 2015 study entitled More Than a Meal 
(http://www.mealsonwheelsamerica.org/theissue/facts-resources/more-
than-a-meal)--commissioned by Meals-on-Wheels America, underwritten by 
AARP Foundation and conducted by Brown University--showed that seniors 
on Meals-on-Wheels waiting lists are among our nation's most at-risk 
populations when compared to a national representative sample of aging 
Americans. Specifically, the seniors included in the study were 
significantly more likely to:

  <bullet> Report poorer self-rated health (71% vs. 26%).

  <bullet> Screen positive for depression (28% vs. 14%) and anxiety 
        (31% vs. 16%).

  <bullet> Report recent falls (27% vs. 10%) and fear of falling that 
        limited their ability to stay active (79% vs. 42%).

  <bullet> Require assistance with shopping for groceries (87% vs. 23%) 
        and preparing food (69% vs. 20%).

  <bullet> Have health and/or safety hazards both inside and outside 
        the home (i.e., higher rates of tripping hazards, (24% vs. 
        10%), and home construction hazards, (13% vs. 7%).\6\
---------------------------------------------------------------------------
    \6\ Thomas, K., & Dosa, D. (2015, March). More Than a Meal. 
Retrieved from: www.mealsonwheelsamerica.org/MTAM.

    In light of the immense vulnerability and array of health and 
mobility challenges our nation's seniors face, coupled with the high-
cost, high-risk factors they pose to our healthcare system, it is 
imperative that proven and effective programs designed to meet their 
nutritional and social needs are further strengthened. And at the same 
time, it is important to recognize that there is not a one-size-fits-
all solution to the problem of senior hunger. The fact is that there is 
a wide continuum of need and a variety of federally supported nutrition 
programs targeted to meet vulnerable populations along that spectrum 
and promote health and well-being. For those seniors who are most 
mobile and may struggle with hunger primarily as a result of limited 
income and access to affordable foods, the Supplemental Nutrition 
Assistance Program (SNAP) may serve as the best intervention. In 
contrast, for those seniors who are hungry as a result of mobility and 
health challenges and are physically unable to cook or prepare meals, 
Meals-on-Wheels may serve as the best intervention. In other cases, it 
may be a combination of Federal and local programs working together to 
address hunger in the community. Illustrated below is a chart that 
Meals-on-Wheels America and Feeding America created jointly to showcase 
the senior hunger continuum and the programs that exist to help support 
them.\7\
---------------------------------------------------------------------------
    \7\ Feeding America & Meals-on-Wheels America. (2015, March). 
Senior Hunger: A National Crisis and a Collaborative Response. 
Retrieved from: http://www.mealsonwheelsamerica.org/docs/default-
source/membership/resources-tools/advocacy/
fa_mowa_seniorhunger.pdf?sfvrsn=2.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    As Congress considers modifications to the Federal nutrition safety 
net to support the vulnerable populations we are discussing today, it 
is imperative that their unique nutritional and social needs be at the 
forefront of the process. Any legislative and policy changes should not 
only enhance nutritional access, but should also assure individual 
safety, security and health and well-being today and into the future. 
We can either invest a modest amount in proper nutrition for our 
seniors now, or spend significantly more on the adverse consequences 
that will develop in healthcare costs later.
    We must continue to build on the progress being made to ensure that 
seniors eligible for SNAP are able to access and utilize the support 
available to maintain their health and quality of life. We must also 
ensure that proposals, such as the SNAP grocery-delivery pilot, are 
carefully tested and implemented and that the Commodity Supplemental 
Food Program (CSFP), which provides monthly food packages from USDA 
commodities, is funded to not only maintain the current caseloads but 
to enable nationwide expansion. Currently, CSFP only operates in 46 
states, the District of Columbia and two Indian reservations.
    While notable progress is being made to ``close the senior SNAP 
gap''--the gap between those eligible for the program and those who 
participate--gaps continue to widen between the number of seniors 
struggling with hunger and those receiving nutritious meals through the 
Older Americans Act (OAA) as the funding for these successful and 
effective programs have neither kept pace with inflation nor demand. 
The consequences are acute, such as adding even more seniors onto 
waiting lists, reducing Meals-on-Wheels services and days of operation, 
and in some cases, forcing them to close their doors altogether. A 
Government Accountability Office report released last summer found that 
about 83% of food-insecure seniors and 83% of physically impaired 
seniors did not receive meals [through the OAA], but likely need 
them.\8\ Currently, the Meals-on-Wheels network overall is serving 21 
million fewer meals annually to seniors than we were a decade ago in 
2005 \9\ due to declining Federal and state grants; stagnant private 
funding; and rising food and transportation costs. This slippery slope 
is concerning and, at a minimum, we must stave off this continuous 
decline not only for the health of our seniors, but for the health of 
our nation as a whole.
---------------------------------------------------------------------------
    \8\ U.S. Government Accountability Office. Older Americans Act: 
Updated Information on Unmet Need for Services. Retrieved from 
www.gao.gov/assets/680/670738.pdf.
    \9\ Administration for Community Living. Data Source: AGID State 
Profiles, and the National Survey of OAA Participants. Retrieved from 
www.agid.acl.gov.
---------------------------------------------------------------------------
    This Subcommittee, Committee and Congress are best positioned to 
further support and strengthen proven and effective programs serving 
our most vulnerable seniors and to adopt legislation favoring the 
bipartisan recommendations outlined in the National Commission on 
Hunger's just-released report, Freedom From Hunger: An Achievable Goal 
for the United States of America (https://hungercommission.rti.org/). 
The Meals-on-Wheels network commends the Commission for acknowledging 
the evidence that our programs improve the health and quality of life 
for America's most vulnerable older citizens; and for offering two 
recommendations to improve nutrition assistance options for people who 
are disabled or medically at risk. Accordingly, we urge Members of the 
Committee to consider the following policy priorities, and to commit to 
cross-Committee collaboration, when such recommendations may be outside 
of this Committee's jurisdiction:
1. Protect and Support Nutritional Access for Seniors via the 
        Supplemental Nutrition Assistance Program (SNAP)
    SNAP is our nation's largest Federal nutrition program, targeting 
households at or below 130% of the Federal poverty line, or an annual 
income of $15,180 for a senior living alone.\10\ However, only about 
40% of eligible seniors are enrolled in SNAP \11\ due to a variety of 
factors including stigma, misconceptions about the application process, 
and mobility or access issues, among others. On average, seniors on 
SNAP access only $129 a month,\12\ however, it can mean the difference 
between having to choose between meals or prescriptions. We urge 
Congress to work with the U.S. Department of Agriculture to:
---------------------------------------------------------------------------
    \10\ United States Department of Agriculture. FY 2015 Income 
Eligibility Standards. Retrieved from www.fns.usda.gov/sites/default/
files/FY15_Income_Standards.pdf.
    \11\ United States Department of Agriculture. Trends in 
Supplemental Nutrition Assistance Program Participation Rates: Fiscal 
Year 2010 to Fiscal Year 2013. Retrieved from www.fns.usda.gov/sites/
default/files/ops/Trends2010-2013.pdf.
    \12\ United States Department of Agriculture. Characteristics of 
Supplemental Nutrition Assistance Program Participation Rates: Fiscal 
Year 2014. Retrieved from http://www.fns.usda.gov/sites/default/files/
ops/Characteristics2014.pdf.

---------------------------------------------------------------------------
  <bullet> Ensure SNAP benefits are adequate.

  <bullet> Support SNAP outreach and promote and disseminate state-
        level best practices for improving senior SNAP participation, 
        such as simplified applications and screening in senior 
        centers.

  <bullet> Recognize the statute allowing states' eligibility for 
        surplus or ``bonus'' commodities through the OAA-authorized 
        Nutrition Services Incentive Program.

  <bullet> Maximize voluntary contributions for home-delivered meals 
        via SNAP, as has been allowed under the law since 1971, by 
        supporting mobile point of sale devices for senior nutrition 
        programs; similar to pilot tests that have occurred in farmers' 
        markets.

  <bullet> Analyze food security rates for all ``elderly,'' not just 
        ``elderly living alone'' or ``households with elderly,'' in the 
        annual Food Security Report.

  <bullet> Define elderly as ``60 and older'' for the annual Food 
        Security Report, not 65 and older, which is consistent with 
        other USDA nutrition program definitions for ``elderly''.
2. Fund, Reauthorize and Protect the Older Americans Act (OAA)
    The OAA has been the primary piece of Federal legislation 
supporting social and nutrition services to Americans age 60 and older 
since 1965. In 2013, the last year for which data exists, the OAA 
enabled more than 219 million meals to be provided to 2.4 million 
seniors.\13\ Despite the OAA's longstanding bipartisan, bicameral 
support, it has been unauthorized since 2011 and remains woefully 
under-funded. As such, we urge Congress to:
---------------------------------------------------------------------------
    \13\ Administration for Community Living. Data Source: AGID State 
Profiles, and the National Survey of OAA Participants. Retrieved from 
www.agid.acl.gov.

  <bullet> Pass S. 192, the Older Americans Reauthorization Act of 
        2015. The Senate unanimously adopted, S. 192, the Older 
---------------------------------------------------------------------------
        Americans Act Reauthorization Act of 2015 in July of last year.

  <bullet> Provide increased funding for OAA Nutrition Programs 
        (Congregate, Home-Delivered and Nutrition Services Incentive 
        Program) in FY 2017. We thank Congress for including a $20+ 
        million increase in the recently passed Consolidated 
        Appropriations Act.

  <bullet> End sequestration for FY 2018 and beyond and replace it with 
        a balanced plan. OAA programs were hit hard by the unnecessary 
        and harsh cuts in 2013 and are still recovering.
3. Modify Medicare and Medicaid to Meet the Nutritional Needs of Our 
        Most Vulnerable Seniors
    As described above, the health consequences of inadequate nutrition 
are particularly severe for seniors. Proper nutrition, on the other 
hand, averts unnecessary visits to the emergency room, reduces falls, 
admissions and readmissions to hospitals, saving billions in Medicare 
and Medicaid expenses. It is notable that a senior can receive Meals-
on-Wheels for an entire year for about the same cost of one day in the 
hospital or one week in a nursing home.\14\ Accordingly, we recommend 
the following:
---------------------------------------------------------------------------
    \14\ Meals-on-Wheels America. United States Fact Sheet (2015, 
March). Retrieved from www.mealsonwheelsamerica.org/docs/default-
source/fact-sheets/senior-fact-sheet-national.pdf?sfvrsn=2.

  <bullet> Expand Medicare managed care plans to include coverage for 
        home-delivered meals prepared and delivered by a private 
---------------------------------------------------------------------------
        nonprofit for seniors with physician recommendation.

  <bullet> Expand Medicaid managed care plans to include coverage, with 
        a physician recommendation, for home-delivered meals prepared 
        and delivered by a private nonprofit for individuals who are 
        too young for Medicare, but who are at serious medical risk or 
        have a disability.

  <bullet> Allow doctors to write billable Medicare and Medicaid 
        ``prescriptions'' for nutritious and medically-appropriate 
        meals prepared and delivered by a private nonprofit for 
        individuals prior to being discharged from a hospital. Seniors 
        receiving short-term nutrition interventions post-hospital 
        discharge, ranging from a daily hot meal to a combination of 
        different meal types (i.e., lunch, dinner, snack, hot or frozen 
        meals), has resulted in readmission rates of 6-7% as compared 
        to national 30 day readmission rates of 15-34%.\15\
---------------------------------------------------------------------------
    \15\ Meals-on-Wheels America. (2016, January). Comments on Proposed 
Discharge Planning Rule for Hospitals, Critical Access Hospitals, and 
Home Health Agencies (80 Fed. Reg. 68126).

    The time to act is now, especially given the magnitude of the 
senior hunger problem coupled with continued demographic shifts 
resulting in a rapidly aging population. The good news is that the 
infrastructure already exists to meet vulnerable, food-insecure seniors 
across a continuum of need, through successful programs currently 
administered through USDA and the Department of Health and Human 
Services if properly resourced. These programs support the most mobile 
seniors, who are able to shop for and/or prepare their own meals, to 
those who with a little assistance can socialize, exercise and eat 
nutritious meals together in congregate or group settings, to the least 
mobile, who are homebound and depend on that daily nutritious meal, 
friendly visit and safety check--that more than a meal service--from 
their local Meals-on-Wheels program to enable them to remain 
independent in their own homes. Working together to ensure that no 
senior in need struggles with hunger and isolation is not only an 
investment in our nation's fiscal future, but it is also a preventative 
prescription for significantly reducing Medicare and Medicaid expenses.
    Again, I want to sincerely thank the entire Subcommittee for your 
commitment to finding solutions to end hunger in America and the 
opportunity to testify before you. This is an issue that is not only 
within our reach to solve, but is also a moral, social and economic 
imperative. I hope my testimony has been both compelling and 
insightful, and I look forward to answering any questions you might 
have.

    The Chairwoman. Thank you, Mr. Faris.
    And Mr. Schneidewind, please proceed with your testimony.

STATEMENT OF ERIC J. SCHNEIDEWIND, J.D., PRESIDENT-ELECT, AARP, 
                        WASHINGTON, D.C.

    Mr. Schneidewind. Chairman Conaway, Subcommittee Chairman 
Walorski, Ranking Member McGovern, and Members of the 
Subcommittee, thank you for holding today's hearing on SNAP, 
and for inviting AARP to speak about the program's positive 
impact on older Americans.
    My name is Eric Schneidewind, and I am the AARP President-
elect.
    SNAP is a critical part of the nutrition safety net 
available to low-income families and people in need, including 
the elderly and people with disabilities. It is exceptionally 
effective and efficient at reducing food insecurity. Program 
performance is better than it ever has been, with over 99 
percent of participating households meeting all the program's 
eligibility requirements in Fiscal Year 2014.
    Along with helping low-income persons eat healthier, more 
nutritious food, SNAP also helps stimulate the economy up to $9 
for every $5 in SNAP benefits spent; an economic effect that 
was part of the program's design.
    While SNAP is at the cornerstone of all public food 
assistance, other programs under the Subcommittee's 
jurisdiction also address senior hunger in tandem with the vast 
private charitable network that assists seniors every day. 
Programs such as the Commodities Supplemental Food Program, the 
Emergency Food Assistance Program, the Senior Farmers' Market 
Nutrition Program, as well as home-delivered and congregate 
meals authorized under Title III of the Older Americans Act, 
serve millions of seniors. But there is no replacement for SNAP 
when it comes to fighting hunger in all population groups, and 
older Americans are no exception.
    I would like to take a moment to recognize Lisa Marsh 
Ryerson, President of AARP Foundation, a charitable affiliate 
of AARP, and to thank her for being here today.
    According to Foundation research, the younger segment of 
older Americans is often at deeper risk for food insecurity 
than their older counterparts. Even if they have specialized 
needs or limitations, they might not qualify for other 
nutrition assistance programs geared toward older Americans. 
However, low-income seniors face problems that their younger 
counterparts do not; namely, reduced ability to re-enter the 
workforce, fixed incomes and retirement, and significantly 
higher medical costs.
    Seniors struggling with food security were over twice as 
likely to report being in poor health. Health care for someone 
over 65 costs three to five times what it costs for younger 
people. And researchers have recently discovered that severely 
food-insecure individuals required an average of $4,000 in 
care, compared to $2,806 for moderately food-insecure 
individuals, and only $1,608 for food-secure individuals. As 
the senior population grows, food security issues will continue 
to pressure the public and private healthcare system.
    For many seniors, food security can mean better management 
of a range of chronic diseases. Given the costs of chronic 
disease management to the healthcare system, and particularly 
programs such as Medicare and Medicaid, we believe that there 
is a strong incentive for policymakers to look at hunger as a 
health issue. It can be key to bending the cost curve, 
especially for seniors.
    SNAP benefits help recipients afford other necessities such 
as housing and utility expenses. There may also be a positive 
effect on other health-related problems associated with food 
insecurity, such as postponing needed medical care, delaying or 
not taking prescribed medications, and increased emergency room 
use. By providing SNAP benefits to individuals in need, we can 
help people live at home and age in place, helping to delay or 
prevent more costly institutional care and unnecessary 
hospitalizations. This saves taxpayer dollars because caring 
for people in their home costs about \1/3\ of the amount that 
institutional care costs, and it is the option that is 
overwhelmingly preferred by the recipients.
    Seniors participate in SNAP at a lower rate than any age 
group due to both societal and policy-related barriers. 
However, promising practices can remove barriers such as 
arduous application length, confusing medical expense 
deductions, asset tests, and in-person interviews for initial 
benefits and re-certification, which are difficult for 
homebound individuals.
    In Chicago, the AARP Foundation launched a mailer 
encouraging SNAP registration in targeted areas to link 
recipients with fresh fruits, vegetables, and proteins. The 
Foundation is also connecting fresh food supplies into food 
deserts, providing both application assistance and an ability 
to more easily use those funds on nutritious foods delivered 
into the community.
    The Chairwoman. Mr. Schneidewind, I am afraid you are out 
of time.
    Mr. Schneidewind. May I finish with my conclusions?
    The Chairwoman. Quickly.
    Mr. Schneidewind. We recommend that Congress refrain from 
making any further benefit cuts, and avoid making any 
structural changes that would weaken SNAP's ability to respond 
to increased needs due to economic changes. We recommend that 
you resist expanded work requirements, particularly on workers 
50+, who typically take longer to find new permanent employment 
after being unemployed. We ask you to continue to protect 
categorical eligibility as in the last farm bill, which is 
essential to improving access to SNAP for low-income Americans 
of all ages, and that you invest in community-based initiatives 
to assist older adults and other vulnerable populations in 
better managing chronic conditions. You should simplify the 
application process, lengthening re-certification periods, and 
provide additional incentives to states to expand eligibility--

    [The prepared statement of Mr. Schneidewind follows:]

  Prepared Statement of Eric J. Schneidewind, J.D., President-Elect, 
                         AARP, Washington, D.C.
    Chairman Conway, Subcommittee Chairman Walorski, Ranking Member 
McGovern, and Members of the Subcommittee, thank you for holding 
today's hearing on the Supplemental Nutrition Assistance Program (SNAP, 
formerly known as food stamps), and for inviting AARP to speak about 
program's positive impact on older Americans. My name is Eric 
Schneidewind, and I am the AARP President-elect. AARP is a nonprofit, 
non-partisan organization, with a membership of nearly 38 million ages 
50+, that helps people turn their goals and dreams into real 
possibilities, strengthens communities and fights for the issues that 
matter most to families.
Overview of SNAP
    SNAP is a critical part of the nutrition safety net available to 
low-income families and people in need, including the elderly and 
people with disabilities. It has been shown that participating in SNAP 
can lead to improvements in a household's food security status, 
especially for those with very-low food security.\1\ The mechanism by 
which SNAP reduces food insecurity is simple--it increases a 
household's food budget and enables them to buy more food than they 
would otherwise be able to purchase. Further studies show that while 
SNAP households see improved dietary intakes, there is still much work 
to be done, particularly with those on low benefit levels.\2\
---------------------------------------------------------------------------
    \1\ http://www.fns.usda.gov/sites/default/files/Measuring2013.pdf.
    \2\ http://www.ajpmonline.org/article/S0749-3797(15)00226-3/pdf.
---------------------------------------------------------------------------
Why SNAP is Effective
    SNAP is exceptionally effective and efficient at achieving its 
mission of reducing food insecurity. In Fiscal Year (FY) 2014, an 
average of 45.9 million individuals in 22.4 million households received 
SNAP benefits every month. The average SNAP household had an income of 
only 58 percent of the Federal poverty line in 2014, with 82 percent of 
SNAP benefits going to households with a child, elderly, or disabled 
person.\3\ At the same time, program performance is better than it ever 
has been. In FY 2014, SNAP error rates stood at record lows with over 
99 percent of participating households meeting all the program's 
eligibility requirements.\4\
---------------------------------------------------------------------------
    \3\ http://www.fns.usda.gov/sites/default/files/ops/
Characteristics2014.pdf.
    \4\ http://www.fns.usda.gov/snap/quality-control.
---------------------------------------------------------------------------
    Along with helping low-income persons eat healthier, more 
nutritious food, SNAP also helps stimulate the economy--up to $9 for 
every $5 in SNAP benefits spent.\5\ This is not an unintentional 
effect. SNAP was designed to help more Americans during times of 
economic crisis and increased need, blunting the larger macroeconomic 
effects--including but not limited to reduced consumer spending on even 
essential items such as food--that are typically a result of higher 
unemployment and lower household incomes. The recent economic recession 
demonstrated the importance of SNAP in providing food assistance for 
families that would have otherwise gone without food.
---------------------------------------------------------------------------
    \5\ http://www.ers.usda.gov/media/134117/err103_1_.pdf.
---------------------------------------------------------------------------
Public-Private Partnership Fighting Senior Hunger
    While SNAP is at the cornerstone of all public food assistance in 
the United States, we would be remiss if we do not mention other 
programs under the jurisdiction of this Subcommittee that also address 
the issue of senior hunger in tandem with the vast private charitable 
network that assists seniors every day. Programs such as the Commodity 
Supplemental Food Program (CSFP),\6\ the Emergency Food Assistance 
Program (TEFAP), the Senior Farmers Market Nutrition Program 
(SFMNP),\7\ as well as home-delivered and congregate meals authorized 
under Title III of the Older Americans Act,\8\ serve millions of 
seniors.
---------------------------------------------------------------------------
    \6\ CSFP served approximately 573,000 individuals in FY 2014: 
http://www.fns.usda.gov/sites/default/files/pfs-csfp.pdf.
    \7\ SFMNP served 787,139 in FY 2014: http://www.fns.usda.gov/sites/
default/files/sfmnp/
SFMNP%20Profile%20for%20Participating%20State%20Agencies%20-
%20FY2014.pdf.
    \8\ OAA home-delivered and congregate meals served 2,405,394 
seniors in FY 2013 http://www.agid.acl.gov/CustomTables/SPR/Results/.
---------------------------------------------------------------------------
    According to Feeding America, approximately 28 percent of their 
food banks' clients--13 million Americans--are over the age of 50.\9\ 
However, many of these Federal programs are appropriately targeted to 
seniors with significant limitations in their activities of daily 
living (ADLs), such as the ability to shop for and prepare their own 
meals, as well as seniors who are homebound. And while the significant 
charitable response is admirable, there is no replacement for SNAP when 
it comes to fighting hunger in all population groups--and older 
Americans are no exception.
---------------------------------------------------------------------------
    \9\ http://www.feedingamerica.org/hunger-in-america/our-research/
senior-hunger-research/baby-boomers-executive-summary.pdf.
---------------------------------------------------------------------------
Importance of SNAP to Seniors
    Elderly households, which are defined as those with an individual 
over age 60, represented 19 percent of all SNAP recipients in FY 2014. 
Out of this cohort, 85 percent received either Supplemental Security 
Income (SSI) or Social Security, and 82 percent of elderly households 
receiving SNAP consisted of an elderly individual living alone. On 
average, elderly SNAP households received an average benefit of $129 
per month.\10\
---------------------------------------------------------------------------
    \10\ http://www.fns.usda.gov/sites/default/files/ops/
Characteristics2014.pdf.
---------------------------------------------------------------------------
    According to research by AARP Foundation--a charitable affiliate of 
AARP--over 17 percent of adults over the age of 40 are food-insecure. 
Among age cohorts over age 50, food insecurity was worse for the 50-59 
age group, with over ten percent experiencing either low or very-low 
food security. Among the 60-69 age cohort, over nine percent 
experienced similar levels of food insecurity, and over six percent 
among the 70+ population. This emphasizes the fact that the younger 
segment of older Americans are often at deeper risk for food security 
than their older counterparts, primarily because they have yet to 
receive Social Security benefits and--even if they have specialized 
needs or limitations--might not qualify for other nutrition assistance 
programs geared toward older Americans.
    However, low-income seniors face problems that younger low-income 
Americans do not, namely reduced ability to re-enter the workforce, 
fixed incomes in retirement, as well as significantly higher medical 
costs. AARP research shows that older job seekers are more likely to 
look for work longer, and when they do re-enter the workforce, often 
have no choice but to take part-time or low-paying jobs.\11\
---------------------------------------------------------------------------
    \11\ http://www.aarp.org/content/dam/aarp/ppi/2015-03/The-Long-
Road-Back_INSIGHT.pdf.
---------------------------------------------------------------------------
    In 2012, 88 percent of SNAP households with seniors reported 
medical expenses.\12\ The typical amount was $550 for the year, 
equivalent to $46 a month. AARP Foundation research shows that two in 
five American adults over age 50 had to cut down or skip meals in the 
last year because of a lack of food, and one in five have difficulty 
buying nutritious food.\13\
---------------------------------------------------------------------------
    \12\ http://www.cbpp.org/sites/default/files/atoms/files/8-20-
14fa.pdf.
    \13\ http://pdf.aarpfoundation.org/i/455086-aarp-foundation-
findings-on-nutrition-knowledge-and-food-insecurity-among-older-adults.
---------------------------------------------------------------------------
    According to the Centers for Disease Control and Prevention (CDC), 
the cost of health care of someone 65 and older is upwards of three to 
five times higher than the cost of care for someone in a younger 
cohort. And among the population over 65, nearly 95 percent of health 
care costs go toward treating and managing chronic illnesses.\14\
---------------------------------------------------------------------------
    \14\ http://www.cdc.gov/features/agingandhealth/
state_of_aging_and_health_in_america_
2013.pdf.
---------------------------------------------------------------------------
Positive Impact on Health and Quality of Life
    For many seniors, food security can mean better management of a 
whole range of chronic diseases, and it can make the difference in 
being able to age-in-place with dignity or face no choice but to enter 
institutional care. Put in different terms, a marginally food-secure 
senior has a reduced nutritional intake equivalent to having $15,000 
less in annual income when compared to food-secure seniors.\15\
---------------------------------------------------------------------------
    \15\ http://content.healthaffairs.org/content/34/11/
1830.full.pdf+html.
---------------------------------------------------------------------------
    Compared to food-secure seniors, those facing food insecurity are 
53 percent more likely to die of a heart attack, 40 percent more likely 
to have congestive heart failure, 22 percent more likely to face 
limitations of ADLs, and are 60 percent more likely to suffer from 
depression.\16\ Overall, seniors struggling with food security were 
over twice as likely to report being in poor health.\17\ For example, 
as food insecurity worsens, health care utilization and total health 
care costs increases. Researchers recently discovered that severely 
food-insecure individuals required an average of $4,000 in care, 
compared to $2,806 for moderately food-insecure individuals and $1,608 
for food-secure individuals.\18\
---------------------------------------------------------------------------
    \16\ http://www.feedingamerica.org/hunger-in-america/our-research/
senior-hunger-research/or-spotlight-on-senior-health-executive-
summary.pdf.
    \17\ http://www.ncbi.nlm.nih.gov/pubmed/11340107.
    \18\ http://www.cmaj.ca/content/early/2015/08/10/cmaj.150234.
---------------------------------------------------------------------------
    Given the costs of chronic disease management to the health care 
system, particularly programs such as Medicare and Medicaid, there is a 
strong incentive for policymakers to look at hunger as a health issue. 
If we ensure that SNAP is accessible and sufficient, it can be a key 
strategy to bending the health care cost curve, especially for seniors. 
One such example of how these causes are inexorably linked is a recent 
study that showed that risk for hospital admissions for hypoglycemia 
spiked 27 percent in the last week of the month--as compared to the 
first week of the month--when food and SNAP budgets of low-income 
populations have often been exhausted.\19\
---------------------------------------------------------------------------
    \19\ http://content.healthaffairs.org/content/33/1/
116.full.pdf+html.
---------------------------------------------------------------------------
    Furthermore, SNAP benefits help recipients afford other basic 
necessities, such as housing and utility expenses, by freeing up 
household resources otherwise needed for food costs. There may also be 
a positive effect on other health related problems associated with food 
insecurity, such as postponing needed medical care, delaying or not 
taking prescribed medications, increased emergency room use, and more 
frequent hospitalizations among low-income adults.\20\
---------------------------------------------------------------------------
    \20\ M. Kushel et al., 2005. ``Housing Instability and Food 
Insecurity as Barriers to Health Care Among Low-Income Americans,'' 
Journal of General Internal Medicine 21:71-77.
---------------------------------------------------------------------------
    Another study showed that the costs of hunger to the entire health 
care system were an estimated $160 billion.\21\ As the senior 
population continues to grow, along with the incidence of chronic 
disease, food security issues will only continue to put more pressure 
on the public and private health care system.
---------------------------------------------------------------------------
    \21\ http://hungerreport.org/2016/wp-content/uploads/2015/11/
HR2016-Full-Report-Web.pdf.
---------------------------------------------------------------------------
    By providing SNAP benefits to those in need, we can help people 
live at home and age-in-place, helping to delay or prevent more costly 
institutional care and unnecessary hospitalizations, saving taxpayer 
dollars. Research demonstrates states that invest in home and 
community-based services, over time, slow their rate of Medicaid 
spending growth, compared to states that remain reliant on nursing 
homes. On average, the Medicaid program can provide services to help 
roughly three older adults and adults with physical disabilities live 
independently in their homes and communities for the cost of serving 
one person in a nursing home.\22\
---------------------------------------------------------------------------
    \22\ A. Houser, W. Fox-Grage, & K. Ujvari, Across the States: 
Profiles of Long-Term Term Services and Supports 2012 16 (AARP PPI, 
2012), http://www.aarp.org/content/dam/aarp/research/
public_policy_institute/ltc/2012/across-the-states-2012-full-report-
AARP-ppi-ltc.pdf.
---------------------------------------------------------------------------
Barriers to Senior Participation
    While the public and private implications of food security might be 
most significant for seniors, they participate in SNAP at a lower rate 
than any age cohort. Where the overall participation rate for eligible 
households is 85 percent, only 41 percent of eligible elderly 
households participate in SNAP. While the participation rate is 
slightly higher for households with only one elderly individual, at 54 
percent, these rates remain woefully low, despite recent increases.\23\
---------------------------------------------------------------------------
    \23\ http://www.fns.usda.gov/sites/default/files/ops/Trends2010-
2013.pdf.
---------------------------------------------------------------------------
    Many barriers to older adults' participation in SNAP are societal--
some seniors are under the misconception that if they accept SNAP 
benefits they will exclude other people, many are embarrassed to accept 
public assistance, and others might not know they are eligible. 
However, promising practices can remove policy-related barriers such as 
arduous application length, in-person interviews for initial benefits 
and re-certification which are difficult for homebound individuals, 
confusing medical expense deductions, and asset tests.
    USDA has taken steps to implement programs such as the Elderly 
Simplified Application Project--which shortens applications, waives 
interviews, and lengthens re-certification periods--as well as the 
Standard Medical Deduction Demonstration, which allows elderly and 
disabled adults with more than $35 in out-of-pocket medical expenses to 
deduct a standard amount from their gross income in order to qualify 
for benefits.
    However, additional pilots, such as the Combined Application 
Projects--which screens individuals applying for Social Security and 
other benefits for eligibility in SNAP--create government efficiency 
while also improving outcomes for older Americans that might otherwise 
struggle with food security. And while asset tests have been phased out 
in most states, elderly individuals struggling with high medical 
expenses and limited incomes should not have to face such tests, 
especially when some states have asset tests as low as $3,250 for 
elderly and disabled adults.
SNAP Outreach and Education Efforts
    SNAP outreach that can connect consumers directly to programs that 
serve the SNAP population can be effective. For example, in Chicago, 
AARP Foundation has launched a physical mailer encouraging SNAP 
registration in specifically targeted areas to link SNAP recipients 
with fresh fruits, vegetables, and proteins. The Foundation is also 
connecting fresh food supplies into food deserts--defined as urban 
neighborhoods and rural towns without ready access to fresh, healthy, 
and affordable food \24\--providing both SNAP application assistance 
and an ability to more easily use those funds on nutritious foods 
delivered to their community. Based on this learning, the Foundation is 
exploring how to create a SNAP application on smartphones and easy 
pathways to utilize benefits at SNAP approved grocery stores or food 
delivery that can maximize the volume of nutritious food available on a 
SNAP budget. The goal of this work is to create easily replicable 
application pathways and immediately connect the recipient to healthy 
food options.
---------------------------------------------------------------------------
    \24\ https://apps.ams.usda.gov/fooddeserts/fooddeserts.aspx.
---------------------------------------------------------------------------
New Innovative Approaches
    While addressing the issues of access to SNAP benefits is 
essential, it is also our belief that we must empower low-income older 
adults to be smarter, healthier consumers. To that end, it is important 
to implement and evaluate innovative programming that demonstrates 
addressing hunger as a health issue pays both private and public 
dividends.
    One of the AARP Foundation programs is a SNAP fruit and vegetable 
incentive program called Fre$h Savings. This program incentivizes the 
purchase of fresh fruits and vegetables by SNAP shoppers in Mississippi 
and Tennessee, where according to USDA 22 percent (Mississippi) and 
over 16 percent (Tennessee) of households are food-insecure. Among 
those households with members age 50 and older, over 16 percent in 
Mississippi are food-insecure, as well as over ten percent in 
Tennessee.\25\
---------------------------------------------------------------------------
    \25\ http://www.aarp.org/content/dam/aarp/aarp_foundation/2015-
PDFs/AF-Food-Insecurity-2015Update-Final-Report.pdf via DataExplorer.
---------------------------------------------------------------------------
    At the ten currently participating grocery stores, for every $10 
spent by a SNAP consumer on fresh fruits and vegetables, a coupon will 
print at check-out for 50 percent off the next purchase of fresh fruits 
and vegetables, with a maximum coupon value of $10 (maximum of two 
coupons per SNAP household, per month). At 16 currently participating 
farmers' markets, when a SNAP customer spends up to $10 with their SNAP 
card, they will get the same amount in Fre$h Savings tokens to spend on 
fresh fruits and vegetables. In both stores and farmers' markets, 
educational materials are available to inform consumers about the Fre$h 
Savings program and its value for SNAP shoppers.
    Since September of last year, the program has distributed over 
11,000 coupons at stores and over $2,500 in tokens at farmers' markets. 
The coupons have been redeemed at a rate of 27 percent, almost twice 
the typical redemption rate for a normal coupon program at the 
participating stores. The program is already slated to expand into an 
additional 15 farmers' markets and 12 more stores in Mississippi and 
Tennessee, and is beginning to build a business case for retailers to 
implement such programs on their own.
    Previous research on incentives at farmers' markets 
<SUP>26-27</SUP> and from a retail pilot by USDA \28\ have demonstrated 
these programs are effective at a much smaller scale; however, Fre$h 
Savings is one of the first such SNAP incentive programs to be 
implemented with a major, national retail grocer, which is where 
approximately 33 percent of all SNAP benefits are spent and where 87 
percent of all older Americans say they shop for food on a regular 
basis.<SUP>29-30</SUP> The potential to scale this program could have 
significant implications not only for the health and well-being of low-
income Americans, but for retailers of any size.
---------------------------------------------------------------------------
    \26\ http://www.wholesomewave.org/wp-content/uploads/2014/07/
2013_healthy_food_
incentives_cluster_evaluation.pdf.
    \27\ http://www.fns.usda.gov/sites/default/files/FarmersMarkets-
Shopping-Patterns-Summary.pdf.
    \28\ http://www.fns.usda.gov/sites/default/files/HIP-Final-
Summary.pdf.
    \29\ http://www.fns.usda.gov/sites/default/files/snap/2014-SNAP-
Retailer-Management-Annual-Report.pdf.
    \30\ http://pdf.aarpfoundation.org/i/455086-aarp-foundation-
findings-on-nutrition-knowledge-and-food-insecurity-among-older-adults.
---------------------------------------------------------------------------
2014 Farm Bill
    The 2014 Farm Bill included the following major changes and 
outcomes:

  <bullet> Limited cuts to SNAP--larger cuts would have led to a less 
        effective program to continue fighting hunger and food 
        insecurity;

  <bullet> Maintained ``expanded categorical eligibility,'' preserving 
        benefits for over two million people in households, including 
        low-income working families and seniors; \31\
---------------------------------------------------------------------------
    \31\ https://www.fas.org/sgp/crs/misc/R42054.pdf.

  <bullet> Modified the Low-Income Home Energy Assistance Program 
        (LIHEAP), but ensured that no current SNAP recipient was 
---------------------------------------------------------------------------
        removed from the program;

  <bullet> Permitted nonprofits that purchase and deliver foods to the 
        elderly and people with disabilities to accept SNAP as payment;

  <bullet> Authorized Community Supported Agriculture Organizations 
        (CSAs) to become authorized SNAP retailers, expanding potential 
        grantee connections;

  <bullet> Temporary Emergency Food Assistance Program (TEFAP) received 
        an extra $200 million for commodities that will flow primarily 
        through the food bank network;

  <bullet> The Commodity Supplemental Food Program (CSFP) now 
        exclusively serves seniors, as pregnant and postpartum women 
        and children have shifted to WIC;

  <bullet> Improved Access to Healthy Food: Food Insecurity Nutrition 
        Incentive (FINI) grants were authorized with $100 million to 
        states and community-based organizations to increase the 
        purchase of fresh produce where nutrition education is part of 
        the anti-hunger strategy;

  <bullet> New data exchange standards to help ensure SNAP can share 
        data with other key Federal and state programs more efficiently 
        and effectively; and

  <bullet> Strengthened program integrity provisions while adding tools 
        to combat trafficking and other program abuses, and restored 
        bonus payments to reward program accuracy.
Future Opportunities to Strengthen SNAP
    As the debate over SNAP moves forward, AARP recommends that we:

  <bullet> Refrain from making any further benefit cuts under SNAP that 
        would jeopardize the program's ability to carry out its 
        important mission and avoid making any structural changes that 
        would weaken SNAP's ability to respond to increased needs due 
        to changes in the economy; (Research suggests that policies 
        which increase SNAP benefits have been shown to improve food 
        security among low-income households.) \32\
---------------------------------------------------------------------------
    \32\ M. Nord and M. Prell, Food Security Improved Following the 
2009 ARRA Increase in SNAP Benefits, USDA Economic Research Report 
Number 116, 2011. http:/www.ers.usda.gov/media/127913/err116.pdf.

  <bullet> Resist expanded work requirements under SNAP above those 
        already in place, particularly any new requirements on workers 
        50+ who typically take longer than younger workers to find new 
---------------------------------------------------------------------------
        permanent employment after being unemployed;

  <bullet> Continue to protect categorical eligibility--as was done in 
        the last farm bill--it is essential to improving access to SNAP 
        for low-income Americans of all ages; \33\
---------------------------------------------------------------------------
    \33\ https://www.fas.org/sgp/crs/misc/R42054.pdf.

  <bullet> Invest in community-based initiatives to assist older adults 
        and other vulnerable populations in better managing chronic 
---------------------------------------------------------------------------
        conditions through nutrition and physical activity;

  <bullet> Simplify and improve the application process for SNAP: 
        Preliminary evidence from USDA pilots show that simplifying 
        applications, lengthening re-certification periods, and 
        screening seniors applying for other public benefits are 
        improvements to the administration of SNAP that create more 
        efficient and effective government while also improving the 
        quality of life of low-income older Americans. Some other 
        programs, such as the Standard Medical Deduction Demonstration, 
        help to give a more accurate estimate of medical costs' impact 
        on a senior's income, thereby giving them more sufficient 
        benefits;

  <bullet> Allow grandparent and other non-parent caregivers to apply 
        for benefits on behalf of the children in their care;

  <bullet> Provide additional incentives to states to undertake reforms 
        to expand SNAP eligibility for low-income households, such as 
        eliminating asset tests for low-income older households and/or 
        expanding income and resource deductions; and

  <bullet> Closely monitor restrictions on outreach included in the 
        2014 Farm Bill to evaluate whether they are having a negative 
        impact on SNAP for vulnerable populations that already face 
        barriers to participation.

    Again, thank you for holding this hearing and for understanding the 
important role of SNAP in addressing food insecurity among low-income 
seniors. I am happy to answer any questions.

    The Chairwoman. Mr. Schneidewind, I am going to have to cut 
you off there, in deference to all the other witnesses, but I 
appreciate your testimony.
    Mr. Schneidewind. Thank you.
    The Chairwoman. Absolutely.
    Ms. Leibman, I wanted to direct my question to you. In 
addition to sitting as Chairwoman of the Subcommittee, I also 
sit on the House Armed Services Committee and the Veterans 
Committee as well, so I know all too well how the VA system is 
broken in so many ways. But in situations where there are 
delays in VA benefits, which is often for thousands of people, 
can SNAP be useful because of how quickly it can absolutely be 
brought into the system, and then can you just kind of talk to 
the fact of how SNAP is used as a bridge in some of these 
situations?
    Ms. Leibman. Absolutely. The concept of having adequate 
food is an important part of the healing process for people, 
and helps them get back up on their feet. So obviously, the 
more quickly people can access those benefits, particularly 
people who are struggling with disabilities when they return 
from being mobilized, the better for them. And one of the 
consequences of the way in which the system is currently 
working at the VA is that not only are they having delays, 
sometimes they are not even asked about whether they can 
qualify, given opportunities to apply for the benefits 
themselves. And in thinking through the relationship between 
what the social workers, the medical professionals are being 
confronted with when someone comes in the door at the VA, they 
need to really address whether or not these people are 
struggling with food insecurity. They don't even ask. I think 
at the outset, if they are asked about that, there will be a 
move in the direction of getting them application assistance, 
which, again, becomes a secondary issue because sometimes the 
application process itself is very onerous, and as I said, it 
can result in terrible delays. So expediting that process for 
veterans who are seeking qualification as disabled would do 
tremendous good in helping them to recover.
    The Chairwoman. I appreciate it.
    And then just quickly, Mr. Faris, the Meals-on-Wheels 
Program in my district is phenomenal in the South Bend area 
that serves a regional area, and really is one of the models 
for a lot of the Midwest. I am just curious though, what are 
some of the impediments to seniors actually seeking out 
benefits; that generation of senior citizens. And it seems like 
it is so disproportionate, such a tiny amount of seniors 
actually reach out, yet they are so far down the list of food 
insecurity, what are some of the impediments that you have 
seen, because Meals-on-Wheels is a revolutionary program that 
works hand-in-hand with SNAP. So I guess twofold; what are some 
of the impediments from seniors reaching out, and then second, 
do you see SNAP as a program that has been an easy partner 
with, and perhaps, more organizations coming alongside?
    Mr. Faris. Yes, ma'am. One of the most difficult tasks that 
Meals-on-Wheels organizations have in trying to encourage, when 
we see needy individuals who could certainly benefit from the 
SNAP benefits, is getting them to truly understand it. And what 
we are dealing with here is egos. They are not looking for a 
handout. They don't want to get too far out in front. They are 
proud people. That is first and foremost in it.
    One of the other things, they think that the process is 
difficult. When they have all of the life challenges bearing 
down on them at this advanced stage in life, it is sometimes 
more than they can handle. They think it is an onerous process 
to go through. And probably third, I would say that they think 
the benefit is too small. Most of them think they are not going 
to get anything. There are probably some out there that would 
think that they would be taking benefits from other people as 
well.
    It has been a difficult program to work for a lot of Meals-
on-Wheels organizations. Speaking from our own, it is not as 
easy to get people signed up as it could be and should be. We 
would like to see a much more streamlined process.
    The Chairwoman. Thank you. I appreciate it.
    And, Ms. Leibman, one final question. I am back to VA, 
because I am thinking about casework that comes into our 
offices, all of our offices, Congressional offices around the 
country, and issues with delays, patient care, applications, 
phenomenal delays in disability assessments and those kinds of 
things. So when we are talking about, for example, if we made a 
move and we said we want to focus a lot more on these SNAP 
benefits toward veteran organizations, I cringe when I think 
about asking the VA to do one more thing because so many of the 
things that are happening are not done correctly. So if we were 
looking at a way to expedite that process or something like 
that, would this be something that we would work more on the 
USDA end and making sure those connections are timely and 
efficient, and that type of a thing, not just handing this over 
to the VA and having them reach back to the USDA? How does that 
sound? We are almost out of time, but maybe I can talk to you 
about it afterwards to at least plant the seed. How does that 
work?
    Ms. Leibman. The good news is that the VA and USDA have 
begun a dialogue in which they are talking exactly about these 
issues, that they are demonstrating extraordinary leadership 
and innovation and trying to find ways to work together to 
resolve some of these issues.
    The Chairwoman. Good.
    Ms. Leibman. I think the movement forward has begun, and 
the support from Congress to see that happen is probably 
essential.
    The Chairwoman. I appreciate it.
    Mr. McGovern is yielding to Ms. Adams, 5 minutes.
    Ms. Adams. Thank you very much. Thank you, Madam Chair. And 
Ranking Member McGovern, thank you. And to all of our guests, 
thank you very much.
    Of the six counties that are represented by my district, 
the 12th in North Carolina, the Department of Health and Human 
Services estimates that 25,000 or more able-bodied adults 
without dependents will be impacted by the reinstatement of 
SNAP work requirements. This includes over 10,000 adults in 
Mecklenburg and 8,000 in Guilford, where I live. And an able-
bodied adult can continue to receive SNAP benefits only if they 
enroll in an employment and training program, but most counties 
do not have the funds necessary to meet the Federal matching 
requirement for the SNAP employment and training program.
    Ms. Leibman, you mentioned in your testimony that ABAWD 
work requirements will impact 60,000 veterans nationwide. Where 
have you seen success in connecting ABAWDs to job training 
programs that allow them to continue receiving SNAP benefits?
    Ms. Leibman. I am, personally, not aware of any stellar, 
outstanding programs that have been focused on moving veterans 
through the employment training system, and when they are also 
in the category of ABAWDs, into gainful employment. That is not 
a focus or an emphasis of what MAZON does, so it is possible 
those programs exist but it is not something of which I am 
aware.
    Ms. Adams. Thank you.
    Mr. Schneidewind, my office is currently drafting 
legislation that will strengthen the SNAP Program, and make the 
standard medical deduction permanently authorized. This is 
going to allow seniors and the disabled to include their 
medical expenses when they apply for SNAP benefits, without 
having to itemize every out-of-pocket purchase they make just 
to receive more adequate SNAP benefits. Nationally, how much do 
you see the medical expense deduction being under-utilized by 
seniors and the disabled due to the lack of a standard medical 
deduction in all 50 states?
    Mr. Schneidewind. Well, I don't have estimates of that 
precise element, but I can tell you that seniors apply for SNAP 
at a rate almost \1/2\ of the other populations, and we have 
found that very complicated requirements for application, 
frequent re-certification, requirement for many people to leave 
their home when they don't have mobility to make that 
application, all of these factors have deterred or discouraged 
seniors from applying for those benefits. So we believe some of 
the complexities and the requirements in eligibility need to be 
simplified and certainly reduced to increase participation of 
seniors.
    Ms. Adams. Thank you very much. And I want to thank all of 
you for your testimony. And, Mr. McGovern, I thank you for 
yielding. And, Madam Chair, I am going to yield back my time.
    The Chairwoman. Thank you.
    I now yield to Chairman Conaway, 5 minutes.
    Mr. Conaway. Thank you. Again, I thank the witnesses for 
being here.
    Mr. Faris, you mentioned that most Meals-on-Wheels programs 
had waiting lists or backlog lists.
    Mr. Faris. Yes, sir.
    Mr. Conaway. Can you walk us through why that is the case, 
and would all of those folks already be on the SNAP program, 
and then give us the mechanics of how SNAP interrelates with 
Meals-on-Wheels. In other words, do you get payments from SNAP? 
Help us understand the program as to why there are backlogs.
    Mr. Faris. In the Older Americans Act nutrition programs 
today there is a significantly smaller number of meals being 
served annually than what was being served 10 years ago. We are 
serving actually 21 million fewer meals this year than in 2005.
    One of the big challenges that we have out there is that 
funding for the Older Americans Act has not kept pace with the 
growth of the population.
    Mr. Conaway. And that is where the funding for Meals-on-
Wheels comes from?
    Mr. Faris. That is where the large part of Meals-on-Wheels 
funding comes from.
    Mr. Conaway. Okay. Do you get funds from the SNAP Program 
as well?
    Mr. Faris. In Texas, in our program, we have great 
difficulty utilizing SNAP. We should be able to, but we do not 
have the ability for the electronic funds benefit cards.
    Mr. Conaway. Is that a restriction on your side or on the 
state side, or the Fed side?
    Mr. Faris. It is difficult working with the state.
    Mr. Conaway. Okay.
    Mr. Faris. So what we do is encourage the clients out 
there, the participants, recipients, needy seniors, to be using 
their SNAP benefits for other necessities there at the grocery 
store.
    Mr. Conaway. Right. And the backlog is caused by just the 
funding shortage?
    Mr. Faris. That is the biggest problem.
    Mr. Conaway. Right.
    Ms. Tebbens, thank you for your story, and I appreciate 
that. Ms. Leibman, thank you as well for the work you do.
    Other than the basic housing allowance, which is hard to 
justify the differential between the treatment, that is clearly 
something we ought to address, are there other things that 
stand in the way of getting these veterans the help they need, 
or the active duty folks the help they need?
    Ms. Leibman. Yes, sir. Excuse me. The difference between 
qualifying for SNAP and becoming food-secure is something that 
the Committee and Congress should pay attention to because the 
support of SNAP is essential to allowing people to have some 
support for purchasing power with regard to groceries, but it 
doesn't mean that these individuals have become food-secure in 
their households. So some of this has to do with the 
complications that come from moving from state to state, when 
they are deployed from one place to another, so there is a lack 
of consistency in the ways in which people apply for benefits 
in states, that the rules can change, the qualifications for 
them can change. There are issues for them with regard to 
emergency financial situations that come up. So some of this is 
not uncommon to other parts of the population, but in a 
military context there is less support for addressing some of 
those needs, in part because of the stigma attached for seeking 
assistance, and then access to those programs and benefits that 
may or may not be close to base or where they are stationed.
    Mr. Conaway. Okay.
    Mr. Faris, you mentioned that 92 year old lady in your 
testimony. Thelma? What was her name?
    Mr. Faris. I beg your pardon?
    Mr. Conaway. The lady you mentioned, her name?
    Mr. Faris. Yes, Emily.
    Mr. Conaway. Emily, excuse me. Is there a part of your 
program that tries to engage families? In other words, if Emily 
has no family at all, we have to get families involved. Is 
there a way that you guys look at that to try to augment 
support for these folks that get contact, other than just the 
Meals-on-Wheels?
    Mr. Faris. We try as hard as we can. What we are now 
seeing, in individuals like Emily, so many of them are 
outliving their families and their friends, and the families 
that they do have left are too many generations down and they 
have lost interest, and so it is very difficult. We do 
everything we can to try to get them involved.
    Mr. Conaway. Yes. Are there legal barriers that we need to 
address that prevents you from actually doing a better job at 
that?
    Mr. Faris. I am not aware of any legal barriers. No, sir.
    Mr. Conaway. Okay. Again, thank you for helping us 
understand these special populations, and we will continue to 
work to improve these programs.
    This is among that group that very few folks among us would 
say we shouldn't be trying to help. Probably have a difference 
of opinion on the able-bodied adults with no dependents, but 
certainly the majority of the folks you represent are a 
population that all of us have a heart for, and we need to try 
and figure out how to do that better. Thank you for the work 
you do as advocates.
    And with that, I yield back.
    The Chairwoman. Thank you, Mr. Chairman.
    I now yield to Congressman McGovern.
    Mr. McGovern. Thank you.
    Well, first of all, let me thank you all for your 
testimony. And you all were incredibly eloquent, but I have to 
say that your testimony is sad. We live in the richest country 
in the history of the world, and we have a big chunk of our 
population that doesn't know whether they can put food on the 
table. We have people who are hungry, and we all should be 
ashamed of that. This reflects a failure of government to 
respond adequately. We all have nothing but praise for 
charities, but let's be honest, charities can't do this alone. 
And I have advocated for some time that the White House put 
together a White House conference on food, nutrition, and 
hunger to connect the dots.
    Ms. Leibman, you talked about the conversation going on 
between the VA and the USDA. That is encouraging, but there 
needs to be conversations amongst multiple agencies and 
departments, not only at the Federal level, but Federal, state 
and local level, with the private-sector, with charities, with 
food banks, with organizations like AARP, and all the different 
groups out there that have anything to do with this.
    And Mr. Schneidewind mentioned that hunger should be 
treated as a health issue, and I agree with him. But the 
problem around here is that the budget for SNAP doesn't come 
out of the budget for Medicare or Medicaid, and so, we are not 
very good at saving money over here if we have to spend a 
little bit over here.
    I began by expressing my concern about what happened over 
the weekend in South Carolina. I just want to ask for the 
record, does anybody here think that it is a good idea to 
block-grant SNAP? Anybody?
    Ms. Leibman. No.
    Mr. Schneidewind. No.
    Mr. McGovern. Okay. All right. And based on the testimony 
not only from those of you here but from the other hearings we 
have had, the benefit that currently exists seems inadequate to 
be able to get people to a point where they are no longer food-
insecure. In other words, most of these people who get on SNAP 
have to rely on other programs as well, or go to food banks or 
food pantries. So does anyone here think that the benefit is 
adequate?
    Ms. Leibman. No.
    Mr. Schneidewind. No.
    Mr. McGovern. All right. Okay. I appreciate your direct 
answers.
    My colleague, Ms. Adams, raised this issue of ABAWDs again, 
and they tend to get a bad rap. And to make it clear for my 
colleagues, these are people we are told that in this year up 
to one million of the nation's poorest adults who fit into this 
category will be cut off of SNAP, as a 3 month limit on SNAP 
benefits for unemployed adults who are not disabled, or raising 
minor children, returns in many areas. I think a lot of people 
don't understand the very difficult circumstances that some of 
these people face.
    Now, up here in Congress, these so-called reforms have been 
put into place. But, no one in Congress is on food stamps, no 
one is on SNAP, and so it sounds like a reform. We will just 
incentivize people to work, or we will incentivize people to 
get job training. But one of the realities is that many of 
these poor individuals who will be cut off are veterans, they 
have honorably served our country, and some of them are now 
deeply struggling.
    Ms. Leibman, if you can just talk to us about the overlap 
between the veteran population and ABAWDs, that would be very 
helpful.
    Ms. Leibman. Yes. There is a significant overlap, 
obviously. And I referenced the notion that there would be 
60,000 veterans, is the best estimates that we have been able 
to gather, that would lose their benefits when the time limits 
are implemented, when they are now going to have time limits on 
when they can get SNAP. And the challenges that they face have 
to do with having adequate access to training programs, which 
Congresswoman Adams referenced, and that--and there is a 
program in Washington State, that my colleague reminded me of, 
that is, in fact, an efficacious program, so there is a model 
to look to. But there have to not only be enough slots in those 
training programs, the training programs have to be meaningful, 
they have to be relevant to the job market in that particular 
community, and then there have to be jobs available.
    Mr. McGovern. Right.
    Ms. Leibman. And not all of that can come together at the 
same moment and the same time, for everyone who is looking. And 
for veteran populations that may become mobile, that is, they 
have to move again to look for work and start over again. And 
during all this period of time, they are no longer getting 
benefits so they are no longer able to sustain themselves.
    So there is a circle.
    Mr. McGovern. These people are not lazy.
    Ms. Leibman. No.
    Mr. McGovern. They are not content at just being on SNAP, I 
mean they would like very much to have a job. But, because the 
situation is a lot more complicated than sometimes we make it, 
the situation that they face right now is that they may lose 
their benefit.
    Ms. Leibman. That is correct. Nobody has an easy or 
comfortable life living on government benefits.
    Mr. McGovern. Right.
    Ms. Leibman. It is not a boon, it is, in fact, a very 
limited existence, and one which virtually everybody on the 
program who is not currently employed, which a huge a 
percentage are, of course, is seeking a way to get off of 
government benefits, unless, of course, they are in a position 
where they are so vulnerable that they cannot find a way to get 
revenue in any other way, and then we need to find other 
programs that help to support them.
    Mr. McGovern. Thank you.
    The Chairwoman. I now recognize Congressman Thompson, 5 
minutes.
    Mr. Thompson. Madam Chair, thank you so much for this 
hearing. I want to thank you and thank Chairman Conaway, 
despite some of the things you might have heard, there are no 
preconceived conclusions here. We are having an honest 
dialogue, just like some other folks had an honest dialogue 
over the weekend. And in that dialogue, we are going to hear 
different ideas; some we may agree with, some we don't, but 
unless we can have that dialogue, because we are not going to 
achieve our objective of making sure these are the best 
possible programs to meet the needs of folks who are out there.
    These are important issues to me. Thirty years ago, my wife 
and I were starting out with our family, first child, we were 
on the WIC Program. Ms. Tebbens, I remember how uncomfortable 
back then we were taking those vouchers to the local IGA, but 
how important that was in terms of ensuring that my wife and 
our unborn and newborn son, Parker, who is now a 31 year old 
pastor, was able to get the nutrition that he needed to be 
healthy.
    I am a military dad. I have a son and a daughter-in-law, 
the daughter-in-law is out of the Army now, but I am well aware 
of the military food insecurity, especially for those folks, 
when they go into the military, they are maybe a little older 
and they have a number of kids, just an E1, E2, E3, it is 
challenging, and I am glad I am hearing good ideas here of what 
we need to do.
    I am a former therapist and a licensed nurse home 
administrator, so I know that senior nutrition is about senior 
health, it is about independence, and so I look forward to 
working on the Older Americans Act. I am also a proud member of 
the Howard Area Lions Club, and we maintain a food pantry. 
There are many different ways we attack hunger and nutrition. 
SNAP is a supplemental nutrition assistance program. It is not 
meant to be the end-all. I remember back when we were eligible 
for the WIC benefits, we also regularly received bags of 
groceries every time we left my in-laws. My mother-in-law 
packed the bag and my wife and I still reflect back on that, 
how important family was during those times.
    With our Lions Club, we have a food pantry, but we also do 
something--I don't know if a lot of food pantries do this or 
food banks. Our members deliver. Not everything, but there are 
folks who just can't travel. They live in remote areas, they 
have difficulties with transportation. And it seems to me it is 
really kind of interesting, as a former health care person and 
a rehab person, I just see the value in that because of what 
they see. It is contact that they have, these folks have, they 
are living by themselves normally, a little more isolated, and 
they get to see things. They may recognize health changes, they 
may talk about other needs.
    And so my question for you really centers around that. We 
have heard from various witnesses in our review of the SNAP 
that every person's circumstances are different, and the best 
way to help a person is when you work with them to address 
their challenges from a holistic perspective. How does the 
personal connection, the person delivering the meals, better 
enable you to assist them with their needs beyond food 
assistance, and what sort of challenges are you able to 
recognize that one might not see if the groceries are simply 
left at the door? And anyone that would like to take that 
question on, I appreciate it.
    Mr. Faris. I would be happy to.
    Mr. Thompson. Mr. Faris.
    Mr. Faris. Congressman, thank you very much. Every 
situation is unique, and in the world of Meals-on-Wheels, we 
try to address each situation as uniquely as we can.
    The majority of the folks that we see are homebound, 
meaning they have difficulty getting out of the house easily. 
Some of them are able to take a parcel of food like you are 
talking about there in the box, and still able to do something 
with that, prepare their meals, some though, as I mentioned in 
my remarks about Emily, don't have the ability to stand for 
long and prepare that meal. So it all depends on the individual 
situation.
    We start out with having a case manager go out and take a 
look, and just a general observation as to what is going on in 
the house and what the person's needs are, and try to get our 
best assessment on that. It is followed up either by volunteers 
delivering the meals once they begin service, or it may be paid 
staff in some cases, but just ongoing observations, because 
things change. We are talking about a rapidly aging population, 
and things can change in the blink of an eye. Health can 
definitely turn when we least expect it.
    The volunteer checking on that person daily can observe 
that. Their cognitive skills may not be what they were. They 
may not be recognizing the person coming to the door like they 
were. Their appearance may have changed. And so we can get 
back.
    Chairman Conaway was asking about families. In cases where 
there are still families involved, we can pass that information 
onto them or other caregivers along the way, and hopefully 
there would be caregivers there.
    It could be a safety issue. There could be a smell of 
natural gas or something like that in the house. When you just 
have a box delivered to the door, that is not the exact same 
thing.
    Mr. Thompson. Thank you very much.
    Ms. Leibman. If I could add, Congressman, the notion that 
charity helps to support the government programs is an 
important concept and it is an important partnership. But, it 
is the government programs that provide the kind of consistent, 
stable, and baseline support that these families need, and that 
charity alone could never be responsive enough. In fact, I am 
sure, as you are aware, the pantries that provide assistance to 
families do so on a very irregular basis, meaning that you may 
be able to come in for groceries on one day on a particular 
week, and then not again for another month.
    The Chairwoman. I have to cut you off there. Sorry.
    The chair recognizes Congresswoman DelBene.
    Ms. DelBene. Thank you, Madam Chair. And thanks to all the 
witnesses for being with us today. We really appreciate your 
time.
    I want to note, since we are discussing the needs of 
veterans as part of today's hearing, I recently was 
volunteering at one of the food banks in my district, at 
Hopelink, and in my district, 40 percent of food bank client 
households have at least one person currently serving or who 
previously served in the military. And this number goes up to 
near 58 percent in King County in Washington State, and at 
least 62 percent in Snohomish County. And as part of that, 
Madam Chair, I wanted to ask unanimous consent to insert into 
the record a letter from Food Lifeline, which is an 
organization fighting hunger in our district, that elaborates 
on this even more. Thank you.
    [The letter referred to is located on p. 599.]
    Ms. DelBene. I also wanted to go back to some of the 
discussion we have had on able-bodied adults without 
dependents, and the cliff that we see when folks are unable to 
find employment programs, or unable to find work. As we talked 
about earlier, nationwide the ABAWD cliff includes 60,000 
veterans, 60,000, and according to the Center on Budget and 
Policy Priorities, over 40 percent of this vulnerable 
population are women, close to \1/3\ are over the age of 40, 
about \1/2\ are white, \1/3\ are African American and \1/10\ 
are Hispanic, and we know that Native American populations will 
also be hit hard.
    I helped introduce legislation, the SNAP Work Opportunities 
Act, that would provide an exception to the 3 month time limit 
for those looking for work in states that don't have the 
resources to offer them job training or workfare opportunities. 
As was noted, thanks to Ms. Leibman for pointing out, we have 
had a lot of work in my State of Washington on SNAP employment 
and training, education and training efforts, and we know that 
there are pilots now that we helped start in the last farm bill 
that will continue to hopefully come up with great ideas of how 
we can use SNAP E&T to again help folks not need SNAP programs 
anymore because they are able to find jobs that allow them to 
be self-sufficient.
    But I wanted to hear more broadly, from everyone on the 
panel today, about how the ABAWD cliff will hurt populations 
that you are representing. Ms. Leibman, you talked a little 
bit, but are there others who can tell us a little bit more 
about how this has affected some of the folks that you have 
been working with?
    Mr. Schneidewind. Well, we at AARP, at least, know that 
there are potentially one million people affected, and it is 
serious enough so that we are looking at it and believe it may 
need revision, and that work will go forward to take a careful 
look at it.
    Ms. DelBene. Go ahead, Mr. Faris.
    Mr. Faris. One of the challenges we have is that once a 
senior hits the poverty level, it is very hard for them to 
climb out of that poverty level, and work opportunities are not 
there. And we are talking about able-bodied seniors here, as 
opposed to those that are homebound. It is very, very difficult 
for those that are needing work at that age when it is not 
available to them.
    Ms. DelBene. Thank you.
    Mr. Schneidewind, in your written testimony you ask for 
Congress to keep work requirements for SNAP at their current 
level. Can you elaborate on why you have made that suggestion 
in your written testimony?
    Mr. Schneidewind. Well, pretty clearly, right now among 
seniors, as I have said, the participation rate in SNAP is 
already quite low, in the 40 percent range versus 80 percent 
range of otherwise eligible people. So we think that any 
heightened work requirements would further reduce the 
participation. And really, it is critical to keep an increased 
participation because this is really a healthcare cost issue. 
If we can keep people in their homes through SNAP benefits, 
they may then avoid institutional care, which can cost Medicare 
and Medicaid almost three times, particularly Medicaid, three 
times the amount that you would have to pay to keep them in 
home. And that is where they want to be is at home. So we think 
that, really, the requirements should be liberalized rather 
than tightened, because this is a program that can save 
taxpayers money through reducing institutional care.
    Ms. DelBene. Thank you. Thanks again to all of you.
    And I yield back, Madam Chair.
    The Chairwoman. Thank you.
    The chair recognizes Congressman Gibbs, for 5 minutes.
    Mr. Gibbs. Yes, thank you. Thank you all for coming to help 
enlighten us a bit with how these programs work and what the 
challenges and struggles are.
    I have really been hearing Ms. Tebbens talk about your 
experience, and thank you for your family's service. Can you 
elaborate on why some military families choose to live on the 
base versus off the base? Is there a difference in cost?
    Ms. Tebbens. Yes. When we first moved to Washington, I was 
under the impression that since the military is moving you, and 
the military has housing, that housing would just be a given. 
You would just show up at the housing office and they would 
tell you where you are living, and that would be it. But I came 
to find out that at most military bases there is actually quite 
an extensive wait list. It could be 6 months to a year, it 
could be even 2\1/2\ years; a very, very long wait.
    Mr. Gibbs. Yes.
    Ms. Tebbens. So in those instances, you are forced to rent. 
The housing office does have binders and stuff there that you 
can look through of local properties and such. So when we 
started looking around, we knew how much we would be getting in 
BAH, and so we specifically chose an apartment that the monthly 
rent would be far enough under our BAH that the difference 
would also be able to cover our utilities so that it would kind 
of be flush. And also we were moving from Arizona, and so we 
kind of had to set up all of our military move stuff through 
the local Air Force base, which was really odd and difficult. 
And so when we moved up there, we actually had no idea that you 
are supposed to get up-front money before you move each time to 
help offset some of the costs. And because we didn't know to 
put in the proper paperwork for it, we didn't actually get any 
of that. So when we got the apartment, we actually had to ask 
my parents for a last-minute loan just to pay first month's 
rent and deposit.
    Mr. Gibbs. Okay. So we need to figure out what is going on 
there to help facilitate that.
    Ms. Tebbens. Right. Yes.
    Mr. Gibbs. And, Mr. Faris, through the multiple hearings we 
have had, we have talked quite a bit about the challenges in 
rural America versus the more populated urban areas when 
addressing hunger. People just normally assume that if you live 
in an urban area, you have more access to grocery stores in a 
close proximity. But, however, we have learned that not always 
might be the case. And can you maybe elaborate, the difference 
might be living here in Washington, D.C., versus living in my 
rural county back home in Ohio, some of the challenges you face 
as an organization, and what the similarities are fighting 
hunger, and then also the challenges in rural and urban?
    Mr. Faris. Yes, sir. First off, we know that seniors living 
in rural areas are going to be much poorer than others across 
the population. Their food insecurity is going to be far 
greater. And so that is one of the challenges that starts off 
in the rural areas. The other thing in the more rural areas is 
resources are not there, and whether it is local community 
programs or governmental programs. Transportation is first and 
foremost; how do we get access to the resources that are 
available to them. So that is very, very difficult in the rural 
area.
    One might say that in the urban area that there would be 
more resources. Hopefully there would be more resources. 
Hopefully there would be transportation. That is not always the 
case. It varies from community to community.
    In the frail, elderly, homebound, extremely needy 
population that we are working with, that are behind closed 
doors, we are not sure exactly what we are going to find, and 
that is the same whether it is in urban or rural, because many 
times, by the time we discover what is really behind that door, 
it is often too late.
    Mr. Gibbs. Yes.
    Mr. Faris. So it is challenges in both spectrums.
    Mr. Gibbs. Right.
    Thank you. I yield back.
    The Chairwoman. Thank you.
    The gentlewoman from Arizona, Mrs. Kirkpatrick, is not a 
Member of the Subcommittee but has joined us today. Pursuant to 
Committee Rule XI(e), I have consulted with the Ranking Member, 
and we are pleased to welcome her to join in on the questioning 
of witnesses.
    So, Mrs. Kirkpatrick, 5 minutes. Thank you.
    Mrs. Kirkpatrick. Thank you, Madam Chair. And thank you for 
allowing me to participate in this hearing. I thank the 
Committee for having this hearing.
    I represent a very large rural district in Arizona, and 
hunger and food insecurity are major, major problems. I visit 
the food banks in my district and the food pantries, and one of 
the things I have observed over the years is younger families 
with children coming in. They are underemployed, they are 
talking with other people there about where they can find 
another job to help them get off of assistance. I think often 
about hearing from a pediatrician several years ago who said 
that she has seen more infants with malnutrition than ever 
before because the parents are diluting formula. And I have a 7 
month old grandson and I know what a voracious appetite he has, 
and it really saddens me that parents are having to make that 
choice.
    And so my first question is for you, Ms. Leibman. I want to 
ask you about the Family Subsistence Supplemental Allowance, 
FSSA Program, that was set up to help our military families. I 
know some of these families I am seeing are military families 
or veteran families, and that program is set to sunset. And so 
I have two questions. Why didn't that program work, and what 
are we doing to make sure that these families, who are 
struggling to put food on the table, have the assistance that 
they need?
    Ms. Leibman. When FSSA was created, it was created to serve 
more of a political purpose than a practical one, and it has 
been designed in its application process and approach to really 
deter people from accessing it. So you have to go through the 
chain of command in order to receive FSSA. And for many people 
who are currently serving in the military, not only is that 
simply not an option for them, they want to come in and speak 
to the commanding officer of the base.
    Mrs. Kirkpatrick. Can you elaborate a little bit on that 
chain-of-command? Is it just one person or multiple people?
    Ms. Leibman. No, you must go all the way up the chain-of-
command to the top ranking individual on the base. In part, you 
often have to do this because the individuals whom you normally 
would consult about support and assistance, the chaplain's 
office. In the Air Force it is the sergeant majors who serve 
more as that access, but they don't even know that there is a 
program called FSSA. Some of them don't even know that active 
duty military members can apply for SNAP. FSSA is very similar 
in its support to what SNAP offers, but accessing it can be 
very challenging for these active duty military members. So 
there could be ways to fix it. The benefit level could be 
adjusted so it really was truly serving the realistic needs of 
members in the military. The application process could be 
streamlined, but the recommendations that we have seen are to 
sunset it, and we understand that, but it means that making 
SNAP not only available, but making individuals on the base 
aware of the fact that SNAP is available to active duty 
military members much more imperative because it will become 
their lifeline for support, especially at the lower-ranking 
enlisted levels.
    Mrs. Kirkpatrick. And what is being done to streamline the 
SNAP process? I mean, that is going to be what they have to 
rely on.
    Ms. Leibman. Yes.
    Mrs. Kirkpatrick. Are we educating them, are we 
streamlining that process to make it better for them?
    Ms. Leibman. There is certainly a great deal of outreach 
that is being done. I know that one of the reasons that for 
MAZON this became a real priority issue was to do some outreach 
in addressing the lack of awareness about SNAP and its 
availability. But, the most important fix that we see as 
essential here is the treatment of BAH and the way that it is 
treated for other Federal nutrition programs, that is, that it 
must be excluded, or the ability to access those benefits will 
be moot because nobody will qualify. It is an inconsistency and 
government policy and law that really needs to be corrected.
    Mrs. Kirkpatrick. Thank you. I have just about 30 seconds 
left. I want to ask really quickly, I represent 12 Tribes in my 
district, and food insecurity and hunger are huge issues for 
Tribes and can you just quickly, in about 20 seconds, tell me 
what you know is being done for Tribal communities?
    Ms. Leibman. Yes. I know that hunger and food insecurity 
among the Navaho Nation is at 75 percent, which is outrageous. 
There are programs and organizations working with government to 
try to address these problems that are not only systemic, but 
deeply rooted. And as many of these subpopulations are there, 
it is a complicated and challenging set of issues that have to 
be looked at and have to be addressed.
    Mrs. Kirkpatrick. Thank you. I thank the panel.
    I yield back. I thank the Chairwoman and Ranking Member for 
your courtesy.
    The Chairwoman. Thank you.
    The chair now recognizes Congressman Crawford, for 5 
minutes.
    Mr. Crawford. Thank you, Madam Chair.
    Ms. Leibman, I want to go back to the question that Mrs. 
Kirkpatrick raised. If I understand this right, walk me through 
this, you are saying that a junior enlisted person would have 
to ultimately meet with the installation commander to get 
authority to participate in certain benefits?
    Ms. Leibman. They don't have to go all the way up the 
chain-of-command. What we have at learned anecdotally is that 
it is often the case, because those people that they normally 
would get information from and assistance from don't know, and 
so they check up the chain-of-command. And that individuals 
have concerns about who is going to know that they have sought 
out these benefits, and what that might do to their security 
clearance, and what it might do in terms of their treatment by 
their colleagues and by their superior officers.
    Mr. Crawford. Ms. Tebbens, did you experience anything like 
that?
    Ms. Tebbens. I actually never, in the 8\1/2\ years that I 
was affiliated with the Navy, I never even heard mention of 
that program. I actually only learned of it about a year ago 
when I initially started working with MAZON, but I have never 
heard of it, even through other spouses or anything. I didn't 
even know it existed.
    Mr. Crawford. So when you started to apply for programs 
like WIC, which you mentioned that you availed yourself of was 
that application made off the installation, or was there an 
office on the installation that could help you get those 
benefits?
    Ms. Tebbens. No, I went to our local WIC office, which was 
just a small office in our town in like a private office 
building----
    Mr. Crawford. Right. So it was administered by the county, 
so it wasn't--there was no installation liaison or anything 
like that?
    Ms. Tebbens. No. I know it can be different. Part of the 
problem is inconsistency between bases and where you are 
living, and at least in my experience where we were, when we 
went to the Navy Marine Corps Relief Society on the subbase in 
Bangor, all they really knew, and it might be different at 
other Navy Marine Corps offices, was just the Military Star 
credit card. That was the only advice they could give us.
    Mr. Crawford. Okay. Let me go a different direction here. 
You mentioned that you were on WIC for a period of time, and 
that once you improved your employment situation then you 
transitioned off of WIC.
    Ms. Tebbens. Yes.
    Mr. Crawford. Was that something that you just did on your 
own, or was there a requirement to re-certify your eligibility 
at any point in time?
    Ms. Tebbens. When we moved from the Kitsap Peninsula over 
to just north of Seattle, since we were switching WIC offices, 
every 6 weeks you get vouchers, so you have to go in, and I 
forget the timeframe for re-inputting all of your financials, 
and all of that.
    Mr. Crawford. It is kind of an ongoing certification 
process for WIC. Is that your----
    Ms. Tebbens. Correct. Yes, you are not like just given 
vouchers for the whole year. I think it is in 6 week increments 
and that might have changed from then, but it is very short 
increments of time you get the bundle, and then you keep having 
to go in and meet with them about various things.
    Mr. Crawford. Okay.
    Ms. Tebbens. When I found my full-time job, I was realizing 
that we weren't using as much of the voucher each time, so I 
just realized, I told them at my next meeting I don't need this 
program anymore.
    Mr. Crawford. Okay. Let me ask you this. I am a military 
brat, grew up on military installations, served in the military 
myself, and I know that at the time that I served, there was a 
thing called separate rations. So if you are an enlisted 
member, you would get a meal card, unless you were married or 
unless you were on a special duty where you couldn't access the 
chow hall at specific hours, so you would be given separate 
rats. Does anything like that exist now?
    Ms. Tebbens. The only thing that I know of is----
    Mr. Crawford. They might call it basic allowance for 
subsistence.
    Ms. Tebbens. Yes. Yes. So the BAS. It depends. If you are 
deployed then you don't get it because the ship is feeding you, 
but when you are back onshore, you do. So there were definitely 
times over the 8\1/2\ years where sometimes we had it and 
sometimes we didn't have it, just depending on what my 
husband's point in his career was.
    Mr. Crawford. I understand. Thank you. I appreciate you 
sharing your testimony.
    And, Madam Chair, I ask that you might consider maybe a 
joint hearing with this Subcommittee and Armed Services to 
address the nutritional issues that have been brought up in 
this hearing.
    The Chairwoman. Yes. Absolutely.
    Mr. Crawford. I yield back.
    The Chairwoman. Thank you.
    The chair recognizes Congresswoman Lujan Grisham, for 5 
minutes.
    Ms. Lujan Grisham. Thank you, Madam Chair. Thank you to the 
panel.
    I appreciate you being here. We are going to have a joint 
colleague effort here because of the statements that my 
colleague from Arizona, Representative Kirkpatrick, in addition 
to my colleague from Arkansas, Representative Crawford. In New 
Mexico, we have permanent SNAP lines at the commissary on the 
Air Force base, because we have such high poverty rates and 
such high rates of other issues, that it is more commonplace 
than it should be. And it really speaks to a larger problem. We 
certainly want to make sure that folks who are entitled to 
those benefits get those benefits, and that we don't put the 
kind of barriers in place that those families are food-
insecure. But, it speaks to a larger problem that we need those 
benefits for enlisted personnel in the military, and in so many 
other work environments in this country. And I really want to 
thank MAZON for working with so many New Mexico partners, 
including the Center on Law and Poverty, and Appleseed, and 
Road Runner Foodbank, because I state it all the time. I keep 
hoping that there is going to be a sooner-rather-than-later 
position from me here where I get to say that those rates are 
dramatically changing in my state, but we have some of the 
highest hunger and poverty rates in the country.
    And as a result, looking at different populations, we are 
now really struggling with the veteran population as a subset, 
and the high rate of food insecurity. The Road Runner Foodbank 
has told me that 26 percent of the clients that they are 
serving, contains at least one member of either serving or has 
served in the U.S. Military. In our state, the unemployment 
rate for post-9/11 veterans is nearing ten percent. This trend, 
unfortunately, is that it is growing, that we are not shrinking 
that. And while 50 percent of New Mexico veterans are employed 
after they exit, according to the Veterans Employment and 
Training Service, which is great, the average reported salary 
still makes a family of four eligible for SNAP. You highlighted 
in your testimony the number of military families that are, 
frankly, in danger of losing their SNAP benefits, and that you 
are expecting 60,000 veterans to lose their benefits because of 
the expiration of the work requirement waivers for able-bodied 
adults without dependents. I am very concerned about that very 
same thing, where New Mexico has a higher per capita average of 
veteran populations in our state and in my district. But, 
despite our severe economic issues in New Mexico, our Governor 
has not only chosen to reinstate the work requirements as of 
January 1, but is also planning to expand them now to include 
people aged 16 to 59, and parents of children over 13 years. I 
have no doubt that this is going to further exacerbate the 
problem that you have testified about, and it means that these 
families never get a chance to become whole. We are not really 
addressing that opportunity aspect, if you will, by making sure 
that their basic needs are met.
    Can you tell me what we can do here, as Members of 
Congress, to really think about the weight balances, because I 
don't think we do that very effectively, right? So, we want 
folks to get work opportunities, and we don't want being 
eligible for public benefits to create an environment where you 
are not succeeding and moving ahead. We don't want to create a 
requirement that makes someone choose between that job, or any 
job, or no job at all, and those benefits, and exacerbate these 
poverty issues and stigma issues. What can we do to create 
those balances more effectively, and recognize the populations 
that we really are hurting?
    Ms. Leibman. I think that one of the challenges of having 
to access and rely on government benefits is whether or not 
those benefits are enough to provide the kind of financial 
stability that you need to move your family out of poverty, to 
provide the kind of security that you need in order to get an 
education, get a well-paying job, the jobs that people can 
access that are readily available in many communities pay below 
a living wage, which means that people cannot get off both 
assistance and maintain the job. So the challenge of the 
limitations on how long you can be on benefits, what the 
benefits are actually paying you, plays into a system that 
doesn't provide adequate childcare or subsidized childcare, so 
both parents can't work. For households that are headed by 
single parents, particularly those headed by women, those 
challenges are exacerbated by other kinds of barriers to 
getting gainful employment. So the complexity of the interplay 
between these issues means that Congress needs to take a good 
hard look at securing the level of benefits at a rate that 
provides people with financial stability, and is a realistic 
safety net that allows them to get security and then move off 
of benefits. For those for whom gainful employment is no longer 
an option because they are either disabled or they are too 
senior to work, then we need to think about systems and how 
those play into other kinds of supports that allow people to 
live with dignity as they age, and they can provide themselves 
and their families with the kind of support that they need.
    Ms. Lujan Grisham. Thank you.
    Mr. Schneidewind. Congresswoman, one of the things we are 
really concerned about at AARP is any attempt to expand 
eligibility requirements so they really negatively impact 
people above 50, there is some talk about raising eligibility 
to 59, and people in that age category have a much harder time 
finding new employment. That has been demonstrated. So any 
increase in the age requirement is going to be very harsh for 
those included.
    Ms. Lujan Grisham. Thank you.
    I yield back.
    The Chairwoman. Thank you.
    The chair recognizes Congressman Benishek, for 5 minutes.
    Mr. Benishek. Thank you, Madam Chair. I would like to thank 
the witnesses for being here, particularly you, Ms. Tebbens. I 
really congratulate you for the courage to be here today and 
talk about your story.
    Ms. Tebbens. Thank you.
    Mr. Benishek. I am a firm believer in public-private 
partnerships, and really believe that many of these nonprofit 
groups--such as you represent here today--are very helpful in 
knowing more about the individual than the Federal Government 
does, and able to better figure out the milieu in which that 
individual lives, and how to best help the people that you are 
serving. I believe that leveraging Federal dollars to help 
people like you, and other groups too, is really the best way 
to help people.
    I represent the northern half of Michigan, which is a very 
rural area. It is very-low-income. We have a lot of veterans. 
We have a lot of seniors. The things we are talking about here 
today at this Subcommittee are very pertinent to where I live. 
And I am also on the VA Committee. I am actually the 
Subcommittee Chairman for Health. And I would like to talk 
about our veterans a little bit.
    Private organizations working to help feed veterans could 
use a little help from the VA. And I would like to learn from 
each of the representatives of the organizations how they work 
with the VA currently, and what can be done either with SNAP or 
with the VA to make this easier for you all to help them.
    Ms. Leibman, would you start in trying to address that?
    Ms. Leibman. Absolutely. We have done a webinar training 
for VA social workers and caseworkers, and we are about to do 
another one. We have been working with the VA to help them 
communicate with and partner with the USDA, especially because 
there is so much overlap between the issues of nutrition and 
health, and the access points for many veterans into the system 
have to do with their disabling conditions and/or their health 
conditions, and to make certain that those health professionals 
understand that there are resources available to help support 
the nutrition of those vets that are coming to them. The VA 
alone can't resolve all of these challenges, and I think that 
is why we are here to look to Congress to make certain that 
there is strong direction here that looks to supporting those 
institutions and those government programs that are designed to 
provide them with adequate nutrition benefits, and that lies 
here with Congress.
    Mr. Benishek. Mr. Faris, do you have any input on my 
question that you----
    Mr. Faris. The relationship with the VA can always be 
improved. This past year, there was something like 500,000 
veterans that were served by Meals-on-Wheels programs. 
Depending on where the program is located, it will be higher 
and lower. We are located just south of Dallas and Fort Worth.
    Mr. Benishek. Does the VA help you then? Does the VA 
contribute to the funding of this?
    Mr. Faris. No, sir. No.
    Mr. Benishek. Mr. Schneidewind, do you have any comment?
    Mr. Schneidewind. Well, I am glad you raised the issue of 
public-private partnerships because one of the things that we 
have tried to encourage is the increased uptake of fresh fruits 
and vegetables, and we have this AARP Foundation working with 
not only local farmers' markets, but food retails to pilot 
programs where the individual citizen or recipient of SNAP 
could go in and get private incentives, in effect, to purchase 
more fresh fruits and vegetables from local vendors and also 
supermarkets. And we have had great success with that. And what 
we are looking toward is to encourage the private-sector to 
help us improve the health of recipients through increased use 
of fresh fruits and vegetables. So we think that has a lot of 
potential to improve health over long term and utilize the 
private-sector.
    Mr. Benishek. Mr. Faris, I would like to also ask you 
another question. We just have a minute left, or \1/2\ a 
minute. My district is very rural. Is your area rural as well? 
We have a lot of difficulty with elderlies, people living 
remotely, how does that work?
    Mr. Faris. Yes, sir. We have roughly a 1,700 mile\2\ 
service area where I am. Approximately \1/2\ of it is suburban, 
the other \1/2\ is extremely rural. And it is almost like a 
step back in time when you go down some of those county roads 
out there, and it is extremely difficult. Some of the more 
rural routes we have, it may take an 1\1/2\ to 2 hours to get 
to some of those, compared to Arizona or New Mexico, ours is a 
very small expanse compared to there, but it is quite 
difficult, adds to the cost, and it is the challenge.
    Mr. Benishek. Thank you. I am out of time.
    Thanks, Madam Chair.
    The Chairwoman. Thank you.
    The chair recognizes Congressman Abraham, for 5 minutes.
    Mr. Abraham. Thank you, Madam Chair. And I thank the 
witnesses for being here.
    Ms. Leibman, I will direct this question to you, but, Ms. 
Tebbens, you can surely jump in with your experience.
    As you recall, the 2014 Farm Bill did include some funding 
upon existing SNAP employment and training programs, and to 
test some new strategies to determine the, I guess, the most 
effective ways to help SNAP recipients gain and retain 
employment that leads to self-sufficiency. And I was pleased to 
see that the Washington Department of Social and Health 
Services was awarded a grant through this pilot program to help 
individuals with significant barriers, including veterans, 
through comprehensive case management and work-based learning 
opportunities. And many of these jobs that these men and women 
performed overseas are very difficult, we know that, and they 
are very different from the employment opportunities that we 
have here at home. What can you tell us about the unique nature 
of the employment challenges some of our veterans face?
    Ms. Leibman. I think that it is important when we think 
about this question and these issues to bear in mind that the 
age range of veterans is extraordinary. It is not only 
individuals who have just demobilized and are in their 
twenties, but it is also people who served years ago and there 
are categories as veterans because they served our country 
honorably and are now in their fifties or sixties. And as my 
colleagues here from AARP and Meals-on-Wheels testified, the 
employment opportunities and access points for individuals who 
are in their fifties is very challenging. So you have a 
population that is not homogeneous, you have a population that 
for those who are younger are getting demobilized, they are 
getting demobilized in locations that may be unfamiliar to 
them, they may not be able to go home, they may not have family 
support systems. They may be in situations where they are 
getting retained for jobs and there are no opportunities, or 
those opportunities are being filled by people other than 
veterans. And there are the same kinds of challenges for those 
who have other kinds of employment challenges that exist for 
veterans as well. But it is complicated by the fact that they 
have been overseas at some period of time in their lives, or 
have been on-base for some period of time and now coming back 
into civilian population.
    Mr. Abraham. Okay, thank you.
    Ms. Tebbens, do you have anything to add to that?
    Ms. Tebbens. In terms of veteran employment, I am not 
really sure, but in terms of spouse employment, I know it can 
be really difficult, especially if you are in a position like I 
was as a teacher, or I have a friend who is a lawyer, or many 
other friends who are teachers or maybe hair stylists, anything 
that requires a license from the state, when you move every 3 
years, it can be very difficult if you have already had a 
really career going or a client base, or anything like that, 
and then you up and move, a lot of times you are not only 
starting over, but if your new state does not recognize that 
license, which is also often the case, it can be a huge 
impediment.
    Mr. Abraham. You have to retake the exam, or something like 
that.
    Ms. Tebbens. Yes, retake the exam or other things, which 
can also be very expensive and very difficult when you are also 
trying to situate your children in new schools and things like 
that. And, for instance, where we moved to, the Kitsap 
Peninsula, which is right across from Seattle, is very small 
and often very rural, and there is not a lot of opportunity. 
When we moved across to Everett, I was able to get a really, 
really excellent job and then we were fine, but I would have 
had to commute over to Seattle while we were living in the 
Kitsap Peninsula, which was difficult because we had one 
vehicle and a newborn. And that is about an hour away.
    Mr. Abraham. Okay.
    Ms. Tebbens. Yes.
    Mr. Abraham. And, Ms. Leibman, one last question.
    Ms. Leibman. Yes.
    Mr. Abraham. If we run out of time, you can certainly reach 
out to me afterwards. Going through this child nutrition 
reauthorization, we have been successful in identifying ways to 
streamline and improve child hunger programs, with the goal to 
make them more effective and more efficient. We have a child 
nutrition safety net that makes meals available during the 
summer and after school to all children who are eligible. What 
recommendations would you identify to improve and streamline 
these hunger programs such as SNAP for our seniors and veterans 
to make them more efficient, effective in reaching and 
providing services for our hungry seniors and our hungry 
families?
    Ms. Tebbens. In terms of the military, I would just say 
that even just informing military members that they might be 
eligible for any of the programs is really, really important. 
And then in regards to SNAP, removing the BAH component like 
they do with the WIC Program. And, last week, I just wanted to 
check and see, if I was in this same exact situation I was when 
I was pregnant, if I reconfigured it for now with SNAP what we 
would get, and if I omitted the BAH and also zeroed out all of 
the costs for housing, it would still only be $66 a month that 
we would be getting. So not a huge amount of money.
    Mr. Abraham. Thank you.
    I am out of time, Madam Chair. Thank you.
    The Chairwoman. Thank you.
    The chair recognizes Congressman Yoho, for 5 minutes.
    Mr. Yoho. Thank you, Madam Chair. I appreciate you all 
being here. This will be the last questioning.
    And I come from the State of Florida, and as you probably 
are well aware, we are the third largest in the country. I live 
in a district that has the second largest VA community in the 
country. It has over 121,000. People joke that Florida is the 
state of the newlywed or nearly dead. I don't know how you want 
to take that, but we serve a large area. We have rural and we 
have also a lot of military veterans, as I have talked about, 
both retired and active. And we also have checked with our 
office for this meeting and we get one to two inquiries about 
every other month for food assistance. And, of course, we 
automatically deal with them. And I can relate to G.T. Thompson 
because we have been on a WIC Program, my wife and I, about 100 
years ago in our youth, and I know the importance of those.
    And, Ms. Leibman, you were talking about, there are 2,000 
to 22,000 veterans estimated of needing food assistance, and I 
was looking at the numbers in here, and my question is why has 
the participation been so low? And I know we have covered a lot 
of that, but again, I would like to hear your answers of why 
you think it is so low. Is it underreporting?
    Ms. Leibman. Well, the 2,000 to 22,000 figure is in active 
duty, that is the estimate of the currently serving that are on 
SNAP.
    Mr. Yoho. Okay.
    Ms. Leibman. And so one of the things that we saw as a 
challenge when we began this work was that it is very difficult 
to get complete and accurate data, and that is why you could 
have a span of numbers that is quite that large, and----
    Mr. Yoho. Okay. I want to cut you off there. And as I did 
your numbers here, and you went to the Blue Star Survey, which 
I have pulled up here, when I look at the numbers it said it 
was, seven percent of the 2015 reported, more than seven 
percent responding active duty military and spouses face food 
insecurity. And if I take that number of the 19,455 active 
duty, that comes down to 1,900--well, 1,362 individuals. And I 
guess my question is, is this a program that we need to expand 
on a Federal bureaucracy, and increase the bureaucracy, or is 
it simpler to go into the military and say you need to pay 
these people more?
    Ms. Leibman. So the----
    Mr. Yoho. And I want to go to Ms. Tebbens after this.
    Ms. Leibman. Far be it from me to suggest that the military 
should not pay people more money. I do think that that would be 
an important aspect of the entire picture here. But in the 
interim, until that would happen, and for those people for whom 
those additional funds would not be adequate enough to cover 
their family's needs, the military does have a responsibility 
to make sure that its members are aware of and given access to 
the Federal programs that the rest of America accesses and 
enjoys as a part of our rights as citizens to be relying on our 
government to help us when we are vulnerable. And the challenge 
is that the numbers do not tell the story yet because we do not 
have accurate and complete numbers.
    Mr. Yoho. I have lost my microphone. I agree with that, 
that we need to make sure people are getting the assistance 
they need, but I don't want to go down the road of increasing 
and growing a government program when there is a simpler 
solution. The government is not always the answer in this.
    Ms. Tebbens, in your experience, and you alluded to this 
that you guys moved how many times?
    Ms. Tebbens. Gosh, three different duty stations.
    Mr. Yoho. In how long, 8 years?
    Ms. Tebbens. Yes.
    Mr. Yoho. All right, three different duty stations. And I 
understand the disruption of the workforce. And you are a 
school teacher, correct?
    Ms. Tebbens. Yes, I was, yes.
    Mr. Yoho. Okay. And so each time you move, I understand 
there is a transition period that you have to go through, and 
in dealing with what you were talking about, cosmetology, or 
any other field, if you are not licensed in that state, we have 
addressed that and we have passed legislation to look at 
reciprocity between the states, and I think that is something 
that can solve this.
    In your active duty and your--or your husband, as a 
military family did you get a food allowance, because I know in 
the Coast Guard they get about $350 per month in food 
allowance? Did you have that, and does it go up with the size 
of your family?
    Ms. Tebbens. Yes. I don't recall if it increases with the 
size of the family. What I do remember about the BAS allowance 
is that it really hinges more on the active duty person and 
where they are in terms of being currently stationed. So, for 
instance, if my husband was around and just working on the 
base, we might get a few hundred dollars a month, let's say, 
but then if he is deployed, the military is looking at it as, 
``Well, the galley on the ship is feeding him,'' so because it 
is not really about the whole family, it is more focused on the 
active duty member. And so when they are gone for 7 months on a 
carrier and that is removed, then that could be a couple of 
hundred dollars out of the larger family.
    Mr. Yoho. Okay. And I appreciate you guys coming here 
because those are issues that we need to address. We just want 
to make sure we do it the most efficient way to serve the 
families of our military. And I am sorry I didn't have time to 
go to the elderly, since I am one now, but I appreciate you all 
being here.
    The Chairwoman. Thank you.
    I appreciate the panel's help in understanding the 
challenges faced by seniors, veterans, and active military 
members. They are, indeed, special populations that we must 
consider as we look at ways to strengthen SNAP and the other 
food assistance programs.
    You have certainly given us plenty to think about as we 
continue to look at the past, present, and future of SNAP. No 
program is perfect, we understand, and we can always do better.
    Under the rules of the Committee, the record of today's 
hearing will remain open for 10 calendar days to receive 
additional material and supplementary written responses from 
the witnesses to any question posed by a Member.
    This hearing of the Committee on Agriculture, Nutrition 
Subcommittee, is adjourned.
    [Whereupon, at 11:42 a.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
 Submitted Letter by Hon. Vicky Hartzler, a Representative in Congress 
   from Missouri; on Behalf of Roger P. Allison, Vietnam Veteran and
            Executive Director, Missouri Rural Crisis Center
January 6, 2016

  Hon. Vicky Hartzler,
  Member of Congress,
  Washington, D.C.

    Dear Representative Hartzler,

    I am writing today on behalf of The Missouri Rural Crisis Center 
(MRCC) regarding the upcoming hearing of the House Agriculture 
Subcommittee on Nutrition related to the Supplemental Nutrition 
Assistance Program (SNAP) and special populations on January 12th. We 
know that this hearing has not yet been made public, but we hope that 
you will be able to attend.
    MRCC is a statewide farm and rural organization with over 5,000 
member families across the great state of Missouri. For 3 decades we 
have worked to improve the lives of family farmers and rural families 
whose communities have historically depended upon agriculture and small 
businesses as their economic motor. With decreasing numbers of farmers 
and declining economies in rural communities, our programs have been 
crucial in rural MO.
    Since 1986, one of MRCC's top priorities has been to address food 
and nutrition needs of rural families through our Rural Food 
Cooperative Program that helps provide limited resource families with 
access to fresh fruit and vegetables, bread, canned goods, staples and 
Missouri family farm raised meat. Literally tens of thousands of rural 
Missourians have participated in this program since its inception, many 
of whom are senior citizens and veterans. This year we distributed over 
200,000 pounds of food to rural families.
    MRCC sees first-hand every single month how the issues of food 
insecurity and hunger affect rural Missouri families. In your 
Congressional district, we operate MRCC Food Co-op Programs in Morgan 
County, Pettis County and Randolph County. In this year alone, over 
1,500 people in those counties relied on our program to meet their food 
needs. Even with our Food Co-op program, many families still need to 
rely on the food stamp program in order to meet their basic nutritional 
needs. More and more, Missourians are faced with having to make 
decisions each month about whether to buy their medications or to buy 
food. This is just wrong.
    Although MRCC and the Supplemental Nutrition Assistance Program 
have helped alleviate hunger in rural Missouri by supplementing the 
food budgets of thousands of limited-income households, for many rural 
households, food insecurity remains a serious problem in rural 
Missouri. In 2014 USDA reported that Missouri was the second worse 
state for food security among is citizens. 17% of Missourians reported 
skipping meals because of lack of money.
    Because rural communities have higher rates of senior citizens and 
veterans, these are the people who are often the most impacted by lack 
of adequate food and economic opportunity in their local communities. 
They are also the people who frequently step up to help their fellow 
Missourians. In Sedalia, our Food Co-op Program depends on people like 
Jerry and Rich and James who are all veterans who not only participate 
in the program, but who have also volunteered every month for 10 years 
to help distribute food to people in their community. Our Food Co-op in 
Gravois Mills was started by Missouri Veterans and has been held in the 
local VFW every month since 1988.
    When times are tough, we count on veterans. They were there for us 
as Americans when they served our country, and now we should be there 
for them.
    This is why we are respectfully asking that you attend the House 
Agriculture Subcommittee on Nutrition Hearing on the Supplemental 
Nutrition Assistance Program (SNAP) and special populations on January 
12th.
    We are very pleased to learn that Abby Leibman from MAZON: A Jewish 
Response to Hunger will be testifying at the hearing about veterans and 
hunger. MAZON has been great partner in MRCC's anti-rural hunger work, 
so we hope that it will be possible for you to attend the hearing.
    Thank you for your time and consideration on this vitally important 
issue.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

Roger P. Allison,
Vietnam Veteran & Executive Director, Missouri Rural Crisis Center.
                                 ______
                                 
Submitted statement by Hon. Michelle Lujan Grisham, a Representative in 
 Congress from New Mexico; on Behalf of New Mexico Association of Food 
                                 Banks
    New Mexico is the 5th largest state in terms of land mass (121,589 
miles\2\). In contrast, we are 36th in population (with a population of 
just over 2,000,000). That translates to just over 17 people per square 
mile.
    Outside of the interstate corridors (I-25, I-40 and I-10), it is 
not uncommon to have a 40 to 60 mile drive to reach a full service 
grocery store or basic services like health care facilities (and in 
some areas the drive is even longer). Catron County, located in western 
New Mexico, doesn't have a single grocery store in the entire county. 
These factors result in a large number of ``food deserts'' around the 
state. Couple the ``food deserts'' with the fact that New Mexico is an 
actual desert, with limited large scale agriculture, and you can see 
the scope of our food acquisition and distribution challenge.
    In addition, the large geographic area and sparse population 
creates ``resource deserts'' with large sections of the population 
having limited access to medical facilities and other support 
resources.
    Our next challenge is limited employment options, including, but 
not limited to:

          Very few corporate employment bases--those that do exist are 
        mainly on the I-25 corridor.
          A large number of jobs that traditionally pay higher wages 
        are in cyclical industries like mining, oil & gas, and 
        agriculture. This can result in seasonal layoffs or sudden 
        increases in unemployment which places a great strain on 
        support network resources (in recent years, there was a mining 
        layoff in southern New Mexico that resulted in more than 20% of 
        the workforce facing immediate unemployment).

    In regard to special populations, many of the people we serve are 
either elderly or military veterans (and in many cases both). 21% of 
the clients we serve are over the age of 60, and 26% of our clients 
report having at least one member that is serving or has served in the 
military.
    Our military veterans face challenges from limited employment 
opportunities, restricted or no access to full scale mental health 
services, and transportation challenges for those coping with physical 
disabilities. Our member food bank serves the thousands of veterans 
that need assistance through our statewide network of partner agencies 
(food pantries, soup kitchens, community centers, shelters, senior 
centers, mobile pantries and other meal provision programs). But the 
nonprofit emergency food sector cannot meet the full need of all those 
needing food assistance and support services. In addition to continued 
access to food programs like SNAP, our veterans need access to 
employment opportunities, health care and physical therapy, and mental 
health care programs. When those systems are in place to serve the 
needs of veterans, we see so many success stories like Michael.
    Michael is a Vietnam-era U.S. Marine Corps veteran and one of our 
former clients whom we met at the New Mexico Veterans' Integration 
Center (VIC) recently. Ten years ago, Michael was living homeless in 
Albuquerque when VIC first opened its doors.
    ``I was beyond fortunate to find them when I did,'' Michael told 
us. ``I just didn't know my odds of making it for much longer, no job, 
no steady food.'' Once Michael settled into their short-term housing 
program, Michael said he dove into earning some money to save with 
VIC's food distribution program while he built up cooking skills and 
looked for a steadier place to live. A few years later, Michael found 
that steady place to live right in Albuquerque with enough money saved 
up and a stable position to continue supporting himself.
    Yet, Michael was filled with gratitude for his time with VIC and to 
this day, he volunteers at VIC 4 days per week, starting each of those 
shifts by 7:35 in the morning.
    ``This place and what the food bank does to make the food possible 
here makes a great impact,'' Michael reflected with us. ``To go from 
homeless to having a place of your own just makes me want to help my 
fellow vets all the more.'' With tears in his eyes, Michael looked 
across the room and thanked everyone who helped him not only get the 
food he needed for nourishment. He also thanked other VIC staff who 
assisted him in securing his full Social Security and veteran's 
benefits which have helped him greatly arrive at where he is now.
    Michael's story is just one of thousands from across New Mexico. We 
urge the Committee Members to continue their efforts to identify the 
needs of special populations like military families and veterans and to 
support food programs and related services that provide essential 
support to those populations.
    Thank you for this opportunity to tell you about New Mexico, and 
thank you for the time and energy that you are giving to protect the 
interests of some of our most vulnerable people.
                                 ______
                                 
Submitted Letter by Hon. Suzan K. DelBene, a Representative in Congress 
   from Washington; on Behalf of Katharine Ryan, Policy and Research
                         Manager, Food Lifeline
January 12, 2016

    Chairman Conaway, Members of the House Committee on Agriculture:

    Washington State is one of our country's most abundant agricultural 
areas. We grow quality apples and onions that are known around the 
world. We also have a tremendous number of smaller farms, farmers' 
markets and farm stands that create opportunities for access to those 
healthy, fresh items.
    At Food Lifeline, we focus on sourcing food from farmers, 
manufacturers, and grocery retailers in our state, knowing that a 
tremendous amount of food in our country goes to waste. Unfortunately, 
despite these efforts we know that in Western Washington one in seven 
people is hungry, and even more kids--1 in 5--are unsure where their 
next meal will come from sometime during the year. Each year the food 
pantry, meal program and shelter agencies we work with serve more than 
700,000 unique individuals, many of whom also rely on programs like 
SNAP to get closer to making their food budget ends meet.
    Of those clients we serve, we know that 17% of them are seniors. We 
also know that nearly 40% of the households our agencies serve have at 
least one person currently or previously serving in the military. In 
King and Snohomish Counties, where a 40% of our state's population is 
located those rates are 58% and 62%, respectively. For those households 
with either a veteran or someone currently serving, 61% rely on SNAP to 
help feed their family.
    These groups face unique challenges, particularly in getting their 
food needs met. Food is one pivotal, grounding piece of a much larger 
puzzle that these individuals and families are trying to put together. 
Food should not be one of the things they should be worried about 
having enough of. Our shared values as Americans include taking care of 
those who are most vulnerable, including children and seniors, but also 
recognizing and taking care of our veterans who have served our 
country. Enough food on the table should be one of the things that 
should not be on their list of worries, concerns, and fears.
Meals Provided by Hunger Safety Net
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The charitable food system continues to distribute record amounts 
of food, but we cannot close the gap alone. In western Washington, SNAP 
provided an estimated 66% of meals in the hunger safety net in 2014. 
Other Federal programs such as WIC, school and summer meals were 18%, 
and our vast network of agencies provided 16%. SNAP is a lynch pin in 
the hunger safety net, one that the rest of us do the best we can to 
work around and fill in the gaps.
    Food Lifeline supports efforts to bolster SNAP benefits, and to 
increase the reach of the program as far as possible, to help as many 
as possible. Seniors and veterans are a huge part of the client 
population we serve, and we anticipate those numbers only increasing, 
moving forward.
    Thank you for holding a hearing on such an important topic, and we 
hope the Committee will take action to ensure that these key 
populations don't have to worry about going hungry again.
            Sincerely,

Katharine Ryan,
Policy and Research Manager,
Food Lifeline.
                                 ______
                                 
Submitted Letter by Hon. Ann Kirkpatrick, a Representative in Congress 
    from Arizona; on Behalf of Angie B. Rodgers, President and Chief
          Executive Officer, Association of Arizona Food Banks
January 14, 2016

  Hon. Ann Kirkpatrick,
  House Agriculture Committee,
  Washington, D.C.

    Dear Representative Kirkpatrick:

    As the Association of Arizona Food Banks representing our five 
member food banks feeding hungry Arizonans across the state, we are 
pleased to submit comments regarding the impact of food insecurity on 
veterans and military families. As the state with the third highest 
rate of food insecurity among children, we remain particularly 
concerned about military families with children. Thank you for hosting 
a Subcommittee hearing on Tuesday, January 12, 2016 to hear about SNAP 
and special populations.
    On an average, our member food banks serve approximately 128,000 
individuals each week. This includes children, seniors, disabled and 
working individuals, active service members and veterans. Our five 
members collectively serve every county in Arizona reaching households 
in need at 1,200 locations. We continue to see high levels of demand at 
our food banks and pantries and Arizona's unemployment rate remains at 
a stubborn 6.0% tied with Alabama and Mississippi for the 8th highest 
rate in the country.
    In the Hunger in America 2014: State Report for Arizona, client 
surveys reported that 23% of households have someone currently serving 
or has formerly served in the Armed Forces, military reserve or 
national guard. In 2016, our members are reporting that nearly 3% of 
the clients they serve are active duty military. For example, the 
Community Food Bank of Southern Arizona in Tucson estimates they served 
6,300 individuals with veteran and military services. Desert Mission 
Food Bank in Phoenix served an estimated 1,076 veterans and 22% of 
these were over the age of 65. The Yuma Community Food Bank is just 25 
miles from the Yuma Proving Grounds in a community with an unemployment 
rate of 20%.
    Many military families are too proud to access government benefits. 
For some, military housing subsidies may prevent them from receiving 
SNAP. Our servicemen and women deserve better. They are continuously 
focused on protecting our country and should not have to simultaneously 
be concerned about where their next meal is coming from. We urge you to 
take action to improve policies that will ensure our military and 
veteran neighbors and their families are well fed.
    Again, thank you for your attention and please contact me if you 
have additional questions.
            Sincerely,
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
            
Angie B. Rodgers,
President and CEO.
                                 ______
                                 
       Submitted Briefing by Jacobs & Cushman San Diego Food Bank
Jacobs & Cushman San Diego Food Bank Legislative Briefing
SNAP Eligibility for Low-income Military Families
House Committee on Agriculture, Subcommittee on Nutrition, SNAP and 
        Special Populations
About the Jacobs & Cushman San Diego Food Bank
    The San Diego Food Bank distributes food directly to people in need 
at 168 distribution sites throughout San Diego County every month. In 
addition, the Food Bank provides food to more than 400 nonprofits that 
operate feeding programs in communities throughout the county. These 
nonprofit partners collect food from our 80,000\2\ warehouse in 
Miramar and then distribute the food through food pantries, soup 
kitchens, shelters, low-income daycare centers, senior centers, 
churches, schools, and care centers for the elderly and disabled.
Serving Low-Income Military Families
    Last year, the Food Bank served more than 28,000 low-income 
veterans, active-duty military personnel, and their dependents every 
month. For many low-income military families, San Diego's high cost of 
living makes it difficult to put nutritious food on the table. These 
families struggle with our region's high rent, utilities, and food 
prices. In addition, military spouses have an unemployment rate of 
nearly 30% which is due in part to frequent relocation. Nationally, 25% 
of the nation's total active-duty and reserve personnel receive food 
assistance from food pantries and charitable programs across the 
country. In San Diego County, the Food Bank distributed nearly 500,000 
pounds of food to low-income military families last year.
The San Diego Food Bank Advocates for SNAP Eligibility for Low-Income 
        Military Families
    Food insecurity among low-income, active-duty and veteran families 
is a serious yet hidden problem. Roughly 95,000 active-duty military 
service members are stationed in San Diego County. While there are 
nonprofit food distributions solely for active duty and veteran 
families offered in San Diego and nationwide, this private assistance 
is not enough.
    SNAP, known as CalFresh in California, is a Federal food assistance 
program that provides a monthly benefit for food purchases via a debit-
like card to low-income households. Several factors, including 
household size and income, determine SNAP eligibility and benefit 
level. The USDA estimates that every dollar of CalFresh/SNAP 
expenditures generates $1.79 in economic activity.
    Some military service members, particularly more junior members of 
the military with dependents, may qualify for SNAP. Military service 
members who live on base receive their housing as an in-kind payment, 
and this in-kind payment does not count towards their income for the 
purposes of determining SNAP eligibility and benefits. However, the 
Basic Allowance for Housing (BAH) that military households living off 
base receive is counted, creating a disparity between service members 
who live on versus off base. BAH appears on a service member's paystub 
(LES), but is not counted as income for Federal tax purposes.
    From 2003-2011, California did not count BAH as income for the 
purposes of SNAP eligibility. However, the state was instructed by USDA 
that it must count BAH as income. In interviews and surveys of active 
duty military households coming to nonprofit food distributions, 
households who did apply for SNAP after enlisting typically cite their 
BAH as the factor that pushed them over the income eligibility line. It 
is unknown how many service members currently receive SNAP because 
military status is not required data when applying.
    No military family should go hungry. The Jacobs & Cushman San Diego 
Food Bank advocates for the Basic Allowance for Housing to no longer be 
counted as income when calculating the eligibility and benefits level 
of military families for SNAP.
TEFAP Serves Low-Income Military Families
    The Food Bank provides food assistance to low-income military 
families through the USDA's TEFAP (The Emergency Food Assistance 
Program) which serves every zip code in San Diego County--at more than 
90 distribution sites every month.
    Three of these distribution sites serve low-income military 
families in need of monthly food assistance.

    On average, more than 4,100 military personnel and their dependents 
receive support from the Food Bank at TEFAP distributions every month 
in Miramar, Tierrasanta, and Oceanside.
Recent Data on Low-Income Military Families
  <bullet> Military families spent $103.6 million in Food Stamps last 
        year at commissaries.

  <bullet> The unemployment rate for military spouses aged 18 to 24 is 
        30%.

  <bullet> Frequent relocation makes it difficult for military spouses 
        to secure employment.

  <bullet> Base pay for a new soldier with a family is roughly $20,000, 
        excluding housing and food allowances.

Pounds Distributed to Low-Income Military Families by the San Diego Food
                                  Bank
                               FY 2014-15
------------------------------------------------------------------------
                                             Pounds of Food Distributed
  Nonprofit Military Distribution Partner             2014-2015
------------------------------------------------------------------------
    Brother Benno-Camp Pendleton                          10,313
                         Embrace                             975
Jewish Family Service of San Diego                        18,451
                                Ladle Fellowship          39,156
                Navy Wives Food Locker                   130,658
    Military Outreach Ministries                         119,731
 San Diego Armed Services (YMCA)                         121,095
    San Diego USO Airport Center                          14,451
      Veterans Village San Diego                          15,092
                                           -----------------------------
  Total...................................               469,922
------------------------------------------------------------------------

The Faces of Hunger in San Diego County
The Emergency Food Assistance Program
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Families receiving food on TEFAP face short-term economic 
        hardship. Many households, including San Diego military 
        households, have at least one working adult but struggle to put 
        food on the table.

                     TEFAP Income Guidelines 2015 **
------------------------------------------------------------------------
                                             Max. Household Income: 150%
              Household size:                            FPL
------------------------------------------------------------------------
                               1                         $17,505
                               2                         $23,595
                               3                         $29,685
                               +             + $6,090 per person
------------------------------------------------------------------------
** This program serves households living below 130% of the FPL.

Quotes from Low-Income San Diego Military Parents
          ``I don't know what we'd do without the San Diego Food Bank. 
        I would be forced to feed my children top ramen, noodle soup, 
        rice and pasta which aren't nutritious.''
                                                          Edna McCurdy.

          ``People think that military families are completely taken 
        care of, but we are just getting by. I've found it's really 
        difficult to get a job as a military spouse. When employers 
        interview me, they ask why I move around all the time. They 
        ask, `Why were you here for a year, and here for 2 years, and 
        here for only 6 months?' Forget having a stable career as a 
        military spouse.''
                                                        Ashley Padgett.

          ``I'm very proud to serve, and the San Diego Food Bank helps 
        my family so it's one less thing I have to worry about when I 
        am away overseas.''
                                                          Bryan Wilson.

    For more information contact:

  Chris Carter, Vice President of Communications,
  Jacobs & Cushman San Diego Food Bank,
  <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="284b4b495a5c4d5a685b49464c414d4f474e47474c4a49464306475a4f">[email&#160;protected]</a> D 858-863-5131.
Edna's Story
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    On a crisp, sunny morning in the San Diego neighborhood of 
Tierrasanta, Edna McCurdy, a young mother of three, holds her 1 year 
old son as she stands in line for food assistance at the Food Bank's 
food distribution for low-income military families.
    ``I came out here today to get help from the San Diego Food Bank. 
We were transferred here from South Carolina a month ago, and we were 
shocked by the high prices. The cost of living is extremely high in San 
Diego. When we moved here, the Navy increased the housing allotment to 
cover the extra rent, but it doesn't cover food. When we moved from 
South Carolina to San Diego they increased our Basic Housing Allowance 
but they do not increase my husband's pay,'' explains Edna.
    Edna's husband, Duane, is an EN3 Petty Officer Second Class in the 
Navy and works as an engine mechanic. They have three children. ``My 
youngest is Landon. He's 1 year old. Hunter is 4 years old, and my 
oldest is Autumn. She's 7 and in the first grade,'' beams Edna as she 
smiles at Landon.
    This is Edna's second time receiving help from the Food Bank. ``The 
first time I came was last month because the only thing I had in the 
kitchen was a little bit of meat that my neighbor gave me. My husband 
was on deployment, and my neighbor suggested that I get help from the 
Food Bank, so I came and got enough food to get us through to pay 
day,'' explains Edna.
    ``Despite the increased cost of rent for housing and the price of 
food out here, my husband's pay doesn't go up, so we deal with what 
we're given, and the Food Bank helps us a lot. I still have car 
payments and my car insurance also increased when we moved out here,'' 
says Edna.

    ``I don't know what we'd do without the San Diego Food Bank,'' 
explains Edna. ``I would be forced to feed my children top ramen, 
noodle soup, rice and pasta which isn't nutritious. The food from the 
Food Bank that we receive is nutritious, well-rounded and meets my 
children's dietary needs--the meats, the whole grains, the fruits and 
vegetables. It all helps so much because we can't afford to buy them at 
the supermarket,'' explains Edna.

    ``My kids love the fresh produce and fruit that we get from the 
Food Bank. Back home in South Caroline we used to have a garden where 
we grew fresh vegetables, but you can't do that here in San Diego. I 
used to grow watermelon, cantaloupe, bell peppers, zucchini, squash, 
broccoli, potatoes and corn. My kids would help me, and it was a great 
activity that they loved doing. I can't do that here. There's just no 
room and there are rules about digging where we rent,'' says Edna.
    ``We love coming to this distribution site because we wait in the 
park for our number to be called, and the children get to play in the 
playground, and I can to meet other military moms which is great for me 
since we are new to San Diego.''
    Edna walks through the food line and she receives tomatoes, 
asparagus, bell peppers, zucchini, apples, oranges, canned soup, canned 
meats, canned vegetables, cereal, fruit juice, bread, oatmeal, and 
rice. As she receives the food, Edna explains how much the assistance 
helps her family.
    ``The donations help us out a lot, especially with a family of five 
living on a limited budget. The Food Bank truly is a blessing for us. 
We are thankful for all of the donations,'' says Edna as she puts the 
last bag of groceries in her car.
                                 ______
                                 
 Submitted Statement by Kristen Aster, Manager, Hunger Advocacy Network
    Thank you to the Members of the Committee for the opportunity to 
submit the following written statement for this important hearing on 
special populations and the Supplemental Nutrition Assistance (SNAP) 
program.
    The Hunger Advocacy Network (HAN) is a collaborative of 
organizations, including human service agencies, food banks, and 
advocacy organizations, working to address hunger in San Diego County 
through policy change. Launched in 2012, HAN seeks to empower San Diego 
organizations to make a long-term, systemic impact on hunger policy in 
addition to the critical community assistance they provide on a daily 
basis. HAN has been working on the issue of military hunger since 
nearly the collaborative's inception.
    According to the San Diego Military Advisory Council, as of 2013 
over 100,000 members of the Navy and the Marine Corps are stationed in 
San Diego County. Both of San Diego County's food banks report serving 
a significant number of these military personnel and their families. 
The Jacobs and Cushman San Diego Food Bank estimates that their 
distribution network serves 28,000 active duty military and their 
dependents every month. Feeding America San Diego estimates that 
roughly 27% of the 143,900 households (encompassing 473,500 people) 
they serve annually include a member who has ever served in the 
military, and that 10% of all households receiving food assistance 
include someone currently serving in the military. Together, they 
supply food to at least eleven distributions every month that are 
focused on active duty military families. Some of these distributions 
occur on base at Camp Pendleton, and others occur at military housing 
sites, schools with high enrollment of military families, and elsewhere 
around the County.
    Concerned with the prevalence of military families seeking 
emergency food assistance, the Hunger Advocacy Network, with its member 
and partner organizations, began researching why so many military 
families were seeking emergency food assistance in San Diego County. 
The theme that repeatedly emerged was that many of these military 
families had applied for, but not received, Federal Supplemental 
Nutrition Assistance Program (SNAP) food assistance. The primary reason 
cited for their ineligibility was the treatment of their Basic 
Allowance for Housing (BAH). An additional recent survey of military 
families coming to one San Diego military food assistance provider 
found that roughly 20% of recipients had applied for SNAP, but that 
none were receiving it; nearly all reported the housing allowance as 
the factor preventing their enrollment in the program. Meanwhile, 
nearly 13% of survey recipients reported that in the last 12 months, 
there were times when they did not eat for an entire day because of a 
lack of money for food. This is not acceptable.
    Current law provides for military service members to be housed on 
base and for a Basic Allowance for Housing (BAH) to be provided to 
members for whom base housing is not available or who live in 
``military privatized housing.'' As the military has modernized, the 
Department of Defense's policy is to rely on the private sector for its 
housing rather than to build and maintain government owned base 
housing, and roughly 63% of military families live in housing paid for 
by the housing allowance. The BAH is based on geographic duty location, 
pay grade, and dependency status. BAH is meant to provide service 
members adequate and equitable housing compensation based on housing 
costs in local civilian markets.
    Military service members who live on base receive their housing as 
an in-kind payment, and this in-kind payment does not count towards 
their income for the purposes of determining SNAP eligibility and 
benefits. However, the BAH that military households living off base 
receive is counted, creating a disparity between service members who 
live on vs. off base. BAH can also can negatively impact the child of a 
military service member from accessing the National School Lunch 
Program and the National School Breakfast Program. BAH appears on a 
service member's paystub (LES), but is not counted as income for 
Federal tax purposes. States also have the option not to count BAH as 
income for eligibility for the Special Supplemental Nutrition Program 
for Women, Infants, and Children (WIC).
    From 2003-2011, California did not count BAH as income for the 
purposes of SNAP eligibility. However, the state was instructed by the 
United States Department of Agriculture (USDA) that it must count BAH 
as income. It is unknown how many service members currently receive 
SNAP across the state or how many were affected by this change because 
military status is not required data when applying for the program. 
Similarly, estimates on military SNAP participation nationally vary 
widely, ranging between 2,000 and 22,000 military service members in FY 
2012. It has been reported, though, that there are food pantries 
operating on or near every single Naval and Marine base in the United 
States.
    The needs of military families in San Diego prompted California 
State Senator Ben Hueso to introduce the No Hunger for Heroes Act in 
2013 (S.B. 134), which sought to remove barriers for active duty 
military and veterans to access SNAP. For active duty military, it 
would have required the state of California to apply for a Federal 
waiver from the USDA to exclude BAH as income when determining SNAP 
eligibility. Subsequent inquiries with the state agency that 
administers the SNAP program in California, the California Department 
of Social Services (CDSS), regarding an application for such a Federal 
waiver came to the conclusion that any change to the treatment of the 
BAH for SNAP eligibility and benefits must be accomplished through 
Federal legislation.
    Subsequently, in 2015, U.S. Representative Juan Vargas (D-51) 
sought to address the disparity between the treatment of on versus off 
base military housing for all taxation, nutrition, and public 
assistance purposes via a proposed amendment to the Federal Fiscal Year 
2016 (FY16) National Defense Authorization Act (NDAA). In the Senate, a 
bipartisan group of Senators led by Senator Boxer (D-CA) and Senator 
Murkowski (R-AK) introduced an amendment to the FY16 NDAA that sought 
to exclude housing allowances as income when determining eligibility 
for SNAP, the Family Subsistence Supplemental Allowance (FSSA) program, 
and other Federal nutrition program. The Hunger Advocacy Network 
strongly supported both of these proposals. While these amendments were 
not ultimately incorporated into the FY16 NDAA, they were important 
recognitions by Members of Congress for the need to address these 
disparities within our military, and the needs of our nation's military 
families.
    However, Congress did sunset the domestic FSSA program in the FY16 
NDAA following recommendations made by the Military Compensation and 
Retirement Modernization Commission (MCRMC). In light of extremely low 
participation in the FSSA program, only 285 service members in FY13, 
the Commission recommended an end to this program in favor of military 
enrollment in SNAP, saying ``[t]his program [FSSA] is duplicative with 
the Federal Supplemental Nutrition Assistance Program (SNAP), which 
provides a more effective benefit for service members.'' The Commission 
additionally noted that the SNAP program ``is more generous and creates 
fewer potential social stigmas for recipient families'' than the FSSA 
program, in part because a service member may be required to go through 
their local financial counselors and chain of command to enroll in the 
FSSA program. Now that military families have no other recourse for 
structural food assistance than the SNAP program, Congress must ensure 
that military families can meaningfully access the SNAP program.
    In addition, the House Armed Services Committee commissioned a 
Government Accountability Office (GAO) report into the state of 
military food insecurity and access to assistance. We are optimistic 
that this report will bolster limited existing data about the needs of 
our military families nationwide and provide meaningful recommended 
actions that Congress can take to address military hunger.
    No one in America should go hungry, and especially not the brave 
men and women and their families that already sacrifice so much in 
service of our country. We ask that Congress support common sense, 
bipartisan proposals to end the treatment of military Basic Allowance 
for Housing as income when determining eligibility and benefits for 
Federal food assistance programs. Thank you again for your attention to 
this important issue.
                                 ______
                                 
 Submitted Letter by Rodney Bivens, Executive Director, Regional Food 
 Bank of Oklahoma; Eileen Bradshaw, Executive Director, Community Food 
                        Bank of Eastern Oklahoma
January 15, 2016

  Hon. K. Michael Conaway, Chairman,
  House Committee on Agriculture,
  Washington, D.C.

  Hon. Frank D. Lucas,
  House Committee on Agriculture,
  Washington, D.C.

Re: Comments for Record: House Committee on Agriculture Hearing on 
            Military and Veteran Food Insecurity (January 12, 2016)

    Chairman Conaway:

    The Community Food Bank of Eastern Oklahoma and the Regional Food 
Bank of Oklahoma appreciate your efforts to address the important issue 
of food insecurity among military service members and veterans. Holding 
this hearing is an important step forward in acknowledging that our 
nation's heroes are not immune to hunger.
    According to a study published in 2015, more than one in four Iraq 
and Afghanistan veterans reported being food-insecure in the past 
year.\1\ A separate 2015 study by the Yale University School of 
Medicine found that 24 percent of veterans who have accessed care 
through the Veterans Health Administration (VA) reported being food-
insecure, and that being food-insecure was associated with diminished 
management of hypertension, diabetes, HIV, and depression.\2\ With more 
than 300,000 veterans in Oklahoma, 50,000 of whom are homeless, we are 
deeply concerned that these numbers indicate tens of thousands of our 
state's former service members are struggling with hunger.\3\
---------------------------------------------------------------------------
    \1\ Widome R., Jensen A., Bangerter A., Fu S. (2015). Food 
insecurity among veterans of the U.S. wars in Iraq and Afghanistan. 
Public Health Nutrition, 18, pp. 844-849. doi:10.1017/
S136898001400072X.
    \2\ Wang E.A., McGinnis K.A., Goulet J., Bryant K., Gibert C., Leaf 
D.A., Mattocks K., Fiellin L.E., Vogenthaler N., Justice A.C., Fiellin 
D.A., Veterans Aging Cohort Study Project Team (2015). Food insecurity 
and health: data from the Veterans Aging Cohort Study. Public Health 
Reports, 130(3): 261-268.
    \3\ United States Census Bureau (2014). American Community Survey 
5-year estimates. http://factfinder.census.gov/faces/tableservices/jsf/
pages/productview.xhtml?src=CF.
---------------------------------------------------------------------------
    Data for food insecurity among active-duty service members is 
scarce, as this is not something that is tracked nor even acknowledged 
to exist by the Department of Defense. However, Feeding America's 
``Hunger in America 2014'' report provided rates of food insecurity 
among military personnel for the first time. According to that report, 
20 percent of Feeding America client households reported having at 
least one member who has served in the U.S. military, and four percent 
of households contain at least one member who is currently serving.\4\
---------------------------------------------------------------------------
    \4\ Feeding America (2014). Hunger in America Report. http://
www.feedingamerica.org/hunger-in-america/our-research/hunger-in-
america/.
---------------------------------------------------------------------------
    The Community Food Bank of Eastern Oklahoma's Mobile Eatery serves 
hot meals to 25-30 military veterans each week. While it is an honor to 
serve these individuals, it is disheartening to see them anxiously 
await their meal knowing that excitement may be an indication of their 
struggle with food insecurity. We know there are many more veterans who 
would benefit from this program, and because of the demonstrated need, 
the Mobile Eatery program will be expanded to two additional locations 
in early 2016. It is vital that we have accurate data on food 
insecurity among veterans in Oklahoma so we can efficiently plan to 
meet the needs of this important population.
    In light of our increasing awareness of hunger among the military 
and veteran population, the Oklahoma Food Banks make the following 
recommendations:

          Prioritize data collection on military and veteran food 
        insecurity:

                  This can be accomplished by continuing to formally 
                acknowledge the existence of the problem through 
                hearings in the U.S. House of Representatives and the 
                U.S. Senate. Individual Representatives adding the 
                issue to their policy priorities would thus encourage 
                continued research and data collection by academic 
                institutions and perhaps eventually by the Department 
                of Defense. If even one military family goes without 
                adequate food, we are failing to fulfill our 
                responsibilities as a nation.

          Track military and veteran participation in Federal safety 
        net programs:

                  Federal programs including the Supplemental Nutrition 
                Assistance Program (SNAP), Temporary Assistance for 
                Needy Families (TANF), and Women Infants and Children 
                (WIC) are critical to keeping millions of people 
                nationwide out of poverty. SNAP benefits lifted at 
                least 4.7 million people out of poverty in 2014, 
                including 2.1 million children.\5\ These safety net 
                programs also play a critical role in the lives of our 
                military and veteran families. Comprehensive data 
                demonstrating their enrollment and participation would 
                serve not only to illuminate the issue of food 
                insecurity among this population, but also as 
                compelling evidence for the case that Federal safety 
                net programs should remain the cornerstone of national 
                efforts to end hunger.
---------------------------------------------------------------------------
    \5\ White House (2015). Long Term Benefits of the Supplemental 
Nutrition Assistance Program. https://www.whitehouse.gov/sites/
whitehouse.gov/files/documents/SNAP_report_final_non
embargo.pdf.

          Exclude Basic Allowance for Housing (BAH) as countable income 
---------------------------------------------------------------------------
        in SNAP determination:

                  There is an egregious inequity in Federal law that 
                precludes some active duty military families from 
                qualifying for SNAP benefits because their Basic 
                Allowance for Housing (BAH) benefits are counted as 
                income in the determination of SNAP eligibility. We 
                recommend a simple resolution of this problem: 
                excluding BAH benefits as countable income in the SNAP 
                determination process. This would eliminate the 
                disparity that exists in the current way that SNAP 
                eligibility is determined for military and civilian 
                populations receiving Federal housing benefits.\6\
---------------------------------------------------------------------------
    \6\ MAZON (2015). Help our Heroes. http://mazon.org/our-response/
our-initiatives/help-our-heroes/.

    The Oklahoma Food Banks are deeply concerned about food insecurity 
among military and veterans. Due to our statewide service area, we have 
the ability to make meaningful differences in the lives of Oklahoma's 
veterans and military service members, but we cannot do it alone. We 
encourage the Committee to take immediate action on the issue, and 
offer our sincerest appreciation for holding this hearing.
            Sincerely,
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            

 
 
 
Rodney Bivens, Executive Director,   Eileen Bradshaw, Executive
                                      Director,
Regional Food Bank of Oklahoma;      Community Food Bank of Eastern
                                      Oklahoma.
 

                                 ______
                                 
  Submitted Letter by Gina Corina, Executive Director, Utahns Against 
                                 Hunger
January 15, 2016

  Hon. Jackie Walorski,
  Chairwoman,
  Subcommittee on Nutrition,
  House Committee on Agriculture,
  Washington, D.C.

    Dear Chairwoman Walorski,

    Utahns Against Hunger (UAH) watched with interest the January 12, 
2016 public hearing: Past, Present, and Future of SNAP: Addressing 
Special Populations. As an organization we are concerned about access 
to SNAP, and how that access impacts all populations. We are especially 
interested in making sure that active duty military families and 
veterans in need have access to this important nutrition program.
    As UAH has learned about the access barriers many military families 
and veterans have to SNAP, we have become increasingly concerned about 
this issue, and we join with MAZON: A Jewish Response to Hunger and 
urge Congress to act swiftly to address this urgent problem.
    The National Commission on Hunger (NCH) recently released their 
report and recommendations on how we can reduce and eliminate hunger in 
our country. These recommendations outline where Congress and the 
United State[s] Department of Agriculture should start to move forward 
to address the issue of hunger for active duty military families and 
veterans.
    UAH urges your Committee to do everything in your jurisdiction and 
power to act on the following recommendations from the NCH report:

  1.  Congress should enact legislation to exclude the Basic Allowance 
            for Housing as income for the determination of SNAP 
            eligibility and benefit levels for families who have an 
            active duty service member.

  2.  Congress should direct the Department of Defense to undertake a 
            comprehensive review of the Family Subsistence Supplemental 
            Allowance program and recommend reforms that are directed 
            at improving food security in active duty military 
            families.

  3.  In keeping with our country's priority of national security, the 
            USDA should work jointly with the Department of Defense and 
            the Department of Veterans Affairs to help with collecting 
            data on food security, its causes and consequences, and 
            SNAP participation among active duty military and veterans, 
            and make this data available to Congress, the President, 
            and to the public at regularly specified intervals.

    We are failing as a nation if we are not providing for those who 
have and those who are serving and protecting our country.
            Warm Regards,
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
Gina Corina,
Executive Director.
                                 ______
                                 
Submitted Letter by Cristin Orr Shiffer, Senior Advisor for Policy and 
                       Survey, Blue Star Families
January 13, 2016

  Hon. Jackie Walorski,
  Chairwoman,
  Subcommittee on Nutrition,
  House Committee on Agriculture,
    Washington, D.C.

Re: SNAP and U.S. Military Families

    Dear Chairwoman Walorski, Ranking Member McGovern, and Members of 
the Subcommittee,

    On behalf of Blue Star Families (BSF), the nation's largest 
chapter-based military family nonprofit organization, thank you for 
holding a hearing on the very important topic of ``Past, Present, and 
Future of SNAP: Addressing Special Populations.'' Financial readiness, 
including food security, is essential to overall military readiness and 
effectiveness. Further, it plays a role in attracting and retaining the 
best talent to assure the health of the All-Volunteer Force, and 
studies show financial and employment stressors to be one of the most 
prevalent stressors related to service member suicide. In a nutshell, 
military family food security is a national security issue.
    Results from our recently released 2015 Annual Military Family 
Lifestyle Survey (AMFLS), as Ms. Leibman of MAZON included in her 
testimony, include the concerning findings that 7% of active duty (and 
their spouse) respondents have experienced food insecurity within the 
past year and 6% have sought food assistance through a food bank, food 
pantry or charitable organization in the past year.
    As the Senior Advisor for Policy and Survey at Blue Star Families, 
I am also writing to express our support for a number of the 
recommendations presented during the aforementioned hearing and 
discussed below. Military couples and families face many of the same 
financial challenges as civilian families; however additional results 
from our survey indicate that respondents report every day financial 
tasks are more complex and challenging due to the unique and uncertain 
challenges of the military lifestyle. The financial stresses associated 
with military service--for example frequent moves, substantial 
challenges to military spouse employment, current Basic Allowance for 
Subsistence policies, and the lack of uniform state policies regarding 
qualification for assistance--may make it additionally difficult for 
military families to qualify for and obtain needed assistance.
    In addition to supporting MAZON's recommendations of improving 
agency collaboration and strengthening the Supplemental Nutrition 
Assistance Program (SNAP) for our veterans, I express deep concerns 
regarding the inconsistency associated with access to SNAP for our 
currently serving military. BSF supports efforts to remove a military 
service member's Basic Allowance for Housing (BAH) from SNAP 
eligibility determinations to remain consistent with requirements of 
the other Federal nutrition assistance programs such as Women, Infants, 
& Children (WIC). Our survey results support Ms. Tebbens' testimony 
stating BAH often portrays the appearance of economic stability, in her 
words being ``stable on paper only.'' Seventy-eight percent of our 
currently serving respondents reported they are paying some out of 
pocket costs beyond BAH for housing, with 22% reporting paying $400 or 
more per month. Finally, BSF supports Ms. Leibman's testimony that 
qualifying for SNAP and becoming food-secure are not one in the same, 
and strongly support the need for additional data like our annual 
survey to identify solutions to end food insecurity in the military.
    Military troops and their families are committed to the service of 
our country. Ninety-four percent of survey respondents indicate desire 
to serve their country was a top reason for joining the military and 
85%, indicated that financial stability was part of their motivation to 
serve as well. Service members and their families should not have to 
choose between service and financial security. They deserve the 
reassurance of knowing that our government understands the structural 
challenges associated with military life and if they should face 
inadequate access to food, confidential assistance outside of their 
military chain of command via SNAP and other programs are available for 
them.
    During this already uncertain time, when operational tempos are 
increasing while pay and benefits appear to be decreasing, access to an 
adequate supply of healthy food should not be adding to the challenges 
of service.
    Blue Star Families thanks you for your work on this important topic 
and for the opportunity to provide additional information to the 
official record. If I may be of further assistance please don't 
hesitate to reach out. Our complete Blue Star Families Military Family 
Lifestyle Survey results are accessible at www.bluestarfam.org/survey.
            Sincerely,

Cristin Orr Shiffer,
Senior Advisor for Policy and Survey,
Blue Star Families.
                                 ______
                                 
     Submitted Letter by Karen Woodings, Advocacy Manager, Central 
                         Pennsylvania Food Bank
January 18, 2016

  Hon. K. Michael Conaway,
  Chairman,
  House Agriculture Committee,
  Washington, D.C.

RE: Challenges in Serving Vulnerable Populations

    Dear Chairman Conaway:

    It was my great honor to have the opportunity to meet and address 
you, as well as our Pennsylvania Congressional delegation on Saturday, 
January 9, at the Pennsylvania Farm Show listening session. I am 
writing this letter to you on behalf of the Central Pennsylvania Food 
Bank and the individuals the Food Bank serves throughout Central 
Pennsylvania.
    The Central Pennsylvania Food Bank began operation in 1981 and is a 
501(c)(3) nonprofit organization registered as tax-exempt with the IRS. 
We are the largest nonprofit food distribution organization in the 
region, and are one of the top food banks in the nation for operational 
performance. The Food Bank is affiliated with Feeding America, the 
nation's largest nonprofit hunger fighting organization which solicits 
and facilitates donations of product at a national level.
    The Food Bank's mission is ``Fighting hunger, improving lives, and 
strengthening communities.'' We believe that service to others is 
fundamental to creating a hunger-free America. We operate with an acute 
sense of urgency that reflects the immediate needs of hungry people. We 
keep faith with the public trust through the efficient and 
compassionate use of resources entrusted to us and are mindful that our 
mission is accomplished through the generosity of others.
    The Central Pennsylvania Food Bank core service, known as the Food 
Security Network, which involves the solicitation, procurement, 
processing and distribution of food throughout a 27 county service area 
that covers over 18,000 miles\2\ in Pennsylvania. In FY 2014-2015, the 
Food Bank distributed 40 million pounds of food, an increase of 24% 
over the previous year. We currently serve approximately 60,000 people 
weekly. In addition the Food Bank is committed to providing healthy 
food options and now more than 20% of our food distribution is 
comprised of fresh fruits, vegetables, dairy, and fresh milk.
    Feeding America and its nationwide network of more than 200 
regional food banks, including the Central Pennsylvania Food Bank, 
recently conducted Hunger in America 2014 (HIA 2014), the latest in a 
series of quadrennial studies that provide comprehensive demographic 
profiles of people seeking food assistance. The study shows that the 
image of hunger in America is considerably different than it has been 
in the past and the individuals and families who rely on food pantries, 
soup kitchens and other programs to survive characterize an 
increasingly large and complex group due to the ever changing economic 
climate.
    Central Pennsylvania Food Bank was concerned by the results from 
HIA 2014. Knowing the anecdotal stories of the over 453,000 people we 
serve is significantly different than analyzing statistics about their 
lives. The Food Bank learned that individuals receiving food assistance 
must make serious, quality of life trade-offs between paying for food 
and paying for other necessities, such as rent, transportation, and 
medicine.

  <bullet> 70% report having to choose between paying for food and 
        paying for medicine or medical care at least once in the last 
        12 months.

  <bullet> 70% of households chose between paying for food and paying 
        for utilities.

  <bullet> 59% of households chose between paying for food and paying 
        for transportation.

  <bullet> More than 30% of households face these choices every month.

    Of the 55,800 households surveyed for HIA 2014, 26% have at least 
one family member who has served or is actively serving in the United 
States military. Our military families and veterans can be a 
challenging population to serve because families are difficult to 
identify because they are frequently too proud to seek help through 
Federal nutrition programs.
    The reasons for food insecurity can involve numerous factors 
including: low pay for enlisted troops, high unemployment rates for 
spouses, low wage or retirement for veterans, higher cost of living 
near urban centers, veterans living with disabilities, Congressional 
limits on pay raises, unemployment or underemployment, and stigma of 
using Supplemental Nutrition Assistance Program (SNAP) benefits.
    While the military currently offers the Family Subsistence 
Supplemental Allowance (FSSA) for low-income families, it has a low 
participation rate. Food pantries afford greater anonymity to active 
military families. Many military families do not want their commander 
to find out they can't afford to feed their spouses and children. For 
many families, tax-free allowances for housing, clothing, and food are 
not adequate for maintaining household sustainability because these 
families still have the cost of rent, utilities, medicine, and 
additional food items the family needs to survive. It is also worth 
noting that the FSSA is due to sunset at the end of FFY 2016. This will 
cause greater numbers of military families to seek assistance with the 
Food Security Network.
    The Central Pennsylvania Food Bank answer was to create our 
MilitaryShare Program. MilitaryShare is a means to provide access to 
fresh and nutritious food items to military households in our 27 county 
service area. The Food Bank partners with Pennsylvania's state and 
regional Family Readiness Coordinators to institute this program that 
distributes fresh food items directly to food-insecure military 
households who are struggling with hunger. By bringing this wholesome 
food directly to our military households, the MilitaryShare program 
directly helps combat the issue of scant financial resources that makes 
it difficult for low-income military households to access the adequate 
nutrition they need by providing a monthly food distribution, at no 
cost.
    The other vulnerable population I would like to address is senior 
citizens. Pennsylvania has a disproportionately large number of senior 
citizens. According to HIA 2014, 18.5% of the people served through 
Pennsylvania's Charitable Food Network are in individuals over the age 
of 60. In Pennsylvania, over two million seniors are 65 years of age or 
older and 169,499 seniors are living in poverty. Since 2001, there has 
been over an 85% level of growth in national senior hunger, most 
pronounced among Baby Boomers (i.e., the ``young old,'' ages 60 to 69).
    Central Pennsylvania Food Bank understands that the SNAP will help. 
Three out of five seniors who qualify for SNAP benefits, however, do 
not participate. Older Americans who qualify for SNAP are significantly 
less likely to participate in the program than other low-income 
demographic groups. Several factors contribute to the low participation 
rate including seniors face barriers related to mobility, technology, 
and societal stigma. Many seniors are discouraged to apply for SNAP 
benefits because of widespread myths about how the program works and 
who can qualify to receive benefits.
    The health consequences for hungry seniors are very disheartening. 
National studies state that seniors who are at risk for hunger are more 
likely to have mobility and activity limitations, as well as a decrease 
in their overall health. Poor nutrition impedes a senior's ability to 
effectively recover from illness, limits intake of essential vitamins, 
reduces efficacy of prescription drugs, exacerbates problems from pre-
existing health conditions such as heart failure, diabetes, and 
depression, and increases hospital stays, which can put undue strain on 
the community.
    In 2005, the Central Pennsylvania Food Bank began our ElderShare 
Program to meet the growing need to feed hungry seniors. The ElderShare 
program was solely grant funded and was designed to augment the 
Commodity Supplemental Food Program (CSFP). In 2009, CSFP caseload was 
allocated to the Food Bank to serve 350+ seniors. As funding grew, so 
did our caseload. Central Pennsylvania Food Bank currently serves over 
5,350 seniors through CSFP funding and an additional 750-1,000 seniors 
a month through our privately-funded ElderShare Program. The Food Bank 
continues the privately-funded program to ensure no senior is hungry by 
serving those individuals on the ``waiting list'' for a CSFP opening.
    As Members of Congress, you can do much to decrease food insecurity 
for our veterans, active military families, and seniors. For active 
duty low-income enlisted military personnel, the Basic Housing 
Allowance (BHA) for housing is excluded as income in calculating income 
taxes and eligibility for some Federal programs, such as WIC and Head 
Start, but not all. The Central Pennsylvania Food Bank urges you to 
update eligibility guidelines to exclude BHA as income for all Federal 
nutrition programs. When SNAP considers BHA as income, this puts food-
insecure military families at a great disadvantage and disqualifies 
many from received food assistance. This is driving more and more 
families to use the Food Bank's Food Security Network.
    For seniors, simplify and improve the application process. This 
truly is a barrier for seniors to access SNAP benefits. Continue 
categorical eligibility, it improves access for all low-income 
Americans. Invest in community based initiatives to assist seniors and 
veterans in better managing chronic conditions through better 
nutrition.
    The Central Pennsylvania Food Bank urges you to resist from making 
any further cuts to SNAP benefits. SNAP helps the poorest Americans 
have access to nutritious food. SNAP took 2.4 million children out of 
severe poverty in 2005 and reduces the likelihood of being food-
insecure for all populations. SNAP also helps to drive local economies. 
For each SNAP dollar spent, that dollar generates $1.79 in economic 
activity. This translates to increased farm production, new jobs, as 
well as enhanced self-sufficiency for those in need of food assistance.
    Challenging or difficult to serve populations implies that the 
needs of some people may be beyond the scope of services that are 
typically available. We Must make every effort to connect vulnerable 
populations with the Federal nutrition programs where they qualify to 
receive benefits. It is essential that Congress ensures that people who 
are food-insecure and are difficult to serve are not forced to choose 
between food and other basic necessities.
    Thank you for your time and consideration.
            Sincerely,
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
Karen Woodings,
Advocacy Manager.

Cc:

Congressman Glenn Thompson,
Josh Protas, MAZON,
Lisa Davis, Feeding America.
                                 ______
                                 
  Submitted Statement by Hon. Susan Zimet, Executive Director, Hunger 
                    Action Network of New York State
Testimony to House Agriculture Committee on Military & Veteran Food 
        Insecurity
    On behalf of the many anti-hunger groups, we thank you for holding 
hearings on the growing crisis of hunger and the military.
    For over a decade I have had the honor of serving my constituents 
as an elected Town Supervisor and County Legislator. In that role I 
have had the opportunity to work with veterans on many issues.
    What is apparent when speaking with veterans is the pride they have 
in serving their country, their love for the country and their extreme 
disappointment in the difficulties they face when forced to ask for 
help.
    ``It is pure embarrassment. I hate it. I don't like it. It's like 
taking away the pride you have and making you humble. You have to go 
[to the food pantry] and I hate to say it but it makes you feel like 
you are begging for food.'' Stated Mike Hernandez, a Navy veteran with 
a wife and three daughters. ``If you look at my [military] record, it's 
immaculate. And look at how bad I struggle. Why can't there be some 
type of program to help us out? We didn't do anything wrong. We come 
out of the military, next thing you know, we're left to fend for 
ourselves and you just can't make it.''
    Shirley Starkey, whose husband is a sergeant in the Marines and has 
been twice deployed to Afghanistan said ``It's hard to know that my 
husband is fighting for his country and he's working long days and long 
hours and we still have to struggle to keep food on the table and gas 
in our car.''
    I am new to the field of hunger, having assumed the role of 
Executive Director for Hunger Action Network of NYS last year, and the 
unprecedented hunger in America was shocking to me. But the growing 
impact of hunger amongst those who are serving or who served our 
country, was a real eye opener:

  <bullet> 620,000 households that include at least one soldier, 
        reservist or guardsman--or 25% of the nation's total active 
        duty & reserve are seeking aid from food pantries or charity 
        program.

  <bullet> 130, 000 veterans are homeless or hungry on any given night.

  <bullet> 1.5 million veterans are at risk of becoming homeless and 
        going hungry.

  <bullet> Food stamp purchases at military commissaries have nearly 
        tripled during the last 4 years between 2008-2011.

  <bullet> According to Food Bank of NYC, 40% of NYC vets rely on food 
        pantries & soup kitchens.

    Hunger Solutions NY reaches out to military and veteran's families 
to assist them in accessing SNAP benefits. In the first 2 years of 
providing the services, Hunger Solutions assisted more than 4.000 
military & veteran's families in New York State.
    Long Island Cares, the Harry Chapin Food Bank, understands the 
challenges faced by returning soldiers and their families as ``troops 
transition from the front lines to the home front.'' The organization 
offers several veteran service programs, two specific to hunger:
    Military Appreciation Tuesdays: Hosted each week at three Long 
Island Cares pantries, veterans and their families can access food, 
personal care items, household products, pet food and school supplies.
    Mobile Pantry: Delivers nutritious groceries to homebound, disabled 
veterans unable to access their local pantries. Long Island Cares 
Veterans Mobile Outreach Unit provided over 23,000 pounds of food & 
over 17,000 meals to veterans in 2015 alone.
    Each Tuesday, they have between 150-200 veterans who come to the 
satellite locations to access emergency food and household supplies to 
veterans and their families as well as information and referral 
services from other nonprofits serving veterans.
    ``The numbers of veterans needing the services of the food pantry 
keeps growing, with 1-2 new veterans coming through the doors of the 
pantry every month,'' stated Michael Haynes, Chief Government Affairs 
Officer for L.I. Cares. ``We are so happy we can help, but it is so sad 
that these brave men and women who sacrificed themselves to preserve 
our freedoms are in need of this help.''
    Hunger Action Network of New York State testified in Albany, New 
York at the U.S. Hunger Commission hearings. Families of active duty 
service members and veterans should not have to struggle to put food on 
the table.
    We were delighted to learn that the U.S. Hunger Commission adopted 
the recommendations presented by MAZON.

  1.  Congress should enact legislation to exclude the Basic Allowance 
            for Housing as income for the determination of SNAP 
            eligibility and benefit levels for families who have an 
            active duty service member.

  2.  Congress should direct the Department of Defense to undertake a 
            comprehensive review of the Family Subsistence Supplemental 
            Allowance program and recommend reforms that are directed 
            at improving food security in active duty military 
            families.

  3.  USDA should work jointly with the Department of Defense and the 
            Department of Veterans Affairs to help with collecting data 
            on food security, its causes and consequences, and SNAP 
            participation among active duty military and veterans, and 
            make this data available to Congress, the President, and to 
            the public at regularly.

    Veterans have served and sacrificed their family's stability on our 
behalf. Too many veterans are hungry and homeless. It is the obligation 
of our Country to give back to this brave men and women and ensure they 
live in dignity with food on the table and a roof over their head.
    Hunger Action Network of NYS stands ready to help in any way to 
ensure the needs of our military families are being addressed.
    Thank you so much for your time and attention to this issue.

Hon. Susan Zimet,
Executive Director,
Hunger Action Network of New York State.

Submitted on January 15, 2016 to:

Congressman Chris Gibson,
Congressman Sean Patrick Maloney,
Lisa Shelton, House Agriculture Committee,
Senator Kristen Gillibrand,
Senator Chuck Schumer.
                                 ______
                                 
Submitted Letters by Loaves and Fishes, St. Stephen and the Incarnation 
                            Episcopal Church
                  david chamberlin, u.s. army veteran
January 14, 2016

    Dear Representative:

    I am David Chamberlain and I was stationed with the Army in 
Missouri, Massachusetts and Central America in the mid-1980's. When I 
left the Army I suffered from depression and received some disability 
and Social Security. When times were really tight I had to use the food 
shelf and now I come and dine with Loaves and Fishes for meals.
    I support anything that can be done to help vets with food options 
like SNAP, food shelves and meals.
            Sincerely,
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
David Chamberlin.
              duane a. meier, u.s. army korean war veteran
1/14/16

    To my elected officials:

    My name is Duane Meier and I was in the U.S. Army. I served for 18 
months in the Korean War and was deployed to Korea. After the war I 
moved back to Minnesota where I met my wife and found a job hauling 
garbage and later driving semi oil tankers.
    We never used food shelves or food stamps but I do go to a meal 
program every night that they are open for a hot meal. I am 90 years 
old and get Social Security and VA Assistance. I believe that all U.S. 
Veterans should be helped with food and ask that you supp01i bills that 
help them get what they need.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Duane A. Meier.
               Submitted Statement by Food Bank of Alaska
Our Military and Veterans Should Never Struggle To Put Food on the 
        Table
    The Food Bank of Alaska has a strong commitment to addressing 
military and veteran hunger. Alaska is home to many military bases, and 
has the highest number of veterans per capita of any state. We know 
from our extensive 2014 Hunger in America--Alaska Report that 23% of 
families served by the statewide Food Bank of Alaska network have at 
least one veteran in the household. This means that nearly \1/4\ of all 
families visiting our food pantries, soup kitchens and meal programs 
have a former serviceman or woman in the home. What's more, we know 
that many of our active duty military families are also turning to the 
charitable food sector for help. Statewide, 3% of families we are 
helping with food assistance are active duty military. In Anchorage, 
with its large military population, this figure is closer to 6%. While 
our pantry partners do not track the number of active duty military 
that visit their distributions, many have anecdotally reported an 
increase in the number of in-uniform active duty military they see. The 
Armed Services YMCA pantry on the Joint Base Elmendorf-Richardson 
serves an average of 70 families each month.
    Helen's story, and her testimony, provides examples of the 
challenges that military members and veterans face when they try to put 
food on the table. Helen and her husband are both veterans. Middle 
aged, they both have had full careers, but fell on hard times recently 
and moved back to Alaska in search of work. Not having any luck finding 
a job, they tried to apply for SNAP benefits, only to find out that 
they were $20 over the income limit, due to Helen's VA Benefits. So 
instead, they rely on food pantries to help get them through the month. 
``Never in a million years would I think I would use food assistance,'' 
said Helen. The first time we went to a pantry, my husband wouldn't get 
out of the truck. He just said ``I'm so ashamed.''
    Helen says she believes in ``paying it forward,'' and has helped a 
number of active-duty military families connect with local food 
pantries. Helen explains that they need the help, but don't want to 
sign up for SNAP for fear of repercussions. There is often a heavy 
stigma associated with receiving benefits for members of the military.
    Though times are tough for Helen and her husband, she is starting 
school soon to finish her bachelor's degree in business, with help from 
the VOC-Rehab Program. Ever the optimist, she explains, ``this isn't 
who we are, this is a situation.'' One that hopefully doesn't exist for 
her fellow servicemen and women in the future.
    The Supplemental Nutrition Assistance Program (SNAP) is a powerful 
tool in the fight against hunger. Unfortunately, as Helen explained, 
stigma keeps many military families from pursuing this option, and for 
those lower enlisted members who do try, many find that they miss the 
cut off for SNAP by a few hundred dollars. While the military has a 
nutrition program similar to SNAP--the Family Subsistence Supplemental 
Allowance (FSSA)--it is underutilized and is slated to be sunsetted 
domestically at the end of 2016. Veterans typically have low enrollment 
in the SNAP program, and some veterans who receive benefits are at risk 
of losing them, due to new Able-Bodied Adults Without Dependents 
(ABAWDs) work requirements. To address the issue of hunger among 
active-duty military and veterans, we believe Congress should:

  1.  Remove policy barriers that deny active duty military families 
            the nutrition assistance resources they need, including 
            SNAP. Please consider legislation to exclude the Basic 
            Housing Allowance (BAH) as income in determining 
            eligibility for SNAP.

  2.  Gather and make available more data to accurately document food 
            insecurity levels among active-duty military and veterans. 
            Congressional briefings and the upcoming GAO study are 
            great starts to these efforts; they should continue and 
            reach farther.

  3.  Urge agency collaboration to ensure disabled and struggling 
            veterans are better able to access food benefits through 
            SNAP and other available programs.

    We are happy that the critical issue of food insecurity among our 
veterans and active duty military has been getting some of the 
attention that it deserves. We believe that one of the best ways to 
show respect and care for the men and women who have served and 
sacrificed for our country is to ensure they have the basic resources 
to support their families. Our military deserves better than having to 
face hunger.

          Food Bank of Alaska collected and distributed 6.8 million 
        pounds of food in 2015 through 300 partner food pantries and 
        meal programs statewide and advocates for policies to end 
        hunger. For more information, visit www.foodbankofalaska.org.


               SUPPLEMENTAL NUTRITION ASSISTANCE PROGRAM

    (THE PAST, PRESENT, AND FUTURE OF SNAP: EXAMINING STATE OPTIONS)

                              ----------                              


                        WEDNESDAY, MARCH 2, 2016

                  House of Representatives,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Committee met, pursuant to call, at 10:00 a.m., in Room 
1300 of the Longworth House Office Building, Hon. K. Michael 
Conaway [Chairman of the Committee] presiding.
    Members present: Representatives Conaway, Goodlatte, Lucas, 
King, Thompson, Gibbs, Crawford, Benishek, LaMalfa, Davis, 
Yoho, Walorski, Allen, Rouzer, Newhouse, Kelly, Peterson, David 
Scott of Georgia, Costa, Walz, Fudge, McGovern, Lujan Grisham, 
Kuster, Nolan, Bustos, Maloney, Kirkpatrick, Aguilar, Plaskett, 
Adams, Graham, and Ashford.
    Staff present: Caleb Crosswhite, Jadi Chapman, Mary Nowak, 
Paul Balzano, Scott C. Graves, Stephanie Addison, Lisa Shelton, 
Liz Friedlander, Matthew MacKenzie, Nicole Scott, and Carly 
Reedholm.

OPENING STATEMENT OF HON. K. MICHAEL CONAWAY, A REPRESENTATIVE 
                     IN CONGRESS FROM TEXAS

    The Chairman. This hearing of the Committee on Agriculture, 
Past, Present and Future of SNAP: Examining State Options, will 
come to order. I have asked Rick Allen to say a brief prayer 
for us. Rick?
    Mr. Allen. Let us pray. Father, we are grateful for our 
time here this morning. Lord, let us be mindful of your many 
blessings as we hear from these folks today that are going to 
give us the information we need to make wise decisions. Lord, 
we do pray that you give us the wisdom and the influence to 
make the right decisions, and to do what is right for this 
country. We pray for this country. We thank you for this body. 
We thank you for agriculture, and blessing this land. In His 
name we pray, amen.
    The Chairman. Well, I want to welcome our witnesses to 
today's hearing, and thank them for being here to continue our 
review of the past, present, and future of SNAP. This is our 
12th hearing within this series. We have learned a tremendous 
amount about the complexities of SNAP, and even more about the 
diverse individuals and communities that it serves. As we 
continue our review, we will do so without preconceived 
notions, and with a commitment to strengthen the program so 
that it can best serve families, most efficiently utilize 
taxpayer dollars, and empower states to effectively implement 
the program, while protecting program integrity. Today our 
witnesses will help us get a better understanding of the 
various options and flexibilities that states have in 
implementing SNAP.
    Through our review we have learned that SNAP varies greatly 
from state to state, and can even vary within a state. While 
the Federal Government provides parameters for the program, 
SNAP statutes, regulations, and waivers provide state agencies 
with numerous policy options to adapt their programs to meet 
the needs of low-income people in their states. Certain options 
may facilitate program design goals, better target benefits to 
those most in need, streamline program administration and field 
operations, or coordinate SNAP activities with other programs 
for low-income families. When carrying out the program, states 
determine eligibility requirements, such as income thresholds, 
asset limits, work-related requirements. And, through 
categorical eligibility, states can utilize the participation 
from one means-tested program, such as Temporary Assistance to 
Needy Family, or TANF, to defer eligibility for SNAP.
    When calculating and issuing monthly benefits for those 
eligible, states have the flexibility to determine the value of 
medical deductions, and the standard utility allowances. It is 
important to note SNAP does not operate in a vacuum. When 
administering SNAP, states have a multitude of programs they 
are overseeing. As we will hear today, other programs, such as 
TANF, and Supplemental Security Income Program, have an effect 
on how SNAP is administered within the states. It is important 
to look at how, as a collective whole, these programs are used 
by the people they serve.
    As we prepare for the next farm bill, this holistic 
understanding of the program will be important to make 
meaningful improvements. Understanding SNAP's interaction with 
other government programs and state agencies will help to 
utilize the effectiveness of the Federal, state, and local 
governments as they administer SNAP. While it is important to 
empower states to employ the best policies to meet the needs of 
the low-income families they serve, we, as Federal lawmakers, 
must ensure the integrity of SNAP is maintained, and not 
compromised by those administrative efficiencies. State 
flexibility can be an important tool in helping a family move 
out of poverty, however, the American taxpayer needs confidence 
that government programs are being targeted to those most in 
need.
    I look forward to hearing our witnesses today as we explore 
how to best leverage the relationship between state and local 
communities, and to best serve recipients, and utilize taxpayer 
dollars.
    [The prepared statement of Mr. Conaway follows:]

  Prepared Statement of Hon. K. Michael Conaway, a Representative in 
                          Congress from Texas
    I want to welcome our witnesses to today's hearing and thank them 
for being here as we continue our review of the Past, Present, and 
Future of SNAP. This is our twelfth hearing within this series, and we 
have learned a tremendous amount about the complexities of SNAP and 
even more about the diverse individuals and communities that it serves.
    As we continue our review, we will do so without preconceived 
notions and with a commitment to strengthen the program so it can best 
serve families, most efficiently utilize taxpayer dollars, and empower 
states to effectively implement the program while protecting program 
integrity.
    Today, our witnesses will help us gain a better understanding of 
the various options and flexibility states have when implementing SNAP. 
Through our review we have learned that SNAP varies greatly from state-
to-state, and can even vary within a state. While the Federal 
Government provides parameters for the program, SNAP's statutes, 
regulations, and waivers provide state agencies with numerous policy 
options to adapt their programs to meet the needs of low-income people 
in their states.
    Certain options may facilitate program design goals, better target 
benefits to those most in need, streamline program administration and 
field operations, or coordinate SNAP activities with other programs for 
low-income families.
    When carrying out the program, states determine eligibility 
requirements, such as income thresholds, asset limits, and work-related 
requirements. Through categorical eligibility, states can utilize the 
participation from one means-tested program, such as the Temporary 
Assistance for Needy Families program, or TANF, to defer eligibility 
for SNAP.
    When calculating and issuing monthly benefits for those eligible, 
states have the flexibility to determine the value of medical 
deductions or standard utility allowances.
    It is important to note SNAP does not operate in a vacuum. When 
administering SNAP, states have a multitude of programs they are 
overseeing. As we will hear today, other programs, such as TANF and the 
Supplemental Security Income program have an effect on how SNAP is 
administered in states. It is important to look at how, as a collective 
whole, these programs are used by the people they serve.
    As we prepare for the next farm bill, this holistic understanding 
of the program will be important in order to make meaningful 
improvements. Understanding SNAP's interaction with other government 
programs and state agencies will help to maximize the effectiveness of 
the Federal, state, and local governments as they administer SNAP. 
While it is important to empower states to employ the best policies to 
meet the needs of low-income families they serve, we as Federal 
lawmakers must ensure that the integrity of SNAP is maintained and not 
compromised for administrative efficiencies. State flexibility can be 
an important tool in helping a family move out of poverty, however the 
American taxpayer needs confidence that government programs are being 
targeted to those most in need.
    I look forward to hearing from our witnesses today as we explore 
how to best leverage the relationship between the states and local 
communities to better serve recipients and utilize taxpayer dollars.

    The Chairman. With that, I recognize the Ranking Member for 
any comments he has.

OPENING STATEMENT OF HON. COLLIN C. PETERSON, A REPRESENTATIVE 
                   IN CONGRESS FROM MINNESOTA

    Mr. Peterson. Thank you, Mr. Chairman, for holding this 
hearing, and I am looking forward to hearing from the 
witnesses.
    I have been urging for some time now that the Committee 
take a look at the flexibility states have when administering 
SNAP. I understand that this is done to simplify the process, 
but I worry that it has gone too far, and that we have now too 
much leeway for the states. During the last farm bill debate I 
offered a plan to reform categorical eligibility, and, of 
course, it didn't happen. But I still have a hard time 
understanding how states with both Democratic and Republican 
governors are allowed to exceed Federal eligibility guidelines, 
and then charge the Federal Government for the additional 
expense. If we had a system like this, maybe we could balance 
the budget, if we could send the bill to somebody else. This 
creates a system, where we treat people differently in 
different parts of the country, and I just don't think that is 
right. My district, for example, borders North Dakota. North 
Dakota and Minnesota have different income and asset tests to 
qualify for SNAP, so people in Moorhead, right across the river 
from Fargo, have a different situation. And it's hard to 
understand why we are doing that.
    So I hope we will also be able to take a look at the impact 
of turning SNAP into a block grant, which, in my opinion, is 
not a viable option. I think it will only lead to the creation 
of an unaccountable slush fund for the states. Block granting 
SNAP has been supported by some in the past, but I hope we 
don't find ourselves on that path again. So, again, I look 
forward to the testimony. I thank the chair, and yield back.
    The Chairman. I thank the gentleman. The chair would 
request that other Members submit their opening statements for 
the record so our witnesses may begin their testimony to ensure 
that there is an ample time for questions.
    I would like to welcome to our witness table today Ms. 
Stephanie Muth who is the Deputy Executive Commissioner for the 
Office of Social Services, Texas Health and Human Services 
Commission, Austin, Texas, Ms. Stacy Dean, Vice President of 
Food Assistance Policy, Center on Budget and Policy Priorities 
here in Washington, D.C., and Ms. Karen Cunnyngham, Senior 
Researcher, Mathematical Policy Research here in Washington, 
D.C.
    With that, Ms. Muth, you may start your testimony when you 
are ready.

         STATEMENT OF STEPHANIE MUTH, DEPUTY EXECUTIVE
COMMISSIONER, OFFICE OF SOCIAL SERVICES, TEXAS HEALTH AND HUMAN 
               SERVICES COMMISSION, AUSTIN, TEXAS

    Ms. Muth. Good morning, Chairman Conaway, Ranking Member 
Peterson, and Members. Thank you so much for the opportunity to 
be with you here today. And, as the Chairman said, I am 
Stephanie Muth, and I work at the Texas Health and Human 
Services Commission, where my responsibilities include 
overseeing the Supplemental Nutrition Assistance Program, and 
eligibility operations for our integrated eligibility system, 
and I wanted to start by providing you with a little bit of 
information about the SNAP Program in Texas. We provide, on 
average, $435 million to 3.8 million SNAP recipients each 
month. Over \1/2\ of the recipients in Texas are children, and 
just under eight percent are over the age of 60. And, like the 
rest of the nation, over the past 10 years Texas has 
experienced growth in SNAP participation. States around the 
country have been challenged to work within our existing 
resources to meet the demands of this increased case load, 
while remaining focused on program integrity. To meet this 
challenge, Texas has pursued some innovative solutions that 
increase client self-service options, and leverage third party 
data sources. So clients increased use of self-service like our 
yourtexasbenefits.com website, and a mobile app, allows our 
staff the time to focus on what their core responsibility is, 
which is verifying the information that is provided, and making 
accurate eligibility decisions.
    The question posed to me was, how does Texas select which 
Federal options to implement in the SNAP program? Well, there 
is not one answer to that, but in general Texas selects options 
by considering state leadership direction, program integrity, 
business process efficiencies, and the impact on the rest of 
the programs in our integrated eligibility system. Our state 
leadership is actively involved and engaged in shaping and 
directing policies for SNAP, and provides some direction 
through legislative actions. Texas values accountability and 
integrity of its publicly funded program, so, as a result, 
Texas chooses to verify most income sources and deductions, 
such as child support and medical expenses, and we do maintain 
an assets limit that considers liquid assets, as well as 
vehicle values.
    In addition to maintaining program integrity, Texas is 
committed to efficient business processes that reduce 
unnecessary client interactions, while ensuring that we produce 
an accurate eligibility determination, and provide benefits 
timely. We allow applicants to submit applications online, and 
we have waivers that allow on demand and telephone interviews. 
And Texas also utilizes an electronic correspondence option so 
people can opt-out of receiving mail, and receive information 
from us through e-mail and text.
    We consider the availability of resources that are required 
to implement additional state options or waivers in relation to 
the expected gain. Simply put, it is what kind of bang are we 
going to get for our buck. With limited resources, both staff 
and funding, we have to prioritize those state and Federal 
mandates, and also projects that will have the most impact, 
when we are determining what to do. Texas has sought to align 
eligibility policies across our program. Since we are an 
integrated eligibility state, we have aligned SNAP income and 
resources policies to mirror the state's TANF program. And 
although states have some flexibility in the administration of 
SNAP, we believe there are additional opportunities to improve 
program integrity, and leverage technology to gain 
efficiencies. I would like to outline three of those for you 
today.
    First, Federal statute and regulations require that SNAP 
agencies accept an application with only a name, address, and 
signature. States are prevented from requiring any additional 
data elements to file an application, even an online 
application. Having the ability to require additional elements 
could strengthen program integrity in a virtual environment. It 
also could shorten eligibility processing timeframes, so we 
recommend some additional state flexibility in this area.
    Second, Federal regulations require states to interview 
SNAP recipients at initial certification, and at least once 
every 12 months at re-certification. We recommend additional 
flexibility in determining when an interview is required. This 
would allow us to better deter fraud at the front end, and to 
interview cases that are at higher risk because of the 
attributes of that case, like self-employment income, an error, 
or fraud.
    And last, Federal regulations require states to expunge 
SNAP benefits from accounts that have not been accessed after 1 
year. But some SNAP cases are active, but they have benefits as 
old as 12 months. This erodes the public confidence in the 
program. Why is somebody who is receiving SNAP still have the 
benefits from 12 months ago? So we recommend additional 
flexibilities in that area as well.
    And that completes my testimony.
    [The prepared statement of Ms. Muth follows:]

  Prepared Statement of Stephanie Muth, Deputy Executive Commissioner,
Office of Social Services, Texas Health and Human Services Commission, 
                               Austin, TX
Background
    The Texas Health and Human Services Commission (HHSC) administers 
the Texas Supplemental Nutrition Assistance Program (SNAP), one of the 
largest in the country, providing on average $435 million to 3.8 
million recipients each month. In Texas, the most common SNAP household 
is headed by a female between the ages of 18 and 39, with one or two 
children under age 12. She has some form of income, and receives a 
monthly SNAP benefit of $274. Over 8,000 staff across Texas determine 
eligibility for SNAP jointly with Medicaid, the Children's Health 
Insurance Program (CHIP), and Temporary Assistance for Needy Families 
(TANF) cash assistance using an integrated eligibility system. The 
Texas Workforce Commission administers the SNAP Employment and Training 
program.
    The Texas population continues to grow at a rate that is faster 
than the national average. Over the past 10 years, Texas, like the 
nation, has experienced growth in SNAP participation. In 2006, SNAP 
caseload in Texas was around 2.4 million while the current caseload is 
approximately 37 percent higher at 3.8 million. The state must work 
within existing resources to ensure capacity is available to handle 
future demands and to operate the program in a manner that ensures the 
highest level of program integrity. This requires the state to identify 
opportunities to identify and deter fraud, prevent cost inefficiencies, 
improve coordination of services, and implement process refinements 
where possible. To meet this growing demand for services, preserve 
limited resources, and maintain the program integrity within the 
system, Texas has pursued innovative solutions to increase client self-
service options and to leverage third-party data sources to 
independently verify client-provided information needed to determine 
eligibility. Examples include the verification of income and employment 
data through Equifax workforce solutions (TALX, formerly the Work 
Number) and applicant identity through the Texas Department of Public 
Safety database. In addition the state is in the process of providing 
eligibility staff access to data on lottery winnings through the Texas 
Lottery Commission.
    Increased utilization of self-service allows staff to focus on 
their core responsibility of verifying information provided and 
determining eligibility accurately. Texas has increased self-service 
options for applicants and existing clients by developing and promoting 
a website as well as a mobile app that launched in 2014. The mobile app 
allows clients to upload eligibility verification documents, receive 
case alerts, check the status of their case, and report changes. With 
over 65% of applications submitted online and over 1.2 million 
documents uploaded through the mobile app, clients have demonstrated 
their strong facility with these tools.
    These tools have proven effective and have allowed the state to 
serve increasing caseloads without an increase in staff resources (See 
Figure 1 below). In 2009, only 58% of SNAP applications were processed 
on time. Today, over 96% of applications are processed on time. Texas 
estimates the increased reliance on self-service and the website saved 
as much as $41 million in reduced printing, postage, and document 
imaging costs for the state between 2012 and 2014. In addition, 
payments for call centers and document processing fell $12.7 million 
between Fiscal Years 2012 and 2014 while monthly caseload increased by 
more than 600,000 during the same time period.
Figure 1: Average Monthly Benefit Recipients and Filled Eligibility 
        Determination Positions, 1995 to 2015
 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
        
          Note: Total Recipients count for Medicaid/TANF/SNAP is not an 
        unduplicated total--recipients may be in all three categories.

    As the state has shifted to increase the use of self-service, there 
has also been a shift in the reliance of technology to prevent and 
detect fraud. For example, Texas has implemented an identity 
verification process in the online application, but due to Federal 
restrictions, the applicant has the option to not complete it. In 
addition, the state is implementing increased analytics to EBT card 
purchases, similar to the technology that credit card companies use to 
detect potentially fraudulent activity.
    In addition. Texas has begun implementing a new business process 
statewide focused on freeing up capacity by eliminating duplicate or 
unnecessary actions that do not add value, and maintaining staff's 
ability to independently verify information provided on applications 
and to make accurate eligibility determinations as quickly as possible. 
The new process has reduced the number of days it takes the state to 
deliver eligibility determinations, overtime, mailing and printing 
volumes, and client calls.
How Does Texas Select Options for SNAP?
    SNAP benefits are 100% federally funded, and as such many of the 
program requirements are standardized across the country. Since SNAP is 
interoperable and benefits are portable across state lines, there is a 
need to maintain some consistencies between states. States do have 
areas of discretion within the program as contained in Federal statute 
and regulations. Outlined below is a description of the principles 
Texas applies in selecting options, some examples of options the state 
has selected, and areas where the state believes there are additional 
opportunities for flexibility.
    When deciding which option works best in Texas, there is not one 
single determining factor. In general, Texas selects options by 
considering state leadership direction, program integrity, business 
process efficiencies, and its integrated eligibility system.

  <bullet> State leadership is actively engaged in shaping and 
        directing policies for the SNAP program and has shown interest 
        in future policy changes to deter fraud such as photo 
        identification on EBT cards and flexibilities such as SNAP 
        purchase restrictions. The agency receives some direction 
        regarding state options through legislation or through state 
        appropriations decisions.

  <bullet> Texas values accountability and integrity of its publicly-
        funded programs, and is selective in the SNAP options it 
        adopts. Texas verifies most income sources and deductions in 
        SNAP such as child support and medical expenses and maintains 
        an assets limit that considers liquid assets as well as vehicle 
        values. In 2013, Texas requested similar flexibility from the 
        Centers for Medicare and Medicaid Services to maintain an 
        assets test for the Medicaid program. This request was denied 
        in 2014.

  <bullet> In addition to maintaining program integrity, Texas is 
        committed to efficient business processes that reduce 
        unnecessary client interactions while ensuring accurate 
        eligibility determinations and timely benefits for eligible 
        individuals. In addition to opting to allow applicants to 
        submit applications online, Texas has active waivers that allow 
        on-demand and telephone interviews in lieu of scheduled face-
        to-face interviews. Texas also utilizes electronic 
        correspondence, and does not require re-certification 
        interviews for households in which all adult members are 
        elderly or disabled and have no earned income since these are 
        low-risk cases. Having this flexibility allows the state to 
        focus resources on preventing and detecting potential fraud.

  <bullet> Texas also considers the availability of resources required 
        to implement additional state options or waivers, in relation 
        to the expected gains that will result from the change. Limited 
        resources--both staff and funding--require the state to 
        prioritize Federal- or state-directed changes and projects that 
        will produce the most impact for the multiple programs 
        maintained within its integrated eligibility system. In recent 
        years, a focus on implementation of major Federal policy 
        changes has reduced the state's capacity to initiate optional 
        system changes for other programs. As a result, automation 
        changes are carefully considered to ensure they are cost-
        effective, maintain program integrity, and preserve flexibility 
        for future changes. Texas has also sought to align eligibility 
        policies across the programs when allowable. For example, Texas 
        has opted to align policies such as income, resources, and 
        treatment of vehicles to mirror the cash assistance program, 
        TANF.
Additional Opportunities for State Flexibility
    Although states have some flexibility in administration of SNAP, 
there are opportunities beyond the current available options for states 
to improve program integrity and leverage technology to gain 
efficiencies.

  <bullet> Federal statute and regulations require SNAP agencies to 
        accept applications with only a name, address and signature 
        whether submitted via an online process or paper process (in 
        person, mail, or fax). This prevents states from requiring 
        additional information needed to validate applications 
        submitted online in order to confirm identity and to eliminate 
        fraudulent activity. It can also result in incomplete 
        information required to process applications and lead to 
        additional client interactions, longer eligibility processing 
        timeframes, and costs to the state. As more business moves 
        online and less face-to-face interaction with clients is 
        necessary, administrators must seek new ways to prevent and 
        detect fraud. Texas recommends allowing flexibility for states 
        to require additional information in order to accurately 
        authenticate online applicants, reduce fraud, and protect 
        confidential information. 7 U.S.C.  2020(e)(2)(B)(iv). 7 CFR  
        273.2(c)(1).

  <bullet> Federal regulations require states to interview SNAP 
        recipients at initial certification and at least once every 12 
        months at re-certification. Though states may opt to perform a 
        phone interview in lieu of face-to-face, the submission of 
        information online or through automated phone response systems 
        is not considered to meet the interview requirement. FNS 
        recently allowed Oregon and Utah to conduct demonstrations in 
        which the eligibility interviews at application and re-
        certification were eliminated. A study of the demonstration 
        project concluded that eliminating the interview may reduce 
        error rates and decrease program churn. Texas recommends 
        allowing states additional flexibility in determining when an 
        interview is required. This would allow states to use analytics 
        to identify high risk cases and target staff resources to focus 
        on cases where fraud may be more likely to occur. Additional 
        flexibility would allow states the ability to deter fraud at 
        the front end, interview high risk cases, utilize technology to 
        capture the same information that would be captured in an 
        interview, and to better utilize staff time independently 
        verifying information to make accurate eligibility 
        determinations. 7 CFR  273.2(e)(1).

  <bullet> Federal regulations require states to expunge SNAP benefits 
        from accounts that have not been accessed after 1 year. 
        However, some households still develop high SNAP balances, 
        which are allowed under program rules. This weakens program 
        integrity by creating the perception that these households do 
        not need or are not appropriately using their SNAP benefits. 
        FNS has begun to address this issue by directing states to 
        conduct verification checks on accounts with balances of $5,000 
        or more. In 2014, HHSC proposed additional actions to address 
        high SNAP balances and further strengthen program integrity. 
        HHSC requested and was denied a waiver to expunge SNAP benefits 
        from active accounts that have been available for at least 12 
        months. This waiver would have allowed the state to expunge an 
        additional 25,700 cases per month totaling approximately 
        $254,000 in value, on top of the current average of about 
        42,000 cases totaling approximately $2.3 million each month. 
        Texas recommends allowing states this flexibility to strengthen 
        program integrity and ensure appropriate use of public funds. 7 
        CFR  274.2(h)(2).

    The Chairman. Thank you, ma'am. Ms. Dean, 5 minutes.

        STATEMENT OF STACY DEAN, VICE PRESIDENT FOR FOOD
         ASSISTANCE POLICY, CENTER ON BUDGET AND POLICY
                  PRIORITIES, WASHINGTON, D.C.

    Ms. Dean. Chairman Conaway, Ranking Member Peterson, and 
Committee Members, thank you for the invitation to testify 
today. I am Stacy Dean, Vice President for Food Assistance 
Policy at the Center on Budget and Policy Priorities, a 
nonpartisan policy institute located here in Washington. I am 
really pleased to have the opportunity to talk to you today 
about state flexibility in the Supplemental Nutrition 
Assistance Program, or SNAP. I have worked on the program for 
more than 20 years, and one of the most rewarding parts of my 
job is the opportunity to work directly with state officials to 
improve the program at the local level, including helping them 
to understand the flexibilities available to them.
    SNAP is the nation's most important anti-hunger program. It 
currently helps 45 million low-income Americans to afford a 
nutritionally adequate diet. It has powerful short- and long-
term impacts on low-income families and individuals. It helps 
families and communities weather tough times. It reduces 
poverty and food insecurity. It improves health, and supports 
work. The program has been proven particularly important to 
families with very young children, having lasting impacts on 
their health and development.
    SNAP's success can largely be attributed to its national 
entitlement structure, its relatively uniform eligibility 
standards, its basic standards for program administration and 
integrity, and the fact that it is a food-based benefit. 
Although it is a national program, states administer SNAP, and 
are a key partner in the program's success. States absolutely 
need some flexibility in SNAP because they operate it within a 
larger health and human services system, as you have just heard 
from Ms. Muth, and that can include Medicaid, child care, cash 
assistance, and other programs.
    So let me just highlight a few areas of flexibility that I 
covered in my written testimony. First, states can tailor the 
look and feel of SNAP to their health and human services 
systems, and we just heard about a few in Texas. The amount of 
SNAP benefits that similarly situated families receive across 
two states really is very consistent, but how they engage with 
and experience the state agency can be quite different. Some 
states emphasize online services, or in person, or both. Some 
commit to process benefit applications within hours. In other 
cases, it will take weeks. Some provide a comprehensive set of 
services through a single case worker, and in other places 
families are asked to go to multiple places and fill out 
redundant paperwork. These are all choices that states have.
    Second, the states have special flexibility to improve 
service delivery to the working poor. After the passage of the 
1996 welfare law, states began to see that some of states' 
rules were impeding their ability to connect eligible working 
families to the program, and as a result, Congress, through the 
farm bills, provided new state options designed to allow states 
to service working families, and these flexibilities have made 
a difference. States now serve close to \3/4\ of eligible 
working poor families versus less than \1/2\ in the late 1990s. 
And finally, states can test new ideas. USDA can waive certain 
SNAP requirements to test whether a change would be in the 
program's interest. Now, I believe the Department is 
appropriately cautious about allowing unproven, sweeping new 
changes into the program that would compromise program 
integrity or program access. Nevertheless, USDA does work with 
early innovator states, and I would put Texas in that category, 
to test new ideas.
    Overall I really think Congress and USDA have struck a 
reasonable balance in maintaining SNAP as a high performing 
national program, while providing states with needed 
flexibility. States' requests for more flexibility really have 
to be weighed with other considerations. Most notably, the 
program is highly effective at protecting vulnerable people 
from hunger and hardship, so state variation has to be 
carefully considered as to whether it will help the program 
meet that basic need, or put struggling people at greater risk. 
SNAP is fundamentally a food assistance program, and how it 
assesses what is a household, and that household's ability to 
purchase food for itself is just necessarily different than how 
we might measure the same group of people's ability and 
obligation to, for example, cover health insurance costs, or 
child care for each other. Federal SNAP rules require the 
highest level of rigor for any major benefit program with 
respect to assessing applicants' eligibility in determining 
benefits. Many states' request to change rules might save them 
time or burden, but would chip away at these very exacting 
standards.
    So I absolutely appreciate your desire to strengthen the 
program, and this hearing process. As you assess suggestions 
for further flexibility or modifications to the program, we 
encourage you to ensure that those proposals not undermine 
SNAP's strengths. Proposals to sweep away some of the program's 
key features, or that would shift benefits away from food, 
would run counter to the program's goals and proven success. 
Block grants, capped funding, or merged funding streams all 
would eliminate the most important feature of SNAP, its 
national entitlement structure. Similarly, proposals that would 
weaken or deter access, or weaken the program's strong focus on 
integrity, would also compromise its current success. Any of 
these types of changes to SNAP's structure must be avoided. 
Thank you.
    [The prepared statement of Ms. Dean follows:]

 Prepared Statement of Stacy Dean, Vice President for Food Assistance 
    Policy, Center on Budget and Policy Priorities, Washington, D.C.
Balancing State Flexibility Without Weakening SNAP's Success
    Thank you for the opportunity to testify today. I am Stacy Dean, 
Vice President for Food Assistance Policy at the Center on Budget and 
Policy Priorities, an independent, nonprofit, nonpartisan policy 
institute located here in Washington. The Center conducts research and 
analysis on a range of Federal and state policy issues affecting low- 
and moderate-income families. The Center's food assistance work focuses 
on improving the effectiveness of the major Federal nutrition programs, 
including the Supplemental Nutrition Assistance Program (SNAP). I have 
worked on SNAP policy and operations for more than 20 years. Much of my 
work is providing technical assistance to state officials who wish to 
explore options and policy to improve their program operations in order 
to more efficiently serve eligible households. I also lead our work on 
program integration and efforts to facilitate and streamline low-income 
people's enrollment into the package of benefits for which they are 
eligible. This work has included directing technical assistance to 
state officials through the Work Support Strategies Initiative run by 
the Urban Institute and the Center for Law and Social Policy. The 
Center on Budget and Policy Priorities receives no government funding.
    My testimony today is divided into two sections: (1) SNAP's role in 
our country as a Federal nutrition program; and (2) an overview of 
state flexibility and options in SNAP.
SNAP Plays a Critical Role in Our Country
    Before turning to today's hearing topic of SNAP's state options and 
flexibility, it is important to review some of SNAP's most critical 
features. The program is a highly effective anti-hunger program that is 
administered with relatively low overhead and a high degree of 
accuracy. Much of the program's success is due to a consistent national 
benefit structure, rigorous requirements on states and clients to 
ensure a high degree of program integrity and a focus on providing food 
assistance. Congress and USDA have sought to provide states flexibility 
where it would enhance the program and without weakening SNAP's 
success.
    As of November of last year, SNAP was helping more than 45 million 
low-income Americans to afford a nutritionally adequate diet by 
providing them with benefits via a debit card that can be used only to 
purchase food. On average, SNAP recipients receive about $1.41 per 
person per meal in food benefits. One in seven Americans is 
participating in SNAP--a figure that speaks both to the extensive need 
across our country and to SNAP's important role in addressing it.
    Policymakers created SNAP to help low-income families and 
individuals purchase an adequate diet. It does an admirable job of 
providing poor households with basic nutritional support and has 
largely eliminated severe hunger and malnutrition in the United States.
    When the program was first established, hunger and malnutrition 
were much more serious problems in this country than they are today. A 
team of Field Foundation-sponsored doctors who examined hunger and 
malnutrition among poor children in the South, Appalachia, and other 
very poor areas in 1967 (before the Food Stamp Program was widespread 
in these areas) and again in the late 1970s (after the program had been 
instituted nationwide) found marked reductions over this 10 year period 
in serious nutrition-related problems among children. The doctors gave 
primary credit for this reduction to the Food Stamp Program (as the 
program was then named). Findings such as this led then-Senator Robert 
Dole to describe the Food Stamp Program as the most important advance 
in the nation's social programs since the creation of Social Security.
    Consistent with its original purpose, SNAP continues to provide a 
basic nutrition benefit to low-income families, elderly, and people 
with disabilities who cannot afford an adequate diet. In some ways, 
particularly in its administration, today's program is stronger than at 
any previous point. By taking advantage of modern technology and 
business practices, SNAP has become substantially more efficient, 
accurate, and effective. While many low-income Americans continue to 
struggle, this would be a very different country without SNAP.
SNAP Protects Families From Hardship and Hunger
    SNAP benefits are an entitlement, which means that anyone who 
qualifies under the program's rules can receive benefits. This is the 
program's most powerful feature; it enables SNAP to respond quickly and 
effectively to support low-income families and communities during times 
of economic downturn and increased need. Enrollment expands when the 
economy weakens and contracts when the economy recovers. (See Figure 
1.)
    As a result, SNAP can respond immediately to help families and to 
bridge temporary periods of unemployment or a family crisis. A U.S. 
Department of Agriculture (USDA) study of SNAP participation over the 
late 2000's found that slightly more than \1/2\ of all new entrants to 
SNAP participated for less than 1 year and then left the program when 
their immediate need passed.
    SNAP's ability to serve as an automatic responder is also important 
when natural disasters strike. States can provide emergency SNAP within 
a matter of days to help disaster victims purchase food. In 2014 and 
2015, for example, it helped households in the Southeast affected by 
severe storms and flooding and households on the west coast affected by 
wildfires.
Figure 1
SNAP Tracks Changes in Share of Population that Is Poor Or Near-Poor
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

          Note: Poverty estimates are annual estimates and available 
        through 2014. SNAP share of resident population are annual 
        averages.
          Sources: U.S. Census Bureau, U.S. Department of Agriculture.

    SNAP's caseloads grew in recent years primarily because more 
households qualified for SNAP because of the recession, and because 
more eligible households applied for help. The Congressional Budget 
Office (CBO) has confirmed that ``the primary reason for the increase 
in the number of participants was the deep reces-
sion . . . and subsequent slow recovery; there were no significant 
legislative expansions of eligibility.'' \1\
---------------------------------------------------------------------------
    \1\ Congressional Budget Office, ``The Supplemental Nutrition 
Assistance Program,'' April 2012, http://www.cbo.gov/sites/default/
files/cbofiles/attachments/04-19-SNAP.pdf.
---------------------------------------------------------------------------
    While this increase in participation and spending was substantial, 
SNAP participation and spending have begun to decline as the economic 
recovery has begun to reach low-income SNAP participants. In 2014 and 
2015 SNAP caseloads declined in most states; as a result, the national 
SNAP caseload fell by two percent both years. Nationally, for more than 
2 years fewer people have participated in SNAP each month than in the 
same month of the prior year; about 2.5 million fewer people 
participated in SNAP in recent months than in December 2012, when 
participation peaked.
    As a result of this caseload decline, spending on SNAP as a share 
of Gross Domestic Product (GDP) fell by four percent in 2015. In 2014 
it fell by 11 percent, largely due to the expiration of the Recovery 
Act's SNAP benefit increase. CBO predicts that this trend will 
continue, and that SNAP spending as a share of GDP will fall to its 
1995 levels by 2020.
SNAP Lessens the Extent and Severity of Poverty and Unemployment
    SNAP targets benefits on those most in need and least able to 
afford an adequate diet. Its benefit formula considers a household's 
income level as well as its essential expenses, such as rent, medicine, 
and child care. Although a family's total income is the most important 
factor affecting its ability to purchase food, it is not the only 
factor. For example, a family spending \2/3\ of its income on rent and 
utilities will have less money to buy food than a family that has the 
same income but lives in public or subsidized housing.
    While the targeting of benefits adds some complexity to the program 
and is an area where states sometimes seek to simplify, it helps ensure 
that SNAP provides the most assistance to the poorest families with the 
greatest needs.
    This makes SNAP a powerful tool in fighting poverty. A CBPP 
analysis using the government's Supplemental Poverty Measure, which 
counts SNAP as income, and that corrects for underreporting of public 
benefits in survey data, found that SNAP kept 10.3 million people out 
of poverty in 2012, including 4.9 million children. SNAP lifted 2.1 
million children above 50 percent of the poverty line in 2012, more 
than any other benefit program.
    SNAP is also effective in reducing extreme poverty. A recent study 
by the National Poverty Center estimated the number of U.S. households 
living on less than $2 per person per day, a classification of poverty 
that the World Bank uses for developing nations. The study found that 
counting SNAP benefits as income cut the number of extremely poor 
households in 2011 by nearly \1/2\ (from 1.6 million to 857,000) (see 
Figure 2) and cut the number of extremely poor children by more than 
\1/2\ (from 3.6 million to 1.2 million).
Figure 2
SNAP Cuts Extreme Poverty Almost in \1/2\
Number of Households With Children, in 2011, Living on $2 Or Less Per 
        Person Per Day
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
        
          Source: Shaefer and Edin, ``Rising Extreme Poverty in the 
        United States and the Response of Federal Means-Tested Transfer 
        Programs.'' National Poverty Center, University of Michigan, 
        May 2013.

    SNAP is able to achieve these results because it is so targeted at 
very low-income households. Roughly 93 percent of SNAP benefits goes to 
households with incomes below the poverty line, and 58 percent goes to 
households with incomes below \1/2\ of the poverty line (about $10,045 
for a family of three in 2016). (See Figure 3.)
Figure 3
Two-Fifths of SNAP Households Are Below \1/2\ the Poverty Line
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

          Source: USDA Household Characteristics Data, FY 2014.

    During the deep recession and still-incomplete recovery, SNAP has 
become increasingly valuable for the long-term unemployed as it is one 
of the few resources available for jobless workers who have exhausted 
their unemployment benefits. Long-term unemployment hit record highs in 
the recession and remains unusually high; in January 2016, more than a 
quarter (26.9 percent) of the nation's 7.8 million unemployed workers 
had been looking for work for 27 weeks or longer. That's much higher 
than it's ever been (in data back to 1948) when overall unemployment 
has been so low.
    SNAP also protects the economy as a whole by helping to maintain 
overall demand for food during slow economic periods. In fact, SNAP 
benefits are one of the fastest, most effective forms of economic 
stimulus because they get money into the economy quickly. Moody's 
Analytics estimates that in a weak economy, every $1 increase in SNAP 
benefits generates about $1.70 in economic activity (i.e., increase in 
economic activity and employment per budgetary dollar spent) among a 
broad range of policies for stimulating economic growth and creating 
jobs in a weak economy.
SNAP Improves Long-Term Health and Self-Sufficiency
    While reducing hunger and food insecurity and lifting millions out 
of poverty in the short run, SNAP also brings important long-run 
benefits.
    A recent National Bureau of Economic Research study examined what 
happened when government introduced food stamps in the 1960s and early 
1970s and concluded that children who had access to food stamps in 
early childhood and whose mothers had access during their pregnancy had 
better health outcomes as adults years later, compared with children 
born at the same time in counties that had not yet implemented the 
program. Along with lower rates of ``metabolic syndrome'' (obesity, 
high blood pressure, heart disease, and diabetes), adults who had 
access to food stamps as young children reported better health, and 
women who had access to food stamps as young children reported improved 
economic self-sufficiency (as measured by employment, income, poverty 
status, high school graduation, and program participation).\2\ (See 
Figure 4.)
---------------------------------------------------------------------------
    \2\ Hilary W. Hoynes, Diane Whitmore Schanzenbach, and Douglas 
Almond, ``Long Run Impacts of Childhood Access to the Safety Net,'' 
National Bureau of Economic Research Working Paper 18535, 2012, 
www.nber.org/papers/w18535.
---------------------------------------------------------------------------
Figure 4
Children With Access to SNAP Fare Better Years Later
Percentage-Point Change in Outcomes for Adults Who Received SNAP as 
        Children, Compared to Adults Who Did Not Receive SNAP as 
        Children
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
        
          Source: Hoynes, Schanzenbach, and Almond, ``Long Run Impacts 
        of Childhood Access to the Safety Net,'' National Bureau of 
        Economic Research, November 2012.
Supporting and Encouraging Work
    In addition to acting as a safety net for people who are elderly, 
disabled, or temporarily unemployed, SNAP is designed to supplement the 
wages of low-income workers.
    The number of SNAP households that have earnings while 
participating in SNAP has more than tripled--from about two million in 
2000 to about seven million in 2014. The share of SNAP families that 
are working while receiving SNAP assistance has also been rising--while 
only about 28 percent of SNAP families with an able-bodied adult had 
earnings in 1990, 57 percent of those families were working in 2014. 
(See Figure 5.)
Figure 5
SNAP Work Rates Have Risen, Especially Among Households With Children 
        and Adults Who Could Be Expected to Work
Share of Households With Earnings
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

          Source: CBPP tabulations of USDA household characteristics 
        data.

    The SNAP benefit formula contains an important work incentive. For 
every additional dollar a SNAP recipient earns, her benefits decline by 
only 24 to 36--much less than in most other programs. Families that 
receive SNAP thus have a strong incentive to work longer hours or to 
search for better-paying employment. States further support work 
through the SNAP Employment and Training program, which funds training 
and work activities for unemployed adults who receive SNAP.
    Most SNAP recipients who can work do so. Among SNAP households with 
at least one working-age, non-disabled adult, more than \1/2\ work 
while receiving SNAP--and more than 80 percent work in the year prior 
to or the year after receiving SNAP. The rates are even higher for 
families with children. (See Figure 6.) (About \2/3\ of SNAP recipients 
are not expected to work, primarily because they are children, elderly, 
or disabled.)
Figure 6
SNAP Households with Working-Age Non-Disabled Adults Have High Work 
        Rates
Work Participation During the Previous and Following Year for 
        Households that Received SNAP in a Typical Month
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
          Source: CBPP calculations based on 2004 SIPP Panel data.
Strong Program Integrity
    SNAP has one of the most rigorous payment error measurement systems 
of any public benefit program. Each year states take a representative 
sample of SNAP cases (totaling about 50,000 cases nationally) and 
thoroughly review the accuracy of their eligibility and benefit 
decisions. Federal officials re-review a subsample of the cases to 
ensure accuracy in the error rates. States are subject to fiscal 
penalties if their error rates are persistently higher than the 
national average.
    The percentage of SNAP benefit dollars issued to ineligible 
households or to eligible households in excessive amounts fell for 7 
consecutive years and stayed low in 2014 at 2.96 percent, USDA data 
show. The underpayment error rate also stayed low at 0.69 percent. The 
combined payment error rate--that is, the sum of the overpayment and 
underpayment error rates--was 3.66 percent, low by historical 
standards.\3\ Less than one percent of SNAP benefits go to households 
that are ineligible. (See Figure 7.)
---------------------------------------------------------------------------
    \3\ See the Fiscal Year 2014 error rates: http://www.fns.usda.gov/
snap/quality-control.
---------------------------------------------------------------------------
    If one subtracts underpayments (which reduce Federal costs) from 
overpayments, the net loss to the government last year from errors was 
2.27 percent of benefits.
    In comparison, the Internal Revenue Service (IRS) estimates a tax 
noncompliance rate of 16.9 percent in 2006 (the most recently studied 
year). This represents a $450 billion loss to the Federal Government in 
1 year. Underreporting of business income alone cost the Federal 
Government $122 billion in 2006, and small businesses report less than 
\1/2\ of their income.\4\
---------------------------------------------------------------------------
    \4\ For both SNAP and taxes the figures represent gross estimates 
(i.e., before SNAP households repay overpayments, taxpayers make 
voluntary late payments, or consideration of IRS enforcement 
activities.) The net costs are somewhat lower. See: Internal Revenue 
Service, ``Tax Gap for Tax Year 2006, Overview,'' January 6, 2012, 
http://www.irs.gov/pub/newsroom/overview_tax_gap_2006.pdf.
---------------------------------------------------------------------------
Figure 7
SNAP Error Rates Near All-Time Lows
Fiscal Years 1990-2014
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

          Source: Quality Control Branch, U.S. Food and Nutrition 
        Service.

    The overwhelming majority of SNAP errors that do occur result from 
mistakes by recipients, eligibility workers, data entry clerks, or 
computer programmers, not dishonesty or fraud by recipients. In 
addition, states have reported that almost 60 percent of the dollar 
value of overpayments and almost 90 percent of the dollar value of 
underpayments were their fault, rather than recipients' fault. Much of 
the rest of overpayments resulted from innocent errors by households 
facing a program with complex rules.
    Finally, SNAP has low administrative overhead. About 90 percent of 
Federal SNAP spending goes to providing benefits to households for 
purchasing food. Of the remaining ten percent, about seven percent was 
used for state and Federal administrative costs, including eligibility 
determinations, employment and training and nutrition education for 
SNAP households, and anti-fraud activities. About three percent went 
for other food assistance programs, such as the block grant for food 
assistance in Puerto Rico and American Samoa, commodity purchases for 
the Emergency Food Assistance Program (which helps food pantries and 
soup kitchens across the country), and commodities for the Food 
Distribution Program on Indian Reservations.
Figure 8
90 Percent of Federal SNAP Spending Is for Benefits
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

          Source: Department of Agriculture, Fiscal Year 2015.
          Note: Other nutrition programs include spending on nutrition 
        assistance grants for territories, support for food banks, and 
        the Food Distribution Program on Indian Reservations.
Balancing State Flexibility With Effective National Standards
    While SNAP is a national program with relatively uniform 
eligibility standards and basic parameters for program administration 
and program integrity, it is administered by states, which share in the 
costs of administering the program. States are a key partner in the 
program's success and one of their primary considerations is that they 
do not administer SNAP in a vacuum or under a consistent set of local 
circumstances. All states have integrated SNAP into their broader 
health and/or human service systems for both efficiency and service 
considerations. In most places, SNAP is co-administered with many other 
programs.
    While Medicaid is the program with the most significant overlap 
with SNAP (about \3/4\ of households receiving SNAP benefits in 2014 
had at least one member receiving health coverage through Medicaid or 
the Children's Health Insurance Program),\5\ states also co-administer 
SNAP with other programs including child care, cash assistance, and 
refugee assistance. That means that they often are using the same set 
of staff, computer systems, local offices, and forms for many different 
programs. States are constantly working to integrate the major safety 
net programs into a coherent package for families, in order to support 
their stability while improving efficiency and program integrity.
---------------------------------------------------------------------------
    \5\ CBPP analysis of the Census Bureau's March 2015 Current 
Population Survey. See Jennifer Wagner and Alicia Huguelet, 
``Opportunities for States to Coordinate Medicaid and SNAP Renewals,'' 
Center on Budget and Policy Priorities, February 5, 2016, http://
www.cbpp.org/research/health/opportunities-for-states-to-coordinate-
medicaid-and-snap-renewals.
---------------------------------------------------------------------------
    As a result, the program provides states with flexibility in how 
they operate the program to respond to local circumstances, 
particularly with respect to harmonizing SNAP operations with Medicaid 
and other local programs.
    In other cases, states have identified program rules that conflict 
with the program's core goals. One of the key examples of this was in 
the late 1990's after the passage of the 1996 welfare reform law. As 
many low-income families with children were leaving cash assistance as 
a result of policy changes to that program and the booming economy, 
states also saw a drop-off in food stamp enrollment that could not be 
explained by a drop in the share of eligible individuals. Many families 
were leaving cash assistance for work but were not earning wages that 
would disqualify them from SNAP. States began to see that some of 
SNAP's eligibility and administrative requirements were undermining 
their ability to serve working-poor families. As a result, Congress 
enacted numerous new state options in the 2002 and 2008 Farm Bills 
designed to allow states to improve service to working families.
    And, states often have ideas for ways to improve program 
administration or design that were not envisioned by Congress or USDA 
and that merit accommodation or testing. In many cases, the program 
allows for local customization. When flexibility is not explicitly 
provided, USDA has the authority to waive its SNAP requirements when it 
believes the requested change would be in the program's best interest. 
Typically, USDA is cautious about allowing unproven sweeping new 
changes into the program. The department often seeks early innovators 
to test ideas and then identifies the best means to integrate (or 
reject) the ideas as state options.
    Congress and USDA have had to weigh states' and localities' 
requests for flexibility with other core values and considerations, 
most notably:

  <bullet> At its core, SNAP is a food assistance program. How it 
        assesses what comprises a household, and a household's ability 
        to purchase food, is necessarily different than how we might 
        measure the same group of people's obligation and ability to 
        provide for each other's health care or child care.

  <bullet> SNAP is a national program meant to respond as consistently 
        as possible to the needs of low-income people and families who 
        cannot afford a basic diet no matter where they live. 
        Currently, families with the same economic circumstances in two 
        states can expect the same level of SNAP benefits under this 
        national framework. The same is not true of many state-operated 
        human services and income support programs. In fact, SNAP plays 
        a key role in leveling out the disparate level of wages and 
        support available to poor families and individuals across 
        states.

  <bullet> The program is a highly effective intervention that protects 
        vulnerable families, seniors, people with disabilities, and 
        others from hunger and hardship. Flexibility and state 
        variation must be carefully considered as to whether it will 
        augment the program's ability to meet these basic needs or put 
        needy people at greater risk.

  <bullet> SNAP benefits are paid entirely by the Federal Government. 
        Federal SNAP rules require the highest level of rigor of any 
        major benefit program; with respect to assessing eligibility 
        and determining benefit levels to ensure that states are 
        properly administering Federal funds. And, SNAP rules generally 
        require a detailed assessment of a household's current 
        financial situation. Few other programs operated by states meet 
        these standards.

  <bullet> A consistent framework for customer service standards, such 
        as the requirements for states to process applications within 
        30 days of receipt and for households to provide documentation 
        of their income and circumstances, is important to ensure a 
        shared sense of program requirements across states. Early 
        experience with the program demonstrated that states were 
        extremely uneven in how they operated the program and, in some 
        cases, access was extremely limited.

    There can be a tension between remaining true to SNAP's goals of 
addressing food insecurity and hunger and providing states with 
flexibility to set SNAP policy. While the discussion and debate around 
the appropriate level of state flexibility is an ongoing one, I believe 
that Congress and USDA have struck a reasonable balance in maintaining 
SNAP as a high performing national program while according states 
sufficient flexibility. The program has valued maintaining a generally 
consistent national eligibility and benefit structure that demands a 
high level of rigor and integrity when assessing eligibility, as well 
as a common framework of what's expected of clients and states in 
administering the program. Flexibility has been provided in a number of 
areas detailed in the section below.
    As you assess suggestions for further flexibility or modifications 
to the program, we encourage you to ensure that those proposals do not 
undermine SNAP's strengths as a food assistance program targeted to 
individuals and families with the least ability to purchase food. 
Proposals to sweep away some of SNAP's key features or that would shift 
benefits away from food assistance to other purposes would run counter 
to the program's goals and proven success. Block grants, capped 
funding, or merged funding streams all would eliminate the most 
important features of SNAP--its national entitlement structure. Any of 
these types of changes to SNAP's structure must be avoided.
    To be sure, despite the level of flexibility offered in SNAP, it is 
less flexible than various other programs state-administered health and 
human services programs. Programs with capped Federal funding such as 
the child care development block grant or the Temporary Assistance for 
Needy Families (TANF) block grant offer states more flexibility in 
setting program rules. Of course, those programs are extremely limited 
in in their reach and impact. And, programs that states administer that 
require a significant state financial contribution, such as Medicaid, 
establish basic minimum Federal standards but give states flexibility 
to expand the program's eligibility and benefit package as well as 
tailor administration and operations within more general Federal 
guidelines. Because states also operate these other programs, SNAP can 
strike them as significantly less flexible by comparison.
Areas of Flexibility in SNAP
    SNAP's statute, regulations, and waivers provide state agencies 
with various policy options. State agencies use this flexibility to 
adapt their programs to meet the needs of their eligible, low-income 
residents. Certain options may facilitate program design goals, such as 
removing or reducing barriers to access for low-income families and 
individuals, or providing better support for those working or looking 
for work. Others focus on streamlining and coordinating SNAP with other 
programs, such as Medicaid. This flexibility helps states better target 
benefits to those most in need, streamline program administration and 
field operations, and coordinate SNAP activities with those of other 
programs.
    The following are several categories of flexibility within the 
program, with examples of the types of flexibility available in each 
category. The list is meant to provide a flavor of the available 
options versus providing an exhaustive catalogue within each category.
Options that Provide Flexibility in Eligibility or Benefit Calculation 
        Policy
    As a part of and since the passage of the 1996 welfare law, 
Congress has offered states several options to adopt less restrictive 
eligibility and benefit calculation rules in SNAP in order to 
coordinate SNAP with other programs, such as TANF cash assistance and 
Medicaid. In addition, this flexibility has made it much easier for 
states to serve working families.

  <bullet> Vehicle asset test: Federal rules for counting the value of 
        cars and other vehicles toward SNAP eligibility are restrictive 
        and outdated. The Food Stamp Act of 1977 required states to 
        count the fair market value of a car as a resource to the 
        extent that it exceeded $4,500, an amount not indexed to 
        inflation that has been raised by only $150 in almost 40 years. 
        Because Federal policy was viewed as preventing low-income 
        households, especially working families, from owning reliable 
        means of transportation, and because many states had addressed 
        this concern in other programs for which they set eligibility 
        rules, in 2000 Congress gave states flexibility to craft a food 
        stamp vehicle asset rule that suits their needs. Instead of the 
        Federal rules, states may use in SNAP the method for valuing 
        vehicles that the state has established under a TANF-funded 
        cash or non-cash assistance program so long as it is not more 
        restrictive than Federal food stamp rules. After this change, 
        many states imported into SNAP the vehicle rules they used in 
        their TANF cash assistance or TANF-funded child care programs. 
        Within a few years of the change, every state had modified its 
        rules for counting the value of vehicles so that participants 
        could own a more reliable car.

  <bullet> Categorical eligibility: The 1996 welfare law provided 
        states with an option to align two aspects of SNAP eligibility 
        rules--the gross income eligibility limit and the asset test--
        with the eligibility rules they use in programs financed under 
        their TANF block grant. Over 40 states have adopted this option 
        to simplify their programs, reduce administrative costs, and 
        broaden SNAP eligibility to certain families in need, primarily 
        low-wage working families.

      States use the categorical eligibility option to enable 
        households with gross incomes modestly above 130 percent of the 
        poverty line (up to 200 percent of poverty in a few states) but 
        disposable income below the poverty line--or with savings 
        modestly above $2,250 (an asset limit that has declined by 
        about 50 percent in real, i.e., inflation-adjusted, terms since 
        1986)--to qualify for SNAP assistance in recognition of their 
        need.
      In states that take the option, households must still apply 
        through the regular application process, which has rigorous 
        procedures for documenting applicants' income and 
        circumstances. But the option allows states to provide SNAP to 
        certain working families with children or to households that 
        have built a modest amount of savings who otherwise would not 
        qualify for help affording food.

    <ctr-circle> Flexibility with the gross income limit favors low-
            income households with modest incomes and high living 
            expenses. About $9 of every $10 in SNAP benefits that are 
            provided to low-income households who qualify for SNAP 
            because their state uses this option are provided to low-
            income working households. About $8 of every $10 in such 
            benefits go to families with children. About \2/3\ of these 
            benefits go to households with gross income below 150 
            percent of the Federal poverty line.

    <ctr-circle> Without this option, states cannot provide SNAP to 
            poor families who have managed to save as little as $2,251 
            or to seniors or people with disabilities who have saved as 
            little as $3,251. Building assets helps low-income 
            households invest in their future, avert a financial crisis 
            that can push them deeper into poverty or even lead them to 
            become homeless, avoid accumulating debt that can impede 
            economic mobility, and have a better chance of avoiding 
            poverty and greater reliance on government in old age.

      Despite some claims, categorical eligibility was not the major 
        driver of increased caseloads during the recent economic 
        downturn. The economy and increased poverty as well as a rise 
        in the participation rate among eligible people were the 
        overwhelming drivers of caseload increases during the 
        recession. Economists Peter Ganong and Jeffrey Liebman found 
        that increased adoption of broad-based categorical eligibility 
        accounted for eight percent of the caseload increase. (Because 
        households eligible as a result of broad-based categorical 
        eligibility receive lower-than-average benefits, this change 
        accounted for a smaller share of the cost increase during the 
        same period.) \6\
---------------------------------------------------------------------------
    \6\ Peter Ganong and Jeffrey B. Liebman, ``The Decline, Rebound, 
and Further Rise in SNAP Enrollment: Disentangling Business Cycle 
Fluctuations and Policy Changes,'' National Bureau of Economic 
Research, Working Paper 19363, August 2013, http://www.nber.org/papers/
w19363.pdf?new_window=1. See Dottie Rosenbaum and Brynne Keith-
Jennings, ``SNAP Costs and Caseloads Declining,'' Center on Budget and 
Policy Priorities, updated February 10, 2016, http://www.cbpp.org/
research/food-assistance/snap-costs-and-caseloads-declining.

  <bullet> Transitional benefits: A change in the 2002 Farm Bill allows 
        states to provide up to 5 months of transitional SNAP benefits 
        to families that leave states' TANF cash assistance programs. 
        The provision was enacted in response to research that found 
        that fewer than \1/2\ of households that left TANF cash 
        assistance stayed connected to SNAP, despite earning low wages 
        and (in most cases) remaining eligible for SNAP benefits. The 
        option allows states to continue a family's SNAP benefits when 
        a family gains a job and leaves TANF cash assistance, based on 
        information the state already has and without requiring the 
        family to reapply or submit additional paperwork at that time. 
        The continuity of SNAP can reward work and help make clear to 
        families that SNAP is available to low-income families that do 
        not receive cash assistance. Helping families retain benefits 
        can help make the transition to work more successful and ensure 
        that families are better off working than on welfare. In 2013, 
---------------------------------------------------------------------------
        20 states had adopted the option.

  <bullet> Simplified income and resources: Two other provisions of the 
        2002 Farm Bill allowed states to simplify which income and 
        resources count toward SNAP eligibility by excluding uncommon 
        forms of income and/or resources that they exclude in their 
        TANF cash assistance or Medicaid programs. More than \1/2\ the 
        states have taken advantage of the option to exclude such 
        income or resources. The change has allowed states to simplify 
        forms and reduce the administrative burdens of tracking down 
        and verifying these obscure forms of income or assets.
State Options Within SNAP's 3 Month Time Limit
    Able-bodied adults without dependents (ABAWDs) are limited to 3 
months of SNAP in any 3 year period unless they are working at least 
half time, participating in a qualifying job training activities for an 
average of 20 hours a week, or doing workfare. States and localities 
are not required to help the affected people find jobs or provide a 
place in a job training program that would allow them to keep benefits. 
Very few do so, leaving it to the participants to find enough work or 
training to keep their benefits. As a result, states' first choice 
within the time limit policy is whether to operate the rule as a work 
requirement--whereby they provide work slots to those willing to work--
or as a time limit where they cut off individuals after 3 months 
regardless of their willingness to work and whether they are searching 
for a job. Most elect to operate the rule as a time limit.
    As a result, the 3 month time limit for childless, non-disabled 
adults who are unable to find 20 hours a week of work is one of the 
harshest provisions in SNAP. By 2000, 3 years after it was first 
implemented, an estimated 900,000 individuals had lost benefits. Since 
the time limit has been in effect, it has severely restricted this 
group's access to the program.\7\ Many of those who have lost benefits 
have faced serious hardship and have not been eligible for other kinds 
of public assistance.
---------------------------------------------------------------------------
    \7\ ``Imposing a Time Limit on Food Stamp Receipt: Implementation 
of the Provision and Effects on Participation,'' Mathematica Policy 
Research, 2001, available at: http://www.fns.usda.gov/sites/default/
files/abawd.pdf.
---------------------------------------------------------------------------
    In addition to the choice of whether to operate the rule as a time 
limit or a work requirement, states have two main options within this 
program rule:

  <bullet> Waivers for areas with sustained levels of relatively high 
        unemployment. The authors of the provision in 1996, Reps. 
        Kasich and Ney, included some modest state flexibility related 
        to this provision. States can waive the time limit in areas 
        with high unemployment, meaning that individuals residing in a 
        waived area are not subject to the time limit. States request 
        these waivers by submitting evidence to FNS that areas within 
        the state, such as counties, cities, or tribal reservations, 
        have high and sustained unemployment.

      In the past few years, the 3 month limit hasn't been in effect in 
        many states. Many states qualified to waive the time limit 
        throughout the state due to high unemployment rates during and 
        since the Great Recession. But as unemployment rates have 
        fallen, fewer areas are qualifying for statewide waivers 
        (though in most states there are some counties or other 
        localities that remain eligible for waivers because they 
        continue to have high unemployment).
      In 2016, the time limit will be in effect in more than 40 states. 
        In 23 states, it will be the first time the time limit has been 
        in effect since before the recession. (See Figure 9.) Of these 
        states, 19 must reimpose the time limit in at least part of the 
        state; another four are electing to reimpose the time limit 
        despite qualifying for a statewide waiver from the time limit 
        because of continued high unemployment.\8\
---------------------------------------------------------------------------
    \8\ Ed Bolen, et al., ``More Than 500,000 Adults Will Lose SNAP 
Benefits in 2016 as Waivers Expire,'' Center on Budget and Policy 
Priorities, updated January 21, 2016, http://www.cbpp.org/research/
food-assistance/more-than-500000-adults-will-lose-snap-benefits-in-
2016-as-waivers-expire.
---------------------------------------------------------------------------
Figure 9
States Newly Implementing SNAP Time Limits in 2016
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Note: These are states that had o statewide waiver of the 
        time limit for childless adults aged 18-49 without disabilities 
        in 2015, but are implementing the time limit in some or all of 
        the state beginning January 2016. The other states either began 
        implementing the time limit in 2015 or earlier, or are eligible 
        for and will waive the entire state from the time limit in 
        2016.

  <bullet> Individual exemptions. In addition to the mandated 
        exemptions from the time limit (for example, disability and 
        pregnancy), states have additional flexibility to set their own 
        exemption criteria. Each year, a state can exempt roughly 15 
        percent of its caseload that is subject to the time limit. Once 
        a year, FNS estimates the number of ABAWDs who are subject to 
        the 3 month time limit who are not living in a waived area and 
        calculates exemptions representing 15 percent of that number. 
        Each exemption may be used to exempt one individual for 1 
        month, though states can grant continuing exemptions to a 
        single individual to exempt that person for a number of months. 
        Many states find this flexibility difficult to use and do not 
        take advantage of this option at all.
State Options Within Disqualification and Sanction Policy
    SNAP gives states flexibility, within federally proscribed 
parameters, to tailor SNAP's disqualification and sanction policy for 
participants' noncompliance with certain program rules, including work 
requirements. The 1996 welfare law included several state options to 
ensure that states could coordinate sanction policy across cash and 
food assistance and options for additional SNAP-only sanctions.

  <bullet> State options to conform SNAP sanctions with TANF work 
        rules. The 1996 welfare law included three state options to 
        ensure that SNAP work rules and sanctions complement, rather 
        than undermine, the rules states establish in their TANF cash 
        assistance programs. First, states have the option to 
        disqualify an individual from SNAP if she or he has been 
        disqualified from TANF for failure to comply with TANF work 
        requirements. States also have the option to decrease a 
        household's SNAP benefits by up to 25 percent when the 
        household's TANF benefits have been cut due to non-compliance 
        with a TANF work requirement. Finally, states must impose SNAP 
        sanctions on certain TANF households who do not comply with 
        TANF work requirements. States have an option to disqualify 
        SNAP benefits for the entire family for up to 6 months (unless 
        the family has a child under age 6).

  <bullet> State options for sanctions for non-compliance with SNAP 
        work requirements. For SNAP households that do not include TANF 
        recipients, the 1996 welfare law also gave states more 
        discretion over penalties for violating SNAP's various work-
        related requirements (which are separate and distinct from the 
        3 month time limit that childless adults face.) Under SNAP's 
        rules, an individual who does not comply with SNAP's work 
        requirements is ineligible for a designated period of time, 
        with the duration of the sanction increasing with successive 
        offenses. States have options for how many months the 
        disqualification lasts and whether to terminate SNAP for just 
        that individual or the entire household (for up to 6 months).

  <bullet> Behavior-related sanctions. States have several state 
        options related to behavior other than work.

    <ctr-circle> First, for TANF recipients who are sanctioned for 
            violating a TANF requirement related to conduct other than 
            a work requirement (i.e., where a family's children who are 
            students are required to stay in school or risk losing some 
            of the households' cash assistance benefit) the household 
            cannot receive increased SNAP benefits because of the TANF 
            benefit cut and states may cut the household's SNAP benefit 
            by up to 25 percent or import the TANF disqualification 
            into SNAP (for the individual disqualified from TANF).

    <ctr-circle> States may disqualify from SNAP parents who are not 
            complying with Child Support Enforcement. This includes 
            custodial parents who are not cooperating with states' 
            efforts to establish the paternity of the child and obtain 
            support payments, and non-custodial parents who are not 
            cooperating or paying child support. States also have the 
            option to sanction non-custodial parents who are in arrears 
            on their child support payments.

  <bullet> Prohibition on convicted drug felons participating in the 
        program. A provision of the 1996 welfare law permanently 
        disqualifies individuals from SNAP (and TANF) if they are 
        convicted of a state or Federal felony related to possession, 
        distribution, or use of controlled substances after August 1996 
        (the date of enactment of the welfare law). States may pass 
        legislation to opt out of this provision. They also may impose 
        certain conditions on former felons who seek SNAP. For example, 
        a state may require the individual to periodically submit to a 
        drug test. Or a state may opt to impose the ban on people whose 
        offense was selling (rather than only possessing) drugs. 
        Several states, including Alabama, Missouri, and Texas, have 
        recently modified the drug felon ban (almost 20 years after it 
        went into effect) as part of broad criminal justice reforms.

    It is important to note that the primary goal of sanctions is to 
provide a mechanism to help bring the household into compliance with 
what is being asked of them rather than as a means to punish households 
who fail to perform required tasks. Very little research has been 
undertaken in SNAP to assess the overall effectiveness of sanctions on 
incentivizing the desired results. Research in the TANF program 
suggests that a large proportion of families that are sanctioned for 
failing to comply with program activities are those with barriers to 
employment such as health and substance abuse problems or low levels of 
education. These findings suggest that work barriers can impede a 
recipient's ability to meet program requirements and may be the cause 
of the failure to comply with requirements, rather than a willful 
refusal to comply. This may be because the particular work activities 
to which a recipient has been assigned are inappropriate, based on her 
individual circumstances, or that appropriate supportive services to 
help the recipient overcome her employment barriers are not in place. 
Placement in an inappropriate activity could arise because the states 
failed to identify the recipient as having a barrier, or a state may 
not have appropriate activities available for individuals whom it 
identifies as having particular barriers to employment.
Application Requirement Flexibility
    In addition to flexibility regarding certain eligibility and 
benefit rules, SNAP affords states considerable flexibility, within 
Federal standards, in the application and certification requirements 
they apply to households (for example, how often states require 
households to reapply for benefits, and which households they offer a 
telephone interview at application in lieu of a face-to-face 
interview.) This is an area of the program where the ``flavor and 
feel'' of the program can vary quite a bit across states.
    This flexibility is bounded by program integrity standards and 
backed up by fiscal penalties on states for poor payment accuracy. 
SNAP's Quality Control (QC) system has long been one of the most 
rigorous systems of any public benefit program in ensuring payment 
accuracy. Every month states select a representative sample of SNAP 
cases (totaling about 50,000 cases nationally over the year) and have 
independent state reviewers check the accuracy of the state's 
eligibility and benefit decisions within Federal guidelines. Federal 
officials then re-review a subsample of the cases to ensure accuracy in 
the error rates. States are subject to fiscal penalties if their error 
rates are persistently above the national average.
    In many areas, because of this rigorous QC backstop, Federal rules 
allow states flexibility in the procedures they apply to households. 
For example:

  <bullet> Certification period length. States have options for how 
        often they require households to reapply and have their 
        eligibility reassessed. Federal rules require households be 
        certified for fixed periods of time. States must require most 
        households to reapply for SNAP at least annually, though states 
        may allow households with more stable circumstances (i.e., 
        households with elderly or disabled members who have fixed 
        incomes) to reapply every 2 years. Within these Federal rules 
        states have flexibility for determining how often different 
        types of households must reapply.

  <bullet> Reporting changes. SNAP participants also are required to 
        keep the state informed between eligibility reviews about 
        certain changes in household circumstances (such as in income 
        or household members). Federal rules present two basic 
        reporting systems--change reporting (changes must be reported 
        within 10 days), and periodic reporting (which requires reports 
        periodically, usually every 6 months, though states may require 
        reports monthly)--and allow states to determine which 
        households they assign to which type of system. SNAP households 
        are frequently subject to other programs' reporting 
        requirements as well, most notably Medicaid but also child care 
        and cash assistance through TANF or Supplemental Security 
        Income (SSI).

  <bullet> In-person or telephone interviews. SNAP rules require 
        households to be interviewed at initial certification, and most 
        households must be interviewed at least once a year thereafter. 
        In recent years, in recognition of the burden that traveling to 
        a local office can present to working families, seniors, and 
        people with disabilities, and those with limited access to 
        transportation, FNS has given states more flexibility in 
        determining which households must visit an office for an in-
        person interview and for which households a telephone interview 
        may be conducted.

  <bullet> Verification. In SNAP certain items such as income, 
        identity, and questionable information must be verified, either 
        through a data match, household documents, or a contact with a 
        reliable source. But states have a wide degree of latitude on 
        what other items they require to be verified.

    As mentioned, all of these choices operate within Federal 
standards, and the rigorous QC system provides assurances that states 
make carefully considered choices that protect Federal fiscal 
interests.
State Operations and Basic Business Model
    Like with application and certification rules, states have a wide 
degree of flexibility for how they set up their SNAP program 
operations. Federal rules proscribe certain basic customer service 
standards; for example, most eligible households are expected to be 
provided benefits within 30 days of application (and, for the most 
destitute within 7 days). And, of course, states cannot discriminate, 
cannot turn people seeking help away, and must comply with other laws 
that protect privacy and people with disabilities, for example.
    But beyond these basic protections and standards, states have 
enormous flexibility to tailor their program operations--for example, 
how they staff their offices, coordinate with other programs, and 
deliver SNAP benefits. As a result, SNAP participants experience a wide 
range of different programs across the United States, and even within a 
given state, different counties and local offices may differ 
dramatically in their look and feel. Below are a series of examples of 
state flexibility in operations.

  <bullet> Office structures. States have wide latitude over how they 
        staff and structure their offices and develop and operate their 
        own technology systems. So, for example, many, but all not all, 
        states have online applications and other services such as the 
        ability for applicants and participants to check their benefits 
        online. Some states use call centers to centralize telephone 
        operations, while others route inquiry calls to local 
        eligibility offices.

  <bullet> Staffing model. States can assign households to a particular 
        eligibility worker or can operate on a ``task model,'' more 
        like an assembly line, where staff share cases and different 
        workers specialize in different certification activities, such 
        as intake, interviewing, and case processing. Some might assign 
        specially trained staff to address the particular needs of 
        seniors or refugee groups. Some states make broad use of 
        clerical staff, while others fully train almost all staff on 
        the program's eligibility rules.

  <bullet> Coordination with other programs. States may offer SNAP as a 
        stand-alone program, or may coordinate SNAP eligibility with 
        other human services programs. Almost every state coordinates 
        eligibility for SNAP with eligibility for TANF cash assistance 
        (though employment and training may be separate), and about 40 
        states coordinate with health coverage through Medicaid. Some 
        states also operate their energy assistance, child care, and/or 
        refugee assistance programs in the same offices and using the 
        same staff and eligibility systems as SNAP.

  <bullet> Business process philosophy. Some states handle 
        applications, mandated renewals or matches that require 
        resolution as they come to the state. Other states seek to 
        anticipate work and get ahead of it. For example if a client 
        calls to report a change, a call-center worker might also check 
        to see if the client is due for a renewal soon. If so, the 
        worker could use that opportunity to conduct a quick interview 
        with the client, run data matches and successfully complete the 
        renewal. This proactive approach typically reduces workload for 
        the state and provides better service to citizens.

  <bullet> Speed of application processing. Even within the 7 and 30 
        day Federal processing standards, states vary significantly on 
        how quickly they determine eligibility. Some states, for 
        example Idaho, focus on same-day services--aiming to ``touch'' 
        each case only once, and finalize the eligibility determination 
        for as many cases as possible the same day. Other states take 
        the full 30 days allowed under Federal rules, waiting several 
        weeks to schedule interviews and process verification. Both 
        types of states are operating within Federal standards.

  <bullet> Benefit issuance. States also have flexibility in how they 
        time benefit issuance. Each household receives its benefits 
        monthly, but some states spread the date of issuance out over 
        the first week of the month or the first 20 days, for example.

  <bullet> Technology. One of the areas where states diverge the most 
        from each other is the quality of their technology. Some states 
        use a single modernized computer system across multiple 
        programs. These systems offer them the ability to undertake 
        speedy data matches (while on the phone with a client), review 
        scanned client documents, chat with clients and accurately 
        apply current eligibility rules. Work can be moved to where 
        resources are available because it is all digitized. Clients 
        have access to online accounts where they can transact business 
        and may even have a mobile app on their phones where they can 
        upload documents or quickly answer the states' questions. Call 
        centers answer the phone within minutes and have access to the 
        necessary information to complete tasks with clients over the 
        phone rather than forcing the client to take time off of work 
        and travel to the local welfare office. Other states are 
        working with decades-old systems, paper files, traditional 
        phones (i.e., no headsets for workers on the phone) and have to 
        wait for batch matching with third-party data systems such as 
        the Social Security system to be undertaken by a central 
        office. These differences are substantial and have a large 
        impact on how the state conducts its business and how flexible 
        and nimble it can be. For states with old computer systems, the 
        reprogramming necessary to simplify program rules or align SNAP 
        with other programs can be very difficult, if not impossible, 
        or take years to implement.
Regulatory Waiver Authority
    Under Federal law, USDA can allow states to waive certain SNAP 
regulatory requirements in an effort to test innovative ways to improve 
program efficiency and to enhance client access. FNS has approved 
countless waivers using this authority. It keeps a public database of 
regulatory waivers; currently, there appear to be over 400 approved 
waivers.
    For example, states have waivers to issue electronic notices to 
households that request them, in lieu of paper notices and to dispense 
with requirements on scheduling interviews if they commit to interview 
applicants ``on demand'' when they call a call center. Other examples 
are modest variations on benefit policy such as with respect to the 
calculation for how to average a student's work hours. We would expect 
that early testing on electronic notices with a few states would result 
in guidance to all states on the use of such notices if they wish to 
use them. Similarly, the waivers on averaging student work hours might 
result in a revised policy that reflects states' requests for more 
flexibility in that area.
Demonstration Waiver Authority
    SNAP law has many state options built into its basic structure. In 
addition, in 1996, as part of the welfare law, Congress substantially 
expanded the program's waiver authority to allow for greater state 
experimentation in SNAP. States can seek waivers to change virtually 
any aspect of the benefit structure and delivery system. The few 
limitations that Congress decided to retain after careful consideration 
are necessary to preserve the program's fiscal integrity and to 
maintain SNAP as a nutritional safety net.
    For example, to preserve fiscal integrity, the 1996 welfare law 
prohibited states from waiving the requirement that states contribute 
\1/2\ of administrative costs. Without this restriction, states could 
seek waivers that entail cutting benefits and converting the savings 
into an enhanced administrative matching rate. Similarly, states cannot 
waive the prohibition against giving SNAP to residents of most 
institutions. Without this prohibition, states could use benefits to 
fund meals in state prisons or mental hospitals and offset the costs 
through SNAP benefit cuts.
    To maintain the nutritional safety net, a handful of critical 
program rules cannot be waived. These include:

  <bullet> The individual entitlement to benefits for eligible persons 
        who are not violating work or other conduct requirements. 
        Without this protection, states could make various categories 
        of households ineligible for benefits or establish waiting 
        lists in order to secure a source of funds for other purposes.

  <bullet> The gross income limit for households that do not include 
        elderly and disabled members. Without this prohibition, states 
        could reduce benefits for poor and near-poor households to 
        provide benefits for some groups of households at higher income 
        levels, or could reduce the income limit for everyone to shift 
        resources from SNAP benefits to other uses.

  <bullet> Provision of timely service, such as the right to apply for 
        SNAP when a household first contacts the SNAP office and to 
        receive benefits within 30 days if eligible. Without these 
        provisions, households in severe need could have to wait for 
        long periods before receiving assistance.

    Another important provision in current waiver authority 
appropriately distinguishes between demonstration projects that operate 
in several counties and are designed to test new approaches and waivers 
that simply allow a state to alter on a statewide basis a Federal 
policy it does not favor. In the first type of waiver, which represents 
the type of approach followed over the years in a number of carefully 
evaluated pilot projects in various low-income programs, states are 
allowed broad discretion to alter the program's benefit structure. 
(States may not make entire categories of low-income households 
ineligible for SNAP if these households are fully complying with all 
work and other behavioral requirements, but they can test changes that 
result in large changes in the benefits levels for which households 
qualify.) In the latter type of waiver involving statewide policy 
changes, states can still change many program rules, but there is a 
limit on the proportion of a state's caseload whose benefits can be cut 
by more than 20 percent.\9\
---------------------------------------------------------------------------
    \9\ Dorothy Rosenbaum, ``States Have Significant Flexibility in the 
Food Stamp Program,'' Center on Budget and Policy Priorities, June 17, 
2002, http://www.cbpp.org/archives/6-17-02fs.htm.
---------------------------------------------------------------------------
    This provision was included in the 1996 welfare law to ensure that 
waivers cannot simply eliminate or sharply reduce SNAP on a statewide 
basis for major categories of low-income households so long as the 
households are faithfully complying with program rules. Congress 
included it as an appropriate protection for a program that is designed 
to enable poor families and individuals to obtain a minimum adequate 
diet and in which the Federal Government pays 100 percent of the 
benefit costs.
    Examples of demonstration waivers under this authority include 
demonstrations to test:

  <bullet> the impact of simplifying the process by which eligible 
        households can claim the medical expense deduction, and

  <bullet> a simplified application process for seniors who qualify for 
        SSI to be enrolled into SNAP.

    While not required under Federal law, USDA has consistently 
required that these demonstration projects be cost neutral to the 
Federal Government to ensure that this authority is not abused to 
expand or contract the program.
SNAP Employment and Training Programs
    SNAP employment and training (E&T) is one of the most flexible 
program features of SNAP. This ensures that states can design programs 
that are suited to their local economic conditions in terms of which 
populations they target with services, what services to offer, and in 
which localities. The primary limitation states experience under 
employment and training is limited Federal grant funds. States are, 
however, eligible for unlimited Federal matching funds to double state 
investments in operate SNAP employment and training programs. Under 
SNAP rules, all adult recipients are required to register for work 
unless they are elderly, disabled, caring for a child under age 6, 
already complying with a TANF or unemployment compensation work 
requirement, or otherwise not expected to work. States have very broad 
discretion to require work registrants to look for jobs, to participate 
in employment and training activities, or to work off their benefits.
    In 1996, Congress restructured the SNAP E&T program to serve 
primarily unemployed childless adults. As mentioned above, under the 
welfare law, such individuals may receive SNAP benefits for only 3 
months out of any 3 year period unless they are participating in a work 
program. States criticized the provisions directing most Federal SNAP 
E&T money to unemployed childless adults as overly restrictive, and the 
reauthorization legislation enacted in May 2002 as part of the farm 
bill returned the E&T program to its prior, more flexible design. 
States once again have almost complete flexibility over how they 
operate their E&T programs. They may determine which populations to 
serve (for example, parents in families with children or unemployed 
childless adults) and select what types of employment and training 
services to provide. They may access Federal matching funds for these 
employment and training services and related work support services, 
including transportation and child care.
    As part of the 201[4] Farm Bill, Congress authorized ten pilot 
projects to test whether SNAP E&T could more effectively connect 
unemployed and underemployed recipients to work. The selected pilots, 
announced in March 2015, include a mix of mandatory and voluntary E&T 
programs. Several of the pilots target individuals who face significant 
barriers to employment, including homeless adults, the long-term 
unemployed, individuals in the correctional system, and individuals 
with substance addiction. Each pilot involves multiple partners to 
connect workers to resources and services already available in the 
community. These pilots will help both states and the Federal 
Government understand how SNAP E&T can best contribute to recipients 
ultimately securing jobs that provide economic security and end their 
need for SNAP.
Other Flexibilities
    As I noted above, this section is meant to give a sense of the 
categories of flexibility in the program rather than a comprehensive 
catalogue of all the state options and choices within SNAP. Within each 
category there are other examples, many of them less significant or 
less popular than the listed items. And, other program features provide 
flexibility as well. SNAP provides a nutrition education grant to 
states under which states can pursue nutrition education programming of 
their choice so long as it is evidence based. States also have 
flexibility in establishing and operating outreach services to help 
connect eligible but unenrolled individuals and families with SNAP. 
And, if a state experiences a natural disaster, states have the option 
to establish special disaster-SNAP (D-SNAP) that is customized to the 
needs in the impacted community within certain parameters.
States Are Not Always Aware of SNAP's Flexibility
    I have worked on SNAP for more than 20 years. Much of my work is 
providing technical assistance to state officials who wish to explore 
options to improve their program operations. It has been my great 
pleasure to visit local offices and work with states all around the 
country. Most recently, I led technical assistance to states as a part 
of the Work Support Strategies Initiative (WSS)--a multi-year, multi-
state initiative to help low-income working families obtain the package 
of work supports for which they are eligible, while enabling states to 
streamline administration. WSS worked directly with Colorado, Idaho, 
Illinois, North Carolina, Rhode Island, and South Carolina since 2011. 
Through grants and expert technical assistance, WSS helps states reform 
and align their systems for delivering work-support programs intended 
to increase families' well-being and stability--particularly SNAP, 
Medicaid, the Children's Health Insurance Program (CHIP), and child 
care assistance through the Child Care and Development Block Grant. 
Through WSS, states seek to streamline and integrate service delivery, 
use 21st Century technology, and apply innovative business practices to 
improve administrative efficiency and reduce burdens on both states and 
working families.
    Based on my experience, many states are not fully aware of the 
level of flexibility available to them. They often assume that their 
states' SNAP program rules are mandated by the Federal Government. 
Instead, their program is a mixture of Federal rules and a set of 
choices by their predecessors in the state that was informed by 
circumstances or limitations that may no longer be relevant. This is 
particularly true of state computer systems--when states purchase 
systems that are inflexible, they often call on the Federal agencies to 
provide flexibility to let them align the programs with their 
technology.
    It also can be difficult for state officials to assess which rules 
were mandated and which are the result of prior state choices--now 
codified in state manuals and computer programming. This doesn't mean 
there aren't Federal requirements in SNAP and other health and human 
services programs--there certainly are. But, often states perceive SNAP 
as far more rigid than it is. One of the biggest areas that states 
struggle with is how to coordinate policies and procedures across 
programs. Perfect alignment isn't possible, but there's far more 
opportunity for coordination than many realize. We saw this recently 
when we interviewed states and conducted site visits on how states 
coordinate SNAP and Medicaid renewals. In many cases, the limitations 
of their computer systems were driving policy decisions, rather than 
policy choices driving the state's computer system design.
    As states work to better coordinate their systems, they are 
discovering that there is often far more flexibility in Federal 
programs to align and coordinate, or cross-leverage, information than 
they thought. Often disconnects are the result of their own making or a 
lack of understanding of the flexibility available to them. Other 
times, differences between programs are by design and originate from 
the programs' differing goals. And, there are times when states 
discover differences between programs that raise reasonable questions. 
For example, several states have asked if they can use the wage and 
unemployment data that employers report to states and Social Security 
Administration to help verify household income as the basis for 
eligibility and benefit-level determination. Traditionally, this would 
not be allowed in SNAP because the data would be consider too old (up 
to 4 or 5 months) to use as a current assessment of household 
circumstances. Nevertheless, USDA is allowing a few states to test this 
approach in an effort to determine if this approach is workable, 
particularly for households with very stable income. Another example is 
that Medicaid allows and encourages states to use third-party data 
matches to verify income even if the information is a little dated, 
while SNAP historically has required states to gather current 
information, even from households with very stable employment 
arrangements. In such a case, the Federal Government can grant states 
waivers from Federal SNAP requirements to test whether allowing SNAP to 
use other programs' rules is appropriate and cost effective. I believe 
Texas is currently testing this approach, which may help USDA determine 
whether and under what conditions this approach may be workable in 
SNAP.
    USDA can do more to assist states' efforts to administer SNAP as 
part of the larger health and human services system. First and 
foremost, USDA's oversight and policy development would be strengthened 
if its staff developed more expertise in other Federal assistance 
programs. When SNAP policy is different from policy in another major 
program such as Medicaid, it would be helpful for USDA to be aware of 
those differences, to flag them for states, and to be able to advise 
states on the flexibility they may have to harmonize the rules across 
programs. (The same holds true for HHS.) State and local governments, 
even individual caseworkers, ought not to be left on their own to 
disentangle differing Federal rules and regulations. It seems 
reasonable for the Federal agencies to navigate what we ask their state 
counterparts to manage. That having been said, USDA has taken steps to 
engage SNAP agencies in a conversation about how recent changes in 
Medicaid could be affecting SNAP operations at the local level. USDA 
can do more here, and I encourage them to do so.
Conclusion
    SNAP is an efficient and effective program. It alleviates hunger 
and poverty and has positive impacts on the long-term outcomes of those 
who receive its benefits. And, SNAP has exacting standards with respect 
to eligibility determinations.
    Congress and USDA have worked hard to balance the need to maintain 
SNAP's successful structure and design with some state flexibility to 
ensure the program is able to adapt to local circumstances, respond to 
the needs of under-served groups such as working families and seniors, 
and test new ideas to improve the program's efficiency without 
compromising its effectiveness. In general, these options are meant to 
augment SNAP, rather than weaken or compromise its ability to meet the 
basic nutrition needs of struggling Americans. As you consider state 
flexibility and state options in the program, I urge you to keep that 
goal as your priority.
    Thank you.

    The Chairman. Thank you, Ms. Dean. Ms. Cunnyngham, 5 
minutes.

 STATEMENT OF KAREN CUNNYNGHAM, SENIOR RESEARCHER, MATHEMATICA 
               POLICY RESEARCH, WASHINGTON, D.C.

    Ms. Cunnyngham. Thank you, Chairman Conaway, Ranking Member 
Peterson, and Members of the Committee for the opportunity to 
testify on state options and SNAP. Today I will demonstrate 
ways in which SNAP quality control data can be used to analyze 
the effective state policy options on the SNAP population. 
These data are derived from the monthly quality control reviews 
that states conduct on a sample of SNAP households. I will 
focus on what we know about how state options regarding SNAP 
eligibility and time limits affect SNAP participation. I will 
conclude with some thoughts on opportunities to continue 
building the evidence base to inform decision-making on SNAP.
    One key policy option available to states is the use of 
broad-based programs to extend categorical eligibility to 
households receiving a non-cash TANF-funded benefit. States may 
use this option to increase the number of people eligible for 
SNAP, and streamline the eligibility determination process. 
Although categorically eligible people are not subject to SNAP 
income and resource limits, benefits for these households are 
determined under the same rules that apply to other households. 
As a result, only those with income low enough to qualify for a 
benefit, or that quality for a minimum benefit, actually 
receive one.
    Thirty-nine states, the District of Columbia, Guam, and the 
Virgin Islands have established broad-based categorical 
eligibility programs. They have some flexibility in setting the 
eligibility criteria for these programs. Thirteen use the SNAP 
gross income limit for households without an elderly member, or 
a member with a disability; 28 implemented a higher gross 
income limit for those households; and one state allows 
households with a child to have a higher gross income limit. 
Most of these programs do not have a resource test, while five 
states impose resource limits that are higher than the SNAP 
limits.
    We estimate that, in Fiscal Year 2014, eight percent of 
SNAP households were eligible solely through state expanded 
categorical eligibility programs. Specifically, SNAP quality 
control data indicate that three percent of SNAP households 
were eligible through higher income limits. Less than one 
percent of all SNAP benefits went to these households. Their 
average monthly benefit was $58, compared to $260 for 
households that passed the SNAP income tests. Using 
supplemental data, we estimate an additional five percent of 
SNAP households will not have passed the SNAP resource test.
    States also make choices regarding work programs and time 
limits. Many non-elderly adult participants are subject to SNAP 
work requirements. Certain groups are exempt, such as people 
working at least 30 hours per week, or caring for a young 
child. Participants who are subject to the general SNAP 
requirements, under age 50, and not living with children must 
fulfill additional work requirements, such as participating in 
a qualified employment and training program. Those who do not 
comply are subject to time limits on SNAP receipt. States are 
allowed to provide exemptions to the time limits for up to 15 
percent of their case load subject to time limits. States also 
may apply for waivers from the time limits for participants 
living in areas with a high unemployment rate, or an 
insufficient number of jobs. Currently, seven states, the 
District of Columbia, and the two territories are approved for 
a state time limit waiver, and 27 states have waivers for 
certain areas.
    The SNAP quality control data show that the majority of 
SNAP participants do not fit the criteria for being subject to 
work requirements. In Fiscal Year 2014, 88 percent of SNAP 
participants were exempt, most because they were children, 
elderly adults, or individuals with a disability. Among those 
who were subject to work requirements, only \1/3\ potentially 
faced time limits because they were not participating in an 
employment and training program, or otherwise fulfilling the 
additional work requirements. The majority of those facing time 
limits received a state exemption, or were in a waiver area. In 
all, just over 200,000 individuals a month were not meeting the 
requirements, and so were receiving time-limited benefits.
    One of the tools that USDA uses to examine categorical 
eligibility, time limits, and other state options is 
microsimulation modeling. Additional sophisticated data sets 
and tools could further advance the use of evidence and 
decision-making about SNAP at both the state and Federal 
levels. An example of a new resource is the data sets being 
created by the Census Bureau, in cooperation with USDA and 
states, that link state SNAP administrative data to survey 
data. Moreover, new analytic tools, such as rapid cycle 
evaluation, can help states determine whether the policy 
options they put in place have the desired effect on program 
access, administrative costs, and benefit accuracy.
    As Congress continues its full scale review of SNAP, 
sophisticated data and tools can lead to more informed 
decision-making, and a new perspective on the populations that 
the program is intended to help. Thank you.
    [The prepared statement of Ms. Cunnyngham follows:]

Prepared Statement of Karen Cunnyngham, Senior Researcher, Mathematica 
                   Policy Research, Washington, D.C.
What the Data Reveal About State SNAP Options
    Thank you, Chairman Conaway, Ranking Member Peterson, and Members 
of the Committee for the opportunity to testify on state options in 
SNAP.
    I am an associate director of the data analytics division at 
Mathematica Policy Research and the director of a project that measures 
SNAP access, trends, and impacts.\1\ For over 3 decades, Mathematica 
has been conducting related projects for the Food and Nutrition Service 
(FNS) of the U.S. Department of Agriculture (USDA). As part of the 
current project, we develop and maintain the SNAP microsimulation 
models that FNS uses (1) to assess proposed changes to SNAP, (2) to 
develop annual budgets, and (3) to conduct supporting research. 
Mathematica also prepares the edited SNAP quality control (QC) data 
files, which are the primary source of information on the 
characteristics of the SNAP caseload. The data are used to assess the 
composition and demographic and economic characteristics of SNAP 
households and to measure the potential effects of legislative changes 
to program rules on SNAP participants. The annual SNAP QC databases are 
publicly available on USDA's website.\2\
---------------------------------------------------------------------------
    \1\ Project team members Katherine Bencio, Esa Eslami, Kelsey 
Farson Gray, Sarah Lauffer, and Joshua Leftin, and additional 
Mathematica staff Steve Bruns, Scott Cody, Jennifer de Vallance, and 
Carmen Ferro contributed to the preparation of this testimony.
    \2\ https://host76.mathematica-mpr.com/fns/.
---------------------------------------------------------------------------
    Through a variety of policy options, states have the ability to 
adapt SNAP to best meet the needs of their low-income populations and 
improve the efficiency of their SNAP operations. Such policy options 
allow states to simplify the application and eligibility determination 
process, streamline program administration, and expand SNAP eligibility 
within certain parameters. (The Appendix provides an overview of 
selected options and the number of states using them over time.) States 
also make choices about their employment and training programs and have 
some flexibility in determining which adults age 18 to 49, without 
disabilities, and living in households without children are exempt from 
time limits on SNAP benefit receipt. An evaluation currently underway 
is testing innovative strategies for increasing employment and earnings 
among SNAP participants and reducing their dependence on SNAP and other 
public assistance programs. The ten pilot programs offer diverse 
services and target different groups of SNAP participants. Findings 
from the evaluation will give policymakers and program administrators 
insight into effective strategies for increasing employment and 
earnings and decreasing public assistance.
    In my testimony today, I will demonstrate ways in which SNAP QC 
data and other resources may be used to analyze how the policy options 
selected by states affect the SNAP population. I will focus on two sets 
of policy options--those affecting the resource and income thresholds 
used to determine SNAP eligibility and those affecting work 
requirements and time limits. At the end, I will mention additional 
tools and opportunities for continuing to build the evidence base to 
help ensure that the program is efficiently and effectively serving the 
target population.
State Vehicle Rules and Broad-Based Categorical Eligibility
    Federal SNAP eligibility policies limit the amount of income and 
resources that SNAP participants may have. However, through policy 
options, states have some latitude to adopt the eligibility criteria 
they deem best for their jurisdictions. For example, under Federal 
rules for determining whether a household's resources are below the 
applicable threshold, the value of some household vehicles is counted 
toward the resource limit. States, however, may align SNAP vehicle 
rules with vehicle rules for a TANF (Temporary Assistance to Needy 
Families)--funded program as long as the latter rules are less 
restrictive than the Federal SNAP rules. Currently, all but four states 
(Delaware, Minnesota, North Dakota, and Washington) and one territory 
(the Virgin Islands) have aligned their vehicle rules for SNAP 
households that face a resource test with those governing another state 
program. In doing so, 29 jurisdictions exclude all vehicles from the 
SNAP resource test. The remaining jurisdictions have aligned their 
vehicle rules with programs that (1) exclude one vehicle per household, 
person, or adult; (2) exclude $10,000 to $15,000 from the equity or 
fair market value of one or more vehicles; or (3) rely on a combination 
of the above.
    States also have the option to use certain broad-based programs 
that provide a simple service--a TANF-funded brochure on domestic 
violence, for example--to confer categorical eligibility on a large 
number of households. In some states, households participating in 
narrowly targeted, noncash TANF-funded programs such as work support or 
child care may also be categorically eligible for SNAP. Given that 
categorically eligible households are not subject to the Federal income 
and resource limits, the SNAP application and eligibility determination 
process is simplified for such households. However, benefits for 
categorically eligible households are determined under the same rules 
that apply to other eligible SNAP households and are based on household 
income. Accordingly, some households may be categorically eligible for 
SNAP but not qualify for a SNAP benefit.
    Thirty-nine states, the District of Columbia, Guam, and the Virgin 
Islands have established broad-based categorical eligibility (BBCE) 
programs. States have some flexibility in setting the eligibility 
criteria for the noncash benefit provided by these programs. Five 
states (Idaho, Maine, Michigan, Nebraska, and Texas) currently impose 
resource limits between $5,000 and $25,000 on some households while the 
rest have eliminated the resource test. (Pennsylvania used a resource 
test from mid-2012 through mid-2015.) Thirteen states have retained the 
Federal SNAP gross income limit for most households without an elderly 
member or a member with a disability, 28 states or jurisdictions have 
raised the gross income limit to between 160 and 200 percent of the 
Federal poverty limit for those households, and one state, New 
Hampshire, raised the gross income limit for households with a child 
age 21 or younger.
    In Table 1, we show the average monthly percentage of SNAP 
households in FY 2014 that met Federal income guidelines, including 
pure public assistance households, and the percentage that was eligible 
only through state expanded categorical eligibility policies. 
Nationally, 3.3 percent of SNAP participants in FY 2014 had income 
higher than the applicable Federal income thresholds. Among these 
households, 47 percent had income greater than the Federal gross income 
threshold; 39 percent had net income over the Federal limit; and 14 
percent would have failed both the Federal gross and net income tests. 
In states that used a higher gross income limit for households without 
an elderly member or a member with a disability, almost five percent of 
participants would not have passed the Federal income tests.

 Table 1. SNAP Households by Eligibility and Presence and Type of State
                 Categorical Eligibility Policy, FY 2014
------------------------------------------------------------------------
                                                           Percent that
                            Total SNAP     Percent that     would have
                            households    passed Federal  failed Federal
                              (000s)        income tests    income tests
------------------------------------------------------------------------
All                               22,445            96.7             3.3
State had no broad-based           2,816            99.9             0.1
 categorical eligibility
 policy
State used Federal gross           6,665            98.5             1.5
 income limits for most
 households without an
 elderly or disabled
 member
State had a higher gross          12,911            95.1             4.9
 income limit for most
 households without an
 elderly or disabled
 member
State had a higher gross              53            94.3             5.7
 income limit for
 households with a child
 age 21 or younger
------------------------------------------------------------------------
Source: FY 2014 SNAP QC data file.

    As seen in Table 2, less than one percent of all SNAP benefits went 
to households that would have failed the Federal income tests but that 
were eligible for SNAP through state expanded eligibility policies. The 
average monthly benefit for these households was $58 compared to $260 
for households meeting the Federal income criteria. Among states that 
used a higher gross income limit for most households without an elderly 
member or a member with a disability, 1.2 percent of SNAP benefits went 
to households eligible only through state eligibility expansions.

          The average monthly benefit for households that would have 
        failed Federal income tests but were eligible for SNAP through 
        state expanded eligibility policies was $58 compared to $260 
        for households meeting the Federal income criteria.

    The discussion thus far has focused on categorically eligible SNAP 
households that would fail the Federal income tests. Additional 
categorically eligible households would pass the Federal income tests 
but fail the Federal resource test. Because the SNAP QC data do not 
contain information on the resources of most categorically eligible 
households, other data must be used to estimate the latter group. In 
work for FNS to estimate SNAP participation rates, we use a regression 
equation estimated on data from the Survey of Income and Program 
Participation (SIPP) to predict the probability that households meeting 
Federal income guidelines would fail the SNAP Federal resource test. We 
estimate that an additional 4.7 percent of SNAP participants would not 
have met the Federal SNAP resource test. In all, we estimate that about 
eight percent of SNAP participants were eligible solely through state 
expanded categorical eligibility options.

                      Table 2. SNAP Benefits by Eligibility and Presence and Type of State Categorical Eligibility Policy, FY 2014
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                Benefits going to households that     Benefits going to households that
                                                                                   passed Federal income tests        would have failed Federal income
                                          Total benefits    Average  benefit --------------------------------------                 tests
                                              ($000)              ($)                                              -------------------------------------
                                                                                 Row percent        Average ($)        Row percent        Average ($)
--------------------------------------------------------------------------------------------------------------------------------------------------------
All                                             5,689,647                253               99.2                260                0.8                 58
State had no broad-based categorical              724,699                257               99.9                258                0.1                113
 eligibility policy
State used Federal gross income limits          1,700,361                255               99.7                258                0.3                 48
 for most households without an
 elderly or disabled member
State had higher gross income limit             3,253,279                252               98.8                262                1.2                 59
 for most households without an
 elderly or disabled member
State had higher gross income limit                11,308                215               97.4                223                2.6                 96
 for households with a child age 21 or
 younger
--------------------------------------------------------------------------------------------------------------------------------------------------------
Source: FY 2014 SNAP QC data file.

Work Requirements
    States also have some options about the employment and training 
programs they offer andwhich SNAP participants face time limits. Many 
working-age SNAP participants are required toregister for work, accept 
suitable employment if it is offered, not voluntarily quit a job or 
reducework hours, and participate in an employment and training program 
if the state agency makes aprogram referral. Exceptions are made for 
individuals determined to be:

  <bullet> Mentally or physically unfit for employment.

  <bullet> Employed at least 30 hours per week.

  <bullet> Responsible for the care of a dependent child under age 6 or 
        an incapacitated person.

  <bullet> Attending school at least half-time.

  <bullet> Complying with TANF work requirements.

  <bullet> Receiving unemployment insurance.

  <bullet> Participating in a drug addiction or alcohol treatment 
        program.

    SNAP participants who are subject to the general SNAP work 
requirements and are (1) age 18 to 49, (2) residing in a SNAP household 
without children, and (3) not pregnant are generally subject to time-
limited participation unless they fulfill additional work requirements. 
Specifically, these individuals are restricted to 3 months of SNAP 
benefits in any 36 month period unless they (1) work or participate in 
a qualified employment and training program for at least 20 hours per 
week or (2) participate in a workfare program for the number of hours 
equivalent to their SNAP benefit divided by the minimum wage. 
Participants are exempt from the time limit if they live in a waiver 
area or have been granted a discretionary exemption by the state. 
States may apply for waivers for certain geographic areas, including 
the entire state if applicable, if (1) the area has an unemployment 
rate exceeding ten percent or (2) the state can demonstrate with other 
economic criteria that the proposed waiver area has an insufficient 
number of jobs to provide employment. States are allowed to provide 
discretionary exemptions for up to 15 percent of their SNAP caseload 
subject to the time limit.
    The American Recovery and Reinvestment Act (ARRA) allowed states to 
suspend time limits on benefits from April 2009 through September 2010. 
Subsequently, states that met the criteria for extended unemployment 
insurance benefits continued to have the option of suspending time 
limits. Currently, only seven states, the District of Columbia, Guam, 
and the Virgin Islands are approved for a statewide waiver of time 
limits. Another 27 states have time-limit waivers approved for certain 
areas of the state.
    The majority of SNAP participants do not fit the criteria for being 
subject to work requirements and time limits. The group subject to time 
limits is particularly small, in part because members of the group may 
receive SNAP benefits for only a short period. In FY 2014, a monthly 
average of 87.7 percent of SNAP participants were not subject to work 
requirements (Table 3). The majority were children (44.2 percent of all 
participants), adults age 60 or older (10.1 percent), or individuals 
with a disability (9.7 percent). Almost \2/3\ of SNAP participants 
subject to work registration, or 7.8 percent of all SNAP participants, 
were not subject to time limits. The majority of work registrants not 
subject to time limits was over age 49 or residing in a SNAP household 
with a child. Among the 4.5 percent of all SNAP participants 
potentially subject to time limits, 80 percent, or 3.7 percent of all 
participants, were in a waiver area or received a state exemption. (In 
FY 2014, 42 states qualified for a statewide time-limit waiver.) Half 
of the remaining one percent of SNAP participants (a monthly average of 
203,000 individuals) did not meet work requirements and therefore were 
receiving time-limited benefits.

Table 3. SNAP Participants Subject to Work Requirements and Time Limits,
                                 FY 2014
------------------------------------------------------------------------
                                                   Number
                                                   (000s)      Percent
------------------------------------------------------------------------
Total SNAP participants                              45,874        100.0
  Not subject to work requirements                   40,246         87.7
    Under age 18                                     20,271         44.2
    Over age 59                                       4,651         10.1
    With a disability, as defined by SNAP             4,461          9.7
     rules
    Employed at least 30 hours per week or            3,690          8.0
     minimum-wage equivalent
    In SNAP household with child age 5 or             2,983          6.5
     under or person with a disability (one
     caregiver per SNAP household)
    Receiving cash TANF or unemployment                 929          2.0
     compensation or reported as participating
     in non-SNAP employment and training
     program
    Enrolled at least half-time in a                     39          0.1
     qualifying school or training program
    Reported as exempt from work registration         3,222          7.0
     for other reason
  Subject to work requirements                        5,628         12.3
    Not subject to time limits                        3,563          7.8
      Over age 49                                     1,106          2.4
      In SNAP household with a child                  1,899          4.1
      Reported as not subject to time limits            558          1.2
       for other reason
    Subject to time limits                            2,065          4.5
      Employed at least 20 hours per week or            184          0.4
       minimum-wage equivalent, or reported as
       meeting work requirements
      Reported as in a waiver area or                 1,678          3.7
       receiving a state exemption
      Receiving time-limited benefits                   203          0.4
------------------------------------------------------------------------
Source: FY 2014 SNAP QC data file.
Note: Sets of subgroups are mutually exclusive.

    In FY 2014, the average monthly percentage of a state's population 
subject to work requirements ranged from fewer than three percent in 
Delaware, Massachusetts, and Oregon to over 20 percent in Florida and 
Michigan (Table 4). The percentage subject to time limits varied from 
less than \1/2\ a percent in Maryland, Massachusetts, and Nevada to 
nine percent or more in Florida, Georgia, and Mississippi. The average 
monthly benefit per person was higher for participants subject to work 
requirements ($162) and subject to time limits ($178) than the average 
benefit per person for all participants ($124).

                       Table 4. SNAP Participants Subject to Time Limits by State, FY 2014
----------------------------------------------------------------------------------------------------------------
                                                                                              Percent receiving
                              Total SNAP         Percent subject to    Percent subject to       time-limited
                         participants (000s)     work  requirements        time limits            benefits
----------------------------------------------------------------------------------------------------------------
               All                  45,874                   12.3                   4.5                   0.4
           Alabama                     893                   14.4                   6.1                   0.0
            Alaska                      87                   16.7                   6.2                   0.0
           Arizona                   1,011                   10.1                   1.4                   0.0
          Arkansas                     476                   12.8                   5.3                   0.0
        California                   4,256                   13.6                   6.0                   0.0
          Colorado                     497                    6.2                   2.0                   0.8
       Connecticut                     428                   19.1                   0.7                   0.0
          Delaware                     149                    2.4                   2.0                   1.1
District of Columbia                   140                   12.7                   5.1                   0.1
           Florida                   3,526                   20.9                  10.6                   0.0
           Georgia                   1,784                   19.5                   9.0                   1.2
              Guam                      46                    0.1                   0.1                   0.0
            Hawaii                     191                   13.6                   6.1                   0.0
             Idaho                     208                    4.4                   1.8                   0.0
          Illinois                   1,954                   11.1                   7.5                   0.0
           Indiana                     877                   11.7                   3.9                   0.0
              Iowa                     405                    7.5                   2.1                   1.7
            Kansas                     293                    8.7                   1.9                   1.5
          Kentucky                     803                   19.2                   8.9                   0.0
                  Louisiana            874                   15.9                   6.1                   0.0
             Maine                     229                    9.8                   4.8                   0.0
          Maryland                     779                    7.1                   0.0                   0.0
     Massachusetts                     853                    2.4                   0.3                   0.0
          Michigan                   1,664                   21.4                   6.8                   0.0
         Minnesota                     521                    8.2                   3.5                   2.5
       Mississippi                     655                   19.7                   9.1                   0.0
          Missouri                     853                    8.3                   3.3                   0.0
           Montana                     121                   16.0                   4.5                   0.0
          Nebraska                     172                    5.0                   0.8                   0.5
            Nevada                     375                   11.8                   0.4                   0.0
     New Hampshire                     108                    6.0                   1.4                   1.1
        New Jersey                     874                    9.0                   0.8                   0.1
        New Mexico                     426                    5.8                   4.5                   0.0
          New York                   3,039                    9.5                   1.2                   0.3
    North Carolina                   1,555                   12.6                   5.1                   0.0
      North Dakota                      53                    7.7                   2.1                   0.7
              Ohio                   1,732                   11.7                   4.3                   3.0
          Oklahoma                     592                   12.7                   3.1                   2.0
            Oregon                     782                    2.6                   1.5                   0.0
      Pennsylvania                   1,782                    8.5                   2.6                   0.0
      Rhode Island                     174                   18.5                   7.6                   0.0
    South Carolina                     832                   17.5                   6.7                   0.1
      South Dakota                      99                   10.0                   3.8                   0.9
         Tennessee                   1,303                   19.2                   4.9                   0.0
             Texas                   3,838                    7.1                   1.5                   1.1
              Utah                     227                    6.0                   1.1                   0.8
           Vermont                      92                    4.6                   1.6                   1.1
    Virgin Islands                      28                   12.3                   4.0                   0.0
          Virginia                     914                   13.6                   4.3                   3.0
        Washington                   1,085                    3.7                   2.0                   0.0
     West Virginia                     354                   14.2                   0.8                   0.0
         Wisconsin                     831                    7.3                   2.7                   0.1
           Wyoming                      35                    7.9                   1.2                   0.9
----------------------------------------------------------------------------------------------------------------
Source: FY 2014 SNAP QC data file.

Additional Tools for Assessing Effects of State Options
    In addition to the SNAP QC data, microsimulation models can provide 
policymakers with valuable insights into the potential effects of 
program changes on SNAP eligibility, participation, and benefits. For 
example, the models can estimate the effect of changes to SNAP resource 
limits or income deductions. Mathematica has developed two models for 
FNS--one based on the SNAP QC database and another based on SIPP and 
Current Population Survey Annual Social and Economic Supplement data.
    Even more sophisticated data sets and tools could further advance 
the use of evidence in decision making about SNAP at both the state and 
Federal levels. An example of a new and valuable resource is the data 
sets being created by the Census Bureau in cooperation with USDA and 
states that link state SNAP administrative data to survey data. These 
data sets allow USDA to better understand the circumstances of SNAP 
participants, including how individuals who live together form SNAP 
households and, in some cases, the resources available to SNAP 
participants. Moreover, new analytic tools, such as rapid cycle 
evaluation, can help states determine whether the policy options they 
put in place have the desired effect on program access, administrative 
costs, and benefit accuracy. As Congress continues its full-scale 
review of SNAP, more sophisticated data and tools can lead to more 
informed decision making and a new perspective on the populations that 
the program is intended to help.
                                Appendix

 Table A.1. Selected State Options and Number of States Using Them Over
                                  Time
------------------------------------------------------------------------
                                              States using option
                                     -----------------------------------
                                       Oct. 2003   June 2009   Sep. 2013
------------------------------------------------------------------------
Broad-based categorical eligibility            8          27          43
SSI combined application projects              5          15          18
Income and resources:
Vehicle policy for noncategorically
 eligible households:
    SNAP rules                                 9           4           5
    Some additional vehicles or               27          20          19
     vehicle value excluded
    All vehicles excluded                     17          29          29
  Align income and/or resource                24          44          32
   exclusion with TANF or Medicaid
  Simplified determination of cost                        16          19
   of doing business
  Child support expense excluded               6          13          18
   from gross income
Deductions:
  Simplified deduction determination           4           7           9
   (non-monthly expense averaging)
  Standard medical deduction                               7          14
  Simplified homeless housing cost            25          27          25
  Mandatory standard utility                  30          44          47
   allowance
Program disqualifications:
  For not meeting requirements of             13          19          24
   other program
  For failure to cooperate with                5           6           7
   child support enforcement
  For drug felony                             41          34          32
    Life-time ban                             21          15          15
    Modified ban                              20          19          17
  For failing to comply with work
   requirements
    Extended beyond statutory                 14          14          12
     minimum
    Entire household disqualified             14          13           9
    Disqualification permanent after           3           1           2
     third occurrence
Requirements for reporting changes
 in household circumstances:
  Simplified requirements for                 35          50          53
   reporting changes
  Act on all changes known to the             18          34          38
   agency
Transitional benefits                         10          19          21
Employment and training pledge                18          11           6
 states
Online application                                        25          43
Call centers                                              27          34
  Regional                                                15           9
  Statewide                                               12          25
Document imaging                                          20          41
Process improvement waivers:
  Elderly and disabled re-                                            12
   certification interview
  Electronic notices                                                   7
  Postpone expedited service                                           9
   interview
  On-demand interview                                                  9
Modernization initiatives                                             51
------------------------------------------------------------------------
Source: USDA State Option Reports and additional correspondence with FNS
  and state agencies.


    The Chairman. Well, I thank our witnesses. The chair would 
remind Members they will be recognized for questioning in order 
of seniority for Members who were here at the start of the 
hearing. After that, Members will be recognized in order of 
arrival. And I appreciate the Members' understanding. I 
recognize myself for 5 minutes.
    Ms. Muth, in implementing the category eligibility, states 
have the flexibility to set the gross income limits at up to 
200 percent of poverty. Texas has set an income limit of 165 
percent of the Federal poverty level. Can you walk us through 
some of the factors that Texas used to determine that 
particular level?
    Ms. Muth. Absolutely, and I also just want to add that 
Texas does apply the assets limit of the $5,000 as well to this 
population. And in Texas, this was an example of a change that 
came out through a legislative direction. So we did have state 
legislation in the early 2000s that directed the agency to 
implement the policy, and defined the level at which it would 
be implemented.
    The Chairman. So it is a state statute that sets the limit 
at 165 percent, and the asset test at $5,000?
    Ms. Muth. Correct.
    The Chairman. Were you around when the legislature went 
through that exercise?
    Ms. Muth. I actually was not. This was an exercise in 
research that I had to do in preparation for today, to pull up 
the legislative history.
    The Chairman. All right. Ms. Cunnyngham, speaking of that 
asset test, you said there are five states that currently 
impose them, somewhere between $5,000 and $25,000. What is the 
benefit for a state to not test assets when determining SNAP 
eligibility, and could waiving this test hurt the integrity of 
the program? You need your microphone.
    Ms. Cunnyngham. It is an interesting question. That states 
can benefit by waiving the resource test means they don't need 
to collect any information on resources. So there is an 
administrative burden that is lifted there. There is not enough 
data currently to know whether that is the appropriate balance 
between administrative ease and other policy options. We don't 
know the asset holdings of current SNAP participants. With 
better data, we would be able to determine whether that correct 
balance has been struck.
    The Chairman. All right. Ms. Cunnyngham, you said there are 
approximately 1.5 million households that do not meet the 
Federal income requirements, and that they average about $58 
month for the benefit. That is about $87 million a month. Is 
that an accurate statement?
    Ms. Cunnyngham. Correct.
    The Chairman. Okay. All right. I now yield now to Mr. 
Scott, for 5 minutes.
    Mr. David Scott of Georgia. Thank you, Mr. Chairman. First 
of all, it is important for us to note that there are 1.7 
million veterans that depend upon SNAP. And this is according 
to the CBPP, which is the Center on Budget and Policy 
Priorities. In every state, thousands of struggling veterans 
use SNAP to put food on the table. Low-income veterans, many 
unemployed, some working in low wage jobs, many disabled. And 
on top of that, many who are returning from military service 
return minus a leg, minus an arm, suffer from mental problems, 
and they face serious challenges in finding work. But 1.7 
million should gravitate this nation to realizing this is more 
than a national crisis. It is a national disgrace. It is very, 
very important that we recognize this as one of the primary 
challenges that we face.
    Stars and Stripes reported that food purchases paid for 
with SNAP at commissaries tripled from 2008 to 2011. Feed Our 
Vets, a nonprofit group that establishes food pantries for 
veterans, has estimated that nearly three million veterans and 
their families don't get enough food to eat each month. This is 
devastating. SNAP is a critical support for our heroes, and it 
is very important that we understand how important SNAP is. I 
also want to call attention to this Committee that the Farm 
Bureau has an excellent program called The Patriot Project. It 
is a mentorship program that connects military veterans, 
beginning farmers and ranchers, with experienced Farm Bureau 
members who are farmers and ranchers. This way, veterans who 
want to be involved in agriculture will be able to learn 
firsthand from an experienced farmer.
    This is a creative approach to that, much like many of us 
here in Congress are doing to reach another group, the African 
Americans, with our 1890s land-grant universities, to increase 
the opportunities for young students to be able to get the kind 
of scholarship and aid to go into agriculture, and into 
business. I say that because we have to do a better job of 
lifting agriculture up to the significant level of importance 
it is, and no statistic emphasizes this more than 1.7 million 
veterans, and their families, depending upon it, and their 
struggle. So I wanted to mention those in my opening.
    I have a minute left, so, Ms. Stacy Dean, you work with the 
Center on Budget and Policy Priorities. Much of the information 
that I just mentioned comes from you. In your testimony you 
mentioned that Congress, and the policy of Congress, must not 
do things to undermine SNAP's success. What things might you be 
talking about? Would block grants be one of those?
    Ms. Dean. Yes, Congressman, Our organization would be 
deeply concerned if SNAP were converted to a block grant. If 
its funding were capped, and couldn't respond to need, I 
believe the Ranking Member used words I wouldn't, but he called 
it an unaccountable slush fund. It is a little strong, but that 
is, in fact, what we have seen in TANF. And, of course, it is a 
shrinking pool of funding available for states to meet the 
needs of poor children and families. So that would be of deep 
concern. But also I would imagine, for this Committee, the 
ability to divert benefits away from food to other purposes, 
which we have also heard about as an idea, would be of deep 
concern to us.
    Mr. David Scott of Georgia. Thank you, Mr. Chairman.
    The Chairman. The gentleman's time has expired. Mr. 
Goodlatte, for 5 minutes.
    Mr. Goodlatte. Thank you, Mr. Chairman. I appreciate you 
holding this hearing, and I just want to say at the outset that 
unless we reform programs like the SNAP Program, and a number 
of other entitlement programs, there is going to be a shrinking 
supply of funds for all of these programs, given the fact that 
we now have $500 billion to $1 trillion annual deficits, 
totaling a $20 trillion national debt.
    But, Ms. Muth, I wanted to ask you a question about Texas. 
You mentioned that your state has shown interest in photo IDs 
on EBT cards. Massachusetts and Maine have implemented this 
option, to certain levels of success. What have been some 
conversations around this option?
    Ms. Muth. During the last legislative session we had a 
proposal, and there is continued interest. During the last 
session it did not pass. I think one of the barriers is that 
there is a cost to implement that. There is a cost to have that 
photo ID on each of the cards. And so Members of our 
legislature are watching very closely the experience in states 
that have implemented it.
    The other issue is that the retailer at the point of sale 
does not limit purchases to the individual that is pictured on 
the card, and so the impact of having the photo is more of a 
deterrent, a potential deterrent effect, which is also 
difficult to measure in that cost-benefit analysis, is that 
something that we want to invest in, in Texas? But there does 
continue to be interest, and we are watching the experience of 
the other states closely.
    Mr. Goodlatte. And you indicate in your testimony that 
Texas has implemented an identity verification process in the 
online application, but, due to Federal restrictions, the 
applicant has the option not to complete it. Can you elaborate 
on what Federal restrictions are in place preventing states 
from seeking more complete online applications?
    Ms. Muth. Absolutely. There is a provision that requires us 
to count an application as filed with the state with only the 
elements of name, address, and signature on that. And the 
thought behind that is that file date is when the benefits 
start for the individual, if an eligibility decision is made. 
But when you are in an online environment: first of all, in 
Texas, we have a lot of people that have the same name, so it 
is very difficult to identify somebody by just name, address, 
and signature. We would like to have that ability.
    The Federal citation is there in the written testimony. I 
think there is a happy medium of you don't necessarily need 
people to complete every element on a lengthy application, but 
we could require additional elements that would help us make 
sure we validate identity. Just like we do for an individual 
who applies for a bank loan, you ask questions based on third 
party data sources to confirm the identity. Because we are not 
seeing these people in our office.
    Mr. Goodlatte. Well, let me ask a question of Ms. Dean 
about this. So many states are now utilizing, in fact, a 
majority of states are utilizing online applications, and over 
the phone initial interviews. Why are the states heading in 
this direction, and what has been the outcome, as states have 
made their way to this model?
    Ms. Dean. There are two reasons. First is the technology is 
there, that it is workable, and can help support states' 
business efforts. I don't think 10 years ago, or 15 years ago, 
the technology would have allowed states to take online 
applications the way that they are. And second, the recession 
really drove states to innovate, to find ways to do more work, 
given that so many more families were at their doors, with 
less. And it is not just online applications, it is document 
imaging. So if all documents are scanned, that means that you 
don't just have to work with an office, or a unique case worker 
who has your paper file. You can call, and wherever the 
available work resource is in the state, your work can be 
diverted to them. So states are getting very innovative.
    I will just say, on identity proofing, a back-end option to 
validate identity in order to reduce verification burdens on 
clients is really interesting, and Texas and Florida testing 
that is terrific.
    Mr. Goodlatte. Well, let me ask Ms. Cunnyngham, I 
understand the administrative efficiencies that can be obtained 
through the use of categorical eligibility. However, nearly 
four million people are eligible for SNAP through these 
policies that do not meet Federal requirements. Are there ways 
in which we can retain these administrative efficiencies while 
more closely aligning these policies with Federal requirements? 
And I will ask Ms. Dean to respond to that, as well as Ms. 
Cunnyngham.
    Ms. Cunnyngham. I will answer, again, that it is difficult 
to know without more data. Right now it is hard to determine 
whether we have struck the correct balance. So I will say that 
people who are actually receiving a benefit are receiving the 
certain benefit criteria set by the Federal Government. So 
people need to have low enough income to receive a benefit. 
However, if you are interested at looking at their resources, 
we need more information to know whether we are striking the 
right balance on that.
    What is interesting is that states have chosen a variety of 
options. Of the states that have chosen broad-based categorical 
eligibility programs, five of them do impose a resource limit. 
Of the states that aren't, seven of those states actually don't 
count the value of all vehicles. So there is a lot of 
information out there. It would be interesting to talk to 
states, find out why they made the choices they did, what 
administrative costs they avoided or incurred that way, and 
what the results were.
    Mr. Goodlatte. My time is expired, but let me just say that 
it is easy to make decisions when the Federal Government has to 
come up with the resources to pay for it. Thank you, Mr. 
Chairman.
    The Chairman. The gentleman's time has expired. Ms. Fudge, 
5 minutes.
    Ms. Fudge. Thank you very much, Mr. Chairman. Thank you all 
for being here today. Ms. Dean, in your testimony you mentioned 
that most states do choose to operate SNAP's 3 month 
restriction as a time limit where individuals are cut off from 
assistance, despite their willingness to work. You characterize 
this as one of the harshest options within the SNAP program. 
Can you please explain a little bit more?
    Ms. Dean. Sure. First I would say the Federal statute 
obligates states to impose a 3 month time limit on individuals 
between the ages of 18 to 49 without children. They have to be 
working 20 hours a week. Working 18 hours a week, you would 
still be limited to 3 months of benefits. States have an option 
to waive the rule in areas of high unemployment within their 
state. Every state, except Delaware, at some point since the 
rule's origin has waived out part of their state. Because of 
very high unemployment, they don't believe that individuals 
there could legitimately find a job within 3 months.
    Another quick reason why they waive out is the work test 
that Congress--and I should just say not this Committee, it 
arose as a floor amendment in the 1996 welfare law, the work 
test that is set for those individuals is quite extreme. It is 
a 20 hour a week slot, and job search does not count. Most 
states don't have the funds available to create work slots for 
these folks, and they don't, and therefore it is a time limit. 
Often they will waive the rule because they want to create a 
more meaningful work engagement for these folks, to actually 
test their willingness to work, and help build their skills.
    In your own state, unfortunately, I know the City of 
Cleveland qualifies for a waiver due to its high unemployment, 
but surrounding county, Cuyahoga, does not. And as a result, 
even though you are a county administered state, and a lot of 
authorities devolve to counties, made the election for Cuyahoga 
not to waive the City of Cleveland.
    Ms. Fudge. All right. But you would think, then, since you 
know a little bit about my state, 75 percent of all of the 
minorities in the state live in our largest counties, like the 
cities I represent, Cleveland and Akron. However, when the 
governor sought a waiver, he only sought it for rural 
communities. Does that make any sense to you at all?
    Ms. Dean. Well, the way I interpret the state's choice was 
that they only sought waivers for the entirety of counties. I 
know that Lima, Toledo, and Dayton, are also cities that 
qualify, but the governor chose not to waive out those cities 
because he couldn't waive the entire county.
    Ms. Fudge. So he was looking more at land than at people?
    Ms. Dean. I can't speak to his decision.
    Ms. Fudge. I mean, it just doesn't make any sense. We want 
the states to have these authorities, but then the states make 
decisions that are not based upon the highest need.
    Ms. Dean. Right. And, of course, if the county was able to 
waive individuals in the city, versus the balance of the 
county. There could be an administrative reason not to do it, 
but in the case of Cuyahoga, that wasn't the case.
    Ms. Fudge. So that is why I am so afraid about doing 
something like block granting SNAP to states, because they make 
those kinds of decisions. It is interesting to me that we look 
at ABAWDs as the least deserving among the poor. We really do. 
We put them in a category that is almost separate and apart 
from everybody else that ever uses SNAP. Your organization has 
estimated nearly one million people would be cut off SNAP as a 
result of these time restrictions, these limits. Describe the 
unique realities of what we are doing when we put a million 
people off of SNAP.
    Ms. Dean. Right. That is this year, in 2016. At least \1/2\ 
million, and potentially up to a million individuals who will 
be cut off the program as a result of this time limit. This is 
an extremely poor group. While on the program, their incomes 
are about 20 percent of the poverty line. They have very 
limited education. Many of them are working, but they are not 
working 20 hours a week. They have no other form of support. 
There is no cash assistance. Half the states don't offer 
medical assistance to them through the Medicaid expansion, and 
they just face extraordinary barriers. One group I would call 
out are ex-offenders. Those with a felony conviction will face 
enormous barriers to entry into the workforce, and so taking 
away their food assistance doesn't make it easier for them to 
find a job, and potentially risks their positive re-entry.
    Ms. Fudge. Well, the other problem is that we have so many 
restrictions on what ex-felons can do. Most ex-felons can't 
even come to most states and get a license to cut hair, or to 
do anything else that they are probably capable of doing.
    Ms. Dean. Yes.
    Ms. Fudge. So we make it more difficult for them to find 
work, based on all the restrictions that we put in law. Thank 
you. Mr. Chairman, I yield back.
    The Chairman. The gentlelady yields back. Mr. Lucas, 5 
minutes.
    Mr. Lucas. Thank you, Mr. Chairman. Ms. Muth, please 
continue along with the discussion that has been going on here 
with my good colleague from Ohio, my understanding is Texas has 
pledged to offer a qualifying work slot in 2016 to every able-
bodied person without a disability, of course, subject to the 3 
month time limit, which is, obviously, a very noble and 
impressive goal. I assume this is accomplished through your 
SNAP E&T program. The National Commission on Hunger's report 
discussed the complex rules covering E&T, and recommended 
easing those rules to give states more flexibility to find work 
and work related things. Visit with us for a moment, have you 
found the current rules to be big challenges in accomplishing 
Texas goals, and what is your perspective on more flexibility 
in the program?
    Ms. Muth. I should clarify one thing. In the State of 
Texas, we have a unique arrangement in that we have an entire 
agency, the Texas Workforce Commission, that is focused on all 
of the employment services, and so they actually administer the 
SNAP E&T Program, so I can't offer you my opinion on that 
particular issue, but I would be happy to follow up with my 
sister agency and provide their perspective on that question.
    Mr. Lucas. So your observation, looking across the 
bureaucratic way, how has their success affected the number of 
people in your program?
    Ms. Muth. It is very difficult for me to respond to that 
question. I think they have been extremely successful in 
assisting people in finding employment services across the 
various programs that we interact with them on from both TANF 
and the SNAP Program. But it is just not an area that I have 
any direct knowledge with.
    Mr. Lucas. Absolutely. For a moment, Mr. Chairman, I would 
like to note my colleague's concerns about block granting the 
programs. Sir, being one of the Members on this horseshoe that 
has been around for a little while, this was a major discussion 
in 1996 in the farm bill. And at that time, in that unique 
environment, it almost happened. But the Chairman at the time 
made the decision, as my memory serves me, sitting on this 
Committee way down there, not to proceed. And that is the only 
time that it has really ever almost come to fruition, a very 
long time ago, in a different kind of an environment. But 
clearly, until we get the national economy moving forward, and 
more opportunities exist, the necessity for these programs are 
going to exist.
    And with that said, I realize every state implements its 
standards a little differently. Texas, at 165 percent of the 
poverty level, Oklahoma at 130, we have a different perspective 
there. As the good lady alluded to earlier, different asset 
requirements in Texas than in Oklahoma. That was one of the 
issues in 2012 that the lady and I worked on, was trying to 
standardize a few things, and received great pushback from a 
variety of directions, and was not accomplished. But reform is 
necessary, and making sure the good folks that benefit from the 
programs are not subjected to the program barriers is 
ultimately our goal. And, with that, Mr. Chairman, I would 
yield back.
    The Chairman. The gentleman yields back. Mr. McGovern, 5 
minutes.
    Mr. McGovern. Thank you very much. And I am sorry the 
gentleman from Virginia, Mr. Goodlatte, left, because he 
suggests that we need to reform this program because of the 
deficit, and all of our budgetary problems. I want to remind 
him that SNAP is one of the most efficiently and effectively 
run programs in our Federal Government, with one of the lowest 
error rates of any program. If we want to deal with the 
deficit, maybe we ought to talk about reforming the Department 
of Defense. Some of their contracting practices, quite frankly, 
leave a lot to be desired.
    But we are talking about food. This is what this is about. 
And the notion that we are going to impose more requirements, 
more hoops for people to jump through in order to somehow lower 
the number of people who can take advantage of the SNAP 
Program, to me, is cruel. The gentlelady, Ms. Fudge, talked 
about the ABAWD situation. We are talking about veterans in 
that category too, people who fought for our country. And 
because they are single adults, and they can't get enrolled in 
a work training program, and they can't find a job, we are 
going to throw them off a food benefit. I can't think of 
anything more cruel, and more ungrateful than that.
    And so when we talk about reforming the program, what we 
ought to be thinking about is how do we make sure that people 
in this country who are needy have access to this benefit? And 
by the way, the gentleman from Virginia mentioned the photo ID 
program. I am from Massachusetts. Believe me, it is expensive, 
and there are lots of problems, and it has caused lots of 
confusion. So if anybody is thinking of going down that road, I 
am happy to talk to you about some of the problems.
    This is our 12th hearing on SNAP since the start of last 
year, and we have heard the word flexibility thrown around. 
That is the favorite word around here, and I worry about what 
that really means. It means one thing to me, it means something 
else to some of my other colleagues. I worry that it is code 
for block grants. I think that would be a disaster. I think it 
would be catastrophic. Block granting, or cap funding, or merge 
funding, whatever you want to call it, would be a mistake. It 
would undermine one of the fundamental strengths of the 
program, which is that it can respond quickly and effectively 
in times of great disaster or economic downturn.
    If you want to get people off of SNAP, then we ought to get 
this economy going. We ought to make sure that we are investing 
in job training, that we are investing in jobs. Maybe we ought 
to be talking about raising the minimum wage to a livable wage, 
because the majority of people on SNAP who are able to work, 
work. I mean, some of them are working more than one job, and 
they are earning so little that they are still in poverty, and 
they still have to rely on this benefit. What the hell else do 
we want them to do? Now, having said all of that, I should also 
remind people that the benefit itself is woefully inadequate, 
$1.40 per person, per meal, per day. Sometimes, the way we will 
hear it talked about here, you would think that it is the most 
overly generous benefit that you could possibly imagine.
    Now, I understand that states already have a number of 
options available to them that they can use to make sure that 
everyone who is eligible for SNAP is enrolled, but the problem 
is that many of the states aren't even aware of these options, 
and don't take advantage of them. So there is already 
flexibility within SNAP to help states enroll eligible families 
to feed the hungry. Ms. Dean, in your testimony you elaborated 
on the options and flexibility that already exist. Maybe you 
could identify one or two of the most important, but 
underutilized options?
    Ms. Dean. Sure, thank you, Congressman. I think a recent 
option that has been made available that states aren't 
necessarily aware of, because it crosses over SNAP to Medicaid, 
is that in Medicaid, when a family is up for renewal, the state 
is actually supposed to look at available data that it has, 
before asking the family, in order to determine whether the 
family stays eligible. They actually have the ability to go 
into SNAP records and say, based on that robust assessment of 
eligibility, and all the data that we have on who this family 
is, and where they live, and what they are earning, we can use 
that in order to, as Ms. Muth said, use third party information 
to just automatically renew their Medicaid.
    I want to make sure folks understand, there is a high 
degree of rigor there. But importing that information over 
ensures continuous coverage in health insurance. And given the 
extraordinary overlap between SNAP and Medicaid, those are the 
two programs with the most overlap, finding ways to do more 
there is really important.
    But I think that our issue there is that FNS, as part of 
USDA, and CMS, as part of HHS, are not always cognizant of each 
other's programs, and they don't always know how to engage 
states. Actually, Ms. Muth and I were having coffee this 
morning, and talking about that very problem, that there is a 
lot of experimentation in service delivery and Medicaid that 
FNS isn't always aware of, and might be more cautious than 
their sister agency.
    I think another area is senior service. There is actually 
an obligation on the Social Security Administration to help 
low-income seniors apply for SNAP at Social Security, and my 
assessment is that they are not doing as much as they could to 
help poor seniors apply at SSA, and therefore not have to go 
down to the local welfare office. And I would love if the 
Committee would consider exploring that issue, and how to 
improve service to seniors.
    Mr. McGovern. Thank you very much.
    The Chairman. The gentleman's time has expired. Mr. Yoho, 5 
minutes.
    Mr. Yoho. Thank you, Mr. Chairman. I appreciate you all 
being here, and I want to thank everybody for taking the time 
to come here today and provide your testimonies. What I would 
like to focus on is the issue of how states can further crack 
down on the SNAP fraud and abuse, and I will talk about this 
and clarify this. In my home State of Florida, concerns have 
consistently been voiced by leaders at the Department of 
Children and Families that while there is a significant 
qualitative data on fraud, it is virtually impossible to 
quantify.
    And I just want to echo what Chairman Goodlatte's comments 
in regards to our ensuing financial crisis that somehow we seem 
to ignore up here. And knowing that about 80 percent of the 
2014 Farm Bill is dedicated to the nutritional programs, what I 
would like to hear from you is the best ways we need to reform 
not just the nutritional program, and we are looking at all 
programs, and not just in ag, but across the board, because 
this is a situation, as he pointed out, we are not going to 
have a choice. It will not be an option in 4 or 5 years if we 
don't address it now.
    And in the State of Florida we talked with our people that 
administer this program, and they put in the work requirement, 
as you know, 1st of January. From January to the end of 
February, the people that were on SNAP that had work 
requirements instituted at the beginning of the year, less than 
eight percent have re-signed up for the SNAP programs. And then 
we look at what happened in Maine, and 85 percent of their 
enrollment went down. And we know what happened in 1996, when 
Bill Clinton reformed the welfare program. So it was the 
largest drop in our history, and the largest reform, and it was 
because of the work requirements.
    And I guess my question is, Ms. Muth, can you speak of the 
issues--that is not the question I have for you. Have you heard 
of any state, or in your state, have there been any detrimental 
effects from work requirements for SNAP on the individual or a 
family?
    Ms. Muth. So, again, In our agency we don't administer the 
work requirement piece, but from the eligibility side, I am not 
aware of any issues. And, if I may, can I speak a moment to 
your issue of fraud?
    Mr. Yoho. Please.
    Ms. Muth. Because I do believe that states, just like in 
the private-sector, there is a wealth of information that is 
available. If your credit card is compromised, your credit card 
company knows immediately that there is suspicious----
    Mr. Yoho. Boy, they sure do.
    Ms. Muth.--purchasing activity, before you do in most 
cases. And really, we have an opportunity, and states are doing 
more and more of this, to apply those same technological 
skills, and use that same technology, like, on EBT purchases. 
So when you see patterns that are potential fraud, that it will 
alert the state that we need to investigate. Not just at the 
individual level, but also at the retailer level. And so 
technology opens up so many tools in preventing and detecting 
fraud that we are beginning to utilize more and more.
    Mr. Yoho. Let me ask you that, since you brought that up, 
who would be best to do that? Would that be state, or is that 
something that should be farmed out to a credit card company, 
or somebody that can do that, and they do it efficiently, and 
they do it right now, real time?
    Ms. Muth. In the State of Texas we recently went through a 
new procurement for our EBT system, and that is one of the 
tools that we are getting. And it is a financial company that 
is going to be our EBT vendor. So it is the same technology 
that they are applying. Obviously the patterns are different, 
the algorithms are different, but it is the same technology, so 
they come with that.
    Mr. Yoho. Right.
    I appreciate your input. Ms. Dean, let me ask you, since 
you are on a national scene, let me ask you that same question. 
Have you heard of any body that has been required to have the 
work requirements? And we have seen the results in Florida. 
Granted, it has only been 2 months, and I am sure more people 
will sign up, but with, like, the State of Maine, where you saw 
an 85 percent reduction, or going back to 1996 under Bill 
Clinton, when he enacted the welfare reform, are there any 
reports that show the detrimental effect on an individual, or a 
family, and if so, can you state those, and give me maybe 
written testimony on that?
    Ms. Dean. Sure.
    Mr. Yoho. Or direct me in the right direction?
    Ms. Dean. Absolutely. I think the concept of a work 
requirement, I share the Congressman's belief and the Center 
has always believed that work requirements are very reasonable. 
The question is whether what we are asking of the individual is 
something that they can do. When they don't comply, is it 
because they failed to comply, or is it because they refused to 
comply? And I think that that is where we often see an 
extraordinary mismatch, we ask someone to do something they are 
simply not capable of doing, and then they face the penalty 
because we made a mistake.
    Mr. Yoho. Okay. I am out of time, and I need to yield back, 
but I also asked them about the work requirement. If you are 
looking for a job, they said that does qualify for the work 
requirement, in our state.
    Ms. Dean. I can follow up with you. It does in January. It 
won't in April.
    The Chairman. The gentleman's time has expired. Mr. 
Aguilar, 5 minutes.
    Mr. Aguilar. Thank you, Mr. Chairman. Ms. Dean, I 
appreciate the data that you shared with us today about the 
benefits of the program. Over here, sorry. Unfortunately, some 
like to portray the SNAP program as a Federal benefit that 
incentivizes low-income individuals to support themselves 
through Federal funds rather than seeking employment, and the 
data shows that difference. However, I have always believed 
that the SNAP program is a Federal benefit that serves as a 
bridge to help families out of poverty.
    Your research demonstrates some of the incredible outcomes 
in the program, and in your written testimony you cite evidence 
that demonstrates caseloads for SNAP are declining as the 
economy improves. Additionally, the data shows that the SNAP 
program helped keep millions out of poverty, including 4.9 
million children in 2012. So, looking forward, how do you 
foresee the SNAP Program evolving as economic times continue to 
improve, and what role will SNAP play in building a more 
financially stable future for low-income families? I am 
interested especially on the economic side, which your data 
shows every $1 of increased SNAP benefits results in $1.70 in 
economic activity.
    Ms. Dean. Sure, thank you. Well, as the economy improves, 
and most importantly as poverty declines, we have seen elevated 
poverty, despite an improving unemployment rate. The number of 
people who quality for SNAP will go down, and as a result we 
will see a decrease. SNAP caseloads have been declining, albeit 
slowly, for the last 2 years, but preliminary data from the 
last few months suggest actually it will be coming down at a 
more rapid clip. And I suspect that that relates to an improved 
economy.
    So if we have fewer eligible, fewer people need the 
program. However, we are serving more eligible people in the 
program. The program is much more successful at reaching needy 
people, particularly low-income seniors and working families. 
Those are the groups that are participating at higher rates. I 
don't think we want to do anything to compromise those gains, 
so if we are now serving 80, 85 percent of eligible people, 
hopefully we can continue to do better in reaching under-served 
groups. So that will still be there.
    And what we will see, again, if the economy truly does 
improve, and heats up in a way that we would all like, the 
program will be going to individuals and communities, as it 
always does, but those that most need it. And it will remain a 
powerful support for those families and communities. But 
hopefully there will simply be fewer folks who need it, because 
the economy improves.
    Mr. Aguilar. Thank you. Ms. Muth, talking about technology, 
you have talked about that in response to a few of the 
questions earlier. I am interested to learn about the mobile 
app that you touched on, and that your testimony mentions, the 
self-service side. With 1.2 million documents uploaded in 2014, 
I am curious about the rollout process not only for the users, 
but on the staff side, and specifically, Ms. Dean talked about 
under-served communities, including low-income seniors. How 
have seniors responded to the online application piece? And if 
we have time left, I will ask you about the appeals process, 
and how that works within the interface. Go ahead.
    Ms. Muth. Okay. So I will start with the mobile app. 
Obviously, any of the technology tools that we offer are 
optional, so you don't have to provide information to us 
through a mobile app. But we did research to look at why are 
people coming into our office, and, again, we have to be 
efficient. We are running a business. So what are those non-
value added tasks, both for us, and for the individuals that we 
serve, that are occurring? And \1/3\ of the people that came 
into our office were coming in just to drop off documentation, 
which then, as Ms. Dean mentioned, we image that so that 
information is available, and we can distribute workload across 
the state.
    Well, there is a cost to imaging that document, so we 
thought, well, if you are going to deposit a check with your 
bank, I no longer have to go to the bank. I can use a mobile 
app, I can take a picture, and that image is right there for 
the bank to process. And we applied that same concept to our 
mobile app, and it is a tool that is available.
    So the vast majority of people are still not utilizing the 
mobile app, but for those that do, it can save them a trip to 
the office, and it is efficient for the state because we don't 
have to pay our vendor to produce that image, and we don't have 
to touch the document. It is just automatically associated with 
their case. A worker gets notified, we have been provided this 
documentation, and they can complete that eligibility 
determination.
    So we built a business case around what things would be a 
value add both for the state and for the client in offering the 
product.
    Mr. Aguilar. And as the use for devices goes up, then 
hopefully that piece as well, helping you reach your timeliness 
of responses as well. That was an interesting part of your 
testimony. Thank you so much.
    Ms. Muth. Absolutely.
    The Chairman. The gentleman's time has expired. Thanks, 
Pete. Mr. Gibbs, 5 minutes.
    Mr. Gibbs. Thank you, Mr. Chairman. Ms. Muth, I want to 
talk to you about something, in your testimony you talk about 
SNAP balances, and trying to expunge those balances. The reason 
I am so interested in this, in Ohio, one of my local media TV 
stations did a little expose, and they found out we had some 
people on SNAP balances, some as high as $22,000-$23,000, 
trying to figure out how to address that.
    So I see in your testimony that your agency requested, and 
was denied, a waiver to expunge the SNAP benefits on active 
accounts that have been available for at least 12 months. So do 
we need to pass some Federal legislation, what is Texas trying 
to do to address this balance issue, and what are your limits 
and limitations? What do you need, exactly?
    Ms. Muth. I believe it is a change in regulation that is 
required, and we must have had the same reporter move from 
Texas to your state, because we had a similar number of 
exposes, which attracted a lot of interest. I think the 
limitation right now is if an account is not an active account, 
you can expunge those benefits, but active accounts we can't.
    Mr. Gibbs. Okay. Thanks for the clarification, inactive, 
what is the definition of----
    Ms. Muth. If you use that account even once in that 12 
month period, that is considered an active account. So that is 
sort of the limitation that we have.
    Mr. Gibbs. So currently if somebody hasn't used their 
account in a 12 month period, you can expunge those----
    Ms. Muth. That is correct.
    Mr. Gibbs. Okay.
    Ms. Dean. Can I just jump in on----
    Mr. Gibbs. Okay.
    Ms. Dean. The 2008 law is very clear that states can take 
the account offline after 6, and then they must expunge after 
12, but it is the activity that is the issue.
    Ms. Muth. Yes.
    Mr. Gibbs. Okay.
    Ms. Dean. I will say that, to the extent that there is a 
problem, and the balances that you describe are clearly an 
issue, but where there are smaller amounts, states often find 
that it is senior and disabled households who actually don't 
know how to access their account. Maybe they thought they were 
supposed to get a second card in the mail. So what we would 
like to see is to make sure states are engaging with the 
household on why aren't you using it, then you could revisit 
the expungement rule.
    Mr. Gibbs. Yes.
    It would be reasonable to have some dollar amount, $5,000, 
I don't know what that is, I am just throwing it out. And if it 
has been more than 6 months, that would be reasonable to say 
that states could freeze those accounts, and require those 
people to contact them and find out what is going on.
    Ms. Dean. Yes, and USDA is encouraging that, but it is not 
obligated under the statute.
    Mr. Gibbs. Okay.
    Ms. Muth. And that is freezing an inactive. I think that it 
is also that question of what the activity levels are, and how 
old those benefits are. So I certainly think there is 
opportunity to tweak how that is currently done today.
    Mr. Gibbs. Well, another question, the obvious question, 
since you had this issue in Texas, when I am sure Texas and 
Ohio are not unique to the country on this issue. It must be 
nationwide. How in the world does anybody get those kind of 
balances?
    Ms. Muth. And I think that is the big question that erodes 
the integrity of--that is what our public asked. If you need 
SNAP benefits, obviously there is not trafficking going on in 
that case, because they are accumulating very large benefits. 
But if you meet the eligibility requirements, why wouldn't you 
need to be utilizing those benefits. I think there are some 
situations, as Ms. Dean mentioned, where people might not be 
fully aware of the amount, but there certainly are a small 
number of cases where you see extremely large benefits that 
aren't explained by that explanation.
    Mr. Gibbs. Yes. Well, you raised the question about 
eligibility criteria, parameters. Would you have a suggestion 
or a recommendation, maybe, that the--we need to dig in deeper 
to the eligibility, and I want to make sure the people that 
need the help are getting it. But, when you see balances like 
that--and it is not, in the scheme of things, it is a handful 
of people, but it is pretty good sized dollars in the 
aggregate.
    Ms. Muth. Right.
    Certainly, we want to look at those cases for what is going 
on in that case, it is a red flag, or an alert for potential 
fraud. I think the issue is less on the front end, and more on 
what is happening in that individual case, because there are a 
handful of those that there is really no logical reason for why 
you should have accumulated such large balances.
    Mr. Gibbs. Now, would you agree with me that the states, 
since this program is funded total--100 percent by the Federal 
Government, and then states kind of, at least in Ohio, 
administer through the counties, the states don't really have 
an incentive to really be involved anyway. Is that typical in 
Texas too?
    Ms. Muth. We have some skin in the game, with the 50 
percent of the administrative cost, and, certainly, in our 
state our philosophy around the programs is that we believe 
that it is taxpayer dollars, and whatever the source, that we 
want to maintain the integrity of the program.
    Mr. Gibbs. Well, I appreciate your testimony bringing this 
to light, because we need to try to figure this out so people 
that need the help get it. I yield back. Thank you, Mr. 
Chairman.
    The Chairman. The gentleman's time has expired. Ms. Adams, 
5 minutes.
    Ms. Adams. Thank you, Mr. Chairman, and thank you very much 
each of you for your testimony. As many of you are aware, 
Congresswoman DeLauro and I are circulating a letter stating 
Member opposition to SNAP being converted to a block grant 
program as part of any budget resolution. So I would encourage 
other Members to join the 60+ Members who are already on the 
letter, if they haven't done so.
    Ms. Dean, the State of North Carolina has decided to stop 
all waivers for SNAP work requirements for ABAWDs by July of 
this year. And while many states no longer have blanket waivers 
due to lower overall unemployment, there are still areas of the 
12th District, that I represent, where jobs are just not 
available. What flexibility is North Carolina giving up by not 
requesting waivers for areas experiencing high unemployment?
    Ms. Dean. Well, they are certainly giving up the 
flexibility to provide food assistance to very poor, unemployed 
individuals. And they are limiting the flexibility of local 
food banks by increasing the number of folks who need to turn 
to them, possibly having to ration food across more folks.
    But, most fundamentally, what they are taking away from 
themselves is the ability to engage these folks in meaningful 
work programs, job training, and job search. Again, the work 
rule under the time limit, which is very different than what 
Mr. Yoho was talking about, in terms of employment and 
training, is a 20 hour a week engagement with no, or extremely 
limited job search. That is expensive for states to pull off, 
and they could much more meaningfully engage these individuals 
and help them with employment if they weren't facing the 
pressure of the time limit.
    Ms. Adams. Thank you. In a written report by your 
organization, it mentions that the SNAP program already has a 
strong work incentive. For every additional dollar a SNAP 
recipient earns, their benefits decline by only 24 to 36, 
much less than in most other programs. Families that receive 
SNAP thus have a strong incentive to work longer hours, or to 
search for better paying employment. So how can we model the 
already strong work incentive for the SNAP Program for other 
income support programs?
    Ms. Dean. Thank you, that is a great question. Medicaid 
shares SNAP's work incentive, in the sense of if you go to 
work, earn more, your benefits are not put immediately at risk, 
in terms of health coverage, and that is very powerful. But 
other programs that are capped, or where the funding is only 
available to serve one in four or one in six eligible people, 
as someone gets a job, often very quickly the benefits could be 
taken away. Let us say someone loses a job. If you are 
receiving child care assistance when you have had employment, 
and then you lose the job, child care could be cut off. But, of 
course, that undermines your ability to go look for work and 
get another job.
    Taking a more holistic view of wanting to support and 
incent work, and ensuring that we cover working families, the 
fundamental way to do that is by financing the programs, not 
capping them.
    Ms. Adams. Thank you. Ms. Dean, we have discussed in 
previous hearings that many states do not offer a standard 
medical expense deduction for seniors and the disabled to 
document their true costs of living when they apply or re-
certify for SNAP benefits. In states that do offer a standard 
medical deduction, have you seen more seniors claiming the 
deduction in order to increase their monthly SNAP benefits?
    Ms. Dean. Yes, and so this is a part of the program where 
seniors, or people with disabilities, can deduct their medical 
expenses, because the cost of those expenses can obviously 
impede their ability to purchase food. So not all households, 
but just seniors and people with disabilities can deduct those 
expenses.
    It is actually a very complex area of the law, and when we 
look at the number of seniors on the program, and who are 
claiming medical expenses, it is extremely low, much lower than 
you would expect. And it is just very hard. The statute is 
actually pretty complicated about what it takes to claim those 
expenses. So states have come up with a way to simplify it and 
make it easier to demonstrate that they have out of pocket 
medical expenses, and the take-up there is great. That having 
been said, seniors need detailed, robust engagement. They need 
help through the process, and so what works best with them is 
actually supporting them through the application effort.
    Ms. Adams. Okay. You have documented that SNAP benefits 
have consistently not kept pace with the rising cost of food. 
So how would switching to the low cost food plan permit those 
recipients to more adequately put food on the table through the 
end of the month?
    Ms. Dean. The Thrifty Food Plan, the basis of the SNAP 
benefit assumes a very meager diet, and heroic assumptions 
about how much time families have to cook, shop, and really 
extreme assumptions about what they are buying, relative to the 
rest of America. A more realistic food plan, including a Low 
Cost Food Plan, would put more nutritious, healthy diets, 
within reach of families on this program.
    Ms. Adams. Thank you. I am out of time. Thank you, Mr. 
Chairman.
    The Chairman. The gentlelady's time has expired. The 
Chairwoman of the Subcommittee on Nutrition, Mrs. Walorski.
    Mrs. Walorski. Thank you, Mr. Chairman. And hello to you, 
the two of you that have been here before us. Good to see you 
again. As you know, I chair the Committee's Nutrition 
Subcommittee, which has been central to the review process of 
past, present, and future of SNAP, so I want to thank you for 
being here, and for returning for your second debut as well, I 
appreciate your expertise.
    One thing that has stood out to me as we have been talking 
together, and taking this comprehensive look at SNAP, is that 
we are all in this together. Everybody is a shareholder. 
Federal Government, state government, not-for-profits, private-
sector, researchers, recipients, everybody has a role to play 
in this issue of lifting Americans out of poverty and onto the 
economic ladder. So no one has a monopoly on good ideas. In 
fact, state governments, not-for-profits, and the private-
sector are crucial incubators, and we have heard time and time 
again, crucial incubators of innovative ways to fight hunger 
and poverty. And flexibility does matter, it is important, 
because it allows them to tailor programs to respond to the 
needs of their individual states.
    So my question, Ms. Muth, is to you. Our review of SNAP has 
shown the great value of partnering with all of these entities, 
the state governments, the private-sector, the researchers, and 
all the shareholders. And can you just talk a little bit about 
the partnerships, and the impact they have had when you are 
administrating Federal programs locally? And then to what 
extent have you utilized these partnerships at the state level 
to maximize resources? And the positive and negatives of both.
    Ms. Muth. Okay, absolutely. Well, I will talk about the 
private-sector, in the traditional sense, first. We have a 
number of contracts that support our eligibility process. And 
as I was talking about, EBT being an area that we have vendor 
support, and you are able to bring in the expertise of 
financial industry, that is not something that the state agency 
has. And so I think that those contractual relationships that 
we have for entities that support ours and the program bring 
new perspectives, and it is part of the whole program 
administration that we have in Texas.
    But we also have a large number of partnerships with 
entities at the local level. In Texas we have about 1,500 
community partners, and these are non-financial agreements that 
we have with entities who are already providing assistance to 
individuals. And they are providing assistance with things like 
the job search, or helping address underlying mental health 
issues, or they are providing case management services, and so 
providing them access to SNAP is one of the tools in their case 
management toolbox. So we partner with those 1,500 
organizations.
    For those individuals, they used to bring us paper 
applications. Today they are community partner sites, and they 
make the online application, the mobile app functionality, 
available to individuals across the state.
    Mrs. Walorski. And when you are partnering you are sending, 
then, all those resources down to the front line, and it sounds 
like you are doing what we have heard about, and what we have 
been talking about, this holistic approach. So when somebody 
does fall through the so-called safety net, then basically your 
partnerships, if I understand this correctly, are basically 
there to make sure there is an underlying net that makes this 
program then run more efficiently. Prior to the partnerships, 
do you have data that you can look at and say, wow, since we 
have been partnering with all these agencies, look how much 
more efficiently we are delivering this, or look how much 
better holistically we are taking care of families? Is that 
true?
    Ms. Muth. I don't have data to indicate that. I think those 
partnerships existed. It wasn't really a partnership. There was 
a relationship.
    Mrs. Walorski. Yes.
    Ms. Muth. And it became really clear to us in Texas, when 
we had significant delays in processing eligibility, because 
food banks came to us and said, while it is taking you this 
long, we can't keep food on the shelves because people are 
coming more to us. So there is a natural relationship there 
that we just sort of formalized in those partnership 
agreements.
    Mrs. Walorski. Okay. I have one quick question. You talked 
about the most common SNAP household recipient is female, 
between 18 and 49, with kids under 12 years of age, has some 
form of income, receives a monthly benefit of $274. Can you 
recommend to this Committee what you think would best assist 
the majority of this population? What is the best thing we 
could possibly do, if we could make a move to assist that 
woman?
    Ms. Muth. I think part of it is just changing our 
practices, and not expecting everybody to be able to arrange 
for child care, and transportation, and time off of work to 
come in to those eligibility offices, and having the 
convenience of technology so that they can provide information 
to us, contact us, 24 hours a day, 7 days a week through the 
online self-service.
    Mrs. Walorski. Okay. I appreciate it. Thanks, Mr. Chairman. 
I yield back.
    The Chairman. The gentlelady yields back. Mr. Costa, for 5 
minutes.
    Mr. Costa. Thank you very much, Mr. Chairman, and I want to 
welcome the witnesses, and thank you for being here. Members of 
the Committee, I am sure, as you are aware this is the 12th 
hearing that we have held on the Supplemental Nutrition 
Assistance Program, otherwise known as SNAP, in the 114th 
Congress. Each hearing has had a distinguished panel, and what 
I am trying to determine is what the objective is? Why we have 
we had a preponderance of hearings on the SNAP program. And I 
must admit that I am increasingly concerned about the potential 
intentions, as it relates to the future farm bill. I am 
concerned that there is going to be a policy recommendation to 
leadership that in the next farm bill we dramatically cut SNAP, 
and there should be adjustments as it relates toward it, but I 
don't think we ought to be throwing the baby out with the bath 
water, no pun intended.
    My district is one of the richest agricultural districts in 
the country, but it is also, with that significant wealth, has 
a lot of poverty. A cut would be devastating, and directly 
equate to taking food out of the mouths of children and 
families in my district. The irony is that a lot of these folks 
are some of the hardest working people you ever met in your 
life, who are working to produce the food that goes on 
America's dinner table. And many of them are out of work today 
as a result of the drought conditions and the regulatory 
programs that have compounded the drought conditions.
    California's San Joaquin Valley, which I have the pleasure 
of representing, has an unemployment level that is nearly twice 
that of the national average according to the Bureau of 
Statistics. And as it stands today, I sadly must tell the 
Members of this Committee and the witnesses that there are 
50,000+ households receiving SNAP benefits in my district. The 
statewide snapshot of SNAP in California indicates that there 
are 278,000 households that are receiving food stamps in 
California, and 50,000 of them are in my district, almost 20 
percent. If you want to understand the snapshot of those 
households, 79 percent have a child that is under 18. And 15 
percent of those households have one or more persons that are 
60 years or older. This is dramatically impacting the Valley, 
obviously, because of a combination of other factors, as I 
stated earlier. Fields are being left unplanted as a result of 
the drought, and jobs are at a premium. Now is not the time to 
be considering taking food away from families in the San 
Joaquin Valley, or throughout the nation.
    Are we satisfied with the status quo? Absolutely not. Are 
there alternatives to dealing with this? Yes, and let me speak 
of one. My friend Pete Weber, who has taken the leadership with 
local governmental agencies has formed the Fresno Bridge 
Academy in my district, and it is one of several programs 
around the country that has taken advantage of the 2014 Farm 
Bill Employment and Training Pilot Program that I urged very 
hard to make a part of that farm bill to reduce dependency. One 
of the last graduating classes at the Bridge Academy saw 77 
percent participating SNAP clients come from unemployed to 
becoming employed; 18 months later, 83 percent of the clients 
had obtained employment or job advancement, and 32 percent had 
achieved self-reliance. I believe states' best options are to 
develop and fund innovative programs like the Fresno Bridge 
Academy, designed specifically to truly help people move to 
independence. That said, my question is, with all due respect, 
what are we doing? What are the efforts intended to be with 
this Committee in the outcome of these hearings?
    So finally, Ms. Stacy Dean, I would like to ask, what can 
states do to develop additional programs like the Fresno Bridge 
Academy, because clearly we want to get people off assistance. 
We want to get people independent and self-reliant, and that 
ought to be the goal and the intention, regardless of how many 
hearings we have.
    Ms. Dean. Well, I don't mean to joke too much, but actually 
cloning the Fresno Bridge Academy would be terrific, because 
not every state has such a terrific local partner that runs 
such a high quality program. So finding ways to replicate is 
important. USDA actually just announced, in the last day or 2, 
that they are providing more robust technical assistance for 
ten new states to bring up their employment and training 
programs. I say bring up, employment and training may be 
significant, but a lot of it is focused on job search and 
workfare, and not how do----
    Mr. Costa. Actually getting people into the jobs?
    Ms. Dean. Right, and giving them the support and 
intervention that they need to move up into the workforce. So 
cloning first, but then more learning.
    Mr. Costa. Thank you very much. My time has expired, Mr. 
Chairman.
    The Chairman. The gentleman's time has expired. Mr. Allen, 
5 minutes.
    Mr. Allen. Thank you, Mr. Chairman, and thank you, to our 
distinguished panel, for being here, and talking about this 
important program. Obviously, we had tremendous growth in this 
program, and now I see that we are making progress, as far as 
reducing the number of folks on this program. In fact, I was 
with a group yesterday that are involved in a food pantry 
program, and one of the concerns that I had in, and this is in 
south Georgia, that they serve about 3,000 children, but there 
are another 56,000 children that they think that might not be 
served. And then the other thing that I thought was important 
was that of those 3,000 children served, all of them have so 
far gotten a high school education through the food pantry 
program.
    Are there similar programs, and I will just throw this out 
to the panel, do you see the potential, as far as changing the 
cycle through education, and then, obviously, moving these 
folks onto the workforce, and then getting them off of this 
assistance?
    Ms. Muth. I think absolutely that there are a lot of 
programs around the country, and much of that occurs at the 
local level, where organizations are having that direct contact 
with the families, and provide more. We talked a little bit 
about how they have the ability to provide a little more of the 
holistic case management to identify the underlying needs of 
the family, and SNAP being a tool in the toolbox to assist them 
on that path to self-sufficiency.
    Mr. Allen. Are there any statistics out there that you 
have, as far as the SNAP Program, and then the ability, well, 
we know children, and your testimony here has provided that 
children do better in school and socially if they are not 
hungry. So what are your trends showing, as far as the impact 
that you are having on children, and their ability to get a 
good education, and then to get a good job?
    Ms. Dean. If I may take that one?
    Mr. Allen. Yes.
    Ms. Dean. In my testimony I summarized the results of a 
recent study that was published that took a look at SNAP when 
it was being rolled out in the late 1960s and early 1970s. That 
was the only time in history where we could compare children 
who, as young children, or while their mothers were pregnant 
with them, received SNAP versus did not.
    And when you looked at the long-term outcomes for those 
individuals who were able to participate in then food stamps, 
it is really astonishing. High school completion rate was 18 
percent higher amongst children who, when they were very young, 
were able to participate in SNAP. That is an extraordinary 
outcome for a basic food benefit for young kids. And, 
similarly, their health outcomes were also impressively much 
better off than those who did not. So I do think it is very 
important to think of this as a long-term investment in 
education.
    Mr. Allen. Yes. As far as your statistics go, obviously the 
longer you are on these programs, the more dependent you are. 
And what are we doing, obviously, we are seeing progress with 
our children, and doing the right thing, as far as making sure 
that they are fed, that they have the ability to get their work 
done, and then, like you said, move out of this cycle. But do 
you see any potential as far as older folks, in what we are 
able to do to move them off these programs?
    Ms. Dean. Well, the individuals who participate in SNAP, it 
is a very dynamic group. The majority of folks experience a 
temporary downturn in their personal circumstances, they use 
the program, and they move on.
    Mr. Allen. Yes.
    Ms. Dean. They get that job, and their family situation 
improves, their child is no longer sick, whatever the situation 
is.
    Mr. Allen. Yes.
    Ms. Dean. That is a very dynamic group. There is also a 
group that is simply earning wages that are very low, or a 
senior who has a Social Security benefit that we cannot expect 
to increase. The 70 year old is not going to earn more funding.
    Mr. Allen. I am just----
    Ms. Dean. You have to think about them differently.
    Mr. Allen.--just about out of time, but obviously the 
economy has not been robust for some time now. In fact, it is 
the longest period of stagnation in some time. But obviously 
you see a big difference when we have a growing economy, and 
the wages are growing, and people are able to move up into 
higher wages, and then eventually become independent?
    Ms. Dean. Absolutely.
    Mr. Allen. Okay. All right.
    Ms. Dean. Absolutely.
    Mr. Allen. So we have just have to get the economy growing?
    Ms. Dean. Just that.
    Mr. Allen. Okay.
    Ms. Dean. Right.
    Mr. Allen. I yield back.
    The Chairman. The gentleman's time has expired. Mrs. 
Kirkpatrick, 5 minutes.
    Mrs. Kirkpatrick. Arizona's one of the six states that has 
a full ban on non-compliance with drug testing, and I just 
would like your thoughts about what that does to families in 
Arizona. I don't know who wants to answer that. Whoever wants 
to answer.
    Ms. Dean. You are talking about drug testing and the cash 
assistance?
    Mrs. Kirkpatrick. That is right. There are six states that 
have a full ban.
    Ms. Dean. Right.
    Mrs. Kirkpatrick. Arizona's one of them.
    Ms. Dean. First of all, there is a question to the state in 
terms of the cost of the drug testing, given the very low 
positive results that are found. And several studies have found 
that it is an extremely expensive policy for what is found. But 
the real question is what is the purpose of the drug testing? 
Is it withdrawing cash assistance or fundamental support from 
extremely poor families, because Arizona's cash assistance 
rules are pretty strict. Withdrawing funding from that family 
and basic support, are those children better off, is the 
individual with a substance abuse or addiction problem getting 
the help that they need? And that is the measure of success, 
and not something that we are necessarily seeing in the states 
that have applied the test.
    Mrs. Kirkpatrick. And hunger is a real problem in Arizona. 
We have a higher incident rate of hunger among children. On the 
Navajo Nation, over 76 percent of the people suffer from food 
insecurity. So I am really pleased to see that Arizona has been 
selected to receive the specialized technical assistance to 
improve their SNAP E&T Program. And my question is, for Ms. 
Dean, can you explain how this program will help Arizonans get 
SNAP and back to work?
    Ms. Dean. I believe I just mentioned this a second ago. 
There is an organization in Washington: Seattle, Washington, 
called the Seattle Jobs Initiative that has a pretty amazing 
proven track record in opening up workforce training programs 
to very poor individuals and families. Traditionally, a lot of 
the workforce and job training programs run by Labor 
Departments can be closed off to some of the poorest families, 
and the ones most in need of that basic training in order to 
move up the economic ladder.
    But, the Seattle Jobs Initiative seems to have cracked that 
nut, and USDA has contracted with them to offer technical 
assistance to states outside of Washington who are interested 
in finding a way to design programs that work for the SNAP 
population that they most want to help. So appropriate to local 
conditions, appropriate to the individuals that they are 
selecting, because we think about moms with enormous barriers 
to work quite differently than someone with a deep job history. 
You would just go about helping them differently. And, of 
course, responsive to local conditions. Are there jobs there? 
Are they talking to employers about the skills that are needed? 
This program has been terrific, and we are thrilled USDA is 
offering their help to ten more states, and I am glad Arizona 
is one of them.
    Mrs. Kirkpatrick. Thank you, and it really is about jobs. 
It is all about jobs.
    Ms. Dean. Yes.
    Mrs. Kirkpatrick. I was happy to hear the idea about using 
technology to allow them to get online to make their 
applications and supplement their information. Here is the 
problem I have. I have a huge rural district in Arizona, much 
of which does not have broadband coverage. And so is there 
anything that you are aware of what is being done to address 
that?
    Ms. Muth. We certainly have similar issues in Texas. And 
while I don't have the answer for that, over time that is 
becoming less and less of an issue. But while there are not 
immediate answers to that, it is still an option, it is not the 
requirement. But I think that for most people it is an option 
that most people would like to take. And so we have definitely 
seen a big difference over the past 10 years in Texas, and I 
look forward to that continuing to improve in rural areas.
    Mrs. Kirkpatrick. We are seeing some progress, but still a 
lot of work to be done. It is a top priority of mine for many 
reasons. So thank you very much for your testimony today. I 
yield back.
    Ms. Muth. Yes.
    The Chairman. The gentlelady yields back. Mr. Newhouse, 5 
minutes.
    Mr. Newhouse. Thank you, Mr. Chairman, and, Ms. Muth, Ms. 
Dean, Ms. Cunnyngham, thank you very much for being here and 
discussing this important topic of finding different options 
available to states for implementing SNAP.
    I have a question for each one of you, so that 5 minutes 
goes by really quickly. I just wanted to, first of all, and 
this is for Ms. Cunnyngham, but maybe Ms. Dean, since you 
brought up Seattle. I am from the State of Washington. As you 
know, we have a very robust SNAP employment and training 
program. It is known as the Basic Food Employment and Training, 
or BFET. It is a collaborative public-private partnership that 
provides a range of skills to SNAP beneficiaries, things like 
advanced employment, interview help, education skills, even 
down to what is the proper workplace attire for people that are 
looking for work, and other things.
    It has been very successful. From April 2011 to December 
2014 it has more than a 65 percent success rate of helping 
people find work within 24 months, at fairly good wages, 
actually, comparatively. So whoever could contribute to this, 
could you discuss the range of E&T options that are available 
to states, ranging from fully funded Federal programs to the 
50/50 program match funds? And also, do many states take 
advantage of that 50/50 match program? And also, not to tout 
our own program, but can you give me a sense of which states 
have a better rate of helping SNAP beneficiaries find work?
    Ms. Dean. You should tout this program. It is terrific. We 
really think it is a shining star amongst the state offerings. 
But it took Washington, with a very concerted and focused 
effort, several years to figure out how to open up, again, 
these broader workforce services to the SNAP-specific 
population. I think what distinguishes the program in many 
respects, and I should say USDA sends many states to go to 
visit to Washington. They run an annual training for other 
states who are interested in how to do this.
    One is thinking about who are we targeting? Again, 
individuals who are temporarily unemployed versus someone who 
has been out of the workforce for years, folks with different 
educational ranges, and also where they live, and what jobs are 
available. Thinking first, about who am I focused on, and what 
types of services do they need? And is there a match between 
the services this individual needs, and what is available in 
the community? Individuals are also allowed to volunteer. They 
are working with highly motivated individuals who want this 
help, so that has a lot to do with the success rate, because 
they are motivated, and there is a great connection, and a 
service that is appropriate for the individual.
    So your broader question about what do we know about other 
states' programs, actually very little, and that is why it was 
so terrific, in the 2014 Farm Bill, that the Committee, along 
with some other changes that it made to employment and training 
with the demonstrations required that USDA work with states to 
set up performance metrics, so that there would be more regular 
and routine reporting appropriate to what the state was 
running, not consistent across all 50 states. We will have a 
better sense of what is working well. Most states run job 
search and workfare, and most states use their Federal funds, 
and some 50/50 funds, but they do not leverage as much as they 
could.
    Mr. Newhouse. Okay. Thank you very much. And I don't mind 
you singing the praises of my state, but they are doing a good 
job, so I appreciate you saying that.
    Ms. Dean. Yes. They are.
    Mr. Newhouse. Ms. Muth, the current farm bill included a 
pilot program known as the Food Insecurity Nutrition Incentive. 
The grant program is intended to help SNAP beneficiaries obtain 
access to fruits and vegetables. I have heard the San Antonio 
Food Bank received a grant last year. Can you talk about the 
rollout of this program, and its impact on nutrition outcomes 
for SNAP beneficiaries?
    Ms. Muth. I am not familiar with the details of the 
program, since that is a relationship directly with the San 
Antonio Food Bank and the USDA, but I will say that is an issue 
of great interest from everyone within the state, from the 
community-based organizations to even retailers in Texas are 
interested in how we incentivize those nutritious options for 
SNAP recipients.
    Mr. Newhouse. Okay. Yes, I am just interested to see how 
well it has worked around the country. But, like I said, 5 
minutes goes by really quickly, but I appreciate all of you 
being here and contributing to this conversation. Thank you. 
Thank you, Mr. Chairman. I yield back.
    The Chairman. The gentleman yields back. Mr. Nolan, 5 
minutes. Mr. Benishek, 5 minutes.
    Mr. Benishek. Thank you, Mr. Chairman. Welcome. Thanks for 
being here. Many of my constituents ask me the same thing every 
time we talk about SNAP, okay, and I am just going to the work 
requirement, fraud, and how would somebody transition out of 
SNAP when they get a job? So those are the three things that 
come up whenever I speak to constituents, or when they bring it 
up to me. And I understand some of the questions that are 
brought up, somebody wants to work, but can't find a job. The 
people that I talk to are concerned about the people that don't 
want to work, but are staying on the rolls. How do we 
differentiate that, I mean, and what are the things that we 
could do to help people that actually want to work be still 
eligible for the program? Can you talk about that? Ms. Muth, 
what are they doing in Texas?
    Ms. Muth. In Texas, the work portion of the SNAP Program is 
administered by another agency, but I do think that most of our 
recipients do have some type of employment. And for those that 
don't, there are requirements that they participate, and the 
time limits. And Ms. Dean may be able to give you a better 
picture of that from across the state.
    Mr. Benishek. Ms. Dean, do you have any input there?
    Ms. Dean. Well, first, the program's eligibility rules 
allow low wage workers to participate in the program. So, for 
example, a family of three, their monthly gross income needs to 
be below $2,200 a month, so there are many, many families who 
are working and participating in the program. My colleague just 
reminded me that about 87 percent of families are either 
working in the year before or the year after SNAP 
participation, so it is not just while they are on the program. 
We have workers who are in and out of the workforce who then 
avail themselves of the program. So there is a high connection 
to work for folks on the program.
    But I just want to spend a minute, or a second, given the 
time, also just calling out that we do have a growing number of 
extremely poor families in this country, the folks who are 
living below 50 percent of the poverty----
    Mr. Benishek. Well, no, I am all for the people that are 
really poor, and who are unable to find work, to access the 
program. That is why we want to be sure that there are enough 
funds to help those people.
    Ms. Dean. Yes.
    Mr. Benishek. But not the people that I talk to see this 
all the time, where people are turning down work to stay on the 
program. How do we sort that out?
    Ms. Dean. Yes. We constantly, in this program, fight the 
individual anecdote, but I will----
    Mr. Benishek. Well, I talk to restaurant owners, for 
example, that are looking for waitresses.
    Ms. Dean. Yes.
    Mr. Benishek. The can't find a waitress. That seems like a 
pretty good entry level job for someone who doesn't have a job, 
but they can't find a waitress who is willing to stay for any 
period of time because they lose their benefits. So I am trying 
to figure out how do we make this work so that people who----
    Ms. Dean. They lose their benefits meaning they are----
    Mr. Benishek. Well, I don't know exactly why they are not 
taking the job, but they don't stay on the job.
    Ms. Dean. Right.
    Mr. Benishek. Okay? There are some employers that are 
looking for a waitress, which is not a skilled job. That is a 
job that somebody could learn and be good at without a lot of 
formal training. And, to me, it seems like a good access to the 
workforce job.
    Ms. Dean. Yes.
    Mr. Benishek. So how do we make this easier to determine 
whether you can't get a job or you don't want a job?
    Ms. Dean. Well, I think that is the incredible challenge. 
Certainly doing more to connect available jobs to SNAP 
employment and training, to making sure that the employers are 
telling SNAP where the jobs are so that participants know where 
the jobs are is one step. But, it is difficult. The individual 
you are talking about, someone who is work avoidant, could 
appear that way when, in fact, we also have many, many 
individuals who are homeless, who do not have child care, who 
might not have----
    Mr. Benishek. Well, I know, but, that is not the case of 
the people that I am talking about. Because, I talk to people a 
lot in my job, because I go around to the district, and talk to 
people about what their issues are, and that is not what you 
bring up, okay? It is not anecdotal. It is a real problem. So I 
want to see the needy people get the benefit and make it work, 
but we haven't come up with a good answer here in Committee 
about this sort of problem. And, unfortunately, I am out of 
time. The 5 minutes goes really fast.
    The Chairman. The gentleman's time has expired. Mr. 
LaMalfa, 5 minutes.
    Mr. LaMalfa. Thank you, Mr. Chairman. Just as a preface 
here, concerns expressed earlier in the Committee about, again, 
the reason for these hearings, being like a prelude for the 
next farm bill making cuts to the program. That is kind of not 
helpful in what we are really trying to do. A big part of our 
job should be, and is, government oversight of any program or 
government operation, whether it is this Committee, or Defense, 
or any other committee's venue. We are just looking for 
solutions to make any program go better and have the people 
that are the beneficiaries and users of it benefit more, and 
better use it. I don't enjoy that that gets spun into other 
things sometimes, so we want all of our government customers, 
as we are--as we serve them, to do better.
    So, that said, Ms. Muth, in our review of SNAP so far, this 
Committee has learned a lot about the value of public and 
private partnerships, and the impact it can have when 
administering a Federal program at the local level. So has this 
been utilized fairly widely with regard to SNAP in these 
partnerships, and what are the things that might be improved or 
made more useful by the public-private partnerships?
    Ms. Muth. In public-private partnerships, we have a number 
of partnerships, and sometimes I hate to call a contractual 
relationship a partnership, but we contract with a number of 
private companies that play a role in part of the SNAP 
delivery. So, as I mentioned, EBT would be one area where we 
are able to draw on expertise, financial expertise, that we 
don't have within the state. And then we have a number of 
partnerships that occur at local level, with a variety of 
organizations. We are a big state in Texas. We are a state 
administered program, and so sometimes as we sit in Austin, we 
are far away from what is happening in those local communities. 
But when we partner with organizations----
    Mr. LaMalfa. You know, the Texas delegation is always 
reminding us how big Texas is.
    Ms. Muth. Yes, I know. We have to. We have done a number of 
things, I mentioned the community partner program. We also have 
a partnership with the food banks in Texas, and we do have a 
demonstration waiver with USDA, where food banks are able to do 
some of that initial data collection.
    Mr. LaMalfa. So, I am sorry, the time thing is always----
    Ms. Muth. Yes.
    Mr. LaMalfa.--but we will--so by and large it is pretty 
positive----
    Ms. Muth. Absolutely.
    Mr. LaMalfa.--and using local infrastructure, and bang for 
the buck, and getting it to the ground quicker and more 
efficiently is good. Is there any downside with the work at 
that level with the Federal interface?
    Ms. Muth. There are some limitations at the Federal level. 
The demonstration waiver that we have, we are one of three 
states that have a similar demonstration waiver to allow the 
food banks to do that data collection, and have that count as 
the interview process. So there would be an opportunity to look 
at if that was worth expansion.
    Mr. LaMalfa. Okay. Good. Thank you. Ms. Dean, I am from 
California. It is another pretty big state, but we also have 
those waivers that also allow the on-demand and telephone 
interviews in lieu of a scheduled face to face interview, in 
determining eligibility and re-certs. And so, as was mentioned 
earlier on, the flexibility allows the resources to be utilized 
much more efficiently in other areas, stronger verification. I 
wonder how much value is there that direct communication might 
have in the interaction with the recipient so that; first, they 
are getting what they need; and second, you are having the cues 
you pick up from that interaction in determining either 
eligibility or re-certification. How important is keeping the 
digital process, but also having the integrity of the program 
with that face to face interaction? How is that a flexibility 
that is needed one way or the other more so?
    Ms. Dean. So the state is held to the same standard for 
accuracy whether the interview is over the phone or in person 
when they are re-reviewing their cases. And this was an area 
where there was a lot of trepidation early on. Could we have a 
robust interview? Do you need to look someone in the eye? Ms. 
Muth can correct me, but I think that states have really had a 
very positive experience. They have learned to interview 
differently over the phone.
    One of the nice things also that technology has afforded 
is, at the same time telephone interviews were coming on, many 
states can now pull down real time data about the household. So 
I have sat in on interviews where the client says, my child 
support payment is no longer coming through, and the case 
worker now can pull up child support data and say, well, wait a 
minute, I saw that information was posted for February. There 
are other tools that have expanded at the same time we moved to 
phone interviews. So it has been terrific. States can always, 
if they are concerned, pull the individual in, and if the 
individual needs help, can also go in and ask for that face to 
face help.
    The Chairman. The gentleman's time has expired. Mr. 
Thompson, 5 minutes.
    Mr. Thompson. Mr. Chairman, thank you. Ladies, thank you so 
much for being here, part of this panel. The SNAP program is a 
very important program, there is no doubt about it, but it is a 
very complex program because people bring all kinds of 
different histories. We have folks who are part of 
intergenerational poverty. We have people who wake up in the 
morning, find themselves in bad times. We have people 
experiencing mental illness, maybe substance abuse, those who 
are incarcerated. It is so complex, and that is why it is 
difficult to find one solution. One solution is not going to 
work on it. If we do a cookie cutter solution, at the end of 
the day, with our reauthorization of SNAP, we have failed. We 
have failed a lot of Americans.
    I prefer to see SNAP, actually, the purpose of it is not so 
much a program, but a pathway. A path that works in a 
functional way to lift people out of poverty, to achieve 
greater opportunity, to provide a means for upper mobility. I 
would obviously put SNAP in with a lot of other programs that 
we do that don't do that today, that tend to keep people down, 
and suppressed, and they never realize the American Dream. And 
so I want to go down a path that we haven't asked a lot about. 
And, Ms. Dean, or whoever would like to respond, I want to look 
at, and correct me if I am wrong, but my understanding is that 
the eligibility for SNAP is generally at or below the 130 
percent of poverty line. For a family of three it is calculated 
$26,100. Now, that is according to an October 30, 2014 rule.
    We know that, and we talk about, or I talk about, and I 
hear others talk about, that we have a savings crisis in our 
country, that families don't have that insulation so when 
things go bad, and you have a bad day, and you wake up and you 
lose your job, or you go in the hospital, or your kid gets 
sick, or the furnace goes out, we really have a crisis in 
savings.
    And so what I want to ask you about, actually, are the 
household SNAP resource limits, because they ought to be 
adequate so that, and those are my calculations: $2,250 in 
countable resources, $3,250 if you have at least one person 60 
years of age or older, or is disabled, but that is household. 
Certain property is exempt, is my understanding. Most cars are 
exempt. That is a bit arbitrary state by state, a lot of 
variability. So my question is straightforward. Are these 
limits adequate without further economically destabilizing the 
households in question?
    Ms. Dean. We do believe that the Federal asset rules are 
too restrictive; you put it exactly as I would have, which is 
that if you cannot accumulate some modest savings, you can't 
inoculate yourself from life's ups and downs. If my hot water 
heater breaks, my car breaks down; that financial stability, 
that personal insurance of some modest savings, is what can 
prevent families from falling deeper into poverty.
    So I completely agree, and that really is one of the main 
drivers for why states have taken advantage of the flexibility 
to relax that asset test, to allow for families to accumulate 
some modest savings, which was a very bipartisan goal in the 
2002 Farm Bill.
    Mr. Thompson. Okay. It kind of brings us a natural 
transition to my next question. Ms. Muth, you state that it is 
important to maintain some consistencies between states when 
implementing SNAP because benefits are portable across state 
lines. Those in border towns are especially impacted by the 
inconsistencies between states. I represent 24 percent of the 
land mass in Pennsylvania, high across the northern tier. What 
are some existing options that might make it difficult for 
recipients and the state to maintain consistency across states, 
and what should we do about that?
    Ms. Muth. I don't see any current barriers. I think in 
Texas we have a lot of people that either come shop in Texas, 
or that our SNAP recipients are shopping in other states. I 
think the issues that might come about if there were different 
rules that applied, and that the retailers were enforcing 
different rules, whether you live in Texas, or whether you live 
in New Mexico, for example. But today I am not aware of any 
issues that we have with our clients who are shopping across 
state, because it is fairly consistent.
    Mr. Thompson. Yes. Very good. Thank you, Mr. Chairman. I 
yield back.
    The Chairman. The gentleman yields back his extra time, I 
appreciate that. Ms. Lujan Grisham, 5 minutes.
    Ms. Lujan Grisham. Thank you, Mr. Chairman. I appreciate 
the panel and the dialogue, as we try to figure out how we 
protect those families and support them to make sure that this 
benefit is available to them, so that we don't have any hungry 
families and any hungry children. But, we are also looking at 
getting folks into a situation where they are not dependent on 
these benefits, it is a healthy dialogue. But I can also see 
how it can go awry, and I have talked about it a ton, frankly, 
in this Committee, that the intent of Congress to allow states 
to have more flexibility in how they operate SNAP and related 
programs is to really ensure that those states can target the 
constituents, and those families, in a meaningful way, and to 
take in the unique circumstances of each state so that they can 
administer those programs.
    But I get very concerned when that flexibility, and I am an 
old state bureaucrat. I loved flexibility, and was usually 
arguing with the Federal Government. But when that flexibility 
can be utilized in a way that does exactly the opposite of the 
intent of the core program, I really want to talk about what 
safeguards there are. Here is the example: in New Mexico, \1/2\ 
of the SNAP benefits go to children. One out of every three 
children in New Mexico is at risk for hunger. It is the fourth 
highest child hunger rate in the nation, so we are still 
identified as one of the most hungry states in the country. Our 
unemployment rate is the highest in the country, and it has 
steadily increased for the last year. In fact, our economic 
situation is so dire that it has really created apathy, and an 
environment where I can tell you that most bipartisan state 
leaders are not finding a way clear out of this economic 
predicament.
    However, in that environment that I have just spoken of, in 
our state, the governor has unilaterally re-imposed very 
restrictive work requirements on SNAP recipients, even though 
there are no jobs. It is also the only state in the country 
where we are losing population, because there are no options. 
These children and families who were not intended to be off 
this benefit at this time, will be kicked off. And, in fact, 
the recent estimates are up to 80,000 New Mexicans will lose 
their benefits due to those job requirements to find jobs that, 
frankly, don't exist. So how do we reconcile that, and Ms. 
Dean, what can Congress do that assures that flexibility 
doesn't become a tool to restrict the benefits that were 
intended to shore up these poor families and take care of these 
poor children?
    Ms. Dean. That is a big question. When you are talking 
about work requirements, do you mean the time limit, or work 
requirements on ABAWDs, do you mean the time limit, or work 
requirements on families with children? I just want to make 
sure----
    Ms. Lujan Grisham. It is both.
    Ms. Dean. That is what I thought. Okay.
    Ms. Lujan Grisham. Unfortunately.
    Ms. Dean. So, first off, one of the key things that the 
statute does that you all have done, in addition to the 
regulations, is knowing that states have choices and options. 
There are some key parameters that, if you want to, for 
example, do online services, or talk to people in person, those 
kinds of things, you still have to process benefits once 
someone presents themselves as needing help, if they are within 
the Federal timeline. So timeliness and accuracy are key 
metrics that the Feds hold states accountable to. And they say 
you have a lot of different choices and options, but you must 
help needy people when they present themselves and provide all 
of their information. Those are cornerstones to the program, 
and really help identify where there are problems.
    Ms. Lujan Grisham. Do you think we could strengthen those 
cornerstones? And, again, I believe in state flexibility. I 
also want these benefits to be targeted in a meaningful way, 
and I want real opportunity, so that we don't have persistent 
poverty. But I also know that this safety net is critical.
    Ms. Dean. Yes.
    Ms. Lujan Grisham. And it is clear to me that too often the 
Federal Government finds that those resources seem a bit 
restrictive to them to actually do accountability. And I get 
lots of responses that say, ``Well, they are within the work 
requirement regulations, so we aren't going to do anything 
about those 80,000 who are now off.''
    Ms. Dean. Right. And that is the key question is, when 
there are work requirements, when the state is saying, we want 
to engage these folks in some activity to test their 
willingness to work, and, hopefully, to encourage work, what is 
the measure of accountability there? Leaving the program 
doesn't mean you got a job. It might mean that you were asked 
to do something you couldn't do. There was no child care for 
your young baby. You might have no jobs.
    Ms. Lujan Grisham. No jobs in my state.
    Ms. Dean. And so what do we do to ensure that those efforts 
are engaging in the results that everyone says they want?
    Ms. Lujan Grisham. Thank you. I yield back.
    The Chairman. The gentlelady's time has expired. Mr. Davis, 
5 minutes.
    Mr. Davis. Thank you, Mr. Chairman, and thank you to each 
of the witnesses for being here today. A lot of my questions 
were taken by earlier Members of this Committee, but it is 
imperative that I reiterate some of the comments that Mr. 
LaMalfa made. And I really want to commend Doug, and also 
Chairman Conaway, and the Chairwoman of the Nutrition 
Subcommittee, my colleague Jackie Walorski, for actually 
talking about SNAP, and bringing folks like each of you in to 
talk about some of the successes of the program. Because we 
would be keeping SNAP recipients, in states like Texas, and my 
home State of Illinois, we would be doing them a disservice if 
we didn't try and make the program even better, and more 
respective of the needs of those families who are utilizing 
those benefits.
    There is a lot of talk about public-private partnerships. 
That was my question, but I don't want to reiterate it again. 
Although, in one aspect, based upon some of the discussion here 
today, we seem to have focused those public-private partnership 
discussions on more urban areas. And I know that there are many 
urban areas in the great State of Texas, as my Chairman likes 
to remind me of, but I have a lot of rural areas, just like you 
do in Texas. Can you expand, maybe, Ms. Muth, on what 
opportunities for rural areas there can be for the public-
private partnerships?
    Ms. Muth. We do have public and private partnerships in 
both rural and urban areas. Obviously, in some instances, it is 
harder to find the partnership in a rural area because there 
are just not as many entities there, but we have a very 
successful partnership with a food bank in Lubbock. They 
participate in that demonstration waiver that we have, and they 
target rural areas to provide access to individuals in those 
areas. And so it is incumbent on the state. We often look at 
that issue, and those are where we work very hard to identify 
and recruit partners, and sometimes we have to work a little 
bit harder to do that. But they are there, and we do have those 
partnerships that are very fruitful. We work with the faith 
community as well in those partnerships, and so that is an 
opportunity in rural areas also.
    Mr. Davis. Great. I know there has been a lot of discussion 
on technology, and technological advances, and getting more of 
a coordinated effort for our states to be able to serve the 
recipients of SNAP benefits, and other benefits, to work 
together. I know there was some discussion about that just a 
few minutes ago. Is there anything that you may want to relay 
to this Committee we haven't asked about how to make this 
technology work even better, and in a more cohesive fashion, to 
better get the benefits to the recipients? Whomever wants to 
answer.
    Ms. Muth. I will take one, because I just had a thought 
that had come to me, and I am Stacy, you might remember the 
name, but there is a partnership right now with a number of 
states, one of the things we have to do is confirm whether 
someone is receiving benefits in another state.
    Mr. Davis. Yes.
    Ms. Muth. And each state has to individually contact other 
states. And there is a partnership with seven or so states 
right now. It is something that states have to buy into to 
participate in that just really seems like there should be a 
national database as we are spending a lot of resources. And I 
will tell you, often workers in other states somehow get my 
name and number to confirm whether a recipient is receiving 
benefits in Texas. It is not an efficient process, and I don't 
think it is an effective process, and technology could really 
help us there.
    Mr. Davis. Okay.
    Ms. Dean. Can I add one more----
    Mr. Davis. Yes, absolutely.
    Ms. Dean.--which is the procurement of large statewide 
systems, that many states, particularly small states, are 
largely left on their own to sort out how to undertake a large 
procurement and can often be multi-billion dollar companies. 
And sometimes, frankly, are just mismatched in terms of knowing 
what to ask for, how to ensure the contracts will get them the 
best that they can, and the best value for your investment as 
well, because the Feds are putting up a significant share of 
those funds. So finding ways to leverage information across 
states, and perhaps to collaboratively purchase, say, if eight 
states are working with one vendor, there must be some way to 
leverage their shared----
    Mr. Davis. Is the USDA providing any of that type of 
technical assistance?
    Ms. Dean. Well, it is not just USDA, because most 
eligibility systems will include Medicaid, child care, TANF. So 
it is a multi-Federal agency, a multi-state agency, and a lot 
of efficiency is lost in that effort.
    Mr. Davis. Great. My time has expired. Thank you all.
    The Chairman. Thank you, Mr. Davis. I had a couple of real 
quick ones to finish out. Ms. Muth, you mentioned that Texas 
has a 96 percent efficiency rating on getting benefits 
qualified on time. What is the definition of on time?
    Ms. Muth. There are Federal standards related to 
timeliness, and for applications, there is generally a 30 day 
timeframe in which we have to process that. But if a household 
meets expedited criteria, then we have to process that in 7 
days. But Texas actually has state law that says if you meet 
the expedite criteria, which basically means you are in 
immediate need for assistance, that we have to process that by 
the next day.
    The Chairman. Okay.
    Ms. Muth. So, on average, it takes us about 14 days to 
process applications.
    The Chairman. And the 96 percent is a blended approval 
rating on all----
    Ms. Muth. That is correct.
    The Chairman. States share the administrative costs. I am a 
CPA by trade, so are there efficiency standards, or measures 
that have been developed, or are developed, to look at number 
of employees per beneficiary, dollars spent per beneficiary, 
all those kind of things that would lead us to believe that on 
the administrative side, we are getting the best bang for the 
buck, and then help states who may not be providing the same 
level of their half? In other words, they are limiting their 
access to these better technologies through a state decision. 
Are there ways to look at that from an efficiency standpoint?
    Ms. Muth. That is a great question. USDA does publish the 
administrative costs, but it is so difficult because every 
state is organized a little bit differently, and groups 
programs together differently, and you have a major----
    The Chairman. Would there be value in looking at some 
common denominator that you could then look at, dollars is one 
thing, but if we had the number of beneficiary payments, is 
there some sort of way to look to see which states are doing it 
better, and then say to the other states here is a state that 
is doing it better?
    Ms. Muth. Absolutely. And also, at the state level, they 
hold those accountable through the appropriations process as 
well.
    The Chairman. All three of you, and Ms. Dean, you mentioned 
it, really, answering Mr. Davis's question, but are there 
formalized best sharing--convening organizations within the 50 
states, or 54 jurisdictions, that separate this program so 
small states can get together and share best practices they 
have implemented would that be beneficial?
    Ms. Dean. Sure. There is a state-based organization, the 
American Public Human Services Administration, and they are 
here, which is great. If states are members of that convening 
organization, they get together and gather. The Feds also pull 
folks together to share, but not always across program, not 
always with respect to a business approach, or a method of 
doing work; states would care about that across SNAP, Medicaid, 
TANF, and child care. We tend to think within single programs. 
There is more we can do there. And, frankly, states and the 
Federal agencies feel constricted in their ability to convene 
and travel because there is a lot of public scrutiny of 
spending dollars in that way. But it is so important and so 
valuable. We need to see more of it.
    The Chairman. All right. The 20 hour work requirement, that 
is not just one job? They could have multiple jobs----
    Ms. Dean. They could.
    The Chairman.--to get to 20? Okay. And then, this is 
probably outside y'all's lanes directly, but could you walk me 
through real quick the interrelationship between qualification 
for SNAP and the school lunch program, the school nutrition 
programs, and eligibility there? Is there a link between those?
    Ms. Dean. Yes, absolutely. Children on SNAP automatically 
qualify for the free school meals program, and there is a legal 
obligation for states and school----
    The Chairman. That is lunch and breakfast?
    Ms. Dean. Yes. There is a requirement to cross-enroll, and 
a performance standard there.
    The Chairman. All right. Okay. Is that the only way 
children qualify, or can they still qualify for free or reduced 
lunch if they come off the SNAP program----
    Ms. Dean. Yes. They may fill out an application and qualify 
based on family income----
    The Chairman. But SNAP just automatically gets----
    Ms. Dean. Absolutely, yes.
    The Chairman. Well, I appreciate our witnesses being here 
today. We get criticized for the number of hearings we have had 
on this issue. We spend $80 billion a year on it. I am not 
embarrassed by the opportunity to present, and hopefully in a 
fair and balanced method, so to speak, the good, the bad, and 
what we are trying to get done. My goal is to get the policy 
right. I don't have any numbers on any savings, or anything 
like that at this stage. We just want to get the policy right. 
You can't know that unless you have the examination of the 
policy to see what is working and what is not working. And so I 
appreciate you being here today.
    As Mr. Thompson mentioned, we serve 45 to 46 million 
people. There is not a 30 second pithy little snippy statement 
that captures adequately the complexity of the system. One 
side, our side, typically focuses on the anecdotes such as the 
27 year old California surfer, with not a lot of sympathy for 
being on food stamps and maintaining his surfer lifestyle. Mr. 
McGovern and others focus on the folks who will always be on 
benefits, children, or who should be, the elderly, and the 
disabled, and so we talk past each other an awful lot of the 
time when we are trying to deal with this thing. So our goal, 
publicly stated, is to make sure we get the policies correct, 
and then we will score those policies, and see what we can 
afford. But the real goal, at this stage, is to get those 
policies right.
    One of the things that goes on, if I am a private donor in 
a not-for-profit, or a faith-based organization, and they don't 
do it correctly, then I could police that, and move them out. 
These programs are not policeable by the donors, by the 
taxpayers, per se, and so that is a job that we should be 
fulfilling, and we haven't for a long, long time. So, we are 
building a body of knowledge that this group didn't have 
because for a long, long time we just let this system go, 
without a great deal of understanding. So don't apologize for 
my colleagues who criticize us for having too many of these 
hearings, but I appreciate our witnesses for being here.
    Under the rules of the Committee, the record of today's 
hearing will remain open for 10 calendar days to receive 
additional material and supplemental written responses from the 
witnesses to any question posed by a Member. This hearing on 
the Committee of Agriculture is adjourned. Thank you.
    [Whereupon, at 12:09 p.m., the Committee was adjourned.]
    [Material submitted for inclusion in the record follows:]
 Submitted Letter by Tracy Wareing Evans, Executive Director, American 
                   Public Human Services Association
March 14, 2016

  Hon. K. Michael Conaway,
  Chairman,
  House Agriculture Committee,
  Washington, D.C.;

  Hon. Collin C. Peterson,
  Ranking Minority Member,
  House Agriculture Committee,
  Washington, D.C.

    Dear Chairman Conaway and Ranking Member Peterson:

    Thank you for this opportunity to provide written testimony on 
behalf of the American Public Human Services Association (APHSA) for 
the record of your March 2, 2016, hearing on state agency use of 
options in the Supplemental Nutrition Assistance Program (SNAP).
    APHSA is a bipartisan, nonprofit membership organization 
representing state and local human service agencies through their top-
level leadership. APHSA has been working to improve public health and 
human services for over 80 years by collaborating with state and local 
agencies, partners and national policymakers to promote effective 
policies, innovative strategies, and effective service delivery 
systems. With and through our members, APHSA advances comprehensive 
solutions for the issues facing human services by working with a broad 
spectrum of partners and stakeholders.
APHSA's Framework
    The framework through which our members see both SNAP, and health 
and human services programs broadly, is expressed through APHSA's 
Pathways initiative. This member-driven proposal for a more effective 
and outcome-focused human services system calls for sustainable and 
meaningful outcomes for individuals and families focused on four impact 
areas: achieving gainful employment and independence; stronger 
families, adults, and communities; healthier families, adults, and 
communities; and sustained well-being of children and youth. Our views 
are driven by the need to shape the future of human services programs 
so that they account for the many changes now taking place in our 
country--in the economy, social structures, demographics, 
communications, and other major sectors that bear directly on our 
national success and well-being. These broad changes are challenging us 
to rapidly increase the effectiveness and value of our work. In 
partnership with communities across the nation, our agencies are 
already creatively generating solutions for the many needs and concerns 
in our field through focused leadership, path-breaking partnerships, 
and new answers to old problems.
    We are optimistic about the unprecedented opportunities we have to 
maintain the best of our current systems while creating a new 
environment for improved, long-term outcomes for children and families. 
Some examples of these opportunities include exciting developments in 
breakthrough technologies, new forms of communication, fresh business 
process models, and alternative funding support. These new approaches, 
tools, and relationships are converging to transform our work into a 
system that creates community-wide change and supports meaningful and 
sustainable outcomes. These dramatic shifts are helping to lift 
individuals toward independence, add value to communities, strengthen 
families, and achieve more at less cost--positive changes that benefit 
us all.
Key Considerations for a Strong SNAP Program
    The strength and health of families, adults, and communities rest 
on a broad continuum of widely available conditions and resources as 
well as individual and family capacities and abilities. Among these is 
the means to access proper nutrition, and Federal nutrition programs 
play multiple and important roles in supporting this result. As those 
who are responsible for managing SNAP at the state and local levels, we 
know that SNAP is a key nutrition support that has served to 
significantly alleviate hunger and poverty for many decades.
    APHSA and its members have identified a number of core 
considerations that can help assure SNAP will be effective in 
strengthening families and will be efficient and administratively 
feasible. We list below several of these issues, and proposals for 
their associated policy improvements, that touch on issues raised in 
your March 2 hearing:

  <bullet> SNAP's role in supporting work and building capacity--
        Support for entering the workforce and retaining gainful 
        employment is a key goal for our agencies and a critical 
        activity that can help move more individuals and families out 
        of poverty. SNAP's role in this goal could be greatly 
        strengthened if the rules and funding for the SNAP Employment & 
        Training program meshed more seamlessly with other work support 
        efforts and could more easily be made part of a comprehensive 
        employment support effort. The current E&T pilots should shed 
        important light on how SNAP can advance in this critical area, 
        and clearly beneficial impacts from these pilots should be 
        implemented even before the pilots have concluded. Additional, 
        similar pilots that can evaluate other strategies to build 
        individual and community capacity should be promptly developed 
        and tested.

  <bullet> Testing and implementing other successful innovations--
        Modernizing SNAP must include accelerated development of 
        innovative alternatives that improve the program's impacts and 
        administration, followed by rapid evaluation and prompt 
        implementation of successful improvements. The Employment & 
        Training pilots now under way should be a model for numerous 
        other pilots covering such major program aspects as 
        improvements in nutrition, overall family well-being, and 
        independence; verification and program integrity; and new 
        blended and braided funding models, including partnerships with 
        other programs and sectors. Another example could be pilots 
        that incorporate use of the Modified Adjusted Gross Income 
        (MAGI) and eligibility decisions from health programs to 
        initiate and complete most of the SNAP eligibility process.

  <bullet> SNAP has contributed significantly to reducing need and to 
        providing important bridge supports for those affected by job 
        loss and other setbacks--It can respond quickly to recessions, 
        food price inflation, and the changing needs of individuals and 
        job markets. SNAP's benefits flow through the existing retail 
        food system and generate multiplier effects on the broader 
        economy. SNAP's benefit structure must continue to be able to 
        provide this kind of immediate, effective, and sustained 
        response. SNAP is also a key element in preventing ``heavier-
        touch'' problems down the road in health, nutrition, family 
        stability, and independence. As the traditional foundation of 
        nutritional and bridge supports across the nation, it has 
        enhanced the effectiveness of other programs with varying 
        benefits and standards, such as Temporary Assistance for Needy 
        Families.

  <bullet> While SNAP must retain its current strengths, it can and 
        should become a far more impactful and efficient program--SNAP 
        must become much more effectively aligned with other programs 
        such as those in the area of health. SNAP also must take far 
        greater advantage of new technology and electronic data 
        exchanges that can speed the application process, avoid 
        duplication of work for both participants and administrators, 
        connect seamlessly with other programs, strengthen access, and 
        further improve program integrity. By often functioning in 
        isolation, SNAP misses many opportunities to interact with 
        other programs and thus to enhance access and efficiency. One 
        clear example is the inability to take full advantage of the 
        new information systems being implemented for health care, 
        which can connect to SNAP in limited ways but cannot bridge 
        SNAP's differences in definitions of income and households and 
        its approaches to interviewing and verification. Greater 
        interoperability and alignment among these large systems would 
        improve access by enhancing ``single-portal'' contact and 
        reducing duplication in collecting and verifying case 
        information.

  <bullet> Any changes that would include block-granting SNAP must 
        avoid problematic elements of other human services block 
        grants--SNAP must retain its current responsiveness, including 
        rapid adjustments for cost increases and caseload growth; a 
        national floor for benefits; and alignment of state 
        administrative match rates with other major human service 
        programs. Any reductions in SNAP expenditures must be carefully 
        assessed for their impacts on both recipients and the states' 
        ability to meet their needs properly, as well as the retail 
        food economy. SNAP benefit or administrative match reductions 
        could have a number of undesirable consequences, including 
        diminishing agencies' ability to properly administer this very 
        complex and labor-intensive program.

  <bullet> All health and human service programs must allow and support 
        the most up-to-date and effective business practices in their 
        administration--They must become a more seamless and efficient 
        element of a person- and family-centered approach. A number of 
        current SNAP laws, regulations, and administrative rulings 
        prevent the program from taking full advantage of advances that 
        would reduce administrative costs, improve customer service, 
        and strengthen program impacts. Certain policies beyond SNAP 
        also have similar impacts, such as those that keep SNAP and 
        other programs from freely using important databases that could 
        improve administration and access. Similarly, states must have 
        the option to implement horizontally integrated systems 
        (particularly their information technology components) that 
        align and streamline the eligibility and verification processes 
        for SNAP, health, cash assistance, and other human services 
        programs. Such integration will improve access, save 
        administrative expense, improve program integrity, and maximize 
        states' ability to take advantage of extended enhanced Federal 
        funding.

  <bullet> Program simplification--APHSA has for decades urged 
        simplification of SNAP rules, and proper credit goes to 
        Congress, several Administrations, and the program's 
        stakeholders for reducing complexity in many areas. However, 
        SNAP remains one of the most challenging assistance programs 
        for customers to understand and for agencies to administer, and 
        remains tied to eligibility and verification processes that are 
        more difficult and less common than those in most other major 
        programs.

  <bullet> The ``cliff effect''--Among the most unfortunate results of 
        multi-program disconnects is the ``cliff effect,'' in which 
        modest increases in income or in a given program's benefits 
        trigger significant reductions in other programs. While SNAP 
        has provisions that help ameliorate some of these concerns, on 
        the whole it and other human services programs have far to go. 
        Among other negative results, the cliff effect is often a 
        significant disincentive to begin working or to increase hours 
        and pay.

  <bullet> Modern customer interfaces--Much of our population, of 
        whatever income level, has long since made the transition to 
        engaging government and other sectors electronically, through 
        personal devices, and without the need for unreasonable 
        paperwork and repetition of data already in the system. SNAP 
        has begun making this transition, and indeed was a pioneer in 
        changing fully to electronic card benefits nearly a decade and 
        a half ago. But again, it has far to go in allowing simple 
        electronic access, interoperability among related assistance 
        programs, alternatives to face-to-face interviews, and use of 
        the vast amount of electronic data now residing in government 
        systems. Reducing these barriers could enhance single-portal 
        access and eligibility, cut the time and effort to submit 
        verification information, and help the many SNAP participants 
        who must work during normal office hours.

    Returning to your hearing's key theme of state options, it is clear 
from these principles that a sound SNAP program relies on a number of 
important state administrative options--both those already in place and 
new areas of flexibility referenced in the points above. It is 
certainly proper that states be held accountable for suitable program 
performance and use of public funds in their application of options, 
and we believe that SNAP's very thorough quality assurance and 
oversight procedures will continue to yield that result. As you 
continue your review of SNAP and prepare for program changes in the 
next farm bill, we urge you to keep in mind the critical role that a 
reasonable degree of state flexibility must play in successful 
administration of SNAP.
    We will be pleased to provide additional information on any of 
these issues. Please contact Larry Goolsby, Director of Strategic 
Initiatives, [Redacted] with any questions or requests.
            Sincerely, 
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
Tracy Wareing Evans,
Executive Director, APHSA.


 
               SUPPLEMENTAL NUTRITION ASSISTANCE PROGRAM

   (THE PAST, PRESENT, AND FUTURE OF SNAP: THE RETAILER PERSPECTIVE)

                              ----------                              


                         THURSDAY, MAY 12, 2016

                  House of Representatives,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Committee met, pursuant to call, at 9:59 a.m., in Room 
1300 of the Longworth House Office Building, Hon. K. Michael 
Conaway [Chairman of the Committee] presiding.
    Members present: Representatives Conaway, Neugebauer, 
Goodlatte, Lucas, Rogers, Thompson, Gibbs, Austin Scott of 
Georgia, Crawford, DesJarlais, Gibson, Hartzler, Benishek, 
LaMalfa, Davis, Yoho, Walorski, Allen, Bost, Rouzer, Abraham, 
Moolenaar, Newhouse, Kelly, Peterson, David Scott of Georgia, 
Walz, Fudge, McGovern, DelBene, Vela, Lujan Grisham, Kuster, 
Nolan, Bustos, Kirkpatrick, Aguilar, Adams, Graham, and 
Ashford.
    Staff present: Caleb Crosswhite, Haley Graves, Jadi 
Chapman, Mary Nowak, Scott C. Graves, Stephanie Addison, Faisal 
Siddiqui, John Konya, Lisa Shelton, Liz Friedlander, Matthew 
MacKenzie, Nicole Scott, and Carly Reedholm.

OPENING STATEMENT OF HON. K. MICHAEL CONAWAY, A REPRESENTATIVE 
                     IN CONGRESS FROM TEXAS

    The Chairman. Good morning. This hearing of the Committee 
on Agriculture entitled, The Past, Present, and Future of SNAP: 
The Retailer Perspective, will come to order. I have asked 
Michael Bost to open us with a quick prayer. Michael?
    Mr. Bost. Thank you, Mr. Chairman. If we can bow our heads? 
Dear Heavenly Father, we thank you for this day. We thank you 
for the blessings of this day. We thank you for the opportunity 
that we can come together as a nation and meet, discuss 
business to try to make this nation better, greater. Lord, we 
thank you for the freedoms that we have in this nation, and for 
the men and women who have fought to make sure that those 
freedoms are kept. Lord, we thank you. We ask all these things 
in your Son, Jesus Christ's, name, amen.
    The Chairman. Thank you. I want to welcome our witnesses to 
today's hearing, and thank them for taking the time to share 
their perspectives as retailers serving SNAP recipients. This 
hearing, like those before, builds upon the Committee's top to 
bottom review of the Supplemental Nutrition Assistance Program, 
or SNAP. As the Committee concludes our review, we will be in a 
position to make meaningful improvements to the program, 
improvements that benefit recipients, taxpayers, and those 
working as critical partners in carrying out the program. We 
often say the states are the front lines of serving SNAP 
recipients, but it is the retailers providing the food that 
interact directly with their customers on a monthly, weekly, 
and sometimes daily basis.
    Retailers are keenly aware of the challenges that face 
their customers as they shop in grocery stores, whether it be 
trying to provide the proper nutrition for their families, or 
how to best maximize their budgets. Today we will hear from a 
variety of retail businesses, ranging from a convenience store 
to a large grocery chain, about the various challenges and 
opportunities both retailers and recipients experience 
interacting with SNAP. We will discuss the process in becoming 
an authorized SNAP retailer, and how that varies from single 
store operators to franchise grocery store chains, and the 
initiatives taking place within stores to promote healthy food 
purchases. Furthermore, we will evaluate the opportunities with 
technology, as well as the various challenges facing rural 
communities, and how retailers are serving those areas.
    From color coded stamps to the current EBT system, 
technology has come a long way since the food stamp program was 
created in 1963. Technology is ever-changing. Today, food 
manufacturers are working to provide smart labels on packages 
that allow customers with cellphones to see ingredients, 
possible allergens, and genetic technology used to produce the 
food item. Credit card companies are now placing a chip into 
debit cards for more secure transactions. As technology 
evolves, we must ensure that SNAP is able to take advantage of 
these innovations, while still ensuring program integrity.
    We also have seen the way in which customers shop is 
evolving. My colleague from Michigan referenced in our last 
Nutrition Subcommittee hearing many grocery stores now offer 
wide selections of ready to consume or prepared meals. With 
these new food options, and various new purchasing 
opportunities available, consumers' shopping patterns are 
changing. We are beginning to see more consumers who prefer to 
shop for their groceries online, such as the elderly, who have 
difficulty shopping in a store, parents with two jobs and 
limited time, and those who just prefer the convenience. 
Retailers are adjusting to meet their customer demands.
    For those individuals living in rural America, accessing 
food can be quite the challenge. I know that from Texas' 
District 11, how some rural parts of the country can be, and 
how far a person must travel to reach a grocery store. As 
policymakers, we must be cognizant of the various laws we 
consider and regulations that are proposed to ensure that 
Washington is not making it harder for families to put food on 
their table, instead allowing SNAP to adapt to the changing 
needs and trends.
    I want to thank our witnesses for being here today to share 
their perspectives from the grocery aisle.
    [The prepared statement of Mr. Conaway follows:]

  Prepared Statement of Hon. K. Michael Conaway, a Representative in 
                          Congress from Texas
    I want to welcome our witnesses to today's hearing and thank them 
for taking the time to share their perspectives as retailers serving 
SNAP recipients. This hearing, like those before, builds upon the 
Committee's top-to-bottom review of the Supplemental Nutrition 
Assistance Program, or SNAP, so as the Committee approaches 
reauthorization, we will be positioned to make meaningful improvements 
to the program--improvements to benefit recipients, taxpayers, and 
those working as critical partners in carrying out the program.
    We often say the states are on the front lines of serving SNAP 
recipients, but one could argue it is the stores providing food that 
directly interact with their customers on a monthly, weekly, or even 
daily basis. Retailers are keenly aware of the challenges their 
customers face as they shop in grocery stores, whether it be trying to 
provide the proper nutrition for their families or how best to maximize 
their budgets.
    Today, we will hear from a variety of retailer businesses, ranging 
from a convenience store to a national large grocery chain, about the 
various challenges and opportunities both retailers and recipients 
experience interacting with SNAP. We will discuss the process for 
becoming an authorized SNAP retailer and how that varies from single 
store operators to franchised grocery chains and the initiatives taking 
place within stores to promote healthy food purchases. Furthermore, we 
will evaluate the opportunities with technology, as well as the various 
challenges facing rural communities and how retailers are serving those 
areas.
    From color coded stamps to the current EBT system, technology has 
come a long way since the food stamp program was created in 1963. 
Technology is ever changing. Today, food manufacturers are working to 
provide smart labels on packages that allow customers with cellphones 
to see ingredients, possible allergens, and genetic technology used to 
produce the food item. Credit card companies are now placing a chip 
into debit cards for more secure transactions. As technology evolves, 
we must ensure that SNAP is able to take advantage of these 
innovations, while still ensuring program integrity is intact.
    We also have seen that the way in which consumers shop is evolving. 
As my colleague from Michigan referenced in our last Nutrition 
Subcommittee hearing, many grocery stores now offer a wide selection of 
ready to consume or prepared meals. With these new food options and 
various new purchasing opportunities available, consumer shopping 
patterns are changing. We are beginning to see more consumers who 
prefer to shop for their groceries online, such as the elderly who have 
difficultly shopping in a store, parents that work two jobs and have 
limited time, or those who just prefer the convenience. Retailers are 
adjusting to meet their customer demands.
    For those individuals living in rural America, accessing food can 
be quite the challenge. I know from my own experience traveling around 
Texas' 11th district, how rural some parts of the country can be and 
how far a person may have to travel to reach a grocery store. We as 
policymakers must be cognizant of the various laws we consider and 
regulations that are proposed to ensure that Washington is not making 
it harder for families to put food on the table, but instead allowing 
SNAP to adapt to these changing trends.
    I want to thank our witnesses for taking the time to be here today 
to share their perspectives ``from the grocery aisle.''

    The Chairman. And, with that, I turn to the Ranking Member 
for any comments he would like. Collin?

OPENING STATEMENT OF HON. COLLIN C. PETERSON, A REPRESENTATIVE 
                   IN CONGRESS FROM MINNESOTA

    Mr. Peterson. Thank you, Mr. Chairman, and I want to 
welcome today's witnesses to the Committee. I look forward to 
their testimony. Retailers play an important role in the food 
chain, and this Committee focuses so much on farmers that the 
perspective of food retailers, and the role they play in 
getting food to consumers, sometimes gets lost. For many, a 
grocery store may not be easily accessible. This is why so-
called small format retailers, who we are hearing from today, 
are so important. They can help bridge some of the distance, 
and meet consumer needs.
    I recently joined my colleagues expressing concerns about 
the proposed rule to modify SNAP retailer eligibility 
requirements, and I believe the proposed rule would threaten 
small format retailers' ability to participate in SNAP. It 
would reduce food access to many consumers who rely on these 
small retailers for their groceries, and it just is the wrong 
direction. So hopefully this issue can be addressed, moving 
forward. Larger retailers also face challenges, particularly 
when it comes to technology, so I will be looking to today's 
testimony to see if there is anything Congress can do to help 
these retailers better serve consumers. So, again, welcome to 
the Committee, witnesses, and I thank the chair, and yield 
back.
    The Chairman. I thank the gentleman. The chair would 
request that other Members submit their opening statements for 
the record so that our witnesses may begin their testimony, and 
to ensure there is ample time for questions. I would now like 
to welcome to our witness table Ms. Kathy Hanna, Senior 
Director Enterprise Payments and Store Support, The Kroger 
Company, Cincinnati, Ohio. I would ask Mr. Rogers from Alabama 
to introduce our next witness. Yes.
    Mr. Rogers. Thank you, Mr. Chairman. I have the honor today 
to introduce Mr. Jimmy Wright from the great State of Alabama. 
Jimmy is a single store operator of a family owned neighborhood 
market in Opelika, Alabama. Jimmy is an involved member of the 
community in Opelika, serving as President of the Opelika 
Community Development Corporation, and on the board of the 
National Grocer's Association. Jimmy, his wife Susan, and 
daughter Emily, are members of the First Baptist Church of 
Opelika, a church I have had the privilege of visiting several 
times, and it has a spectacularly beautiful sanctuary. You have 
a lot to be proud of.
    He has a unique perspective on what it is like to serve a 
diverse clientele, and to feed a community. Jimmy bought the 
market in Opelika in 1997, and has run this market as Wright's 
Market ever since. In 2012 Mr. Wright formed a relationship 
with a nonprofit ministry to open the Carver Neighborhood 
Market. Carver Neighborhood Market serves a community in South 
Atlanta that was once what is known as a food desert. Folks in 
South Atlanta had to previously drive 3 hours round trip on a 
bus just to shop for groceries. Jimmy's service to that 
community is a testament to his desire to give back to this 
country that has blessed him so much.
    Thanks to Jimmy for being here, and I know we all look 
forward to your testimony. And with that, Mr. Chairman, I yield 
back.
    The Chairman. I would also like to introduce Mr. Doug 
Beech. He is Counsel for Casey's General Stores, is that 
Ankeny, Iowa? Okay. And I would like to ask Mr. Lucas to 
introduce our last witness.
    Mr. Lucas. Thank you, Mr. Chairman, and I would like to 
introduce Carl Martincich. He is the Vice President of Human 
Resources and Government Affairs at Love's Travel Stops and 
Country Stores. Love's is a large chain of truckstops serving 
rural areas that have busy interstates running through them. 
Travel stops such as Love's typically also have multiple 
businesses, such as fast food restaurants, within the store. 
Carl will discuss how their business model differs from other 
retailers, and what factors they use when deciding what food to 
stock on its shelves, and, most interesting, of course, the 
similarities between SNAP purchases and non-SNAP purchases of 
other customers. Thank you, Mr. Chairman.
    The Chairman. With that, I would acknowledge Ms. Hanna and 
Mr. Beech. You need to be from a state which has a Member on 
the Committee. You get a much better introduction. Ms. Hanna, 
you may begin your testimony at your leisure. Thank you.

           STATEMENT OF KATHY HANNA, SENIOR DIRECTOR
    ENTERPRISE PAYMENTS AND STORE SUPPORT, THE KROGER CO., 
               CINCINNATI, OH; ON BEHALF OF FOOD
                      MARKETING INSTITUTE

    Ms. Hanna. Thank you. Good morning, Chairman Conaway, 
Ranking Member Peterson, and Members of the Committee. My name 
is Kathy Hanna, and I am the Senior Director of Enterprise 
Payments at The Kroger Company, based in Cincinnati, Ohio. I am 
also the past Chair of the Food Marketing Institute Electronic 
Payment Systems Committee. Kroger is the largest traditional 
grocer in the U.S., with nearly two dozen banner names, all of 
which share the same belief in building strong local ties and 
brand loyalty with our customers. Every day the Kroger family 
of companies makes a difference in the lives of 8\1/2\ million 
customers and 431,000 associates who shop or serve in our 2,778 
retail food stores in 35 states, and the District of Columbia.
    At Kroger we are interested in improving the health of all 
of our shoppers. More and more shoppers see the supermarket as 
a health or wellness destination. Kroger currently operates 
2,231 pharmacies, and 190 clinics. We employ dieticians, 
nutritionists to assist our shoppers in making healthy choices. 
Additionally, we employ chefs that hold cooking demonstrations, 
and provide recipe ideas for families shopping on a budget, or 
with specific dietary needs. These are benefits and services 
Kroger offers to all of our customers, regardless of how they 
are paying for their groceries. In Memphis and north 
Mississippi, Kroger recently partnered with AARP, who received 
a Food Insecurity Nutrition Incentive grant from the USDA. This 
partnership allows us to incentify SNAP customers to purchase 
more fresh fruits and vegetables in our stores. Creative 
incentives such as this are a win-win for the grocery industry 
and our customers. In April of this year, 600 coupons were 
redeemed versus only 60 in October of last year.
    Grocers are the private partner with the government as the 
point of redemption for SNAP recipients, and are vested in 
ensuring the program runs as efficiently as possible. The 
national SNAP EBT system we have today is a result of 
legislation authored by then House Agriculture Nutrition 
Subcommittee Chairman Bob Goodlatte. Today SNAP is ubiquitous, 
quick, inexpensive to accept, and seamless amongst the states. 
At Kroger, our point of sale system is integrated to 
automatically prohibit SNAP benefits from being used to 
purchase non-allowable items. This efficiency is further 
enhanced by the fact that the rules are uniform across the 
country. Not only is this ubiquity essential on our programming 
side, it is key for our shoppers who rely on SNAP to have the 
same set of rules regardless of where they are redeeming their 
benefits.
    While SNAP EBT has been incredibly successful, we must now 
look to the future of EBT. SNAP EBT relies on almost 50 year 
old magnetic stripe technology. This legacy technology is 
currently being replaced here in the U.S. with chip cards in 
the credit card and debit card markets, numbering the days of 
magnetic stripe. Eventually the point of sale will move away 
from magnetic stripe, and we need to plan for what the next 
generation of EBT should look like. We should consider where 
there is a place for EBT as a mobile payment, or other 
solutions that would best serve our SNAP clients, and maintain 
the efficiencies and ubiquity of SNAP. We are always looking 
for opportunities to bring greater efficiencies and improvement 
to SNAP.
    One area where states vary widely is how many days of the 
month they distribute benefits. If a state only distributes 
benefits 1 to 3 days a month, it can create several operational 
challenges for retailers. The grocery industry is a very high 
volume business. We sell millions of food items every day. Our 
shelves are constantly being restocked, and we work very hard 
to keep checkout lines short and moving quickly. Serving large 
populations of customers on 1 or 2 days a month raises 
significant challenges. We support states spreading out their 
distribution to throughout the month to ensure better service 
and full selections for all customers.
    Another area we are focused on is greater reliability of 
EBT processing. States contract with a processor to carry out 
SNAP transactions. When an EBT processor experiences an outage, 
and the system goes down, we often do not know about it until 
the store has incurred multiple SNAP transaction declines. 
These outages can be very costly to us, and cause major 
disruptions for our customers in our stores. Currently there 
are only two providers effectively splitting all of the states. 
Two simply is not enough. We believe that more competition in 
the payments processors space, the higher the level of 
reliability we will see in this space.
    Thank you again for inviting me here today. Kroger is 
committed to serving all customers, including our customers who 
utilize SNAP. We stand ready to work with the Committee as it 
begins to contemplate the next farm bill to find additional 
improvements and future technology solutions to ensure that we 
can all meet our customers' needs. Thank you.
    [The prepared statement of Ms. Hanna follows:]

Prepared Statement of Kathy Hanna, Senior Director Enterprise Payments 
  and Store Support, The Kroger Co., Cincinnati, OH; on Behalf of Food
                          Marketing Institute
    Good morning, Chairman Conaway, Ranking Member Peterson, and 
Members of the Committee. My name is Kathy Hanna and I am the Senior 
Director Enterprise Payments at the Kroger Company based in Cincinnati, 
Ohio. I am also past Chair of the Food Marketing Institute Electronic 
Payments Systems Committee and have watched the evolution of the 
Supplemental Nutrition Assistance Program (SNAP) from paper coupons 
that were often traded in the store parking lot, to a patchwork 
regional system with differing administrative requirements, and then 
finally a nationwide electronic system that has significantly improved 
efficiencies and reduced the opportunity for fraud and error.
    Kroger is the largest traditional grocer in the United States with 
nearly two dozen banners, all of which share the same belief in 
building strong local ties and brand loyalty with our customers. Every 
day, the Kroger Family of Companies makes a difference in the lives of 
8\1/2\ million customers and 431,000 associates who shop or serve in 
2,778 retail food stores under a variety of local banner names in 35 
states and the District of Columbia. At Kroger, we are interested in 
improving the health of all of our shoppers. More and more shoppers see 
the supermarket as a health or wellness destination. At Kroger, we 
currently have 2,231 pharmacies and operate 190 in store clinics. We 
employ dietitians and nutritionists to assist our shoppers in making 
healthy choices. Additionally, we employ chefs that hold cooking 
demonstrations, and provide recipe ideas for families shopping on a 
budget, or with specific dietary needs. These are benefits and services 
Kroger offers to all of our customers, regardless of how they are 
paying for their groceries.
    In recent years, FNS has looked for new ways to incentivize 
healthier eating by SNAP customers and the Agency has been willing to 
grant waivers allowing grocers to directly incentivize SNAP shoppers. 
Kroger has recently partnered with AARP who received a Food Insecurity 
Nutrition Incentive grant from the USDA. This partnership allows us to 
incentivize SNAP customers to purchase more fresh fruits and vegetables 
in our stores. Creative incentives such as this are a win-win for the 
grocery industry and our customers.
    We know our SNAP shoppers, like any shopper on a budget, is looking 
to maximize and stretch their spending power.
Benefits of a Nationwide, Interoperable EBT System
    I am honored to be here today to share Kroger's experience as a 
private partner with the government as the point of redemption for 
millions of SNAP recipients every month. When I first came to Kroger 
and worked in the stores, customers redeemed paper Food Stamp coupons 
torn out of books distributed monthly for food products in our stores. 
While Food Stamps provided a necessary benefit for Americans most in 
need, redeeming the stamps at the check-out was a very slow and tedious 
process subject to human error. The Personal Responsibility and Work 
Opportunity Reconciliation Act of 1996 committed to improving the paper 
system by mandating that Food Stamp benefits move to an Electronic 
Benefits Transfer (EBT) system by October 1, 2002. The system was 
designed to mirror the commercially available debit card system and 
Congress required that all EBT cards require a Personal Identification 
Number, or PIN, in order to be used. A PIN ensures that the customer 
presenting the card is an authorized user, so if the card were lost or 
stolen, it would have no benefit to whoever has it. It also allows the 
transaction to run on commercial rails to be as efficient and 
inexpensive as possible.
    Migrating to EBT was a huge undertaking that required cooperation 
among all of the various Federal Government and state government, 
retailer, and nonprofit and stakeholders. Kroger and all grocers were 
committed to the move to EBT and invested heavily in its success as we 
knew it would bring efficiencies into SNAP, reduce our cost of 
accepting the benefits and reduce the human error rate and the fraud 
rate by allowing states to share redemption information. At the onset, 
the system was not nationwide or ubiquitous with alliances of states 
popping up in various regions of the country under names such as SAS, 
the Southern Alliance of States, the Northeast Alliance of States and 
freestanding programs like in my home state of Ohio. Electronic was 
good, but it was clear that a nationwide, interoperable system would be 
much better. Then-House Agriculture Nutrition Subcommittee Chairman Bob 
Goodlatte introduced legislation to move us to the nationwide, 
interoperable system we have today. Today, we enjoy a SNAP redemption 
system in all of our stores that is ubiquitous, quick, inexpensive to 
accept and seamless amongst the states.
    According to our partners at the Food Marketing Institute, about 
nine percent of grocery sales industry-wide are SNAP. That number was 
higher directly following the severe economic downturn in 2008 and 
2009. Even then, with a larger population shopping with SNAP EBT cards, 
we did not see a slowdown in checkout lines or an increased error rate. 
The efficiency, ubiquity, low error rate and ability to handle volume 
increases can all be directly contributed to the streamlined EBT 
system. These transactions only take a matter of seconds. At Kroger, 
our point of sale system is integrated to automatically prohibit SNAP 
benefits from being used to purchase non-allowable items, such as 
toilet paper or alcohol. This efficiency is further enhanced by the 
fact that the rules are uniform across the country, so we do not have 
to individually program EBT restrictions, requirements or allowances by 
state. Not only is this ubiquity essential on our programming side, it 
is key for our shoppers who rely on SNAP to have the same set of rules 
regardless of where they redeem their benefits.
    Following major catastrophic events, such as Hurricane Katrina, we 
often seen a massive and temporary migration of people. In the 
Hurricane Katrina case, we saw families from Louisiana flee to Texas, 
Tennessee and Arkansas for significant periods of time. SNAP's 
transferability in those cases is essential. A family's SNAP benefits 
may be been issued in Louisiana but if they were temporarily staying 
with family in Arkansas, their SNAP benefits would work there without 
any challenges. SNAP portability is not just for major catastrophe such 
as this. I live in Cincinnati, right on the Ohio, Kentucky border. 
Every day thousands of people travel between those two states to go to 
work or shop. A SNAP recipient may want to cross into Kentucky from 
Ohio to shop at a store that is running a sale, or is closer to their 
job. The ability to redeem benefits with the same rules in multiple 
states is a very important efficiency that we enjoy in SNAP and often 
wish for in other government benefit programs. For instance, in the 
Special Supplemental Nutrition Program for Women, Infants & Children, 
or WIC, mothers cannot use their benefits in other states. The food 
packages allowed in one state often differ greatly from a neighboring 
state, and many states are still using legacy paper checks, while 
others have moved to EBT. However, in WIC EBT, the technology amongst 
the states varies where some use the traditional ``magnetic'' 
technology and others use what is called a ``smart card.'' Because of 
these differences, WIC lacks the ubiquity that we enjoy in SNAP--and in 
turn is a very expensive transaction we run in the store and one of the 
most complicated.
    While SNAP-EBT has been incredibly successful making SNAP more 
efficient, we are now starting to look to the future of EBT. SNAP EBT 
relies on almost fifty year old magnetic stripe technology. This legacy 
technology is currently being replaced here in the United States with 
``chip cards'' in the credit and debit card markets. While current SNAP 
transactions are still more secure than a chip card without a PIN, we 
know that the days of magnetic-stripe cards are numbered. Eventually, 
point of sale readers will move away from magnetic stripe, and we 
should start thinking now about what the next generation of EBT should 
look like. The current chip card technology we are rolling out here in 
the United States is twenty year old technology--far from cutting edge. 
The 2014 Farm Bill directed FNS to pilot online SNAP, which is a great 
step toward looking at the future. However, we need to look beyond 
online, and whether there is a place for EBT as a mobile payment as 
more people have access to smart phones. Or are there other solutions 
that would best serve our SNAP clients and maintain the efficiencies 
and ubiquity of SNAP?
Expanding SNAP Benefits Days of Distribution To More Evenly Allocate 
        Labor and Enhance Fresh Product Availability
    One area where states vary widely is how many days a month they 
distribute benefits. If a state only distributes benefits 1 to 3 days a 
month, it can create several operational challenges for retailers. This 
was particularly evident during the upswing in participation in 2008 
and 2009.
    First, it is important to clarify a bit on SNAP recipient 
concentration. At the end of 2015, about fourteen percent of Americans 
were receiving SNAP benefits. However, that does not reflect fourteen 
percent of the shoppers in every store. As you know, poverty and food 
insecurity tends to be higher concentrated in some communities. We have 
many stores across the country that have a very low SNAP population and 
we have others with SNAP penetrations significantly higher than 14%.
    The grocery industry is a very high volume business; we sell 
millions of food items every day. Our shelves are constantly being 
restocked, and we work very hard to keep checkout lines short and 
moving quickly. Serving large populations of customers on 1 or 2 days 
each month raises significant challenges, from keeping our shelves 
stocked and checkout lines moving to scheduling associates.
    We appreciated the Agriculture Committee including language in the 
2014 Farm Bill encouraging states to spread days of benefit 
distribution throughout the month and we will continue to work with 
states that currently do not to expand the days of distribution.
    Another option to consider is staggering SNAP benefits twice a 
month rather than once. Currently, SNAP recipient benefits are loaded 
once a month.
    I have attached a helpful chart that shows when each state 
currently distributes benefits to the end of my testimony.
Relationship with FNS
    As the private partner serving the SNAP customer, it is essential 
the grocers have a close working relationship with USDA's Food and 
Nutrition Service (FNS). This was incredibly essential as we migrated 
to EBT for weather and or other disruptions because each of our 3,600 
stores was required to work directly with their state agency. Those 
important relationships continue today.
    FNS has been a strong partner with the industry and is willing to 
consider our input during rulemaking and other activities. Currently, 
we are working with FNS implementing provisions from the 2014 Farm 
Bill. The Agency's proposed rule ``Enhancing Retailer Standards in the 
Supplemental Nutrition Program (SNAP)'' rule is open for public 
comment. The proposed rule codifies the farm bill language that 
increased the number and variety of staple foods a retailer must stock 
in order to be considered for a SNAP license. We worked with the 
Agriculture Committee as they drafted the language to find a workable 
compromise for all stakeholders. However, the proposed rule goes beyond 
that statutory direction and proposes to change both the definition of 
a ``retail food store'' and what qualifies as a ``staple food.'' One 
unintended consequence of this could be eliminating the convenience 
store option. In addition to our supermarket locations, Kroger operates 
784 convenience stores in the U.S. We strive to offer nutritious 
options for SNAP customers in those locations as well. In many 
communities, convenience stores are among the first and most frequently 
visited retail food option for customers.
    Kroger has been a longtime SNAP retailer and believes that SNAP 
shoppers should have a wide variety of foods to choose from. We 
appreciate the Agency's interest in ensuring retailer integrity in the 
program. We hope to work with the Agency to ensure the proposed rule 
does not have any unintended consequences and will work to further the 
goal of ensuring that only legitimate food retailers are licenses to 
accept SNAP.
    Another area we are focused on is state-contracted EBT processors. 
As part of the SNAP transaction, a state will contract with a processor 
to actually carry out that transaction. Unfortunately, fewer and fewer 
providers have contracted in that space, and we are now down to only 
two providers effectively splitting the state contracts between them. 
We need more competition in this space, with more than two processors 
bidding on these contracts. Last year, FNS released a request for 
information asking stakeholders for input on how to attract more 
players into the space. Attached to my testimony are the comments 
submitted by FMI.
    In addition, more processor providers would help ensure EBT 
reliability. When an EBT processor experiences an outage and the system 
goes down, we often do not know about it in the store until multiple 
SNAP transactions are declined. These outages can cause major 
disruptions in our stores. In addition to understandably upset 
shoppers, we see our lanes slow down and unpaid for baskets of 
groceries left behind. All of this can be very costly for our stores, 
and disrupt all of our shoppers, not only SNAP shoppers. We believe 
that the more competition in the payment processor space, the higher 
the level of reliability we will see from processors.
    On a similar note, we often rely on and work with FNS to keep us 
informed if a processor or a state is scheduling any kind of 
maintenance on their EBT systems that could cause disruptions in 
stores. Best practices dictate that any kind of maintenance, upgrade or 
change should happen at the slowest shopping times, such as on a Sunday 
at midnight. We rely on getting notices from FNS, the state or our 
processors when there is scheduled maintenance so we are prepared if 
there is a disruption. At times, vendors may schedule something during 
a busier time for us. We have worked with FNS to address these 
proposals and encourage them to move the maintenance to a more 
agreeable time.
Conclusion
    Thank you again for inviting me here today. I hope my remarks have 
made it clear that Kroger is committed to serving all customers, 
including our customers who utilize SNAP. We are always looking for 
opportunities to improve our operations and our customers' shopping 
experience. SNAP EBT has been a great success, bringing efficiencies, 
ubiquity and reliability to a program that so many Americans rely on to 
feed their families. As Congress looks toward the next farm bill, we 
hope the Committee will consider these successes and efficiencies as 
they debate changes to the program. We stand ready to work with the 
Committee to find additional improvements and future technology 
solutions to ensure we can meet all of our customers' needs.
                              Attachment 1

          State-by-State Monthly SNAP Benefit Issuance Schedule
------------------------------------------------------------------------
             State                 Day(s) of SNAP Benefit Distribution
------------------------------------------------------------------------
Alabama                         Previously, when a person was accepted
                                 into the SNAP program they were issued
                                 a case number. From this case number an
                                 issuance date was determined. This date
                                 ranged from the 4th of the month to the
                                 18th. The monthly issuance was
                                 transferred to the card on the first of
                                 the month, but not made available to
                                 the person until the issuance date. Any
                                 leftover balance carried on the card at
                                 the end of the month is rolled over to
                                 the following month.
                                In August 2013, the state expanded their
                                 distribution dates, moving from the 4th
                                 to the 18th of the month to the 4th
                                 through the 23rd of the month. To
                                 assist in the transition, recipients
                                 received \1/2\ of their benefit on
                                 their original date and \1/2\ on their
                                 new date in the month of August to
                                 transition.
Alaska **                       The main SNAP issuance is all on the
                                 first day of the month. Smaller
                                 supplemental issuances for new
                                 applicants and late re-certifications
                                 occur daily throughout the month.
Arizona                         SNAP benefits are distributed over the
                                 first 13 days of the month by the first
                                 letter of the recipients' last name.
                                 For example: last names that begin with
                                 A or B are distributed on the first day
                                 of the month; 2nd day of the month: C
                                 and D; etc. (Cash is distributed on the
                                 first day of the month for all.)
Arkansas                        Arkansans receive their benefits on
                                 these 8 days: 4th, 5th, 8th, 9th, 10th,
                                 11th, 12th or 13th of each month, based
                                 on the last number of their social
                                 security number.
California                      California is different in that each
                                 county distributes SNAP to those who
                                 qualify. The payments go out to all
                                 those who qualify between the 1-10 of
                                 the month. Others (i.e., new
                                 applicants) get paid throughout the
                                 month depending on when they were
                                 accepted.
Colorado                        Food Stamp benefits are distributed on
                                 the first 10 days of the month by the
                                 recipient's last digit of their social
                                 security number.
Connecticut                     SNAP benefits and cash are distributed
                                 on the first 3 days of the month, by
                                 the first letter of the recipient's
                                 last name. (A-F are available on the
                                 first; G-N on the second and O-Z are
                                 distributed on the third day of the
                                 month.)
Delaware                        Benefits are made available over 23
                                 days, beginning with the 2nd day of
                                 every month, based on the first letter
                                 of the client's last name.
Florida                         All SNAP recipients moved from a 15 day
                                 distribution to a 28 day distribution
                                 in April 2016. In March 2016, to assist
                                 in the new transition, benefits were
                                 ``split.'' Recipients received the
                                 first \1/2\ of their benefits on their
                                 ``old'' date and received the second \1/
                                 2\ of their monthly benefits on what
                                 will be their ``new'' date going
                                 forward. The ACCESS Florida system
                                 assigns benefit availability dates
                                 based on the case number recipients
                                 received when they became eligible for
                                 the SNAP program.
Georgia                         In September 2012, SNAP benefits in
                                 Georgia expanded from the 5th to the
                                 14th, and then finally to the current
                                 5th to 23rd of each month, distributed
                                 every other day.
Hawaii                          Benefits are made available on the 3rd
                                 and the 5th of every month, based on
                                 the first letter of the client's last
                                 name.
Idaho **                        Benefits are made available on the first
                                 day of every month. (Prior to August
                                 2009, benefits were distributed on 5
                                 consecutive days at the beginning of
                                 each month.) In 2014, H.B. 565 was
                                 enacted. The bill requires the state
                                 Department of Health and Welfare to
                                 issue SNAP benefits over the course of
                                 10 consecutive days within a month.
                                 Bonus money received from USDA will pay
                                 for the cost of the change.
                                Starting July 1, 2016, benefits will be
                                 distributed over the first 10 days of
                                 each month based on the last number of
                                 the birth year of the recipient; for
                                 example, a birthday of 8/25/64 would
                                 receive benefits on the 4th day of each
                                 month. In depth communications to
                                 recipients and stakeholders began in
                                 April 2016.
Illinois                        SNAP benefits are made available on
                                 these 12 days of the month: 1st, 3rd,
                                 4th, 7th, 8th, 10th, 11th, 14th, 17th,
                                 19th, 21st, and 23rd of every month,
                                 based on a combination of the type of
                                 case and the case name.
Indiana                         On January 1, 2014, the state
                                 implemented an expanded schedule for
                                 the distribution of benefits during the
                                 fifth through the twenty-third day of
                                 each month, to be issued every-other-
                                 day, based on the first letter of the
                                 recipient's last name. For example: A
                                 or B = benefits available on the 5th;
                                 first Letter of the Last Name is: C or
                                 D = benefits available on the 7th.
                                 Previously, benefits were made
                                 available on the first 10 calendar days
                                 each month. (TANF is issued on the
                                 first of the month.)
Iowa                            Benefits are made available over the
                                 first 10 calendar days of every month,
                                 based on the first letter of the
                                 client's last name.
Kansas                          Benefits are made available over the
                                 first 10 calendar days of every month,
                                 based on the first letter of the
                                 client's last name.
Kentucky                        Benefits are made available over the
                                 first 19 calendar days of every month,
                                 based on the last digit of the client's
                                 case number. This was recently expanded
                                 from the previous 10 day distribution.
Louisiana                       Benefits are made available between the
                                 1st and the 14th of every month, based
                                 on the last digit of the client's SSN.
                                 (Elderly and disabled benefits are made
                                 available between the 1st and the 4th
                                 of every month.)
Maine                           Benefits are available the 10th to the
                                 14th of every month based on the last
                                 digit of the recipient's birthday.
Maryland                        In January 2016, the distribution
                                 schedule was changed. Benefits are now
                                 distributed from the 4th to the 27th of
                                 every month, based on the first three
                                 letters of the client's last name.
                                 Previously, benefits were distributed
                                 from the 6th through the 15th of the
                                 month. This was accomplished through a
                                 5 month phase-in.
Massachusetts                   Distribution is based on the last digit
                                 of each recipient's social security
                                 number and distributed over the first
                                 14 days of the month.
Michigan                        In January 2011, SNAP moved from a 7 day
                                 distribution to the current
                                 distribution, which is from the 3rd to
                                 the 21st, distributed every-other-day,
                                 based on the last digit of the head of
                                 household's recipient identification
                                 number. For example, clients' numbers
                                 ending with 0 will receive food
                                 benefits on the 3rd of the month;
                                 numbers ending with 1, food benefits
                                 will be available on the 5th of the
                                 month.
Minnesota                       Benefits are staggered over 10 calendar
                                 days, beginning on the 4th through the
                                 13th of every month, without regard to
                                 weekends or holidays, based on the last
                                 digit of the client's case number.
Mississippi                     Benefits are made available from the 5th
                                 to the 19th (15 days) of every month,
                                 based on the last two digits of the
                                 client's case number. For example, 00-
                                 06 are available the 5th, 07-13 are
                                 available the 6th.
Missouri                        Benefits are made available over the
                                 first 22 days of every month, based on
                                 the client's birth month and last name.
Montana                         Benefits are distributed over 5 days by
                                 the last number of the recipient's case
                                 number, from the 2nd to the 6th of
                                 every month.
Nebraska                        Nebraska distributes food stamp benefits
                                 to individuals during the first 5
                                 calendar days of the month. The day of
                                 distribution is based on the last digit
                                 of the social security number.
Nevada **                       In Nevada, food stamp benefits are
                                 issued on the first day of each month.
New Hampshire **                New Hampshire benefits are available on
                                 the 5th of every month.
New Jersey                      The monthly SNAP allotment is available
                                 over the first 5 days of the month. The
                                 day is based on the number in the 7th
                                 position of their case number. Some of
                                 the cases still receive their benefits
                                 based on the assignment at the time the
                                 county was converted to EBT. In Warren
                                 County, all benefits are made available
                                 on the 1st of the month.
New Mexico                      Benefits are made available over 20 days
                                 every month, based on the last two
                                 digits of the SSN.
New York                        The process is twofold as follows: in
                                 New York City, recipients receive their
                                 SNAP benefits within the first 13
                                 business days of the month, according
                                 to the last digit of their case number,
                                 not including Sundays or holidays. The
                                 actual dates change from one month to
                                 the next, so NYC publishes a 6 month
                                 schedule showing the exact availability
                                 dates. The remainder of New York State:
                                 recipients receive their benefits
                                 within the first 9 days of the month,
                                 also according to the last digit of
                                 their case number, including Sundays
                                 and holidays.
North Carolina                  Effective July 2011, the state expanded
                                 its 10 day distribution schedule and
                                 are now available from the 3rd to the
                                 21st of every month, based on the last
                                 digit of the primary cardholder's
                                 Social Security Number.
North Dakota **                 Benefits are made available on the first
                                 day of every month.
Ohio                            In April 2014, Ohio expanded its SNAP
                                 distribution from the first 10 days of
                                 the month to the first 20 days of the
                                 month, staggered every 2 days. This
                                 only affected SNAP recipients who moved
                                 from one county to another; recipients
                                 who experienced a 1 day or more break
                                 in eligibility was because of a failure
                                 to take a required action; and, all new
                                 recipients. Recipients who were on SNAP
                                 before April 2014 did not see a change.
Oklahoma                        Benefits are made available from the 1st
                                 to the 10th of every month, based on
                                 the last digit of the client's SNAP
                                 case number.
Oregon                          SNAP is distributed on the first 9 days
                                 of the month as such: social security
                                 numbers ending with ``0'' or ``1''
                                 distribute on the 1st day of the month,
                                 numbers ending with a ``2'' are
                                 distributed on the 2nd day of the month
                                 and so on.
Pennsylvania                    Benefits are made available over the
                                 first 10 business days of every month
                                 based on the last digit of the client's
                                 case number.
Rhode Island **                 Benefits are made available on the first
                                 day of every month.
South Carolina                  In 2012, South Carolina expanded from a
                                 9 day to a 20 day issuance. Current
                                 recipients stayed within the 9 day
                                 distribution, but all new recipients
                                 were given a date that expanded into
                                 the 20 days.
South Dakota **                 Benefits are made available on the 10th
                                 day of every month.
Tennessee                       In October 2012, Tennessee expanded
                                 distribution from 10 to 20 days.
Texas                           Benefits are made available over the
                                 first 15 days of the month, based on
                                 the last digit of the client's SNAP
                                 case number.
Utah                            Benefits are made available on the 5th,
                                 11th, or 15th of every month, based on
                                 the first letter of the client's last
                                 name: A-G available on the 5th; H-O
                                 available on the 11th; P-Z available on
                                 the 15th.
Vermont **                      Vermont benefits are available on the
                                 first of every month.
Virginia                        Benefits are made available from the 1st
                                 to the 9th of every month, based on the
                                 last digits of the client's case
                                 number.
Washington                      Benefits are staggered over the first 10
                                 days of the month based on the last
                                 digit of the households' assistance
                                 unit number. Weekends and holidays do
                                 not affect the schedule.
West Virginia                   Benefits are made available over the
                                 first 9 days of every month, based on
                                 the first letter of the client's last
                                 name.
Wisconsin                       Benefits are made available over the
                                 first 15 days of every month, based on
                                 the eighth digit of the client's SSN.
Wyoming                         SNAP is distributed on the first 4 days
                                 of the month as such: last names
                                 beginning with ``A'' to ``D''
                                 distribute on the first day; last names
                                 beginning with ``E'' to ``K'' on the
                                 2nd day; ``L'' to ``R'' on the third
                                 and ``S'' to ``Z'' on the fourth.
------------------------------------------------------------------------
Current as of May 2016; Food Marketing Institute.
Notes:
 
  b ** States with asterisks are those that only distribute benefits on
  1 day a month. There
     are eight that still do so, although Idaho will soon be expanding.
  b There is no limit on the number of days for stagger. The only
  condition in regulation is
     that no single household's issuance should exceed 40 days between
  issuances.
  b Currently, benefit recipients may only be issued their benefits one
  time a month, or within
     40 days.

                              Attachment 2
September 8, 2014

  Audrey Rowe,
  Administrator,
  Food and Nutrition Service,
  Department of Agriculture,
  Alexandria, VA

Docket No: FNS-2014-0030; Federal Register 45175

RE: Request for Information: Supplemental Nutrition Assistance Program 
            (SNAP); Retailer Transaction Data

    Dear Administrator Rowe:

    On Monday, August 4, 2014, the United States Department of 
Agriculture (``USDA''), Food and Nutrition Service (``FNS'') published 
a Request for Information (``RFI''): Supplemental Nutrition Assistance 
Program (``SNAP'' or ``the Program''); Retailer Transaction Data in the 
Federal Register.\1\ The RFI is being issued in response to a decision 
by the U.S. Court of Appeals for the Eighth Circuit,\2\ which held that 
annual SNAP retailer redemption data did not fall within the 
withholding exemption under the Freedom of Information Act (``FOIA'') 
and therefore must be disclosed unless it qualifies for another FOIA 
exception. FNS recognizes that despite the court's decision the agency 
must also consider whether this redemption data constitutes 
confidential business information.
---------------------------------------------------------------------------
    \1\ 79 Fed. Reg. 45175 (August 4, 2014).
    \2\ Argus Leader Media v. U.S. Department of Agriculture, 740 F.3d 
1172 (8th Cir. 2014).
---------------------------------------------------------------------------
    FMI appreciates the opportunity to comment on this important 
matter.
    FMI proudly advocates on behalf of the food retail industry. FMI's 
U.S. members operate nearly 40,000 retail food stores and 25,000 
pharmacies, representing a combined annual sales volume of almost $770 
billion. Through programs in public affairs, food safety, research, 
education and industry relations, FMI offers resources and provides 
valuable benefits to more than 1,225 food retail and wholesale member 
companies in the United States and around the world. FMI membership 
covers the spectrum of diverse venues where food is sold, including 
single owner grocery stores, large multi-store supermarket chains and 
mixed retail stores. For more information, visit www.fmi.org and for 
information regarding the FMI foundation, visit www.fmifoundation.org.
Background
    Food retailers who participate in SNAP are required to submit 
annual applications, which are administered by FNS through its 
nationwide network of field offices. Any retailer that would like to 
accept SNAP benefits (EBT) must hold a valid permit and be licensed to 
participate in the Program. The submission of information is a 
mandatory pre-requisite for participation in SNAP. In 1978, FNS 
published a final rule affirming that the information furnished by food 
retailers was to remain confidential as required by section 9(c) of the 
Food Stamp Act (``The Act''). On February 2011, Argus Leader, a South 
Dakota newspaper submitted a FOIA request for all SNAP authorized 
retailer redemption data from 2005-2010. Relying on the 1978 rule, FNS 
denied the FOIA request prompting Argus Leader to challenge FNS' 
interpretation of the Act in a lawsuit. FNS' position was initially 
upheld in the district court but was overturned by the Eighth Circuit 
on appeal. The Eighth Circuit held that the requested information did 
not fall within the withholding contemplated by Section 9(c) of the Act 
and therefore the requested information was not exempt from disclosure 
under Exemption 3. The court did not address whether the information 
would be exempt from disclosure under another provision of FOIA, 
specifically whether SNAP redemption data would constitute confidential 
business information under Exemption 4.\3\
---------------------------------------------------------------------------
    \3\ 5 U.S.C. 552(b)(4).
---------------------------------------------------------------------------
The SNAP Program Is a Crucial Safety Net for Low-Income Participants
    The supermarket industry, which FMI represents, is proud to be a 
private sector partner with Federal and state governments in an 
effective, efficient way to reduce hunger and improve access to healthy 
food for our nation's poor. Serving 14% of the population, the SNAP 
program provides critical assistance to over 45 million people, almost 
\1/2\ of whom are children.\4\ FMI members provide innumerable goods 
and services under SNAP and the government relies heavily on retailers 
accepting SNAP benefits to provide food for low-income recipients 
across the country. A large number of FMI members were SNAP-authorized 
retailers from 2005 through 2010 and continue to support the program. 
In Fiscal Year 2013, supermarkets and superstores redeemed a 
significant portion of all SNAP benefits.\5\ FNS reports that in 2013, 
almost $76 billion in client benefits were redeemed in the 252,962 
participating stores, farmers markets, and others authorized retailers 
who accept SNAP. FMI members are an integral part of SNAP-authorized 
retailers, without whom the program would not run as effectively.
---------------------------------------------------------------------------
    \4\ ``Putting Healthy Food Within Reach'' USDA SNAP Report 2013.
    \5\ Id.
---------------------------------------------------------------------------
SNAP Retailer Redemption Data Should Not Be Disclosed Under FOIA 
        Exemption 4
    The Freedom of Information Act (FOIA) provides that any person has 
a right, enforceable in court, to obtain access to Federal agency 
records, except to the extent that such are protected from public 
disclosure by one of the nine exemptions prescribed in the Act. 
Exemption 4 under FOIA protects two distinct categories of information 
in Federal agency records: ``trade secrets and commercial or financial 
information obtained from a person [that is] privileged or 
confidential.'' \6\ In reviewing the legislative history of Exemption 
4, it is clear that the objective is to prohibit the public disclosure 
of confidential business information that would damage or disrupt a 
particular company or industry. Exemption 4 serves two very important 
interests: that of the government in efficient operation and the 
protection for those persons who submit financial or commercial data to 
government agencies from the competitive disadvantages which would 
result from its publication.\7\ ``The exemption affords protection to 
those submitters who are required to furnish financial information to 
the government by safeguarding them from the competitive disadvantages 
that could result from disclosure.'' \8\
---------------------------------------------------------------------------
    \6\ 5 U.S.C. 552(b)(4).
    \7\ Nat'l Parks & Conservation Ass'n v. Morton, 498 F.2d 765, 770, 
162 U.S. App. D.C. 223 (D.C. Cir. 1974).
    \8\ See Attorney General's Memorandum for Heads of All Federal 
Departments and Agencies Regarding the Freedom of Information Act (Oct. 
12, 2001), reprinted in FOIA Post (posted 10/15/01) (recognizing 
fundamental societal value of ``protecting sensitive business 
information'').
---------------------------------------------------------------------------
    There was vast discussion about the importance of protecting this 
type of information during the 1963 FOIA hearings. For example, during 
hearings on S. 1666,5 \9\ a representative from the treasury stated 
that ``we can see no reason for changing the ground rules of American 
business so that any person can force the government to reveal 
information which relates to the business activities of his 
competitor.'' A member of the subcommittee which conducted the hearings 
raised the issue again with respect to Small Business Administration 
loan applications: ``I am thinking of a situation, for example, where 
the company couldn't qualify for funds, and they have exposed their 
predicament to the world and it might give competitors unfair advantage 
to know their weak condition at that time. I wonder if there might be 
some cases where it might be in the public interest if all the facts 
about a company were not made public.'' \10\ In light of the context in 
which the exemption was drafted, it is clear that individual SNAP 
retailer redemption data is the precise type of highly sensitive sales 
and profit data the exemption seeks to protect.
---------------------------------------------------------------------------
    \9\ The text of this bill, as introduced, appears in Hearings on S. 
1666 Before the Subcomm. on Administrative Practice and Procedure of 
the Senate Comm. on the Judiciary, 88th Cong., 1st Sess. 1-2 (1964) 
(hereafter, 1963 Hearings).
    \10\ Id.
---------------------------------------------------------------------------
SNAP Redemption Data Is Commercial Information Obtained from a Person
    If information relates to business or trade, courts have little 
difficulty in considering it ``commercial or financial.'' \11\ The 
Court of Appeals for the District of Columbia Circuit has firmly held 
that these terms should be given their ``ordinary meanings'' and has 
specifically rejected the argument that the term ``commercial'' be 
confined to records that ``reveal basic commercial operations,'' 
holding instead that records are commercial so long as the submitter 
has a ``commercial interest'' in them.\12\ Individual SNAP redemption 
data constitutes commercial information because retailers have a 
commercial or financial interest in sales information which directly 
relates to their business.
---------------------------------------------------------------------------
    \11\ See, e.g., Dow Jones Co. v. FERC, 219 F.R.D. 167, 176 (C.D. 
Cal. 2002) (information relating ``to business decisions and practices 
regarding the sale of power, and the operation and maintenance'' of 
generators (quoting agency declaration).
    \12\ Pub. Citizen Health Research Group v. FDA, 704 F.2d 1280, 1290 
(D.C. Cir. 1983).
---------------------------------------------------------------------------
    For purposes of Exemption 4, the term ``person'' refers to 
individuals as well as to a wide range of entities, including 
corporations and state governments, who provide information to the 
government. Courts have further expanded the reach of Exemption 4 to 
explain that it is ``sufficiently broad to encompass financial and 
commercial information concerning a third party'' and protection is 
therefore available regardless of whether the information pertains 
directly to the commercial interests of the party that provided it--as 
is typically the case--or pertains to the commercial interests of 
another.\13\ Participating SNAP retailers clearly fall within the 
definition of a person, which includes individuals and corporations who 
provide confidential information to the government in applications and 
annual SNAP redemption data. Thus, whether or not individual store SNAP 
redemption data is submitted directly by a retailer or is done through 
third-party EBT transactions, retailers would still be considered a 
person for purposes of Exemption 4.
---------------------------------------------------------------------------
    \13\ Nat'l Parks & Conservation Ass'n v. Morton, 498 F.2d 765, 770, 
162 U.S. App. D.C. 223 (D.C. Cir. 1974).
---------------------------------------------------------------------------
Individual Store SNAP Retail Redemption Data Is Commercial Information
    The second requirement under Exemption 4 requires the information 
submitted to be of a commercial nature. Under this prong, the person 
submitting the information to the government must show that they 
actually face competition. The food retail industry is a fiercely 
competitive market and supermarkets face meaningful day-to-day 
competition with their competitors who offer similar goods and services 
both within and outside certain geographical areas. Current profit 
margins in the industry are approximately one percent,\14\ on average, 
and individual retailers are constantly trying to establish methods for 
increasing volume and sales to remain competitive. Intense competition 
over the past 2 decades in the U.S. food marketing system has spurred 
innovations and cost efficiencies.\15\ Consumers have access to a wider 
range of products, services, and store formats that appeal to their 
preferences for convenience and quality.\16\ The food retail industry 
is changing and has seen a recent shift from the traditional grocery 
store to other food retail formats. ``In response to an eroding market 
share, traditional grocers are expanding the number and types of 
product offerings, designing new store formats, and using innovative 
in-store technologies.'' \17\ ``Globalization has meant that domestic 
retailers face increasing competition from foreign retailers operating 
in the United States. As food companies strive to maintain market share 
in the domestic food economy, largely limited by population growth, 
consumers are the beneficiaries of this heightened competition through 
diverse product offerings, new and improved services, and competitive 
prices.'' \18\
---------------------------------------------------------------------------
    \14\ Food Retailing Industry Speaks, Food Marketing Institute, 
2013.
    \15\ Twenty Years of Competition Reshape the U.S. Food Marketing 
System, Stephen Martinez and Philip Kaufman, United State Department of 
Agriculture, Economic Research Service, April 1, 2008.
    \16\ Id.
    \17\ Id.
    \18\ Id.
---------------------------------------------------------------------------
Individual Store SNAP Retail Redemption Data Constitutes Confidential 
        Business Information
    The test for determining whether information is confidential has 
been adopted by the courts and is referred to as the National Parks 
test.\19\ Information is ``confidential'' under this prong if 
disclosure ``is likely . . . to cause substantial harm to the 
competitive position of the person from whom the information was 
obtained.'' \20\ Actual competitive harm need not be demonstrated for 
purposes of the competitive harm prong; rather, the evidence of 
``actual competition and a likelihood of substantial competitive 
injury'' is all that need be shown.\21\ As stated above, food retailers 
face significant competition with very slim margins. FMI believes that 
individual store SNAP redemption data constitutes confidential business 
information, which, if disclosed, would result in significant 
competitive harm to the food retail industry and should therefore be 
withheld under Exemption 4 of FOIA. Numerous types of competitive 
injury have been identified by the courts as properly cognizable under 
the competitive harm prong, including the harms generally caused by 
disclosure of: ``(1) detailed financial information, such as a 
company's assets, liabilities, and net worth; \22\ (2) a company's 
actual costs, break-even calculations, profits and profit rates; (3) 
data describing a company's workforce that would reveal labor costs, 
profit margins, and competitive vulnerability; \23\ (4) a company's 
selling prices, purchase activity and freight charges; and (5) \24\ 
market share, type of product, and volume of sales.'' \25\ These last 
two competitive harms would clearly result from the required disclosure 
of store level SNAP redemption data.
---------------------------------------------------------------------------
    \19\ Nat'l Parks & Conservation Ass'n v. Morton, 498 F.2d 765, 770, 
162 U.S. App. D.C. 223 (D.C. Cir. 1974).
    \20\ Id.
    \21\ See generally Public Citizen Health Research Group v. Food and 
Drug Admin., 704 F.2d 1280, 1291 n.30 (D.C. Cir. 1983).
    \22\ See, e.g., Nat'l Parks, 547 F.2d at 684.
    \23\ See, e.g., Westinghouse Elec. Corp. v. Schlesinger, 392 F. 
Supp. 1246, 1249 (E.D.Va. 1974), aff'd, 542 F.2d 1190 (4th Cir. 1976).
    \24\ Lion Raisins, 354 F.3d at 1081.
    \25\ Department of Justice Guide to the Freedom of Information Act 
(2008).
---------------------------------------------------------------------------
    The disclosure of individual store SNAP redemption data is 
proprietary information that could be used by supermarkets to analyze a 
competitor's current vulnerabilities, market share for SNAP 
participants and volume of sales that would result in significant harm 
to the competitive position of participating retailers. Disclosure 
would provide companies with valuable insights into the operational 
strengths and weaknesses of their competitors resulting in selective 
pricing, market concentration, expansion plans and possible take-over 
bids facilitated by knowledge of the financial information sought. 
Suppliers, contractors, labor unions and creditors too could use such 
information to bargain for higher prices, wages or interest rates, 
while the competitor's or suppliers unregulated information would not 
be similarly exposed.\26\
---------------------------------------------------------------------------
    \26\ Nat'l Parks & Conservation Ass'n v. Morton, 498 F.2d 765, 770, 
162 U.S. App. D.C. 223 (D.C. Cir. 1974).
---------------------------------------------------------------------------
    FMI notes that the information sought by the Argus Leader is not of 
the type that is disclosed through any other required public filings. 
For example, public companies are only required to disclose total sales 
figures for the entire company, not store level information. 10Ks and 
other financial filings do not disclose individual store sales, traffic 
numbers or store transactional information. Further, independent and 
non-public food retailers do not have to disclose overall or individual 
store sales at all. Disclosing SNAP redemption data for a non-public 
company would result in a significant departure from current practice 
and would provide competitors access to valuable, confidential sales 
data giving competitors a direct avenue into a private retailer's 
earnings. FMI members are similarly concerned that if the type of 
proprietary information sought is disclosed for a public company 
immediately prior to a quarterly filing with the SEC, investors and the 
public alike will use the valuable information to predict a company's 
earnings resulting in market changes and fluctuation in stock price.
    Additionally, if individual SNAP data is disclosed, retailers will 
have prized information on redemption data geographically that could 
prompt and inform a competitor's expansion strategy into new markets 
with a large number of SNAP recipients. For example, if a retailer 
discovers that their competitor redeems 60% of the total SNAP benefits 
in a particular area they could develop targeted marketing and business 
strategies to increase market share and convert current SNAP 
recipients. Further, our members are concerned that disclosure of 
individual store SNAP redemption data could have a chilling effect on 
participation in the program by those most in need. In fact, some 
retailers indicate that the competitive harm caused by disclosure would 
lead to their departure from SNAP entirely. A large number of 
withdrawing SNAP retailers will ultimately result in diminished access 
for SNAP recipients and consolidation of participating stores.
The Disclosure of Individual Retailer SNAP Redemption Data Would Be 
        Duplicative and Impose Unnecessary Costs in Government 
        Administration of the Program with Little Corresponding Benefit 
        to the Public
    FMI urges FNS to consider the important role our members play in 
providing essential nutrition benefits to low-income populations. 
Public disclosure of individual retail SNAP redemption information 
would result in significant competitive harm to FMI members. It would 
create challenging and unnecessary burdens in administration of the 
program and a potential reduction in the number of recipients and 
participating retailers while providing no additional savings or value 
to the program.
    FMI does not believe that disclosure of redemption data at the 
individual store level would improve the administration or enforcement 
of SNAP requirements. In the Act, Congress specifically limits 
disclosure of information received from applicants and participating 
SNAP retailers. USDA already publishes a state-by-state breakdown on 
the amount of benefits and percentage of authorized firms under SNAP. 
Additionally, existing USDA data breaks down reimbursement data by 
retailer type on an annual basis. There are 25 firm types, with 
classifications differentiated by sales volume, ratio of food sales, or 
whether firms specialize in one staple food group. Reporting and 
disclosing store level data on a monthly basis would significantly 
burden the administration of SNAP and would be an unfortunate use of 
such limited resources in administration and enforcement of the 
program.
    Disclosure would create an unprecedented and unreasonable public 
information request in violation of long standing practices and 
criteria under FOIA that is certain to influence FOIA requests for 
years to come. FMI SNAP retailers are already required to meet 
stringent and comprehensive standards set by USDA to become authorized 
and therefore eligible to participate in the Program. Qualification is 
rigorous and requires significant documentation that includes 
verification of tax returns and tax filings. Tax filings and individual 
sales data information by definition are: ``(4) trade secrets and 
commercial or financial information obtained from a person and 
privileged or confidential;'' as expressly exempted from public request 
at FOIA.\27\ We respectfully submit that the USDA's current policy of 
protecting the confidentiality of proprietary retailer financial 
information be maintained and, if needed, strengthened to clarify its 
policy in light of the Argus Leader litigation.
---------------------------------------------------------------------------
    \27\ 5 U.S.C. 552(b)(4).
---------------------------------------------------------------------------
    Similarly, FMI believes that Congress did not intend for SNAP 
redemption data to be public information under Section 9(c) of the Act. 
FMI agrees with FNS' interpretation and final rule codifying the 
interpretation that Section 9(c) prohibits the use or disclosure of 
``information furnished by firms, . . . including their redemption of 
coupons . . . except for purposes directly connected with the 
administration and enforcement of the Food Stamp Act and it's 
corresponding regulations.'' \28\
---------------------------------------------------------------------------
    \28\ 79 Fed. Reg. 45175.
---------------------------------------------------------------------------
Should Aggregated Annual SNAP Redemption Data at the Individual Store 
        Level be Released for Transparency Purposes?
    Transparency and public accountability are of the utmost importance 
for retailers and our customers. FMI members are responding by 
providing with increased access to information on food, nutrition and 
the products that they carry--one example being the industry's 
voluntary Facts Up Front initiative to provide key information via 
icons on the front of packaging. Transparency that improves the 
efficiency of the program or the availability of important attributes 
of a product like nutrients or allergens may have value to customers 
and taxpayers. However, FMI does not see how disclosure of individual 
store SNAP redemption data will result in greater transparency in SNAP 
administration or greater value to customers, agencies or retailers. As 
stated above, the disclosure of the information sought will result in 
greater costs and challenges for administering states without a 
corresponding benefit to the public. SNAP redemption data is already 
publicly available by retail sector, state and locality and the 
competitive harm that would result from disclosure strongly outweighs 
the potential for minimal benefit to the petitioner for use in a 
published story.
    FMI appreciates the opportunity to comment on this important 
matter. Please do not hesitate to contact me at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="02716063706c677142646f6b2c6d7065">[email&#160;protected]</a> or 
(202) 220-0614 if you have any questions.
            Sincerely,

Stephanie Barnes,
Regulatory Counsel.

    The Chairman. Thank you, Ms. Hanna. Mr. Wright, 5 minutes.

STATEMENT OF JIMMY WRIGHT, OWNER, WRIGHT'S MARKET, OPELIKA, AL; 
                 ON BEHALF OF NATIONAL GROCERS
                          ASSOCIATION

    Mr. Wright. Thank you, Congressman Rogers, for the kind 
introduction, and good morning, Mr. Chairman, Ranking Member 
Peterson, and Members of the Committee. My name is Jimmy 
Wright, and I am the owner of Wright's Market in Opelika, 
Alabama. It is an honor and privilege to be here with you 
today. I have been asked to testify today by the National 
Grocers Association on behalf of the independent supermarket 
community. The National Grocers Association is the national 
trade association representing the retailers and wholesalers 
that comprise the independent sector of the supermarket 
industry, including single full service supermarkets, such as 
Wright's Market, and multi-state regional chains. Wright's 
Market is a family-owned business. We are a full service, 
22,000\2\ supermarket, and have accepted SNAP as a form of 
tender essentially since the store opened. Six of our 30 
employees have worked at the store for over 20 years. We are 
very proud of our employees, and feel grateful that many chose 
to start and grow their careers at Wright's Market.
    Two years ago, in an effort to better serve our customers, 
we began a shuttle service we call Wright 2 You for those 
customers who are not able to get to the store due to the lack 
of transportation. In addition, as we speak, we are launching 
an online ordering and home delivery service for our customers. 
We want to help those where coming to the grocery store is no 
longer an option. In the future I hope to work to expand the 
online delivery service to the rural areas in the counties 
surrounding my store, and we need the support of USDA to help 
facilitate that work, especially in the area of technology. As 
Congressman Rogers mentioned, I am proud to work with Focused 
Community Strategies out of Atlanta, and in 2015 I worked with 
them to open the Carver Neighborhood Market in an area that was 
previously a food desert. Prior to the opening of Carver, the 
nearest supermarket was 3 miles away, a 3 hour round trip bus 
ride for many of the residents of the neighborhood.
    Thirty-seven percent of the retail sales at Wright's 
Market, and 25 percent of retail sales at Carver Neighborhood 
Market, are generated by customers using SNAP benefits. I 
believe it is an important program that helps families. Many 
SNAP customers in my store, especially elderly, struggle with 
the realization that they may need help, and enroll in the 
program. At Wright's Market we work to serve the SNAP customer 
with the same level of service and respect as we do anyone 
else. I know they do the same at Carver.
    Carver Neighborhood Market had a difficult time getting 
their SNAP license. To me, this represents a problem with how 
retailer applications are processed. This is a store that is 
servicing an economically depressed area in a food desert. 
Representatives from Carver had their SNAP application pending 
for 2 months without response from the USDA. NGA got involved 
in the process, and was able to help get the application 
approved after 3 additional weeks of processing time. I 
understand and appreciate that USDA does not, and should not, 
grant SNAP license to all businesses that request them, but I 
do believe that almost a 3 month wait time for approval, 
especially for a store opening in a food desert, is too long. I 
would encourage USDA to consider having a different application 
process for applicants moving to a food desert in order to 
expedite the process.
    It is also important for USDA to become more efficient in 
processing the applications for supermarket owners in good 
standing with the program who are opening additional store 
locations. NGA appreciates the work USDA is currently 
undertaking to make this process more efficient for those 
operators with over ten stores. I would ask them to also 
prioritize streamlining the process for those operators in good 
standing who own less than ten stores. In regards to the 
administration of the SNAP Program, in 2013 Alabama moved to a 
staggered SNAP benefit scheduled. Benefits were staggered over 
20 days of the month, rather than the previous 14 day period. 
Since these benefits were staggered, we can expect steady 
customer traffic throughout the month. Prior to this change, it 
was a challenge to keep items in stock when all recipients 
received their benefits on a shorter cycle.
    In the future, I would also ask that there be a focus on 
the elderly as it relates to SNAP benefits. As the generation 
of baby boomers becomes a larger percentage of our nation's 
elderly population, I am concerned for many of them in regards 
to the increasing cost of medicine, and having enough money for 
food. My wife is a physician, and she sees patients having to 
make a choice between food and medicine, as they cannot afford 
both. These citizens come from a generation where you did not 
ask for help. I would ask you all to look for a way to reach 
out to these people. Find a way to make the SNAP application 
process one that helps us take care of the people who have 
taken care of us. The SNAP Program, in my opinion, is one of 
the most important and efficient programs our nation offers. In 
our own business, it creates jobs. In our community, it helps 
those who are in need.
    In closing, I would encourage any of you who have questions 
about SNAP at the retailer level to visit an independent 
supermarket in your district. There are independent operators 
in every Congressional district, and visiting a store is a 
wonderful way to learn more about how the program works from a 
retailer perspective. I am grateful for the opportunity to 
testify here today, and I appreciate your oversight of the 
program, your service, and your leadership to our nation.
    [The prepared statement of Mr. Wright follows:]

 Prepared Statement of Jimmy Wright, Owner, Wright's Market, Opelika, 
             AL; on Behalf of National Grocers Association
    Good morning Mr. Chairman, Ranking Member Peterson, and Members of 
the Committee. My name is Jimmy Wright, and I am the owner of Wright's 
Market in Opelika, Alabama. It is an honor and a privilege to be here 
with you today.
    I have been asked to testify today by the National Grocers 
Association on behalf of the independent supermarket community. The 
National Grocers Association is the national trade association 
representing the retailers and wholesalers that comprise the 
independent sector of the supermarket industry, including single full 
service supermarkets such as Wright's Market, and multi-state regional 
chains. The independent supermarket industry is accountable for close 
to one percent of the nation's overall economy and responsible for 
generating $131 billion in sales, 944,000 jobs, $30 billion in wages, 
and $27 billion in taxes. Defined as a privately held, family owned, or 
employee owned business, independent supermarket operators run 
businesses of all formats and sizes, serving a wide range of customers 
in their local communities. Having often been in business for 
generations, independent grocers are dedicated to their customers, 
associates and communities.
    I have served as a member of the NGA Board of Directors since 2012. 
I also serve as the President of the Opelika Community Development 
Corporation, and have previously served on the Board of Directors for 
the Opelika Chamber of Commerce, East Alabama Services for the Elderly, 
and the Miracle League. My wife Susan, daughter Emily, and I are 
members of the First Baptist Church of Opelika.
    Wright's Market is a family owned business. My store originally 
opened as a small 2,100\2\ convenience store in 1973. I worked there 
as a student in high school, and purchased the store from my previous 
employer in 1997. My store has expanded over the years to its current 
size of 22,000\2\. We are a full service supermarket and have accepted 
SNAP as a form of tender essentially since the store opened. We have 32 
employees, 18 of which are full time. Six of our employees have worked 
at the store for over 20 years. We are very proud of our employees and 
feel grateful that many chose to start and grow their careers at 
Wright's Market. Our employees and our connection with the community 
make me proud to run this business. We regularly donate to community 
causes, not only financially, but also with time spent working with 
various organizations in our community to make Opelika a better city 
for all. Independent grocers are uniquely positioned to serve their 
communities, and I am grateful to have the opportunity to give back in 
many different ways to my hometown.
    Two years ago, in an effort to better serve our customers, we began 
a shuttle service we called ``Wright 2 U'' for those customers who were 
unable to get to the store due to lack of transportation. In addition, 
as we speak, we are launching an online ordering and home delivery 
service for our customers. We hope to use this program to reach those 
who are physically homebound. We want to help those where coming to the 
grocery store is no longer an option.
    In 2012, I formed a relationship with Focused Community Strategies 
(FCS), an Atlanta based nonprofit ministry that is working to 
revitalize a neighborhood in south Atlanta. In 2015, I worked with them 
to open the Carver Neighborhood Market in an area that was previously a 
food desert. FCS wanted to convert an old thrift store into a small 
grocery store. Prior to the opening of Carver Neighborhood Market, the 
nearest supermarket was 3 miles away. This short distance was often a 3 
hour round trip bus ride for many residents of the neighborhood. From 
the beginning, we knew we would struggle with supplying the store. 
Contracting with a traditional wholesaler wasn't going to be an option 
available to Carver since the projected sale volume of the store would 
be fairly low in comparison to a larger store, so I offered to serve as 
their supplier. I have one truck that travels between Opelika and 
Atlanta to deliver to Carver Market. With Wright's Market's buying 
volume, it allows Carver Market to offer products to the residents of 
the neighborhood at affordable prices. This helps solve the two biggest 
issues in the food deserts of America--accessibility and affordability.
    Thirty-seven point one percent of retail sales at Wright's Market 
and 25% of the retail sales at Carver Neighborhood Market are generated 
by customers using SNAP benefits. I believe it is an important program 
that helps families. From my perspective, for the most part, SNAP 
recipients are very efficient shoppers. They try to use the benefits 
allocated to them to purchase as much food as possible for their 
families. While we do hear stories about some who may take advantage of 
the program, that is, in our view, a very small portion of those who 
receive the benefits. Many SNAP customers in my store, especially the 
elderly, struggle with the realization that they need help and must 
enroll in the program. I believe that, overall, the program serves a 
great purpose for families, especially children and the elderly who are 
in need. At Wright's Market, we work to serve the SNAP customer with 
the same level of service and respect as we do anyone else. I know they 
do the same at Carver Neighborhood Market.
    Carver Neighborhood Market had a difficult time getting their SNAP 
license. To me, this represents a problem with how retailer 
applications are processed. This is a store that is servicing an 
economically depressed area in a food desert. Participation in the 
program was and is essential to Carver's success. Representatives from 
Carver had their SNAP application pending for 2 months without response 
from the USDA. NGA got involved in the process and was able to help get 
the application approved after about 3 additional weeks of processing 
time.
    I understand and appreciate that the USDA does not and should not 
grant SNAP licenses to all businesses that request them. But I do 
believe that an almost 3 month wait time for approval, especially for a 
store opening in a food desert, is too long. Carver was unable to open 
prior to receiving their license since so many members of the community 
they serve are SNAP recipients. I would encourage the USDA to consider 
having a different application process for applicants moving into a 
food desert in order to expedite that process. These business owners 
are working against many obstacles in order to open supermarkets in 
these under-serviced areas. I would like to see the USDA be a better 
partner in this regard.
    It is also important for the USDA to become more efficient in 
processing applications for supermarket owners in good standing with 
the program who are opening additional store locations. It seems 
inefficient to force those retailers who are in good standing to go 
through the same application process as those stores that are coming on 
the program for the first time. NGA has worked with stores that have 
been SNAP retailers for over 30 years without incident and still have 
to go through the same long application process when opening an 
additional location. NGA appreciates the work the USDA is currently 
undertaking to make this process more efficient for those operators 
with over ten stores, but would ask them to also prioritize 
streamlining this process for those operators in good standing who own 
less than ten stores. We would appreciate any improvements the USDA can 
make to ease this process in the future.
    With regards to the administration of the SNAP program, in 2013 
Alabama moved to a staggered SNAP benefit schedule. Benefits are 
staggered over 20 days of the month rather than the previous 14 day 
period. The first day benefits are issued is the 4th of each month and 
the last day is the 23rd. This has been a tremendously helpful change 
in policy for retailers. Since these benefits are staggered, we can 
expect steady customer traffic throughout the month. Prior to this 
change, it was a challenge to keep items in stock when all recipients 
received their benefits on a shorter cycle. I am appreciative that the 
Alabama Department of Human Resources has made this change.
    In addition, I can say that we did notice a decrease in 
participant's stories about people committing fraud in the program when 
it changed from paper stamps to an EBT card. We also saw a huge 
increase in efficiencies at the store level. I no longer have to have a 
member of our team stamp the paper vouchers and physically take them to 
the bank to be reimbursed for those purchases. Having the system 
automated and integrated with our other electronic payments has made 
all the difference in helping improve the program for the participant 
and the retailer partner. With that said, I also believe strongly that 
any and all fraud in the program should not be tolerated, on either the 
retailer or participant level, and should be pursued aggressively by 
the USDA.
    In the future, I hope to work to expand our online delivery service 
to the rural areas in the counties surrounding my store. Many of these 
areas are without access to fresh foods and I believe we can solve that 
issue by making regular deliveries into those areas. I would appreciate 
the support of the USDA to help facilitate that work, especially in the 
area of technology. We need to be able to accept and process SNAP 
benefit cards on-site at customers' homes or in a central delivery 
location.
    In the future, I would also ask that there is a focus on the 
elderly as it relates to SNAP benefits. As the generation of Baby 
Boomers becomes a larger percentage of our nation's elderly population, 
I am concerned for many of them in regards to the increasing cost of 
medicine and having enough money for food. As I work in our community, 
I meet many elderly people who are struggling financially. My wife is a 
physician and she sees patients having to make a choice between food 
and medicine, as they cannot afford both. These citizens come from a 
generation where you did not ask for help. Many of them struggle with 
the fact that they are not able to care for themselves. These people 
have worked hard all their lives, paid their taxes, built our 
communities, served our country, and now find themselves struggling for 
the basic necessities of life. I would ask you all to look for a way to 
reach out to these people. Find a way to make the SNAP application 
process one that helps us take care of the people who have taken care 
of us.
    The SNAP program, in my opinion, is one of the most important and 
efficient programs our nation offers. In our own business, it creates 
jobs. In our community, it helps those who are in need. I appreciate 
your oversight of the program and your service and leadership of our 
nation.

    The Chairman. Thank you, Mr. Wright. Mr. Beech, 5 minutes.

STATEMENT OF DOUGLAS M. BEECH, J.D., LEGAL COUNSEL AND DIRECTOR 
                OF GOVERNMENT RELATIONS, CASEY'S
         GENERAL STORES, INC., ANKENY, IA; ON BEHALF OF
           NATIONAL ASSOCIATION OF CONVENIENCE STORES

    Mr. Beech. Chairman Conaway, Ranking Member Peterson, and 
Members of the Committee, thank you for giving me this 
opportunity to testify regarding the Supplemental Nutrition 
Assistance Program, or SNAP. My name is Doug Beech, and I am 
Legal Counsel and Director of Government Relations for Casey's 
General Stores. Headquartered in Iowa, Casey's has 1,931 stores 
spread throughout 14 midwestern states, and employs 
approximately 34,000 people. Casey's is a member of the 
National Association of Convenience Stores.
    Our stores are fixtures in local communities not only 
because of the products and services we provide, because of the 
employment opportunities we offer. Fifty-seven percent of our 
stores are located in towns of 5,000 people or less, so we 
serve rural America. Casey's is a proud participant of SNAP. 
Virtually all of our 1,931 stores participate in the program, 
and we process roughly 5.5 million SNAP transactions every 
year. Half of our stores are open 24 hours, 7 days a week so we 
can provide SNAP and non-SNAP customers with geographic 
convenience and extended hours in which to shop for food. In 
fact, approximately 220 of our stores are located in 
communities where we are the only business where SNAP 
recipients can redeem their benefits in the community, the only 
place they can get bread and milk.
    Unfortunately, on February 17, the Food and Nutrition 
Service proposed a new rule regarding SNAP retailer eligibility 
requirements that will push all of the Casey's stores, and tens 
of thousands of small retailers, out of SNAP. The proposed rule 
would change the definitions of staple foods that stores must 
carry in order to participate in SNAP. It would change the 
number of staple foods that stores must have on their shelves 
at all times in order to qualify for the program. And the rule 
would impose arbitrary disqualification from the program for 
all stores that sell too many heated foods. I will briefly 
explain the problems from this part of the rule.
    The rule makes changes to the definition of staple foods to 
exclude multiple food items, such as stews, soups, and frozen 
dinners, allowing them to be counted towards our stocking 
requirements. Large numbers of the basic items that stores of 
all kinds sell have multiple ingredients in them. These foods 
have been treated as staple foods for a long time, and American 
consumers are provided savings and convenience in food 
preparation. The proposal would require retailers to publicly 
display at all times at least six units of every one of seven 
single food ingredients, and varieties in four staple food 
categories, a total of 168 items to qualify for the program. 
Practically speaking, Casey's, and most convenience stores, 
will have to stock far more than 168 items to remain in 
compliance for the items we sell each week.
    Casey's stores are larger than average convenience stores, 
and have very limited storage space. It is our practice to only 
have two units of a particular item on a shelf at a given time. 
This is generally because we don't have room for more. We are 
limited by our distribution practices. We only deliver to our 
stores once a week, and use store-driven data to determine how 
many units of a particular item to deliver to each store in 
order to maximize sales, and minimize spoilage. This proposal 
will mean either the stores leave the program, or more food 
will spoil or be wasted before it can be sold, or both.
    In addition to the stocking requirements, the proposal's 
change to the definition of variety will cause problems. The 
new definition would say that two types of the same items, like 
two kinds of meats, are no longer varieties of staple food, but 
just one variety. For example, sliced ham and bacon would be 
one item. This dramatically changes the qualifications for SNAP 
retailers. To meet the variety requirements in the meat 
category alone, Casey's would have to stock items, like duck 
and lamb, that we don't stock today because they don't sell.
    On top of these problems, the proposal says that if a SNAP 
retailer has 15 percent or more of its total food sales in 
items that are cooked or heated before or after the purchase, 
the retailer would be automatically ineligible to participate 
in SNAP. That is true even if the heated foods are sold 
exclusively to all non-SNAP customers, or if the heated foods 
are sold by a separate business, like a fast food entity, that 
just happens to operate out of our space. This provision alone 
will knock out virtually all 1,931 of our stores from the 
program. Not only would this be a loss for our company, but it 
would be a loss for the customers that rely on our business.
    If a chain like Casey's can't meet this requirement, we 
believe that the whole industry won't. So we would ask that you 
keep eligibility for customers like us, and I hope that we 
don't make these changes. Thank you.
    [The prepared statement of Mr. Beech follows:]

    Prepared Statement of Douglas M. Beech, J.D., Legal Counsel and 
Director of Government Relations, Casey's General Stores, Inc., Ankeny, 
                                 IA; on
          Behalf of National Association of Convenience Stores
The Past, Present, Future of SNAP: Retailers Are Critical Partners in 
        Carrying Out the Program
    My name is Douglas M. Beech. I am the Legal Counsel and Director of 
Government Relations for Casey's General Stores, Inc. (``Casey's'') and 
I appreciate the opportunity to appear before you today to share my 
views regarding the Supplemental Nutrition Assistance Program (``SNAP'' 
or ``the Program'').
    I am testifying today on behalf of the National Association of 
Convenience Stores (``NACS''). NACS is an international trade 
association representing more than 2,200 retail and 1,800 supplier 
company members in the convenience and petroleum retailing industry. 
NACS member companies do business in nearly 50 countries worldwide, 
with the majority of members based in the United States. In 2015, the 
industry employed more than 2\1/2\ million workers and generated $574.8 
billion in total sales, representing approximately 3.2 percent of the 
United States' GDP--or $1 of every $30 spent. The majority of the 
industry's 154,000+ stores consist of small, independent operators. 
More than 70 percent of the industry is composed of companies that 
operate ten stores or fewer, and 63 percent of them operate a single 
store. While many people associate convenience stores with gasoline 
sales, in-store sales are becoming an increasingly significant portion 
of our business and account for \1/3\ of our industry's gross profit 
dollars.
    Casey's General Stores, Inc. is headquartered in Ankeny, Iowa. What 
started off as a small family run business has turned into a multi-
state chain with a total of 1,931 stores spread throughout Arkansas, 
Illinois, Indiana, Iowa, Kansas, Kentucky, Minnesota, Missouri, 
Nebraska, North Dakota, Oklahoma, South Dakota, Tennessee, and 
Wisconsin employing approximately 34,000 people. Our stores are 
important fixtures in local communities not only because of the 
products and services we provide but also because of the employment 
opportunities we offer. Fifty-seven percent of our stores are in towns 
of 5,000 people or less and 25 percent of our stores are in towns of 
5,000 to 20,000 people. Our stores are famous for selling not only 
traditional grocery items, but also pizza and other prepared foods. In 
fact, approximately 40 percent of our total food sales come from 
prepared food items. Casey's looks forward to continued growth. Over 
the last 5 fiscal years we have added 170 newly constructed sites and 
acquired 214 additional locations. In Fiscal Year 2016, Casey's hopes 
to build or acquire approximately 80 stores and complete 100 major 
store remodels. In February of this year, Casey's marked its continued 
growth by opening its second distribution center, located in Terre 
Haute, Indiana.
    Due to Casey's presence in rural towns and cities throughout the 
Midwest, we understand the important role convenience stores and other 
small format retailers play in providing food to low-income families 
through the Supplemental Nutrition Assistance Program (``SNAP'' or the 
``Program''). For this reason, Casey's is particularly concerned with 
the February 17th proposed rule put forth by the U.S. Department of 
Agriculture's (``USDA'') Food and Nutrition Service (``FNS'' or 
``Agency''). This proposed rule will alter the eligibility requirements 
that retailers must meet to participate in the Program, and would push 
all of our stores--and tens of thousands of other small format 
retailers--out of SNAP. Below, I offer more detailed comments about our 
role in the Program and the potential consequences of the proposed 
rule.
I. Casey's Is a Proud and Valuable Participant in SNAP
    Casey's stores have been participating in SNAP for over 30 years. 
Of our 1,931 stores, virtually all are authorized and do accept SNAP 
customers. In fact, Casey's stores process roughly 5.5 million SNAP 
transactions per year. Most of our licensing goes through the FNS 
office near the District of Columbia, and we have never had any 
problems with that process or working with FNS.
    Our stores, and convenience stores throughout the country, provide 
consumers with convenient locations and extended hours in which to shop 
for food. Approximately \1/2\ of our stores are open 24 hours per day, 
7 days a week--so we are always accessible for customers to come in to 
purchase food items they may need, whenever they need them. As 
mentioned above, a majority of Casey's stores are located in 
communities with a population of 5,000 or less, and many of these 
communities do not have larger format retailers like grocery stores in 
their town. While this can also be the case in urban communities, 
Casey's experience exemplifies the trend in rural communities. 
Convenience stores like Casey's are frequently the only source of many 
grocery items in these communities and the only location where SNAP 
recipients can redeem their benefits.
    By participating in the Program, our stores serve as an essential 
access point for SNAP recipients. We enable recipients to purchase a 
wide variety of foods that Congress has determined may be purchased 
with SNAP benefits. Casey's has determined that up to 220 of our stores 
are the only location in the community where SNAP recipients can redeem 
their benefits and in many other communities we are the only location 
to use SNAP benefits after a late work shift ends or before one begins. 
Accordingly, having Casey's in the Program saves many SNAP recipients' 
time and resources by not having to travel outside their home community 
to pick up such items as bread and milk.
    In addition, Casey's works hard to ensure the integrity of the 
Program. As a sophisticated SNAP participant, Casey's utilizes a modern 
point of sale system, which differentiates between almost 2,900 SNAP-
eligible products we sell and our SNAP-ineligible products at the 
checkout, to ensure that only permissible products are purchased with 
SNAP benefits. Every day, Casey's stores and employees strive to make 
the shopping experience of all its customers, including a significant 
number of SNAP beneficiaries, efficient and pleasant. Although Casey's 
hopes that one day no Americans will be food-insecure and SNAP will 
become obsolete, until that day comes, we hope to remain an active 
participant in SNAP in order to provide important food access to 
thousands of citizens who need it.
II. FNS' Retailer Eligibility Proposed Rule Will Push Almost All of Our 
        Stores Out of SNAP
    On February 17, 2016, USDA's FNS issued a proposed rule that would 
significantly modify retailer eligibility requirements in SNAP. The 
proposal is intended to implement updated ``Depth of Stock'' 
requirements contained in the Agriculture Act of 2014, commonly known 
as the 2014 Farm Bill.
    As this Committee is well-aware, during negotiations over the 2014 
Farm Bill, Congress recognized the important role that small format 
retailers play in SNAP, particularly their role as access points for 
SNAP beneficiaries. After extensive negotiations between lawmakers and 
stakeholders, Congress adopted changes to the so-called ``depth of 
stock'' requirements--the requirements that address the amount and 
variety of food a retailer must have in stock to participate in SNAP as 
a retail food store. By enacting these provisions, Congress sought to 
increase choices for SNAP beneficiaries while ensuring that those 
enhanced depth of stock requirements were not unduly burdensome for 
retailers. Congress recognized that unduly burdensome eligibility 
requirements would hurt small businesses and result in restricted 
access for SNAP beneficiaries. NACS--and Casey's--supported this 
compromise and supported the final 2014 Farm Bill.
    The proposed rule would codify the updated depth of stock 
requirements as contained in the 2014 Farm Bill. These provisions, 
which were based on the existing definitions of staple foods, require 
retailers to offer at least seven different varieties of food items in 
each of the four staple food categories, including one perishable item 
in three of those categories. This was the compromise reached by 
Congress and broadly supported as a way to increase nutritional choices 
for SNAP recipients without overburdening small retailers. However, FNS 
went far beyond Congressional intent in its proposed rule and included 
several additional provisions that will push Casey's stores and tens of 
thousands of other small format retailers out of the Program.
    Under the proposal, the definition of a retail food store is 
modified to exclude any retail outlet with more than 15% of its total 
food sales in items that are ``cooked or heated on site before or after 
purchase.'' This measure applies to all food sales--not just SNAP food 
sales. And, this exclusion applies even to separate companies doing 
business under the same roof, such as a Subway or other fast food 
franchise that has a point of sale in the same building as a 
convenience store. If two food businesses operate under the same roof, 
FNS will consider their total food sales jointly to determine whether 
that 15 percent threshold is met. Unlike other convenience stores where 
they may have a separate food franchise doing business under the same 
roof, Casey's prepared foods are sold in our store along with our 
traditional grocery items. Nevertheless, this provision alone would 
disqualify virtually all of Casey's stores from participating in SNAP. 
Even though SNAP recipients cannot redeem their benefits on hot foods, 
this provision would penalize us for meeting our non-SNAP customers' 
desire for prepared foods.
    Frankly, what foods we sell to non-SNAP customers should not be 
FNS' concern. They don't regulate those sales and those customers would 
be offended to know that FNS wants to penalize them (and us) for buying 
prepared food in our stores. And make no mistake; this would penalize 
all our customers, not just SNAP customers. If you take away our SNAP 
customers, that reduces our business and changes our economic model. 
That can mean fewer stores and jobs in many small towns. To make those 
negative changes based on sales that the Federal Government has nothing 
to do with makes no sense.
    In addition to this 15 percent prepared foods threshold, the 
proposed rule makes several significant changes to the stocking 
requirements that would make it very difficult for Casey's stores or 
any other small stores to continue to participate in SNAP. For example, 
the proposed rule would alter the definition of ``staple foods'' to 
exclude multiple ingredient items--such as soups, stews, and frozen 
dinners--from being counted towards depth of stock requirements. While 
these foods would remain acceptable items for participants to purchase 
with their SNAP benefits, they have long been treated as staple foods. 
For many families, of course, these are staple foods. Have you ever 
prepared a frozen meal for yourself or your family? Have you made them 
a can of soup? FNS is now trying to tell you that isn't good enough. We 
all know these are foods we eat and families around the country eat 
them. There is absolutely nothing wrong with that.
    And, there is nothing inherently healthier about single ingredient 
foods--like a bag of flour--than multiple ingredient foods. Yogurt with 
fruit, packaged salads, mixed vegetables, fruit salads, and many more 
are multiple ingredient items. The fact that more than one thing is in 
there does not make those items less healthy, but it can make it easier 
for someone to turn them into a meal. Perhaps FNS would like a world in 
which SNAP beneficiaries could spend all day preparing meals from 
scratch for their families. But that is not the world in which 
Americans live today--whether they participate in SNAP or not. American 
families want convenient foods that are easy to prepare. Casey's and 
other convenience stores provide those foods.
    A large percentage of the traditional grocery items that Casey's 
stores stock are multiple ingredient items. A change in the definition 
of ``staple foods'' to exclude these items from the depth of stock 
requirements only serves to make it more difficult for Casey's and 
other small format retailers to participate in the Program.
    If this were not enough, FNS also proposes to require retailers to 
publicly display at least six stocking units for each of the seven 
single-ingredient food varieties in all four staple food categories, a 
total of 168 items, to qualify for the program. In reality, a retailer 
must stock far more than these 168 items since the retailer would need 
to replace any item that is purchased in order to remain in compliance 
with the regulations. As a practical matter, Casey's--and most 
convenience stores--will have difficulty complying with this 
requirement. In fact, many larger stores such as groceries have times 
when they run low on particular foods before they get their next 
delivery. Should those difficulties, including at times when there is 
unusually high demand for particular foods, disqualify stores from 
SNAP?
    On average, Casey's stores are between 2,500\2\ and 4,000\2\, and 
there is limited storage space outside of the store floor. With this in 
mind, it is our practice to store approximately two units of a 
particular item on a shelf at any given time. Frankly, we don't have 
room to put six of every SNAP required item on a shelf. We don't tend 
to do that even for some of our fastest-selling items. There just isn't 
enough space. And, we're among the largest stores in our industry. I 
believe it would be extremely difficult for any convenience store, and 
even small grocers, to ensure that it stocks 168 of exactly the right 
combination of staple items at all times.
    Even though we are a vertically integrated company and self-supply 
and distribute, our distribution practices conform to industry 
averages--and our stores only get deliveries one time per week. We use 
store-driven data to determine how many units of a particular item to 
deliver to each store each week in order to maximize sales and minimize 
spoilage. We will not be able to deliver and stock extra items solely 
for the purpose of meeting the SNAP stocking requirements, particularly 
in light of the proposed definition of ``variety,'' which does not 
reflect economic reality or American eating habits. And, because many 
of these products will need to be perishable, we would need to stock so 
many items to make up for the ones we sold before the next delivery 
that we would end up spoiling and wasting a lot of food.
    In addition, FNS has proposed to change the meaning of the term 
``variety'' in a way that will make it even more difficult for small 
format retailers to meet the depth of stock requirements. FNS' rule 
says that two different varieties of a food will no longer count as two 
different varieties of staple foods. For example, two meats from the 
same animal--sliced ham and bacon or roast beef and ground beef--would 
no longer count as different ``varieties'' for retailer eligibility 
requirements. This is absurd and fundamentally changes the way the 
Program has always worked. In order to meet the requirements for 
variety in the ``meat, poultry, or fish'' category, for example, FNS 
has listed duck, catfish, shrimp, lamb, and tofu as acceptable variety 
options. Without listing those types of items, it's hard to see how a 
retailer could stock seven different varieties in the meat group with 
FNS' odd, new definition. Casey's--and many of the supermarkets in the 
state we operate--doesn't stock lamb, duck or tofu today, because such 
items do not sell. If we have to stock those items, we will be forced 
to cede shelf space to those items at the expense of better selling 
items. This applies to all of the staple food categories. Having two 
varieties of hard cheeses, for example, no longer will count as two 
varieties of staple foods. Having two varieties of bread from the same 
type of flour--such as sliced white bread and hamburger rolls--will no 
longer count as two varieties of staple foods. The list of absurdities 
grows with every example.
    If FNS has to count tofu as a staple meat in our stores in Iowa to 
try to make its new rules sound plausible, that is a good indication 
that something is seriously wrong. Trying to comply with this odd 
change of definitions will mean huge losses of sales of more popular 
items and significant spoilage costs as FNS' favored foods go bad on 
our shelves.
    To summarize, under FNS' ill-advised proposed rule, Casey's will be 
required to stock at least six stocking units of seven single-
ingredient varieties of staple foods in each of the four staple food 
categories, including one perishable item in at least three of the 
categories--an unwieldy task. In proposing these requirements, FNS went 
far beyond the compromise reached by Congress, and the end result will 
be the elimination of tens of thousands of convenience stores from the 
Program. This includes the elimination of all Casey's stores as SNAP 
retailers. If a larger sophisticated chain like Casey's will not be 
able to comply with this proposal, I find it hard to believe that any 
single-store operators or small chains could.
    While the loss of Casey's participation in SNAP would be 
unfortunate for our company, more importantly, it would be detrimental 
to SNAP recipients who rely on our stores to redeem their benefits. It 
will be these recipients who face increased travel and convenience 
burdens, and possibly the complete loss of access to the food they 
need. Our company located stores in smaller communities for a reason--
because we knew those communities needed a retail food store. Since 
then, we have gotten to know our customers and truly become a fixture 
in those communities. It is disheartening to consider the potential 
effects of FNS' proposed rule on those communities and the low-income 
Americans who are seeking to provide food for their families.
    In the 2014 Farm Bill, Congress properly balanced the need to 
increase food choices for SNAP recipients while ensuring small format 
retailers could participate as SNAP retailers. FNS has gone far beyond 
the compromise made by Congress and is endangering the Program and the 
people who rely on it for their food.

    The Chairman. Thank you, Mr. Beech. Mr. Martincich?

STATEMENT OF CARL MARTINCICH, VICE PRESIDENT OF HUMAN RESOURCES 
AND GOVERNMENT AFFAIRS, LOVE'S TRAVEL STOPS AND COUNTRY STORES, 
 OKLAHOMA CITY, OK; ON BEHALF OF NATIONAL ASSOCIATION OF TRUCK 
STOP OPERATORS (NATSO) REPRESENTING AMERICA'S TRAVEL PLAZAS AND 
                           TRUCKSTOPS

    Mr. Martincich. Good morning, Chairman Conaway, Ranking 
Member Peterson, and Members of the Committee. I am Carl 
Martincich, the Vice President of Human Resources and 
Government Affairs with Love's Travel Stops and Country Stores, 
headquartered in Oklahoma City. I am honored to testify today 
on behalf of the National Association of Truck Stop Operators, 
but I am also here representing our customers. It is important 
to begin by discussing the business model under which 
truckstops operate, as well as the vital and growing role that 
we play in the SNAP Program.
    Our industry is diverse and evolving. Every location 
includes multiple profit centers, from fuel sales and auto 
repair and supply shops, to hotels, sit down restaurants, quick 
service restaurants, food courts, and convenience stores. Truck 
stops that once tailored exclusively to truck drivers now cater 
to the entire traveling public, and the local populations that 
live in close proximity to the travel center location.
    Many NATSO members' convenience stores redeem SNAP 
benefits. Because we are typically located in rural areas with 
few other places for disadvantaged residents to purchase food, 
SNAP consumers often rely on our stores. If we did not 
participate in SNAP, many program beneficiaries would be forced 
to travel long distances to purchase eligible products. This 
would be not only inconvenient, but for many of our customers, 
virtually impossible, as many SNAP recipients do not have a 
reliable means of transportation.
    Our experience with SNAP today is excellent. There are very 
few administrative complexities or glitches, and USDA staff is 
professional and helpful. By the end of this year, my company 
will have over 400 locations in 40 states to redeem SNAP. When 
it comes to providing healthy food options, we have always been 
on the cutting edge of the industry. Today we offer a wide 
variety of fresh, healthy food items. We do this because our 
customers demand it, and we respond to our customers.
    However, as a staunch supporter of our customers, and the 
SNAP Program, Love's is extremely concerned with the USDA's 
recently proposed SNAP rule, which is completely incompatible 
with our business model. For example, it includes a provision 
stipulating that no more than 15 percent of a SNAP retailer's 
total food sales can be for items that are cooked or heated on-
site. A fundamental feature of travel plazas is that we have 
both convenience stores and restaurants at one location, open 
24 hours a day. This is integral to our business model.
    Only the convenience stores at our travel plazas redeem 
SNAP benefits. Our restaurants do not. Nonetheless, the 
proposed rule would combine food sales across all of these 
different food serving entities, and impose a 15 percent cap on 
food sales for items cooked or heated on site. Virtually no 
truckstop would satisfy this criteria. This would not further 
the program's purpose to provide access to healthy food choices 
for the nation's most vulnerable citizens. In fact, it 
threatens the achievement of this purpose by permitting USDA to 
make arbitrary decisions, denying qualified retailers' 
applications. This, in turn, denies SNAP customers a convenient 
source for food.
    If one of our convenience stores is eligible to participate 
in SNAP based on USDA's guidelines, it should not be rendered 
ineligible simply because we also operate a restaurant adjacent 
to that store. In addition, the proposed rule contains a number 
of provisions revising SNAP's depth of stock requirements. 
Among other things, it imposes a 14-fold increase in the number 
of items retailers must stock in order to participate. These 
provisions are unworkable for small format retailers. USDA's 
proposed rule should be revised substantially before it is 
finalized.
    In closing, I urge the Department of Agriculture and 
Members of this Committee to evaluate retailer eligibility from 
the beneficiaries' perspective. Beneficiaries are often in a 
position where balancing life's demands require them to prefer 
affordable, quick, and easy meals for the families to eat. We 
should not turn this into a luxury unavailable to the SNAP 
recipients who live in the rural areas near our locations. 
Indeed, it is a situation that everybody, from the witnesses 
testifying before you today, to the Members of this Committee, 
officials at USDA, members of my own family often confront. Let 
us not lose sight of the fact that the SNAP Program is designed 
to make the lives of America's most economically vulnerable 
citizens easier, rather than harder. I am hopeful that the 
travel plaza industry can continue serving these customers, and 
playing our part in fulfilling this purpose for many years to 
come. Thank you for the opportunity to testify today. I am 
happy to answer any questions as well.
    [The prepared statement of Mr. Beech follows:]

     Prepared Statement of Carl Martincich, Vice President of Human
   Resources and Government Affairs, Love's Travel Stops and Country 
 Stores, Oklahoma City, OK; on Behalf of National Association of Truck 
    Stop Operators (NATSO) Representing America's Travel Plazas and
                               Truckstops
Summary of Testimony
  1.  The travel plaza and truckstop business is a diverse and evolving 
            industry. Every travel plaza and truckstop includes 
            multiple profit centers, catering to not only professional 
            truck drivers, but to the entire traveling public, as well 
            as the local population that lives in close proximity to a 
            travel center location.

  2.  The travel plaza industry plays a vital and growing role in the 
            Supplemental Nutrition Assistance Program (SNAP). Many 
            NATSO members' convenience stores redeem SNAP benefits. 
            These stores are often located in rural areas with few 
            other places for local, economically disadvantaged 
            residents to purchase food. Such residents often rely on 
            NATSO members' stores. If these stores did not participate 
            in SNAP, many SNAP beneficiaries would be forced to travel 
            long distances to purchase SNAP-eligible products.

  3.  Although Love's' initial experience with the Food Stamp program 
            at the beginning of the last decade was not favorable, most 
            of those issues have been resolved. Today, our experience 
            with SNAP is excellent. There are very few administrative 
            complexities or glitches, and USDA staff is professional 
            and helpful. Some potential areas for improvement include 
            allowing retail sites to test SNAP point-of-sale equipment 
            before it goes live, and providing a self-serve mechanism 
            inside the store for beneficiaries to check their account 
            balances prior to making purchasing decisions.

  4.  Love's has always been on the cutting edge of the industry when 
            it comes to providing healthier food options for the 
            consumer. We are driven by consumer demand, and have 
            responded to our customers' evolving demands for healthy 
            food items in a variety of ways. One example is our grab-
            and-go fresh fruit program, where we display a variety of 
            fresh fruits (apples, bananas, fruit cups, etc.) in a high 
            value, high visibility area near the cashier stand.

  5.  Love's is extremely concerned with a recent proposed rule issued 
            by the USDA. The proposal would effectively ban the 
            truckstop and travel plaza industry from continuing to 
            redeem SNAP benefits, harming not only these businesses but 
            more importantly the beneficiaries who have come to rely on 
            them to buy food for their families. Because recipients in 
            these areas often have limited or no transportation to get 
            to a qualified store, reducing the number of redemption 
            points in this manner would leave them with even fewer 
            options. USDA and the Members of this Committee should 
            consider the beneficiary's perspective as it considers 
            retailer eligibility policy. The USDA's proposed rule 
            should be revised substantially before it is finalized.
Introduction
    Chairman Conaway, Ranking Member Peterson, and Members of the 
Committee, thank you for the opportunity to testify today. My name is 
Carl Martincich. I am the Vice President of Human Resources and 
Government Affairs at Love's Travel Stops and Country Stores 
headquartered in Oklahoma City, Oklahoma.\1\ I am testifying today on 
behalf of NATSO, the national trade association Representing America's 
Travel Plazas and Truckstops.\2\
---------------------------------------------------------------------------
    \1\ Founded in 1964 and headquartered in Oklahoma City, Love's 
Travel Stops & Country Stores and its affiliated companies have over 
15,000 employees, 370 retail locations in 40 states, 230 truck tire 
care facilities, 700 fuel transport trucks, 1,000 rail cars, seven fuel 
terminals, and five hotels throughout the United States. Love's is one 
of the largest food service operators in the country, owning and 
operating hundreds of quick service restaurants and over twenty popular 
brands. Love's is currently No. 14 on the Forbes list of America's 
largest private companies. Love's is a family-owned business, and 
includes Executive Chairman Tom Love, Co-CEO Frank Love, Co-CEO Greg 
Love and Vice President of Communications Jenny Love Meyer.
    Carl Martincich is the Vice President of Human Resources and 
Government Affairs for Love's Travel Stops & Country Stores. He is 
responsible for all human resource functions including recruiting, 
training, payroll and benefits. Carl is also responsible for the 
direction of various government affairs initiatives at both the state 
and Federal level. Carl joined Love's in 1982, beginning his career in 
store operations managing a single convenience store and then 
progressed to multi-unit supervision directing 60 stores in five 
states. He moved into the corporate office in the mid 1990's and has 
been in his current position since 2011.
    \2\ NATSO's mission is to advance the success of the truckstop and 
travel plaza industry. Since 1960, NATSO has dedicated itself to this 
mission and the needs of truckstops, travel plazas, their suppliers, 
and their customers by serving as America's official source of 
information on the industry. NATSO also acts as the voice of the 
industry on Capitol Hill and before regulatory agencies.
---------------------------------------------------------------------------
    The travel plaza and truckstop business is a diverse and evolving 
industry. Every travel plaza and truckstop location includes multiple 
profit centers, from motor fuel sales and auto-repair and supply shops, 
to hotels, sit-down restaurants, quick-service restaurants and food 
courts, and convenience stores. It is an evolving industry that once 
was tailored solely to truck drivers, and now caters to the entire 
traveling public, as well as the local population that lives in close 
proximity to a travel center location.
    Convenience stores located at travel plazas are increasingly 
offering fresh food and meals for our customers to purchase and eat at 
home. Healthy food options have increased significantly in the industry 
as customer demands have continued to evolve. As an industry that 
prides itself on recognizing and adapting to our customers' needs, we 
realize that often times we are the most convenient place for the local 
population to shop for food. The industry has responded, and hopes to 
continue to grow in the fresh and prepared food space.
    The travel plaza industry plays a vital and growing role in the 
Supplemental Nutrition Assistance Program (SNAP). Many NATSO members' 
convenience stores redeem SNAP benefits. These stores are often located 
in rural areas with few other places for local, economically 
disadvantaged residents to purchase food. Such residents often rely on 
NATSO members' stores. If these stores did not participate in SNAP, 
many SNAP beneficiaries would be forced to travel long distances to 
purchase SNAP-eligible products. This would be not only inconvenient, 
but for many of our customers virtually impossible as they might only 
be able to shop at a store within walking distance of their home. Many 
SNAP recipients do not have access to means of transportation.
    In the testimony that follows, I will provide a brief overview of 
Love's' experience with SNAP, as well as a brief discussion of how the 
government could harness the travel plaza industry to improve the 
program. I will also address Love's' effort to increase the amount of 
fresh healthy food items that we offer in our stores. I will conclude 
by discussing the proposed rule that the Department of Agriculture 
(USDA) recently released, and why it would effectively foreclose Love's 
and other travel plazas from continuing to play their important role in 
SNAP by providing food to rural America's most disadvantaged citizens 
as SNAP retailers.
Love's' History with SNAP
    Love's first participated in the Food Stamp program in the early 
2000's offering redemption of benefits primarily in rural areas of 
Oklahoma at approximately fifteen Love's Country Store locations. 
Participating in the Food Stamp program at that time was a very time-
consuming process for licensing, handling the coupons, and redemption. 
The licensing process in particular was extremely difficult and 
laborious for adding and qualifying new stores. The certification and 
training process was inefficient as store management had to travel to a 
central training location, sometimes over 100 miles away. The Food 
Stamp coupons were handled manually at the register like cash and the 
reimbursement to the retailer often took many weeks.
    In the middle part of the last decade, Love's briefly exited the 
SNAP program. We found that the laborious administrative costs did not 
justify an investment in the face of what was, at the time, minimal 
consumer demand.
    In 2008 Love's began to reevaluate potential participation in the 
program. As the economy struggled, many more of our customers were 
qualifying for assistance and--particularly in rural areas--began 
asking for SNAP redemption at our stores.
    At the same time, technological advancements made our participation 
in the program easier. No longer did we have to travel many miles for 
training. The transaction complexities subsided and redemption lag 
times diminished exponentially. The licensing/authorization process 
became, and remains to this day, quite simple.
    Indeed, the current administration and application enrollment 
process for established vendors to install new SNAP redemption points 
of sale is de-centralized by region and handled efficiently through 
emails. Also, with the easy-to-use Electronic Benefit Transfer or 
``EBT'' card used for redeeming SNAP benefits, it reduces the instances 
of system breakdowns, problems and glitches.
    In 2010, after a thorough examination of the program changes and 
our customers' evolving needs, Love's made the business decision to 
requalify for (now-)SNAP redemption across our network. Today more than 
300 Love's Travel Stops and nearly 60 Love's Country Stores are 
certified SNAP redemption retailers. We expect this number to grow, as 
we continue to see high demand in rural, low-income communities where a 
Love's store may be the only redemption point for 20-30 miles.
Areas for Program Improvement
    It is worth reiterating that, as a general matter, our experience 
with SNAP has been positive and efficient. USDA staff have for the most 
part been easy to work with, and have done well working with Love's 
employees and the entire private-sector to facilitate widespread access 
to nutrition for America's low-income households. Love's is quite 
satisfied with our recent experience with the program and those 
individuals who are charged with administering it.
    In communicating with my colleagues who work with SNAP on a daily 
basis, several common suggestions for improvement arose, however.
    First, it would be helpful if there was a process for the retailer 
to test the system prior to activation, or ``going live.'' Once a 
location is certified there is no way of testing the system for 
accuracy until we run the first ``EBT'' card from a customer. This 
stands in contrast to most other technology systems we implement at the 
store level, which generally provide for numerous testing and 
verification opportunities.
    Second, we should have a mechanism in the store for customers to 
look up their EBT balance prior to making purchasing decisions. This 
could come in the form of a kiosk or other type of self-serve 
verification terminal. As it stands today, if the SNAP recipient does 
not have access to a computer there is no way for them to verify the 
balance on their ``EBT'' card until they get to the cash register. This 
may result in a negative interaction between the cashier and customer, 
where customers are informed, potentially with others standing within 
earshot, that they do not have sufficient funds to complete their 
purchase. This is not good for the customer, for Love's, or for the 
relationship between the two.
    One area where USDA has improved is the manner in which benefit 
payments to beneficiaries have been staggered throughout the month, 
rather than all beneficiaries receiving their benefits on the same day. 
Before, there was a consistent uptick in SNAP customers coming in soon 
after benefits were dispersed, creating store traffic and other 
complexities. Today, benefits are dispensed on a staggered basis. Every 
month, the ``EBT'' cards are re-allocated or loaded with the new 
month's benefits for the recipient. The re-allocation takes place from 
the 1st to the 10th of every month, based on the last four digits of 
the recipient's SNAP case number (example: 0-3 = 1st, 4-6 = 5th, 7-9 = 
10th of each month). Spreading out the re-allocation in this way 
eliminates an influx of recipients in our stores on the first of each 
month.
Love's Initiatives To Sell Healthy Foods
    Love's has always been on the cutting edge of the industry when it 
comes to providing healthier food options for the consumer. We are 
driven by consumer demand, both in terms of identifying popular 
products that we currently sell, and identifying products that our 
customers are asking us to sell that may not currently be found in our 
stores. As with any successful retailer, identifying what our customers 
want and responding to it is what we do.
    With respect to healthy food options, there has been a steady 
increase in demand, though it has not been as substantial as many 
public officials might prefer. Nonetheless, we have responded to it in 
a variety of ways. For example, with our grab-and-go fresh fruit 
program, we display a variety of fresh fruits (apples, bananas, fruit 
cups, etc.) in a high value, high visibility area near the cashier 
stand. This is the most valuable real estate in a convenience retail 
environment, as it offers an opportunity for retailers to display high 
margin, ``impulse-buy'' items as customers approach and wait in line 
for the cash register. This is where many Love's stores place fresh 
fruit options.
    Although we have had great success with our grab-and-go fresh fruit 
program, it is important to note that selling perishable food products 
in the rural areas where our stores tend to be located is complex. 
Deliveries are less frequent than at larger grocery stores located in 
more population-dense areas. Our wholesale suppliers make fewer items 
available to us than they do larger grocery chains. Availability is 
tied largely to what our supplier identifies--through sophisticated 
data analysis--to be most likely to sell in our specific channel of 
commerce.
    Additionally, as is common in chain retail, each Love's store is 
internally required to carry a standard selection of items for 
consistency across our network, with some flexibility for local and 
regional tastes or specials whenever possible. Love's continues to have 
good success when offering a variety of fresh food and other healthy 
options.
    Notwithstanding these complexities, Love's works hard to try and 
expand the fresh and healthy offerings in our stores. Working closely 
with our vendors, we employ good product management skills to minimize 
spoilage and waste. With the typical design and layout of an existing 
Love's store, there is limited space to accommodate a changing and 
complex selection of fresh and healthy options. Love's' team of buyers 
and planning experts continue to implement creative layouts and designs 
to optimize storage and food preparation space limitations.
    I am particularly proud of Loves's' efforts to offer more fresh, 
healthy food items to our customers, and think we should be viewed as a 
model retailer in terms of helping USDA fulfill SNAP's objectives.
USDA's Proposed Rule Enhancing SNAP Retailer Standards
    Before concluding, I would like to address some of the serious 
concerns I have with a recent rule USDA has proposed that would change 
SNAP retailer eligibility requirements.\3\ As written, the proposal 
would effectively ban the truckstop and travel plaza industry from 
continuing to redeem SNAP benefits, harming not only these businesses 
but more importantly the beneficiaries who have come to rely on them to 
buy food for their families. Because recipients in the rural areas 
where travel plazas tend to be located often have limited or no access 
to transportation to get to a qualified store, reducing the number of 
redemption points in this manner would leave them with even fewer 
options.
---------------------------------------------------------------------------
    \3\ Enhancing Retailer Standards in the Supplemental Nutrition 
Assistance Program (SNAP). 81 Fed. Reg. 8015 (Feb. 17, 2016).
---------------------------------------------------------------------------
    The proposed rule is all-the-more troubling because it completely 
disregards Congress's clear intent when it passed the 2014 Farm Bill. 
In that legislation, after many hours of negotiations, Congress sought 
to strike a balance between (i) enhancing beneficiaries' access to 
fresh, healthy food options, with (ii) the integral role that small 
format retailers--including convenience stores located within travel 
plazas--play in the program. Congress clearly wanted to enhance 
retailers' stocking requirements, but just as clearly it did not want 
to impose burdens so onerous that small format retailers could not meet 
them.
    To be clear, Love's does not oppose efforts to increase 
beneficiaries' access to fresh, healthy food. But the USDA's proposed 
rule doesn't do that. In fact, it would decrease beneficiaries' access 
to healthy items by prohibiting them from buying such items with SNAP 
benefits at Love's and other similar stores.
    In the 2014 Farm Bill, Congress adopted changes to the SNAP 
regulations' ``depth of stock'' requirements establishing minimum 
quantities of staple food items that retailers must offer for sale in 
order to redeem SNAP benefits. By increasing the minimum number of 
items in each staple food category from three to seven, and increasing 
the categories in which retailers must have a perishable item from two 
to three, Congress exhibited a clear understanding that (a) excessive 
stocking requirements would uniquely affect small format retailers and 
thereby restrict access for beneficiaries that frequent them, and (b) 
this was an undesirable outcome.
    USDA's proposed rule exhibits no such understanding. In fact, it 
appears to directly dismiss Congress's view and proceed with a rule 
designed to force small format retailers out of the program. The 
proposal would do this in two ways:
``15% Provision''
    The proposal provides that no more than 15% of a SNAP retailer's 
total food sales can be for items that are cooked or heated on-site.
    A fundamental feature of travel plazas is that they contain both 
convenience stores and quick-serve or sit-down restaurants at one 
location. A good travel plaza is a ``one-stop-shop'' for the traveling 
public, both commercial truck drivers and recreational travelers. To 
serve the needs of this diverse customer base effectively, at all hours 
of the day and night, we need to offer a variety of food options, from 
quick grab-and-go snacks and beverages, to more formal sit-down dining 
options. This diversity of profit centers--all within a single travel 
plaza location--is integral to our business model.
    The proposed rule would aggregate food sales across all of these 
different food-serving entities, and impose a cap of 15% for food that 
is cooked or heated on-site. It does this even though only the 
convenience stores at our travel plazas are in the business of 
redeeming SNAP benefits. If we operate a quick-serve restaurant 
adjacent to that convenience store, our customers cannot buy food at 
that restaurant with their SNAP benefits. The two entities are, for 
purposes of SNAP and from our customers' perspectives, completely 
separate.
    Nonetheless, USDA takes pains to emphasize that it is conflating 
the two entities for purposes of this proposed rule:

          Establishments that include separate businesses that operate 
        under one roof and have commonalities, such as sale of similar 
        foods, single management structure, shared space, logistics, 
        bank accounts, employees, and/or inventory, are considered to 
        be a single establishment when determining eligibility to 
        participate in SNAP as retail food stores.\4\
---------------------------------------------------------------------------
    \4\ 81 Fed. Reg. 8020 (Feb. 17, 2016) (emphasis added).

    USDA's insistence on this issue is perplexing. If a Love's 
convenience store is eligible to participate in SNAP based on USDA's 
guidelines, it should not be rendered ineligible simply because Love's 
also operates a restaurant adjacent to that store. Indeed, at literally 
hundreds of our SNAP-redeeming convenience store locations, there are 
also hot food restaurants, and these two entities can ``operate under 
one roof and have commonalities, such as . . . single management 
structure [Love's], shared space, logistics, bank accounts, and 
employees.'' \5\
---------------------------------------------------------------------------
    \5\ Compare Id.
---------------------------------------------------------------------------
    It should be noted that there are other travel plaza companies and 
operators who take a different business approach and are more likely to 
lease out property at their travel plaza locations to third parties to 
operate restaurants and other businesses on-site. For example, rather 
than the travel plaza company operating a quick-serve restaurant as a 
franchisee, the company might lease out the space to a separate 
business to run a quick-serve restaurant as a franchisee. To the 
customer, there is no noticeable difference between these two 
approaches. Yet to USDA, it appears to be a key factor in determining 
whether the convenience store that happens to be ``under the same 
roof'' as the restaurant is permitted to redeem SNAP benefits.
    This is silly.
    The 15% threshold is completely incompatible with the travel 
plazas' business model--far more than 15% of a given travel plaza's 
food sales will be cooked or heated on-site when factoring in these 
other restaurant-type entities. This 15% provision would likely 
foreclose every Love's location from continuing to redeem SNAP.
    Beyond the negative consequences that this 15% provision would 
trigger, it is premised upon a flawed method of determining retailer 
eligibility--one that Congress specifically rejected during the 2014 
Farm Bill negotiations. Once a retailer meets the necessary eligibility 
requirements to redeem SNAP benefits, it should be allowed to 
participate in the Program. Love's is in the business of identifying 
products that our customers want to buy and then selling those 
products. As with any successful retailer, we understand that demand 
drives supply, supply does not drive demand. For this reason, it makes 
little sense to tie a retailer's eligibility to participate in SNAP on 
what products its customers choose to purchase, for this is a variable 
over which retailers do not have control.
    Placing a ceiling on the quantity of hot and prepared food items--
which are ineligible to be purchased with SNAP benefits--that SNAP 
retailers are permitted to sell would eliminate many small format 
retailers from the program, and discourage many more from getting 
involved to begin with. This would not further the program's purpose to 
``promote the general welfare and safeguard the health and well being 
of the nation's population by raising levels of nutrition among low-
income households.'' \6\ In fact, it threatens the achievement of this 
purpose by permitting USDA to make arbitrary decisions denying 
qualified retailers' application to redeem SNAP benefits. This in turn 
denies those retailers' SNAP customers a convenient source for food.
---------------------------------------------------------------------------
    \6\ 7 CFR 271.1(a).
---------------------------------------------------------------------------
    If a retail store stocks a sufficient quantity of healthy, staple 
food items to participate in SNAP, it should be able to participate 
without regard to whether it is operating in the same building as a 
restaurant or deli. Those two issues simply are unrelated.
Depth of Stock
    The proposal would also require all SNAP retailers to stock more 
than 160 ``staple food'' items at all times in order to redeem SNAP 
benefits--a 14-fold increase from current requirements.
    Further, it eliminates many items that NATSO members sell from 
qualifying as ``staple food'' items, such as multi-ingredient items 
that people purchase and eat at home, including potpies, soups, cold 
pizza, and frozen dinners, or snack-food items such as crackers and 
carrot-and-dip ``to go'' packs. Finally, it prevents retailers from 
counting different types of a single food source as multiple 
``varieties'' of that item (for example, ham and salami would both 
qualify as ``pork'' rather than different items that happen to be in 
the same category; turkey burgers, sliced turkey, and ground turkey all 
qualify as ``turkey'' rather than different items, etc.).
    This is a dramatic and unnecessary departure from current rules. It 
fundamentally disrupts the compromise that Congress reached in the 2014 
Farm Bill by changing the underlying definitions of terms that Congress 
relied upon in establishing enhanced depth of stock requirements.
    Most troubling is that these provisions appear to be specifically 
designed to make it extremely difficult and expensive for travel plazas 
and convenience stores to redeem SNAP benefits. Requiring a SNAP 
retailer to stock food products that officials at the Department of 
Agriculture would prefer customers to buy would not change customer 
purchasing habits. (Demand drives supply.) It would, however, 
discourage many retailers from participating in the program because it 
is simply bad business to stock products that their customers--SNAP and 
non-SNAP--simply will not buy. For those small format retailers 
continue to participate, it would also very likely lead to wasting 
food, as the retailers would be stocking perishable products that will 
not move quickly off of their shelves. Finally, it would lead to 
inventory management complications. Indeed, as the complexity of the 
proposed ``staple food'' requirements change so do the complexities of 
product management, storage, rotation, and display. Our stock rooms are 
stacked to the ceiling with products that we have determined our 
customers want to buy. Injecting an excessive amount of other types of 
products into our supply will be extremely complicated for our store 
and inventory managers.
    If the depth of stock provisions are finalized as proposed, it 
would lead Love's and many other retailers to completely reevaluate the 
decision to participate in SNAP. Many will exit the program.
    I urge the Department of Agriculture and Members of this Committee 
to consider the beneficiary's perspective as it considers retailer 
eligibility policy. Beneficiaries are often in a position where, 
sometimes, the limited hours of the day may require them to prepare 
affordable, quick-and-easy meals for their families to eat. It is a 
situation that everybody, from the witnesses testifying before you 
today, to the Members of this Committee, and even officials at USDA, 
often confront. We should not turn this activity into a luxury 
unavailable to SNAP beneficiaries who live in the rural areas near 
Love's locations. It is not fair to them, and it exhibits a level of 
disregard for the already difficult lives these citizens lead. We 
should be trying to make their lives easier, not harder.
    USDA has gone too far with this proposal. If finalized, it would 
effectively prohibit smaller format retailers from participating in 
SNAP, and thereby harm the SNAP beneficiaries that the agency is 
charged with helping.
Conclusion
    The truckstop and travel plaza industry takes seriously its role in 
the SNAP program. Love's' experience with the program has been largely 
positive. I am hopeful that we can continue to work together and build 
on past successes, while learning from the program's shortcomings, to 
fulfill the program's purpose of raising nutrition levels of the 
nation's most vulnerable and needy citizens.
    Again, thank you for the opportunity to testify today. I am of 
course happy to answer any questions you may have.

    The Chairman. Well, I thank our witnesses for their 
testimony. The chair would remind Members that they will be 
recognized for questioning in order of seniority for Members 
who were here at the start of the hearing. After that, Members 
will be recognized in order of arrival. I appreciate Members' 
understanding. We have a glitch in our vaunted technology 
system. Our clocks aren't working, so when we recognize each 
Member for 5 minutes, you don't have the normal lights. I have 
my handy-dandy stopwatch here, and, in order to keep us moving 
along, I will have to give you a 1 minute warning, but maybe I 
will just--one snap there, that--1 minute warning for you. So, 
with that, I recognize myself for 5 minutes.
    Mr. Wright, you talked about the qualification process, or 
the way you got your Carver Market officially recognized. There 
was a story this morning in the news about a storefront in 
Florida, no food whatsoever, that had redeemed about $13 
million in SNAP benefits, and they were raided, and those folks 
are going to be brought to justice because they stole money 
from the system. Can you walk us through what you had to go 
through for Carver to become a qualified SNAP beneficiary, and 
the mechanics of that? How often are you re-examined? Do folks 
come by periodically to check and make sure that you are doing 
what you are told to do on the application process? Would you 
help the Committee understand that approval process that USDA 
goes through?
    Mr. Wright. Carver Market is actually operated by a 
nonprofit ministry out of Atlanta, and so the process they went 
through was, of course, contacting USDA. They also had to have 
some coordination with the health inspectors, I believe, from 
the State of Georgia and all that. It just became a very 
laborious process in order to get all that lined up, and just 
the points of contact, not being able to get through to people, 
not having the communication relayed back to them.
    I certainly understand what you are talking about in the 
store in Florida, and, from our industry's perspective, we have 
a zero tolerance for abuse from retailer or participant in the 
program. We are not in favor of that. But in this case you had 
a nonprofit ministry that has planted themself in a community 
they are trying to revitalize, and just some sort of 
recognition to expedite that process would be appreciated. Just 
a lot of people to see, a lot of hoops to jump through, so to 
speak.
    The Chairman. All right. Could they operate their store 
without customers redeeming SNAP benefits, were they able to 
open and go into business before that?
    Mr. Wright. We were able to open the store, but, needless 
to say, with the makeup of the neighborhood, and the amount of 
SNAP residents, that was certainly economically challenging for 
the store----
    The Chairman. So, 25 percent of your business is SNAP? So 
those folks would come into the store, try to buy something, 
and the operator of the store would have to say, we are not 
ready yet?
    Mr. Wright. Yes, correct.
    The Chairman. Okay.
    Mr. Wright. Yes, sir.
    The Chairman. It is a bit counterintuitive that a store in 
that food desert would only have 25 percent of their business 
is SNAP, while your broader Wright Market has 31 percent. Do 
you think that SNAP beneficiaries will go there, and that will 
grow, or you think 25 percent is about right?
    Mr. Wright. Well, the Carver Market does not offer fresh 
meat. Now, they do a good job of offering fresh produce, dairy, 
milk, eggs, and a wide variety of grocery items for a small 
store, and at Wright's Market, 56 percent of our business is 
driven through fresh meat and fresh produce, with meat being a 
much bigger ring, so to speak. So that would be the difference 
between what we are able to offer, and what they are able to 
offer: 25 percent for a smaller store like Carver Market is 
pretty good.
    The Chairman. Okay. And just real quickly, on your Wright 2 
You Program, is that available to SNAP beneficiaries, as well 
as other customers?
    Mr. Wright. Yes. It is something that we just do on demand. 
We continue to hear the requests for people that don't have 
transportation to the store, so that is certainly open to 
anyone who calls for pickup.
    The Chairman. I appreciate that. Mr. Beech and Mr. 
Martincich, we had FNCS here during the 2 day review of USDA 
programs, and they were trying to walk us through how they got 
to their proposed rules, and I asked Administrator Rowe if any 
of the folks on the rule writing team had ever actually worked 
in a grocery store. And, of course, they hadn't, and so that 
may be reflective of some of the things that they are trying to 
get done in that regard.
    Can you walk us through the process a recipient goes 
through at the checkout line, is a SNAP beneficiary going into 
a Love's and unable to use that SNAP card for anything other 
than what is eligible? In other words, your electronic machines 
parse out what is and isn't SNAP eligible, so they can't buy 
food in the restaurant with their SNAP benefits. What is the 
public policy advantage to excluding travel plazas like yours, 
where they have more than 15 percent of their food sales in 
non-eligible SNAP items, what would be the possible public 
policy benefit for that?
    Mr. Martincich. That is a great question. I would have no 
idea what the rationale would be to penalize that SNAP 
beneficiary who is very well educated, and knows what to buy in 
a grocery store. And to penalize that person because I happen 
to sell hot food in another part of the store, or under one 
roof, I see absolutely no rationale to that whatsoever.
    The Chairman. Thank you, then. My time has expired. Mr. 
Peterson, 5 minutes.
    Mr. Peterson. Thank you, Mr. Chairman. There are a lot of 
people that want you guys to be the food police, and this is 
the first idea that is generated here. But I just want you to 
know some of the things that I hear from some of my colleagues, 
on the right and on the left. They think that SNAP recipients 
should not be able to buy candy, sugared soda pop, so-called 
junk food. There are people who think that no one should be 
able to use a SNAP card at a convenience store because it is 
more expensive than a grocery store. So these are things that I 
hear that are out there, without asking you, I assume that 
would just make it even more problematic to stay in the program 
if something like that happened. But it is out there, and 
people will talk about it. Even some of my constituents talk 
about it.
    One of the things that I am curious about is, apparently, 
during the Dodd-Frank negotiations, there was a provision put 
in by Senator Durbin that said that the banks can't charge SNAP 
recipients for transactions on their cards, which is kind of a 
dumb idea. Anyway, it got passed. So now, from what I can tell, 
you can't figure out how much they are charging, and who they 
are charging. So do you know how much these banks make on these 
cards? Supposedly, they can't charge the recipients, so how 
much are they charging you guys per customer, or do you guys 
know that information? Do they give that to you?
    Ms. Hanna. Sir, on the SNAP transactions, as a merchant, we 
pay a processing fee, which is an extremely low amount.
    Mr. Peterson. So what is that?
    Ms. Hanna. It would be sub-hundredths of a penny. That is 
how low it can be. And you have processors, and there are only 
two right now and that is creating a competition problem. And 
so there is a proposed 1 charge being made by one of the 
providers----
    Mr. Peterson. Right. So that would be to the store?
    Ms. Hanna. That would be to the merchant.
    Mr. Peterson. Yes.
    Ms. Hanna. Yes.
    Mr. Peterson. They supposedly can't charge the SNAP 
recipient.
    Ms. Hanna. That is correct.
    And that 1, based on a rough calculation, would bring in 
$17 million annually of revenue to this processor. That cost is 
going to drive prices up, and the customer who uses the SNAP 
benefits, and all others, will be harmed by that, from the 
increase in prices. We need more competition when it comes to 
being able to process these transactions.
    Mr. Peterson. There was a story out there that said that 
some of these banks were charging people $5 to stop payment, 
and they were figuring out some way to charge the recipients if 
they lost their card, they charge them $5. And then there was 
some other deal where they are charging them 40 if they get--I 
don't know what it is, but apparently they are getting around 
it somehow or another. Are you familiar with that?
    Ms. Hanna. No, sir, I am not familiar with there being fees 
charged by the banks on SNAP transactions. I am familiar with 
banks charging fees for other payment types that customers use 
with debit cards, but not on SNAP cards.
    Mr. Peterson. So you haven't heard any complaints from your 
customers about this, that----
    Ms. Hanna. Not on SNAP cards, sir.
    Mr. Peterson. So if they lose their card, they just----
    Ms. Hanna. They will go back and ask for another one. But 
they have not spoken to us that they are being charged by their 
agency to get another card.
    Mr. Peterson. On the chip situation, you are going to that? 
Are you changing all your credit cards to the chip?
    Ms. Hanna. Yes, sir.
    Mr. Peterson. So does that mean that these EBT processors 
are going to raise the fees on the card to pay for that?
    Ms. Hanna. I think that could be part of it. It is just 
pure speculation if that is the case, but we do know that 
putting a chip on a payment card, along with a PIN, will reduce 
fraud substantially. There was a report put out by the Federal 
Reserve several years ago that said payment cards that were 
only signature enabled had 700 percent greater chances of fraud 
being conducted on those. So as we move to an environment where 
there is more security needed in the payment space, and that 
includes the use of these SNAP cards, we are looking for 
additional technology. And I think that a chip and PIN on a 
chip added to these SNAP cards would be beneficial to the 
participants, and to the retailers that accept them.
    Mr. Peterson. I do have a short follow-up.
    The Chairman. Yes.
    Mr. Peterson. So, as I understand it, most of the fraud is 
a situation where the retailer is in collusion with the 
recipient. So I don't understand where the PIN number makes a 
difference, because the recipient knows it anyway. The majority 
of the fraud is where they have to get together and do it. My 
time is out, but if you could respond to whatever is going on 
with that? Thank you.
    The Chairman. The gentleman's time has expired. We will 
take that one for the record. Mr. Neugebauer, 5 minutes.
    Mr. Neugebauer. Thank you, Mr. Chairman. Mr. Beech, in your 
testimony you outlined how the USDA proposal would cause most 
of the Casey stores to be ineligible for participation in SNAP. 
And many of your stores, you indicated are in small 
communities. I represent a district that has a lot of small 
communities, and somebody would have to be living in a vacuum 
if they haven't been watching what has happened in rural 
America, where we have seen the towns of rural communities 
shrink because the number of farm families have shrunk. Farmers 
are farming a lot larger tracts of land.
    In many of those communities, they have lost their auto 
dealership, they have lost their grocery store, they have lost 
their clothing store, and they are considered somewhat under-
served. And so I guess the question that I would have to you is 
what would be the driving distance for many of your customers 
if your company was forced to quit providing SNAP benefits to 
those folks?
    Mr. Beech. Yes, that is a great question Congressman, and 
you are absolutely correct. I grew up in a small town in rural 
Iowa, and we used to have a lot more services than we do now. 
But yes, many places in the rural Midwest, our customers would 
have to drive 15 and 20 miles to the next nearest community 
that would have full services like that. We have 220 of our 
stores. We are the only provider, and we provide prepared 
foods, we are the bakery in the community, and we are the 
grocery store.
    So to have folks that are already on the program having to 
spend additional resources to drive 15 and 20 miles to redeem 
their benefits, I can't see any rationale for that, and we are 
really concerned about some of our rural customers having to go 
through this to do that.
    Mr. Neugebauer. You also testified that you keep a limited 
amount of stock in those stores, due to the ability to service 
those. So if you had to comply with this new regulation in 
keeping more stock, more items, it looks like to me that 
increases your logistic cost of having to make more runs, or 
expand those stores. Is that going to drive the prices up if 
you have to do that?
    Mr. Beech. Yes, it would clearly drive the prices up, but 
for us, we couldn't do it. We deliver once a week to 1,931 
stores, so if we would have to deliver two or three times to a 
store to meet compliance with SNAP, it is just not that large 
of a piece of our business. So it is just something that, 
physically, we wouldn't be able to do in our business model. It 
would just be too expensive, and we just don't have the space 
to have this kind of depth of stock in our stores. Our stores 
aren't big enough to do that.
    Mr. Neugebauer. If they impose this 15 percent on prepared 
food, what is that going to do to your business model?
    Mr. Beech. It makes us completely ineligible for the 
program. We sell a little bit of pizza. We are the fifth or 
sixth largest pizza retailer in the country, and so we would 
just have to drop the SNAP Program. We would not drop our hot 
foods program. It is just too integral to our business and our 
business success, so if we had to, unfortunately, make that 
choice, we would have to stay with the hot foods, 
unfortunately.
    Mr. Neugebauer. What percentage of your business is SNAP, 
average across your stores?
    Mr. Beech. It is not very large on ours. It is probably one 
or two percent.
    Mr. Neugebauer. Okay. I yield back, Mr. Chairman.
    The Chairman. The gentleman yields back. Mr. Scott, for 5 
minutes.
    Mr. David Scott of Georgia. Yes. Thank you, Mr. Chairman. 
First of all, I think that this rule by the Department of 
Agriculture's Food and Nutrition Service is impractical, it is 
unworkable, it is offensive, it is discriminatory, and it is 
definitely draconian, and really unnecessary. And very, very 
offensive and discriminatory to rural Americans and low-income 
Americans. So this is a large swath of the American people. And 
I am really just at odds trying to figure out why is the 
Department of Agriculture's Food and Nutrition Service doing 
this?
    And so I would like to ask you, who are testifying here to 
help me with this dilemma. Clearly, here is what I think: I 
believe that the Department of Agriculture wants to stop small 
business retailers from participating in the SNAP Program. Now, 
if I am wrong, please tell me. Mr. Martincich, I apologize if I 
murdered your name there, but can you help me with this? Am I 
off base? I just don't see it. Maybe somebody can clear up for 
me why in the world is the Department of Agriculture doing 
this, and putting such hardship on the small retail business 
community, and on the very American people that need this 
service the most, those in rural America and those in low-
income America?
    Mr. Martincich. I agree with all your words wholeheartedly, 
and I will start off with offensive. I do think it is offensive 
to that SNAP beneficiary, and it is offensive to the retailer 
also.
    Mr. David Scott of Georgia. Yes.
    Mr. Martincich. At a stretch, I might give a benefit of the 
doubt. It is probably a noble cause to encourage healthy eating 
and healthy behavior. But our personal example is that has been 
changing over the last several years also. One of the biggest 
sellers in all of our stores is our fruit and vegetable cups. 
No government agency told me that I had to sell fruits and 
vegetables and put them at the front counter, but customers 
began demanding that, and we are selling a lot of it, and there 
is no regulation that told us we had to do that. So I think 
consumer behavior is changing anyway, without these draconian, 
discriminatory regulations.
    Mr. David Scott of Georgia. Yes. Mr. Beech, how do you feel 
about this?
    Mr. Beech. Congressman, I totally agree with you too. I 
echo his comments. I mean, we obviously care about our 
customers' health, and give them the benefit of the doubt of 
that. But when we have some of these stocking requirements that 
are egregious and things, it just seems clear that maybe we 
don't want the small retailer in this. But, you folks did a 
good job on the farm bill, had a good compromise with some 
additional items in the stores. We can certainly live with that 
and support that, but this over-extension of the stocking 
requirements, and the change in the definitions of not having 
multiple ingredient foods, we can't have chicken and noodle 
soup in there, and macaroni and cheese, and it doesn't count 
anymore. People are trying to feed their families with this 
program, and you would think you would want to be more 
inclusive than not, so we are in total agreement with you.
    Mr. David Scott of Georgia. Yes. Thank you, Mr. Chairman. 
My time is up in 1 minute. This really disturbs me, because 
there are sectors of our American people who are in certain 
types of situations that are no fault of their own. And when 
you take the basic necessity of life, which is food, and you 
make it harder and harder for these people to be able to do 
that, Kroger's and Publix, these large grocery stores, they are 
not in some of these communities, in the rural areas 
particularly, they have to travel to another place. In the low-
income communities, people don't have the transportation to get 
to where they are. So it is my hope that out of this hearing, 
Mr. Chairman, that we will send a powerful message to the 
Department of Agriculture to rescind this rule.
    The Chairman. Well, David, to send that message, you will 
need to be a little more blunt. Mr. Lucas, 5 minutes.
    Mr. Lucas. Thank you, Mr. Chairman. And first I would like 
to note that one of our very articulate, bright witnesses noted 
we did a good job on the food stamp section of the farm bill, 
in a place and a time where rarely positive things are said. 
Thank you, sir.
    With that, I would like to turn to Mr. Martincich to expand 
on your comments. Your perspective in your opening testimony 
was the customer's perspective. Do you have any idea how many 
of your SNAP customers at the travel plazas tend to be highway 
travelers, as opposed to local citizens who live in an area in 
close proximity to the facility? I am assuming a good and 
efficient business that you have examined, studied, analyzed 
your customer base. Tell me about that. Who is passing through, 
and who is local?
    Mr. Martincich. Absolutely. There are very few traveling 
public or truck drivers eligible for SNAP, or using SNAP 
benefits in our stores. The vast majority are local, close 
residents. Which, again, is why it would be a tremendous shame 
for us to have to turn down that customer who is walking to our 
truckstop, maybe catching a ride to our truckstop. But very few 
are really over-the-road travelers.
    Mr. Lucas. Several witnesses have mentioned the hot food 
issue. Since your locations often have both convenience stores 
and restaurants, have you noticed the SNAP customers getting 
confused, or mistakenly believing they can redeem their SNAP 
benefits at the restaurant side of the equation?
    Mr. Martincich. Never. I think those SNAP recipients are 
very well educated on what they can purchase. Not once, in any 
of our experiences, have we seen a SNAP eligible customer try 
to purchase something that is a hot food item. Again, it is a 
clear distinction, because there is a convenience store on this 
side, and a quick service restaurant, or a sit down restaurant 
on that side.
    Mr. Lucas. And you have convenience stores that still just 
have non-restaurant options too, right, in the smaller 
communities?
    Mr. Martincich. Absolutely.
    Mr. Lucas. So you have both models?
    Mr. Martincich. Yes.
    Mr. Lucas. Okay. So are you able to draw any conclusions 
about Love's stores? The trend to do a lot of SNAP business 
versus Love's stores that do minimal amounts of SNAP business, 
comparing the nature of your facilities?
    Mr. Martincich. Certainly in the rural communities, where 
there are other limited options, and you will be familiar with 
quite a few of those in Oklahoma, and it is really around the 
local residencies. It is around the local neighborhoods. So if 
I am extremely isolated, and with no local population within 
maybe 10 or 15 miles of my store, I won't hardly get any SNAP 
recipients in there.
    Mr. Lucas. Absolutely. Mr. Chairman, I would just note, as 
I yield back, the comments by the Ranking Member about the PIN 
versus chip versus stripe question. While that is probably more 
of a jurisdiction of a different committee, a lot of that 
pertains about who is responsible for the fraud issue. Is it 
the retailer, is it the card issuer? Not just SNAP, but all 
forms of credit cards. And that is something that we have to 
sort out in this body, because right now there is a great 
debate over who is most responsible for security, and who is 
being stuck by the bill, and in many cases it is a substantial 
issue. Not in SNAP, but in other credit card issues, the fraud 
factor. I yield back, Mr. Chairman.
    The Chairman. The gentleman yields back. Mr. McGovern, 5 
minutes.
    Mr. McGovern. Thank you very much. I want to thank you all 
for being here. I certainly appreciate the fact that SNAP 
retailers play a critical role in making sure that food is 
available to those in need. And many of our constituents in 
both rural and urban areas lack access to larger grocery 
stores. And while we would all love to see large supermarkets 
in every community in America, that is just not a reality. And, 
as we have heard from our witnesses today, convenience stores 
are frequently the only source of groceries in some 
communities, and are, at times, the only stores that accepts 
SNAP benefits in a particular community.
    And one of the things that is under-appreciated, I am sad 
to say, in this Congress is the fact that a large number of 
people on SNAP work. They work for a living. But, they work 
non-traditional hours, or are forced to work several jobs just 
to make ends meet, and these individuals often have to shop for 
their food at kind of odd hours, and that is where you 
oftentimes are the only avenue for them to get food.
    I sympathize with the goal of making healthier foods more 
available to people, and helping people make better choices in 
terms of what they buy. If we were really interested in that, 
we would examine the fact that the SNAP benefit in and of 
itself is so inadequate, that it really does limit an 
individual's ability to be able to buy the healthiest food. But 
I also have concerns with proposals that would limit the 
ability of smaller format retailers to participate in the SNAP 
Program, which would prevent SNAP recipients from access to 
food.
    Mr. Beech, you talk a lot about restrictions in USDA's 
proposed rule that would force stores out of the SNAP Program. 
Would the proposed rule as currently drafted eliminate access 
to food for any SNAP beneficiaries, and would it make hunger 
worse in our communities? And the reason why I raise that is 
because, while I am sympathetic to the impact that this might 
have on the retailers, I am most sympathetic about the negative 
impact it would have on people who are just struggling to put 
food on the table.
    Mr. Beech. Your question is a good one, Congressman. I 
think, quite accurately, that is our biggest concern, is we 
want to make sure that the folks that need the program can 
still get it. It clearly does have the opportunity to increase 
hunger concerns. As I mentioned in my testimony, we have 220 of 
our stores where we are the only provider. There are a number 
of those communities where the other provider might be just 
another convenience store.
    Mr. McGovern. Right.
    Mr. Beech. Many of these communities don't have grocery 
stores. So it is a big problem when you have communities in 
this country that they can't redeem their benefits, and so they 
have to make a separate trip to do that. So making available 
opportunities and places to redeem their benefits is a good 
thing. I think it has that potential.
    Mr. McGovern. So USDA tells us that they intend to allow 
waivers for certain stores if access is compromised. How do you 
think that that would impact store participation?
    Mr. Beech. Well, there are a number of concerns about 
waivers. We would want 1,931 waivers. And then every other 
convenience store chain would want those as well. And if you 
don't give out waivers to everybody, you have the competitive 
issues. Do you give it to one competitor in a town, and not the 
other competitor in town? Who gets it? Who gets the waiver? So 
I am just not sure this program is designed to give out 
thousands and thousands of waivers. It just, to me, doesn't 
make sense. We have to have the fundamental rules of the 
program, and the waivers should be what they are, waivers, used 
sparingly.
    Mr. McGovern. As we speak about access to food, and since 
you are all here, it is important to also look at proposals 
that would undermine the SNAP Program and cut benefits for 
families living in poverty. Ms. Hanna, some have suggested that 
we block grant the SNAP Program, turning more responsibility 
for the administrative decisions to states. There is a 
Republican budget that would cut the program by $150 billion 
over 10 years. Do you have concerns with such proposals, and if 
so, what would those concerns be?
    Ms. Hanna. I do, because under that scenario, by putting 
that back in there, now we are going to lose the ubiquity that 
the national program has. Because with a state, or any state, 
and a different state having different requirements, having 
different food lists, it is going to make it much harder for 
the SNAP participant to make sure, first, that they are buying 
the right things when they are going to the stores; but second, 
it is going to make it much harder on the retailer and the 
merchant to program, and to train the cashiers to work with 
those customers to make sure that they are making the healthy 
food choices, and they are getting what are eligible products. 
So it is something that would be very difficult on the entire 
system. And I don't think it would be something that would be 
good for the system.
    Right now we have a good system that is ubiquitous, it is 
across all the states. As a SNAP participant, if they have to 
go from one state to another because of some sort of disaster, 
or some sort of other event, they know that they can take those 
benefits, and that they can shop in another store in that 
state, and get the same benefits. But if this is administered 
on a state-by-state basis, that is not going to happen. In 
addition, states share information regarding fraud. If the 
states are allowed to administer this, then how are they going 
to manage their cross-border fraud, and look at that 
information? It is not going to be the same anymore.
    Mr. McGovern. Thank you. That is a very powerful argument 
against block granting. Thank you. I yield back.
    The Chairman. The gentleman's time has expired. Mr. Gibbs, 
for 5 minutes.
    Mr. Gibbs. Thank you, Mr. Chairman. If I don't use all my 
time, I will use my balance of time to yield to Mr. Scott if he 
needs more time.
    I appreciate the comments, and there is just one thing, he 
asked a question, Mr. Chairman, he was speculating about the 
reason USDA was doing this is to put the small business out of 
business. I don't think that is it. I think what it is, it goes 
back to what the Ranking Member said. It is about the food 
police. And this is analogous to the school lunch program we 
are seeing, where one size fits all out of Washington, D.C. 
policy, they know best.
    And I have to tell you, what we need to do is send some of 
these people out in our remote areas, like the western states. 
I have a son that lives out in remote, eastern Oregon, and a 
couple years ago he was living in northwestern Wyoming, in a 
remote area, and you literally had to drive 30 miles to buy a 
loaf of bread. So all the comments the panel has made about 
access and availability is absolutely true, but people here in 
Washington, D.C., inside the Inner Belt here, don't understand 
that, and don't have a clue.
    And so that is really what it is about. It is more about 
the food police, and Washington knows best. Moving forward, I 
just want to make that point that this rule needs to be 
rescinded, because it is going to hurt people in the remote 
areas. And, Mr. Beech, your excellent points on the question 
about, you have 200 stores would you have to quit using the 
SNAP Program, and that doesn't account for when there are other 
convenience stores.
    So I kind of got the feeling, Mr. Beech, your stores aren't 
true convenience stores. In Ohio it is more of a general-type 
store, at least because you go out in these rural areas where 
our son lives, there are no chain stores out there. There is, 
but the general stores in small towns there have more things 
that you don't have in a small town in Ohio.
    Mr. Beech. Yes. Virtually all of our stores are a little 
bit bigger model, but we have an extremely competitive and 
broad food program. So we make our own pizzas, many of our 
stores have subs, we have donuts. So in many small communities, 
we are the local grocery store, and we are the bakery, and we 
are the restaurant. So we do all of those in one, and we are 
proud of it, and have very good products. But that has been our 
niche. We grew up in rural Iowa and Missouri, and so those are 
the customers we serve.
    Mr. Gibbs. And it is absolutely right that the idea is the 
market is dictating what the needs are in those locales. It 
shouldn't be Washington dictating that. And I did want to say, 
since the introductions that Kroger Company is headquartered in 
the great Buckeye State of Ohio, in Cincinnati, and it is a 
great chain, so I wanted to make that point. I appreciate the 
panel. And my time I have left, I would yield to Mr. Scott, if 
he has any more thoughts.
    Mr. David Scott of Georgia. You are kind.
    The Chairman. The gentleman yields back. Ms. Graham, for 5 
minutes.
    Ms. Graham. Thank you, Mr. Chairman, and thank you very 
much to all the witnesses today. My question is actually 
directed at Mr. Wright. I live, and represent, the most rural 
district in Florida, pretty much the entire panhandle of the 
State of Florida. We have a huge food desert, and I go to 
Love's all the time, by the way. And I am interested in and 
thank you for your innovative approach to serving your rural 
community. And we have great nutrition and food access issues 
in my district. I would just like for you to expand on what you 
have done how maybe we can take some of your innovative 
approaches and use them in north Florida to help the people of 
north Florida. So thank you very much.
    Mr. Wright. Well, thank you. Yes, there are just plain and 
simple communities that cannot support a brick and mortar 
store, especially something full service where you are 
processing fresh meat, and those type of things. With all due 
respect to Mr. Beech, Casey's does a fabulous job in some of 
these places, but even in areas like you are talking about, it 
is a challenge to even have something like that.
    We just believe with technology today that mobile and 
delivery is going to be the way to solve these. Whether it is 
to someone's home, or preferably it could be a central 
location, some of the rural community where there is still some 
sort of gathering place where there is some sort of community 
center, or possibly a church, or something like that. So I 
believe that using technology would be a great way for people 
to order online, and for us to be able to get these fresh 
products to them in these communities that just can't support a 
brick and mortar store. And I actually have been contacted by 
somebody from your area about trying to do something like that, 
so----
    Ms. Graham. I am not surprised about that. I have a 
wonderful team, and she is taking notes in the back. Which is 
the purpose of these hearings, right, Mr. Chairman?
    In rural communities we often have challenges with even 
having access to the Internet. Is this something that you have 
moved forward with mobile apps, and those types of things, that 
consumers could potentially use in rural areas?
    Mr. Wright. Yes, that would be correct. And, again, there 
are two things that you face in the issue we are discussing. 
One is just access to technology to order. The other would be 
that possibly we reach, especially, some of the elderly that 
don't have the computer skills to do that. That really is where 
churches, and some organizations like that, can come in and 
fill that gap, and have access to that, or help someone do 
that. I think that would be, again, a great way.
    And we are very blessed and fortunate in our community to 
have a very strong faith-based community, and a number of 
outreach ministries. I have seen some things in the 
Gainesville, area, not far from you, the Casey family programs 
who have worked with the Partnership for Strong Families, and 
built some outreach centers, some community resource centers, 
in some rural areas. A model like that would be a great way for 
having a central point to order, and also have some help to go 
through the process to order.
    Ms. Graham. I don't know how much time I have left. I love 
this new system, Mr. Chairman. Do you find that those that you 
are serving, are they ordering and requesting fruits and 
vegetables, meats, and that type of thing?
    Mr. Wright. Well, back to my opening comments, we are just 
now getting into the process, but we can see it already. 
Certainly there are several groups that we have had a lot of 
interest in online ordering delivery. Certainly there are 
people in their lives that are busy, that is one. We have heard 
from a number of elderly, so we run our shuttle service. We 
will come to a person's home and pick them up, and bring them 
to the store, and then return them home. So we solved some of 
the issues like that. We have heard a tremendous amount of our 
elderly that getting out of the house and going to the grocery 
store is just not an option anymore physically.
    We also have heard from a number of people whose parents 
are in areas where they don't live anymore. And then we hear 
people in the rural areas that have access. So it is a wide 
variety. We are getting into this program now, but based on the 
responses that we have seen, I believe it is a great 
opportunity for us to really solve a lot of the issues with 
access to fresh foods without having to have a brick and mortar 
store where it doesn't work out.
    Ms. Graham. Well, I am sure my time is up now. The Chairman 
is used to this with me. But thank you very, very much. I 
appreciate what you have done, and, again, I appreciate all of 
the panel for being here today. Thank you, and I yield back 
whatever time I don't have.
    The Chairman. The gentlelady had 3 seconds left.
    Ms. Graham. All right.
    The Chairman. Mr. DesJarlais, 5 minutes.
    Mr. DesJarlais. I thank the Chairman, and certainly thank 
you to the panel for attending here today, and helping us deal 
with the many problems that our food stamp program faces. What 
originally was a program aimed at improving the diets of low-
income households has ballooned into an $80 billion a year 
government handout. And while the food stamp program, 
officially known as SNAP, was premised on good intentions, in 
reality studies have shown it has served to halter the economic 
mobility of recipients, and further compound the hardships that 
they face.
    During the Obama Administration the SNAP recipient 
population has nearly doubled. This drastic increase of 
participants has put a strain on the program that was already 
experiencing budgetary hardships due to the rampant waste, 
fraud, and abuse. There is no question that we must address the 
systemic failures of the SNAP Program if we want to ensure that 
it remains viable for both current beneficiaries and future 
generations. In fact, if we do nothing, and allow SNAP to go 
bankrupt, those who truly rely on these benefits will be 
affected most severely.
    That is why, in 2013 and 2014, when considering the farm 
bill, this Committee tried to separate the agricultural 
provisions from the unrelated food stamp program. Our 
legislation, H.R. 3102, would have allowed us to specifically 
address the deficiencies contained in the SNAP Program in a 
bipartisan manner. For example, H.R. 3102 would have eliminated 
the culture of dependency with the food stamp program by 
preventing states from issuing work requirement waivers for 
able-bodied adult recipients. Those who have the ability to 
work should not be able to collect benefits intended for those 
who cannot.
    H.R. 3102 would have also allowed for states to drug test 
SNAP applicants, and cut off funds to those who are abusing 
drugs, rather than trying to find meaningful employment. It 
also contained my legislation, the SNAP Act, which eliminated 
bonuses paid by the Federal Government to states for signing up 
food stamp recipients. It is ludicrous that we actually give 
states taxpayer funded awards merely for signing up additional 
food stamp recipients. But most importantly, this bill would 
have cut food stamp spending by $40 billion to ensure the long-
term sustainability of the SNAP Program. For those people who 
were likely abusing the program, we estimated that about 14 
million would have come off of the food stamp rolls, and likely 
would no longer have qualified.
    The House of Representatives ultimately passed H.R. 3102, 
which I was proud to support, but, unfortunately, the Senate 
did not act, and as a result we are left with a bill that 
combined the agriculture and food stamp provisions, and lacked 
these meaningful reforms. As a result, I could not support this 
legislation. It is my hope that we have another opportunity to 
address many issues contained in the SNAP Program. We owe it to 
the taxpayers, and we owe it to the beneficiaries. There is no 
doubt that we are a kind and caring nature that takes care of 
our own, and all we ask is for those receiving government 
assistance to do their part as well. And, really, I just wanted 
to thank you guys for coming here to answer our questions, and 
we will continue to work on this, and make sure the program 
exists for those who really need it. I yield back.
    The Chairman. The gentleman yields back. Mr. Ashford, 5 
minutes.
    Mr. Ashford. Thank you, Mr. Chairman. Thank you, Mr. 
Chairman, for having this hearing today. This is very 
interesting for me, and for all of us, because it really gets 
to many of the questions that arise in rural America, and 
certainly in Nebraska. I appreciate Mr. Beech, and Casey's, and 
all of what you have said is absolutely true. We rely on 
Casey's throughout our state. You make a major contribution to 
our small communities.
    It is interesting, in western Nebraska we have a town 
called Cody, which is a town of 300 people, and they did not 
have even a Casey's, not that Casey's is low on the totem pole, 
but did not have a Casey's. And so the local high school in 
Cody actually opened a grocery store, and the students do 
everything. They do the marketing, they do the buying, and 
purchase local products, as well as more standardized products. 
And it kind of reflects the dilemma, and the concerns that we 
have in our state.
    Rural poverty is something we talk about in this Committee 
a lot. There is no question that it exists. It is not just an 
urban problem. It is a rural problem, and you have reflected 
that, all of you, in your testimonies, and so I appreciate the 
Chairman really reflecting on this. And there are lots of 
options. I appreciated Mr. Wright's comments on the creative 
thinking for the future, because it seems to me that there are 
creative ways to these kinds of things. And organizations like 
yours, who are larger, who have the resources to invest in new 
technologies, or new ways of getting food to people that need 
it, and having it paid for, obviously, in an expeditious and 
efficient manner. That is going to come from your 
organizations.
    And it is going to come, not as said by some of the points 
made by other Committee Members, it is going to come through 
your own initiative. It is not going to come because government 
says to do it, or whatever. You are going to figure that out 
yourself. I totally believe that, and that is how most 
Nebraskans feel. I am not sure who is making more points. Our 
family came to Nebraska in the 1850s. We were in the clothing 
business. We had little stores, and big stores, in Iowa and 
near Omaha, our family has seen the changes in rural Nebraska 
and western Iowa.
    And it was mentioned earlier, literally the drying up of 
family owned small businesses in all of our towns. And you are 
from Iowa, and you know that, certainly in Nebraska. We started 
out in a little town called Homer in 1862, actually, with a 
small grocery/mercantile store, so my entire family history has 
been engaged in that kind of business. I get it. And I really 
do appreciate this testimony, and this conversation, because it 
really gets to the core of how rural America is going to look 
in the next 50 years.
    I do just have one question. Just so I am absolutely clear 
in my mind about this, Mr. Beech, because Casey's is a big 
player in Nebraska, and it is an important part of rural 
Nebraska. But I do want to ask you, just for the record, if 
this were to go into effect, are you telling me that, in 
Nebraska, for example, it would be unlikely that you would be 
able to offer food stamp services?
    Mr. Beech. Yes. The way the rule is written right now, we 
have 150 stores, basically, in Nebraska, and proud to be there, 
and a number of communities in your district, but basically the 
hot foods provision knocks out virtually all our stores. And 
then even if you could get over the hot foods, we couldn't sell 
any pizza, or we couldn't sell donuts, and hot sub sandwiches 
and things. The stocking requirements, with not being able to 
use multi-ingredients, and the variety, and the depth of 
stocking, having to have six of the products on the counters, 
we couldn't do it. So we would not offer SNAP benefits at all 
in Nebraska if this rule stays as-is.
    Mr. Ashford. Thank you. And, Mr. Chairman, this is not a 
good thing for Nebraska at all. It is not a good thing for our 
recipients, nor for our state. Thank you. I yield back.
    The Chairman. The gentleman yields back. I now recognize 
the gentleman from Georgia, Mr. Scott, for 5 minutes.
    Mr. Austin Scott of Georgia. Thank you, Mr. Chairman, and 
thank you all for being here. And we have obviously got this 
rule that needs to be reversed. I think that the goal of many 
is to stop the abuses in the system where, if you have a liquor 
store, for example, that is receiving--or turning in a 
tremendous amount of vouchers for food stamps, and you know 
that it is just not possible for them to be running that much 
through that store, how do we get those bad operators, if you 
will, out of the system? How do we get the operators out that 
are charging $10 for a gallon of milk, and then giving a 
lottery ticket with it, if you will?
    And I see you shaking your head, the kind of people I am 
talking about, and I don't think there is any better group to 
help write the rule that gets those bad players out of the 
market more so than those of you who are here sitting at the 
table with us today. And I just wonder, has the agency been 
willing to listen on the rule, and the suggestions that you 
have for the rule? I mean, we share that common goal, to get 
the crooks out of the business. Have they been willing to 
listen to your suggestions on how you would do that?
    Mr. Martincich. I may volunteer that, if you don't mind? 
The 2014 Farm Bill did address the fraudulent issues, and 
talked about point of sale, so probably everybody here 
implemented point of sale requirements. The USDA has chosen, up 
until now, to not enforce those fraud provisions, but the 2014 
Farm Bill did address a lot of the fraudulent issues.
    And, if I may share just a little bit on behalf of the 
truckstop industry. We talked throughout today that it is 
important that it our responsibility to encourage more options 
for SNAP beneficiaries, and not less. So I would attest to what 
Mr. Beech has said about Casey's. We would evaluate that in the 
400 stores in our 40 states. We would clearly not be able to be 
a SNAP qualified store in our 400 locations either.
    Mr. Beech. I can address that briefly too. Obviously we 
have a system in place to make sure that people can't buy 
different items than they are supposed to with SNAP. But I 
already think you have rules in place that help with fraud, and 
you put something in the last farm bill that gave them an 
ability to have a pilot program to start enforcing that better. 
So we are in complete support as an industry to stop fraud. We 
believe wasted taxpayer dollars: nobody should be doing that. 
We encourage anything you can do to stop fraudulent actors, and 
get those out of our business. But they are already there, they 
just need to be enforced.
    Mr. Wright. Our association will continue to submit 
comments to USDA about the ways to do this, in agreement with 
my colleagues here. Things like that, they hurt the whole 
program. Everybody up here would be totally in agreement that 
we don't want it wasted in any shape, form, or fashion. You are 
back to the people that do need it, back to the elderly and 
people like that.
    I will tell you, from my own experience in Atlanta, in a 
store we opened up, there was a small store there. I am not 
saying that anything was wrong, like that, but when we came in 
and offered a better option to that, that store closed.
    Mr. Austin Scott of Georgia. Yes. Thank you for doing the 
mission work in Atlanta. That is my home state as well.
    Ms. Hanna. And we work very closely with FMI, and we submit 
comments through them. When there are opportunities to talk to 
the USDA we will, and do so. But I agree with all my colleagues 
here, none of us want fraud, and want bad actors, and criminals 
in our stores, because it brings a risk that none of us want to 
everyone else. And we don't want fraud, so we are open to 
discussions to make it a better system.
    Mr. Austin Scott of Georgia. And FMI, being the Food 
Marketing Institute, for people who are watching and may not 
know that. I do think it would help us if we could get those 
suggestions on how we get those bad actors out of there. And 
maybe, through the Committee, we can make sure that the USDA 
takes those into account. So I do appreciate your bringing up 
the fraud provisions in the 2014 Farm Bill. We want to make 
sure that we are getting the benefits to the people who need 
them, but we want to make sure that those benefits go to what 
they are supposed to be used for, which is nutrition, not 
alcohol, and cigarettes, and lottery tickets. Thanks for being 
here.
    The Chairman. The gentleman's time has expired. Mr. Davis, 
5 minutes.
    Mr. Davis. Thank you, Mr. Chairman. I have a quick question 
for Ms. Hanna. And thank you all for your time here today. 
Actually, before I get to your question, Ms. Hanna, Mr. Beech, 
you grew up in Ankeny, Iowa? Were you there----
    Mr. Beech. Yes, I live in Ankeny now.
    Mr. Davis. Did you grow up there?
    Mr. Beech. Yes, I grew up in northern Iowa.
    Mr. Davis. Northern Iowa? Okay. Well, I used to live in Des 
Moines, and I remember when Ankeny got destroyed by the tornado 
in the 1970s, so I didn't know if you were affected by that.
    Mr. Beech. No, not at that time. But, yes, Ankeny has had a 
couple.
    Mr. Davis. Yes. Thank you for your taco pizza recipe. I 
have two cases in the hotel. Don't change it. If you do, we 
will have you back here.
    Mr. Beech. Yes.
    Mr. Davis. Ms. Hanna, serious question. I know SNAP has 
completely transitioned to an EBT type system, but WIC, the 
Women, Infants, and Children's Program, still uses paper 
vouchers. How does the administration of SNAP compare to WIC as 
a retailer, especially one that is in slightly larger 
communities, like my hometown of 11,000?
    Ms. Hanna. So the WIC Program is in transition, and I 
believe they have been given a date of 2020 to move to 
electronic payment cards. But in today's----
    Mr. Davis. Is that fast enough?
    Ms. Hanna. It is really not fast enough. It really needs to 
move faster. Because what we have seen is that, when you are 
dealing with a paper voucher, which is very nondescript on what 
is eligible for purchase and what is not, it creates much 
confusion with these mothers who are trying to buy nutritious 
items for their children and their babies.
    Mr. Davis. And they have impatient customers waiting behind 
them in line and they then may leave without the food that they 
need to feed their child because of this.
    Ms. Hanna. That is correct.
    Mr. Davis. Do you attribute it to the lack of the EBT card, 
and the ease of access?
    Ms. Hanna. Yes, I think that is a big part of it. And we 
actually did this several years ago. We gave a voucher to many 
of our leadership, and sent them out to a store, and we said, 
go see if you can figure out what you are supposed to buy with 
this. And they were all stunned, because it is very 
nondescript. And you bring it up to the register, and you scan 
it, well, no, that is not eligible. So when they moved to a 
card, it is very specific, and then what is eligible on that 
card does go through the system appropriately. So moving to a 
more electronic system faster for the participants in the WIC 
program would be a good thing for all.
    Mr. Davis. So your message to all the bureaucrats who sit 
in the concrete buildings out here at the United States 
Department of Agriculture and others is work faster than 2020, 
make it easier on those who need the benefits the most, let us 
make sure that the benefits go to those who deserve them and 
let us not cause any more delays and confusion in the line, 
which is very pressure packed anyway.
    Ms. Hanna. That is correct.
    Mr. Davis. Thank you very much. I will yield back.
    The Chairman. The gentleman yields back. Ms. Kuster, 5 
minutes.
    Ms. Kuster. Thank you, Mr. Chairman, and thank you for 
holding this hearing. And I just want to pick up where Mr. 
Davis left off. I come from a rural district in New Hampshire, 
the western part of the state, a lot of small towns. And we 
have talked in this Committee before, in particular during the 
farm bill, about food deserts. Typically thought of in urban 
areas, but I have food deserts in rural areas. It is a 
heartbreak, because, honestly, if people's lives were not so 
busy, and if you went back a generation, this was the part of 
the country where people grew their own food. But we know what 
lives are like now, with a single mom, and a couple of kids, 
and trying to pick up, and drop off, and get where you need to 
be. So we have communities where it would be a half hour round 
trip in the winter on bumpy roads to get to a full on grocery 
store with all the fresh fruits and vegetables that we want to 
be encouraging healthy families to eat.
    And I apologize, I was at the Veterans Committee, so I 
haven't heard from all of you, but I am going to let anybody 
dive in. My question is this distinction, and I am not sure I 
even understand what the original policy was about, but both on 
the processed food, food that you heat, I am talking about. I 
want people to eat healthy food, but food that you heat, how 
has that regulation gotten in the way of getting people the 
food that they need? And then also, if anybody could speak to 
the convenience store food, and particularly how we can 
encourage, and help you to get more fresh fruits and vegetables 
into the convenience store setting. I know bananas are making a 
big comeback in convenience stores, but is there something else 
that we could do to help? And I agree with Mr. Davis, let us 
get the food to the people who need it in the most timely way. 
So any commentary on those two rules, and what we could do to 
change them?
    Mr. Beech. Yes. I would talk a little bit about the first 
part of that, the part where we have 220 of our stores are in 
rural areas, we haven't been able to understand the dichotomy 
of why you sell hot foods, and you wouldn't be able to 
participate. I understand how it comes up in the rule. It is in 
the definition of what is called a retail store. So it says if 
you sell more than 15 percent, then you are not a store, so you 
would not be eligible. So that is how----
    Ms. Kuster. Well, they need to drive around my district, 
because these are not restaurants. This is just the only place 
to get it, it may be a braised chicken.
    Mr. Beech. Exactly right.
    Ms. Kuster. It could be healthy. It can be healthy but it 
is a hot meal, and maybe it is the only hot meal that day.
    Mr. Beech. Exactly right. And, again, for single moms that 
come in, they can pick up bread and milk at our stores, and 
maybe bring home a pizza for supper as well.
    Ms. Kuster. Yes, it gives them another half an hour to help 
with homework.
    Mr. Beech. Yes, that is exactly right.
    Ms. Kuster. I was a working mom. I know this problem.
    Mr. Beech. Yes. And we couldn't agree with you more. So 
that is one of the big concerns. And then the multi-ingredient 
foods are not eligible to count as your stocking requirements. 
So if you have chicken noodle soup, or if you have macaroni and 
cheese, we don't get any credit for those. They have to be 
single ingredient. And so, when people are trying to feed their 
family, many of our items are multi-ingredient that people can 
eat, frozen lasagnas, or stews, or things like that. But, 
again, they don't count in the stocking requirements under the 
new rules, which, again, causes small format stores to have 
major concerns.
    Ms. Kuster. Thank you. And I know my time is probably close 
to up. Any comment on the fresh fruits and vegetables?
    Mr. Wright. One thing that Carver Market in Atlanta was 
successful with is doing two for one SNAP bucks that were 
underwritten by private foundations. Before they started a 
program, nine percent of the SNAP benefits usage bought fresh 
produce. After they moved to that, it was 53 percent in there. 
So, at the end of the day, these are families who are trying to 
feed themselves, feed their families, and get as much as they 
can. But that was an avenue where it was a very efficient use 
of resources. It was underwritten by private organizations that 
were very interested in health and wellness, and it very much 
moved the needle in these areas in order to get people to start 
looking at fresh fruits and vegetables.
    Ms. Kuster. Wow. What is interesting is we did the two for 
one SNAP benefit at the farmers' markets, which is hugely 
successful in my district, both to expand the farmers' markets 
and encourage local growers, but also for the health and well-
being of the beneficiaries. But, I will get my team to look 
into expanding that. So thank you very much, and I yield back.
    The Chairman. The gentlelady's time has expired. Mr. 
Crawford, 5 minutes.
    Mr. Crawford. Thank you, Mr. Chairman. Mr. Wright, it 
sounds like your geography is an awful lot like my district. I 
have 30 counties, mostly rural, and the irony of our district, 
it is one of the most productive ag regions in the world, and 
yet we have a lot of food insecurity. But I like your idea, 
your shuttle service, online ordering, home delivery services. 
And they sound like really good programs that is geared toward 
reaching out to these communities that have limited access. 
Talk about some of the challenges you have had implementing 
those programs, and are you able to partner with some 
charitable organizations in the community to help offset your 
costs?
    Mr. Wright. Yes. The first thing would be just the ability 
to take SNAP through mobile, would be the biggest thing. That 
is not an option right now for us, so that would be the first 
step, to do that. And, yes, improving on what we have seen in 
Atlanta with the foundations, back to my comments about some of 
the faith-based initiatives out there, there are certainly 
people that would help expedite the process, as far as the cost 
to get food to some of these places.
    The Congresswoman over here said something about access to 
computers and technology. That is another issue that we believe 
private groups, whether it be faith-based, whether it be a 
foundation or something like that can be a great help in order 
to provide the resources that people could order online. And to 
your comments, they are just areas that are rural, and a 
physical store is just not going to be an option out there.
    Mr. Crawford. Mr. Beech, let me direct this to you. And we 
have Casey's in my district, and I appreciate the services you 
provide. By offering groceries in your store, you allow a lot 
of convenience and accessibility in rural communities that 
might not otherwise have access, but how do you keep your 
prices competitive with larger grocery markets, or are you able 
to?
    Mr. Beech. Well, thanks for the kind words. Yes, we pride 
ourselves that we have our own distribution system, so we think 
our prices are extremely competitive on those items. They may 
be a couple cents higher on some items, but, again, that goes 
back to the stocking requirement provision in the law. 
Convenience stores don't stock six and seven items at a time, 
because we don't have the space, so we only have one or two. So 
we have to have distribution on one and two items, as opposed 
to a case load. So our distribution is a little bit more 
expensive in that regard as an industry, but we are very 
competitive, we think, with our friends in the grocery store 
chain, and don't think that is a concern regarding this 
program.
    Mr. Crawford. Let me switch gears just a little bit. You 
talked about the point of sale system that you use, which 
differentiates what products are SNAP eligible and what 
products are not. How are those items differentiated at the 
checkout? Can a cashier, hypothetically, override the system? 
Or how does a SNAP customer go about paying if they are buying 
both eligible and ineligible products?
    Mr. Beech. Well, our system will specifically talk to them. 
It will say, this is eligible, this is not, and so then you 
will have to take that item, and then they will have to pay a 
second transaction on that. So it physically won't ring that 
up.
    Mr. Crawford. Okay. Is that a proprietary point of sale?
    Mr. Beech. No, I think it is pretty well in the industry.
    Mr. Crawford. Is it?
    Mr. Beech. These guys are shaking their heads. I think 
everybody has this in the industry, and it is fairly common to 
have that. And you have just got to keep up with your products, 
do a new price book, to make sure that is the case. But it is 
not proprietary, no.
    Mr. Crawford. Okay. All right. Thank you. I yield back.
    The Chairman. The gentleman yields back. Mr. LaMalfa, 5 
minutes.
    Mr. LaMalfa. Thank you, Mr. Chairman. Mr. Wright, I am 
sorry, I also was in a previous committee, Natural Resources, 
and didn't get to hear everything beforehand. You mentioned a 
couple times, since I have heard you talking about having 
charitable organizations, faith-based organizations, be able to 
be of assistance in this, could you expound on how far and wide 
that role could be? Because hearing you say that, seems to me 
it gives more flexibility, has probably more accountability 
than a bureaucracy that is more 9:00 to 5:00, and can probably 
help people more.
    I remember my first term here, when we first started the 
discussion on the farm bill, and the food stamp portion of the 
program, I mentioned that, and I got yelled at by the press for 
the next 2 or 3 years, saying we wanted to just turn it all 
over. But, it seems to me that I am hearing you say it could 
add an important component in helping to manage the program, or 
even be a bigger part of it. Would you expound on what you see 
as, right now, or potential in the future, you mentioned 
delivery as well. Can these organizations be part of a delivery 
system too? So please tell me what you think in the real world 
on how they could be more helpful, or take a greater role.
    Mr. Wright. In Atlanta, the store we work with, Carver 
Market, is owned by a faith-based nonprofit ministry, so there 
is an example of someone who actually did a brick and mortar 
store. You continue to see organizations at Auburn University, 
next door. You have the Hunger Solutions Institute, and a large 
outreach from that. Plenty of faith-based organizations, 
churches in rural communities, and stuff like that. So there 
are a number of resources that can come in to assist in some of 
these areas.
    I think that, especially in our area, and I will say this 
just about the SNAP Program in general, we work very hard in 
our community in Opelika to help try to move people to self-
sustainability, and we work very hard in this industry to do 
the same thing. And so our independent grocers are located in 
every district you all have. In our own community, I have tried 
to work with our city leaders and faith-based organizations, 
and we have done a good job to try to get people, again, into 
self-sustainability, but faith-based becomes a big part of that 
as we try to make connections in the community. You try to 
build relationships, you try to find out what is going on with 
people and their families that have those discussions of how 
they got there.
    Most all the people that we see using SNAP today are people 
that are trying. There are certainly people that do the wrong 
thing, on the retailer side, and also on the participant side, 
but most of the people we see in our store are trying very 
hard. And so it becomes a part where the faith-based 
organizations, or community organizations, or universities, or 
private foundations can come to the table and help, for lack of 
a better term, bridge this gap between having to have benefits 
and support in someone's life, and move that to a point of 
self-sustainability out there. We still have plenty of people 
in our country that they are, whether they are disabled, 
whether they are elderly, or something like that, don't need 
our help.
    So overall, the program is good, but whether it is our 
industry, whether it is faith-based or foundations, all the 
people who are coming to the table are trying to make this 
better. And SNAP is a good program, and between our industry, 
there is a great push in our industry on health and wellness. 
Our consumer goods companies are very much trying to make 
products healthier. We are all working collectively together. 
Industry, retailers, communities are trying to work together to 
make things better for our country, but SNAP is, for lack of a 
better term, that safety net, that bridge in there. And so we 
can----
    Mr. LaMalfa. But it is one of them. It is called the 
Supplemental Nutrition Program. There are a lot of them, so we 
kind of have to remember we are not relying completely on that 
one.
    Mr. Wright. Right.
    Mr. LaMalfa. And I appreciate that. Do you see that, again, 
Mr. Crawford mentioned, on the ability to get food to people 
that these organizations that aren't the government, and aren't 
the stores, would have a greater role in delivering, like you 
said, the disabled, or elderly and such. Is that a bigger and 
bigger piece coming, where you have grocery delivery?
    Mr. Wright. Yes. I think that for us, in our own market, 
and the customer base that we serve, we have seen that, as we 
introduce online shopping and delivery in our business, that is 
a lot of the comments we got from people looking for help. 
Either elderly that can't get out, access to food in rural 
communities, there is somebody 30 miles away from us. But that 
is----
    Mr. LaMalfa. Do you see efficiencies in that too? I mean, 
can they make----
    Mr. Wright. Well----
    Mr. LaMalfa. My time is up. All right, sir.
    Mr. Wright. Yes. And back to our earlier discussion, if you 
start going 30 miles away, there has to be some sort of central 
point that we can deliver a number of things to.
    Mr. LaMalfa. Yes, makes sense.
    Mr. Wright. And so if you have a church, or community, or 
faith-based organization that can serve as that central hub to 
help with the cost of us getting that product out there, then 
that is where the organizations you are referring to really can 
come to the table and help supplement it.
    Mr. LaMalfa. Thank you, Mr. Chairman.
    The Chairman. The gentleman's time has expired. Ms. Lujan 
Grisham, 5 minutes.
    Ms. Lujan Grisham. Thank you, Mr. Chairman, and thanks to 
the panel here today. Everyone on this Committee is always 
happy and supportive to hear about collaboration and private 
partnerships that give us opportunities to take the resources 
that we are providing that are part of the safety net, and to 
make sure that we are giving those beneficiaries as many 
opportunities as we can. In particular, the Fresh Savings 
Program is great. I do the SNAP Challenge every time that is 
offered to Members of Congress. And the only thing I could 
afford to buy, if I was going to have sufficient food for the 
week on $1.50 a meal at the grocery store was a banana. And 
everything else was processed food because it lasts longer, and 
you get bigger quantities. So, really, trying to figure out, 
through the eyes of a grocery store, how you can do that 
better, and how to really know your store, and, actually, to 
know the folks in the store, who are very helpful, usually. In 
addition, I really appreciate that Kroger and AARP are doing 
tours, so that you do have those relationships.
    I used to be the Secretary of Health and the Secretary of 
Aging. And while I am a huge supporter of the Older Americans 
Act programs, including their meal programs, which are either 
congregate meals at senior centers or home delivered meals, 
there are huge waiting lists. There are lots of problems 
currently in that system, particularly as this population is 
growing. But one of the larger issues in that program is there 
is not a requirement that we use dieticians. There are 
nutrition staff kind of looking at menus. We have to meet the 
USDA \1/3\ requirements. But the reality is, with special 
needs, special diets, and chronic illnesses, we aren't doing 
that. Do any of these programs contemplate or utilize 
nutritionists or dieticians in these tours, or helping people 
figure out, in Fresh Savings, about what is the best choices 
for them?
    Ms. Hanna. We have employed dieticians and nutritionists in 
many of our stores to help customers figure out what the 
shopping budget and order needs to look like in order to 
maximize dollars, and to make sure that it is nutritious and 
healthy, and it will avoid any kind of allergies they may have, 
or if it is any kind of medical issues that they are dealing 
with. So it is something that we have been able to do, and 
continue to promote, and work, as we can get into more stores 
with it. I think it is good.
    Ms. Lujan Grisham. I have to tell you, Mr. Chairman, that 
is very impressive. It is not an easy enterprise. It can be 
cost prohibitive for smaller stores and smaller programs, but 
it is exactly the right thing to do. And then it gets to the 
bigger issue that we have, is having those healthy outcomes, 
and providing the resources and benefits to help leverage.
    I understand that these programs, particularly the touring 
of the grocery stores, is only available in two states. Is it 
Tennessee and Mississippi, is my information right about that?
    Ms. Hanna. That is all that I am aware of.
    Ms. Lujan Grisham. All right. Well, tell us what we can do 
to help you expand those efforts. And I would actually just 
look at it from this perspective, particularly with AARP, that 
you can focus on states. Tennessee and Mississippi, I would 
say, fall into that category, where you have high poverty 
levels, you have chronic illnesses, you have obesity issues. 
New Mexico, unfortunately, falls into that category.
    But if you were to look at both maybe high risk states, and 
then states that are not high risk, and sort of see if you can 
get them on par by having those relationships, that might be a 
way to benefit the country, and those beneficiaries in a 
meaningful way, and maybe gives us an opportunity, in this 
Committee, to expand those efforts, and provide incentives in 
some way. And that would be my last thing. Let us know what we 
can do to continue to support your efforts in this regard, 
because I do think, ultimately, they make a difference.
    One last point, and I don't know how the Chairman puts up 
with me. I am lucky in this committee. But, New Mexico has one 
of the highest rates of grandparents raising grandchildren. And 
in this space, then, you have kids that are on SNAP benefits, 
and you have the senior who qualifies without raising those 
kids, and so you have that family benefit. Teaching those kids 
in that environment is great, so then you get kind of that 
family aspect. And I know AARP is well aware of those 
statistics. Florida has those issues, New Mexico has those 
issues, and that is another area for you to maybe highlight in 
the work that you are doing. Thank you very much. Thank you, 
Mr. Chairman. I yield back.
    The Chairman. The gentlelady yields back. Mr. Allen, 5 
minutes.
    Mr. Allen. Yes, sir. Thank you, Mr. Chairman, and thanks, 
all of you, for being here. And, Mr. Wright, War Eagle. I was 
over there in God's country for 4 years, between 1970 and 1974, 
so I know a little bit about that area, but good to have you 
with us here today.
    Obviously the comments I get from folks in my district is 
they go to the grocery store, they go to the convenience store, 
and they see people using the card, and then using cash to do 
other things, and either what they term, would be inappropriate 
food. And with the technology that we have today, you would 
think that we could figure that out, or maybe, as an industry, 
could we figure that out? If the Federal Government is not real 
good at figuring that out, as far as how do we stop waste, 
fraud and abuse? Because, like I said, these practices are on 
display. People see it every day, and they get real upset about 
those kind of things that are going on.
    So, Ms. Hanna, from an industry, you have probably already 
addressed some of these things, but looking down the road, is 
there a way to make sure that the right foods, and some of 
these things that we have talked about already, as an industry, 
and also dealing with the bad actors. Maybe a certification 
process, or something, that we can make this better for those 
who are in need, but also those folks, the great American 
taxpayers, who are footing the bill for this?
    Ms. Hanna. Yes. It really comes down to collaboration of 
all the parties. So it needs to be the agencies, it needs to be 
the retailers, and it needs to be the participants in 
understanding and knowing how do you make healthy choices? What 
should you be buying which is not just going to fill your 
hunger need right now, but really as the medical profession and 
the health care profession is teaching us, and teaching 
children that if you eat almonds, or if you eat a banana, that 
will sustain you longer than eating a candy bar.
    Mr. Allen. Yes.
    Ms. Hanna. But the system that has been designed, which 
provides the information to the retailers to say, here are the 
eligible items, and the retailers that have implemented that, 
and that works well, because if it needs to be clear, then FNS 
could, again, elaborate, and make things more clear. But, our 
system today, because it does tell us these are eligible items, 
and these are non-eligible items. That is well known in our 
systems today, which we all use, restrict those ineligible 
items. But it becomes more education and understanding that if 
I buy this, it really is better for me, and it is more healthy 
for me, and that will sustain me longer. So, it just becomes a 
better collaboration between all of the stakeholders that are 
involved in it.
    Mr. Allen. Mr. Wright, obviously you know most of your 
customers on a first name basis, which is great. I love to go 
to the grocery store, I will be honest with you. Of course, it 
is a great way to see my constituents and whatnot as well, and, 
of course, they can't believe that I am actually shopping for 
groceries, but I like ice cream, and my wife won't buy me ice 
cream, so I have to go buy my own ice cream.
    But, anyway, your customers, for example, that you know 
they are using the cards, and that sort of thing. I mean, would 
an orientation process, like Ms. Hanna said, education is 
critical. Where are we missing the boat? Can we have, ``Okay, 
now that you are receiving these benefits, let us have an 
orientation process.'' This is what you can buy, these are the 
kinds of things that you need, just some real good education on 
nutrition that maybe they didn't get when they were in school, 
or something like that?
    Mr. Wright. Yes, I would agree with Ms. Hanna, that there 
is a piece of education there that would help tremendously. In 
the store in Atlanta that I work with, they have done some 
things with some chefs, and had some community gatherings where 
they taught people how to cook healthier. As we talked earlier 
today, they have been very successful with a two for one SNAP 
Bucks Program that was underwritten by some private 
foundations, and it dramatically moved the amount of fresh 
produce that SNAP recipients were purchasing.
    So there are a number of initiatives out there. Certainly, 
we are all aware that the insurance thing affects all of us. 
The insurance rates affects all of us, the healthier our 
nation, the better that our rates are, and we certainly want to 
participate in that in any way we can.
    Mr. Allen. Well, we certainly want to continue the program. 
It is important to those folks who need its nutrition. But, at 
the same time, we have to fix this thing, because there are a 
lot of folks that are really upset about some of the things 
that are going on. Thank you, and I yield back.
    The Chairman. The gentleman's time has expired. Mr. 
Benishek, 5 minutes.
    Mr. Benishek. Thank you, Mr. Chairman. Thanks for being 
here this morning. I missed the early part of the hearing, so I 
apologize for that. But I just had a couple questions, little 
bit more about this nutrition thing. I am intrigued about it. 
Did I hear that some of those grocery stores actually have, 
like, a cooking class in the store? Can you just tell me a 
little bit more about that?
    Ms. Hanna. Yes. In many of our stores we have chefs who 
actually do demonstrations of cooking classes, and talk about 
how to prepare very healthy, nutritious meals, and then help 
the shoppers to create menus, and what products to buy in order 
to meet those cooking goals. We also have dietitians and 
nutritionists that also are available to help customers when 
they want to understand about----
    Mr. Benishek. Well, where are they available? Like, right 
in the store? You call them up, or what do you do?
    Ms. Hanna. No, they are in our stores, sir, in various 
locations.
    Mr. Benishek. Well, I just think that is interesting. I am 
glad you can see the usefulness of that. Let me ask another 
question to you, Ms. Hanna, because you have this big company. 
When you apply to be a part of the SNAP Program, does every 
single individual store have to make an application process, or 
do you as the company do it? Is it company-wide?
    Ms. Hanna. No, every individual store has to make an 
application to get a license to be a SNAP acceptor, so that it 
is handled on an individual level.
    Mr. Benishek. So every store is inspected, then at some 
point?
    Ms. Hanna. Yes.
    Mr. Benishek. Let me ask another question, I don't know if 
it was asked already, but there has been one reading that I 
did, it talked about, because SNAP recipients get their 
benefits all on the same day, that that sometimes can be a 
problem at the grocery store with stocking, or would there be 
some benefit in staggering that, or giving people their benefit 
twice a month? Maybe each of you could talk to this, is there 
any benefit to thinking about doing something like that?
    Ms. Hanna. Many of the states, not all of them, but many of 
the states have staggered benefits, and some have staggered 
them only a few days. Some have staggered them bi-monthly. But 
we encourage states to stagger their benefits out more days 
through the month. What happens is if you are putting out all 
of the benefits on one day, then you are going to have a lot of 
customers come in. So you have a lot of customers coming in we 
want to make sure that----
    Mr. Benishek. Right. All the hamburger is gone.
    Ms. Hanna. Well, we want to make sure that there is 
eligible stock for all the customers. And, we want to make sure 
that that is available for them. So it helps if they are 
staggered out.
    Mr. Benishek. Right. Anybody else have a comment on that?
    Mr. Wright. We are very fortunate in Alabama that we moved, 
with cooperation between NGA, Alabama Grocers Association, and 
DHR, Department of Human Resources, we moved from a 14 day 
schedule to a 21 day schedule, and it was a great help to us at 
retail in order to run the store, and, as Ms. Hanna said, to 
have the stock on the shelves, and things like that. When it 
was at 14 days, it was a challenge to really take care of 
everybody on the level that we would want to serve our 
customer.
    Mr. Benishek. I guess I don't understand the 14 versus 21 
days. What does that mean?
    Mr. Wright. Yes. In the past the benefits started 
distributing, and they are distributed by case number, and they 
were distributed over a 14 day period. And then now the 
schedule is expanded to 21, so----
    Mr. Benishek. The same number?
    Mr. Wright. Yes, they are spread out. Same number, just 
spread out further.
    Mr. Benishek. Yes, okay. Cool. All right, thank you. I will 
yield back. Thank you, Mr. Chairman.
    The Chairman. The gentleman yields back. I want to thank 
our witnesses for being here today. This has been one of the 
more bipartisan attacks on a rule system that is just not 
working. And, first off, has either your store individually, or 
your groups, put your written comments in to FNS on this new 
rule? Yes from everybody? Okay. That is really important. 
Clearly, I don't believe there is any mal-intent at FNS. They 
just don't understand the system. And then, when you don't 
understand the system, you are in an academic mode, and you 
have a way of writing rules that don't work in the real world. 
And so, hopefully, we will see FNS take this testimony, and in 
particular David Scott's rather sugar coated comments, to heart 
in this endeavor.
    Again, thank you very much. You provide an integral part of 
the system, particularly from an integrity standpoint. None of 
you want the system to be besmirched with bad actors. Like I 
said previously, they had this issue in Florida this morning, 
where a storefront with no food whatsoever had redeemed some 
$13 million in food stamps, and I am not sure how that happens. 
That investigation will go forward. But every time that pops 
up, you have folks out there who don't really understand the 
impact that feeding hungry people has, and they just come off 
on the wrong foot.
    Mr. Wright, I am particularly impressed with your heart for 
this issue, and the way that you have reached out. The things 
that you do to innovate, and the flexibility of having no 
shareholders. You have a wife and a family to decide how much 
money your store makes, and that gives you a little bit more 
freedom, perhaps, than others. But across all four witnesses I 
heard great things, in terms of trying to work with an 
important population. Some 45 million Americans are 
beneficiaries of that program, and you help to make that work.
    With that, under the rules of committee, the record of 
today's hearing will remain open for 10 calendar days to 
receive additional material, supplemental written responses 
from the witnesses to any questions posed by a Member. This 
hearing of the Committee on Agriculture is adjourned. Thank 
you.
    [Whereupon, at 11:52 a.m., the Committee was adjourned.]


 
               SUPPLEMENTAL NUTRITION ASSISTANCE PROGRAM

 (THE PAST, PRESENT, AND FUTURE OF SNAP: EVALUATING EFFECTIVENESS AND 
                         OUTCOMES IN NUTRITION

                               EDUCATION)

                              ----------                              


                        WEDNESDAY, JUNE 22, 2016

                  House of Representatives,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Committee met, pursuant to call, at 9:58 a.m., in Room 
1300 of the Longworth House Office Building, Hon. K. Michael 
Conaway [Chairman of the Committee] presiding.
    Members present: Representatives Conaway, Goodlatte, Gibbs, 
Austin Scott of Georgia, Gibson, Hartzler, Benishek, Davis, 
Yoho, Walorski, Allen, Bost, Rouzer, Abraham, Moolenaar, 
Newhouse, Kelly, Peterson, David Scott of Georgia, Fudge, 
McGovern, DelBene, Vela, Lujan Grisham, Kuster, Nolan, Bustos, 
and Graham.
    Staff present: Caleb Crosswhite, Haley Graves, Jadi 
Chapman, Mary Nowak, Stephanie Addison, Faisal Siddiqui, Lisa 
Shelton, Liz Friedlander, Mary Knigge, Robert L. Larew, Nicole 
Scott, and Carly Reedholm.

OPENING STATEMENT OF HON. K. MICHAEL CONAWAY, A REPRESENTATIVE 
                     IN CONGRESS FROM TEXAS

    The Chairman. This hearing of the Committee on Agriculture, 
The Past, Present, and Future of SNAP: Evaluating Effectiveness 
and Outcomes in Nutrition Education, will come to order.
    Please join me in a quick prayer.
    Holy Father, thank you, Lord, for the privilege of serving 
as we do here, Members of Congress. Help us to be worthy of the 
trust that our constituents put in us. Give us wisdom and 
knowledge and discernment as we deal with things that affect 
the lives of everyday, good-hearted American people. Blessings 
to our Service. And we ask these things in Jesus' name. Amen.
    All right. Well, good morning. Thanks everybody for being 
here.
    I want to welcome the witnesses to today's hearing and 
thank them for taking the time to share their impressive 
collaborative experience working to improve the diets and 
health among families across the country through nutrition 
education. This hearing, like those before, builds on the 
Committee's top-to-bottom review of the Supplemental Nutrition 
Assistance Program, or SNAP, so as the Committee concludes our 
review, we will be positioned to make meaningful improvements 
to the program. As the Committee with jurisdiction over USDA, 
it is one of our principal responsibilities to oversee these 
programs to ensure that they are working most effectively for 
recipients, community leaders, and the American taxpayers.
    In this hearing we will discuss the history and evolution 
of the SNAP-Ed program, which is the nutrition education arm of 
SNAP; specific program models and interventions; how SNAP-Ed 
complements and works with other nutrition education programs, 
such as the Expanded Food and Nutrition Extension Program, or 
EFNEP; and efforts currently taking place that put greater 
emphasis on measuring outcomes to ensure dollars are used 
effectively.
    As a component of the overall SNAP program, the mission of 
SNAP-Ed is to improve the likelihood that persons eligible for 
SNAP will make healthy choices within a limited budget, and 
choose active lifestyles consistent with the current Dietary 
Guidelines for Americans. This is no short order. More than \2/
3\ of Americans, and nearly \1/3\ of children and youth are 
overweight or obese. About \1/2\ of all American adults; 117 
million individuals, have one or more preventable chronic 
diseases, many of which are related to poor quality eating 
patterns and physical inactivity. These high rates of 
overweight and obesity and chronic disease have persisted for 
more than 2 decades and have come not only with increased 
health risks, but also at a very high cost. In 2008, the 
medical costs associated with obesity was estimated to be $147 
billion.
    There is no silver bullet to these serious health issues. 
It is a complex problem that will likely take a multi-prong 
approach. While obesity cannot be tied solely to socioeconomic 
status, it can be linked to food insecurity. It will take a 
collaboration between policymakers, state and local 
organizations, business and community leaders, schools, 
childcare, healthcare professionals, and individuals to create 
an environment that supports a healthy lifestyle for all 
Americans, and that is what we want to achieve.
    Throughout our review of SNAP, we have consistently heard 
that community engagement and collaboration are key in 
addressing many of the challenges communities face. Responses 
at the local level are more reactive and able to address the 
individual needs in their neighborhoods
    I am eager to hear from our witnesses today how they have 
leveraged Federal resources to improve the nutritional quality 
and overall health of low-income families in their communities.
    Historically, Congress has supported and invested in 
prevention programs, such as SNAP-Ed and the EFNEP, which 
educate and promote healthy eating habits to prevent long-term 
health-related expenses, and to empower low-income individuals 
to cook nutritious meals on a budget. In addition to nutrition 
education, this February the House Agriculture Committee held a 
hearing to review the Food Insecurity Nutrition Incentive, or 
FINI, program which aims to increase the consumption of fruits 
and vegetables. These approaches seem to each have their place 
in promoting proper nutrition. But, as we get closer to 
concluding our SNAP review, are there alternatives in which we 
can improve overall health outcomes?
    Again, I want to thank our witnesses for providing their 
expertise and working with our Agriculture Committee to ensure 
SNAP recipients are given a recipe for successful health.
    [The prepared statement of Mr. Conaway follows:]

  Prepared Statement of Hon. K. Michael Conaway, a Representative in 
                          Congress from Texas
    I want to welcome our witnesses to today's hearing and thank them 
for taking the time to share their impressive collaborative experience 
working to improve the diets and health among families across the 
country through nutrition education. This hearing, like those before, 
builds upon the Committee's top-to-bottom review of the Supplemental 
Nutrition Assistance Program, or SNAP, so as the Committee concludes 
our review, we will be positioned to make meaningful improvements to 
the program. As the Committee with jurisdiction over USDA, it is one of 
our principal responsibilities to oversee these programs to ensure they 
are working most effectively for recipients, community leaders, and the 
American taxpayers.
    In this hearing we will discuss the history and evolution of the 
SNAP-Ed program, which is the nutrition education arm of SNAP; specific 
program models and interventions; how SNAP-Ed compliments and works 
with other nutrition education programs, such as the Expanded Food and 
Nutrition Extension Program, or EFNEP; and efforts currently taking 
place that put greater emphasis on measuring outcomes to ensure dollars 
are used effectively.
    As a component of the overall SNAP program, the mission of SNAP-Ed 
is to ``improve the likelihood that persons eligible for SNAP will make 
healthy choices within a limited budget and choose active lifestyles 
consistent with the current Dietary Guidelines for Americans.'' This is 
no short order. More than \2/3\ of adults and nearly \1/3\ of children 
and youth are overweight or obese. About \1/2\ of all American adults--
117 million individuals--have one or more preventable chronic diseases, 
many of which are related to poor quality eating patterns and physical 
inactivity. These high rates of overweight and obesity and chronic 
disease have persisted for more than 2 decades and come not only with 
increased health risks, but also at a high cost. In 2008, the medical 
costs associated with obesity were estimated to be $147 billion.
    There is no silver bullet to these serious health issues. It's a 
complex problem that will likely take a multi-prong approach. While 
obesity cannot be tied solely to socioeconomic status, it can be linked 
to food insecurity. It will take a collaboration between policymakers, 
state and local organizations, business and community leaders, schools, 
childcare and healthcare professionals, and individuals to create an 
environment that supports a healthy lifestyle for all Americans--and 
that's what we want to achieve. Throughout our review of SNAP, we have 
consistently heard that community engagement and collaboration are key 
in addressing many of the challenges communities face. Responses at the 
local level are more reactive and able to address the individual needs 
in their neighborhoods. I am eager to hear from our witnesses today how 
they have leveraged Federal resources to improve the nutritional 
quality and overall health of low-income families in their communities.
    Historically Congress has supported and invested in prevention 
programs, such as SNAP-Ed and EFNEP, which educate and promote healthy 
eating habits to prevent long-term health related expenses, and empower 
low-income individuals to cook nutritious meals on a budget. In 
addition to nutrition education, this February the Agriculture 
Committee held a hearing to review the Food Insecurity Nutrition 
Incentive, or FINI, program which aims to increase the consumption of 
fruits and vegetables. These approaches seem to each have their place 
in promoting proper nutrition, but as we get closer to concluding our 
review of SNAP, are there alternative ways in which we can improve 
overall health outcomes?
    Again, I want to thank our witnesses for providing their expertise 
and working with the Agriculture Committee to ensure SNAP recipients 
are given a recipe for successful health.

    The Chairman. And with that, I turn to the Ranking Member 
for any comments that he has.

OPENING STATEMENT OF HON. COLLIN C. PETERSON, A REPRESENTATIVE 
                   IN CONGRESS FROM MINNESOTA

    Mr. Peterson. Thank you, Mr. Chairman. And I would also 
like to welcome today's witnesses to the Committee, and I look 
forward to hearing your testimony on SNAP education efforts.
    SNAP education and outreach is important, and there are a 
lot of lessons that can be learned from some of these efforts 
that the states have undertaken. Minnesota, for example, has a 
collaborative program called Choose Health that makes CSA 
shares available to low-income households. I am looking forward 
to learning more about other state programs.
    I believe this is the 15th hearing the Committee has held 
to review SNAP. It has certainly been a thorough review. And 
hopefully, what we learn today can be combined with information 
from past hearings, and we can focus on developing good 
policies.
    So with that, I look forward to hearing the witnesses, and 
yield back.
    The Chairman. I thank the gentleman.
    The chair would request other Members submit their opening 
statements for the record so the witnesses may begin their 
testimony, to ensure there is ample time for questions.
    [The prepared statement of Ms. Adams follows:]

Prepared Statement of Hon. Alma S. Adams, a Representative in Congress 
                          from North Carolina
    Thank you Mr. Chairman.
    It is well established by public health professionals that the 
consumption of more fresh fruits and vegetables is key to better weight 
management.
    Funding from SNAP-Ed and the Expanded Food and Nutrition Education 
Program have provided critical resources to land-grant universities 
such as my alma mater North Carolina A&T, to educate families and 
children on healthy eating and living habits in the 12th District.
    The current level of SNAP benefits is not enough for families to 
purchase fresh fruits and vegetables and to put food on the table 
through the end of the month.
    SNAP benefits must be increased to allow families to fully utilize 
the skills they learn in SNAP education programs.
    That is why last month I introduced H.R. 5215, the Closing the Meal 
Gap Act of 2016.
    Among its several provisions to strengthen the SNAP program, this 
bill requires that SNAP benefits be calculated using the Low Cost Food 
Plan instead of the Thrifty Food Plan. Using the Low Cost Food Plan 
takes into account how much working people, including SNAP recipients, 
spend on food in order to have a nutritious diet.
    I thank Members of this Committee who have already joined this 
important legislation, and encourage all Members to cosponsor this 
bill.

    The Chairman. I would like to welcome to our witness table 
today Dr. Kimberlydawn Wisdom, Senior Vice President, Community 
Health and Equity at the Henry Ford Health System in Detroit, 
Michigan. I was just in Detroit on Friday. The weather was 
perfect, along with my visit. I had a good time. Ms. Susan 
Foerster, Founding Member of the Association of SNAP Nutrition 
Administrators, Carmichael, California. Dr. Shreela Sharma, 
Professor of Epidemiology at the University of Texas, and she 
is a Co-Founder of Brighter Bites, Houston, Texas. And I would 
like to recognize Mrs. Hartzler to introduce our final witness.
    Mrs. Hartzler. Thank you, Mr. Chairman. I am really excited 
to introduce a real hero of nutrition education from Missouri, 
and that is Dr. Jo Britt-Rankin. She is the Associate Dean of 
Extension at the University of Missouri, and Dr. Britt-Rankin 
serves as the Administrative Director of the Expanded Food and 
Nutrition Education Program and SNAP Education Programs for the 
State of Missouri.
    Dr. Britt-Rankin received both her Master's and Doctorate 
in nutrition education from the University of Missouri, my alma 
mater, and her Bachelor's in human development and family 
studies from the University of Illinois.
    Like myself, Dr. Britt-Rankin has spent a significant 
amount of her career dedicated to nutrition education. We 
appreciate her leadership and expertise, and we look forward to 
your testimony.
    Thank you. I yield back.
    The Chairman. Thank you very much.
    Dr. Wisdom, when you are ready to begin, the microphone is 
yours.

   STATEMENT OF KIMBERLYDAWN WISDOM, M.D., M.S., SENIOR VICE 
  PRESIDENT, COMMUNITY HEALTH & EQUITY AND CHIEF WELLNESS AND 
    DIVERSITY OFFICER, HENRY FORD HEALTH SYSTEM, DETROIT, MI

    Dr. Wisdom. Good morning, Chairman Conaway, Ranking Member 
Peterson, and Members of the Committee. Thank you for the 
opportunity to speak before you today to discuss the critical 
importance of SNAP and SNAP nutrition education for good 
health.
    My name is Dr. Kimberlydawn Wisdom, and I am Senior Vice 
President of Community Health and Equity, and the Chief 
Wellness and Diversity Officer at Henry Ford Health System in 
Detroit, Michigan, one of the nation's leading comprehensive 
integrated health systems, and a Malcolm Baldrige National 
Quality Award winner. I am a board certified emergency medicine 
physician, and previously served as Michigan's, and the 
nation's, first state-level Surgeon General. I also serve on 
the Board of the Public Health Institute, which has been one of 
the nation's leading implementers of SNAP nutrition education, 
also known as SNAP-Ed.
    Henry Ford Health System is proud to implement a SNAP-Ed 
program in the City of Detroit and Macomb County. As a 
physician, I can attest that both SNAP and SNAP-Ed are vital 
tools in our arsenal to tackle the challenges of obesity, 
chronic disease, and hunger that threaten the health and well-
being of our nation.
    For over 50 years, SNAP has served as the foundation of the 
nation's hunger safety net, helping to combat the impact of 
poverty and subsequent malnutrition. In the 21st century, the 
face of malnutrition looks very different than the extreme 
hunger that shocked so many Americans when the food stamp 
program was first established.
    Today, SNAP recipients live in neighborhoods and 
communities where making healthy choices can be challenging, if 
not impossible, due to the lack of safe, well-equipped, and 
well-maintained places to work and play, and the absence of 
nearby full-service grocery stores and other health services. 
These factors contribute to the malnutrition that now coexists 
with overweight and obesity. Comprehensive literature reviews 
examining neighborhood disparities and food access have found 
that neighborhood residents with better access to supermarkets 
tend to have healthier diets and reduced risk for obesity.
    While the face of malnutrition today is different than it 
was, the root cause and solutions remain the same, and SNAP 
continues to be our nation's first-line defense to improve 
nutrition and well-being among low-income Americans.
    Research clearly shows that USDA Federal nutrition programs 
do not contribute to the current obesity crisis in the United 
States. Instead, SNAP participation is associated with better 
dietary quality among low-income adults who are food-insecure. 
In fact, by improving dietary intake and reducing food 
insecurity, participation in Federal nutrition programs plays a 
critical role in obesity prevention.
    Henry Ford Health Systems' SNAP-Ed program funded through a 
grant from the Michigan Fitness Foundation is called Generation 
With Promise, and is one example of 49 effective programs 
throughout the State of Michigan that are changing the culture 
of food and health. Now in its ninth year, the program reaches 
youth and families in Detroit and Macomb County, and provides 
nutrition education, physical activity promotion, youth 
leadership development in elementary, middle, and high schools. 
We also work with community and faith-based organizations to 
promote healthy eating through cooking demonstrations and 
nutrition education.
    Today, our program serves among 40,000 youth and adults at 
schools, community organizations, and faith-based sites, with 
nearly 115,000 contacts. As a result of our program, just under 
90 percent of adults reported an increase in their consumption 
of fruits and vegetables, and over 80 percent of youth reported 
an increase in their consumption of fruits and vegetables. All 
aspects of our program are evaluated to measure impact and 
outcomes.
    Overall, in 2014 and 2015, Michigan's SNAP-Ed program, 
funded through the Michigan Fitness Foundation, has shown an 
annual increase in fruit and vegetable consumption of 170,000 
to 200,000 cups per day statewide; a health and an economic 
driver.
    SNAP-Ed is also making connections to healthy food systems 
and other resources and communities, including gardening, 
cooking classes, and farmers' markets. These partnerships 
benefit Michigan's farmers, strengthen the local economy, and 
provide farmers with new revenue streams and increased sales of 
specialty crops. SNAP-Ed is helping low-income families learn 
the importance and value of agriculture and the source of their 
food.
    Last October, as news of the public health water crisis in 
Flint emerged, the Michigan Fitness Foundation and SNAP-Ed 
partners were able to react quickly to adjust and augment their 
nutrition education focus, and reach under-served neighborhoods 
and residents to highlight food and food safety practices that 
were lead-protecting.
    In closing, I want to underscore that both SNAP and SNAP-Ed 
are key in our fight to address the epidemic of obesity and 
overweight in children and adults that leads to largely 
preventable chronic diseases. These programs are critical in 
the effort to eliminate hunger and malnutrition, particularly 
in children, and can help improve overall poor health that 
perpetuates a cycle of poverty.
    Thank you so much for your time and attention.
    [The prepared statement of Dr. Wisdom follows:]

   Prepared Statement of Kimberlydawn Wisdom, M.D., M.S., Senior Vice
 President, Community Health & Equity and Chief Wellness and Diversity 
             Officer, Henry Ford Health System, Detroit, MI
    Good morning Chairman Conaway, Ranking Member Peterson, and Members 
of the Committee. Thank you for the opportunity to speak today.
    My name is Dr. Kimberlydawn Wisdom, and I am the Senior Vice 
President of Community and Health Equity and Chief Wellness and 
Diversity Officer at Henry Ford Health System in Detroit, Michigan. I 
am a board-certified Emergency Medicine Physician, the Chair of the 
Gail and Lois Warden Endowment on Multicultural Health, and previously 
served as Michigan's--and the nation's--First State-level Surgeon 
General. For the last 4 years, I've served on the Advisory Group on 
Prevention, Health Promotion and Integrative and Public Health, 
appointed by President Obama, where we advise his cabinet regarding 
health promotion and prevention health policy. I am on the faculty of 
the University of Michigan Medical School's Department of Medical 
Education, adjunct professor in the University of Michigan's School of 
Public Health, and have focused my work on health disparities and 
health care equity, infant mortality and maternal and child health, 
chronic disease, physical activity, unhealthy eating habits, tobacco 
use and youth leadership development. I also serve on the Board of the 
Public Health Institute, a global nonprofit headquartered in 
California, which has been one of the nation's leading implementers of 
SNAP nutrition education.
Henry Ford Health System
    Henry Ford Health System is one of the nation's leading 
comprehensive, integrated health systems that provides health insurance 
and health care delivery, including acute, specialty, primary and 
preventive care services backed by excellence in research and 
education. Founded in 1915 by auto pioneer Henry Ford, we are committed 
to improving the health and well-being of a diverse community and in 
2011 we were recognized for our commitment to quality through the 
receipt of the prestigious Malcolm Baldrige National Quality Award. 
Henry Ford Health System is proud to implement a Supplemental Nutrition 
Assistance Program (SNAP) nutrition education program in the City of 
Detroit and Macomb County that works to improve the long term health 
and well-being of the SNAP-eligible families.
SNAP and SNAP-Ed Vital for Health
    I am very pleased to have an opportunity to talk about the critical 
importance of SNAP and SNAP Nutrition Education (SNAP-Ed) for good 
health. As a physician, researcher/educator and public health leader, 
and as Michigan's former Surgeon General, I can attest that both SNAP 
and SNAP-Ed are a critical part of our Federal arsenal working to 
confront the twin threats of obesity and hunger that threaten the 
health and well-being of our nation.
    Just as the health of the American people is vital to our economic 
and national security, good nutrition is fundamental for public health, 
educational achievement and work productivity. Food security is a 
fundamental social determinant critical to community resilience. 
Without question, SNAP is helping low-income families put healthy, 
nutritious food on the table during times of need.
    For over 50 years, SNAP has served as the foundation of our 
nation's hunger safety net, helping to combat the impact of poverty and 
subsequent malnutrition. In the 21st century, the face of malnutrition 
looks very different than the extreme hunger that shocked so many 
Americans when the Food Stamp program was first established.
    Today, SNAP recipients live in neighborhoods and communities where 
making healthy choices can be challenging, if not impossible, due to 
the lack of safe, well-equipped and well-maintained places to walk and 
play, and the absence of nearby full service grocery stores and other 
health services. Many of these communities are considered `food swamps' 
due to the inadequate access to supermarkets and reliance on 
convenience stores, as well as a higher concentration of fast-food 
outlets limiting food choices to high calorie low nutrient foods.
    These factors contribute to the malnutrition that now co-exists 
with overweight and obesity. Comprehensive literature reviews examining 
neighborhood disparities in food access have found that neighborhood 
residents with better access to supermarkets and limited access to 
convenience stores tend to have healthier diets and a reduced risk for 
obesity (Larson, et al., 2009; Bell, et al., 2013). Low income 
communities and communities of color, including those in households 
eligible for SNAP, are disproportionately affected by obesity and 
chronic disease resulting from limited access to the fundamentals of a 
healthy lifestyle-healthy food and safe places to be active.
    The health-related costs attributable to food insecurity nationwide 
were estimated to be $160.07 billion in 2014 alone (Cook, et al., 
2016). At the same time the costs in health care, disability, workers' 
compensation, and economic losses from lost worker productivity are 
matched by the personal toll on individuals and their families.
    For the first time in U.S. history, reported by the Centers for 
Disease Control and Prevention, our youngest generation is expected to 
have a shorter lifespan than their parents--a result of childhood 
obesity and chronic disease. Obesity is linked to increased risks for 
many serious and largely preventable diseases, including type 2 
diabetes, heart disease, stroke, and some cancers. Nationally, the 
prevalence of diabetes among adults has nearly tripled over the past 30 
years. Research has found that African American and Latino populations 
are disproportionately affected, with a lifetime risk of more than 50 
percent compared to the general population's 40 percent.
    While the face of malnutrition today is different than it was, the 
root causes and solutions remain the same and SNAP continues to be our 
nation's first line of defense to improve nutrition and well-being 
among low-income Americans. SNAP benefits provide an essential resource 
and are a powerful tool to help ensure that very-low-income Americans 
can afford a nutritionally adequate diet. Expanding the use of these 
types of Federal nutrition assistance programs and child nutrition 
programs such as school meals and the Supplemental Nutrition Program 
for Women, Infants and Children (WIC), is critical to help reduce high 
rates of food insecurity among the low-income population.
    Let me be clear, SNAP participation does not lead individuals and 
families using the program to make poor choices or be overweight. Far 
from it. Research clearly shows that United States Department of 
Agriculture (USDA) Federal nutrition programs do not contribute to the 
current obesity crisis in the U.S. (Fan & Jin, 2015; Gleason, et al., 
2009; Hofferth & Curtin, 2005; Linz, et al., 2004; ver Ploeg, 2009; ver 
Ploeg, et al., 2008). Instead, SNAP participation is associated with 
better dietary quality among low-income adults who are food-insecure 
(Nguyen, et al., 2015). More specifically, compared to similar low-
income non-participants, SNAP participants with marginal, low, and very 
low food security have better overall dietary quality. In fact, by both 
improving dietary intake and reducing food insecurity, participation in 
the Federal nutrition programs plays a critical role in obesity 
prevention.
    SNAP is effective in its mission to mitigate the effects of poverty 
on food insecurity and is further enhanced by SNAP-Ed, the nutrition 
education and obesity prevention arm of SNAP that works to ensure that 
low-income families will make healthy diet and physical activity 
choices within a limited budget.
    SNAP-Ed is a critical piece of the equation working to improve 
nutrition and prevent or reduce diet-related disease and obesity among 
SNAP-eligible households. Throughout the United States, SNAP-Ed 
programs work to promote healthy behaviors and reach low-income 
families where they live, learn, work, play and pray. The program helps 
low-income families understand the importance of healthy choices and 
empowers parents and their children to make the healthy choice the 
easily accessible and affordable choice.
    SNAP-Ed plays an active role in improving dietary and physical 
activity practices, while helping to increase community food security, 
prevent obesity and reduce the risk of chronic disease for low-income 
Americans. A study conducted in California in 2012 found that the 
greatest concentration of SNAP-Ed interventions was associated with 
adults and children eating more fruits and vegetables, and adults 
eating fast food less frequently. These findings demonstrate the 
potential impact of such interventions and how SNAP-Ed plays an 
important role in addressing both chronic disease and the obesity 
epidemic in the United States (Molitor, et al., 2015).
SNAP-Ed: Generation With Promise
    Henry Ford Health System's SNAP-Ed Program, funded through a grant 
from the Michigan Fitness Foundation, is called Generation with Promise 
(GWP) and is one example of 49 effective programs throughout the state 
of Michigan that are changing the culture of food and health. Now in 
its ninth year, GWP reaches youth and families in Detroit and Macomb 
County and provides nutrition education, physical activity promotion 
and youth leadership in elementary, middle, and high schools, alongside 
proven public health approaches that increase healthy behaviors. GWP 
also works with community and faith-based organizations, promoting 
healthy eating through cooking demonstrations and nutrition education.
    Today, GWP serves 37,360 youth and adults in 2015, at schools, 
community organizations and faith-based sites with nearly 115,000 
contacts. Due to GWP, 89.9% of adults reported an increase in their 
consumption of fruits or vegetables and 81.4% of youth reported an 
increase in their consumption of fruits or vegetables. All aspects of 
our program are evaluated to measure impact and outcomes. Overall, in 
2014 and 2015, Michigan SNAP-Ed programs funded through the Michigan 
Fitness Foundation, including GWP, have shown an annual increase in 
fruit and vegetable consumption of 170,000 to 200,000 cups per day 
statewide, a health and economic driver!
    We are proud of the breadth of interventions within our programs, 
from cooking classes taught by a chef and dietitian or nutrition 
educator classes that include a grocery store tour, to interventions 
that teach menu and meal planning and how to stretch food dollars on a 
low-income budget. Participants willingly learn about healthy and 
delicious food that is not expensive or difficult to make. The number 
one most common comment we hear at the end of the class series is that 
participants wish the class was longer!
    Leveraging other funds and demonstrating the value of a true 
community partnership, Henry Ford Health System is also able to provide 
groceries to participants so that they replicate the recipes at home. 
Nearly all participants report that they made the recipe at home during 
the week. Participants have followed up with our team to share their 
great news including losing 50 pounds and keeping it off for 6 months 
after the program, cooking dinner with their middle-school aged 
children, and enrolling in classes related to culinary arts, dietetics 
or health.
    SNAP-Ed is also making connections to healthy food systems and 
other resources in communities including gardening, cooking classes and 
farmers' markets. For example, GWP provided 60 recipe demonstrations, 
tastings, and nutrition education at ten Detroit Community Markets and 
other farmers' markets in low-income neighborhoods. Nearly all 
attendees said they were inspired to prepare new recipes. GWP has 
provided SNAP-Ed in grocery stores in partnership with Michigan Fitness 
Foundation and the Michigan Department of Health and Human Services, 
and with Double Up Food Bucks and the Fair Food Network using Michigan 
Harvest of the Month educational strategies and materials.
    Through these community partnerships with local organizations, SNAP 
recipients can shop at the local farmers' markets and some grocery 
stores and receive twice as much of locally grown produce at an 
affordable price. This partnership also benefits local farmers, 
strengthening the local economy and providing farmers with new revenue 
streams and increased sales of specialty crops. SNAP-Ed is helping low-
income families learn the importance and value agriculture and the 
sources of their food.
    I cannot underscore enough the way in which SNAP-Ed is a versatile 
tool that can respond to the nutrition and health needs of low-income 
families in our state. Last October, as news of the public health water 
crisis in Flint emerged, the Michigan Fitness Foundation and SNAP-Ed 
partners were able to react quickly to adjust and augment their 
nutrition education focus to highlight foods and food safety practices 
that were lead protecting. Over the past months, Michigan Fitness 
Foundation and SNAP-Ed have been essential in continuing to connect 
increasing numbers of partners and programs to reach under-served 
neighborhoods and residents to support a foundation on which to build 
the Flint of the future.
Priority Recommendations
    Improvements can be made and I would suggest the following 
recommendations to further strengthen and maximize the health and 
nutritional impact of SNAP and SNAP-Ed.

  1.  To better combat food insecurity and childhood hunger, income 
            eligibility criteria should not exclude children whose 
            families happen to live in high-cost states. USDA should 
            index income criteria for food assistance program 
            eligibility to local or regional cost of living, such as 
            the Cost of Living Index or other recognized measure, 
            rather than the nationally-applied Federal Poverty Level 
            (FPL).

  2.  The Thrifty Food Plan, used as the fiscal base for SNAP, should 
            be modified to increase the benefit value and accommodate 
            the generally-higher prices of healthy food and regional 
            variability in cost of living.

  3.  Remove restrictions that prevent retailers from offering 
            Electronic Benefit Transfer (EBT) point of sale--and 
            promotional prices for healthy foods such as fruits and 
            vegetables, whole grains etc.

  4.  SNAP-Ed should be utilized to provide technical assistance and 
            training to convenience store business owners and smaller 
            retailers, combined with common sense stocking standards 
            for SNAP that increase the availability of fresh foods in 
            all four food categories. This would have the benefit of 
            increasing the availability, accessibility and possibly 
            lower the price of healthy food in many low-income 
            communities. SNAP-Ed implementing agencies can be 
            encouraged to work with the private sector and community 
            partners to help small businesses and convenience stores 
            identify and establish procurement systems that increase 
            healthy food options for their customers.

  5.  Initiatives such as Double Up Food Bucks and Michigan Farm to 
            Family in Michigan, Market Match in California, and other 
            Food Insecurity Nutrition Incentive (FINI) grants across 
            the county should be leveraged and replicated to increase 
            healthy food purchasing by SNAP-eligible families and 
            encourage the participation at more local and chain grocery 
            stores.

  6.  Congress and USDA should provide startup grants and establish a 
            public-private innovation fund that would support technical 
            assistance networks that help states and localities 
            implement, adapt and take to scale evidence based nutrition 
            education interventions and strategies throughout the 
            country. Topics and activities that could be part of such 
            technical assistance networks could include: community food 
            system assessments, Electronic Benefits Transfer (EBT) at 
            farmers' markets, corner store conversion projects, 
            community-supported agriculture, farm-to-fork sourcing, 
            state or local food policy councils, agricultural 
            preservation, small farm and new farmer programs, and 
            community/school gardens. This low-cost network might be 
            established using public and private grants or cooperative 
            agreements with nonprofit public health, anti-hunger and 
            food security organizations; the existing Cooperative 
            Extension system; FNS programs; partnerships with other 
            sectors like foundations, nonprofit health plans, insurers 
            and hospitals; and sister Federal agencies like the Centers 
            for Disease Control and Prevention (CDC), Department of 
            Transportation, Department of Education, and Housing and 
            Urban Development.

    In closing, I want to underscore that both SNAP and SNAP-Ed are key 
in our fight to address the epidemic of obesity and overweight in 
children and adults that leads to largely preventable chronic diseases. 
These programs are critical in the effort to eliminate hunger and 
malnutrition, particularly in children, and can help improve overall 
ill health that perpetuates the cycle of poverty.
    Across our country SNAP families are striving, working hard to make 
ends meet and put healthy food on the table, often in very challenging 
circumstances. These families are the solution finders. Many are the 
families of those serving in our armed forces here at home and 
overseas. With limited resources, SNAP-Ed is empowering these families 
with the tools necessary to make a healthy choice. SNAP-Ed is a small 
program but it has an impact and influence well beyond its size.
    I welcome the opportunity to work with Congress and USDA to 
identify measures that can identify and remove obstacles limiting the 
reach, impact and effectiveness of the Federal nutrition programs, 
including SNAP-Ed, and to create sustainable healthy change in under-
served communities.
    Thank you for your time and consideration of my recommendations. I 
am happy to answer any questions.
References
    J. Cook and A.P. Poblacion (2016) ``Estimating the Health Related 
Costs of Food Insecurity.'' 2016 Hunger Report. www.hungerreport.org.
    M. Fan and Y.H. Jin (2015). ``Supplemental Nutrition Assistance 
Program and Childhood Obesity in the U.S.: Evidence from the National 
Longitudinal Survey of Youth 1997.'' American Journal of Health 
Economics.
    Hofferth, Sandra L., and Sally Curtin. ``Poverty, food programs, 
and childhood obesity.'' Journal of Policy Analysis and Management 24.4 
(2005): 703-726.
    Gleason, Philip. School meal program participation and its 
association with dietary patterns and childhood obesity. No. 55. DIANE 
Publishing, 2010.
    Leung, Cindy W., et al. ``Dietary intake and dietary quality of 
low-income adults in the Supplemental Nutrition Assistance Program.'' 
The American Journal of Clinical Nutrition (2012): ajcn-040014.
    Molitor, Fred, et al. ``Peer Reviewed: Reach of Supplemental 
Nutrition Assistance Program-Education (SNAP-Ed) Interventions and 
Nutrition and Physical Activity-Related Outcomes, California, 2011-
2012.'' Preventing Chronic Disease 12 (2015).
    Ver Ploeg, Michele L., and Katherine L. Ralston. ``Food Stamps and 
obesity: What do we know?.'' Economic Information Bulletin 34 (2008).
    Ver Ploeg, Michele, et al. ``U.S. Food assistance programs and 
trends in children's weight.'' International Journal of Pediatric 
Obesity 3.1 (2008): 22-30.
    Gregory, Christian, et al. ``Supplemental Nutrition Assistance 
Program (SNAP) participation leads to modest changes in diet quality.'' 
Economic Research Report 147 (2013).
    Nguyen, Binh T., et al. ``The Supplemental Nutrition Assistance 
Program, food insecurity, dietary quality, and obesity among U.S. 
adults.'' American Journal of Public Health 105.7 (2015): 1453-1459.

    The Chairman. Thank you, Dr. Wisdom.
    Ms. Foerster.

 STATEMENT OF SUSAN B. FOERSTER, M.P.H., EMERITUS AND FOUNDING 
MEMBER, ASSOCIATION OF SNAP NUTRITION EDUCATION ADMINISTRATORS, 
                         CARMICHAEL, CA

    Ms. Foerster. Good morning. Chairman Conaway, Ranking 
Member Peterson, Members of the Committee, thank you for the 
invitation.
    My name is Susan Foerster, and I am here today representing 
the Association of SNAP Nutrition Education Administrators. We 
have members in all 50 states and territories, and our job is 
to administer the SNAP-Ed program in the organizations that we 
come from. My background is that I ran the largest SNAP-Ed 
program in California, and during that time we were able to see 
an increase in fruit and vegetable consumption among low-income 
adults, to the point that it reached the same level as higher-
income and higher-education people. We don't know for sure if 
it was SNAP-Ed, but there was nothing else going on, so we 
think it was. In addition, we have some studies from California 
that show a dose response relationship. The more intervention, 
the better the dietary practices.
    Today, I am talking with you in my capacity as the co-lead 
for evaluation with the ASNNA organization, and so I am going 
to be able to talk a little bit about the background of SNAP-Ed 
and the way it looks today, and the way we want to see it in 
the future.
    In my 2 years in retirement, I have been able to work with 
the other states, across state lines, to address the issue of 
evaluation and outcomes. So I know you are interested in that, 
and we will go from there.
    I am going to talk about the farm bill policies; how 
Federal policy has influenced the history of the program, what 
SNAP-Ed looks like now, what has been done administratively to 
be sure that the program is accountable for results and well-
administered, and finally, where we are going in the future.
    What we really have in SNAP-Ed are three generations. 
Nutrition education in the SNAP program was authorized in the 
Farm Bill of 1981. It was based on the EFNEP model which was 
direct education by paraprofessionals. By the middle 1990s, 
however, evaluations were being done, we had the Dietary 
Guidelines telling us that many more Americans were not eating 
well, and so the idea was that we needed a wider range of 
techniques. And so social marketing was introduced as a social 
innovation model, and that allowed us to use the same kind of 
techniques that the food industry was using to get people to 
eat healthy.
    Then by 2010, when the Healthy Hunger-Free Kids Act was 
passed, many of the changes that we had wanted to see and had 
experienced in the field made the third generation of SNAP-Ed, 
and that was that our scope expanded to include physical 
activity and obesity prevention, larger-scale approaches and 
community approaches. The funding changed so that there was a 
grant mechanism rather than Federal financial participation, 
and the program was capped based on the 2009 funding to 2018. 
So that is kind of where we are right now. There is a 
reallocation schedule in place that started in 2014, and will 
conclude in 2018 when the new farm bill comes up.
    In terms of where we are right now, the size of our 
population that we are trying to influence is 90 million people 
that have incomes below 185 percent of poverty. Of that, about 
40 million are already SNAP participants, and you can see that 
the scope of our effort is quite large.
    We reach people through the places they go, the 
institutions that they use, and through mass communications. We 
work in highly targeted ways in Census tracks and institutions 
where the majority of people have incomes below 185 percent of 
poverty.
    We work through all the state SNAP programs, and there are 
about 144 what we call state implementing agencies that 
actually administer the funds and usually put most of them out 
the door to other kinds of nonprofit and government agencies. 
They also pay for business processes such as mass media, 
printing, and so forth.
    The reach of the program, we can only tell you really the 
tip of the iceberg, and that is in 2015, we know that we 
educated at least six million people, on whom we have 
demographic information, with direct education. We do not have 
numbers on those that were reached indirectly through community 
programs where we couldn't get the demographics on the people, 
but the services for direct education were in 50,000 low-income 
sites across the country. So six million people with direct 
education, 50,000 sites, 20 different kinds of channels, from 
worksites to churches, to parks and recreation, to shelters and 
so forth. What we don't have, as I said, is information about 
the number of people reached otherwise. We do have 28 states 
doing actual social marketing campaigns, and they reported 
reaching about 19 million more people that they know about. Of 
those people, about 65 percent that we know of were SNAP 
participants, 25 percent were school-age children, and a very 
small proportion were seniors.
    So to just conclude, sorry I went on like that, SNAP is not 
as visible as we would like it to be because of the way that it 
is differently named. It is run usually through another 
organization or it has its own brand name. We do not call 
ourselves by the Federal name.
    In conclusion, we are very excited to have put together a 
compendium of over 100 evidence-based interventions that are 
developed for physical activity and nutrition, and for 
different channels where we administer those programs that are 
available for everyone to use.
    The Chairman. Ms.----
    Ms. Foerster. Most recently, we have put together what is 
called----
    The Chairman. Ms. Foerster, I am going to have to ask you 
to conclude. Thank you.
    Ms. Foerster. Thank you.
    [The prepared statement of Ms. Foerster follows:]

Prepared Statement of Susan B. Foerster, M.P.H., Emeritus and Founding 
    Member, Association of SNAP Nutrition Education Administrators,
                             Carmichael, CA
    Good morning, Chairman Conaway, Ranking Member Peterson, Committee 
Members and fellow panelists. Thank you for the opportunity to think 
together about how SNAP-Ed, the nutrition education arm of SNAP, can be 
made even more effective in future years.
    My remarks will be mostly from the perspective of a former state 
official who founded and directed the country's largest SNAP-Ed 
program. Through the California Department of Public Health, we had 
already used an NCI grant to establish the California 5 a Day--for 
Better Health! Campaign, the world's first public-private partnership 
with the nation's produce industry to increase fruit and vegetable 
consumption. Its purpose was to help prevent cancer and other diet-
related chronic diseases. In the 1990s, the 5 A Day Program was adopted 
for nationwide use NCI and CDC, as well as 25 other countries.
    In FFY 96, we used this experience to win a USDA competition for 
planning grants that allowed us to establish the Network for a Healthy 
California in FFY 97. It was the country's first of what became 22 FSNE 
(Food Stamp Nutrition Education) social marketing nutrition `networks'; 
nutrition education was an optional administrative activity that could 
qualify for Federal Financial Participation if non-Federal matching 
funds could be generated. In California, we used the FFP to develop, 
test and roll-out at least 20 different statewide and community 
interventions. Our program efforts coincided with an upward trend in 
reported fruit and vegetable consumption by low-income adults that, to 
the best of our knowledge, was unique among states.
    In the 2 years since retirement, I have worked through the 
Association of SNAP Nutrition Administrators (ASNNA) to co-lead its 
evaluation and outcomes activities. As a former state leader, I want to 
help states realize the potential of SNAP-Ed. As the nation's largest, 
most flexible and dynamic community nutrition program, I believe that 
SNAP-Ed can be used to generate significant, unique and groundbreaking 
improvements that will help improve eating and physical activity 
environments, advance food security, reduce or eliminate diet-related 
disparities among low-income income Americans, while also benefitting 
many in the agriculture and food industry sectors.
    Today I will address four questions:

  <bullet> What farm bill policies have informed the direction and 
        impact of SNAP-Ed?

  <bullet> What is SNAP-Ed now, and why isn't more known about its 
        impact?

  <bullet> What has been done administratively to assure that SNAP-Ed 
        serves low-income communities and is fully accountable?

  <bullet> What new, cutting edge measures have been put in place to 
        help states and their partners to be even more effective in the 
        future, and to build out the scientific foundations that have 
        been put in place over the last 20 years?
What farm bill policies have informed the direction and impact of SNAP-
        Ed?
    SNAP, once known as the Food Stamp Purchase Program (1933), is the 
oldest of the major food assistance programs, while SNAP-Ed is the 
youngest of USDA's major nutrition service efforts.

 Chronology of Federal Statutory and Administrative Landmarks in SNAP-Ed
------------------------------------------------------------------------
 
------------------------------------------------------------------------
1981                                   Food Stamp Nutrition Education
                                        (FSNE) was authorized in the
                                        farm bill as an optional
                                        administrative expense funded
                                        though state/local cost-share or
                                        `match' that would qualify for
                                        an equal amount of Federal
                                        Financial Participation; it
                                        cited nutrition education using
                                        the EFNEP as peer education
                                        model established in 1969.
FFY 1992                               Only seven states conducted FSNE
                                        ($750K for the entire U.S.). As
                                        national concern about the
                                        impact of diet-related diseases
                                        on health grew; USDA
                                        commissioned a report on the
                                        effectiveness of nutrition
                                        education which called for
                                        theory-driven approaches and
                                        recommended using social
                                        marketing, akin to marketing
                                        that the food industry uses (JNE
                                        1995).
FFY 1995-97                            USDA funded 22 states with $100-
                                        $200K planning grants to
                                        establish social marketing
                                        nutrition networks, create state
                                        plans, and raise cost-share/
                                        match to support the state
                                        plans.
FFY 2004                               All 50 states and D.C. conducted
                                        FSNE; funding totaled $280M in
                                        FFP.
2005-2010                              OMB conducted sequential Program
                                        Assessment evaluations
                                        recommended establishing clearer
                                        missions and goals,
                                        strengthening strategic
                                        planning, developing
                                        standardized measures, and
                                        capturing program results.
2008                                   Farm Bill changed Food Stamps to
                                        Supplemental Nutrition Program
                                        (SNAP)
FFY 2010                               USDA introduced the Education and
                                        Administrative Reporting System
                                        (EARS) for FFY 2010 to collect
                                        annual statistics on people
                                        reached, services provided,
                                        content, and materials used in
                                        state programs. Administrative
                                        system did not collect
                                        information on results or
                                        outcomes.
2010                                   In November, Congress used the
                                        2010 Healthy, Hunger-Free Kids
                                        Act to establish SNAP-Ed as a
                                        new grant program in the farm
                                        bill, replacing the prior
                                        incentive-type model, primarily
                                        to redistribute funds among the
                                        states and relieve burden of
                                        obtaining and documenting match.
                                       New provisions added physical
                                        activity, obesity prevention,
                                        community and public health
                                        approaches to the SNAP-Ed
                                        charge; clarified that 185% FPL
                                        was the income eligibility
                                        level; required coordination
                                        with CDC; added `evidence-based
                                        approaches' as a criterion.
                                       Capped funding until 2018 at 2009
                                        baseline ($400M) without
                                        matching requirements,
                                        established SNAP State Agencies
                                        as managers of the annual grant
                                        process, reallocated funds among
                                        states over a 5 year period
                                        using a formula that
                                        redistributed funds in 10%
                                        increments according to the
                                        state's proportion of U.S. SNAP
                                        participation. By eliminating
                                        the state/local match, the
                                        overall investment would be
                                        reduced by \1/2\.
FFY 2012                               The state/local share requirement
                                        for states was dropped for FFY
                                        2012.
2013                                   USDA issued an Interim SNAP-Ed
                                        Rule in the Federal Register and
                                        invited public comments.
FFY 2014                               The first year of the 5 year
                                        reallocation formula was
                                        implemented; work on what became
                                        the SNAP-Ed Evaluation Framework
                                        and the SNAP-Ed Strategies &
                                        Interventions: An Obesity
                                        Prevention Toolkit for States.
FFY 2015                               USDA's Annual SNAP-Ed Guidance
                                        for FFY 2016 fully implemented
                                        provisions in the 2010 HHFKA.
FFY 2016                               Final Rule for SNAP-Ed was
                                        issued.
                                       USDA established the SNAP-Ed
                                        Evaluation Framework as its
                                        overarching, science-based to
                                        capture outcomes in 51 SNAP-Ed
                                        topics areas and completed a
                                        companion Interpretive Guide to
                                        the SNAP-Ed Evaluation Framework
                                        to help define consistent
                                        metrics that could be reported
                                        consistently by states. An
                                        expanded SNAP-Ed Strategies &
                                        Interventions: An Obesity
                                        Prevention Toolkit for States
                                        was released, and USDA's SNAP-Ed
                                        Connections website was revamped
                                        with an updated, searchable
                                        Resource Library that is
                                        intended to be a searchable
                                        inventory for `all things SNAP-
                                        Ed' that is readily available to
                                        any user.
                                       USDA issued a Request for Quote
                                        solicitation to review the state
                                        reports, identify to what degree
                                        plans, reports and EARS align
                                        with the SNAP-Ed Evaluation
                                        Framework, and develop a
                                        standardized template for annual
                                        state reports to allow
                                        aggregation of state-level data.
------------------------------------------------------------------------

What does SNAP-Ed look like today?
    Size of the Eligible Low-income Population: Low-income in SNAP-Ed 
is defined as a household income below 185% of the Federal Poverty 
Level (FPL) because they would be eligible for other means tested 
Federal programs such as WIC, Free and Reduced Price school meals 
(FRPM), and many public health programs. Among low-income Americans, 
the 90 million people includes about 40 million who participate in SNAP 
because their incomes fall below 130%.
    How low-income people are reached: People are not means tested by 
SNAP-Ed but rather served because the community they live in, an 
institution they use, or a geographic area that they frequent has a 
majority of the population with incomes below 185% FPL. For example, 
SNAP-Ed programs may work only with grocery stores in low-resource 
Census tracts or with monthly SNAP receipts exceeding $50,000. 
Similarly, SNAP-Ed may work only with schools or districts where over 
50% of the students qualify for Free/Reduced-Price Meals (FRPM) or in 
worksites, faith organizations, park districts, housing, shelters, and 
other community sites where over 50% of the people have incomes <185% 
FPL. Since SNAP-Ed work products are public use, other organizations 
may use them freely.
    Number and Diversity of SNAP-Ed Implementing Agencies: All 54 
states, the District of Columbia, the Virgin Islands, and Guam receive 
SNAP-Ed grants that flow through the SNAP State Agency to one or more 
State Implementing Agencies (SIAs). The 144 SIAs that deliver SNAP-Ed 
themselves are diverse and bring a variety of strengths to SNAP-Ed; 
they include Land-Grant University Extension services, other 
universities, public health departments, nonprofits, Indian Tribal 
Organizations, and some SNAP agencies. In turn, most SIA funds flow to 
other public, nonprofit and business entities that provide statewide or 
local services. The state grants have no matching requirements, and 
states make decisions about funding priorities for service based on 
needs assessments, partner readiness and the skills of each SIA. A 
detailed state plan is approved annually by USDA's Food and Nutrition 
Service (FNS).
    Reach of SNAP-Ed: In 2015 the 144 SIAs collectively provided direct 
education services to over six million low-income people in 20 
different community channels with nearly 50,000 low-resource community 
locations. Channels are organizations or systems such as schools and 
school districts, child care centers, food banks and emergency food 
sites, community youth organizations, public housing, churches, health 
centers, park and recreation sites, food stores, and community gardens 
where food and physical activity decisions can be influenced. Of the 
144 SIAs, 28 reported also conducting larger-scale social marketing 
initiatives that reached over 19 million people.
    Of the people receiving direct education, about 65% were SNAP 
participants, 25% were school-aged children, and .05% were elders. 
There are no estimates of the number of people reached though policy, 
systems or environmental approaches, or on outcomes. More detail on 
that will be provided below.
Why is SNAP-Ed not more visible, like other nutrition programs?
    SNAP-Ed has the largest scope and most diverse mission among USDA's 
community nutrition programs, but for a variety of reasons SNAP-Ed 
activities may not be readily identified.
    Names of SNAP-Ed Programs: Like many other Federal programs, many 
SNAP-Ed programs have established a specific branded identity and do 
not use the Federal categorical designation. Other times, SNAP-Ed funds 
are used to help organizations or campaigns augment their services to 
better reach SNAP-Ed audiences, so the SNAP-Ed targeted activities may 
not be identified as such. For all entities, SNAP-Ed rules must be 
followed and mandatory reports completed.
    The term, nutrition education, includes more than direct education: 
The term, `nutrition education' was added to Food Stamp language in 
1981 and has not been updated. As science and practice have matured, 
the term `nutrition education' had to be reinterpreted to achieve the 
needed population outcomes. In SNAP-Ed, nutrition education means `any 
combination of educational strategies, accompanied by environmental 
supports, designed to facilitate the voluntary adoption of food and 
physical activity practices . . . conducive to the health and well-
being of . . . SNAP participants, individuals eligible to participate, 
others eligible . . . for other means-tested Federal assistance, and 
individuals residing in communities with significant low-income 
populations.'
    SNAP-Ed requires a broad science-base, which adds to its 
complexity: To address the many social determinants that are known to 
impact healthy eating (including food security and food access), 
physical activity, and obesity prevention, today's nutrition education 
approaches use a widely accepted theory, the Social Ecological Model 
(SEM). This approach often involves working with partner organizations 
behind the scenes. The SEM helps planners systematically focus on four 
spheres of influence that support healthy behavior change in 
populations. The four spheres are: individuals and peer groups, 
institutions that impact low-income people, multi-sector community 
efforts, and larger scale social norms. Activities in these spheres may 
appear fragmented, but they are designed to create synergy and drive 
toward similar outcomes. The SEM is recommended by many authoritative 
bodies, including the National Academy of Sciences and the Dietary 
Guidelines for Americans.
What has been done administratively to assure that SNAP-Ed serves low-
        income communities and is fully accountable?
    Similar to SNAP itself, SNAP-Ed is highly structured. USDA 
oversight of SNAP-Ed is guided by statute, namely the 2010 Healthy, 
Hunger-Free Kids Act, and implemented through:

  <bullet> Final Regulations issued in 2016.

  <bullet> Annual SNAP-Ed Guidance that governs targeting, activities, 
        allowable expenditures.

  <bullet> The seven FNS Regional Offices review and approve annual 
        state plans and budgets, including SMART objectives, and most 
        mid-year amendments.

  <bullet> Mandatory process evaluation measures through the Education 
        and Administrative Reporting System (EARS).

  <bullet> Annual Reports that report on specific progress toward 
        achieving each state's annual SMART objectives; development of 
        new programs and materials; evaluation activities, reports, and 
        publications; and expenditures.

  <bullet> Regular on-site Management Evaluations (ME) with a formal 
        process when corrective action is required.

    Program Requirements: The experience and know-how accrued over the 
last 20 years is well-codified in SNAP-Ed Guidance. In SNAP-Ed, states 
are asked to select a set of complementary educational, social 
marketing and environmental support approaches that will work together 
to achieve population and community outcomes. Each state is now 
required to deliver community and public health approaches in addition 
to direct education.
    Social marketing is defined as using commercial marketing 
techniques to influence voluntary behavior for personal welfare and 
that of society. Techniques based on formative research and market 
segmentation may include: advertising, PR, promotion, multiple forms of 
mass communication, and education that is synchronized across different 
organizational channels such as worksites, retail stores, and civic 
organizations.
    Community and Public Health Approaches. These may include 
techniques such as consumer empowerment, community development, public-
private partnerships, and policy, systems and environmental change 
(PSE). In SNAP-Ed the definitions are:

  <bullet> Policy change: In the public, nonprofit or business sectors, 
        policies are written organizational decisions or courses of 
        action, resources, implementation, evaluation and enforcement. 
        In accord with Federal law, SNAP-Ed may provide information to 
        elected officials but may not lobby for any bill, ordinance, or 
        funding level.

  <bullet> Systems Change: These are unwritten organizational decisions 
        about services, locations, staffing and budgets that can reach 
        large numbers of low-income people.

  <bullet> Environmental Change: These are changes in the physical, 
        visual, economic, social, normative or message environments 
        that can positively influence eating and physical activity 
        behaviors.

    The well-respected RE-AIM model may be used by states to help 
decide what interventions to sponsor. Choices may be based on a 
structured needs assessment that includes the probability of reaching 
large numbers of people, the availability of effective interventions, 
the likelihood of adoption and implementation of those interventions by 
partnering organizations, and the probability that the effort will be 
maintained in the future without SNAP-Ed resources.
What new, cutting edge measures have been put in place to help states 
        and their partners to be even more effective in the future, and 
        to build out the scientific foundations that have been put in 
        place over the last 20 years?
    As shown in the Chronology, many evaluation efforts by SNAP-Ed 
stakeholders have culminated in 2016. A cutting-edge set of 
intervention and evaluation resources has been compiled to help the 
very diverse community of SNAP-Ed agencies deliver strong, evidence-
based interventions, map their progress, and report the results. This 
has been done as a partnership among USDA, SIAs, the Centers for 
Disease Control and Prevention, and the National Collaborative on 
Childhood Obesity Research. Most notably, these include:

  <bullet> The SNAP-Ed Evaluation Framework, a breakthrough approach to 
        large-scale, long-term outcome evaluation. It is designed as a 
        `menu' from which states can select, according to their 
        priorities, and an overarching, aspirational and science-based 
        scheme for the country. It is intended to capture key outcomes 
        in 51 different areas that lead to community and population 
        improvement.

  <bullet> Interpretive Guide to the SNAP-Ed Evaluation Framework, a 
        companion how-to document that suggests standard metrics, 
        instruments and data sources for the 51 Indicators in the 
        Framework so that results can be aggregated across the country. 
        It was compiled and reviewed by 40 contributors from 28 
        different states. As experience is gained with the measures and 
        instruments, it will provide the basis for standardized 
        reporting and aggregated data.

  <bullet> Practitioner Stories that outline how nine early adopting 
        states are using the Framework and Interpretive Guide.

  <bullet> SNAP-Ed Strategies & Interventions: An Obesity Prevention 
        Toolkit for States that links to almost 100 evidence-based 
        interventions, the great majority of which were developed 
        through SNAP-Ed funding. This Toolkit reflects a brand new 
        science base for large-scale interventions--especially those 
        using social marketing and policy, systems and environmental 
        change approaches--that is customized to low-resource settings 
        and diverse populations. It will soon be posted as a searchable 
        electronic format. It provides a resource that any like-minded 
        organization to use. No such resource has ever been available.

  <bullet> USDA's SNAP-Ed Connections website now has an updated 
        Resource Library that can be populated by SNAP-Ed partners and 
        others to house survey and evaluation instruments, intervention 
        materials, reports and published papers. It is searchable by 
        population group, community channel, intervention goal, date, 
        state, type of material, method and many other characteristics. 
        It will help bring new SNAP-Ed partners up to speed and allow 
        mature programs to extend their impact in new intervention 
        areas and with new partners more quickly.
What evidence is there that these efforts will be successful?
    These evaluation breakthroughs have been done well. Strong 
groundwork was laid for rapid uptake of these new approaches because 
states were involved from the beginning. We contributed in soliciting 
and reviewing interventions to select the very best, choosing the most 
important and feasible outcomes, and selecting evaluation metrics that 
will be practical for local, state and national stakeholders. In FFY 
14, the nine states and territories in the Western Region reported over 
900 PSE changes in just 1 year.
    State plans for FFY 17 are due soon. But one example is that one 
Midwestern state that was not involved in the Framework has already 
adopted it by challenging itself to secure 50 PSE changes in FFY 16, 
namely:

  <bullet> Starting a local food policy council or health coalition 
        (4).

  <bullet> Community gardens (4).

  <bullet> New pantry locations (3).

  <bullet> Food donation systems (5).

  <bullet> Food insecurity screening (3).

  <bullet> Increasing number of food vendors at farmers' markets who 
        accept SNAP (10).

  <bullet> Establishing school wellness committees (6).

  <bullet> School wellness policy reviews and updates (4).

  <bullet> Increasing park and trail use in communities (3).

  <bullet> Healthy checkout lanes (3).

  <bullet> Shared use policies to increase physical activity options 
        (1).

  <bullet> Healthy vending machines at workplaces (4).

    ASNNA is aware that these efforts are aggressive and very new for 
the entire field of nutrition. Similar to other reporting systems, we 
expect that the devil will be in the details. However, we recognize 
that the collective impact approach that SNAP-Ed is undertaking is the 
only way that the significant population and community changes that 
SNAP-Ed aims for can be achieved.
    We are committed to continuing our collaboration with USDA and 
other organizations. In our work plan for this year are projects that 
will convey the vision and encourage wide use of the materials, 
continually upgrade the models based on real world with experience, 
help populate the new SN[A]P-Ed Library as a practical resource, 
identify or develop common data sources, and provide training and peer 
support to sister agencies
    We are committed to remaining visionary, open, transparent, 
accountable and well-grounded so that these funds are spent to achieve 
maximum impact.
    Thank you for this opportunity and for your support of SNAP and 
SNAP-Ed.
SNAP-Ed Evaluation Framework
Nutrition, Physical Activity, and Obesity Prevention Indicators
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          April 2016.

                SNAP-Ed State Implementing Agencies, 2015
------------------------------------------------------------------------
                                   State Implementing Agencies Reporting
         State/Territory                   in EARS, 2015 (N=144)
------------------------------------------------------------------------
AK                                 Alabama Nutrition Education Program
AL                                 University of Alaska Fairbanks
AR                                 University of Arkansas, University of
                                    Arkansas at Pine Bluff
AZ                                 Arizona Department of Health Services
CA                                 California Dept. of Public Health,
                                    University of California Davis,
                                    Catholic Charities of California,
                                    California Department of Aging,
                                    California Dept. of Social Services
CO                                 N/A
CT                                 Connecticut Department of Public
                                    Health, University of Connecticut,
                                    University of Connecticut College of
                                    Agriculture, University of
                                    Connecticut Health Center,
                                    University of Connecticut Neag
                                    School of Education, Hispanic Health
                                    Council, Inc
DC                                 Department of Health
DE                                 University of Delaware
FL                                 University of Florida
GA                                 Health M Powers, University of
                                    Georgia, Georgia Coalition for
                                    Physical Activity and Nutrition
GU                                 N/A
HI                                 Hawaii Department of Health,
                                    University of Hawaii at Manoa
IA                                 Iowa Department of Public Health,
                                    Iowa State University
ID                                 University of Idaho, Boise Center
IL                                 Chicago Partnership for Health
                                    Promotion, University of Illinois
IN                                 Purdue University
KS                                 Kansas State University
KY                                 University of Kentucky
LA                                 Louisiana State University
                                    Agricultural Center, Southern
                                    University Agriculture Center
MA                                 University of Massachusetts, Share
                                    Our Strength/Cooking Matters MA,
                                    Lutheran Social Services of New
                                    England, Inc., Kit Clark Senior
                                    Services
MD                                 University of Maryland
ME                                 University of New England
MI                                 Michigan Nutrition Network at
                                    Michigan Fitness Foundation,
                                    Michigan State University
MN                                 University of Minnesota Extension
                                    Service, Minnesota Chippewa Tribe
MO                                 University of Missouri
MS                                 Mississippi State University
MT                                 Montana State University Extension
NC                                 North Carolina Cooperative Extension--
                                    Surry Center, Durham County Health
                                    Department, Alice Aycock Poe Center
                                    for Health Education, The University
                                    of North Carolina at Greensboro,
                                    North Carolina State University,
                                    University of North Carolina at
                                    Chapel Hill, NC Agricultural and
                                    Technical State University, East
                                    Carolina University MATCH
ND                                 North Dakota State University
                                    Extension Service
NE                                 University of Nebraska
NH                                 University of New Hampshire
                                    Cooperative Extension Merrimack
                                    County
NJ                                 Rutgers, The State University of New
                                    Jersey
NM                                 New Mexico State University
                                    Cooperative Extension Service,
                                    Cooking with Kids, Kids Cook!, Las
                                    Cruces Public Schools, University of
                                    New Mexico Prevention Research Ctr.,
                                    Institute of American Indian Arts
NV                                 Help of Southern Nevada--Baby First
                                    Services, Yerington Paiute Tribe,
                                    University of Nevada Cooperative
                                    Extension, Food Bank of Northern
                                    Nevada, Step 2, Te-Moak Tribe of
                                    Western Shoshone, Three Square
NY                                 Cornell Univ. Cooperative Extension
                                    Oneida County, New York State (NYS)
                                    Department of Health, Cornell
                                    Cooperative Extension of Erie
                                    County, Food Bank For New York City,
                                    Cornell Univ. Cooperative Extension
                                    Orange County, City Harvest, Inc.,
                                    Cornell Cooperative Extension of
                                    Onondaga County, The Children's Aid
                                    Society, Cornell Univ. Co-op.
                                    Extension of Suffolk County, Common
                                    Pantry, Cornell Cooperative
                                    Extension of Albany County
OH                                 Ohio State University
OK                                 Chickasaw Nation, Oklahoma State
                                    University
OR                                 Oregon State University
PA                                 Pennsylvania State University
RI                                 University of Rhode Island
SC                                 South Carolina Department of Health
                                    and Environmental Control, Clemson
                                    University, South Carolina
                                    Department of Social Services, Low
                                    Country Food Bank
SD                                 South Dakota State University
TN                                 Tennessee State University,
                                    University of Tennessee
TX                                 East Texas Food Bank, East Texas Food
                                    Bank, South East Texas Food Bank,
                                    Texas A&M Cooperative Extension,
                                    Houston Food Bank, North Texas Food
                                    Bank, Tarrant Area Food Bank, South
                                    Plains Food Bank, Food Bank of
                                    Corpus Christi, Food Bank of Rio
                                    Grande Valley, San Antonio Food
                                    Bank, Capital Area Food Bank of
                                    Texas, ActiveLife Movement
UT                                 Utah State University Cooperative
                                    Extension
VA                                 Virginia Tech University
VI                                 N/A
VT                                 Vermont Department of Health
WA                                 Washington State University,
                                    Washington State Department of
                                    Health
WI                                 University of Wisconsin--Extension,
                                    Great Lakes Inter-Tribal Council, Ho-
                                    Chunk Nation Health Center,
                                    Milwaukee Health Services Inc., City
                                    of Milwaukee Health Department,
                                    Northwest Wisconsin Community
                                    Services, Inc., Chippewa County
                                    Department of Public Health,
                                    Bayfield County Health Department,
                                    Polk County Health Department,
                                    Outagamie Health and Human Services
                                    Public Health, Oneida County Health
                                    Department, Kewaunee County Health
                                    Department, Family Plan Health
                                    Services, Kenosha County Dept. of
                                    Human Svs., La Crosse County Health
                                    Dept, Portage County Comm. Human
                                    Service, Juneau County Health Dept,
                                    West Allis Health Dept, Jefferson
                                    County Health Department, Wood
                                    County Health Department, Vernon
                                    County Health Dept., Sauk County
                                    Dept. of Health, Waupaca County
                                    Dept. Human Servs., Hunger Task
                                    Force of Milwaukee
WV                                 West Virginia University
WY                                 University of Wyoming Cooperative
                                    Extension Service
------------------------------------------------------------------------
SIAs, by state 2015 EARS 6-20-16.


    The Chairman. Dr. Sharma.

       STATEMENT OF SHREELA V. SHARMA, Ph.D., R.D., L.D.,
 ASSOCIATE PROFESSOR, DIVISION OF EPIDEMIOLOGY, HUMAN GENETICS 
                  AND ENVIRONMENTAL SCIENCES,
  UNIVERSITY OF TEXAS; CO-FOUNDER, BRIGHTER BITES, HOUSTON, TX

    Dr. Sharma. Chairman Conaway, Ranking Member Peterson, and 
Members of the Committee, good morning, and thank you for the 
opportunity to testify at today's hearing on SNAP-Ed.
    My name is Dr. Shreela Sharma. I am a Professor of 
Epidemiology at the University of Texas, School of Public 
Health, and Co-Founder of Brighter Bites nonprofit 
organization, and I have spent the last 10 years contributing 
to childhood obesity prevention and control program efforts in 
Texas.
    In 2012, I was approached by Lisa Helfman, a mom and an 
attorney, who had an idea to help solve the lack of access to 
fresh produce that exists in under-served neighborhoods. Back 
in 2011, Lisa was participating in a food co-op where she 
received a box of fruits and vegetables every week, and over 
time, she watched her children's eating habits change. She 
describes this moment when she was with her 5 year old son at a 
birthday party, and he called her over to ask if he had to eat 
the cake. He said it was too sweet and he would rather have 
fruit instead. At that moment, she wondered if she could 
replicate the same behavior change that she saw in her young 
son in under-served neighborhoods. And today, I am here to tell 
you that you can, and we did.
    Together, we built a program called Brighter Bites. Our 
three-part formula is simple: first, produce distribution where 
each family gets 30 pounds of fresh produce; second, nutrition 
education in school and for parents; and third, a fun food 
experience where families try a healthy, tasty recipe, all done 
each week for 16 weeks during the school year and 8 weeks 
during the summer, in low-income communities. Our parents try 
kale smoothies with their child, and receive the recipe and the 
ingredients to make it at home. And parents are volunteering at 
our co-ops and engaging in our communities of health. As one of 
our parents said, Brighter Bites made me cook things I wouldn't 
have bought, for fear of wasting money if my children didn't 
like it.
    In 2012, we started with one elementary school in Houston, 
Texas, and thanks to funding from the USDA SNAP-Ed program, as 
of 2016 we have expanded this same formula in Houston, Dallas, 
and Austin, and distributed more than 8 million pounds of 
produce to over 20,000 low-income children and their families, 
across more than 90 schools, Head Start centers, YMCAs, and 
community centers in these three cities.
    As a behavioral epidemiologist, I have focused on building 
a strong research and data infrastructure for Brighter Bites, 
and our results are compelling. We know that 98 percent of the 
families participating in Brighter Bites are eating more 
produce during the program, and what is more compelling is that 
74 percent are maintaining the same levels by buying it on 
their own, even after the Brighter Bites season ends.
    Recently, we completed a 2 year study among 760 first grade 
children and their parents, and results showed that both 
children and their parents receiving Brighter Bites had a 
significant increase in intake of fruits and vegetables as 
compared to those who did not receive the program. Moreover, 
Brighter Bites parents reported a twofold increase in cooking 
at home, using nutrition facts labels to make purchasing 
decisions, eating more meals together as a family, and having 
more fruits and vegetables available at home during meals, as 
compared to those who did not receive the program.
    So you might wonder how we have grown such a transformative 
program so quickly and so effectively. Brighter Bites is 
leveraging the support of corporations like H-E-B, Sysco Foods, 
and the Produce Marketing Association. Sysco is collecting 
produce that would otherwise be discarded, directly from 
farmers across the country, and then sending it to local food 
banks who are aggregating the food from Sysco and other sources 
and distributing it to our Brighter Bites locations. Brighter 
Bites also has a partnership with Feeding Texas to develop a 
statewide model for nutrition education, and with the UT School 
of Public Health on developing the education and research 
framework for the program. These collaborations allow us to 
conquer the last mile of delivering the produce directly to our 
families, while teaching them how to use it. We plan to 
continue to use SNAP-Ed funding, couple it with corporate and 
private sponsors and expertise to expand Brighter Bites 
programming and research. We have the ability to spread 
Brighter Bites throughout the country to build demand for fresh 
produce, empower people to achieve a better health, and tackle 
food waste all at the same time. Our metrics show that this 
approach can work.
    Thank you for the opportunity to present, and I look 
forward to your questions.
    [The prepared statement of Dr. Sharma follows:]

 Prepared Statement of Shreela V. Sharma, Ph.D., R.D., L.D., Associate
 Professor, Division of Epidemiology, Human Genetics and Environmental 
 Sciences, University of Texas; Co-Founder, Brighter Bites, Houston, TX
    Chairman Conaway, Ranking Member Peterson, Members of the 
Committee, good morning. And thank you for the opportunity to testify 
at today's hearing on SNAP-Ed. My name is Dr. Shreela Sharma. I am a 
Professor of Epidemiology at the University of Texas School of Public 
Health, and the Co-Founder of Brighter Bites nonprofit organization and 
I have spent the last 10 years contributing to childhood obesity 
prevention and control program efforts in Texas.
    Over the past 30 years, obesity in children has doubled in the 
United States with 34% of 6 to 11 year olds being overweight or obese, 
and quadrupled among adolescents.\1\ Most children in the United States 
do not meet the recommended intakes of healthy foods including fruits 
and vegetables, putting them at risk for chronic diseases including 
obesity in childhood and adulthood. Recent reports from the Centers for 
Disease Control and Prevention (CDC) using data from 2003-2010, 
indicate a 12% per year increase in intake of fruit among children ages 
6 to 11 years, and among those from low-income families; however, there 
were no increases in intake of vegetables or whole grain foods.\2\ 
About 60% of children consume fewer fruits than recommended, and 93% of 
children consume fewer vegetables than recommended. In Texas, child 
consumption rates of fruits and vegetables is among the lowest as 
compared to other states with over 50% of the children consuming fruits 
and vegetables less than once per day.\3\
---------------------------------------------------------------------------
    \1\ Ogden C.L., Carroll M.D., Kit B.K., Flegal K.M. Prevalence of 
childhood and adult obesity in the United States, 2011-2012. Journal of 
the American Medical Association 2014; 311(8): 806-814.
    \2\ Centers for Disease Control and Prevention. Morbidity and 
Mortality Weekly Report. Vital Signs: Fruit and Vegetable Intake Among 
Children--United States, 2003-2010, 2014; 63(31); 671-676.
    \3\ Centers for Disease Control and Prevention. State Indicator 
Report on Fruits and Vegetables, 2013. Available at http://www.cdc.gov/
nutrition/downloads/state-indicator-report-fruits-vegetables-2013.pdf.
---------------------------------------------------------------------------
    In 2012 I was approached by Lisa Helfman, a mom and an attorney, 
who had an idea to help solve the lack of access to fresh produce that 
exists in under-served neighborhoods, where childhood obesity rates are 
high and health problems are an epidemic. Back in 2011, Lisa was 
participating in a produce co-op where she received a box of fruits and 
vegetables every week, and over time she watched her children's eating 
habits change as a result of this consistent access to fresh produce. 
She described this moment when she was with her 5 year old son at a 
birthday party and he called her over to ask if he had to eat the cake. 
He said it was too sweet and he would rather have fruit instead. At 
that moment, she thought she may be on to something and wondered if she 
could replicate the same behavior change that she saw in her young son 
in under-served neighborhoods. And today, 5 years later, I am here to 
tell you that you can and we did.
    Together we built a program called Brighter Bites with the purpose 
of providing fresh fruits and vegetables combined with hands-on 
nutrition education in schools and to families in under-served 
neighborhoods and food desert areas. Our formula is simple. Produce 
Distribution (50-60 servings per family per week) + Nutrition Education 
in school and for parents + Fun Food Experience consisting of a healthy 
recipe tasting, all done on a consistent basis for 16 weeks during the 
school year and 8 weeks during the summer. The program uses a food co-
op model to engage parents and families where they participate in the 
bagging and distribution of the produce at the schools.
    In 2012, we implemented the formula with 150 kids at one Knowledge 
is Power Program (KIPP) charter elementary school in Houston, Texas 
that was 93% low-income. We distributed 50 servings (30 lbs) of 8-12 
different produce items a week, trained the school to teach CATCH, a 
Texas Education Agency-approved evidence-based coordinated school 
health program, in the classroom and provided corresponding nutrition 
education and recipes to parents.\4\ When the parents came to pick up 
their children from school, each family received two bags of beautiful, 
fresh produce at no cost and a fun food experience--they tasted a 
sample of the recipe of the week made from a hard-to-use item in the 
bag. Parents tried kale smoothies with their child and received the 
recipe and the ingredients to make it at home! Parents also received 
two nutrition handbooks consisting of information on food preparation, 
food storage, how to use nutrition facts labels to make food purchases, 
MyPlate, easy menu planning and recipe ideas, and other tips and tools 
on how to enhance the home nutrition environment. Children who had 
never eaten an orange were now chasing us for kale smoothies! And 
parents were volunteering at our co-ops and engaging in our communities 
of health.
---------------------------------------------------------------------------
    \4\ Sharma S.V., Markham C., Helfman, L., Albus K., Pomeroy M., 
Chuang R.J. Feasibility and acceptability of Brighter Bites: A food co-
op in schools to increase access, continuity and education of fruits 
and vegetables among low-income populations. Journal of Primary 
Prevention. 2015, Volume 36, Issue 4, pp. 281-286.
---------------------------------------------------------------------------
    Thanks to the funding of the USDA SNAP-Ed program, as of 2016, we 
have expanded this same formula in Houston, Dallas and Austin and 
distributed more than 8 million pounds of produce to over 20,000 low-
income children and their families across more than 90 schools, Head 
Starts, YMCAs and community centers in these three cities.
    Brighter Bites is giving parents living on a limited income, who 
have traditionally been afraid of buying fruits and vegetables because 
they either don't know how to prepare it or can't manage the financial 
risk that their children won't eat it, a ``risk free trial'' to 
practice cooking and eating healthy foods with their children. And our 
research shows that these trials are creating lasting behavior change.
    As a behavioral epidemiologist and registered dietitian, I have 
focused on building a strong research and data infrastructure for 
Brighter Bites. We have collected data consistently for the last 4 
years on program effectiveness, dosage, reach and fidelity on all our 
families. Data collection happens several ways. Each week Brighter 
Bites coordinators complete surveys to provide data on produce 
distribution (what was distributed and how much), and education 
implementation at each site. Attendance rosters provide data on weekly 
produce pick up by each family; parents complete surveys two times a 
year on acceptability, usage and effectiveness of Brighter Bites 
program components; and cost of providing produce per family per week 
is obtained from the food banks who aggregate and deliver the produce 
to the Brighter Bites sites. We have a centralized database that 
aggregates data from all three cities (Houston, Dallas, and Austin) on 
an ongoing basis. Qualitative and quantitative data in the form of 
focus groups with the parents and systems-level surveys with the food 
banks, and schools further informs program development and evaluation.
    These data points have not only informed our program, but also 
helped further the scientific dialogue to understand how our children 
and families eat. Our results are compelling. We know that 98% of the 
families participating in Brighter Bites are eating more produce during 
the program, and what's more compelling is that 74% are maintaining the 
same levels by buying it on their own even after the Brighter Bites 
season ends. Also, 93% of the families reported that they ate all or 
more of the vegetables, and 96% said they ate all or most of the fruit 
that was provided to them through Brighter Bites. Brighter Bites 
families also reported saving on average $34.40 on their weekly grocery 
bill while in the program. And, parent engagement is high with between 
four to ten parents volunteering each week in the Brighter Bites co-ops 
at schools to assist with the bagging and distribution of the produce.
    Recently we completed a 2 year rigorous study among 760 first grade 
children and their parents in 2013-2015.\5\ At baseline, 42% of the 
first grade children ages 5 to 7 in our study were overweight or obese, 
which is higher than the national average for this age, and they were 
consuming only one serving of fruit and 0.5 servings of vegetables per 
day. Results of our study showed that both, children and their parents 
receiving Brighter Bites had a significant increase in the intake of 
fruits and vegetables and reported consuming fewer calories from added 
sugars as compared to those who did not receive the program. Moreover, 
we saw promising improvements in the home environment. Brighter Bites 
parents reported a two-fold increase in cooking at home, using 
nutrition facts labels to make purchasing decisions, eating more meals 
together as a family, and having more fruits and vegetables available 
at home during meals as compared to those who did not receive the 
program.
---------------------------------------------------------------------------
    \5\ Sharma S.V., Markham C., Chow J., Ranjit N., Pomeroy M., Raber 
M. Evaluating a school-based fruit and vegetable co-op in low-income 
children: a quasi-experimental study. Under review.
---------------------------------------------------------------------------
    You might wonder how we have grown such a transformative program so 
quickly and so effectively?
    Brighter Bites is leveraging the support of corporations like H-E-B 
Grocery Company and Sysco Foods. Sysco, with 9,000 trucks running 
daily, is collecting produce that would otherwise be discarded directly 
from farmers across the country and then sending it to local food 
banks. We are partnering with the local food banks in Houston, Dallas 
and Austin who are aggregating the food from Sysco and other sources, 
and then distributing it to our Brighter Bites locations. We are also 
collaborating with the Produce Marketing Association, which is 
committed to advancing kids' consumption of fruits and vegetables. Our 
cooperation with such industry experts aims to determine how to tackle 
food waste by finding more produce that might otherwise be tilled under 
or go uneaten. Brighter Bites also has a partnership with Feeding 
Texas, a statewide association representing 21 Texas food banks, in 
efforts to develop a statewide model for nutrition education. Finally, 
Brighter Bites has a strong academic partnership with the Michael and 
Susan Dell Center for Healthy Living at the University of Texas School 
of Public Health, an internationally-recognized leading research center 
in child health, and the CATCH Global Foundation to further the 
educational, evaluation, metrics and scientific rigor of the program. 
Through these partnerships, we are able to conquer the last mile of 
delivering the produce directly and consistently to our under-served 
families while teaching them how to use it. And, we are creating 
opportunities for the children to practice these healthy behaviors 
while at school. We are also successfully linking the school and the 
home--the two environments where children spend a majority of their 
time. Thus, we are creating communities of health through fresh food, 
and we look forward to bringing this impact to more cities across the 
country.
    In summary we have found the results of our program effectively 
address multiple key concerns related to promoting healthy eating 
behaviors, and our food chain including:

  <bullet> educating children and their parents, how to eat healthier, 
        in school and at home,

  <bullet> tracking the impact of the program with regards to health, 
        shopping/eating habits, and parent participation in schools,

  <bullet> addressing the last mile by actually delivering a 
        substantial amount of fresh, healthy food to underprivileged 
        children to take home and practice healthy eating,

  <bullet> taking advantage of partnering with private corporations and 
        nonprofit food banks for distribution, and

  <bullet> addressing food waste by working with farmers to utilize 
        overgrown crops.

    I would like to end with a couple of quotes from our Brighter Bites 
parents who said the following in one of our focus groups:

          ``Brighter Bites made me cook things I wouldn't have bought 
        for fear of wasting money if my children didn't like it.''
          ``Brighter Bites is a huge support for my budget as it helps 
        me save around $140 a month. Although the cost of fruits and 
        vegetables [in grocery stores] is high, as a single mother it 
        is hard but I try to maintain a healthy diet based on what 
        Brighter Bites has taught me.''

    We plan to continue to use SNAP-Ed funding, couple it with 
corporate and private sponsors with both expertise and dollars, to 
expand Brighter Bites and our research to push the dialogue forward on 
how to healthfully feed our families. We have the ability to spread 
Brighter Bites throughout the country to build demand for fresh 
produce, empower people to achieve better health and tackle food waste 
all at the same time. Our metrics show that this approach can work. 
Thank you for the opportunity to present and I look forward to your 
questions.

    The Chairman. Thank you, Dr. Sharma.
    Dr. Rankin.

  STATEMENT OF JO BRITT-RANKIN, Ph.D., ASSOCIATE DEAN/PROGRAM 
DIRECTOR, HUMAN ENVIRONMENTAL SCIENCES EXTENSION, UNIVERSITY OF 
  MISSOURI, COLUMBIA, MO; ON BEHALF OF EXTENSION COMMITTEE ON 
                    ORGANIZATION AND POLICY

    Dr. Britt-Rankin. Good morning. Mr. Chairman, Ranking 
Member Peterson, and Members of the Committee, it is an honor 
to be invited to be here to share more about SNAP-Ed in land-
grant universities.
    I have spent my career at the University of Missouri, and 
for 18 years have worked with both SNAP-Ed and EFNEP, and I can 
tell you that there is no better job out there.
    Land-grant institutions have a rich history with SNAP-Ed. 
Beginning in 1988, the first SNAP-Ed program was delivered by 
the University of Wisconsin Extension. By 1992, seven land-
grant institutions via extension delivered SNAP education, and 
it grew to over 49 states and territories by 2002. As many as 
55 land-grant institutions have provided SNAP-Ed in any given 
year. That includes both 1890 and 1862 institutions.
    Land-grant universities, via cooperative extension, are 
uniquely positioned to deliver SNAP education. We are primarily 
an educational serving institution. We have the ability to 
translate the research that is conducted into educational 
programs. We conduct program evaluation that informs future 
research. Our annual community needs assessment also reaches 
out and understands what are the needs of the constituencies 
that we serve.
    Currently, there are over 3,600 faculty and staff members 
that work with extension SNAP-Ed programs nationally. We have 
moved from a paraprofessional model, as Ms. Foerster mentioned, 
in the early years, to more of a professional model. Many of 
our professionals hold Master's, Bachelor's, and Ph.D. degrees. 
They are registered or licensed within the nutrition and 
physical activity communities.
    As is the case, our educators are located in communities 
often where they live and work. They understand the needs of 
the individuals that they serve. They are also there to receive 
the feedback and the evaluation throughout that community. I 
can tell you that our educators across the country receive 
feedback every day because they are there, seeing where people 
are purchasing their food, where they are eating, where they 
are participating in physical activity.
    As stated in opening comments, the goal of SNAP-Ed is for 
participants to make healthy food choices, stretch their food 
dollars, and have active lifestyles. We feel that the impacts 
that are seen in extension SNAP-Ed programs are doing that. We 
know that we see people increasing the variety of fruits and 
vegetables that they consume, increasing the quantities of 
fruits and vegetables. They are increasing their water 
consumption, decreasing sugar-sweetened beverages, and 
consuming more low-fat and no-fat dairy products. An example 
that we saw in Idaho with their Eat Smart Idaho Program, there 
was an over 50 percent increase in both fruit and vegetable 
consumption. In addition, 47 percent of the participants 
increased their physical activity levels.
    In 2015, SNAP-Ed began to encourage policy, system, and 
environmental interventions. These interventions may include, 
and this is a very limited list, edible gardens, farm-to-
institution procurement, and smarter lunchroom approaches. We 
know that all of these approaches will increase food access and 
food security in SNAP participants.
    Gardening is probably one of the strategies that is most 
widely utilized. It reinforces direct education that we see in 
classrooms. We know that it improves dietary quality. We see 
increased food access and a reduction in food insecurity among 
SNAP recipients. I believe the strongest piece I would say is 
SNAP-Ed, we know that SNAP recipients are only on SNAP for a 
limited amount of time. We need to make their behavior changes 
sustainable.
    I would leave you with one we-can-see impact throughout the 
country. We see that we are helping schools make policy 
changes, increasing physical activity, increasing healthier 
options in the schools. My time is limited, but I will leave 
you with one impact that demonstrates the impact that land-
grants can have. In Missouri, we had an educator in 2014 that 
taught a fifth-grade class. Eight weeks each time, they 
received a nutrition lesson, and as their physical activity, 
they jumped rope. One young lady, fifth-grader, overweight, 
very self-conscious, she excused herself each time that it was 
time to jump rope. At the end, every child, including this 
young lady, was presented a jump rope. In the fall of 2014 the 
educator returned to the same school, and she is walking down 
the hall and a young lady runs up and she goes, Ms. Suzie, do 
you remember me? And she said, Honey, I am sorry, I meet so 
many. Remind me of your name. And she said, I am the girl that 
can't jump rope. She said, I thought about what you taught me. 
I started drinking more water over the summer instead of soda. 
I started to eat carrot sticks instead of chips, and I taught 
myself to jump rope. I jumped rope every day. I lost 26 pounds. 
Not everybody loses 26 pounds, but we are making differences in 
SNAP-Ed.
    Thank you.
    [The prepared statement of Dr. Britt-Rankin follows:]

  Prepared Statement of Jo Britt-Rankin, Ph.D., Associate Dean/Program
    Director, Human Environmental Sciences Extension, University of
      Missouri, Columbia, MO; on Behalf of Extension Committee on
                        Organization and Policy
    Mr. Chairman, Ranking Member Peterson, and Members of the 
Committee, it is an honor to be invited to testify before you today and 
submit testimony for the record on SNAP-Ed. Land-grant universities 
have a rich history with SNAP Education (SNAP-Ed). Beginning in 1988, 
SNAP-Ed was first delivered by University of Wisconsin Extension. By 
1992, seven land-grant universities, via Extension, delivered SNAP-Ed 
programming and this number grew to 49 states and territories by 2002. 
Currently in FY 2016, there are 49 land-grant universities/Cooperative 
Extension services providing SNAP-Ed, including both 1862 and 1890 
institutions.
    With the growth of Extension-lead SNAP-Ed programs, USDA NIFA 
established the SNAP-Ed Program Development Team (PDT) in 2001. This 
team includes Family and Consumer Science Program Leaders and other 
university administrators, SNAP-Ed Program Coordinators, an office 
manager, and a NIFA representative who are committed to improving the 
consistency and effectiveness of SNAP-Ed programming through 
Cooperative Extension in addressing national health and nutrition-
related problems facing low-income populations. Each member serves a 2-
3 year team. I served as a member of the PDT from 2006-2009.
The Land-Grant Mission and SNAP-Ed
    Land-grant universities (LGUs), through Cooperative Extension, are 
uniquely positioned to serve as SNAP-Ed Implementing Agencies. First 
and foremost, Extension and the land-grant university has a primary 
educational mission. They are not a service provider. University 
faculty have the ability to translate research into educational 
programs and conduct program evaluation which informs future research. 
This creates a continuous quality assurance feedback loop. Annual 
community needs assessments also help shape programming that meets the 
SNAP participant where they are most receptive to engage in education. 
These activities are all part of what we call the Land-grant Mission 
and what Justin Morrill, Hoke Smith and Asbury Lever envisioned over 
100 years ago.
Figure 1. Program Development Process
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    With the passage of the Morrill Act of 1862 and 1890, land-grant 
universities were established in each state to provide greater access 
to higher education to the citizens with two primary missions--Research 
and Teaching. With the passage of the 1914 Smith-Lever Act, these 
institutions created a third mission, what is known as Extension. The 
Extension mission was designed to translate the university-generated 
research and teaching beyond the campus to farms and consumers. 
Extension was to be a cooperative activity between the Federal 
Government (USDA), the states (via land-grant institutions) and county 
governments.\1\
    The Ohio State University (OSU) SNAP-Ed, in collaboration with Case 
Western Reserve University (CWRU) and Ohio Department of Health's 
Creating Healthy Communities Initiative, is currently demonstrating how 
land-grant universities can conduct research and translate it into 
educational interventions. This OSU-lead collaborative is working 
together to develop a tool that will help front line staff to determine 
what Policy, Systems, Environments (PSE) intervention a group or 
community is willing to undertake and be successful. The tool will take 
the interested group through an online questionnaire and depending on 
the question responses will determine the most reasonable intervention 
and provide online resources to guide implementation. OSU faculty 
recruited SNAP-Ed participants and SNAP-Ed staff for the core formative 
evaluation and have been engaged in the ongoing development of the 
tool. They also assisted with further refinement by engaging 
practitioners in farm to school, early child care, farmers markets and 
healthy corner stores. Given the statewide reach of OSU Extension, they 
were able to provide populations from a variety of environments rural, 
urban, and suburban. CWRU is providing their expertise in data analysis 
and tool construction. The tool questionnaire is now in the preliminary 
phases of testing and the website is being developed.
    The Extension mission continues today being delivered across each 
state by a network of faculty, ensuring educational opportunities from 
the urban core to the most rural locations. These faculty are often 
referred to as agents, educators or specialists. In 2016, the PDT 
conducted a survey \2\ of land-grant university SNAP-Ed faculty to 
determine what the qualifications and education those who provide SNAP-
Ed programming have. Based on the results of 43 institutions reporting, 
a total of 3,620 persons (2,269 FTE) work with SNAP-Ed. Although some 
individuals held multiple degrees, SNAP-Ed faculty and staff hold 754 
bachelor degrees, 450 master's degrees and 54 Ph.D.s in the areas of 
nutrition, health, physical activity and education. Two hundred thirty-
four (234) held degrees in other fields. In addition, these individuals 
hold the following registrations or licensures: 209 registered and/or 
licensed dietitians, 85 state licensed nutritionists, four state 
licensed in physical activity and 32 other certifications. These 
individual roles are paraprofessional program delivery (54%); 
professional faculty/staff program delivery (30%); administration and 
budget (7%); program leadership (6%) and curriculum and support staff 
(3%).\3\
    These educators deliver research- and evidence-based educational 
programs through both face-to-face and on-line delivery methods. They 
provide technical assistance to producers, consumers, communities and 
businesses. Extension faculty also work closely with local, regional 
and state service agencies and institutions to provide referrals, 
develop community plans, and to provide education to their clients. By 
doing so, Extension faculty are able to meet the needs of participants 
where they live, work, learn, play and pray.
    University of Georgia Extension has developed ``Food eTalk'', an 
online eLearning nutrition education program designed to provide cost-
effective and efficient nutrition education for low-income populations 
by capitalizing on trends in Internet access and use as well as 
mitigating barriers to attending traditional face-to-face classes. 
``Food eTalk'' is accessible to anyone with an Internet connection. It 
is mobile friendly and designed to be taken at the user's pace and 
lessons do not have to be taken in a specific sequence. An extensive 
multi-year evaluation is underway currently, but clearly demonstrates 
how the Georgia Extension is meeting SNAP participants where they live 
and learn.\2\
    University of Alabama Extension combined research and Extension 
efforts in the program development process when they developed and 
continue to evaluate their ``Body Quest'' program. Alabama Cooperative 
Extension first implemented the child obesity prevention program ``Body 
Quest'' in 1999, and since then program has become a 15 week, multi-
level program aimed at reducing childhood obesity in third-graders 
through multiple delivery methods. In FY2015, the program was 
implemented to both a treatment and control group of students and their 
parents, which included social marketing, community coalitions, and 
parent and child engagement, among other things. The curriculum 
included materials and iPad applications with [anime]-style cartoon 
characters representing different healthy habits to help make the 
curriculum relatable to the children. By the end of the 15 week period, 
treatment students reported eating more fruits and vegetables offered 
through the School Lunch Program compared to the control group. Parents 
of the treatment group children were given easy to make and inexpensive 
recipes that incorporated more vegetables, and were given other 
information and tips through a texting initiative. A post-survey 
texting poll found that 100% of the parents who received the texts 
enjoyed them, and as a result treatment group parents found that their 
third-graders ate an increased amount of vegetables per day compared to 
the control group.\3\
Focused on Positive Behavior Change
    The Centers for Disease Control (CDC) reports that more than \1/3\ 
(34.9% or 78.6 million) of U.S. adults are obese and 17% (12.7 million) 
of U.S. children and adolescents (ages 2 to 19) suffer from obesity.\4\
    Data indicates that low-income individuals are more likely to be 
overweight and/or obese. Programs such as SNAP-Ed are critical to 
addressing the current obesity epidemic within the United States and 
trying to prevent these numbers from increasing with future 
generations.
    The goal of SNAP-Ed is to improve the likelihood that persons 
eligible for SNAP will make healthy choices within a limited budget and 
choose active lifestyles consistent with the current Dietary Guidelines 
for Americans and MyPlate.\5\
    While not the only SNAP-Ed implementers, LGUs have deep educational 
roots in communities across the United States. This infrastructure, 
coupled with the land-grant mission of providing practical, hands-on 
education, has provided an ideal partnership between SNAP and LGU's.\6\ 
Research has shown that exposing children to hands-on activities with 
unfamiliar fruits and vegetables can increase a child's willingness to 
taste these foods.<SUP>7-8</SUP> By understanding the research and 
educational delivery methods, Extension SNAP-Ed programs can focus 
their efforts on positive behavior change.
    Nationally, youth under the age of 18 is the greatest segment of 
the population to participate in SNAP-Ed programs. By targeting a youth 
audience allows SNAP-Ed influences behavior change earlier in life, 
promotes lifelong healthy habits, and helps to influence behavior of 
peers and family members. By adopting healthy eating and physical 
activity behaviors earlier in life, there is a greater likelihood of 
reducing risk of nutrition-related diseases and minimizing future 
healthcare costs.

                      Table 1. Age of Participants
------------------------------------------------------------------------
                             FY15 SNAP-Ed \2\          FY14 SNAP \9\
------------------------------------------------------------------------
    Under 5 Years                        7%                   13.9%
       5-17 Years                       67%                   30.3%
      18-59 Years                       19%                   45.6%
 60 Years & Older                        7%                   10.1%
------------------------------------------------------------------------

    Extension SNAP-Ed programs are committed to providing education to 
a diverse audience. That audience reflects the SNAP participation 
within each community, state and the nation. Table 2 demonstrates how 
LGU SNAP-Ed programs serve racially and ethnically diverse audiences 
throughout the country.

      Table 2. Race and Ethnic Diversity (46 States Reporting) \2\
------------------------------------------------------------------------
                          SNAP-Ed Participants       U.S. Population
------------------------------------------------------------------------
    Race (2,398,271
      reporting)
------------------------------------------------------------------------
American Indian or                         2.2%                     1.0%
 Alaska Native
Asian                                      2.0%                     4.8%
African American                          19.8%                    12.6%
Native Hawaiian or                         0.5%                     0.2%
 Other Pacific
 Islander
White                                     69.8%                    72.4%
Other                                      4.7%                     9.1%
Unknown                                    0.9%
------------------------------------------------------------------------
 Ethnicity (2,386,463
      reporting)
------------------------------------------------------------------------
Hispanic                                  17.5%                    16.3%
Non-Hispanic                              81.4%                    83.7%
Other                                      1.1%
------------------------------------------------------------------------

Offering a Complement of Nutrition & Physical Activity Programs
    Land-grant universities offer a complement of nutrition education 
programs. It is important to understand that, although an entity may 
deliver multiple programs via multiple funding sources, these programs 
are complementary and not duplicative. In addition, program funding 
mechanisms often vary.
    For example, SNAP-Ed funds are distributed to state SNAP agencies. 
The state agency may retain a part or all of the funding. They may also 
choose to grant funding to one or more implementing agencies. States 
may elect to accept a multi-year scope of work but often approve only 
single year plans. Budgets are only allowed to be for a single year 
funding period with the ability to utilize the funding for a period of 
up to 24 months. When plans are for only a single year, program 
continuity and long-term evaluation becomes more difficult. Annual 
funding proposals can also lead to greater turnover or change in the 
type and number of implementing agencies within states.
    In addition to SNAP-Ed, LGUs receive Expanded Food and Nutrition 
Education Program (EFNEP) funding through USDA NIFA. These Smith-Lever 
[(3)(d)] funds are distributed as capacity funding. EFNEP began in 1968 
and is conducted by all Cooperative Extension Services. EFNEP provides 
education utilizing a paraprofessional model in many states. EFNEP is 
grounded in direct education. On average a participant receives an 
average of 9 hours of instruction over 6-18 months utilizing evidence-
based curricula. They must complete a series of standardized evaluation 
and dietary recalls prior to program graduation. EFNEP is designed to 
reach families with children in the home and low-income youth.
    Extension faculty also utilize local, state, regional and national 
funding from Federal, state, foundation and private sources to fund 
nutrition education opportunities. Each funding source can be used to 
complement and expand the body of knowledge and scope of an 
intervention. For example, University of Missouri SNAP-Ed conducts a 
social marketing campaign entitled ``Live Like Your Life Depends on 
It.'' This campaign is targeted to adults' 35 years and older promoting 
healthy dietary and physical activity behaviors. This campaign utilizes 
billboards, radio and print media as well as posters and flyers to 
promote these messages. SNAP-Ed funding can only be utilized within 
geographic areas where 50% or greater of the population is at or below 
185% of poverty. By leveraging their partnership with the Missouri 
Council on Activity & Nutrition (MOCAN) and its partner agencies, the 
message can be further replicated throughout the state in geographic 
areas where SNAP-Ed cannot fund this effort.
Improving SNAP Participants Lives and their Food Environments
    Food insecurity affects 14.9% of American households, and rates are 
approaching 25% among black and Hispanic households. Nutritionally poor 
foods are often less expensive than healthful foods, and food 
insecurity is associated with poor diet quality and diet-sensitive 
diseases, including diabetes, hypertension, and hyperlipidemia. Food 
insecurity has also been associated with other behavioral factors 
related to chronic disease self-management and poor disease 
control.\10\
    SNAP-Ed is the educational component of SNAP. SNAP is the nation's 
first line of defense against hunger and a powerful tool to improve 
nutrition among low-income people.\4\ SNAP-Ed is designed to provide 
nutrition and physical activity education to SNAP recipients of all 
ages. While not having a specific food security goal or focus, SNAP-Ed 
supports SNAP's role in addressing food security.\4\ SNAP-Ed is 
grounded in the Social Ecological Model (Figure 2) <SUP>11-13</SUP> 
which demonstrates that education and interventions must occur at the 
individual, policy, system and environmental level of a community. 
SNAP-Ed must now be delivered as a combination of direct education and 
either multi-level interventions and/or public health approaches. All 
curricula and interventions must be evidence-based, meaning they must 
be tested for validity and reliability. Simply put, SNAP-Ed is changing 
participants' health, lives, and their food environments.
[Figure 2.] A Social Ecological Framework for Nutrition and Physical 
        Activity Decisions
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    Extension SNAP-Ed programs would all agree that they strive to do 
the following:

  <bullet> Improve diet quality.

  <bullet> Increase physical activity.

  <bullet> Stretch food dollars. (avoid running out of money before the 
        month ends).

  <bullet> Increase healthy food access.

    ``Better Living for Texans'' (BLT) demonstrates how one evidence-
based program may have several of these goals within itself. BLT is a 
statewide program serving 217 of 254 counties in Texas, and is aimed at 
helping educate how to eat healthier while saving money on their 
grocery bills. BLT offers educational classes, newsletters and other 
services with a goal of providing up-to-date nutritional advice to SNAP 
recipients so that these consumers will be able to make healthier food 
choices. The program has documented positive behavioral changes in its 
participants in many areas, including the ability to prepare nutritious 
family meals; improved food shopping skills; the ability to manage 
their food budget; increased physical activity levels and improved safe 
food handling practices.
    Regardless of the state or the community, Extension faculty are 
working to meet the needs of SNAP-Ed participants where they live, 
work, learn, play and pray. Table 3 provides just a few of the sites 
where Extension SNAP-Ed programs are being delivered.

        Table 3. Delivery Sites Examples (not an exhaustive list)
------------------------------------------------------------------------
         Direct Education            Policy, Systems, Environments (PSE)
------------------------------------------------------------------------
Community Centers                   Farmers' Markets
Emergency Food Assistance Sites     School & Community Gardens
Churches                            Retailers
Healthcare                          Local Government Entities
Libraries                           Food Producers
Retailers                           Community Agencies
SNAP Offices                        Healthcare
Worksites                           Childcare Providers
Youth Program sites                 Community Design Agencies
------------------------------------------------------------------------

    Finally, I would like to leave you with a few examples of how SNAP-
Ed delivered by a land-grant universities can make an impact on a local 
community as well as individual SNAP recipients.
    The presence of SNAP-Ed in the Tracy, MN classrooms has led to a 
strategic partnership with others in the school district, such as 
school food service as well as the FFA chapter's community garden. 
Because the school district procures food directly from local 
producers, the SNAP-Ed educator was able to work with the school food 
service director to promote locally grown menu items to the students. 
Through a USDA grant that Tracy Schools received, they were able to 
install a walk-in freezer and cooler which allowed the district to 
purchase greater quantities of produce and created new markets for 
producers. In 2012, University of Minnesota SNAP-Ed evaluated these 
efforts impact on increasing fruit and vegetable consumption. Their 
results are shown in Table 4.

        Table 4. Tracy MN SNAP-Ed Fruit and Vegetable Intake Data
------------------------------------------------------------------------
                              Increased Fruit       Increased Vegetable
                                Consumption             Consumption
------------------------------------------------------------------------
          Grade 3                       68%                     46%
          Grade 4                       57%                     29%
          Grade 5                       51%                     33%
          Grade 6                       64%                     41%
------------------------------------------------------------------------

    In Lyon County, Kansas, the SNAP-Ed nutrition educator expanded the 
regularly offered nutrition classes by working with the local grocer to 
provide in-store healthy food demonstrations that correspond with the 
store's weekly sales circular. For many years, the store manager has 
provided discounts on purchases made for SNAP-Ed food demonstrations 
for nutrition classes. Now, the educator has been invited to conduct 
in-store demonstrations with an emphasis on proteins, fruit and 
vegetables. With the assistance of Kansas State University graphic 
artists, recipe card, menu and full sheet recipe templates have been 
created. These items can be localized to promote store-specific 
information. The grocer displays recipe cards with the sale items. The 
local school district also promote these recipes on its parent webpage. 
This community-wide support has resulted in (1) increased sales of 
featured items; (2) customers reporting replicating the recipes at 
home; (3) grocery staff also report making the recipes at home; and one 
person who indicated they were able to ``cook something for dinner that 
wasn't frozen.'' The store manager summarized the project success ``I 
am very happy with the (SNAP-Ed) partnership to provide informational 
resources for our community, in trying to make it a better place to 
live, work and raise a family.'' \14\
    In Missouri, MU Extension faculty developed a number of programs 
for direct education as well as Policy, Systems and Environment (PSE) 
interventions.
    ``Show Me Nutrition'' (SMN) is a comprehensive curriculum that 
teaches youth from preschool to junior high how to adopt a healthy 
lifestyle and make positive behavior changes. The curriculum supports 
both Missouri and national health education standards. Several 
important themes are taught at each grade level, such as nutrition, 
food safety, physical activity, media influence and body image. Each 
grade level is designed to be taught alone or promotes continuity for 
children as they are promoted through school. Age-appropriate content, 
activities and handouts make learning about healthy eating fun for 
students of all ages. The pre-school through fifth grade curricula 
include family newsletters that help engage family members and 
caregivers in supporting their child's education as well as replicating 
the recipes and physical activities at home. Each curriculum also 
includes handouts to reinforce each lesson.\15\ ``Show Me Nutrition'' 
has been sold into 47 states and three foreign countries. As of FY2015, 
over 19% of Extension SNAP-Ed programs incorporated SMN into their 
program. Additional non-Extension SNAP-Ed Implementing Agencies also 
utilize the SMN curricula.
    ``Eating from the Garden'' (EFG) is an MU-developed curriculum that 
combines direct education with PSE strategies. EFG provides research-
based information to high needs youth in schools and community 
programs. Through nutrition education and gardening activities, EFG's 
goal is to increase consumption of fruits and vegetables as well as 
increasing local access to fresh produce. Each school or community 
program that participates is actively involved in the preparation and 
maintenance of the garden site. The local program also determines how 
the produce, in excess of food tastings, is utilized--sent home with 
participants, donated to emergency food sites, used to augment their 
food service program, or as part of a local farmer's market. One school 
worked with their nutrition educator to be referred back to the state 
SNAP agency to determine how they could accept EBT/SNAP benefits if 
they utilized the produce grown in a school-based [farmers'] market. 
The market would be held once a week during after-school pick-up so 
parents could select fresh produce to incorporate into their family's 
meal. Given a poor spring 2016 growing season, they were not able to 
provide adequate produce for their school families, so they invited 
local producers to join their market. This was the only market 
available to a community where over 60% of the school children are 
eligible for free-/reduced-lunch and SNAP recipients. At a separate 
school, one family, whose child participated in EFG, replicated the 
garden effort in their own home. This family reported being able to 
provide adequate produce for their family for over 3 months in 2015, 
thus, stretching their limited food dollars and reducing their reliance 
upon SNAP benefits.
    ``Eat Smart in Parks'' and ``Shop Healthy, Stock Healthy'' are two 
more recent interventions developed to address the policy, system and 
environmental change component of SNAP-Ed and to improve the overall 
food environment of the SNAP audience.
    ``Eat Smart in Parks'' (ESIP) was developed by a statewide 
collaboration, including University of Missouri Extension, Missouri 
Parks and Recreation Association (MPRA), and the Missouri Council for 
Activity & Nutrition (MOCAN) as well as MU Parks, Recreation and 
Tourism faculty and the MU School of Journalism's Health Communication 
Research Center. The goal of ESIP is to promote healthy eating options 
in Missouri state and local parks. Although parks are a valuable 
resource for children and adults to maintain and improve their health 
through exercise and recreation, the high-calorie, salty foods served 
at some parks can quickly negate the benefits of being outside and 
moving more. Parks who participate in the ESIP program receive customer 
research, menu analysis, taste tests, healthy product identification 
and sourcing assistance, marketing materials and healthy food incentive 
ideas. In Fountain Bluff, MO, park customers surveyed indicated they 
wanted healthier options. This research inspired the park manager to 
partner with a local grocery to buy fresh fruit and vegetables packaged 
in small, snack-sized servings. The grocer packages the produce which 
reduces labor and ensures a fresh, quality product. The park manager 
also decided to keep the price point lower and have a smaller profit 
margin on the healthy items to increase sales.\16\
    ``Stock Healthy, Shop Healthy'' is a comprehensive, community-based 
program that allows communities to improve access to healthy, 
affordable foods by working with small food retailers. Millions of 
Americans, many whom are SNAP recipients, have limited access to a 
supermarket, which means they rely on fast food restaurants, gas 
stations and corner stores to feed themselves and their families. This 
often reduces their ability to buy healthy foods and can increase their 
risk for overweight and obesity. ``Stock Healthy, Shop Healthy'' 
provides guidance to a community to increase healthy food access by 
engaging small food retailers and community members, therefore, 
addressing supply and demand at the same time.\17\
    Let me close by again thanking Chairman Conaway, Ranking Member 
Peterson, and all of the Committee Members. It has been an honor to be 
able to share just a small portion of the impacts made by Cooperative 
Extension and the land-grant university system through SNAP-Ed.
[Endnotes]
    \1\ Colleges of Agriculture at Land-grant Universities. Chapter 2. 
History and Overview of the Land-grant System. http://www.nap.edu/read/
4980/chapter/2. Accessed on 6/15/16.
    \2\ Qualifications of Land-Grant University Staff Delivering SNAP-
Ed. Land-Grant Program Development Team. June 15, 2016. Unpublished 
data.
    \3\ FY 2015 Land-grant University SNAP-Ed data accessed from SNAP-
Ed Program Development Team. 6/15/16.
    \4\ http://www.cdc.gov/obesity/index.html.
    \5\ http://www.fns.usda.gov/snap/supplemental-nutrition-assistance-
program-education-snap-ed.
    \6\ Julie S. Sexton. ``Supplemental Nutrition Assistance Program 
Education Through the Land-Grant University System for FY 2010: A 
Retrospective Review.'' Published January 2013. Funded by Cooperative 
Extension Service Directors/Administrators through National Land-Grant 
University SNAP-Ed Assessment.
    \7\ Dazeley P., Houston-Price C. Exposure to foods' non-taste 
sensory properties. A nursery intervention to increase children's 
willingness to try fruit and vegetables. Doi:10.1016/
j.appet.2014.08.040. www.sciencedirect.com/science/article/pii/S01956
6314004486.
    \8\ Dazaley P., Houston-Price C., Hill C. Should healthy eating 
programmes incorporate interaction with foods in different sensory 
modalities? A review of the evidence. The British Journal of Nutrition 
108(5): 769-77. 2012.
    \9\ Distribution of SNAP/FSP participation by age and year. USDA 
Economic Research Service http://www.ers.usda.gov/topics/food-
nutrition-assistance/supplemental-nutrition-assistance-program-(snap)/
charts/snap-participants-by-age.aspx. Accessed 6/15/2015.
    \10\ Grilo S.A., Shallcross A.J., Ogedegbe G., Odedosu T., Levy N., 
Lehrer S., et al. Food Insecurity and Effectiveness of Behavioral 
Interventions to Reduce Blood Pressure, New York City, 2012-2013. Prev. 
Chronic Dis. 2015; 12:140368. DOI:
http://dx.doi.org/10.5888/pcd12.140368.
    \11\ What is the Social Ecological Model (SEM), Communication for 
Development (C4D)? www.unicef.org/cbsc/files/Module_1_SEM-C4D.docx. 
Accessed 6/16/16.
    \12\ System, Environmental, and Policy Changes: Using the Social-
Ecological Model as a Framework for Evaluating Nutrition Education and 
Social Marketing Programs with Low-Income Audiences. Journal of 
Nutrition Education. 2001. Vol. 33(1): S4-S15
    \13\ Social Ecological Model. SNAP-Ed Plan Guidance. https://
snaped.fns.usda.gov/national-snap-ed/snap-ed-plan-guidance-and-
templates. Accessed 6/20/2016.
    \14\ Lyon County Grocery Success. Kansas State University. 
Information submitted by Paula Peters. Received 6/17/16.
    \15\ Show Me Nutrition. University of Missouri. http://
extension.missouri.edu/p/SMN100. Accessed 6/15/16.
    \16\ Eat Smart in Parks. University of Missouri. http://
extension.missouri.edu/mocan/eatsmartinparks/. Accessed 6/15/16.
    \17\ Shop Healthy, Stock Healthy. University of Missouri. http://
extension.missouri.edu/stockhealthy/. Accessed 6/15/16.

    The Chairman. The doctor's time has expired.
    Well, thank you, all four of you, for terrifically 
inspiring testimony.
    The chair would remind Members that they will be recognized 
for questioning in order of seniority for Members who were here 
at the start of the hearing. After that, Members will be 
recognized in order of arrival. And I appreciate Members' 
understanding.
    I now recognize myself for 5 minutes.
    Dr. Sharma, the Brighter Bites has an extensive network of 
private-sector businesses, as you mentioned, H-E-B and Sysco, 
as well as nonprofits. How do you sell them on your idea and 
get them to support your overall mission, and can you tell us 
how integral they are to the success of what you have done so 
far?
    Dr. Sharma. Thank you for this important question. The key 
is alignment of mission and alignment of expertise. H-E-B and 
Sysco Foods have been our strong partners, and one example that 
H-E-B is that community engagement is not just something that 
they do, but it is at the foundation of how the company works. 
And for Sysco Foods, Rich Dachman, who is the Vice President 
for Produce for Sysco Foods, is on the board of Brighter Bites, 
and the mission for Sysco Foods is how to healthfully feed our 
families. And so there is alignment of mission and that is 
critical when you are looking for this for-profit-nonprofit 
partnership. And alignment of expertise. We have leverages on 
the Sysco Foods ability of having 9,000 trucks that run daily 
around the country, and they have relationships with the 
farmers so they can then directly aggregate the excess produce 
and bring it in to the food banks, who can then bring the 
produce to our Brighter Bites locations.
    The Chairman. There are a lot of things going on in Texas. 
Feeding Texas, the A&M Extension Service, represented by Dr. 
Britt-Rankin, all of them get SNAP-Ed grants. How do you 
coordinate with them so you are not overlapping and serving the 
same populations?
    Dr. Sharma. Thank you again. It is a very important 
question. We do not want to duplicate efforts. We do not want 
to reinvent the wheel. And we have leveraged on the 
infrastructure of a lot of our partners, like local food banks 
who we work with in produce procurement, inventory and 
delivery. We also work with Feeding Texas that actually 
oversees the 21 food banks in the State of Texas. And we are 
working with them closely, and Feeding Texas, as you know, 
receives funding from the USDA, on developing a statewide model 
for nutrition education. For Texas Agriculture Extension 
services at A&M: first, we are working with them very closely 
too, they have been funded for school gardens, where you are 
creating the seed-to-plate nutrition education, material and 
information for the children, and with Brighter Bites they get 
to try the produce at home. We are linking the school and the 
home, and we are doing it by really leveraging the expertise of 
our partners and not duplicating the efforts.
    The Chairman. You mentioned as part of your bio that you 
have some expertise in measurements and we are all interested 
in success, reducing the obesity rates and lowering the rates 
of chronic illnesses. Talk to us a little bit about how you see 
your role in evaluating Brighter Bites, walk us through what 
you evaluate and how you define success.
    Dr. Sharma. Thank you for the opportunity to answer that 
question. We have seen very compelling results with Brighter 
Bites. We have tracked our families for the last 4 years. We 
collect data on all our families and the schools that----
    The Chairman. Do you have health data on the individuals or 
weight data?
    Dr. Sharma. We have weight. We track children's weight. We 
have the weight of the children, so we track that. And our 
rates of obesity in the children that are in our population are 
higher than the national average. It is 42 percent of our 
children are overweight or obese. And we are going back, this 
year we are going back and seeing if the children who were in 
the Brighter Bites programs, what does their weight gain 
trajectory look like for 2 years that they have now been in the 
program. So we are tracking health metrics.
    The Chairman. You are saying there was a 42 percent obesity 
rate at the beginning of your program, and they were----
    Dr. Sharma. First-grade children.
    The Chairman. Okay.
    Dr. Sharma. Yes.
    The Chairman. Go ahead.
    Dr. Sharma. Yes, first-graders. And we are doing a project 
with Texas Children's Hospital where we are actually looking at 
stool samples of children who are receiving Brighter Bites, 
because if you have a healthy gut, bacteria, that is sort of 
the window into your health. And so we are looking at stool 
samples of children who are receiving fruits and vegetables to 
see how that impacts the gut bacteria as well. Which is another 
really important health marker as well. So we are tracking 
metrics both at the behavioral as well as the health level.
    The Chairman. Well, thank you very much. Again, I 
appreciate all four of you being here this morning.
    The Ranking Member, for 5 minutes.
    Mr. Peterson. Thank you, Mr. Chairman. Dr. Britt-Rankin, 
the University of Minnesota Extension has a SNAP education 
program in Staples, which I mentioned earlier, is partly in my 
district and partly in Mr. Nolan's district. This program 
called Choose Health not only provides qualified families with 
fresh produce, through a CSA community board agriculture share, 
but also offers classes on some ways to cook the fruits and 
vegetables that they are given.
    My question is, what is the more important and effective 
piece of this model? Is it the availability of the food, or is 
it learning how to cook it?
    Dr. Britt-Rankin. I would say it is a combination. I think 
you have the skills. You may know of our----
    The Chairman. You need to turn your microphone on please.
    Dr. Britt-Rankin. My apologies. I would say it is a 
combination. We know that many of our young people today are 
almost two generations from having cooking skills. And so we 
have to know how to prepare the food, but we have to have 
access as well. We know that nutrition education, if we have 
lessons that are encouraging people to increase their fruits 
and vegetables, if there are none available in their local 
community, they can't put that to use. So they need the hands-
on, we know there is research to show that hands-on 
opportunities to prepare the foods we are talking about, 
increase the likelihood that they are going to keep those in 
their diet and prepare those long-term. But we do have to have 
the access. So it is really a combination.
    Mr. Peterson. Thank you. Ms. Foerster, I recently read a 
history of SNAP and am fascinated by the evolution of the 
program, from the old days of coupons and surpluses to the 
program that we oversee today. And in some ways, the topic that 
we are here to discuss, SNAP education, mirrors one of the 
major challenges that the Committee faces in setting policy for 
farmers. And that challenge is that the majority of the people 
in this country are detached from agriculture. Knowledge about 
agriculture and our food supply used to be common information, 
as was knowledge about nutrition and cooking. And, you used to 
have home economics in school. But I don't want to date myself 
too much.
    Why is it that so many of our citizens are not able to do a 
good job of food preparation, and how do we solve this problem? 
SNAP education has a large role to play, but what other things 
can we be doing to help re-educate the American public on how 
to cook instead of going to the fast-food place?
    Ms. Foerster. Thank you very much for the question. In 
terms of being an historian, what we see now with SNAP-Ed is 
that it has evolved from boots-on-the-ground understanding, 
what it is that people want. What we see in low-income 
communities is acute concern about overweight in children, 
about high rates of diabetes and hypertension, early heart 
attacks, and that sort of thing, which, when people learn that 
these are rooted in poor dietary practices and physical 
inactivity, they get very much interested in how they can be 
doing better, and they start looking at the food supply. And so 
we see a resurgence really of farm-to-fork, farm to local 
agriculture, farmers coming into schools, chefs being 
interested in local produce, these kinds of things that can 
really get people engaged in where their food comes from.
    With SNAP-Ed, we are trying to go upstream. Part of what 
happens after nutrition education is done is that people do get 
interested in their food supply, how to cook, culinary careers 
that people can get into, high school or chefs and so forth, 
moms, even just becoming interested in the heritage of the food 
that maybe their culture had been interested in, and being 
concerned about what food is offered in the stores where they 
shop. It is evolving naturally that low-income people as well 
as others are watching where the food comes from, they are 
interested in gardens, community gardens, they are interested 
in selling the produce that they might be able to grow there. 
There is a lot of opportunity that we have with the connection 
between SNAP, SNAP-Ed and agriculture being very strong. Food 
policy councils, for example, are a growing institution that 
looks at entire food systems, it could be a rural area or an 
urban area.
    Mr. Peterson. Thank you, Mr. Chairman. I yield back.
    The Chairman. The gentleman's time has expired.
    Mr. Gibbs, for 5 minutes.
    Mr. Gibbs. Thank you, Mr. Chairman. Thank you to the 
witnesses for being here.
    I have a couple of questions. The first thing I want to try 
to talk about, I guess to Dr. Rankin. The SNAP-Ed and the EFNEP 
have similar goals but they are separate programs, and funded 
separately. Can you bullet point differences of the two 
programs, and if a SNAP recipient participated in both 
programs, would they be getting different information from the 
programs?
    Dr. Britt-Rankin. Thank you for the question.
    Mr. Gibbs. Microphone.
    Dr. Britt-Rankin. Thank you for the question. To compare 
and contrast first. EFNEP, as you said, it is capacity funding 
directly to land-grant institutions from USDA and NIFA. SNAP-Ed 
is a grant program that goes to the state SNAP agencies. EFNEP 
targets families with children in the home and youth groups, 
where SNAP-Ed is all SNAP recipients.
    Program delivery for EFNEP is grounded in long-term, deep, 
rich nutrition education. For adults, there is an enrollment 
process, a graduation process, looking very much at dietary 
intake with food recalls----
    Mr. Gibbs. So we are really talking behavioral changes 
eating and----
    Dr. Britt-Rankin. It does change. SNAP-Ed uses multiple 
methods. They may use single session, multi-session, as Dr. 
Sharma says, up to 16 weeks. So it can go--we are in the school 
district--in schools maybe year-round. However, we have the 
additional, the policies, the systems, the environments, as we 
have talked about, the gardens, the farm-to-fork those are 
complementary and look at the community system that we may not 
do as much of EFNEP. I would say that basic nutrition, food 
preparation, safe food handling doesn't change depending on the 
funding source. However, SNAP-Ed complements the direct 
education, which is the foundation.
    Mr. Gibbs. Okay. Okay, I want to move on.
    Dr. Sharma talked about in her testimony that in the last 
30 years, obesity rates in children have doubled, and as you 
know there is a 12 percent increase in intake of fruits, so it 
has improved somewhat. The question I want to get to is 
coordination between the SNAP people, education, SNAP-Ed and 
all that, and the schools, and the USDA and the School Lunch 
Program. And I know the Ranking Member mentioned home 
economics. Behavioral change is possible, physical activity, 
and it seems to me that especially for our children, that has 
to go hand in hand.
    And so I guess my question really is what can we do as 
policymakers to really encourage more coordination between all 
the agencies involved, and so we are doing the right education 
on eating behavioral changes, but also physical activity and 
all that?
    Dr. Sharma. Thank you for the important question. At 
Brighter Bites, we implement CATCH, which is Texas Education 
Agency approved. It is a coordinated school health program that 
is implemented in the schools, which includes very strong 
nutrition, physical activity, and a food service component. 
Schools are trained and empowered in implementing all of these 
components, and integrating into the day-to-day lives of the 
kids. It is a holistic approach where you have the nutrition, 
physical activity, and a food service component. So you are 
sort of elevating the opportunities.
    Mr. Gibbs. When you started this program, Brighter Bites, 
what were the hurdles to get everybody working together. Were 
there state law changes, or how did that come about?
    Dr. Sharma. It was the formula that we intended. We wanted 
to link the school with the home, and we wanted to combine 
access with education. So that is where we brought in the food 
banks to procure the donated produce, and the schools to 
implement CATCH, and then we work very closely with the 
families where we integrate both these messages and link it to 
the home so they can practice these behaviors.
    Mr. Gibbs. Okay. In this program, do you have challenges 
working with the schools to encourage more physical activity? 
How is that intertwined with that?
    Dr. Sharma. We train the schools. We work with the schools 
very closely, and we actually provide them with the equipment 
that they need to implement the nutrition and physical activity 
components. Schools will get basketballs, volleyballs, hula-
hoops, whatever it is to make physical activity fun and keep 
the kids moving, while they are learning to eat healthier. It 
is a combination of both.
    Mr. Gibbs. Okay. Thank you, Mr. Chairman. I yield back.
    Dr. Sharma. Thank you.
    The Chairman. The gentleman's time has expired.
    Mr. Scott, for 5 minutes.
    Mr. David Scott of Georgia. Thank you, Mr. Chairman. This 
is indeed a very interesting hearing, but it is very important 
that we get to the focus of this hearing. And the focus of this 
hearing is to determine the budget for SNAP education. I have 
been here 14 years, and SNAP education has been a target.
    I would like to give each of you an opportunity to state 
for the record how you measure the success, what evidence do 
you have to show, and how do you make what you are doing 
accountable to the taxpayers, because we need that in order to 
help us maintain the funding for what you are doing. So share 
with us how you measure the success of the program.
    Well, why don't you start, Dr. Wisdom?
    Ms. Foerster. Thank you.
    Dr. Wisdom. Thank----
    Ms. Foerster. I am sorry.
    Mr. David Scott of Georgia. Well, I have another question. 
What I am after here is that we have these hearings, but we 
need to get to the meat and potatoes here. Your programs are 
being targeted. Right now, you are at $414 million. It is clear 
to me this is a very, very serious issue, and oftentimes, you 
are not given the opportunity to say here is how we are 
measuring the success, here is what happened, here is where we 
started this year, here is where we are now, this is what we 
have accomplished. I want to give you an opportunity to plead 
your case here.
    Okay, Ms. Foerster.
    Ms. Foerster. Thank you for the question. The SNAP-Ed 
evaluation framework that you have in my testimony attempts to 
put together the major endpoints that experts recommend are 
needed for good nutrition in the country, for food insecurity, 
physical activity, and obesity prevention. And so what this 
framework does is put together 51 indicators, I know that 
sounds very bureaucratic, but it puts together 51 indicators, 
each of which has specific metrics that a state or locality can 
mark their progress against, and that as a national level we 
can compile these data across state lines to provide you with 
information about how the program is doing, what are the 
successes that it is having. Ultimately, we are aiming for 
health changes in the entire population, and I mentioned 90 
million people. What we think we can do is give you that data 
about changes that are occurring for individuals in 
organizations that the individuals frequent, and in the 
communities where people live.
    Mr. David Scott of Georgia. Okay. Well, we have some 
specific programs like Health MP. In other words, I guess what 
I am looking for, if you take a measurement of where we were in 
2012, and then here we are in 2016, is there any numerical data 
that we could have of how many children, how many young people 
were effectively losing the weight? I mean that is what we need 
when we point to this, because this SNAP program is always in 
constant jeopardy. I would like to have some numbers that show: 
here is what we did in this state. If we don't show real 
visible things that we can communicate to the American people 
and here in Congress to really illustrate how many students, 
how many young people we were able to help, and give us some 
success stories.
    Ms. Foerster. We are starting to be able to do that across 
the country, and compile those individual results. There is a 
dose response relationship where, in communities where enough 
interventions are being done, enough help is being provided to 
the community, that is where you are going to see the changes. 
You won't see them statewide. You are going to see them where 
there is enough density of intervention in order to show. In a 
way, it is a natural control group that where we can do enough, 
we change.
    Mr. David Scott of Georgia. Okay. I have like 20 seconds, 
and I do want to make a point. Dr. Sharma, you really hit it 
when you mentioned that over the past 30 years, obesity in 
children has doubled. Now, that gives a reason for what we are 
doing.
    Do you see a relationship between that 30 year period and 
when the schools stopped having physical education as a course 
every day? Don't you think there is some correlation with that?
    Dr. Sharma. Yes, and also with the home economics program. 
The shifts have definitely lowered the opportunities for the 
children while they are at school, where they spend a majority 
of their time, to practice these healthy behaviors. And we are 
tracking the obesity rates in our children. The families that 
go through Brighter Bites, we track their heights and weights, 
and we monitor them as they are going through the program. And 
we have data for the last 3 years on the families.
    Mr. David Scott of Georgia. And wouldn't it be good if we 
could maybe begin the process of reinstituting that physical 
education class in the schools?
    Thank you, Mr. Chairman.
    Dr. Sharma. Yes.
    The Chairman. The gentleman's time has expired.
    Austin Scott, 5 minutes.
    Mr. Austin Scott of Georgia. Thank you, Mr. Chairman.
    I think that last question about physical education got a 
lot of yeses from up here. As I looked around, people nodding 
their heads. I think our family life today has a tremendous 
impact on it as well. It seems that parents have less time with 
their kids, and so when you do have the time with them, you 
want them to be happy, and sometimes what makes them happy and 
what is right for them isn't necessarily the same thing. I am 
thinking of maybe Dairy Queen and----
    Mr. Gibbs. Pick on Dairy Queen.
    Mr. Austin Scott of Georgia.--things. Well, all right, I 
won't pick on Dairy Queen. I think you understand what I am 
saying. But thank you for what you do.
    And I guess my question is: we talk about what people eat a 
lot, but the serving size is just something that has amazed me 
is they have continued to get larger and larger and larger, and 
what was a large Coke when I was a child, when you went through 
the driveway today is a small Coke. And how much emphasis is 
there on portion sizes, and what is being done or not being 
done with regard to that?
    Dr. Wisdom. I would be delighted to answer that question, 
to at least start off the conversation. And that is a very, 
very important question because many individuals do not 
understand what a portion size is. They think a portion size is 
whatever they put on their plate. That is a portion, that is a 
serving. So one thing that SNAP-Ed does in a very deliberate, 
intentional, and a repetitive way is to help individuals and 
families understand, children, adults, entire family units, 
understand the importance of portion size and how that has to 
be understood as well as monitored.
    What we do in our program at Henry Ford Health System is 
we, for one, simplify what portion size is. We help them 
understand through very simple methods such as using their hand 
as a source of understanding what is 3 ounces? The palm of an 
adult-size hand. What is a cup? A fist. What is a teaspoon? The 
tip of the thumb. What is an ounce? The entire thumb. So we try 
to find ways to engage the youth as well as the families in 
very simple ways so that they can make very thoughtful 
decisions around portion size on a regular basis, without 
having cups and necessarily those tools at hand when they are 
making that decision. And we repeat those messages over and 
over again. We keep it very simple, very repetitive, and we 
have youth that are very clearly understanding what portion 
sizes are, if they are deviating from the recommended portion 
size. Through that simplification and repetition, we are 
driving that message home, the importance of portion size.
    Mr. Austin Scott of Georgia. Ma'am?
    Dr. Sharma. Thank you for the important question. And 
Brighter Bites as well, we work with the families using hands-
on techniques, and part of that is working with them using the 
MyPlate. Half of your plate should be fruits and vegetables, 
and you have to have a well-balanced diet where you have the 
other meats and dairy and other components as well.
    We have seen that our families demonstrated a twofold 
increase in the knowledge of using portion sizes as part of 
planning their meal.
    Empowering the families and just sort of demystifying this 
information is critical because there is intimidation of 
produce, there is intimidation in how much do I serve to my 
family.
    Mr. Austin Scott of Georgia. Yes.
    Dr. Sharma. We really work with the families in sort of 
breaking these pieces down, using the simple MyPlate 
guidelines, half your plate fruits and vegetables, to sort of 
send home these messages in a very easy, concise, and a 
repetitive way. Thank you.
    Ms. Foerster. And a third area would be that in working 
with other food service operations, whether it would be with a 
worksite food service or in schools, other places like that, 
the portion sizes that are offered on the plate and the 
distribution to have, say, more fruits and vegetables and fewer 
fried foods, that sort of thing, that is kind of the upstream 
way of trying to de-normalize in other areas of people's lives 
how much food is being eaten.
    We are all really looking forward to the new nutrition 
labels as well that are going to kind of demystify how much 
food is in that container, because a big single serving of a 
soft drink is not one portion. That is a very important aspect.
    Mr. Austin Scott of Georgia. That is right, and I am----
    Dr. Britt-Rankin. I would just add, extension programs 
across the country are utilizing many of the things that our 
first three presenters, I would also say that we have children 
that are bringing materials home to the families, so that we 
can replicate this in the home. We are trying to empower this 
population to advocate. We see children, and we have had a 
number of school food service tell us, that the children have 
come, they realize their portion was not the full-sized portion 
of vegetables, because they were trying to reduce food waste, 
and these children, after nutrition education, are actually 
saying we are not getting our full serving. We would like our 
full serving.
    Mr. Austin Scott of Georgia. Mr. Chairman, I am out of 
time, but I would just reiterate that everybody was nodding 
their head when it came to the question of physical education 
in the school systems, and making sure that our kids get enough 
exercise, because they sure don't seem to be getting it.
    The Chairman. I agree with the gentleman. The gentleman's 
time has expired.
    Mr. McGovern, 5 minutes.
    Mr. McGovern. Thank you. First of all, let me start by 
voicing my strong support for SNAP-Ed and thank you for all the 
work that you all do. And I appreciate all the great work being 
done in my district with the support of USDA SNAP-Ed program. 
The University of Massachusetts Extension School, which is 
based in Amherst, is one of my state's SNAP-Ed implementing 
agencies, and in Fiscal Year 2015 alone, UMASS partnered with 
over 80 community agencies and organizations to provide 
nutrition education to over 60,000 adults and children in 
Massachusetts. And because of this programming, children began 
eating fruits, vegetables, and whole grains more often, they 
increased their levels of physical activity. I have been to a 
SNAP-Ed class, and I learned about issues about what 
constitutes an appropriate portion, and how to cook things with 
alternative ingredients to make them healthier and more 
nutritious. And at that class that I attended, there were two 
issues that were raised, and one was some of the people didn't 
have access to supermarkets, which made it more complicated for 
them to be able to comply with all that they learned, and the 
other was basically that the SNAP benefit is really inadequate. 
We can talk about all the different ways to improve SNAP-Ed, 
and we should, and we ought to. This is a good investment of 
taxpayer dollars, but we also need to admit that boosting SNAP 
benefits would improve the diets of low-income households. 
Sometimes the discussions we have here don't reflect the 
realities all throughout country. Often, as we talk about SNAP 
here in Washington, people think it is this extravagant 
benefit. The average benefit is about $1.40 per person, per 
meal, per day.
    I would like to get your input. Would you agree with me 
that if we boosted SNAP benefits, we would improve the diets of 
low-income households, and that combined with proper SNAP 
education would yield an even better result? Maybe we will 
begin with Dr. Wisdom.
    Dr. Wisdom. Thank you for the question. And I agree 
completely with the concept of boosting SNAP benefits combined 
with the education. One way that we are doing it in the interim 
is, in Michigan particularly, through the Double Up Food Bucks 
approach where, for SNAP-eligible families when they use their 
EBT card, they actually can receive double the amount of 
Michigan-grown produce.
    Mr. McGovern. And we have a similar program in 
Massachusetts too.
    Dr. Wisdom. Excellent.
    Mr. McGovern. Yes.
    Dr. Wisdom. So that is one way that we are, in the interim, 
finding ways to augment what people can do in terms of 
educating them around that, and then showing them how to 
prepare meals together. And particularly related to the portion 
aspect we co-educate parents or caregivers with the child so 
that they understand portion size together, they understand 
nutrition together. Then we give each family, after they have 
prepared a meal together, we have them prepare four separate 
meals on four different occasions, and then do a supermarket 
tour. But we also leverage dollars through the health system, 
and we give them each, covered through the health system, a $10 
bag of groceries to replicate that recipe again at home.
    Mr. McGovern. Right.
    Dr. Wisdom. What we are finding are families are waiting 
for, and adults are waiting for, their children to come home so 
they can cook together. There is a lot of interest in the 
culinary arts, and moving in that direction, social work.
    Mr. McGovern. Right.
    Dr. Wisdom. So we are finding a ripple effect of the core 
significant funding that has been provided through the SNAP 
education program.
    Mr. McGovern. And one of the things I remind people all the 
time, a lot of the SNAP families work. It is not like they have 
all the time in the world to do preparation of foods and stuff 
for the week. But, we ought to be moving this discussion at 
some point toward how we boost the overall SNAP benefit.
    I have about 43 seconds left, but I am just curious to hear 
quickly what you all think.
    Ms. Foerster. Well, the fact that SNAP is equal throughout 
the country is one factor, that the SNAP benefit is not 
adjusted for cost of living around the country is a factor. 
Fruits and vegetables are the most price-sensitive foods and so 
smaller stores, for example, we can help with getting better 
supply chains, particularly with local fruits and vegetables, 
so that the price differential in small stores is less.
    In addition, the incentive programs, stores may not offer 
any lower prices to SNAP participants than to other customers. 
That is something that could be looked at in terms of trying to 
make that dollar stretch.
    Mr. McGovern. I am out of time, but, again, I appreciate 
your responses in writing or thumbs up that we ought to be 
increasing the benefit. Thank you, because that is where the 
focus of this Congress ought to be, instead of block-granting 
or cutting or revamping a child nutrition bill that would make 
it more difficult for kids to get meals in schools or during 
the summer.
    But I thank you very much. I yield back.
    The Chairman. The gentleman's time has expired.
    Mrs. Walorski.
    Mrs. Walorski. Thank you, Mr. Chairman. Thanks to our 
witnesses for being here and lending your expertise as we 
continue our review of the past, present, and future of SNAP.
    I chair the Committee's Nutrition Subcommittee, which has 
been heavily involved in this review. I want to point out this 
is the first hearing this Committee has held on the SNAP-Ed 
program in a very long time, so I am especially glad you are 
all here today, and to ensure that our review is a 
comprehensive one.
    And that said, my question is how much conversation has 
gone on about all this integration in schools. And two things 
strike me listening to these conversations. First, I am from 
the Midwest where we have frozen tundra. Fresh fruits and 
vegetables only last seasonally. They are expensive because 
they are so seasonal. And I can relate to your world in 
Detroit, Michigan, probably more than anybody else's here, 
maybe Missouri. But so much of this conversation is talking 
about the integration in schools. And our schools in the State 
of Indiana, our curriculum--I am married to a public school 
teacher, I can tell you on behalf of all school teachers in my 
state, there is so much curriculum mandated, there is no room 
for anything else. And fighting for phys. ed. and physical time 
outside is a question all of its own. But I also feel like, 
when we are talking about this education program, I also feel 
like we are pushing upstream because the whole country is 
eating and doing the things that we are trying to tell a very 
small group of people not to do. I know that the funding is 
targeted to a very small specific group of people, but, for 
example, and I am not sure who to direct this to, maybe Dr. 
Britt-Rankin, I don't know, Dr. Sharma, but what are we doing, 
and maybe it doesn't matter because you guys geographically are 
in places that grow food all the time, but the frozen food 
industry has to play such a large role in this because, for 
those of us in the country where we live in frozen tundra, 
there is no food available.
    And then second, for places where, in the Midwest, outdoor 
activities like playgrounds, basketballs and soccer balls, and 
that kind of stuff, don't exist when it is frozen tundra. So 
now you are relegated to inside activities. How does that all 
play in places where you don't have the luxury of sun 365 days 
a year?
    Dr. Britt-Rankin. I would say that in many of our extension 
programs, we have tried to bring in ag faculty to work with 
producers. We have worked with school districts, FFA, ag 
teachers, to think about how can they add high tunnels * when 
it is cold outside in Missouri, and how can we extend that 
growing season. We have a lot of school districts that are very 
interested in incorporating this, so how can we make this more 
possible.
---------------------------------------------------------------------------
    * Editor's note: High tunnels, also called high hoops or hoop 
houses, are temporary structures that extend the growing season. 
(http://articles.extension.org/pages/18358/introduction-to-high-
tunnels)
---------------------------------------------------------------------------
    We went to our nutrition and exercise physiology faculty 
across the country. They are looking at how do we increase 
activity not just at recess, but throughout our educational 
processes. So oftentimes, a nutrition lesson is always 
complemented with physical activity, even if it is for a few 
minutes, getting kids up, getting the moving, even in the 
classroom.
    Mrs. Walorski. But what about the issue that SNAP 
recipients are watching the same TV programs everybody else is, 
they are going to the same apps online everybody else, they are 
doing the same thing, I mean they are people in our country, 
they are in our nation, being exposed to everything the 
majority of people are. So is there a way to broader educate 
the general population, knowing you are going to be educating 
SNAP recipients as well?
    Dr. Wisdom. Go ahead, and I will follow up.
    Dr. Sharma. Thank you for the important question. The 
answer is yes. Everybody needs to eat healthy, and the social 
norms, if you will, where a majority of our population is 
practicing behaviors that probably need to change. We have 
partnered with the FN We Campaign, that is a social marketing 
campaign, for example, that exposes the entire population with 
regards to the benefits of eating fruits and vegetables, and a 
variety of fruits and vegetables. We want to get people excited 
about eating healthy food. And it is everybody, which is why in 
Brighter Bites we work with the entire school, and we work with 
the entire communities that we are in, and we are linking these 
behaviors and these environments that the child spends a 
majority of their time in, and that is what we need to do to 
move these social norms towards----
    Mrs. Walorski. Right. Yes. And I appreciate that, but I 
guess to respond to Representative McGovern's point, I don't 
look at this as just the issue of throwing more money into a 
situation just by saying, ``Hey, if we throw more money at 
this, it is going to be better.'' Statistics in this country 
prove that is not true. It is a behavior modification. And if 
that is the case it is the same behavior happening all over 
this country. Couldn't we do better then, modeling some of the 
things that you all have done, but being able to do that, which 
really integrates Internet and apps and the things that kids 
are going--and the things our whole country is accessing?
    Dr. Wisdom. Right. That is an excellent question, and we 
are using the core funds of SNAP-Ed to help drive policy 
systems and environmental change in many dimensions.
    Let me just give you a few examples in terms of messaging 
for the general population. We message with our SNAP-Ed 
families, the 5,210 messages around the consumption of fiber, 
more fruits and vegetables per day, 1 hour physical activity, 
non-recreational screen time, limiting it to 2 hours or less 
per day, 1 hour physical activity, and zero sugar-added 
beverages. We take that messaging and we work with our SNAP-Ed-
eligible families, but we also disseminate that same messaging 
in our faith-based organizations, in our clinic settings with 
our students. So we do that in multiple ways.
    Mrs. Walorski. I have to stop you there because I am out of 
time, but I appreciate it. Thanks so much for you all being 
here and for your expertise.
    Thank you, Mr. Chairman.
    The Chairman. The gentlelady's time has expired.
    Ms. DelBene, 5 minutes.
    Ms. DelBene. Thank you, Mr. Chairman. And thanks to all of 
our witnesses for being here today on this important topic, and 
for the work that you are doing.
    We were talking about the challenges of the amount of the 
SNAP benefit, and the expense of fresh fruits and vegetables 
and the challenges that that poses, and also the perishability 
and how critical it is, if you do have access, that you are 
able to use it right away.
    I wanted to ask you, Ms. Foerster. I know the dieticians 
recently published a report on food waste, and so I was 
wondering if you could tell us a little bit more about what is 
being done to educate consumers on food waste, and how can 
states do a better job? I know we have been focused a lot on 
composting in my region, in Washington State, but also making 
sure that a food can be used right away is also important, 
especially when you have limited resources. So I would love 
your feedback.
    Ms. Foerster. Thank you for the question. We are teaching 
people that all farms fit. So whether it is fresh, frozen, 
canned, or dried, that all the fruits and vegetables are 
beneficial for health. We do, in terms of menu planning, 
perishability is an issue if people are only shopping once a 
month because that is when their benefits come in, then they do 
need to be helped to figure out how to have their fruits and 
vegetables last through the month, and how to balance. This is 
where the corner stores having an adequate supply of fruits and 
vegetables at a reasonable cost and quality really comes in. 
But in terms of the fruits and vegetables, I think that that is 
an area that people really want the fresh fruit and vegetable 
access.
    We do have a job to do in frozen, and also people do have 
challenges sometimes with their refrigeration and freezing 
capacity. So there are a lot of other barriers that have to be 
dealt with.
    Ms. DelBene. Yes. Do others have feedback on what we can do 
to help address food waste?
    Dr. Sharma. In Brighter Bites, we work with the local food 
banks and with our for-profit partners, like Sysco Foods, to 
help aggregate the produce that would otherwise be discarded. 
They have an ongoing relationship with the farmers, and we 
optimize that relationship to then get the produce to the food 
banks. And then we work with the food banks and leverage their 
infrastructure, to then purposefully channel this produce in a 
continuous way using a co-op concept, so we engage the families 
and empower then, and then get this produce for a continuous 16 
weeks in the school year.
    We use schools because it is a trusted venue for parents to 
come and engage with the school as well. From a food waste 
perspective, again to answer your question, it is leveraging on 
the expertise of for-profit and other nonprofits that we have 
been able to now push out over 8 million pounds of produce to 
our families.
    Ms. DelBene. Yes. Thank you.
    Dr. Britt-Rankin. It is also important to think about the 
education side of this. Eating fruits and vegetables in-season 
when the costs are lower, knowing the portion size that we have 
addressed earlier, talking with our partners about aggregation. 
It is a holistic approach that, not just one agency, but we are 
going to have to work in concert together to address the food 
waste issue.
    Ms. DelBene. One of the other things that we have done in 
our state is, when there is waste, to help educate families 
about composting, and we actually have composting in our 
cities, so it is all used together, but it has brought people 
closer to understanding agriculture and the process, and how 
they can be more involved in that awareness about agriculture 
and what our farmers are doing has been very, very important in 
terms of broad education on how our food comes to our table.
    Ms. Foerster. Well, and if I may add, food policy councils 
typically will be dealing with food waste on a large scale. 
Whether it is food waste from restaurants or unused food from 
supermarkets, that kind of thing, whether it goes into a food 
bank system or it does have to be composted for energy, that is 
a lot of what food policy councils do deal with. So it goes 
from seed to composting, I suppose you could say. And that is 
going to vary a bit around the country or around different 
communities, but that is part of what SNAP-Ed does, trying to 
assist on behalf of low-income communities.
    Ms. DelBene. Thanks. My time has expired. I yield back, Mr. 
Chairman.
    The Chairman. The gentlelady's time has expired.
    Mr. Newhouse, 5 minutes.
    Mr. Newhouse. Thank you, Mr. Chairman. Welcome everyone. I 
appreciate you being here to talk about this important issue.
    I just had a couple of questions for all of you, to begin 
with. More and more we see industry initiatives that are 
designed to give consumers more options to help people make 
better-informed choices. Some examples could include lower 
calorie options or smaller portions, or something that I have 
heard of, the facts up-front, which list calories, fat, sodium, 
the things that people are interested in, on the packaging 
itself.
    How do you guys see this working with other nutrition 
education efforts, and what are your thoughts on these 
voluntary programs, and can they be effective with SNAP 
recipients? And we will start with you, Dr. Wisdom.
    Dr. Wisdom. Well, thank you for that question. And 
certainly, consumers are receiving more and more options in 
terms of what is available to them. What we have been doing is 
identifying ways that we can, for one, increase the healthy 
options that they have available to them. Through our efforts, 
we do grocery store tours, we have farmers' markets, in order 
to help them, not just educate them about what are the healthy 
options, but to ensure that they have the ability to access 
those healthy options, because oftentimes people make choices 
based on what is available to them. They have limited options, 
and we try to expose them to as many options, and have them 
pick the right option in that particular setting.
    Mr. Newhouse. Thank you.
    Ms. Foerster. I work closely with table grape industry, and 
one of the things that we do need to do there is do more of our 
marketing and promotion aimed at low-income audiences. 
Typically, the marketing that is done is to a more middle-
income marketplace. And so the market segmentation to reach 
low-income consumers or consumers that don't speak English, for 
example, that is a really important thing to be doing, 
promoting the food not just making it, so that there could be 
cross-promotions as well. We have done that with WIC in 
California, where shelf markers can point people from the WIC 
foods over to the produce section, or the produce section back 
to the milk section, that kind of thing, to augment and bring 
alive the combinations and trying to get healthier foods in a 
real way, not just producing them, but promoting them, 
marketing them, pricing, cross-promotions, those kinds of 
things are all important things that can be done, targeted to 
low-income audiences.
    Mr. Newhouse. In a more coordinated way.
    Ms. Foerster. Yes.
    Mr. Newhouse. Yes.
    Ms. Foerster. Yes.
    Mr. Newhouse. Thank you.
    Dr. Sharma. Thank you for the question. It is such an 
important concept of educating your consumer. Right? So in 
Brighter Bites, the families actually get 30 pounds of fresh 
produce every week. And so they get a risk-free trial to try 
eight to 12 different kinds of fruits and veggies in their 
bags. And then while they are getting the food, we also work 
with them on how do you read a label, right, how do you read 
nutrition facts labels. And so on one side, they get to try 
these foods and develop a taste for it, so you are creating 
demand for a product.
    Mr. Newhouse. We hope.
    Dr. Sharma. Right.
    Mr. Newhouse. Yes.
    Dr. Sharma. And then you are making them a more informed 
consumer of that produce so they can use the SNAP dollars, and 
when they go to the grocery store they can then buy the fruits 
and veggies and the foods that they know that their children 
now eat.
    We had a mom: just a quick story. We had a mom who told us 
that she wouldn't buy Brussels sprouts because she didn't know 
if her kids would like it. But through Brighter Bites, she now 
knows her kids like Brussels sprouts. So even when she doesn't 
get it through our bags, she goes to the grocery store and buys 
it.
    Mr. Newhouse. Good. Good.
    Dr. Britt-Rankin. I would just add that the education of 
how to read the labels, as we are seeing new labels, so we do 
create informed consumers. But, especially in this population 
we have found, partnering with Feeding America across the 
country is doing grocery store tours. We see a lot of marketing 
dollars. There are more marketing dollars than there are 
nutrition education dollars. Taking people into those places 
where they are going to make choices, whether it is a 
supermarket or whether it is a farmers' market, and providing 
them hands-on information, be able to compare and contrast 
products so that they can make those choices then long-term, 
even when they have graduated from the program, they have moved 
off SNAP, they are continuing to make those choices, and we 
need that hands-on education.
    Mr. Newhouse. So we are actually seeing some changes in 
behavior in purchasing as a result. That is great.
    Dr. Britt-Rankin. Yes.
    Mr. Newhouse. My time has expired. Thank you very much 
again. And thank you, Mr. Chairman.
    The Chairman. The gentleman's time has expired.
    Ms. Fudge, 5 minutes.
    Ms. Fudge. Thank you very much, Mr. Chairman. And thank you 
all so much for being here today.
    There is an old saying that people would do better if they 
knew better. I think that it is especially important that you 
are here to talk about SNAP-Ed today, because I do believe that 
people do better when they know better.
    Dr. Wisdom, in your written testimony you mentioned that 
many of the communities where SNAP recipients live are 
considered food swamps. Please take a moment to explain how 
food swamps differ from food deserts.
    Dr. Wisdom. Thank you for that question. Food deserts, I 
will start off with that, is considered where there is a dearth 
of food for individuals to easily gain access to them. When we 
talk about food swamps, and oftentimes it is in some 
communities a myth that there is truly a food desert because it 
is a matter of people not having access to the food when they 
need it. So there is plenty of food but it is an access issue.
    When we talk about food swamps, it is more the aspect of 
having a plethora of fast food restaurants, of corner stores 
where there is a lack of receiving that healthy and nutritious 
food. So there are a lot of eating venues where individuals can 
access, however, they are not healthy, so we call those food 
swamps.
    Ms. Fudge. Like most poor neighborhoods in urban 
communities.
    Dr. Wisdom. Exactly.
    Ms. Fudge. Thank you.
    Dr. Wisdom. Sure.
    Ms. Fudge. Dr. Britt-Rankin, I am a proud graduate of the 
Ohio State University, Ohio State University and Case Western 
Reserve University have collaborated to develop a tool based on 
best practices that would help determine which policy system or 
environmental intervention would prove most effective for a 
community. Tell me how important that is.
    Dr. Britt-Rankin. I think that is very important. First of 
all, we are leveraging the expertise of two great institutions, 
but it is going to create a tool, an online tool where 
communities can assess where they can be most successful. They 
are going to be able to utilize that data to understand which 
strategies will address the needs that are in their local 
communities. So they are really going to tailor this program to 
their specific neighborhood and community.
    Ms. Fudge. I hope to see more of that across the country. I 
think it is especially important, especially in districts like 
mine.
    Dr. Britt-Rankin. Yes.
    Ms. Fudge. I am just going to throw this out. In the 
Healthy Hunger-Free Kids Act, it expanded the whole purpose of 
SNAP-Ed, right, to include public health-based approaches. Talk 
to me about the focus of this whole concept. Just anybody, 
whoever wants to address it, please feel free.
    Ms. Foerster. Thank you for that opportunity. The Healthy 
Hunger-Free Kids Act really came out of the expressed 
experience of states as they provided nutrition education and 
social marketing, and kind of went up the trail as to what else 
was needed and where were the gaps in the program. We knew we 
needed to do more about physical activity before, that is the 
flipside of obesity.
    Ms. Fudge. Sure.
    Ms. Foerster. So we got involved in that. More on obesity 
prevention. And so when you do that, you go upstream to the 
environment that we have been talking about and realizing that 
all of those factors that people live in and experience, and it 
is all of us, it is not solely low-income people, but the 
resource is so much lower in low-income communities, and some 
of the adverse environments are so much harder, that we really 
needed to focus in a way that the Healthy Hunger-Free Kids Act 
outlines. We are focusing now on organizational change, whether 
it is schools, churches, worksites, and so forth, and we are 
focusing on community-wide change, and on state-level change, 
so that Departments of Education are working with Departments 
of Health, are working with extension, working with Indian 
Tribal organizations and so forth, we are all really trying to 
pull together. And when you look at that, you see these 51 
indicators that we have been talking about that represent what 
we think SNAP-Ed can stimulate. We are not going to do it 
ourselves, we are going to do it with others. But we are going 
to provide a kind of a backbone for this kind of work. We are 
here permanently. We are not going to be a 3 year grant or a 5 
year grant, we are going to be there to keep the ball rolling, 
because this is long-term work.
    Ms. Fudge. Thank you very much. My time is about to expire. 
Thank you, Mr. Chairman, I yield back.
    The Chairman. The gentlelady yields back.
    Dan Benishek, 5 minutes.
    Mr. Benishek. Thank you, Mr. Chairman. Sorry I am late. I 
was at another hearing.
    Dr. Wisdom, I am from Michigan too, and actually, I trained 
a little bit at Henry Ford, probably before you were born, but 
tell me more about Henry Ford's partnerships with community and 
faith-based organizations, and how far does this network extend 
through the state? I represent the northern half of Michigan, 
so I don't get down to the Detroit area too often myself. Can 
you tell me about that a little bit?
    Dr. Wisdom. Sure. I would be delighted to talk about that. 
Henry Ford Health System's effort is located primarily in 
Detroit, in Macomb County, and it addresses the individuals 
primary in the area. However, if we look at the entire state, 
and that is the Michigan Fitness Foundation that leads all 49 
programs that are occurring across the state, including in the 
Upper Peninsula, what that network or consortium of sorts does 
is we learn from each other. So the efforts that are occurring 
at Henry Ford, we use the Cooking Matters model, we are in 
many, many schools, we are in faith-based organizations, we are 
in neighborhood service organizations, we are in homeless 
shelters we are in a lot of settings.
    Mr. Benishek. Let me ask you a question, and this maybe 
somebody else would like to comment too on this issue, is that 
the level of knowledge amongst the people that you reach do you 
have any assessment of that? I mean as far as nutritional 
content of meals, sometimes it seems to me that people don't 
have enough information, or they don't know enough about how to 
make a nutritious meal and they end up--not that I disparage 
fried food so much, foods that aren't maybe consistent with the 
protein and nutritional requirements. Is there any way that you 
assess that knowledge as you do these educational endeavors?
    Dr. Wisdom. Yes. Through some of our assessments, we use 
that pre-post design where we assess them before the 
intervention, and then we have six sessions; four of which are 
cooking classes, where we bring a student and a parent or a 
caregiver together and they learn how to cook a meal together, 
including cutting onions. We keep the classes to about 20. And 
then we give them, through the leveraging the dollars of Henry 
Ford Health System, we give them a $10 bag of groceries to 
replicate that same recipe at home with their family.
    So we do see that and we have those sessions, and then a 
grocery store tour as well in order to help the families 
understand and that pre-post design we find an improvement in 
the outcome.
    Mr. Benishek. Dr. Sharma, you seem like you are interested 
in giving a comment there. I am kind of interested in what is 
the pre-educational level of understanding amongst the people 
that you see?
    Dr. Sharma. Yes, we did a nonrandomized control trial in 
760 low-income families that----
    Mr. Benishek. A nonrandomized trial?
    Dr. Sharma. Yes, a nonrandomized trial. It was a cluster 
randomized. It wasn't randomized at the individual level. And 
we found that at baseline, these were first-grade children, and 
they were eating less than one serving of fruit and \1/2\ a 
serving of vegetable a day, and less than \1/2\ a serving of 
whole grains. And the frequency of cooking at home was less 
than 2 days a week. The frequency of cooking, and their 
understanding of using nutrition facts labels to make a 
purchasing decision, and using it in their shopping behaviors 
was also very low. So it was translating the knowledge part and 
the behavioral part were both starting at low levels.
    Mr. Benishek. What were they eating then if they weren't 
making food at home?
    Dr. Sharma. A majority of their calories, in our sample, a 
majority of their calories--we excluded french-fries when we 
computed the vegetables, french-fries actually constituted a 
majority of the vegetable intake, and added sugars.
    Mr. Benishek. Purchased french-fries, not even homemade 
french-fries.
    Dr. Sharma. We weren't able to distinguish that part.
    Mr. Benishek. Duck fat french-fries.
    Dr. Sharma. But, we asked them about fried potatoes and 
french-fries, and that was a majority of the vegetable intake. 
And there was also a high intake of foods that had added 
sugars, and processed food.
    Mr. Benishek. All right. It seems as though I am just a 
little out of time. Thank you, Mr. Chairman, for allowing me to 
ask the question.
    The Chairman. The gentleman yields back.
    Ms. Graham, 5 minutes.
    Ms. Graham. Thank you, Mr. Chairman. And thank you all so 
much for being here today.
    I represent the north part of Florida, it is very rural. I 
don't know, but I guess it is both a food desert and a food 
swamp in different areas. My background: I worked in a school 
district in Tallahassee, and we served about 30,000 students, 
and I was always frustrated with having students come in, pre-K 
or kindergarten, and I kept saying to folks we really, really 
need to get to these kids earlier. We need to get books in 
their hands earlier, we need to be working with families 
younger, recommended having a program where we worked with the 
hospitals. And as I am listening to this discussion, that same 
concern that I have, and, Dr. Sharma, you just actually gave me 
a great segue, that by the time kids get to school, their 
eating habits have already been established. And the birth of a 
child is such a new opportunity for families, and they would be 
open to wanting their children to eat as healthy as possible.
    Are there any programs that are getting to families at the 
earliest ages in the hospitals or when children are born? Thank 
you.
    Dr. Britt-Rankin. I would not say when they are born and in 
the hospital, but we have worked extensively across the country 
in extension, working with trying to get childcare providers, 
preschool, childcare providers to offer healthier options, to 
involve the children, to provide education. Many of our 
programs also use reading programs. So as you are reading books 
to children and they are beginning to read, many of those books 
are on healthy eating practices. And we follow that up then 
with education with their parents. I do believe that research 
will show you that most of our eating patterns are established 
by the age of 7. Addressing the preschool age is also 
important.
    Ms. Foerster. Yes, I would like to mention a program that 
Arizona SNAP-Ed created, and that was in working with their 
Social Services Department, which was upgrading the licensing 
standards for daycare facilities. There was an increased fee 
that was associated with it, but the state forgave that 
increased fee if the licensee would agree to certain standards 
related to nutrition and physical activity.
    We, in California, developed a self-assessment tool for 
daycare providers to use to see what they were doing, starting 
with breastfeeding, could they handle a breastfed child, all 
the way to gardens, to having water, engaging activities for 
the children, and so forth. So there are some proven effective 
models that are in our toolkit.
    North Carolina has done some things too. One of the factors 
that we have in our framework is the degree to which daycare 
programs are adopting these kinds of self-imposed standards. 
They are not regulatory, but they are sort of going over and 
above whatever the licensing requirements are.
    Dr. Sharma. Brighter Bites, the program that I am 
representing, the organization, we actually do operate in Head 
Start centers, so starting with early childhood, and we are 
partnering with University of Texas physicians actually to 
pilot Brighter Bites with pregnant women and women with 
infants, because you start with pregnancy and establish those 
healthy patterns in the mom, it is going to affect the unborn 
child and their trajectory later in life.
    Dr. Wisdom. And at Henry Ford, we have done the same thing. 
We are working at daycare centers, but also we have just most 
recently implemented a centering pregnancy model, incorporating 
community health workers where women come in for prenatal care 
as a group, and that is a perfect opportunity for now for us to 
layer in among those under-served women the SNAP-Ed education 
program.
    Ms. Graham. Well, that is terrific. I have heard, Dr. 
Sharma, you have a program that you are working with. I would 
love to follow up with you and get some more information, and 
as well as you, Dr. Wisdom. And it is good that we are doing 
this. We are missing an opportunity to work with prenatal care, 
as well as at the earliest stages in the hospital when women 
are there, and families and parents, and husbands and partners, 
to have them want to get their children off on the best eating 
path for the rest of their life. So maybe that is something we 
could consider, is finding hospitals that would be willing to 
pilot some sort of a program across our country.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. The gentlelady yields back.
    Ms. Kuster, 5 minutes.
    Ms. Kuster. Thank you very much, Mr. Chairman. And thank 
you so much to all of you for this conversation. It is vitally 
important to the well-being of our future and our children.
    I am curious, in this whole discussion, our society has 
changed so much and we are oftentimes dealing with families, 
particularly low-income families, that may be working multiple 
jobs, that may have difficulties with transportation. I come 
from a rural district, so sadly, there are places where you 
have to travel a long way to get healthy food. The sad part is 
that these are areas where we used to grow the food in the 
backyard, but people literally just don't have the time or the 
inclination, or the education.
    I am wondering if you have found ways to help families cope 
when time is the resource that is missing in their life. We can 
talk about teaching them to make recipes, but I am a working 
mom, and when I was raising my two kids and taking care of my 
mother with Alzheimer's, and my husband and I were trying to 
get back and forth to work, and the doctor and the dentist and 
the baseball game, and get the homework done. It is hard to 
have time, it is hard to buy fresh ingredients and have them 
still fresh by the time you get around to a day when you do 
have time. So this is a sort of open-ended question, but for 
any of you. I will just add, I feel as though the grocery 
industry is responding with vegetables that are precut, salads 
that are mixed in a bag, because if you are limited in funds, 
you don't want to waste money on half the vegetables that you 
won't get to.
    So if you can just respond, how can we be helpful in 
encouraging the industry, agriculture generally, to get to the 
place where consumers' lives are really at?
    Dr. Britt-Rankin. I will jump in.
    Ms. Kuster. Thank you.
    Dr. Britt-Rankin. I would agree with you. I think that is 
one of the strengths that we see across the land-grant system 
of having faculty in almost every county in the state, across 
the country. And meeting people where they are if you are 
working two and three jobs, you may not be up to coming home 
and fixing a full dinner. One of the things that we have 
addressed is we also see pantries that say we don't have fresh. 
Is there a way people can eat healthy even if it is frozen or 
canned. And so it is providing the information: one of the 
earlier questions mentioned technology. Can we incorporate 
technology. So we are educating, when people are at the point 
that they are ready to learn, and how do we address that at all 
levels. It is very important to think about, we don't want 
people to feel that they are failing if they are not at home.
    Ms. Kuster. Right. I think that is what I am saying is 
let's not layer on the guilt to the working mom because she is 
not making the sliced potatoes au gratin from scratch, or 
whatever.
    Dr. Britt-Rankin. Yes.
    Ms. Kuster. And by the way, when you mentioned that about 
the fresh, we have done a number of events that are very well 
received during the season when fruits and vegetables are 
available in our farmers' markets and the two-for-one SNAP 
benefits is really great, and gives the farmers some 
reliability too. It improves their marketing.
    Dr. Britt-Rankin. Yes.
    Ms. Kuster. Yes, anyone else want to add? Dr. Sharma?
    Dr. Sharma. Thank you for this important question. And just 
to add to what Dr. Britt-Rankin said, with Brighter Bites we 
really want to elevate the environment that the family and the 
child lives in with the school and the home. We work with the 
schools so the families and the children are exposed to a 
healthier environment while they are there. But we actually 
send the produce home, so the kids get 30 pounds of fresh 
produce every week. So the families then get to try this risk-
free. And then working with the families to develop skills; how 
do you cut mushrooms. One of the moms, actually, this is a true 
story, a couple of years ago there was a mushroom, we sent 
mushrooms and the parents didn't know, what do I do with it.
    Ms. Kuster. Sure.
    Dr. Sharma. Right.
    Ms. Kuster. Sure.
    Dr. Sharma. So we worked with them on how do you cut it, 
store it, and effectively use it in a one-pot recipe that can 
last you a few days in your refrigerator, and that canned, 
frozen are equally nutritious as fresh. When you are going 
shopping and using your SNAP dollars, that you can make those 
substitutions that works for your family. We have to empower 
our family so they can make the healthier choice. And we have 
to make the healthier choice, the easier choice.
    Ms. Kuster. Well, the trick for me as a working mom was the 
crock pot. So maybe if we just give every family a crock pot. 
And I used to call her Ms. Crocker, when I would come home with 
the kids and the house smelled great, and I would pretend that 
I had a housekeeper named Ms. Crocker. So thank you very much.
    Thank you, I yield back.
    The Chairman. The gentlelady's time has expired. Thank you.
    Well, witnesses, thank you very much. It is clear from the 
testimony that you have touched on almost every jurisdiction of 
our Committee. From farmers selling more fruits and vegetables, 
or the food waste issue we had a hearing on in May, where you 
have Sysco gathering up perfectly fine nutritious vegetables 
that just aren't pretty enough to be sold at the local H-E-B. 
As well as the work that they are doing with SNAP recipients. 
Your work is really impressive. It also illustrates there is no 
one-size-fits-all program, no solution that can be developed 
here in Washington, D.C., that we can cram down the throats of 
everybody out there; that we really need this opportunity for 
you to be innovative and to work with what works with your 
particular populations, your particular circumstances.
    We didn't talk much about rural America, which I represent, 
most of District 11 is rural. They have their own particular 
challenges. I am aware of one program where they, at least once 
a month, set up a common distribution point in the rural 
countryside where they will bring in fresh produce and 
vegetables that families can take home. Again, trying to tailor 
programs according to the circumstances their community members 
find themselves in.
    I would also like to include in today's record a hearing 
testimony from the Land-Grant University SNAP-Ed Program 
Development Team, PDT, which includes family and consumer 
science program leaders and other university administrators, 
SNAP-Ed coordinators, an office manager, NFIA representative, 
who are committed to improving the consistency and 
effectiveness of SNAP-Ed programming through cooperative 
extension, and addressing national health and nutritional-
related programs facing low-income populations. Apparently, a 
paid commercial for the extension program.
    [The information referred to is located on p. 803.]
    The Chairman. David Scott talked about what is probably the 
most important thing, and that is how do we measure success and 
how do we define success. We track all kinds of metrics that 
are important. I am not convinced that the number of folks 
served or the pounds served, while important, give us a sense 
of the scope of the issue. I am not convinced that those 
necessarily are metrics for success. We do need to define those 
metrics, and track them. We also have to put in expectations 
for how long something should take before we see an impact. No 
program will cure obesity overnight. They didn't become obese 
overnight, and they are not going to get to a healthy weight 
overnight either. It is important to understand that point 
because, as Mr. McGovern and others have said, ``We will face 
limited resources in 2018 when we begin to authorize the farm 
bill.'' Having your testimony today and the successes that you 
have been able to share with us, particularly the young woman 
who was directly affected by the program where she spent a 
summer doing the right things for her, not because anybody 
instructed her to, but because she was motivated by the 
interactions she had, and the peer pressure to better herself 
more than she was, and then that next fall she was a part of 
the activity programs that are going on. And that, at least in 
that anecdote, you can describe that.
    My colleague from New Mexico has joined us just in the nick 
of time. So, Ms. Lujan Grisham, if you have questions for 5 
minutes, you are recognized.
    Ms. Lujan Grisham. And I will be brief. And I really 
appreciate your recognition, Mr. Chairman. And we tease each 
other. It is more productive for a Member like me to be here 
for the whole hearing, I have a couple of other hearings today, 
but this is an issue that is really important not only to me 
personally as a Member, but certainly to my state. And the 
Chairman is very gracious to give me every opportunity to 
engage.
    And as we are talking about what we can do to make sure, 
and, of course, I offered an amendment to stop the elimination 
of SNAP-Ed funding, and I know that we have issues in Congress 
to deal with, our priorities and how we adequately fund them, 
but from my perspective, and certainly from my state's, where 
we have persistent poverty and some of the hungriest 
populations, including the hungriest children in the country, 
it is an issue we have to address.
    And I have two things I want to say quickly, and then just 
ask about the evaluation of health outcomes through investments 
in SNAP education. First, Mr. Chairman, I visited a school in 
my district and I participated in a SNAP education program that 
was also a cooking program, and I met a young student, probably 
a first-grader, maybe a second-grader, and they were using 
fresh tomatoes that had been either grown right at the school 
or donated by one of the connecting farm projects. And this 
child had never seen a fresh tomato. Had no idea what it was. 
And I take that for granted every single day. I knew what 
tomatoes were, I can guarantee you, as a toddler, and I have an 
11 month old grandchild, and while some of the more acidic 
fruits and vegetables are not all that recommended, she has 
access to every kind of fresh fruit and vegetable. And so it is 
not something that occurred to me, and it really hit home about 
how valuable it is, if we want to encourage healthy outcomes 
and change behaviors, and give people the tools that they need, 
with the benefits that we are providing. There is a program 
called CHILE (Child Health Initiative for Lifelong Eating and 
Exercise) in New Mexico, which is a SNAP education program, 
that really is showing that we have better health outcomes.
    The second issue, and I don't know that you can tie both of 
these together quickly, but, I do the SNAP challenge as a 
Member of Congress, and I can tell you--I tell this story all 
the time, there is no way for $1.50 a meal I can get the kinds 
of things that are nutritious. So if we don't do something 
about that, then we can do lots of education, we can partner up 
with grocery stores, but in the end if you don't have the 
resources to afford that, even with farmers programs that are 
involved, you aren't going to have a healthy, nutritious meal 
as a result. And that is our bad, in my opinion.
    So talk to me about health outcomes, evaluations, and how 
we can drive those benefits up.
    Ms. Foerster. So that is the area that we are working on 
across the country with the land-grants and with all of the 
SNAP-Ed implementing agencies. And there is no one solution 
that is going to create those health outcomes. That is why we 
are trying to take a holistic approach with a socio-ecological, 
as well as direct education approach. And it is going to take a 
while. So what we are trying to do is create, or we have 
created, short, medium, and long-term outcomes so that states 
themselves can track how they are doing. We can compare notes, 
we can figure out what we are doing together.
    Partnerships with foundations, with hospitals, with all 
kinds of other stakeholders, that is something that we hold 
ourselves accountable because we cannot do it on $400 million. 
And so we are trying to give those kinds of data that will lead 
to the population changes.
    My own belief is that some of the more positive results 
that are starting to accrue for young children, very young 
children, are probably a combined effect of the programs that 
we see.
    Ms. Lujan Grisham. Like CHILE in my state, which has really 
partnered with Head Start, so it starts early.
    Ms. Foerster. Exactly. And then the other kinds of daycare 
programs, the WIC Program, and so forth. I think that we are 
going to be seeing some changes, it is way easier to deal with 
obesity before it happens, so we are going to be seeing changes 
in school-age kids before we are going to be seeing changes in 
adults. And we just have to be realistic that once somebody 
gains weight, it is very hard to get rid of it. The 
expectations that were mentioned earlier, we really have to put 
that together, and to recognize that this is a very big 
problem. It is something that only the collective impact of all 
of us pulling together at the food assistance programs, but 
also the foundations, the CDC programs, the nonprofits, all of 
us are going to have to be pulling together toward the same 
important things. And that is really what we have been trying 
to do with the framework is identify what are the most 
important things for low-income communities, low-income people, 
that we can all pull together, because there is so much that 
needs to be done. We have narrowed it down to 51 things.
    The Chairman. The gentlelady's time has expired.
    Again, I want to thank our witnesses for being here today.
    Under the rules of the Committee, the record of today's 
hearing will be open for 10 calendar days to receive additional 
material and supplementary written responses from the witnesses 
to any question posed by a Member, or to any additional 
information you would like to provide us with respect to our 
subject matter.
    This hearing of the Committee on Agriculture is adjourned. 
Thank you.
    [Whereupon, at 11:48 a.m., the Committee was adjourned.]
    [Material submitted for inclusion in the record follows:]
  Submitted Statement by Hon. K. Michael Conaway, a Representative in
  Congress from Texas; on Behalf of Pat Bebo, M.S., R.D.N., Ohio State
 University Extension; on Behalf of SNAP-Ed Program Development Team, 
              Land-grant University Cooperative Extension
    Mr. Chairman, Ranking Member Peterson, and Members of the 
Committee, it is an honor to be invited to submit this written 
testimony for the record on the Supplemental Nutrition Assistance 
Program-Education (SNAP-Ed). I submit this testimony as a 
representative of the Land-grant University Cooperative Extension SNAP-
Ed Program Development Team (PDT). The SNAP-Ed PDT serves as an ongoing 
advisory board for national Land-grant University Cooperative Extension 
Service (CES) Leadership. Team members use their experience, 
communication, analytical and critical thinking skills to strengthen 
Land-grant University (LGU) based SNAP-Ed programs and other nutrition 
networks at the state, regional, and national levels. They also 
identify linkages that can be forged to support the land-grant 
university system's broader outreach and engagement, education, and 
research mission.
    I currently serve as a member of PDT, and am the Ohio State 
University Extension Interim Assistant Director for the Family and 
Consumers Sciences Program, which includes SNAP-Ed and Expanded Food 
and Nutrition Education Program (EFNEP). I hold a Bachelor's Degree in 
Exercise Science from UMASS Boston, a Master's Degree in Nutrition from 
Framingham State University and I am a Registered Dietitian/
Nutritionist. Previously I served as Regional SNAP-Ed/EFNEP Program 
Leader with the University of Massachusetts Extension, serving the 
lower southeast region of Massachusetts.
SNAP-Ed Past
    SNAP-Ed as a program has a long history beginning with the 1977 
Food Stamp Act in response to bipartisan calls for reform.

  <bullet> 1977 Act's language was a requirement for nutrition 
        education based upon the EFNEP model.

    <ctr-circle> ``USDA to extend the EFNEP to the greatest extent 
            possible to reach FSP participants.'' ``USDA to develop 
            printed materials specifically designed for persons with 
            low reading comprehension levels on how to buy and prepare 
            more nutritious and economic meals and on the relationship 
            between food and good health.''

  <bullet> 1981 Food Stamp and Commodity Distribution Amendments of 
        1981.

    <ctr-circle> ``To encourage the purchase of nutritious foods, the 
            Secretary is authorized to extend food and nutrition 
            education to reach food stamp program participants . . .''.

  <bullet> 1988 Hunger Prevention Act.

    <ctr-circle> Authorized Food Stamp Nutrition Education Program 
            (FSNEP) as an optional administrative expense funded 
            through state/local match that would qualify for Federal 
            Financial Participation.

    <ctr-circle> Pilot FSNEP begun through University of Wisconsin 
            Extension.

  <bullet> 1990 Mickey Leland Domestic Hunger Relief Act.

    <ctr-circle> Authorized the Secretary to assign nutrition education 
            of eligible households to the Cooperative Extension 
            Service.

  <bullet> 1992 Seven LGUs, via Extension, delivered FSNEP programming.

  <bullet> From 1995 to present FSNEP was expanded to all 50 states and 
        D.C., implementers are from a variety of public and private 
        organizations based on state agency decisions; today 33% of all 
        SNAP-Ed programs are implemented by LGUs, the largest single 
        implementer; clearer missions and goals for the program were 
        established; state plans with specific programming and 
        evaluation outlines required; FSNEP was renamed SNAP-Ed after 
        the name of the food stamp program was changed to SNAP. Other 
        programmatic, evaluation and funding changes have been noted in 
        other submitted testimony.

    Clearly CES has a long, productive relationship with SNAP-Ed, from 
the program pilot to its current structure. Since 1914, the core 
mission of CES has been to improve the lives of people of all ages and 
from all walks of life through education--taking the university to the 
people, in rural, urban and suburban communities throughout each state, 
the District of Columbia, and U.S. territories. America's land-grant 
universities have the knowledge, expertise and infrastructure needed to 
help address health and nutrition issues. Through county Extension 
offices, universities have the community presence and local credibility 
needed to influence the social, economic, and environmental 
determinants of health. Evidence-based interventions, deployed in ways 
that are respectful of community individual and family norms, beliefs, 
and current practice have been shown to keep people healthy, and delay 
or prevent the need for medical care, (Cooperative Extension's National 
Framework for Health and Wellness, 2014).
    Cooperative Extension works with public, specifically the USDA 
National Institute of Food and Agriculture (NIFA), and private sector 
partners and the LGU system to integrate research, education, and 
Extension perspectives to address critical issues. Families at risk, 
and individuals with limited financial resources, are a key target 
audience.
    SNAP-Ed differs from EFNEP. The EFNEP model, developed in 1969, is 
a strict direct education model. Trained paraprofessionals deliver a 
prescribed series of nutrition education lessons to a prescribed 
audience--low-income families with young children and youth. EFNEP over 
the years has developed standard outcome measures that have allowed the 
program to show change across the country with a national online 
reporting system.
    The SNAP-Ed audience first and foremost includes SNAP recipients 
through the lifespan from birth to seniors. This includes adult 
individuals and those with families and youth from preschool to high 
school. SNAP-Ed is a program that works cooperatively in states with 
oversight from state SNAP agencies and USDA Food and Nutrition Service 
(FNS). FNS, starting in 1995, began to layer in multi-level activities 
understanding from research that direct education on its own cannot 
bring about long-term change. This was evidenced by the development of 
grants to establish social marketing nutrition networks.
    In 2010, the Healthy, Hunger[-]Free Kids Act (HHFKA) redirected 
SNAP-Ed to create a new grant program with a focus on interventions 
that not only included direct nutrition education, but also physical 
activity, obesity prevention, and community and public health 
approaches to the SNAP-Ed framework. The act also removed the match 
component of the program which expanded opportunities for implementing 
agencies to collaborate with agencies and programs that were prohibited 
in the past, including state SNAP agencies. In 2007, the cost of the 
program with match was $\1/2\ billion. The HHFKA capped the program at 
$400 million and redistributed funds to states based on a formula that 
includes state SNAP participation.
    Currently SNAP-Ed reporting consists primarily of short term and 
some medium term outcomes, but strong research evidence, as noted in 
the Academy of Nutrition Evidence Analysis Library, indicates that 
effective intervention strategies have been identified to assist food-
insecure individuals in meeting their nutritional needs that includes 
multi-level interventions with nutrition education. In addition 
research shows that direct nutrition education interventions, such as 
those provided by SNAP-Ed, have been shown to increase food security 
among low-resource audiences.
SNAP-Ed Present
    Starting in 2002, the PDT has periodically published a report on 
the progress on the provision of nutrition education, evaluation and 
outcomes as they relate to LGU implementation of the SNAP-Ed program. 
(https://nifa.usda.gov/snap-ed-lgu-reports) A 2015 report is in final 
approval phase. Since the first LGU SNAP-Ed national report was 
completed, FNS has developed an annual data collection system for SNAP-
Ed providers called the Education and Administrative Reporting System 
(EARS). To simplify data collection by states, the second LGU SNAP-Ed 
national report incorporated selected elements of EARS where feasible 
for the Community Nutrition Education (CNE) Logic Model framework that 
was used to collect the data.
    While not the only SNAP-Ed implementers, LGU's bring unique 
strengths and contributions to SNAP-Ed. LGU SNAP-Ed provides direct 
access to researchers studying childhood obesity, healthy lifestyles, 
nutrition education programming and curriculum, and public health 
approaches to policy, system and environmental (PSE) change. In 
addition, LGUs, as part of their mission, are experts at translating 
current research into educational messages and programs targeted to 
specific audiences.
    The rich history of needs assessment and community engagement, 
being rooted in communities throughout each state, and engaging 
community stakeholders and participants through advisory groups, makes 
LGUs and Extension a unique and impactful partner. The research based 
education in collaboration with other Extension program areas (Family 
and Consumer Sciences, 4-H Youth Development, Ag and Natural Resources, 
and Community Development) and state and community stakeholders creates 
a synergistic multiplier effect in urban as well as rural environments.

          SNAP-Ed is community-based programming that follows the 
        socio-ecological approach of change considering the impact of 
        programming in the context of individuals and families, their 
        communities, and the policies, systems and structures that 
        affect their lives. Julie S. Sexton (2013) ``Supplemental 
        Nutrition Assistance Program Education through Land-Grant 
        University System for FY 2010: A Retrospective Review.'' Page 
        7.

    LGU SNAP-Ed is rooted in four primary domains as shown in Figure 1 
that form the basis for all program plans.
Figure 1. SNAP-Ed Program Domains
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The 2015 LGU direct education interventions reached 1.8 million 
people with 94% of clients participating in SNAP. Direct education is 
community focused, based on needs assessments and is learner centered 
and behavior focused for the most impact. SNAP-Ed Federal guidance 
ensures that the direct education model, based on the Dietary 
Guidelines for Americans, includes hands-on skill building lessons on 
basic cooking as well as nutrition.

    Massachusetts direct education focused on youth:

  <bullet> UMASS Extension SNAP-Ed's major focus for Direct Education 
        is providing lesson series to youth in schools with community 
        eligibility or >50% eligible for school meals. This focus helps 
        to:

    <ctr-circle> reach the greatest number of SNAP families in a cost 
            efficient manner.

    <ctr-circle> inspire classroom teachers to continue to focus on 
            good nutrition and physical activity with their students.

    <ctr-circle> create collaborations with schools that foster PSE 
            activities/changes that directly affect SNAP families and 
            amplifies the direct education.

  <bullet> 35,439 school age youth were reached in FY 2014 and 52,879 
        were reached in FY 2015 with workshop series. Parents of the 
        youth were reached through newsletters that follow up each 
        lesson and engage the entire family. Curricula used included 
        CATCH, Show Me Nutrition, and Team Nutrition.

  <bullet> Evaluation results show that this SNAP-Ed programming 
        resulted in the following statistically significant changes 
        with youth, for both years:

    <ctr-circle> Eating vegetables more often.

    <ctr-circle> Eating fruits more often.

    <ctr-circle> Being physically active more often.

    <ctr-circle> Drinking sugar-sweetened beverages less often.

    <ctr-circle> Choosing whole grains more often.

    Youth-focused nutrition education has been shown to have positive 
outcomes and increase the possibility for PSE changes as evidenced by 
the following University of Massachusetts outcomes.

  <bullet> A sampling of school based PSE Changes include:

    <ctr-circle> 96% of classroom teachers where SNAP-Ed is taught have 
            reinforced the nutrition information with their students 
            during other class time.

    <ctr-circle> 82% of classroom teachers where SNAP-Ed is taught have 
            made behavior changes such as healthier meal and/or snack 
            choices and become more physically active themselves.
Indirect Education
    Indirect education is also an important component of communicating 
with SNAP-Ed target audiences. In 2015, 18,542 indirect activities were 
carried out by LGU SNAP-Ed programs reaching over 103 million 
participants.

    Michigan: Michigan Fresh:

    Michigan Fresh, a Michigan State University Extension (MSUE) 
website, offers a range of educational resources to help people 
experience the state's locally grown fruits and vegetables, meats, and 
other locally produced products that can be bought at local farmer's 
markets. The website offers fact sheets that cover topics such as 
preservation techniques and safe storage for different types of 
vegetables and fruits, gardening tips and recipes. This information is 
offered in English, as well as Spanish and Arabic. Along with MSUE, 
Michigan Fresh works to educate minority groups, including tribal 
communities, the cognitively impaired and the hard of hearing, on the 
benefits of good nutrition. The program also provides tours of farmer's 
markets to help acquaint SNAP eligible individuals with the local, 
nutritional foods found at the market.
    Social marketing through indirect education has been shown to have 
positive effects when combined with direct education. A study looking 
at the Iowa Nutrition Network's social marketing campaign, BASICS Plus, 
showed that gaining parents' attention and engaging them in healthy 
eating practices for their children can be a useful way to increase the 
effectiveness of school based education programs. (Blitstein, et al. J. 
Acad. Nutr. Diet. 2016)

    Louisiana: Let's Eat for the Health of It:

    ``Let's Eat for the Health of It'' is a social marketing campaign 
that was run by the Louisiana State University AgCenter Extension that 
focuses on increasing the public's awareness of the many benefits of 
diet that includes more fruits and vegetables, setting aside time for 
family meals, and increasing physical activity. Information was 
disseminated through billboards, posters, outdoor banners, brochures 
and other handouts. Overall, the goal was that increased exposure to 
this kind of information would help people select healthier foods and 
make other healthy behavior choices. A telephone survey of 600 
individuals, post campaign, found that \1/2\ of all survey respondents 
had been exposed to the campaign materials and that a majority of them 
expressed a readiness to adopt healthier behavior patterns.
Community Partnerships
    As noted earlier LGU SNAP-Ed uses strong community relationships to 
develop impactful programming and create a forceful multiplier effect.

    Washington: Mobile Food Bank Partnership with Second Harvest Food 
Bank:

    Second Harvest Food Bank approached Washington State University 
(WSU) Extension SNAP-Ed in Spokane with a problem: they had too many 
fresh fruits and vegetables to distribute, and wondered if WSU could 
help them get the produce to SNAP-eligible individuals. WSU SNAP Ed 
partnered with Second Harvest and together they helped to increase 
access to fresh and healthy foods through Family Night events held at 
local schools, Summer Food Service Program (SFSP) feeding sites and 
outreach to low-income neighborhoods. Second Harvest was able to 
distribute fresh produce during the Family Night events via its mobile 
food bank. In 2015 these efforts culminated in reaching 3,000 families 
through 34 school sites and 500 families through the summer feeding 
sites. The mobile food bank was able to distribute over 1.3 million 
pounds of food through school visits, and 2,500 pounds at the summer 
feeding sites. The partnership with Second Harvest was so successful 
that Second Harvest dedicated a delivery van to be used exclusively as 
a mobile food bank by WSU SNAP Ed. The success of this partnership also 
led to the expansion of the WSU SNAP Ed program to include produce 
tastings at local libraries, senior low-income housing, and the Police 
Athletic League Summer Basketball Camps.
    Teaching children where their food comes from and multiplies the 
impact of Extension program areas by combining nutrition education with 
agriculture and youth development. Community garden projects are 
especially strong around the country and research has shown they can 
increase fruit and vegetable consumption among children. (Heim, et al. 
JADA, 2009)

    Ohio: How Does Your Garden Grow?

    A unique multi-organizational partnership has come together in 
southern Ohio using gardening to provide a valuable learning 
opportunity for under-served children in a 10 week summer program. The 
collaboration, involving Ohio State University Extension Ag and Natural 
Resources, 4-H Youth Development, SNAP, Scioto County Soil and Water 
Conservation District, Findlay Manor retirement center and the 14th 
Street Community Center, has established a community garden where youth 
learn about community service, gardening, and nutrition in an 
intergenerational program. Professionals met with the children at the 
garden three times per week where the children planted, weeded, 
watered, raked, and tended to their garden every Monday. On these 
``Measuring Mondays,'' each child would measure the height, number of 
leaves, blooms, and fruit of their own plant.
    Not only did the children learn how to plant a garden but they also 
learned the importance of growing their own food, the cost 
effectiveness of planting a garden, working together, team building, 
nutrition, responsibility, confidence, the benefits of physical 
activity and following directions. Among several goals of the program 
was to teach children about nutrition and eating healthy. Children love 
to try new foods, when they have grown the food themselves and this can 
have a positive impact on lifelong eating habits.
Food Resource Management
    Managing a food budget is especially important for SNAP recipients 
to make the most of their food dollars.

    Texas: Better Living for Texans:

    ``Better Living for Texans'' (BLT) is a statewide program serving 
217 out of 254 counties in Texas, and is aimed at helping educate both 
children and adults on how to eat healthier while saving money on their 
grocery bills. BLT offers educational classes, newsletters and other 
services at no cost to the participants in order to provide up-to-date 
nutritional advice, particularly to SNAP recipients, so that consumers 
can make healthier food choices. The program has documented positive 
behavioral changes in its participants in many areas, including better 
food shopping and food budgeting practices, better food safety and the 
ability to prepare nutritious family meals.
Physical Activity
    In addition to creating better eating behaviors, SNAP-Ed also 
focuses on physical education whether it is incorporated into nutrition 
education classes, part of a larger collaborative effort or a stand-
alone program.

    Alabama: Body Quest:

    The child obesity program ``Body Quest'' was first implemented in 
1999, and since then has become a 15 week, multi-level program aimed at 
reducing childhood obesity in third-graders. In FY 2015, the initiative 
was implemented with a treatment and control group of students and 
their parents. The treatment or intervention included social marketing, 
community coalitions, and parent and child engagement, among other 
things. The curriculum included materials and iPad applications with 
anime-style cartoon characters representing different healthy habits to 
help make the curriculum relatable to children. By the end of the 15 
week period, treatment students reported eating more fruits and 
vegetables offered through the School Lunch Program compared to the 
control group. Parents of treatment group children were given easy to 
make, inexpensive recipes that incorporated more vegetables, and were 
given information and tips through a texting initiative. A post-survey 
texting poll found that 100% of parents who received the texts enjoyed 
them, and as a result treatment parents found that their third-graders 
ate an increased amount of vegetables per day compared to the control 
group.
    SNAP-Ed is an accountable program. SNAP-Ed implementing agencies 
have regularly scheduled state management evaluations and audits and 
federally scheduled management evaluations and audits every 2 years. 
LGU SNAP-Ed distribution of funds for programming is focused in the 
community with 84% of all funding going to educational delivery staff, 
7% devoted to administration and budget, 6% to program leadership and 
accountability and 3% curriculum development and support staff.
    In 2010, SNAP-Ed that was delivered through LGU Extension used 
fewer Federal dollars per participant than that delivered through other 
providers. This was an average, and was not necessarily the case for 
specific providers. There are often important aspects of SNAP-Ed 
delivery that underlie these figures, such as the challenging nature, 
and associated higher costs, of reaching particular constituencies with 
nutrition education. The table below shows SNAP-Ed delivery metrics for 
LGU Extension providers and the overall national average cost per 
participant. Since 2010 was the last year this number was officially 
calculated, the SNAP-Ed focus has expanded from mainly direct education 
to direct education plus multi-level interventions. Therefore a new 
analysis will have to be undertaken to update the calculation based on 
these changes.

------------------------------------------------------------------------
SNAP-Ed cost and reach--
   Extension and other
  providers nationally,        LGU Extension              Overall
          2010
------------------------------------------------------------------------
No. of participants       4.5 million (74%)             6.0 million
Federal funding level     $161 million (43%)           $375 million
 Federal cost per            $36 per person         $63 per person
       participant
------------------------------------------------------------------------
Source: Sexton, J. FY 2010: A retrospective review (Note: The data in
  this table are from 2010.
The funding formula for SNAP-Ed was modified immediately after 2010 data
  were gathered, and a current analysis may produce different figures.)

    Through sound government accounting practices of the LGUs, SNAP-ED 
is a well-managed, reviewed, audited and impactful program.
Partnerships With Other Federal Nutrition Programs
    Working with other Federal nutrition programs SNAP-Ed reinforces 
and enhances opportunities for success.

    Florida: Alachua County Food Hub:

    The Alachua County Food Hub, also known locally as the ``Farm to 
School to Work Hub,'' has become a teaching facility for students, a 
meeting space for school garden champions wanting to connect their 
gardens to the lunchroom, a place for kitchen managers learning to use 
farm fresh produce, and a learning opportunity for districts around the 
state desiring to incorporate more fresh produce into school menus for 
children most in need. The hub is a true representation of collective 
impact, which includes a partnership between the Family Nutrition 
Program (Florida SNAP-Ed), the Alachua County School Board, the Growing 
Educational Training program, and numerous community organizations. 
Students were instrumental in helping to develop the food hub where 
they received and aggregated produce from local farmers and learned to 
weigh, measure, package and distribute to district schools. Nineteen 
SNAP-Ed-eligible schools received produce from local farms as well as 
from onsite gardens and greenhouses through the food hub. Nearly 13,000 
pounds of produce from local farms and the hub gardens were processed 
through the food hub. Additional outcomes and impacts of the program 
include student participation in gardening classes; training in food 
packing, food safety procedures; more than 150 heads of lettuce 
produced for the school lunch program; students cared for over 3,000 
plants for school gardens; five local farms provided more than 9,000 
pounds of produce for 15 SNAP-Ed eligible schools; and students 
assisted in developing standard operating procedures for the food hub 
based on industry standards.

    Oregon: Food Hero and Smarter Lunchrooms:

    Oregon State University SNAP-Ed program has a partnership with the 
Oregon State Department of Education--ODE (Child Nutrition Programs, 
School Food Service, and the broader school environment) includes three 
training efforts that include Oregon SNAP-Ed faculty and staff.

  <bullet> Five regional culinary workshops designed for Food Service 
        managers and food preparation cooks in schools are scheduled 
        for fall of 2016. SNAP-Ed Food Hero recipes will be 
        highlighted, and Oregon SNAP-Ed faculty/staff can attend.

  <bullet> Smarter Lunchroom: There will be ten regional trainings over 
        18 months, starting in the Fall. Four will focus on the 
        National School Lunch Program; four on the Child and Adult Care 
        Food Program; and two on SFSP sites. These are train the 
        trainer workshops for Oregon SNAP-Ed faculty/staff members and 
        Food Service staff.

  <bullet> Cycle menu training. There will be four locations for these 
        regional trainings for school food service employees, and SNAP-
        Ed faculty can attend.

    Incorporation of SNAP-Ed Food Hero recipes into Child Nutrition 
Programs: ODE Child Nutrition Program is continuing to test, quantify, 
and credit SNAP-Ed Food Hero recipes for use in school lunch programs, 
CACFP sites, and summer feeding sites. These recipes are quantified at 
approximately 12, 24, 50 and 100 serving sizes. By the end of 2017, 72 
recipes will be completed and listed on the SNAP-Ed Food Hero website. 
These recipes are part of a larger effort that includes ODE, DHS, 
Oregon Department of Agriculture, and Oregon SNAP-Ed. Large posters of 
showcased fruits and vegetables align with the quantity recipes as part 
of Food Hero and Oregon Harvest for Schools.
SNAP-Ed Future
    The FY 2017 SNAP-Ed Federal Guidance requires states to adopt a new 
National SNAP-Ed Evaluation Framework which includes short, medium and 
long term outcomes and indicators. This Evaluation Framework is 
accompanied by an interpretive guide to help implementing agencies 
understand how to best utilize and report on outcomes and indicators. 
This will move the nationwide program into an even higher level of 
standardized outcomes and accountability and help stakeholders see the 
impact of ongoing activities. In addition, implementing agencies are 
guided by a national toolkit of best practices. Development of these 
new evidence based tools guides practitioners to select an intervention 
with the greatest chance of success for their community and provides 
researchers with tools to document evidenced based outcomes for multi-
level community based interventions. The goal is to impact SNAP 
recipients where they live, learn, work, play and pray. As we 
collaborate, cooperate and network with partners the force multiplier 
will create much needed change to our future health outcomes with SNAP-
Ed as one of the most innovative programs implemented at a community 
level.
    Thanks to Chairman Conaway, Ranking Member Peterson, and all of the 
Committee Members for your acceptance and careful review of this 
testimony.
Bibliography
    Cooperative Extension's National Framework for Health and Wellness, 
March 2014. Accessed June 28, 2016 from http://www.aplu.org/members/
commissions/food-environment-and-renewable-resources/.
    Landers, P. The Food Stamp Program: History, Nutrition Education 
and Impact. J. Am. Diet. Assoc. 2007: 107: 1945-1951.
    Sexton, J. (2013) ``Supplemental Nutrition Assistance Program 
Education through Land-Grant University System for FY 2010: A 
Retrospective Review.''
    Blitstein, J., Cates, S., Hersey, J., Montgomery, D. Adding Social 
Marketing Campaign to a School-Based Nutrition Education Program 
Improves Children's Dietary Intake: A Quasi Experimental Study. J. Am. 
Diet. Assoc. 2016; 1: 1-10.
    Heim, S., Stang, J., Ireland, M., A Garden Pilot Project Enhances 
Fruit and Vegetable Consumption in Children. J. Am. Diet. Assoc. 2009; 
109: 1220-1226.
    Robinson-O'Brien, R. Story, M., Heim, S. Impact of Garden-Based 
Youth Nutrition Intervention Programs: A Review. J. Am. Diet. Assoc. 
2009; 109: 273-280.
    Academy of Nutrition and Dietetics, Evidence Analysis Library. 
Health Disparities, Food Security (2011). Accessed June 26, 2016 at 
http://www.andeal.org/topic.cfm?menu=3956&cat=4571.
                                 ______
                                 
Supplementary Material Submitted by Susan B. Foerster, M.P.H., Emeritus 
      and Founding Member, Association of SNAP Nutrition Education
                             Administrators
    Thank you for the opportunity to follow-up on questions from the 
June 22 hearing, Evaluating the Outcomes and Effectiveness of SNAP 
Nutrition Education (SNAP-Ed). We appreciate the opportunity to suggest 
how SNAP-Ed could help realize our common vision of more people, living 
in healthier low-income communities, with stronger food and agriculture 
systems.

    How has SNAP nutrition education evolved into what we see today?

    Today's SNAP-Ed results from 3 decades of experience and 
innovation. Congress established the `first generation' that focused on 
direct nutrition education in 1981; ultimately, seven states 
participated. In the mid-1990's USDA reviewed progress and awarded 
planning grants for 22 social marketing nutrition networks to use 
larger-scale approaches, work in partnerships, and qualify for Federal 
Financial Participation (FFP) funds. In that `second generation', 
participation grew to all 50 states and the District of Columbia (1997-
2010). Passage of the 2010 Healthy, Hunger-Free Kids Act (HHFKA) 
created a `third generation' that added the social determinants of 
health and policy, systems and environmental change (PSEs).

    Significant changes in the mission and funding structure of SNAP-Ed 
started several years ago. What services have changed since passage of 
the 2010 Healthy, Hunger-Free Kids Act?

    The new Nutrition Education and Obesity Prevention Grant Program in 
the 2010 HHFKA expanded the scope of SNAP-Ed to add physical activity 
and obesity prevention, evidence-based comprehensive community and 
public health approaches, and coordination with the Centers for Disease 
Control and Prevention (CDC). It replaced the FFP incentive funding 
with state grants that required no match and were administered by SNAP 
state agencies. Passed mid-recession, SNAP-Ed was flat funded at $400M 
through 2018, and a reallocation formula redistributed funds among the 
states. The flat funding and reallocation took effect in FFY 2012 and 
2014, respectively, and the expanded scope of community and public 
health approaches with policy, systems and environmental supports was 
fully implemented starting in FFY 2015.
    SNAP-Ed today is a responsive program of nutrition education and 
promotion whose practitioners collectively use a wide variety of 
intervention approaches with the different age-, race/ethnic and 
linguistic population groups their programs serve. Similar to 
commercial marketing, SNAP-Ed tries to reach people as many times, in 
as many ways, and in as many places as possible where they make food 
and activity decisions. SNAP-Ed tailors its efforts to people in the 
low-resource locations where food and activity decisions are made. 
Evaluation and revision of materials and interventions is routine. 
SNAP-Ed has strong connections with community groups and institutions 
in low-resource settings and works flexibly with stakeholders as new 
opportunities arise.
    Even without counting its reach through PSE changes, SNAP-Ed 
continues to touch by far the most low-income people in the most places 
and formats of all the USDA nutrition education programs. As shown 
below, the number of people reached by direct education and social 
marketing has held steady, though the number of repeat educational 
contacts has dropped.

   Reported Reach and Contacts of SNAP-Ed Through Education and Social
        Marketing by 144 State Implementing Agencies in FFY 2015
     (Reach of Policy, Systems and Environmental Change Are Not Yet
                               Available)
------------------------------------------------------------------------
                                  Numbers Reported,
       Reach or Contacts                2015           Trend since 2010
------------------------------------------------------------------------
            Individuals (B)            5,924,937           <r-arrow>
Direct Education Contacts (H)        145,364,559           <d-arrow>
     Individuals via Social           19,106,290           <r-arrow>
     Marketing Campaigns (J)
Number of SIAs reporting social              128         <r-d-u-arr>
          marketing activity
------------------------------------------------------------------------
Source: USDA EARS, 2015 Public Use Tables. Letters in parentheses denote
  the column header in the EARS tables.

    Demand for SNAP-Ed has resulted in its being offered in virtually 
any community setting where face-to- face education can be conducted. 
Each year, direct education is delivered in nearly 50,000 low-resource 
community sites.

   Sites in 23 Community Channels Where Direct Education Was Delivered
      Through SNAP-Ed by 144 State Implementing Agencies, FFY 2015
     (Sites of Policy, Systems and Environmental Change Are Not Yet
                               Available)
------------------------------------------------------------------------
                             Trend                                Trend
    Channel        Sites     since     Channel        Sites       Since
                  Reported    2010                   Reported     2010
------------------------------------------------------------------------
Schools              16,826  <r-d-  Indian Tribal        1,063  <r-d-u-a
                              d      Organization                     r
                                     s (AB)
Day Care/Head         3,319  <r-d-  Libraries              978  <r-d-u-a
 Start                        u                                       r
Community             2,992  <r-d-  Food Stores            962  <r-d-u-a
 Centers                      u                                       r
Emergency Food        2,947  <u-ar  Rehabilitatio          943  <r-d-d-a
                              r      n Centers                        r
Elderly Sites         2,947  <r-d-  Shelters               699  <r-arrow
                              d                                       >
Community             2,389  <r-ar  Extension              668  <r-d-d-a
 Youth                        r      Sites                            r
 Organizations
Public Housing        2,347  <u-ar  SNAP Offices           593  <d-arrow
                              r                                       >
Churches/Faith        2,167  <r-d-  Community              571  <r-d-u-a
 Organizations                u      Gardens (AD)                     r
Health Centers        1,160  <r-d-  Worksites              474  <r-d-u-a
                              u                                       r
Farmers'              1,058  <u-ar  Other                  464  <r-d-d-a
 Markets                      r      Community-                       r
                                     Based
                                     Organization
                                     s (AF)
Adult Ed              1,136  <r-ar  Other                  319  <r-d-u-a
                              r      (specify)                        r
                                     (AH)
                                                  -------------
WIC                   1,081  <r-d-  Total Sites         48,553  <r-arrow
                              d                                       >
------------------------------------------------------------------------
Source: USDA EARS, 2015 Public Use Tables. Letters in parentheses denote
  the column header in the EARS tables.

    Has the change in funding affected where nutrition education and 
promotion are offered?

    There is a clear trend toward offering direct education in 
community settings other than schools and in trying to reach young 
children, children outside of school and adults. While schools are 
still the dominant site for SNAP-Ed, the change from match-generated 
funding to a grant has resulted in direct education being offered in 
other community sites: day care, community centers, emergency food 
systems, public housing, farmers' markets, faith-based organizations, 
community health centers, food stores, and worksites. In a very natural 
way, SNAP-Ed staff are able to extend the relationships they've built 
through direct education and social marketing to assist partners by 
adding changes in PSEs that will support positive change on a larger-
scale and with longer-lasting impact. Policies are written 
organizational decisions, systems changes mean shift in services, and 
environmental supports involve changes in the visual, `built', social, 
economic, communications, and normative environments. PSEs are designed 
to make healthy behaviors easier with a larger-scale and longer-lasting 
impact.

    How does SNAP-Ed typically coordinate to avoid duplication of 
efforts?

    At the state level, each State Implementing Agency (SIA) must 
provide an annual plan and budget. In the 21 states that have two or 
more SIAs, one composite plan with clear role delineation, outcomes and 
budget for each SIA must be reviewed and approved prior to work 
commencing. Some states have moved to a competitive RFP process to 
select SIAs. While SIAs collaborate in planning and implementation, it 
is the decision of the SNAP State Agency to fund complementary rather 
than duplicative programs.
    SNAP-Ed depends on partnerships. In the social marketing 
`generation' of SNAP-Ed, statewide networks of organizational leaders 
from the public, nonprofit, foundation and business sectors were 
formed. Today, State Nutrition Action Councils composed of the major 
USDA categorical programs--SNAP, Child Nutrition, EFNEP and WIC--are 
being re-established. They are asked to plan ways to join efforts that 
gain synergies to make the most of their respective efforts. SNAP-Ed 
has strict guidelines to prevent its supplanting the mandates of sister 
programs.
    Eliminating disparities in food access, healthy eating, active 
living, and obesity is a national concern. SNAP-Ed works with partners 
who have similar aims. These include programs of the U.S. Department of 
Health and Human Services, such as CDC and Maternal, Child and 
Adolescent Health; USDA, such as the Food Insecurity and Nutrition 
Incentive (FINI) awardees, farmers' market initiatives, Community-
Supported Agriculture (CSA), and Farm to Anywhere efforts; service 
organizations; foundations; health plans; and state/local governments.
    All organizations have limited resources. Increasingly, 
stakeholders try to take a collective impact approach. SNAP-Ed is 
recognized as consistent and long-term, with a solid infrastructure, so 
it often is instrumental behind the scenes in setting a common agenda, 
establishing outcomes, keeping up communications, and helping to 
coordinate activities. The goal is to leverage dollars for impact 
beyond what any stakeholder could accomplish alone.

    To what extent does SNAP-Ed work with industry? To what degree is 
industry involved with education? What more could be done?

    SNAP is a food shopping assistance program. Of 22 SNAP-Ed states 
that replied to a quick poll, all but one are now working with retail 
partners or plan to do so in the coming year. These include chain and 
independent supermarkets, corner, small, rural, and C-stores, farmers' 
markets, and CSAs. Among national and regional chains, states reported 
working with SNAP-Ed eligible stores in companies such as Bashas, 
Festival Foods, Fred Meyer, Food 4 Less, Giant, Grocery Outlet, HyVee, 
Kroger, Kwik Trip, Meijers, Price Chopper, Safeway, Save-A-Lot, Shop n 
Save, Spartan Nash, Stop and Shop, and Weis Markets. The number of 
SNAP-Ed-eligible independent, small and C-stores is too numerous to 
count, as is the number of farmers' markets.
    SNAP-Ed activities include direct education, food demonstrations, 
store tours; in-store support, like signage, print recipes and 
educational information; and larger-scale community collaborations with 
grocer and grower associations, nonprofits like Cooking MattersTM, 
Double-Up Food Bucks, The Food Trust, and Wholesome Wave. Several 
states are planning to work with the Partnership for a Healthier 
America's FNVTM campaign that encourages millennials to eat more fruits 
and vegetables, and one is joining efforts with Eat Brighter!TM a 
partnership of the Produce Marketing Association, fruit and veggie 
companies, and Sesame Street.
    Some states work with the separately funded FINI (Food Insecurity 
and Nutrition Incentive) projects in their state, and others intend to 
respond to future competitions. Some states partner with grocer, 
grower, and farmers' market manager associations, especially around 
increasing EBT redemption. Two states are partnering to create a food 
hub that can help aggregate gleaned food that would otherwise be 
discarded. Several several mentioned working to improve supply chains 
for school food programs.
    SNAP-Ed works easily with eligible smaller food stores and 
independent chains. However, over 80 percent of SNAP dollars are spent 
in supermarkets, and there are barriers to working with national and 
regional chains that could help shift SNAP buying practices on a larger 
scale: SNAP-Ed targeting rules allow partnerships only with stores in 
eligible low-income Census tracts, usually with few supermarkets, or 
with supermarkets that redeem more than $50,000 in SNAP benefits 
monthly, which is confidential information. From a chain stores' 
perspective, corporate approval is usually required to allow 
partnerships with any local initiatives, and some companies are 
reluctant to target low-income shoppers. It would be helpful if 
currently-proprietary information about SNAP redemptions and sales of 
healthy foods were made available to states. This information would 
allow SNAP-Ed to approach chains and make the business case for 
cooperative campaigns benefitting SNAP, WIC and other low-income 
customers.

    With all the positive changes that the food industry has made, such 
as recipe-ready fruits and vegetables, healthier fast foods, whole 
grain breads, and healthier lines of processed foods, what more could 
industry do to help low-income customers?

    Healthy convenience foods are boon to busy families, but they tend 
to be too expensive for families who have so little income that they 
need SNAP. Manufacturers and grocers could be given the opportunity to 
offer these and other healthy foods, such as fruits and vegetables in 
season, at a discounted price to SNAP shoppers. Similarly, without a 
waiver, retailers may not voluntarily offer `double up' or `bonus 
value' for fruits and vegetables purchased with SNAP dollars. As 
research programs like HIP (Healthy Incentive Program) and FINI are 
showing, incentive pricing helps narrow the affordability gap for low-
income shoppers and raise dietary quality. The Federal non-
discrimination policy that prevents retailers from voluntarily offering 
price incentives for healthy foods like targeted fruits and vegetables 
to their SNAP customers could be updated.
    There is nothing to prevent a company from shifting prices so that 
low-nutrient foods are priced higher to offset the cost of healthier 
foods. This has been done successfully in commercial food service 
venues, like worksite cafeterias and vending machines. Price shifts are 
likely to be especially effective with price-sensitive groups such as 
youth and low-wage workers and when accompanied by nutrition education 
and promotion.
    Although final rules are in place, menu labeling and the improved 
Nutrition Facts labels that show calories and portion sizes more 
clearly will not become effective until late 2017 and 2018 
respectively. It would be effective, especially low-income consumers, 
if companies were to introduce the new labels well before the Federal 
deadline.
    While many food companies have developed healthier foods, there has 
been little or no increase in advertising and promotion of the healthy 
items compared to the very high levels of advertising for and promotion 
of less healthy, high-margin foods and beverages. Some studies show 
that marketing and promotions targeted to non-English speakers, to 
minority groups and to children are high and disproportionately for 
less healthy foods and beverages. Changes toward health in advertising, 
promotion and other business practices would help reduce negative 
influences and_especially for children and adults with limited 
education_go far in shaping healthier food norms.

    In addition to problems of access to healthy foods, one of the 
greatest challenges that families using SNAP face is that benefits run 
out before the end of the month. Is nutrition education the only 
solution, or is there more we need to do to improve benefit adequacy?

    EFNEP and SNAP-Ed have proven that education in food resource 
management helps families avoid running out of food money, but there at 
least four other ways that could help.
    First, many families shop once or twice a month for food but still 
run out of food money within 2 or 3 weeks. For families living in food 
deserts and food swamps that, by definition, have limited access to 
supermarkets where food costs are generally lowest, higher stocking 
standards for healthy foods in small stores could increase the 
availability of healthy choices, especially for perishables, between 
trips to the supermarket. SNAP-Ed could be mobilized to help small 
retailers generate consumer demand, introduce in-store changes, and--
where needed--help develop supply chains for healthier foods. Requiring 
all stores certified by SNAP to stock more and healthier food, 
bolstered by SNAP-Ed assistance when needed, could make a big 
difference in rural and under-served neighborhoods all year long.
    Second, there are many USDA initiatives to help local agriculture 
and small farmers bring healthier food into under-served communities 
through farmers' markets, mobile markets, CSAs (Community-Supported 
Agriculture), FINI projects, farm-to-school/farm-to-fork efforts, the 
Specialty Crop Block grant, and community gardens. These initiatives 
could be expanded.
    Third, the USDA Child Nutrition Programs and SNAP are designed to 
work together as a holistic safety net for children, yet in many areas 
participation in essential programs like school breakfast, summer meals 
and high school lunch programs lags far below the number of children 
whose households need that extra support. Due to concerns about 
supplantation, SNAP-Ed may only provide referral information, not 
actively encourage participation in the nutrition assistance programs. 
USDA could offer performance incentive awards to state agencies for 
working together to reduce their state's food insecurity rates, 
especially among children.
    Last, the SNAP eligibility and benefit levels do not vary with cost 
of living differences among the 48 contiguous states or with regions 
within each state, and the SNAP benefit is based on the household 
income. In a high cost area, a typical family using SNAP is relatively 
poorer and receives a relatively lower amount of SNAP benefit than in a 
low-cost area. SNAP eligibility and benefit levels could be adjusted 
for cost-of-living differences.

    How do SNAP-Ed programs measure success?

    Current reporting focuses on accountability. All state plans must 
include SMART objectives (specific, measurable, achievable, relevant, 
and time-bound) aligned with the state's needs assessments, strategies 
and priorities. State program and local grantees may follow business-
type processes to measure an intervention's success at each step: 
formative research and intervention design, pilot testing and revision, 
program roll-out, and periodic upgrades in line with ongoing 
evaluations. All states report their formative, process and outcome 
evaluations, including any publications, annually. States report their 
success in delivering educational and social marketing activities to 
USDA in a national system, EARS (Education and Administrative Reporting 
System) each year.
    However, the true outcomes sought by SNAP-Ed--better informed 
people, more supportive organizations, stronger community 
infrastructures and healthier low-income populations--are very 
difficult to measure, they change very slowly, and most successes will 
be attributable to SNAP-Ed in partnership with others. Change is not 
linear, and outcomes are measured in multi-year increments. It is 
believed that once a `tipping point' is reached, the pace accelerates, 
but `tipping points' will be different among states. There were no 
reporting systems or data sets anywhere that could quantify the wide 
range of outcomes that lead to healthy eating, active living, food 
security and obesity prevention, much less compile annual statistics 
across state lines. The new SNAP-Ed Evaluation Framework is trying to 
overcome these realities and, in so doing, break important new ground 
in measuring program success.

    Can you explain what new reporting mechanisms are being put in 
place to track success in SNAP-Ed as a whole?

    The new policy direction from the 2010 HHFKA led to states and USDA 
working together and with other experts on a comprehensive SNAP-Ed 
Evaluation Framework. It zeros in on outcomes in three spheres of 
influence that work together to support permanent healthy behavior. The 
Framework has been operationalized into an Interpretive Guide (IG) that 
was released in early June. The IG lays out metrics that will become 
the foundation for reporting SNAP-Ed outcomes comprehensively and 
compiling them for many local, state and national uses. The metrics 
include accomplishments collected as part of program evaluations as 
well as those drawn from national data bases such as those maintained 
by USDA and CDC.
    In the Framework, measures of success are organized into three 
spheres of influence: For individuals receiving direct education, 
selected behavior changes sustained over at least 6 months is 
considered long-term success. For organizations that partner with SNAP-
Ed to serve low-income people, the implementation of specific policy, 
systems and environmental changes, with the number of people expected 
to benefit, are counted as long-term success. For multi-sector 
activities that can make a difference on a very large scale, a set of 
policy and practice changes recommended by authoritative sources and 
specific to healthy eating and physical activity in low-resource 
settings has been identified. When low-income specific, multi-sector 
changes occurred due at least in part to SNAP-Ed assistance, that is 
considered a SNAP-Ed success.
    For the 51 Indicators in the Interpretive Guide, there are metrics 
for eight
short-, 13 medium- and 19 long-term outcomes that together contribute 
to 11 different Population Outcomes. Each Indicator has standardized 
metrics that will allow compilation and aggregation for the program as 
a whole. The next step is to test and fine-tune metrics, then develop 
an automated, interactive reporting system that is practical for local, 
state and national purposes.

    What is being done to assure that SNAP-Ed is based on the best 
practices and science?

    SNAP-Ed has compiled the first-ever repository containing 
interventions focused on low-resource populations and settings. In the 
1990s, SNAP-Ed programs had to develop, test, roll-out and continually 
improve low-income tailored interventions from scratch. While many were 
designed with replication in mind, mechanisms to help disseminate best 
practices were lacking.
    USDA, the National Consortium of Childhood Obesity Research, and 
ASNNA have worked together to produce a single, peer-reviewed public-
use repository. SNAP-Ed Strategies & Interventions: An Obesity 
Prevention Toolkit for States (2016) will grow as more evidence-based 
interventions become available. Of the nearly 100 entries, \2/3\ were 
developed by SNAP-Ed states.

Number of Evidence-Based Interventions Cited In the SNAP-Ed Strategies &
     Interventions: An Obesity Prevention Toolkit for States, 2016 *
 
 
 
Target Behavior:
  Breast-feeding...........................................         11
  Food.....................................................         76
  Physical Activity........................................         39
Intervention Type:
  Direct Education.........................................         47
  Social Marketing.........................................         28
  PSE......................................................         50
Low-Resource Setting/Channel:
  Child Care...............................................         22
  School...................................................         36
  Community................................................         35
  Worksite.................................................         10
  Retail...................................................          9
  Health Care..............................................          7
 
Editor's note: the formatting of this table has been altered for
  publishing. The data contained therein has not been altered.

    The Toolkit is intended to help states find or adapt on proven-
effective interventions that they can mix and match to build 
comprehensive programs tailored to their state's priorities. It links 
electronically with websites maintained by the originating programs so 
users can learn from each other. The Toolkit is will soon be available 
in an interactive format. It is expected that new interventions 
tailored to different SNAP-Ed population segments, dietary and physical 
activity behaviors, types of PSE changes, and community channels will 
be added each year. The Toolkit is expected to help states meet HHFKA 
requirements more efficiently, avoid duplication when developing new 
interventions, increase results, and standardize program outcomes to be 
more easily reported across state lines.

    Are there specific results that you can point to?

    In addition to the peer-reviewed interventions in the Toolkit, 
SNAP-Ed practitioners participate in scientific meetings to present 
their work to peers and obtain critical feedback. These not only share 
success, but they serve to continually improve the practice of 
nutrition education and promotion. There is as yet no single repository 
for peer-reviewed papers showing the results of SNAP-Ed interventions, 
but it is believed that several hundred are in print. Published results 
tend to be positive for food resource management, fruit and vegetable 
consumption, and physical activity. Lowering obesity rates in 
population groups requires preventing obesity before it happens, and 
early results with children are positive. The challenge will be to take 
local and state successes to-scale with entire populations and in 
larger geographic areas.

    Are there any other approaches to measuring success that could be 
considered?

    Attention is beginning to shift toward examining the cost-
effectiveness of comprehensive strategies to reduce obesity. In 2014 a 
microsimulation found that afterschool physical activity programs would 
reduce childhood obesity more than the other two interventions it 
analyzed (Kristensen, et al.). All three of the policies in that 
simulation would have greater impact on black and Latino children than 
on whites. In 2015 a cost-effectiveness projection concluded that three 
of the seven policies would each prevent between 129,000-576,000 cases 
of childhood obesity, saving more in health care costs than the cost to 
implement (Gortmaker, et al.). Also in 2015, a systematic review of 
economic analyses found that, of 27 different interventions, the vast 
majority reported beneficial economic outcomes (McKinnon, et al.). The 
studies focused on the community and the built environment, nutrition-
related changes, the school environment, and social marketing and media 
interventions. The Robert Wood Johnson Foundation just reported signs 
of progress reducing childhood obesity in 20 states; it showcased 
stories and photos from 13 more localities that took comprehensive 
approaches that led to significant declines in childhood obesity.

    Since SNAP-Ed uses comprehensive, multi-sector approaches and 
conducts similar programs to those in the four major studies above, it 
is logical to assume that more in-depth evaluation will document 
similar positive changes on a large scale.

    Rates of obesity vary across the country. Are SNAP-Ed grants 
targeted to states with higher rates of obesity?

    No. The new reallocation formula is based in part on SNAP rates, 
not obesity. However, to the degree that SNAP participation tracks with 
poverty and food insecurity which are drivers of obesity, the HHFKA 
formula will help. In the chart below, of the 16 states and District of 
Columbia that fall in any of the four `top 10' categories for obesity, 
SNAP-Ed funding through the reallocation process will increase for 11. 
For five states, it will more than double.
    It is important to know that, except in the food insecurity and 
PedNSS (Pediatric Nutrition Surveillance Survey) columns, the data 
below are for the general population since rates for low-income groups 
are not readily available. With the prevalence of risks greater in low-
income population segments, state rates of obesity and type 2 diabetes 
are no doubt significantly higher for SNAP-Ed groups than those shown 
below.

    How does the reallocation process work? How will SNAP-Ed grants be 
impacted?

    By 2018, SNAP-Ed will fund states 50% based on their 2009 funding 
and 50% based on the state's most recent percentage of the national 
SNAP participation. The Congressional reallocation formula uses each 
state's FFY 2009 SNAP-Ed Federal Financial Participation as the base, 
then annually from 2014-2018 adjusts by 10% increments using each 
state's prior-year proportion of the national SNAP population.
    As shown below, for the 11 states and District of Columbia with a 
`top 10' rank but where grants are projected to increase by 10% or 
less, funding will not keep pace with the projected cost of living. Not 
shown are the ten other states without a `top 10' designation but with 
<ls-thn-eq>10% growth expected. These include: ME, MI, MN, NE, NM, NH, 
NM, PA, WA and WI. By 2018, grants for 20 states and the District of 
Columbia be either less than in 2009 or fail to keep up with the 
Consumer Price Index.

    Top 10 States for Prevalence of Food Insecurity, Physical Inactivity, Obesity and Diabetes With Estimated Change in SNAP-Ed Funding Due to HHFKA
                                                                 Reallocation, 2014-2018
--------------------------------------------------------------------------------------------------------------------------------------------------------
  State                                                                             Child Obesity                          Type 2
with Any  Food  Insecurity      Physical        Adult Obesity    Obesity in High     Rank, 10-17    Obese Low-Income      Diabetes,      Change in SNAP-
 Top 10   Rank,A 2012-2014     Inactivity     Rank,B  2014 (%)   School Students    years,D  2011    2-4 Year Olds,    Adults, Rank,B     Ed Funding,F
  Rank                      Rank,B  2014 (%)                    Rank,C  2015 (%)         (%)        Rank,E  2011 (%)      2014 (%)       FFY14-18 (est.)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Mississi         81 (22.0)          1 (31.6)          3 (35.5)          1 (18.9)         1 (21.7)0                          83 (13.0)0               34%
 ppi
Arkansas         82 (19.9)          2 (30.7)          1 (35.9)          4 (18.0)         6 (20.0)0                          85 (12.7)0               56%
Louisian         83 (17.6)          3 (29.5)         4 (34.9)0               N/A        84 (21.1)0               N/A                                 87%
 a
Kentucky         84 (17.5)         6 (28.2)0                           83 (18.5)          8 (19.7)          6 (15.5)         6 (12.5)0               ^5%
Texas            85 (17.2)         7 (27.6)0                                 N/A       810 (19.1)0               N/A                                141%
Ohio            86 (16.9)0                          88 (32.6)0               N/A                                            89 (11.7)0              119%
Alabama         87 (16.8)0                          85 (33.5)0                                                               4 (12.9)0               28%
Missouri        87 (16.8)0                                                                                                                           ^5%
North           89 (16.7)0                                                                                87 (15.4)0                                222%
 Carolin
 a
Oklahoma        810 (16.5)          5 (28.3)          6 (33.0)         6 (17.3)0                                 N/A        87 (12.0)0                3%
Tennesse                          89 (26.8)0                           82 (18.6)         5 (20.5)0                          82 (13.0)0              140%
 e
West                               84 (28.7)          2 (35.7)         5 (18.0)0                                            81 (14.1)0                6%
 Virgini
 a
Indiana                           810 (26.1)         7 (32.7)0                                                                                       18%
North                                               89 (32.2)0                                                                                        1%
 Dakota
South                                               810 (32.2)          8 (16.3)         2 (21.5)0               N/A        87 (12.0)0              419%
 Carolin
 a
D.C.                                                                         N/A        83 (21.4)0                                                   ^9%
Arizona                                                                                 87 (20.0)0                                                  ^13%
Illinois                                                                                89 (19.3)0                                                   32%
Georgia                                                                      N/A                                           810 (11.6)0              222%
Californ                                                                                                   81 (16.8)        21 (10.3)0              ^23%
 ia
New                                                                          N/A                          82 (16.6)0                                 10%
 Jersey
Rhode                                                                                                     82 (16.6)0                                  2%
 Island
Massachu                                                                                                  84 (16.4)0                                 50%
 setts
Connecti                                                                                                  85 (15.8)0                                  1%
 cut
Maryland                                                                                                  88 (15.3)0                                 59%
South                                                                                                     89 (15.2)0                                 33%
 Dakota
Oregon                                                                       N/A                         810 (14.8)0                                  5%
Delaware                                                             810 (15.8)0                                 N/A                                 61%
5Lowest           DE (8.4)         CO (16.4)         CO (21.3)         MT (10.3)          OR (9.9)          HI (9.2)         UT (7.1)0               N/A
 Rate
--------------------------------------------------------------------------------------------------------------------------------------------------------
A--USDA, ERS B--CDC, BRFSS C--CDC, Youth Risk Behavior Survey (n=37 states). Other state-specific surveys may be available. D--CDC, NHANES for 10 to 17
  year old children. E--CDC, Pediatric Nutrition Surveillance Survey (n=41 states). System has been discontinued. F--USDA, FNS. This percent reflects
  the expected 5 year shift in SNAP-Ed grants due to the 10 year cap of $400M (2009).

    What can the improvements that SNAP-Ed focuses on mean for health 
care costs?
    Lowering health care costs is complicated because so many factors 
are in play. However, being healthy, by definition, will help reduce or 
delay the need for expensive services. Poor diet, physical inactivity 
and obesity have long been known as the leading preventable causes of 
death (JAMA, 1993). Experts urge a collective change from an 
`obesogenic environment' toward `a culture of health' and, for less-
advantaged groups, eliminating disparities by focusing on social 
determinants of health. That said, there is little progress toward 
healthy eating practices, obesity rates are up in most groups, and 
health care costs continue to rise.
    The health care cost trajectory could be changed through 
prevention. The California Department of Public Health conducted an 
analysis that estimated the state's 10 year cost of physical 
inactivity, obesity and overweight at nearly $220B in medical care, 
workers' compensation and lost productivity (Year 2000 dollars). The 
analysis projected that a ten percent increase in the number of adults 
who were leaner and more active could avoid about $13B in health care 
costs_nearly six percent less than the expected 10 year growth.
    Nationally, the economic costs of food insecurity, physical 
inactivity, obesity and diet-related diseases are high, as shown below, 
and many are rising. Among low-income populations where disease onset 
occurs at younger ages and rates of risk factors are higher, the 
economic benefits of prevention may be greater and occur sooner than in 
the general population.

  Cost of Diet-Related-Diseases and Problems that SNAP and SNAP-Ed Help
         Reduce With Dollars Allocated to SNAP and SNAP-Ed, 2016
------------------------------------------------------------------------
                             Cost per Year
      Cost Center              (rounded)            Source, Comments
------------------------------------------------------------------------
Food Insecurity              $160,000,000,000  Bread for the World
                                                Institute, 2016
Obesity                      $256,000,000,000  Chenoweth & Leutzinger,
                                                2006
Physical Inactivity          $251,000,000,000  Chenoweth & Leutzinger,
                                                2006
Type 2 Diabetes              $245,000,000,000  Centers for Disease
                                                Control and Prevention,
                                                2014
Cancer                       $216,000,000,000  Centers for Disease
                                                Control and Prevention,
                                                2015
Coronary Heart Disease       $204,000,000,000  American Heart
                                                Association, 2015
High Blood Pressure           $46,000,000,000  American Heart
                                                Association, 2015
Stroke                        $36,000,000,000  American Heart
                                                Association, 2015
Osteoporosis                  $19,000,000,000  National Osteoporosis
                                                Foundation, 2014
                        ----------------------
  Total                                   N/A  Differences in methods
                                                and timeframes preclude
                                                totaling these costs.
                        ----------------------
SNAP-Related Investment
 in Prevention
  SNAP Food Benefits          $69,000,000,000  USDA, 2016
  SNAP-Ed                        $408,000,000  USDA, 2016
                        ======================
    Total                     $69,408,000,000  Does not include other
                                                economic benefits to
                                                individuals and
                                                communities.\1\
------------------------------------------------------------------------

Conclusion
    SNAP, the centerpiece program in the nation's nutrition safety net, 
already provides well documented, significant economic returns and 
health benefits.\1\ SNAP-Ed, its nutrition arm, is increasingly well 
positioned to multiply those benefits and go further toward achieving 
the larger mission_food security, good nutrition and better health_for 
low-income Americans, less-resourced communities, and the nation's food 
and agriculture systems.
    Thank you for the opportunity to contribute to this important 
process. Please plan to visit SNAP-Ed projects back home to see the 
results for yourself.
[Endnote]
    \1\ SNAP generates significant increases in economic activity, jobs 
and self-employment, and agricultural production throughout the entire 
food system, from farm to table (ERS, 2015). Each SNAP dollar nearly 
doubles its value in local economic activity (ERS, 2015). Moody's 
concluded that the fastest way to infuse an ailing economy is through 
SNAP because it is quickly spent to generate consumer demand and 
contribute to wages at every point in the food chain (FRAC, 2015).
    SNAP alone has health benefits. SNAP participation early in life is 
associated with lower rates of obesity and metabolic syndrome years 
later, and it improves educational attainment and economic self-
sufficiency, both of which are positively associated with better health 
(Council of Economic Advisors). SNAP participation resulted in 
decreased growth of inpatient costs for Medicaid patients in Boston 
(Sonik, et al., 2015).
    Changes in benefits could help. A small increase in benefits was 
projected to boost spending on food and improve dietary quality (Center 
for Budget and Policy Priorities, 2016). A 30% incentive boosted fruit 
and vegetable intake to achieve an unprecedented 5 point increase in 
the Healthy Eating Index and closed 20% of the gap compared to national 
recommendations (Olsho, et al, 2016).
                                 ______
                                 
       Submitted Statement by Academy of Nutrition and Dietetics
Academy of Nutrition and Dietetics Supports SNAP Nutrition Education
    American diets fall short of recommendations for good health and 
contribute to excess rates of preventable chronic diseases (USDA & U.S. 
DHHS, 2015). Obesity rates are high and occur at younger ages in low-
income and some minority groups, as do other serious problems like Type 
2 diabetes, heart disease and hypertension (USDA & U.S. DHHS, 2015).
    Nutrition education is critical to good health and the development 
of lifelong healthy behaviors. Effective and targeted nutrition 
education across the life cycle can have an empowering and positive 
impact on the health and well-being of Americans.
    To address food insecurity in low-resource populations the Academy 
recommends:

          ``. . . interventions, including adequate funding for and 
        increased utilization of food and nutrition assistance 
        programs, inclusion of food and nutrition education in such 
        programs and innovative programs to promote and support 
        individual and household economic self-sufficiency.'' \1\
---------------------------------------------------------------------------
    \1\ Position of the American Dietetic Association: Food Insecurity 
in the United States. Journal of the American Dietetic Assoc. 2010; 
110: 1368-1377.

    SNAP Nutrition Education, or SNAP-Ed, is an innovative nutrition 
education program that is meeting the unique needs of low-income 
communities nationwide. SNAP-Ed provides targeted effective nutrition 
education that empowers families to make lasting behavior change and 
builds skills to manage limited resources towards economic self-
sufficiency.
History of SNAP-Ed
    As early as 1981 and building over time, Congress and the USDA have 
recognized the critical role of government supported nutrition 
education to helping the most nutritionally vulnerable populations make 
healthy food choices.
    In the Agriculture and Food Act of 1981, the House and Senate 
Agriculture Committees initiated efforts to expand the reach of 
nutrition education to food stamp recipients (SEC. 1322). Specifically, 
``to encourage the purchase of nutritious foods, the Secretary is 
authorized to extend food and nutrition education to reach food stamp 
program participants, using the methods and techniques developed in the 
expanded food and nutrition education and other programs.'' Over the 
next few years and up to the rewrite of the farm bill, USDA began to 
employ more innovative approaches to reach broader low low-income 
audiences beyond the ``one-on-one'' approach used in the successful 
Expanded Food and Nutrition Education Program.
    In the Food Security Act of 1985, Title XVII, Subtitle A, Congress 
authorized USDA to make funds available to State Cooperative Extension 
Services to expand their food, nutrition and consumer services for low-
income households. The House Agriculture Committee ``wishes to ensure, 
to the extent possible, that low-income households have access to 
programs enabling them to maximize their food dollars and improve their 
diets,'' according to report language for this 1985 Act. ``The primary 
purposes of the program are to (1) increase the ability of low-income 
persons to manage their food budgets, (2) advance the ability of these 
persons to buy food that satisfies nutritional needs and promotes good 
health and (3) improve the food preparation, storage, safety, 
preservation and sanitation practices of low-income people.'' The 
Committee urges program funding to be spent on education activities and 
services rather than development of teaching materials and thus to be 
coordinated with the Food and Nutrition Service nutrition education 
efforts. The Committee report stated that ``the targeting of this 
nutrition education program on the low-income population is not based 
on the belief that these persons are poorer shoppers or know less about 
good nutrition than other Americans. This program is targeted on low-
income persons because of their special needs to stretch limited food 
dollars and to assure that the public's tax dollars devoted to food 
assistance programs are spent in the most efficient way possible.''
    Over the past 30 years, the food stamp nutrition education program, 
now titled the Supplemental Nutrition Assistance Program-Education has 
achieved the goals of the program initiators in the House Agriculture 
Committee. From a plethora of innovative education methods, millions of 
more low-income individuals have gained competence in managing their 
food budgets, shopping for and preparing healthful food and improving 
their overall health.
Innovative Nutrition Education Programming
    Nutrition education is not is merely handing out brochures, 
lectures or memorizing nutrients.
    Nutrition education is engaging, fun and experiential. It is about 
food: tasty, delicious food that is also healthful.
    Effective education strategies in combination and coordination with 
nutrition assistance programs will help ensure the Federal investment 
in these programs is optimized. Nutrition education ensures that 
families have knowledge and skills and are empowered to make healthy 
choices, whether purchasing food in the grocery store, corner store or 
restaurants or preparing food at home. For example a 2013 Deloitte 
study found that smart grocery shopping and healthful cooking can save 
a family approximately $46,000 per adult family member in lifetime 
health care costs and wages lost to sick days. Nutrition education can 
help build those types of food skills.
SNAP-Ed Evolves
    State SNAP-Ed programs were designed to operate at all levels: 
neighborhoods, cities, counties, regions and statewide. SNAP-Ed 
promotes healthy behaviors and helps create conditions in which the 
healthy choice is the easy choice. Empowering families with the skills 
and promoting healthy surroundings through systems supports foster 
lifelong healthy food and physical activity choices. Early adoption of 
healthy habits, resource management skills, coupled with systems 
approaches that support those habits are key to reducing health care 
costs related to chronic diseases like obesity, diabetes and heart 
disease. SNAP-Ed evaluated programs show:

  <bullet> Increases in fruit and vegetable consumption and physical 
        activity by participating low-income children and adults 
        (Johnson, et al., 2013; Sexton & Chipman, 2013).

  <bullet> Increases in dietary intake of fiber, calcium, iron and 
        other key nutrients needed for a healthier diet (Johnson, et 
        al., 2013; Sexton & Chipman).

  <bullet> Unprecedented gains in statewide fruit and vegetable 
        consumption by low-income residents using social marketing 
        nutrition networks (Foerster & Gregson, 2011).

  <bullet> Decreases in new cases of overweight among elementary 
        children in a large urban school district (Foster, et al., 
        2008).

  <bullet> Increases in food resource management skills and decreased 
        incidence of food shortage before the end of the month (Kaiser, 
        et al., 2015).

  <bullet> Stronger methods and best practices for nutrition education 
        (Lovett, Sherman, & Barno).

    While much is happening now, more can be done to ensure that 
nutrition assistance programs are leveraged more to help improve the 
health and well-being of Americans--ultimately resulting in health care 
savings.
Evidenced-Based Evaluation of Nutrition Education Programing
    Over its history, SNAP-Ed has embraced the mission of helping 
achieve the nation's goals for food security, healthful eating, 
physical activity and obesity prevention. States designed and tested 
many new approaches, shared what was learned and saw were significant 
results. From the start, we knew we needed to capture all those results 
to characterize the scale of SNAP-Ed progress among states and across 
the country. Many states have developed and conducted evaluation of the 
program for many years.
    The recently released report from the National Commission on Hunger 
noted the importance of SNAP-Ed and highlighted the ``opportunity to 
standardize data collection and evaluation across programs to assess 
the effectiveness of SNAP-Ed on improving health and hunger outcomes.'' 
In June 2016, building on the 30 year history of innovative state 
evaluations, a team with representation from the USDA, CDC and the 
National Collaborative on Child Obesity Research released the SNAP-Ed 
Evaluation Framework and Interpretative Guide.
    This evaluation framework is designed as a science-driven roadmap 
to show how collective efforts across the country could lead to 
population results. It is designed to help SNAP-Ed implementing 
agencies capture the more distal and permanent benefits to society that 
expert bodies say are needed and that this kind of work can generate.
    The Interpretative Guide provides the ``how'' to drive toward big 
results without losing the targeting of SNAP-Ed programming tailor to a 
community's needs. It operationalizes the Framework's 51 Indicators, 
each of which has specific metrics, to help programs quantify and then 
aggregate SNAP-Ed outcomes over time. Those metrics will allow us to 
capture specific, important benefits to individuals, to systems, 
organizations and businesses and to entire low-resource communities at 
the local, regional and statewide levels. The synergy of this work--
especially in partnerships with other committed stakeholders--is how we 
believe population-wide results are being achieved and can be 
quantified.
Conclusions
    The Academy of Nutrition and Dietetics supports and emphasizes the 
necessity of pairing nutrition assistance programs with strong and 
comprehensive nutrition education programs. SNAP-Ed continues to 
provide innovative and effective nutrition education that empower 
families to make lasting healthy choices. The SNAP-Ed Evaluation 
Framework will help aggregate data that will help policy makers better 
understand the collective impact of SNAP-Ed interventions.
                                 ______
                                 
  Submitted Statement by Laurie M. Tisch Center for Food, Education & 
                                 Policy
Statement in Support of SNAP Education
    The Laurie M. Tisch Center for Food, Education & Policy in the 
Program in Nutrition, Teachers College Columbia University (the Tisch 
Food Center) is pleased to comment on the critical importance of the 
Federal SNAP Education program. The Tisch Food Center cultivates 
research about connections between a just, sustainable food system and 
healthy eating, and translates it into recommendations and resources 
for educators, policy makers, and community advocates. The Program in 
Nutrition at Teachers College is the oldest university based nutrition 
program in the country, and founded the field of nutrition education.
    The need for high-quality nutrition education is more critical than 
ever. Even when we know what to eat, it's hard, and most American diets 
are falling short of national nutrition recommendations.\2\ This has 
resulted in high rates of obesity and other preventable chronic 
diseases, including type 2 diabetes, heart disease, and 
hypertension.\2\
    The Federal Government makes a significant investment in access to 
healthy food for all Americans through the Supplemental Nutrition 
Assistance Program (SNAP). This investment can be maximized when 
healthy food access is paired with nutrition education, through SNAP 
Education (SNAP-Ed). This offers the best opportunity for children and 
families to be responsible and informed about their food--synonymous 
with providing a fishing rod along with guidance and hands-on learning 
experiences to catch lots of fish.
    Nutrition education is a cost-effective obesity prevention 
strategy,\3\ yet the current Federal investment in SNAP-Ed is much less 
than the cost of obesity, $408 million vs. $147 billion.\4\ SNAP-Ed is 
an effective program, making significant improvements in the diets of 
participants. Evidence shows that SNAP-Ed participants ate more fruits 
and vegetables, were more physically active,\5\ and were better able to 
manage their food resources.\6\

             SNAP-Ed in NYC: Stellar Farmers' Market Program
------------------------------------------------------------------------
 
-------------------------------------------------------------------------
    <bullet> With a SNAP-Ed grant, the NYC Department of Health and
     Mental Hygiene and the New York State Office of Temporary and
     Disability Assistance collaborated to provide free nutrition and
     cooking workshops to SNAP eligible participants at farmers' markets
     in low-income neighborhoods.
    <bullet> This program, called Stellar Farmers' Market, leverages
     local dollars for SNAP incentives called Health Bucks, allowing
     participants to learn about and purchase local produce.
    <bullet> Program participants increased fruit and vegetable
     consumption, and reported higher self-efficacy to prepare and
     consume produce.\1\
------------------------------------------------------------------------

References:
    1. Dannefer R., Abrami A., Rapoport R., Sriphanlop P., Sacks R., 
Johns M. A Mixed-Methods Evaluation of a SNAP-Ed Farmers' Market-Based 
Nutrition Education Program. Journal of Nutrition Education and 
Behavior. 2015; 47: 516-525.
    2. U.S. Department of Agriculture & U.S. Department of Health & 
Human Services. Dietary Guidelines for Americans 2015-2020 Eighth 
Edition. 2015.
    3. McKinsey Global Institute. Overcoming Obesity: An Initial 
Economic Analysis. November 2014.
    4. IOM (Institute of Medicine). The current state of obesity 
solutions in the United States: Workshop Summary. Washington, D.C.: The 
National Academies Press; 2014.
    5. Sexton J.S., Chipman H. Supplemental Nutrition Assistance 
Program Education through the Land-Grant University System for FY 2010: 
A Retrospective Review. 2013.
    6. Kaiser L., Chaidez V., Ginsburg D.C., et al. Food Resource 
Management Education with SNAP Participation Improves Food Security. 
Journal of Nutrition Education and Behavior. 2015; 47(4): 374-378.

          For more information about this brief or the Laurie M. Tisch 
        Center for Food, Education & Policy please contact Claire Uno, 
        Assistant Executive Director at [Redacted] or [Redacted] 
        <bullet> www.tc.edu/tisch.
                                 ______
                                 
                          Submitted Questions
Response from Kimberlydawn Wisdom, M.D., M.S., Senior Vice President, 
        Community Health & Equity and Chief Wellness and Diversity 
        Officer, Henry Ford Health System
Question Submitted by Hon. Alma S. Adams, a Representative in Congress 
        from North Carolina
    Question. Dr. Wisdom, can you elaborate on your recommendation to 
modify the Thrifty Food Plan and why it currently does not adequately 
capture the higher costs of healthy foods and the regional variability 
in the cost of living for SNAP participants?
    Answer. The Thrifty Food Plan (TFP) serves as a national standard 
for a nutritious diet at a minimal cost and is used as the basis for 
maximum food stamp allotments. The purchasing power of the TFP has yet 
to be increased by USDA, even though the opportunity presented itself 
in 1983, 1999, and 2006 during market basket revisions. The 2006 
revision of the TFP market baskets reflected changes in dietary 
guidance and incorporated updated information on food composition, 
consumption patterns, and food prices at the same inflation-adjusted 
cost of the previous TFP. TFP requires tradeoffs between the nutrition 
quality and costs of foods available in the United States.
    Critics of the TFP plan cite its impractical lists of food, lack of 
variety, unrealistic assumptions of food availability and 
affordability, underestimation of food waste, and the cost of the time 
needed to prepare foods. The program's most significant weakness is 
that benefits are not adequate to get most families through the entire 
month, let alone to allow them to buy the foods needed for a high, 
quality diet.\1\ Families need to plan ahead and select the most common 
fresh fruits and vegetables such as apples and bananas, iceberg lettuce 
and processed fruits and vegetables (canned, frozen, dried, and juiced 
products) such as canned tomatoes to stay within the TFP budget 
restraints.\2\ No cultural or regional variations are considered.
    The costs of foods greatly vary based on where you live, where you 
shop and what is available in your area. The TFP is based on a national 
average of food prices, but food prices vary widely across the nation, 
as concluded in several USDA reports. As a result, higher food prices 
in many communities--especially urban areas--make it difficult to meet 
TFP guidelines and afford a healthful diet, because SNAP consumers have 
less purchasing power with their program benefits.\1\ To meet the 2005 
Dietary Guidelines market basket would require a low-income family to 
devote 43% to 70% of their food budget to fruits and vegetables 
depending on where they lived and shopped for these items.\4\ This 
would also require families to allocate a much larger share of their 
overall food budget to fruits and vegetables and carefully budget to 
meet these requirements and eliminate the purchase of other processed 
foods.
    Low-income consumers that shop in non-chain stores pay a 
significant premium due to poor access to chain stores in their 
neighborhoods, this is especially true in rural areas. One study 
revealed that the biggest factor contributing to higher grocery costs 
in poor neighborhoods is that large chain stores, where prices tend to 
be lower, are not located in these neighborhoods.\3\
    In reaching the TFP target most products are in there raw form, for 
example dry beans vs. canned beans, required significantly more 
planning and preparation time for meals. One study suggested that time 
is more constraining than money and that solely focusing on money could 
severely underestimate the gap between actual expenditures and those 
required to reach the TFP target.\5\
    The USDA's Low-Cost Food Plan--not the Thrifty Food Plan--is a much 
more appropriate basis for SNAP allotments. Such a change would improve 
the health and well-being of millions of low-income Americans and is 
more aligned with how much money is needed to maintain a more food-
secure household for the month. The Low-Cost Food Plan allows for 
greater food variety and choices to support regional and cultural 
variations and preferences and allows for the purchase of more 
nutritionally adequate diets than those households spending at the TFP 
level. This is consistent with a study conducted in 2010, which found 
that increases in food spending positively impacted the dietary quality 
of SNAP participants.\6\ Other strategies could include incentivizing 
or subsidizing fruit and vegetables purchases for SNAP recipients, 
allowing states to adjust benefit costs based on cost of living 
standards for food, or allowing SNAP recipients to purchase certain 
products from online or delivery services for convenient access to 
fruits and vegetables and other healthy foods.
Citations
    1. Food Research and Action Center (FRAC). ``Replacing the Thrifty 
Food Plan in Order to Provide Adequate Allotments for SNAP 
Beneficiaries'' http://frac.org/pdf/thrifty_food_plan_2012.pdf.
    2. Stewart, Hayden, and Noel Blisard. ``The Thrifty Food Plan and 
low-income households in the United States: What food groups are being 
neglected?.'' Food Policy 31.5 (2006): 469-482.
    3. Cassady, Diana, Karen M. Jetter, and Jennifer Culp. ``Is price a 
barrier to eating more fruits and vegetables for low-income families?'' 
Journal of the American Dietetic Association 107.11 (2007): 1909-1915.
    4. Chung, Chanjin, and Samuel L. Myers. ``Do the poor pay more for 
food? An analysis of grocery store availability and food price 
disparities.'' Journal of Consumer Affairs 33.2 (1999): 276-296.
    5. Davis, George C., and Wen You. ``Not enough money or not enough 
time to satisfy the Thrifty Food Plan? A cost difference approach for 
estimating a money-time threshold.'' Food Policy 36.2 (2011): 101-107.
    6. Mabli, James, et al. Food expenditures and diet quality among 
low-income households and individuals. Mathematica Policy Research, 
2010.
Response from Shreela V. Sharma, Ph.D., R.D., L.D., Associate 
        Professor, Division of Epidemiology, Human Genetics and 
        Environmental Sciences, University of Texas; Co-Founder, 
        Brighter Bites
Question Submitted by Hon. Alma S. Adams, a Representative in Congress 
        from North Carolina
    Question. Dr. Sharma, the families that participate in your program 
Brighter Bites in Texas are using produce that is donated by food 
distributors rather than having to purchase fruits and vegetables on 
their own.
    Do you have an estimate of how much a family would have to increase 
their monthly grocery bill in order to buy produce if it was not 
donated to them through this program?
    Answer. Thank you for this important question. On average Brighter 
Bites families receive 30-35 lbs of a variety of seasonal produce each 
week through the program. We have estimated the retail cost of this 
amount of produce to be, on average, $32.37 (R$7.41) for the produce 
provided per week in the 2015-2016 school year. Additionally, we 
collect data from the families by asking our families ``on average, how 
much money did participating in Brighter Bites help you save on your 
monthly grocery bill?'' Of the 4,415 Brighter Bites families across 
Houston, Austin and Dallas who responded to this question in the 2015-
2016 school year, families reported saving on average $34.30 per week 
on their grocery bill.
Response from Jo Britt-Rankin, Ph.D., Associate Dean/Program Director, 
        Human Environmental Sciences Extension, University of Missouri, 
        Columbia, MO; on behalf of Extension Committee on Organization 
        and Policy
Question Submitted by Hon. Alma S. Adams, a Representative in Congress 
        from North Carolina
    Question. Dr. Britt-Rankin, you mention in your testimony that 
land-grant universities offer multiple nutrition education programs at 
each institution that are complimentary and are not duplicative.
    Can you elaborate on how extension programs through the Expanded 
Food and Nutrition Education Program complement the outreach that is 
funded through SNAP education grants in the State of Missouri?
    Answer. Thank you Representative Adams for allowing me to provide 
further explanation . . . 
    I have created the table to help describe the two programs 
nationally. You will then see the more specific Missouri example below 
the table.

------------------------------------------------------------------------
                                    EFNEP                 SNAP-Ed
------------------------------------------------------------------------
Funding                     Smith-Lever [(3)(d)]/ Grant program to state
                             Capacity to LGU's     SNAP agency
Target Audience             Families w/children   SNAP recipients &
                             in the home and       eligibles
                             youth groups
Program Delivery            Ave. of eight         Multiple methods--
                             lessons for adults/   single and multi-
                             six for youth.        session. Policy,
                             Enrollment,           System & Environment
                             graduation and        interventions to
                             national reporting    complement direct
                             forms.                education
No. of Participants *       500,000 direct        41,489,783 direct
                            340,000 indirect      146,515,970 indirect
                             education             Ed
                                                  374,888,292 social
                                                   marketing
------------------------------------------------------------------------
* EFNEP is people. SNAP-Ed is contacts.

    First, the guidance for SNAP-Ed specifically states that 
implementing agencies must develop a coordination plan and indicate 
what steps they will take to prevent duplication of services. Each year 
we work with USDA food assistance programs, state agencies, the hunger 
community and other health providers in Missouri to determine how we 
will provide education and services in concert with each other. Many of 
these partners are members of our nutrition network, MOCAN--Missouri 
Council on Activity and Nutrition. We determine who is providing 
services in specific locations and if Extension can provide 
complementary educational programs. We also survey to determine where 
gaps in services and education may exist.
    Internally, we evaluate these programs extensively each year. About 
10 years ago, we began to see our EFNEP enrollments begin to decline. 
At that time, our EFNEP paraprofessionals were primarily located in the 
more rural parts of the state. In these areas, the populations were 
sparse and it was difficult to locate adequate numbers of new 
participants. At that time, we determined that there was a greater 
unmet need in the urban/metropolitan areas of Kansas City and St. 
Louis. Given that each metropolitan area has over two million 
residents, we determined it best to centralize our efforts into the two 
largest population centers of the state.
    Although this move to the urban/metropolitan areas has concentrated 
our geographic reach, it has increased our participant numbers greatly. 
We also wanted to ensure that EFNEP and SNAP-Ed staff would not 
duplicate efforts or provide education in the same locations. Local 
program coordinators work with each program's educators to determine 
what organizations or sites will receive programming each given year. 
For example, EFNEP staff in St. Louis collaborates with the 
International Institute and provides nutrition education to new 
immigrant families. EFNEP staff also work with youth/community garden 
programs. SNAP-Ed in these same geographic locations focus their 
efforts on school-based, classroom education as well as seniors and 
adults without children in the homes.
    In Missouri, we have found this to be effective in increasing 
participation rates as well as preventing duplication of efforts. In 
2016, EFNEP reached more individuals than ever before. Having a very 
defined audience also allows the educators to become more focused on 
teaching and evaluating their respective program rather than searching 
for new audiences.
    I do want to be clear, in Missouri, we have not left the rural 
areas. SNAP-Ed in Missouri is a statewide program. We have educators in 
all 114 counties and the city of St. Louis. We utilize a combination of 
direct education, indirect education, social marketing, and PSE 
interventions to reach across the state.


 
               SUPPLEMENTAL NUTRITION ASSISTANCE PROGRAM

  (THE PAST, PRESENT, AND FUTURE OF SNAP: EVALUATING ERROR RATES AND 
                     ANTI-FRAUD MEASURES TO ENHANCE

                           PROGRAM INTEGRITY)

                              ----------                              


                        WEDNESDAY, JULY 6, 2016

                  House of Representatives,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Committee met, pursuant to call, at 10:00 a.m., in Room 
1300 of the Longworth House Office Building, Hon. K. Michael 
Conaway [Chairman of the Committee] presiding.
    Members present: Representatives Conaway, Lucas, Gibbs, 
Crawford, Gibson, Benishek, Denham, LaMalfa, Davis, Walorski, 
Allen, Abraham, Moolenaar, Newhouse, Kelly, Peterson, David 
Scott of Georgia, Costa, Walz, Fudge, McGovern, DelBene, Vela, 
Lujan Grisham, Kuster, Nolan, Bustos, Aguilar, Adams, Graham, 
and Ashford.
    Staff present: Caleb Crosswhite, Callie McAdams, Jadi 
Chapman, Mary Nowak, Mollie Wilken, Stephanie Addison, Lisa 
Shelton, Liz Friedlander, Matthew MacKenzie, Nicole Scott, and 
Carly Reedholm.

OPENING STATEMENT OF HON. K. MICHAEL CONAWAY, A REPRESENTATIVE 
                     IN CONGRESS FROM TEXAS

    The Chairman. Well, good morning. This hearing of the 
Committee on Agriculture entitled, Past, Present, and Future of 
SNAP: Evaluating Error Rates and Anti-Fraud Measures to Enhance 
Program Integrity, will come to order. I have asked Trent Kelly 
to open us with a brief prayer. Trent.
    Mr. Kelly. Bow your heads. Dear Lord, we just ask that you 
bless our farmers in this great nation. We ask that you bless 
those who are needy and who are less fortunate than us. We ask 
that all we do in this nation honor, and we ask that you guide 
us in all our decisions. In Jesus' name, I pray. Amen.
    The Chairman. Thank you, Trent.
    I want to welcome our witnesses to today's hearing and 
thank them for taking the time to share their insight on how we 
can enhance program integrity within the Supplemental Nutrition 
Assistance Program. This hearing, builds upon the Committee's 
top-to-bottom review of SNAP and I hope it will provide a 
greater understanding of efforts being made to ensure SNAP is 
run at the highest caliber.
    Americans generally support welfare programs to help those 
who have fallen on hard times, the elderly, children, and 
disabled individuals who cannot care for themselves. In order 
to maintain support from American taxpayers, we as legislators 
and program administrators must ensure that these programs are 
accountable and transparent.
    One way we hold these programs accountable is by tracking 
the annual error rate. Error rates stem primarily from 
overpayments or underpayments to SNAP recipients by the states. 
Compared to other means-tested programs, SNAP has a relatively 
low error rate of 3.2 percent for Fiscal Year 2015. But, what 
does this number tell us? What are the factors used in 
determining the error rate? And when comparing error rates 
across programs, are we really comparing the same criteria?
    In addition to error rates, we will also be discussing 
fraud, and more specifically, trafficking, which occurs when 
SNAP benefits are exchanged for cash. USDA's most recent report 
for trafficking was 1.3 percent, but again, what does that rate 
really tell us and what additional improvements can be made?
    Finally, whether we are talking about errors or outright 
fraud, another key question is who should bear the financial 
and oversight responsibility for reducing misused dollars. The 
states or the Federal Government?
    While the error rate for SNAP is low, it translates to more 
than $2 billion per year in payments that are issued 
incorrectly. Programs can always improve, and as the Committee 
responsible for oversight of SNAP, we should always be pushing 
to ensure that SNAP is working well, both for the 45 million 
recipients that rely on food assistance, and for the taxpayers 
that fund that program. I think that is something we should all 
be able to agree on today. And I look forward to hearing from 
our panel.
    [The prepared statement of Mr. Conaway follows:]

  Prepared Statement of Hon. K. Michael Conaway, a Representative in 
                          Congress from Texas
    I want to welcome our witnesses to today's hearing and thank them 
for taking the time to share their insight on how we can enhance 
program integrity within the Supplemental Nutrition Assistance Program. 
This hearing, builds upon the Committee's top-to-bottom review of SNAP 
and I hope it will provide a greater understanding of efforts being 
made to ensure SNAP is run at the highest caliber.
    Americans generally support welfare programs to help those who have 
fallen on hard times, the elderly, children, and disabled individuals 
who cannot care for themselves. In order to maintain support from 
American taxpayers, we as legislators and program administrators must 
ensure that these programs are accountable and transparent.
    One way we hold these programs accountable is by tracking the 
annual error rate. Error rates stem primarily from overpayments or 
underpayments to SNAP recipients by the states. Compared to other 
means-tested programs, SNAP has a relatively low error rate of 3.2 
percent for FY 2015. But, what does this number tell us? What factors 
are used in determining the error rate? When comparing error rates 
across programs, are we really comparing the same criteria?
    In addition to error rates, we will also be discussing fraud, and 
more specifically, trafficking--which occurs when SNAP benefits are 
exchanged for cash. USDA's most recent report for trafficking was 1.3 
percent, but again, what does that rate really tell us and what 
additional improvements can be made? Finally, whether we are talking 
about errors or outright fraud, another key question is who should bear 
the financial and oversight responsibility for reducing misused 
dollars. The states or the Federal Government?
    While the error rate for SNAP is relatively low, it translates to 
more than $2 billion per year in payments that are issued incorrectly. 
Programs can always be improved and as the Committee responsible for 
oversight of SNAP, we should always be pushing to ensure that SNAP is 
working well. Both for the 45 million recipients that rely on food 
assistance, and for the taxpayers that fund the program. I think that 
is something we can all agree on here today, and with that said I look 
forward to hearing from our panel.

    The Chairman. With that, I ask the Ranking Member for any 
comments he might have.

OPENING STATEMENT OF HON. COLLIN C. PETERSON, A REPRESENTATIVE 
                   IN CONGRESS FROM MINNESOTA

    Mr. Peterson. Well, thank you, Mr. Chairman. And I want to 
thank today's witnesses for joining the Agriculture Committee's 
ongoing and thorough review of SNAP.
    States have a lot of flexibility when it comes to 
administering SNAP, and it is important that, especially as we 
continue our review and look ahead to possible policy changes, 
that we keep this in mind, and we keep a close eye on their 
work.
    We have made significant progress, I believe, in 
eliminating waste, fraud, and abuse in the SNAP Program, and 
with EBT cards it has made it very difficult for the recipients 
to cheat the system. But what still doesn't make sense to me is 
that we have created a system where states set the rules in 
some cases, and then we are left paying the bill. Categorical 
eligibility has allowed for different states to provide 
different benefits. The way programs like LIHEAP are also 
connected to SNAP, and they have only expanded these 
discrepancies.
    Giving states more power while the Federal Government is 
still footing the bill, like block grants, just, to me, doesn't 
make a lot of sense.
    If you had a business where somebody decided how to spend 
your money and then sent you the bill, I don't think you would 
survive very long. I question that whole direction.
    With that said, I am looking forward to today's testimony, 
and learning more about the efforts being undertaken here in 
Washington to address some of these issues and ensure a 
thorough oversight.
    And with that, Mr. Chairman, I yield back.
    The Chairman. I thank the Ranking Member.
    The chair requests that other Members submit their opening 
statements for the record so that our witnesses may begin their 
testimony, and ensure there is ample time for questions.
    I would like to welcome our witnesses to the witness table 
today. First, we will have Ms. Jessica Shahin, who is the SNAP 
Associate Administrator, Food and Nutrition Service, USDA, 
Washington, D.C. We also have Ms. Kay Brown, Director, 
Education, Workforce, and Income Security, U.S. Government 
Accountability Office, Washington, D.C. And I have asked our 
college, Bob Gibbs, to introduce our third witness. Bob.
    Mr. Gibbs. Thank you, Mr. Chairman. It is a privilege to 
welcome our Auditor of the State of Ohio, the Honorable Dave 
Yost. He is in his second term. He has done a remarkable job 
working in the State of Ohio, auditing from the Board of 
Education, some local municipalities, state government, and he 
has really brought accountability and transparency, and is 
protecting taxpayers' dollars.
    And before he was an auditor for the State of Ohio, he was 
an auditor in Delaware County, and then he was also the county 
prosecutor, and has a law degree and a law background. So that 
really makes a good mix.
    And just on a personal note, he is quite a singer. He is a 
musician, I can't say it, and plays the guitar and been quite 
an entertainer. But he has done a great job, and his report 
here, Auditing the SNAP Program in the State of Ohio, is a good 
benefit to the Committee. Welcome.
    Thank you, I yield back.
    The Chairman. Well, thank you.
    Jessica, I butchered your last name.
    Ms. Shahin. It is Shahin. It is Shahin. Rhymes with 
machine.
    The Chairman. All right, Ms. Shahin, the floor is yours for 
5 minutes, thank you. And I apologize for butchering your last 
name earlier.
    Ms. Shahin. Not at all.
    The Chairman. You are recognized for 5 minutes, ma'am.

             STATEMENT OF JESSICA SHAHIN, ASSOCIATE
           ADMINISTRATOR FOR SNAP, FOOD AND NUTRITION
            SERVICE, U.S. DEPARTMENT OF AGRICULTURE,
                        WASHINGTON, D.C.

    Ms. Shahin. Thank you, Mr. Chairman and Ranking Member 
Peterson. I am pleased to join you today to discuss the 
integrity of the Supplemental Nutrition Assistance Program, 
SNAP.
    I have dedicated most of my career to making SNAP work for 
individuals and families in need of nutrition assistance. It 
has been a central principle for me, working at the state level 
and in Federal Administrations of both parties, that SNAP 
cannot succeed and continue without strong public confidence. 
All of us, Federal, state, and local, are rightly accountable 
for good stewardship of tax dollars. Strong efforts to use 
every dollar wisely and eliminate error and fraud are critical 
to preserving benefits for the vast majority of participants 
who play by the rules, and need help to ensure access to 
adequate and nutritious food.
    Integrity encompasses many aspects of SNAP operations. It 
includes administrative errors and other kinds of mistakes, as 
well as deliberate efforts to defraud the program. We must 
ensure that benefits go to eligible people in the proper 
amount. We must prevent fraud, and when it occurs, must hold 
bad actors accountable. And as a Federal oversight agency, we 
must ensure that states administer SNAP according to laws and 
regulations.
    FNS works on its own and with states to meet these 
responsibilities. The agency works closely with states to 
prevent and reduce errors at certification, through business 
process reengineering, IT improvements, and sharing best 
practices. While most such errors are just that; unintentional, 
clients who deliberately violate SNAP rules are disqualified 
and must repay the funds.
    FNS continues to investigate problems with the state-
administered quality control system identified in 2015. We 
reached agreement with the USDA's Inspector General, and we are 
proceeding to implement all recommendations from its quality 
control audit, and completed reviews of 33 state agencies. When 
all reviews are complete by December 2016, USDA will release a 
Fiscal Year 2015 error rate.
    We are also updating guidance documents and preparing 
extensive training efforts for states and for FNS staff.
    Let me underscore that the QC system problems reflect 
actions by states, not by low-income households who receive 
SNAP.
    We are relentless in the fight against trafficking; the 
illegal sale or purchase of benefits. FNS restructured our 
retailer management functions into a single centralized 
business structure to better target resources to the greatest 
risks. We use data analytics, and have updated our ALERT system 
in-line with state-of-the-art technology to better detect 
suspicious SNAP redemptions. We have implemented policies that 
combat abuse and misuse of benefits, and imposed stronger 
penalties and sanctions against violating retailers. And 
finally, we have provided resources to retailers and the 
general public about ways to fight and report program abuse.
    But both stores and participants have a role in 
trafficking, and we support states in fighting recipient 
trafficking through predictive analytics, which can be paired 
with data on retailer disqualification, and excessive card 
replacements to target those most likely to traffic. These are 
just a few examples of actions and strategies now underway.
    As a civil servant, I am happy to do my work outside of the 
spotlight. Congressional testimony is certainly a change of 
pace for me. But I am truly pleased to have the chance to talk 
with you today about the initiatives we have underway, to 
highlight the work of the hundreds of people at FNS and in the 
states around the country committed to, and involved in, 
strengthening of SNAP integrity. We focus on this work because 
it reflects the government that Americans expect and deserve, 
and because it is essential to meeting the program's mission, 
now and into the future.
    I look forward to your questions. Thank you.
    [The prepared statement of Ms. Shahin follows:]

Prepared Statement of Jessica Shahin, Associate Administrator for SNAP, 
Food and Nutrition Service, U.S. Department of Agriculture, Washington, 
                                  D.C.
    Thank you, Chairman Conaway and Ranking Member Peterson for this 
opportunity to appear before you today. I am pleased to share what we 
are doing at the Food and Nutrition Service (FNS) to protect and ensure 
the integrity of the Supplemental Nutrition Assistance Program (SNAP). 
I am the Associate Administrator for SNAP, and have been the Program's 
career Senior Executive since 2004.
    SNAP is the cornerstone of our nation's nutrition assistance safety 
net--providing access to food and lifting millions of Americans out of 
poverty as they participate. The program currently provides food 
assistance, nutrition education and work support services to 44.3 
million low-income individuals according to the most recent month of 
data. In Fiscal Year (FY) 2014, 64 percent of SNAP participants were 
children, seniors, and those with disabilities and 42 percent of SNAP 
participants lived in a household with a currently working adult. 
Census-based estimates show that among SNAP households with at least 
one working-age, non-disabled adult, more than 80 percent work in the 
year before or after receiving SNAP benefits (Rosenbaum, 2013), an 
important reflection of who participates in this important nutrition 
safety net program.
    SNAP provides critical nutrition assistance to low-income 
households. Ensuring the integrity of the program is imperative to make 
sure that this assistance remains available to the households who need 
it, and so is paramount to me personally, as well as to the Agency. We 
define integrity broadly, to include ensuring the proper amount of 
benefits go to those who are eligible; ensuring that fraud and 
trafficking does not take place, and, when it does, that bad actors are 
held accountable; and, ensuring that states administer the Program in 
accordance with rules and regulations. That is our responsibility as 
the Federal oversight agency.
    Today I will largely limit my remarks to the importance and 
activities associated with integrity and accountability. But before I 
do, I would like to make note of the core program attributes and the 
people served by this important nutrition assistance program.
    Studies have shown that participating in SNAP is associated with a 
significant decrease in food insecurity and, in turn, helps to address 
a range of negative health outcomes that are associated with food 
insecurity. SNAP lifts millions of people out of poverty. Recent Census 
data indicate that 4.7 million people, including 2.1 million children, 
were lifted out of poverty due to SNAP benefits in 2014. The impact is 
greatest for the most poor, moving 13 percent of participating 
households from below to above 50 percent of the poverty line as it 
improves their well-being with better access to food resources. The 
Supplemental Poverty Measure shows that SNAP reduced child poverty by 
almost three percentage points in 2014--the largest child poverty 
impact of any safety net program other than refundable tax credits.
    Evidence is clear that SNAP benefits increase household 
expenditures on food and reduce food insecurity. But SNAP does not just 
help relieve short-term hardship. A growing body of high-quality 
research shows that the impact of SNAP's benefits are especially 
evident and wide-ranging for those who receive food assistance as 
children. This impact extends beyond the immediate goal of alleviating 
hunger and includes improvements in short-run health and academic 
performance as well as in long-run health, educational attainment, and 
economic self-sufficiency among disadvantaged women.
    SNAP also benefits local businesses and economies through its 
countercyclical design. During economic downturns, every $1 issued in 
SNAP benefits generates up to $1.80 in economic activity. Every time a 
family or individual uses SNAP benefits to put food on the table, it 
benefits the store and the employees where the purchase was made, the 
truck driver who delivered the food, the warehouses that stored it, the 
plant that processed it, and the farmer who produced the food. In 
short, SNAP strengthens low-income individuals, their families, and 
their communities.
    SNAP operates with efficiency. Almost 95 percent of Federal SNAP 
spending goes directly to families to buy food. Most of the rest goes 
toward the Federal share of state administrative costs. Only a small 
portion goes to Federal administration, including oversight of state 
operations and monitoring of retailers that accept SNAP. Relative to 
other Federal means-tested programs, SNAP spends far less on program 
administration.
    FNS and our state partners share in the administration of SNAP, 
including ensuring integrity in the program. At USDA, we establish 
rules and regulations, provide monitoring and oversight of state 
administration of the program, pay the full cost of SNAP benefits and 
pay half of the expenses incurred by the states to administer the 
program. We also provide technical assistance to states, including 
information and guidance about the many policy options and 
flexibilities available to states through regulations and statute. 
Overall, SNAP is a program that offers a great deal of state 
flexibility through options and waivers.
    USDA takes the lead on the authorization, monitoring and oversight 
of retailers that redeem SNAP benefits--over 260,000 retailers around 
the country. On behalf of American taxpayers, we work in concert with 
the Department's Office of Inspector General (OIG) and in close 
coordination with the states that operate the program and others to 
protect the Federal investment in SNAP. We work together to make sure 
benefits are used as intended--for eligible food items. The biggest 
threat to this aspect of integrity is trafficking--the illegal sale or 
purchase of SNAP benefits for cash. FNS has focused resources at the 
doorstep of fraud and modernized our efforts using data analytics to 
root out and fight new tactics used by those who want to commit fraud. 
Retailers found trafficking are taken out of the program--permanently; 
other violations can result in monetary fines or temporary 
disqualification.
    Our state agency partners are responsible for investigating 
participant fraud and punishing those found to be trafficking. 
Punishments can include permanent disqualification and even 
prosecution. According to the latest data available, in FY 2015, states 
conducted approximately 723,000 investigations resulting in over 46,500 
disqualifications for recipient fraud and collected almost $86 million 
in fraud claims from households. The statute authorizes state agencies 
to retain 35 percent of the amount they collect on fraud claims. 
Currently, most of these claims are for fraud regarding efforts to 
collect benefits for which an individual or household is not eligible; 
however, we would like to see states focus more on the trafficking side 
as well and have developed predictive analytic models that states can 
use and are requiring stepped up reporting on anti-fraud activities to 
encourage more activity in this area.
    As vital as the program is to so many, and as well as it operates, 
we can all agree that it can do even better, and it is up to all of us, 
the Federal Government, the states, and the local providers to work 
together to improve it by holding ourselves accountable. FNS is 
committed to continually improving the integrity of SNAP. FNS has long 
recognized that SNAP cannot succeed without strong public confidence, 
so good stewardship of tax dollars is one of our most important 
objectives. That is why we continually strive to improve program 
oversight and to identify, penalize, and exclude those who seek to 
defraud the program. This is critical to preserving benefits for the 
vast majority of participants who play by the rules and need help to 
ensure their families have access to adequate and nutritious food.
    With that background on our program, let me now talk about what we 
have accomplished. FNS has succeeded in reducing trafficking from about 
four percent to 1.3 percent over the last 20 years. While the 
trafficking rate is low, and 98.7 percent of the benefits are used 
properly, we continue to focus on this vital area because, when almost 
$70 billion (in FY 2015) in taxpayer supported benefits are involved, 
continuous attention, energy and diligence is required. The following 
list describes actions taken by FNS to improve integrity related to 
retailer trafficking.

  <bullet> We have restructured our retailer management functions into 
        a single cohesive, centralized business structure that allows 
        us to better target resources to particular high-risk areas;

  <bullet> We have used data analytics to examine EBT transactions at 
        stores as well as other retailer information, to focus on the 
        stores most likely to traffic;

  <bullet> We have upgraded our Anti-fraud Locator Using Electronic 
        Benefit Transfer Retailer Transactions (ALERT) system to stay 
        in step with state of the art technology to better detect 
        suspicious SNAP redemption activity across the country;

  <bullet> FNS implemented policies that combat abuse and the misuse of 
        benefits and imposes stronger penalties and sanctions against 
        retailers who violate program rules; and

  <bullet> We have provided resources to retailers and the public about 
        ways to fight fraud and how to report abuses to help stop 
        trafficking.

    I am happy to report that our efforts, particularly those aimed at 
removing or preventing fraudulent retailers or those with other 
business integrity issues from participating in the Program, are 
working. In FY 2015, we issued sanctions against nearly 2,700 retailers 
who committed violations, reflecting an overall increase of 21 percent 
as compared to FY 2014.
    More than 1,900 stores were permanently disqualified, let me say 
again, permanently disqualified for life, one of the toughest sanctions 
in the Federal Government, for trafficking or falsifying an 
application, and over 700 stores were sanctioned for other violations 
such as the sale of ineligible items using SNAP. Our strengthened 
vetting policies and procedures have increased our ability to prevent 
the authorization of firms that attempt to circumvent SNAP's business 
integrity rules. In 2015, there was a 254 percent increase in stores 
denied SNAP participation because of problems with business integrity 
of store ownership as compared to 2010.
    Nevertheless, we continue to focus on improvement, particularly in 
the area of recipient trafficking. The Government Accountability Office 
(GAO) released a report a couple of years ago titled ``Supplemental 
Nutrition Assistance Program: Enhanced Detection Tools and Reporting 
Could Improve Efforts to Combat Recipient Fraud.'' As noted in their 
report, FNS was already working to improve tools and technical 
assistance to states in this area; however, GAO also noted more could 
be done and recommended that FNS reassess current detection tools, 
reassess current financial incentives and issue guidance to assist 
states further in their efforts to detect fraud and report on their 
efforts. FNS agreed. Indeed, we had already begun the process. FNS 
issued almost $15 million in grants to states to improve detection, 
investigation and prosecution of recipient trafficking. These projects 
focused on the use of technology and data analytics to improve and 
better track outcomes.

  <bullet> We contracted with one of the nation's premier data 
        analytics consulting firms to improve business processes in 
        this area and use cutting edge technology to build a model 
        using predictive analytics to help states more effectively 
        identify SNAP recipient trafficking. The models use a variety 
        of eligibility and transaction data, including card replacement 
        data.

  <bullet> FNS has completed studies in seven SNAP state agencies: New 
        York (Onondaga County), Pennsylvania, South Carolina, Wisconsin 
        (Milwaukee County), California (Sacramento County), and Texas.

  <bullet> The preliminary results demonstrated success so this year we 
        added four additional states Arizona, District of Columbia, 
        Utah, and Washington to share this proven data analytics model.

    Predictive data analytics, when paired with relevant information 
such as retailer disqualifications and excessive requests for card 
replacements, can be most effective in targeting the most likely 
trafficking participants. Let me highlight a couple of examples of how 
working with states, FNS has helped to reduce trafficking. Texas, my 
home state, is a state with strong controls to prevent and investigate 
recipient fraud--the state operates an in-house data analytics program 
to identify and root out potential recipient trafficking. They also 
have strong business processes around their anti-fraud activities and 
have had significant success in this area. The State of South Carolina 
is also performing strongly, with over 83 percent of its investigations 
of potential trafficking now converted into successful 
disqualifications. This represents an increase of 22 percentage points 
from the state's investigation success rate prior to using FNS's model. 
Between March 2015, when FNS implemented the model, and December 2015, 
South Carolina disqualified 185 recipients for trafficking, 
representing a cost avoidance of just over $1 million. While these are 
examples of strong state efforts in the recipient trafficking arena, 
there is still much more than can be done.
    We are revising our state reporting form to provide FNS with more 
thorough and complete information on state anti-fraud activities and 
results. With this change, we will soon be in a better position to have 
more accurate information on what states are doing to combat 
trafficking and other forms of fraud, and be able to better analyze 
trends and returns on investment in state anti-fraud activities.
    FNS has also focused on enhancing tools to help combat recipient 
trafficking. In 2015, FNS conducted a pilot in Washington State to test 
innovative strategies for investigating and preventing trafficking 
attempts of SNAP benefits through social media websites. We are using 
lessons learned from these pilots to update our guidance to states for 
effectively combating such attempts, which we expect to release later 
this year.
    We are also enhancing our work with our state partners on combating 
recipient fraud. USDA continues to establish State Law Enforcement 
Bureau (SLEB) agreements with states, harnessing their additional law 
enforcement resources. The 2014 Farm Bill strengthened our ability to 
use these relationships to maintain focus on and expand recipient 
investigations in states as well. USDA continues to refer clients with 
suspicious transaction patterns at disqualified retailers to states for 
further investigation and encourages states to use that information to 
investigate and take action against clients believed to have 
trafficked.
    There have been recent discussions on allowing states to do more in 
the retailer trafficking arena, including the possibility of states 
taking over all retailer investigative and prosecution activities. We 
are always willing to avail ourselves of state assistance with retailer 
fraud in a coordinated manner and do so through SLEB agreements. 
However, consistent with provisions of the 2014 Farm Bill, we expect 
states to focus on the recipient trafficking side before engaging in a 
significant way with retailers. As such, USDA encourages states to take 
advantage of tools USDA has made available that can assist in the 
detection, investigation and prosecution of recipient fraud. We will 
continue to improve the tools available to states, provide technical 
assistance on how to use these tools, and share promising practices. 
States must pay close attention to recipients who request multiple EBT 
replacement cards. Though there may be a perfectly reasonable 
explanation, this is an indicator of fraud in certain circumstances. In 
fact, our data analytics project found that excessive card replacement 
requests is one of the leading indicators of potential trafficking. By 
SNAP regulation, states have the option to call clients into the local 
office after the fourth request for a replacement card before issuing a 
new one; yet, to date, very few states have taken that option. States 
need to recognize the predictive value of these data and take full 
advantage of a proven successful option that is available to them.
    Another key component to effective state strategies for combating 
fraud is client education. FNS recently released an education package 
to help state agencies communicate the rules and the responsibilities 
involved with the program to participating recipients. Education such 
as this encourages voluntary compliance and prevents SNAP trafficking 
up front. In this area, as with others, states vary in their focus and 
level of effort. There is room for states to do more education about 
SNAP rules with participating households.
Other Integrity Efforts
    While cases of duplicate participation (i.e., households 
simultaneously certified for benefits in two states) are low, it is 
another issue that USDA takes very seriously. USDA supported a pilot 
project in conjunction with OMB's Partnership for Program Integrity and 
Innovation and a five state consortium to develop the National Accuracy 
Clearinghouse (NAC). The NAC established a database pilot to test a 
shared data clearinghouse that allows the pilot states to check in 
real, or near-real, time whether a SNAP applicant is already receiving 
SNAP benefits in another pilot state. The final report indicates that 
the NAC reduced duplicate participation in all five pilot states, 
though effectiveness varied by the level of automation each state was 
able to implement. Although duplicate participation is already low, 
states saw significant reductions in duplicate participation from pre-
pilot levels. FNS has urged states for a number of years to consider 
data-matching agreements with border states that have mobile 
populations and the pilot reinforces this type of data sharing. 
Massachusetts and New York are examples of states that are already 
doing this type of match via a low tech data batching approach. Other 
states could do the same.
    USDA and states have worked together for many years to reduce 
payment errors in SNAP--indeed, improper payments in SNAP are among the 
lowest in the Federal Government. Improper payments are different from 
fraud--the vast majority of improper payments, including both over-
payments and under-payments, are the result of mistakes on the part of 
states administering the program and households applying for or 
participating in the program.
    Our efforts to improve SNAP program integrity while ensuring access 
to benefits for people in need of food assistance rely on a strong 
partnership between FNS and our State Agency partners. We have worked 
together to strengthen the ability of states to correctly determine 
eligibility and benefit amounts through policy simplification, improved 
use of technology, and business process reengineering.
    The primary way we work with states to identify and reduce payment 
errors is through the SNAP Quality Control (QC) system. QC is the 
process by which states review a sample of SNAP cases and determine the 
states' rates of improper payments--both over- and under-payments--on 
an annual basis. These rates are then aggregated into the national 
error rate for SNAP and used to determine state bonuses and liabilities 
for payment accuracy. FNS also reviews a sample of the state files to 
provide oversight of states' QC processes.
    To be clear, when we are talking about error rates, we are talking 
about measuring proper administration of the program, including whether 
the program's administrative processes correctly determine eligibility 
and compute benefits for those households found eligible. Most errors 
stem from unintentional mistakes on the part of the state agency or the 
household, not fraud. The majority of the errors (62 percent) are State 
Agency errors, while 38 percent are client errors. If an improper 
payment is determined to be an intentional program violation on the 
part of the client, they are disqualified from the program and must pay 
the funds back to the government.
    In FY 2015, USDA began a process to assess and implement a thorough 
review of the SNAP QC system in all 53 states to ensure state 
administration of SNAP was in line with Federal rules and regulations. 
We have completed reviews of 33 state agencies and will complete all 
reviews by December 2016, at which time USDA will release an updated 
SNAP error rate for FY 2015. In states where problems with the QC 
system are found, USDA requires states to take immediate corrective 
action and USDA will provide close oversight to ensure these actions 
are taken.
    The ongoing review is part of an effort to ensure state compliance 
with Federal rules and regulations related to the reporting of improper 
payments and to ensure accountability to the taxpayers who support this 
important nutrition program. The ongoing reviews look at both 
intentional and unintentional state non-compliance in the QC process, 
such as states misinterpreting FNS QC requirements or providing 
inadequate oversight of the state QC review process or a lack of 
cooperation with FNS QC monitoring efforts. Let me be clear, the 
quality control issues we have found in some states reflect actions by 
states, not by low-income households participating in SNAP.
    We take our oversight responsibility seriously and, while the 
reviews continue, USDA is working internally and with states to ensure 
all processes are fully up to date and consistent with Federal 
guidelines as well as recommendations from the USDA Office of Inspector 
General audit published September 30, 2015, which raised a number of 
issues with state administration of the quality control system. I am 
pleased to report that we now have reached agreement on all 19 audit 
recommendations from the OIG report.
    USDA has a responsibility in the QC process and FNS will implement 
additional activities within the next 90 days to both improve state QC 
operations and to ensure that FNS's oversight of QC systems is robust. 
This includes establishing a new national QC training curriculum which 
we will use to train QC staff over the next 6 months, revising FNS' QC 
policy guidance to clarify rules and procedures, and developing a new 
QC integrity management evaluation guide that FNS oversight staff will 
use to regularly re-assess state operations. USDA will also strengthen 
the current training of Federal QC reviewers through development of a 
policy-focused curriculum that will be completed by the end of the 
fiscal year.
Conclusion
    Proper stewardship of Federal funds is intrinsically linked to 
constant and vigilant attention to program integrity and proper 
implementation of our role in oversight and monitoring of state program 
operations. And although the vast majority of those involved with SNAP, 
recipients as well as retailers, are honest and abide by the rules, we 
cannot accept or tolerate any fraud or abuse. The nation entrusts us--
USDA and our partner states--to administer SNAP, a program funded by 
the American taxpayer with accountability and integrity. Americans 
expect and deserve a government that ensures their tax dollars are 
managed efficiently and with integrity. To sustain public confidence in 
these programs, we must meet this expectation.
    FNS will continue to pay close attention to these issues and to act 
to reduce fraud and improper payments. We will continue to work with 
states, to ensure they take the actions necessary to protect the 
integrity of this critical program. We are stepping up our Federal 
efforts to combat retailer fraud and to ensure that state procedures 
are in line with all Federal requirements. I speak for all of my 
colleagues at FNS when I say that ensuring that SNAP meets the highest 
standards of integrity is a top priority and central to our efforts to 
ensure that those who need help affording food get the help they need. 
I appreciate the Committee's interest in promoting and improving SNAP 
integrity, and I look forward to working with this Committee and 
Congress to keep public confidence in this vital program. I would be 
happy to answer any questions you may have at this time.

    The Chairman. Ms. Brown, 5 minutes.

STATEMENT OF KAY E. BROWN, DIRECTOR, EDUCATION, WORKFORCE, AND 
    INCOME SECURITY, U.S. GOVERNMENT ACCOUNTABILITY OFFICE, 
                        WASHINGTON, D.C.

    Ms. Brown. Chairman Conaway, Ranking Member Peterson, and 
Members of the Committee, I am pleased to be here today to 
discuss our work on error rates and fraud in SNAP. My remarks 
are based on our recently completed work on program policies 
that can affect the error rate, and our 2014 report on fraud by 
SNAP recipients.
    First, on how SNAP policies can affect program error rates. 
Since 1977, USDA's quality control system has provided an 
estimate of SNAP benefits that were paid either in the wrong 
amounts, or to persons not eligible to receive them. This error 
rate also serves as the program's improper payment rate, which 
is reported to OMB annually. In recent years, this SNAP error 
rate has been on a mostly downward trend, and has reached all-
time lows. However, OMB still considers SNAP a high error 
program. Because it is so large, even a 3.7 percent error rate 
in 2014 resulted in $2.6 billion in improper payments.
    These improper payments can be caused by either the 
applicant or the caseworker. Many factors must be considered 
when determining eligibility, creating multiple opportunities 
for error. And the most common source of error is determining 
the applicant's income. We found that when states adopted 
options or waivers that simplified program requirements, such 
as when to report income changes, these actions likely 
contributed to a decline in payment errors. Most, but not all, 
of the options and waivers we reviewed had this likely effect.
    On the other hand, a few program changes likely led to an 
increase in the error rate; notably the threshold tolerance 
level changed from $50 to $37 in 2014. This is the dollar 
amount below which errors are not included in the error rate 
calculation. What this means is that when the threshold was 
$50, a monthly benefit error of $40 would not have been counted 
in the error rate calculation, but when the threshold was 
changed to $37, that same $40 error would have been counted in 
the calculation because it exceeded the threshold. USDA 
reported that this threshold change increased the error rate 
for 2014.
    In our review, we also compared the methodology for 
calculating the SNAP error rate with that of three other 
programs for low-income families; SSI, Medicaid, and EITC. We 
found some similarities and some differences in how reviews of 
cases were conducted, and which cases were factored into the 
error rate calculation. And, for example again, SNAP was the 
only program that had an error tolerance threshold.
    I should mention that we just recently learned that USDA 
would not be releasing its 2015 error rate on time, and is in 
the process of reviewing all state quality control systems, 
stemming from a review by USDA's Office of the Inspector 
General. This raises some concerns about the integrity of how 
the quality control process is implemented, and we look forward 
to learning more about the results of the state reviews and the 
effect on the national error rate.
    Turning now to recipient fraud. This can occur when 
applicants provide false or misleading information to obtain 
benefits, or when recipients misuse benefits by exchanging them 
for cash or nonfood goods or services, known as trafficking. We 
studied the efforts of 11 selected states to address recipient 
fraud, and found that most of the states had difficulties 
conducting fraud investigations, particularly in light of the 
growth in the number of participants at that time. Also, the 
resources states dedicated to their investigative units varied 
widely. We recommended that USDA reassess its financial 
incentives for state anti-fraud efforts.
    We also found that the tools USDA recommended states use to 
detect online trafficking were of limited use. USDA's guidance 
on recipients who requested multiple EBT cards did not 
necessarily help states detect whether this involved fraud, and 
states were not submitting reliable data on their anti-fraud 
activities due to unclear reporting guidance. We made 
recommendations in each of these areas and USDA is taking steps 
to address them, but has yet to finalize action on any of them.
    In conclusion, SNAP provides important benefits to 
millions. Given the significant size of the program and the 
reality of constrained public resources, it is vital that USDA 
make every effort to make sure SNAP benefits are paid 
accurately, and the funds are used for their intended purpose.
    This concludes my statement. I am happy to answer any 
questions you have.
    [The prepared statement of Ms. Brown follows:]

Prepared Statement of Kay E. Brown, Director, Education, Workforce, and 
  Income Security, U.S. Government Accountability Office, Washington, 
                                  D.C.
Supplemental Nutrition Assistance Program_Policy Changes and 
        Calculation Methods Likely Affect Improper Payment Rates, and 
        USDA Is Taking Steps to Help Address Recipient Fraud
GAO Highlights
Why GAO Did This Study
    In Fiscal Year 2015, SNAP, the nation's largest nutrition 
assistance program, provided about 46 million low-income people with 
$70 billion in benefits. USDA and the states partner to operate the 
program and address issues that affect program integrity, including 
improper payments and fraud.
    This testimony summarizes GAO's recently completed work on SNAP 
improper payment rates and GAO's 2014 report on recipient fraud. It 
addresses: (1) the effects of SNAP policies on the rates; (2) how the 
SNAP improper payment rate calculation methodology compares to those of 
other Federal programs for low-income individuals; and (3) GAO's 2014 
findings on efforts to combat SNAP recipient fraud. GAO reviewed 
relevant Federal laws, regulations, guidance, documents, and program 
data; interviewed relevant Federal officials; and gathered information 
from states. For the 2014 report, GAO also interviewed officials from 
11 states that served about \1/3\ of all SNAP recipient households, 
though GAO's results are not generalizable to all states. This 
testimony also includes USDA's actions to date on GAO's 2014 
recommendations.
What GAO Recommends
    In 2014, GAO recommended that USDA take several steps to improve 
state financial incentives, fraud detection tools, and reporting 
methods. USDA agreed with these recommendations and has taken some 
steps to address them. GAO is not making new recommendations at this 
time.
    View GAO-16-708T (http://www.gao.gov/products/GAO-16-708T). For 
more information, contact Kay E. Brown at (202) 512-7215 or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5d3f2f322a3336381d3a3c32733a322b73">[email&#160;protected]</a>
What GAO Found
    Over the last 10 years, the U.S. Department of Agriculture (USDA) 
has reported that improper payment rates for the Supplemental Nutrition 
Assistance Program (SNAP) have ranged from an estimated 5.8 percent to 
3.2 percent of all payments, likely reflecting, in part, certain policy 
changes and calculation methods. Many factors affect low-income 
households' eligibility for SNAP and the amount of benefits they 
receive, creating multiple opportunities for errors in the eligibility 
determination process conducted by states. However, GAO found that 
certain state or Federal program changes can affect the likelihood of 
these errors. For example, when states adopted available policy 
flexibilities that simplified or lessened participant reporting 
requirements, these changes reduced the opportunity for error and led 
to a decline in the improper payment rate, according to a USDA study. 
Conversely, other changes may have led to an increase in the improper 
payment rate. USDA cited the change from only counting errors over $50 
in the rate to counting all errors over $37 as a key factor in an 
increase in the rate in Fiscal Year 2014.
    SNAP's improper payment rate calculation methodology is generally 
similar to that used by other large Federal programs for low-income 
individuals, including Medicaid, the Earned Income Tax Credit, and 
Supplemental Security Income (SSI), though some differences may affect 
the resulting program improper payment rates. To generate improper 
payment rates, all four programs draw representative samples of their 
recipients and report their improper payment rates at high levels of 
precision. Yet, some methodological differences among the programs 
likely affect the resulting rates. For example, when there is 
insufficient information to review eligibility and benefit 
determination for a selected case under review, Medicaid counts the 
full benefit amount as an error, SNAP makes an adjustment in the 
improper payment rate calculation but does not include the full benefit 
amount as an error, and SSI removes such cases entirely from the 
sample.
    Fraud is also a key indicator of program integrity, and in 2014, 
GAO found that selected states employed a range of tools to detect 
potential SNAP recipient fraud, though they faced some challenges. 
Recipient fraud can occur when applicants make false or misleading 
statements to obtain benefits or when recipients misuse benefits by 
exchanging them for cash or non-food goods or services. All 11 selected 
states that GAO reviewed matched information provided by SNAP 
applicants and recipients against various data sources to check for 
accuracy, but efforts varied widely among these states. Some states 
suggested changing the financial incentive structure to promote fraud 
investigations. Some states also reported limitations of USDA's 
required approach to monitoring benefit card replacements, and GAO 
developed a more targeted approach by combining data sources to 
identify households potentially engaged in trafficking. In addition, 
although USDA had increased its oversight of state anti-fraud 
activities since Fiscal Year 2011, GAO found that USDA did not have 
consistent and reliable data on states' activities because its 
reporting guidance lacked specificity. This limited USDA's ability to 
monitor states and find more effective ways to combat recipient fraud.

    Chairman Conaway, Ranking Member Peterson, and Members of the 
Committee:

    Thank you for the opportunity to discuss our work on improper 
payments and fraud in the U.S. Department of Agriculture's (USDA) 
Supplemental Nutrition Assistance Program (SNAP), previously known as 
the Food Stamp Program. During Fiscal Year 2015, SNAP provided food and 
nutrition assistance to almost 46 million individuals for a total of 
approximately $70 billion in benefits for the year. SNAP benefits are 
provided to low-income households; state agencies administer the 
program to assess applicants' eligibility and determine benefit 
amounts. Because many factors affect eligibility and benefit 
determination, there are multiple opportunities for errors to occur in 
this process that may result in improper payments. Improper payments 
are payments to individuals that were made in an incorrect amount or 
should not have been made at all, including both overpayments and 
underpayments. Improper payments may be caused by caseworker or 
participant errors. The Office of Management and Budget (OMB) has 
designated SNAP as a high-error program due to the estimated dollar 
amount in improper payments. Specifically, for SNAP payments made in 
Fiscal Year 2014, USDA reported in its Fiscal Year 2015 agency 
financial report that $2.6 billion, or 3.66 percent of all payments 
were improper.\1\ Other large Federal programs for low-income 
individuals, such as the Earned Income Tax Credit (EITC), Medicaid, and 
Supplemental Security Income (SSI), currently report improper payment 
rates greater than SNAP's rate.
---------------------------------------------------------------------------
    \1\ USDA, Agency Financial Report: Creating a USDA for the 21st 
Century, Fiscal Year 2015.
---------------------------------------------------------------------------
    In addition, while some SNAP participants make unintentional errors 
that result in improper payments, others make intentional errors or 
misuse their benefits, practices which are considered fraud. USDA's 
Food and Nutrition Service (FNS), in partnership with state agencies, 
is tasked with establishing the proper agency controls that help ensure 
SNAP program funds are used for their intended purpose. However, FNS 
program officials have had long-standing concerns that some recipients 
can falsify information to receive benefits, or misuse their benefits 
to solicit or obtain non-food goods, services, and cash--a practice 
known as trafficking.
    SNAP fraud is also committed by retailers approved to accept SNAP 
benefits who engage in trafficking. State agencies are directly 
responsible for detecting, investigating, and prosecuting recipient 
fraud, and FNS is responsible for pursuing retailer fraud. SNAP fraud 
committed by recipients and retailers undermines the integrity of the 
program and the public's confidence in the program.
    My testimony today summarizes the results of our recently completed 
work on SNAP improper payment rates and our 2014 report on recipient 
fraud. Specifically, I will discuss: (1) the effects of SNAP policies 
on the improper payment rates; (2) how the SNAP improper payment rate 
calculation methodology compares to those of other Federal programs for 
low-income individuals; and (3) our 2014 findings on efforts to combat 
SNAP recipient fraud.
    For our recently completed work on SNAP improper payment rates, we 
reviewed relevant Federal laws and regulations, as well as USDA policy 
memos that provided SNAP policy guidance to states.\2\ We also reviewed 
state SNAP waivers approved by USDA and state policy options.\3\ To 
assess change over time, we analyzed states' adoption of certain 
options since 2003 that have the potential to affect a large portion of 
the eligible population.\4\ To assess the expected effect of policy 
changes on the SNAP improper payment rate, we reviewed prior GAO work, 
and FNS and USDA Office of Inspector General (OIG) documents, that 
describe the characteristics of policies that may affect the improper 
payment rate.\5\
---------------------------------------------------------------------------
    \2\ We reviewed SNAP policy guidance issued to states from Fiscal 
Year 2006 through Fiscal Year 2015.
    \3\ State policy options are flexibilities set forth in Federal law 
or regulation that permit states to use alternative procedures when 
administering their SNAP program. We reviewed USDA's SNAP Certification 
Policy Waiver Database (updated as of March 2016) and state options 
identified in USDA's SNAP State Options Report for September 2013 (a 
state options report with information as of October 2015 was 
subsequently released, after we had completed our review). See Appendix 
I for more information on state flexibilities.
    \4\ To assess change over time, we also analyzed states' adoption 
of certain options from May 2003 to September 2013, that have the 
potential to affect a large portion of the eligible population, for 
example, by affecting reporting requirements or income eligibility 
guidelines. Such options include simplified reporting, broad-based 
categorical eligibility, and the simplified standard utility allowance.
    \5\ We also reviewed our prior work and USDA reports issued since 
2004 that analyzed the effect of certain state flexibilities on 
improper payment rates.
---------------------------------------------------------------------------
    We analyzed which Federal and state policy changes had these 
characteristics, and then we assessed the likely cumulative expected 
directional effect of each policy on the improper payment rate. To 
obtain information on states' opinions regarding SNAP changes and other 
factors that may have affected SNAP improper payment rates, we 
administered a questionnaire by e-mail to state SNAP directors of all 
50 states and the District of Columbia from February through May 2016. 
Where necessary, we followed up with states to clarify their responses 
and obtained a 100 percent response rate. While we did not validate 
specific information administrators reported through our survey, we 
reviewed their responses and conducted follow-up, as necessary, to 
determine that their responses were complete, reasonable, and 
sufficiently reliable for the purposes of this statement.\6\ To compare 
SNAP's improper rate calculation methodology to other means-tested 
programs, we selected three Federal programs for low-income 
individuals: EITC, Medicaid,\7\ and SSI. These programs, together with 
SNAP, comprise almost \2/3\ of Federal low-income obligations, and 
together encompass both state and federally administered programs. Like 
SNAP, these programs are also included in the Federal Government's 
Payment Accuracy website's high improper payment programs list.\8\ For 
each of the programs, we reviewed the relevant agency financial 
reports, program data, and program documents, as well as relevant OIG 
reports and GAO reports, and we interviewed program officials involved 
with improper payment rate calculation.
---------------------------------------------------------------------------
    \6\ Also, as part of our survey development, we pre-tested the 
questionnaire with four states and had internal and external experts 
review it, and incorporated comments as appropriate.
    \7\ The Department of Health and Human Services (HHS) measures and 
reports Medicaid improper payments in three component areas: fee-for-
service claims, managed care, and eligibility. For the purposes of this 
report, we reviewed the eligibility component's improper payment rate 
methodology. HHS's Centers for Medicare and Medicaid Services (CMS) 
recently proposed changes to the calculation of Medicaid improper 
payments rates. Medicaid/CHIP Program; Medicaid Program and Children's 
Health Insurance Program (CHIP); Changes to the Medicaid Eligibility 
Quality Control and Payment Error Rate Measurement Programs in Response 
to the Affordable Care Act., 81 Fed. Reg. 40596 (proposed June 22, 
2016). These proposed changes were outside the scope of our review.
    \8\ We have also included these programs in our prior work that 
identifies high improper payment programs. See, GAO, Fiscal Outlook: 
Addressing Improper Payments and the Tax Gap Would Improve the 
Government's Fiscal Position, GAO16-92T, (Washington, D.C.: October 1, 
2015).
---------------------------------------------------------------------------
    For our 2014 report, we focused on Federal and state efforts to 
combat SNAP recipient fraud for Fiscal Years 2009 to 2014.\9\ We 
reviewed relevant Federal laws, regulations, program guidance and 
reports, and we interviewed FNS officials in headquarters and all seven 
regional offices. We also interviewed knowledgeable state and local 
officials about their recipient anti-fraud work and obtained related 
documentation in 11 states.\10\ Further, we took steps to assess the 
use of monthly benefit data and website monitoring tools to detect 
potential SNAP fraud. More detailed information about our objectives, 
scope, and methodology can be found in our issued report. This 
testimony also includes updates on the status of our recommendations 
from the 2014 report, as of June 2016, which were obtained by 
contacting agency officials and reviewing relevant documents.\11\ We 
shared a draft of this statement with the relevant agencies and 
incorporated technical comments as appropriate.
---------------------------------------------------------------------------
    \9\ See GAO, Supplemental Nutrition Assistance Program: Enhanced 
Detection Tools and Reporting Could Improve Efforts to Combat Recipient 
Fraud, GAO-14-641 (http://www.gao.gov/products/GAO-14-641) (Washington, 
D.C.: August 21, 2014).
    \10\ The 11 states in our review were: Florida, Maine, 
Massachusetts, Michigan, Nebraska, New Jersey, North Carolina, 
Tennessee, Texas, Utah, and Wyoming. The states served about \1/3\ of 
all SNAP recipient households, though our results are not generalizable 
to all states. We chose these states to achieve variation in geographic 
location, and a mix of high, medium and low SNAP improper payment 
rates, percent of the total number of SNAP households nationwide, and 
proportion of recipients whom state officials reported as disqualified 
from the program due to non-compliance.
    \11\ See GAO, Supplemental Nutrition Assistance Program: Enhanced 
Detection Tools and Reporting to Combat Recipient Fraud Are in 
Development, GAO-16-719T (http://www.gao.gov/products/GAO-16-719) 
(Washington, D.C.: June 9, 2016.)
---------------------------------------------------------------------------
    The work upon which this statement is based was in accordance with 
generally accepted government auditing standards. Those standards 
require that we plan and perform the audit to obtain sufficient, 
appropriate evidence to provide a reasonable basis for our findings and 
conclusions based on our audit objectives. We believe that the evidence 
obtained provides a reasonable basis for our findings and conclusions 
based on our audit objectives.
Background
    SNAP, formerly known as the Federal Food Stamp Program, is intended 
to help low-income individuals and families obtain a better diet by 
supplementing their income with benefits to purchase food. The Federal 
Government pays the full cost of SNAP benefits and shares the costs of 
administering the program with the states.\12\ FNS is responsible for 
promulgating program regulations, ensuring that state officials 
administer the program in compliance with program rules, and 
authorizing and monitoring retailers who accept SNAP benefits in 
exchange for food. The states administer the program by determining 
whether households meet the program's eligibility requirements, 
calculating the amount of their monthly benefits, and issuing benefits 
on Electronic Benefit Transfer (EBT) cards, as well as investigating 
possible program violations by benefit recipients.
---------------------------------------------------------------------------
    \12\ For purposes of SNAP, states include the 50 states, the 
District of Columbia, Guam, the U.S. Virgin Islands, and reservations 
of Indian Tribes who meet the requirements for participating as a state 
agency.
---------------------------------------------------------------------------
Determination of Eligibility and Benefits
    A household's eligibility for participation in SNAP is determined 
based on basic, non-financial, program requirements and the income and 
resources of its members. Non-financial program requirements include 
such things as residency and citizenship status. To determine financial 
eligibility, the caseworker first calculates the household's gross 
income, which generally cannot exceed 130 percent of the Federal 
poverty guidelines (100 percent of the poverty guidelines in certain 
circumstances). Then the caseworker determines the household's net 
income, which generally cannot exceed 100 percent of the poverty 
guidelines. Net income is determined by deducting certain expenses from 
gross income, such as dependent care costs, medical expenses, utilities 
costs, and shelter expenses. Information on the household's resources 
(such as bank accounts and certain vehicles) may also be collected to 
assess whether these exceed defined limits. The net monthly income 
amount is then used in determining the household's benefit amount, 
subject to maximum benefit limits.\13\ After eligibility is 
established, households are certified to receive benefits for periods 
ranging from 1 to 24 months depending upon household circumstances. 
Once the certification period ends, there is a recertification process 
whereby households reapply for benefits, at which time eligibility and 
benefit levels are redetermined.
---------------------------------------------------------------------------
    \13\ FNS sets the SNAP maximum monthly benefit by household size. 
The maximum monthly benefit in Fiscal Year 2016 for a household of 
three is $511 for the 48 contiguous states and the District of 
Columbia. Guam, the U.S. Virgin Islands, Alaska and Hawaii have higher 
maximum monthly benefit levels.
---------------------------------------------------------------------------
State Options and Waivers
    While many of the rules governing SNAP are set at the Federal level 
and apply uniformly in all states, states are also allowed flexibility 
in establishing some state-specific policy modifications through the 
use of options and waivers. SNAP's statutes and regulations provide 
state agencies with various policy options. In contrast, waivers 
require states to obtain FNS's permission before they are implemented. 
According to USDA, states adopt these flexibilities to better target 
benefits to those most in need, streamline program administration and 
operations, and coordinate SNAP with other programs. For example, one 
state option pertaining to reporting requirements, called simplified 
reporting, only requires households to report changes when their income 
rises above a certain level. In contrast, households for which this 
option does not apply are required to report changes more frequently. 
Another state option, broad-based categorical eligibility (BBCE), 
allows states to make households that receive non-cash services funded 
by Temporary Assistance for Needy Families (TANF), such as a toll-free 
number to obtain program information or an informational brochure, 
automatically eligible for SNAP.\14\ Through this option, the TANF non-
cash service income and asset requirements become those relevant for 
SNAP, which we previously reported, resulted in some states effectively 
removing or increasing SNAP asset limits, raising the SNAP gross income 
limit, and removing the SNAP net income limit.\15\
---------------------------------------------------------------------------
    \14\ The TANF block grant, which is administered by HHS, provides 
Federal funding to states, which they are required to supplement with 
their own funds, to provide cash assistance and a variety of other 
benefits and services to meet the needs of low-income families with 
children.
    \15\ GAO, Supplemental Nutrition Assistance Program: Improved 
Oversight of State Eligibility Expansions Needed, GAO-12-670 (http://
www.gao.gov/products/GAO-12-670) (Washington, D.C.: July 26, 2012).
---------------------------------------------------------------------------
SNAP Improper Payment Rates
    According to USDA, for the most recent 10 years for which there are 
SNAP improper payment rate estimates available (for benefits paid in 
Fiscal Years 2005-2014), the national SNAP improper payment rate, 
combining both overpayments and underpayments, has declined or stayed 
the same in all but Fiscal Year 2014, as shown in Figure 1. For 
benefits paid in Fiscal Year 2014--the most recent year for which data 
are available--the rate increased to 3.66 percent from a low of 3.20 
percent in Fiscal Year 2013. State-specific improper payment rates 
varied among states; for example, in Fiscal Year 2014, states' improper 
payment rates ranged from 0.42 percent to 7.61 percent.
Figure 1: SNAP U.S. Estimated Improper Payment Rate for Benefits Paid 
        in Fiscal Years 2005-2014
Percentage of Supplemental Nutrition Assistance Program (SNAP) Benefits
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Source: U.S. Department of Agriculture (USDA) data.DGAO-16-
        708T.
          Note: Improper payment rate estimates shown in this figure 
        for Fiscal Years 2007-2014 have a margin of error no greater 
        than plus or minus 0.33 percentage points at the 95 percent 
        level of confidence. Confidence level and margin of error 
        information were not available from USDA's Performance and 
        Accountability Reports for Fiscal Years 2005 and 2006.
          For purposes of government-wide reporting, such as at the 
        Federal Government's Payment Accuracy website, SNAP's improper 
        payment rates may be reflected as the fiscal year in which they 
        are reported in the USDA agency financial report, not the year 
        in which benefits were paid.

    According to USDA, SNAP improper payments are caused by variances 
in any of the key factors involved in determining SNAP eligibility and 
benefit amounts, and household income was the most common primary cause 
of dollar errors; accounting for more than half of the variances for 
improper payments in Fiscal Year 2013.\16\ A variance occurs when a 
quality control reviewer finds the incorrect application of policy, the 
basis of issuance is incorrect, or there is a difference between the 
information that was used and the information that should have been 
used to determine a household's monthly SNAP benefit amount. Cases may 
have multiple variances that result in benefit errors. Further, SNAP 
errors result from administrative as well as recipient errors. In 
Fiscal Year 2013, USDA reported that 62.44 percent of errors were 
because of administrative errors by the state agencies, and 37.27 
percent of errors were because of recipient errors. Some of the errors 
may be attributable to recipient fraud; however, the magnitude of such 
program abuse is unknown.
---------------------------------------------------------------------------
    \16\ Fiscal year 2013 is the latest year for which this information 
is available. Income variances accounted for 57 percent of improper 
payment cases, while deduction variances accounted for 27 percent, non-
financial variances for 14 percent, and income and other variances each 
at one percent.
---------------------------------------------------------------------------
Quality Control System
    In response to a requirement in Federal law, FNS developed its 
original quality control process for SNAP in 1977 to track and measure 
errors in both eligibility and benefit determinations for the program. 
According to FNS officials, each month, a state's SNAP quality control 
staff selects for review a representative sample of households that 
received SNAP benefits.\17\ The quality control staff review each 
sample case, both by reviewing the recipient household's file and 
contacting the recipient, to verify whether the recipient's eligibility 
and benefit amount were determined correctly. If the reviewer finds 
that someone was incorrectly deemed eligible, the entire amount of the 
benefit is counted as an error. If the reviewer finds that the benefit 
amount provided to the recipient differs from the correct benefit 
amount by more than a specified dollar amount, $37 in Fiscal Year 2014, 
the difference between the amount disbursed and the correct amount is 
counted as an error. Cases that are identified as ``not subject to 
review'' or that the reviewer cannot complete, such as those for which 
the reviewer is unable to establish contact with the recipient or 
verify income information, are removed from the sample. The statewide 
sample is designed to produce a valid statewide improper payment rate, 
which is the sum of the overpayments and underpayments divided by the 
value of all payments.\18\ Some of these erroneous payments may be due 
to fraud, but others may be due to unintentional caseworker or 
participant error.
---------------------------------------------------------------------------
    \17\ Closed cases for which benefits were denied, suspended, or 
terminated are also sampled and reviewed and an error rate is 
determined for such cases. This error rate is termed the Case and 
Procedural Error Rate (CAPER). This statement focuses on active case 
errors, and not CAPER.
    \18\ However, in an OIG report published in September 2015, the OIG 
noted that the application of the methodology for estimating FNS' SNAP 
improper payment rate needed improvement. The OIG found that states 
weakened the quality control process by using third-party consultants 
and error review committees to mitigate individual quality control-
identified errors, rather than improve eligibility determinations; and 
quality control staff also treated error cases non-uniformly. The OIG 
concluded that FNS' quality control process may have understated SNAP's 
improper payment rate. USDA, Office of Inspector General, FNS Quality 
Control Process for SNAP Error Rate, September 2015.
---------------------------------------------------------------------------
    FNS regional offices are to approve the states' sampling plans, 
validate the states' samples, and review a subsample of the states' 
reviews to ensure accuracy. They also are to handle informal resolution 
discussions with states regarding disputes resulting from differences 
between the state and FNS reviews. Disputes that are not resolved 
informally can be appealed to FNS for arbitration. According to FNS 
officials, upon the completion of this process, the improper payment 
rates are adjusted to reflect the final results. FNS makes a further 
adjustment of a state's error rate if more than two percent of the 
state's cases selected for review could not be completed. FNS then 
combines the adjusted states' improper payment rates, weighting each 
state's improper payment rate by its actual caseload, to determine a 
national improper payment rate.
    Once the Federal adjustments are made to states' error rates, FNS 
imposes penalties or provides bonuses to certain states based on 
various measures related to states' payment accuracy and other 
measures.\19\
---------------------------------------------------------------------------
    \19\ In addition to payment accuracy measures, bonuses are given 
for states' rates of improper denials, suspensions, and terminations; 
states' level of program access; and states' application processing 
timeliness.
---------------------------------------------------------------------------
    In 2015, USDA began a review of state quality control systems in 
all states in response to a report from its OIG that identified 
concerns in the application of the quality control process. On June 24, 
2016, USDA notified the states that it had completed reviews in 33 
states and expected to complete the remaining reviews no later than 
December 31, 2016, at which time it would release a national error rate 
for payments made in Fiscal Year 2015. In its letter to state 
officials, USDA explained that the ongoing review is looking at both 
intentional and unintentional non-compliance in the quality control 
process by states, such as misinterpreting FNS requirements or 
providing inadequate oversight of the quality control review process 
itself. States will receive a written report documenting any violations 
and outlining required corrective action steps, according to USDA. The 
effect of these ongoing reviews on the SNAP error rates is unknown at 
this time.
SNAP Fraud
    FNS and state agencies are both responsible for addressing SNAP 
fraud. Acts of SNAP fraud include recipients making false or misleading 
statements in order to obtain benefits, as well as recipients and 
retailers engaging in SNAP trafficking--using benefits in unallowable 
ways, such as by exchanging benefits for cash or non-food goods and 
services, or attempting to do so. State agencies are directly 
responsible for detecting, investigating, and prosecuting recipient 
fraud, and FNS is responsible for providing guidance and monitoring 
these state activities. FNS also investigates and resolves cases of 
retailer fraud.
    According to a September 2012 USDA OIG report, the magnitude of 
program abuse due to recipient fraud is unknown because states do not 
have uniform ways of compiling the data that would provide such 
information.\20\ As a result, the USDA OIG recommended that FNS 
determine the feasibility of creating a uniform methodology for states 
to calculate their recipient fraud rate. FNS reported that it took 
action on this recommendation, but ultimately determined that it would 
be infeasible to implement as it would require legislative authority 
mandating significant state investment of time and resources in 
investigating, prosecuting and reporting fraud beyond current 
requirements.
---------------------------------------------------------------------------
    \20\ USDA OIG, Analysis of FNS' Supplemental Nutrition Assistance 
Program Fraud Prevention and Detection Efforts. Audit Report 27002-
0011-13 (Washington, D.C.: Sept. 28, 2012).
---------------------------------------------------------------------------
Other Federal Programs for Low-Income Individuals
    We have reported that Medicaid, SSI, and the EITC, together with 
SNAP, comprise almost \2/3\ of Federal low-income obligations.\21\ 
These programs for low-income individuals, along with SNAP, are 
included in the Federal Government's Payment Accuracy website list of 
programs with high improper payments reported to OMB.
---------------------------------------------------------------------------
    \21\ See GAO, Federal Low-Income Programs: Multiple Programs Target 
Diverse Populations and Needs, GAO-15-516 (http://www.gao.gov/products/
GAO-15-516) (Washington, D.C.: July 30, 2015).

  <bullet> Medicaid is administered by the Department of Health and 
        Human Services' (HHS) Centers for Medicare & Medicaid Services 
        (CMS) in partnership with the states, and it finances health 
        insurance coverage for certain low-income individuals, 
        children, and families. The Medicaid program also provides 
        long-term care services and support to individuals who meet 
        certain financial and functional criteria. HHS measures and 
        reports Medicaid improper payments in three component areas: 
        fee-for-service claims, managed care, and eligibility. For the 
        purposes of this statement, we reviewed the eligibility 
        component's improper payment rate.\22\
---------------------------------------------------------------------------
    \22\ CMS recently proposed changes to the calculation of Medicaid 
improper payment rates. Medicaid/CHIP Program; Medicaid Program and 
Children's Health Insurance Program (CHIP); Changes to the Medicaid 
Eligibility Quality Control and Payment Error Rate Measurement Programs 
in Response to the Affordable Care Act., 81 Fed. Reg. 40596 (proposed 
June 22, 2016). These proposed changes were outside the scope of our 
review.

  <bullet> SSI, administered by the Social Security Administration 
        (SSA), provides monthly cash assistance benefits to elderly 
        individuals, as well as blind or disabled adults and children, 
---------------------------------------------------------------------------
        who have limited income and resources.

  <bullet> EITC, administered by the Internal Revenue Service (IRS), 
        provides a tax credit to low-income Americans who work and 
        claim the EITC on their tax returns. Because the EITC is a 
        refundable tax credit, the amount claimed by the taxpayer as a 
        refund can exceed the taxpayer's income tax liability.
States' Adoption of Program Flexibilities and Changes in Federal Policy 
        Likely Affected Payment Errors
States' Adoption of Certain Program Flexibilities Likely Reduced 
        Payment Errors, Due in Part to Simplified Program Requirements
    The majority of state SNAP policy flexibilities allowed under 
Federal statutes and regulations, likely reduced payment errors by 
simplifying program requirements or modifying procedures, based on our 
review of these policies.\23\ For example, flexibilities that 
simplified program requirements allowed states to require less 
information from applicants and participants for eligibility and 
benefit determination, resulting in less processing for caseworkers and 
reduced opportunities for participants and caseworkers to make errors. 
State flexibilities that simplified program policies or procedures 
therefore may have contributed to decreases in the SNAP improper 
payment rate, though the rate was likely affected by additional factors 
as well, such as changes in the number of SNAP applicants and 
participants and state staffing levels.\24\ Further, the state 
flexibilities likely had other effects on the program, according to 
USDA officials, because states adopt flexibilities to better target 
benefits to those most in need, streamline program administration and 
operations, and coordinate SNAP with other programs. As shown in Figure 
2, of the 33 state flexibilities we reviewed, 17 likely reduced the 
potential for error.\25\ We previously reported that the anticipated 
effect on the state SNAP improper payment rate was a key factor in 
states' decisions to adopt certain policy options, such as those that 
simplified participant reporting requirements or eased the calculation 
of benefit amounts.\26\
---------------------------------------------------------------------------
    \23\ To assess the expected effect of policy changes on the SNAP 
improper payment rate, we reviewed prior GAO work and FNS and OIG 
documents that describe the characteristics of policies that may affect 
the improper payment rate. We analyzed which Federal and state policy 
changes had these characteristics, and then we assessed the likely 
cumulative expected directional effect of each policy on the improper 
payment. We did not analyze Federal or state laws or regulations, and 
all descriptions and analysis of the various policy flexibilities are 
based on the documents and research we reviewed. See Appendix I for 
further information.
    \24\ For example, in our 2016 survey of the 50 states and the 
District of Columbia, several states mentioned that rising caseloads 
accompanied by decreased staffing increased payment error rates when 
asked what factors, aside from Federal or state policy changes, had 
affected their SNAP payment error rates in the last 5 years.
    \25\ These 22 options and 11 waivers come from USDA's most recent 
state options report (current as of September 2013) and USDA's SNAP 
Certification Policy Waiver Database (updated as of March 2016). We 
excluded options and waivers that had been adopted by fewer than five 
states at the time of our review; this meant that we excluded no 
options and 12 waivers. See Appendix I for more information on our 
analysis.
    \26\ See GAO, Food Stamp Program: Farm Bill Options Ease 
Administrative Burden, but Opportunities Exist to Streamline 
Participant Reporting Rules among Programs, GAO-04-916 
(http://www.gao.gov/products/GAO-04-916) (Washington, D.C.: September 
16, 2004).
---------------------------------------------------------------------------
Figure 2: The Potential Effect of 33 State Flexibilities on the 
        Likelihood of SNAP Payment Errors
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
          Source: GAO analysis of U.S. Department of Agriculture (USDA) 
        data on state options and waivers.DGAO-16-708T.
          Note: The 33 state flexibilities include 22 options in USDA's 
        state options report (11th edition) and 11 waivers in USDA's 
        waivers database (current as of March 2016) adopted by five or 
        more states.

    Of the 17 flexibilities that potentially reduced the likelihood of 
SNAP payment errors, 11 simplified program requirements and six 
modified procedures for receiving and processing information.
Figure 3: Analysis of 17 Flexibilities that Potentially Reduced the 
        Likelihood of SNAP Payment Errors
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
          Source: GAO analysis of U.S. Department of Agriculture (USDA) 
        data on state options and waivers.DGAO-16-708T.

    The 11 flexibilities that simplified program requirements generally 
resulted in reduced opportunities for participants and caseworkers to 
make errors, and the effect of these flexibilities on the improper 
payment rate likely increased over time as greater numbers of states 
adopted some of them. Two of the eleven options we reviewed simplified 
participant reporting requirements, and six flexibilities simplified or 
standardized calculations used to determine household eligibility and 
benefit amounts, including self-employment income, medical and utility 
costs, income of those transitioning off TANF, and hours worked by 
college students. In addition, two flexibilities eliminated program 
requirements and another increased the alignment of SNAP program rules 
with other programs administered by states that serve a similar 
population.\27\ Over time, we found that increasing numbers of states 
adopted two policy options that have the potential to affect a large 
portion of the eligible population, thus potentially increasing their 
effect on the improper payment rate. Specifically, as of February 2003, 
25 states had adopted simplified reporting requirements for some or all 
eligible households and 16 states had adopted simplified utility 
calculations. However, by September of 2013, the numbers of states that 
had adopted these options increased to 53 and 47, respectively.\28\ See 
Table 1 for examples of flexibilities that simplified program 
requirements and our assessment of how they reduced the likelihood of 
error.
---------------------------------------------------------------------------
    \27\ Many SNAP participants receive benefits from other Federal 
programs, such as Medicaid or TANF. In many states, SNAP is 
administered out of a local assistance office that offers benefits from 
these other assistance programs as well. SNAP participants may provide 
necessary information to only one caseworker who determines eligibility 
and benefits for all of these programs, or they may work with several 
caseworkers that administer benefits for different programs.
    \28\ The FNS state option reports include state agencies for all 50 
states, the District of Columbia, Guam, and the U.S. Virgin Islands.

   Table 1: Examples of the Flexibilities That Potentially Reduced the
      Likelihood of Errors by Simplifying SNAP Program Requirements
------------------------------------------------------------------------
   Option/ Waiver           Description             GAO Assessment a
------------------------------------------------------------------------
Simplified Reporting  Requires participants    Results in participants
 option                to report only if        reporting fewer changes
                       their income rises       and reduces the amount
                       above 130 percent of     of paperwork that
                       the Federal poverty      caseworkers must
                       guidelines, instead of   process.b In 2005, USDA
                       requiring a variety of   estimated that
                       changes to be            simplified reporting
                       reported, including      reduced the improper
                       household composition,   payment rate by 1.2 to
                       income, and expenses.    1.5 percentage points.c
Simplified Income     Excludes certain types   Increases uniformity in
 and Resources         of income and            requirements across
 option                resources from SNAP      several programs for low-
                       eligibility and          income individuals,
                       benefit determination    which SNAP recipients
                       requirements that are    may simultaneously
                       excluded under state     receive and which are
                       TANF or Medicaid         administered by the same
                       policy.                  caseworkers in some
                                                states. Therefore, this
                                                reduces program
                                                complexity and the
                                                potential for confusion
                                                by participants and
                                                caseworkers.
Standard Medical      Establishes a standard   Eliminates the need for
 Deduction waiver      medical deduction in     participants to provide
                       lieu of calculating      proof of all medical
                       actual medical           expenses and streamlines
                       expenses for             eligibility and benefit
                       individuals who are      determination procedures
                       disabled or elderly.     for caseworkers by
                                                reducing the amount of
                                                information to be
                                                verified and documented.
------------------------------------------------------------------------
Source: GAO analysis of information in USDA's 2013 State Options report,
  USDA's SNAP Certification Policy Waiver Database (updated as of March
  2016), and other FNS documents.DGAO-16-708T
a Flexibilities may have had multiple characteristics that suggested
  opposite effects; in those instances we selected what we considered to
  be the over-riding or primary effect.
b Whether the caseworker needs to process a change, which the caseworker
  comes to know about but that the participant was not required to
  report, depends on whether the state has a policy to act on all
  changes.
c U.S. Department of Agriculture, Food and Nutrition Service, The Effect
  of Simplified Reporting on Food Stamp Payment Accuracy, October 2005.

    Instead of simplifying program requirements, six state policy 
options and waivers we reviewed allowed for modified procedures for 
receiving and processing information that likely reduced SNAP payment 
errors. For example, an option that allowed states to use online SNAP 
applications likely made information easier to document, retrieve, and 
process, thereby reducing opportunities for caseworker error. Another 
option that enabled states to set up call centers likely helped 
participants report changes more easily, potentially contributing to 
fewer unreported changes. However, questions have been raised about the 
effect of these approaches.<SUP>29-30</SUP> Further, two waivers 
provided states with procedural flexibilities intended to reduce the 
likelihood of participants having their case closed because of a delay 
in submitting paperwork and then having to re-apply.
---------------------------------------------------------------------------
    \29\ Diminished face-to-face contact may increase the potential for 
recipient fraud, potentially increasing errors and negatively affecting 
program integrity.
    \30\ In a recently finalized rule, FNS identified changes in 
operation that potentially increase the difficulty of households 
reporting required information (which could include implementation of a 
SNAP call center or online change reporting) as major changes in the 
operation of a SNAP program and has required that such changes be 
evaluated to assess the impact of the changes on the payment error 
rate, among other things. Supplemental Nutrition Assistance Program: 
Review of Major Changes in Program Design and Management Evaluation 
Systems, 81 Fed. Reg. 2725 (Jan. 19, 2016).
---------------------------------------------------------------------------
    While our analysis suggests that the majority of state policy 
flexibilities potentially reduced the likelihood of errors, three of 
the 33 flexibilities we reviewed likely increased it, and the remaining 
13 likely had a mixed or minimal to no effect.

  <bullet> The three options that we assessed as having potentially 
        increased the likelihood of payment errors increased the number 
        of calculations caseworkers needed to do or added a step to the 
        eligibility determination process. For example, two options 
        increased the conditions for which a participant could be 
        disqualified, such as for lack of cooperation with a child 
        support enforcement agency. This added a step for staff to 
        determine whether an applicant or participant met these 
        conditions, thereby increasing the opportunity for error.\31\
---------------------------------------------------------------------------
    \31\ Note that cases that were incorrectly terminated would be 
considered in the rate for improper denials, suspensions, and 
terminations. The active case improper payment rate, which is the focus 
of this report, would have been affected by instances where the 
household should have been disqualified but was mistakenly allowed to 
remain on the program.

  <bullet> Four options had characteristics that we assessed as having 
        the potential to both increase and decrease the likelihood of 
        payment errors. For example, the BBCE state option may have 
        decreased improper payment rates in states that adopted it and, 
        in effect, eliminated SNAP asset limits, as determining 
        household assets can be a cause of error. In these states, 
        participants no longer needed to provide documentation of 
        assets, and caseworkers no longer needed to verify these 
        amounts. At the same time, as we previously reported, because 
        BBCE allowed some states to, in effect, increase the SNAP gross 
        income limit, the policy may have resulted in greater numbers 
        of households with earned income participating in SNAP.\32\ 
        According to USDA's data on causes of error, determining 
        household income is the most common cause of error when 
        determining benefit amounts. Seven states had BBCE policies in 
        Fiscal Year 2006, versus 42 states in Fiscal Year 2015. Thus 
        the impact of this option on payment errors may have increased 
        over the last 10 years, although the overall direction of this 
        option's effect on the improper payment rate is unclear.
---------------------------------------------------------------------------
    \32\ GAO, Supplemental Nutrition Assistance Program: Improved 
Oversight of State Eligibility Expansions Needed, GAO 12-670, 
(Washington, D.C.: July 26, 2012).

  <bullet> The nine options and waivers that we assessed as not having 
        affected the likelihood of payment errors changed SNAP 
        eligibility or administrative procedures without introducing 
        significant simplification or complexity. For example, one 
        option allowed states to count child support payments as an 
        income exclusion rather than a deduction when determining the 
        payer's eligibility and benefits. While this option changed the 
        eligibility determination process, the applicant needed to 
        provide the same information, and the caseworker needed to 
        process it. Another example is a waiver that allowed states to 
        issue electronic notices to clients who elect to receive 
        notices via e-mail rather than paper mail.
Federal Policy Changes That Likely Affected the Improper Payment Rate 
        Changed Which Errors Are Counted as Improper Payments
    While there were many Federal SNAP policy changes in the last 10 
years, we found that few likely affected improper payment rates, based 
on our analysis of FNS documents. Those that likely did (1) made 
changes to the dollar threshold below which an error is excluded from 
the improper payment rate calculation, (2) excluded certain income and 
resources for eligibility and benefit determination purposes, and (3) 
required certain types of data matching.

  <bullet> Federal policy changes in the SNAP error tolerance 
        threshold, or the dollar threshold below which an error is 
        excluded from the SNAP error rate calculation, likely had a 
        direct effect on the error rate.\33\ During the last 10 years, 
        the threshold has been changed several times through Federal 
        statute and regulations, and FNS attributed the 2014 increase 
        in the SNAP error rate to a decrease in the error tolerance 
        threshold from $50 to $37.\34\
---------------------------------------------------------------------------
    \33\ For example, when the error tolerance threshold was $50 for 
part of Fiscal Year 2009 and from Fiscal Year 2012 to Fiscal Year 2013, 
a household that received a monthly benefit amount found to be $40 in 
error was not counted as an error when calculating the error rate. 
However, in Fiscal Year 2014, when the error tolerance threshold was 
$37, a $40 error was counted as an error when calculating the error 
rate.
    \34\ FNS has also previously linked these two factors. FNS 
estimated that the increase in the threshold from $25 to $50 for 6 
months in Fiscal Year 2009, decreased the error rate for that year by 
15 percent. However, error tolerance threshold changes do not always 
track with the overall error rate changes, likely because there are 
many factors affecting error rates simultaneously.

  <bullet> Some Federal policy changes that resulted in fewer sources 
        of income and resources being considered during the eligibility 
        and benefit determination process may have also affected the 
        likelihood of errors. These changes reduced participant 
        reporting requirements and caseworker verification 
        requirements, but they also may have increased confusion 
        regarding what sources of income and resources to report.\35\
---------------------------------------------------------------------------
    \35\ For example, in 2009, legislation was enacted requiring that 
additional unemployment compensation payments should be excluded from 
consideration as income and resources for purposes of SNAP eligibility 
and benefit determination. However, because only the supplemental $25 
unemployment compensation payment (and not the regular unemployment 
compensation payment) was excluded, this supplemental payment needed to 
be separated from other unemployment compensation received when 
calculating income for SNAP, potentially increasing confusion and 
opportunities for error.

  <bullet> A Federal policy change that increased requirements for data 
        matching may have reduced the likelihood of errors by improving 
        the accuracy of eligibility and benefit determination, but the 
        quality and timeliness of the data may have mitigated that 
        effect, according to our analysis and prior work.\36\
---------------------------------------------------------------------------
    \36\ For example, in 2012, FNS began requiring states to conduct a 
data match to check whether a person applying in one state was 
disqualified in another state, so that the receiving state could impose 
appropriate penalties. The required match would help ensure that 
clients who are supposed to be disqualified for a certain period or 
permanently are not granted benefits, reducing opportunities for 
improper payments. However, we reported in 2014 that the quality and 
timeliness of the data were impeding the effectiveness of this data 
match, thereby mitigating the effect of this policy change on the 
improper payment rate. See GAO-14-641 (http://www.gao.gov/products/GAO-
14-641).
---------------------------------------------------------------------------
SNAP's Improper Payment Rate Calculation Methodology Is Similar to 
        Those of Medicaid, EITC, and SSI, Although Some Differences May 
        Affect the Resulting Rates
    SNAP and other large Federal programs for low-income individuals, 
such as Medicaid, EITC, and SSI, report improper payment rates, as 
shown in Table 2. There are some similarities to how these improper 
payment rates are calculated by the agencies overseeing these programs, 
though there are also certain differences in these programs' improper 
payment rate calculations that may affect the resulting rates.\37\ 
However, the extent of the effect of these differences on the programs' 
rate is unknown, in part because, as previously noted, programs' rates 
are likely affected by many additional factors, such as changes in 
numbers of applicants and participants, staffing, and program policy.
---------------------------------------------------------------------------
    \37\ Although we selected EITC, Medicaid, and SSI to compare to 
SNAP, other Federal programs that provide benefits to low-income 
individuals have still different approaches to estimating their 
improper payments. For example, other USDA programs, such as the 
National School Lunch program and the Special Supplemental Nutrition 
Program for Women, Infants, and Children (WIC), rely on periodic 
nationally representative studies to produce improper payment rate 
estimates.

 Table 2: Estimated Improper Payment Rates Reported in Fiscal Year 2015
       Agency Financial Reports for SNAP, Medicaid, EITC, and SSI
------------------------------------------------------------------------
                    Program                       Improper Payment Rates
------------------------------------------------------------------------
Supplemental Nutrition Assistance Program                           3.7%
 (SNAP)
Medicaid (eligibility component)                                  a 3.1%
Earned Income Tax Credit (EITC) b                                  23.8%
Supplemental Security Income (SSI)                                  8.5%
------------------------------------------------------------------------
Source: Relevant Federal agencies.DGAO-16-708T.
Note: SNAP and SSI rates are reported at a 95 percent confidence level
  and EITC and Medicaid rates are reported at 90 percent confidence
  levels and all estimates are reported within plus or minus 2.5
  percentage points. Improper payment rates reported in the Fiscal Year
  2015 agency financial reports may pertain to a different period in
  which benefits were paid, for example the SNAP improper payment rate
  is for benefits paid in Fiscal Year 2014.
a The overall Medicaid improper payment rate was 9.8 percent, which
  combines component improper payment rates for eligibility, fee-for-
  service, and managed care.
b For EITC, this accounts for improper payments net of erroneous
  payments recovered.

SNAP's Improper Payment Rate Calculation, Including How Cases are 
        Chosen for Review, is Similar to Other Selected Programs
    The methodology that SNAP uses to calculate its improper payment 
rate is generally similar to the methodologies used for other large 
Federal programs for low-income individuals, specifically Medicaid,\38\ 
EITC, and SSI. The Federal agencies overseeing each of these programs 
provide guidance on improper payment rate calculation to those 
administering the program--state officials for SNAP and Medicaid, and 
Federal officials for EITC and SSI. To calculate their improper payment 
rates, all four programs use similar sampling methods, draw samples 
generally representative of their recipients, and report their improper 
payment rates at similar levels of precision. (See Table 3.) For 
example, each program employs a probability sampling methodology, based 
on a form of random selection, to select which cases they will review 
to determine the improper payment rate. Further, the programs generally 
draw samples from all individuals receiving program benefits. We also 
found that all four programs estimate their improper payment rates with 
high levels of precision.\39\
---------------------------------------------------------------------------
    \38\ We previously reviewed the methodology for estimating a 
national improper payment rate for Medicaid and found it to be 
statistically sound. See, GAO, Medicaid: Enhancements Needed for 
Improper Payments Reporting and Related Corrective Action Monitoring, 
GAO-13-229 (http://www.gao.gov/products/GAO-13-229) (Washington, D.C.: 
March 29, 2013).
    \39\ In its improper payments guidance, the Office of Management 
and Budget (OMB) recommends that agencies report improper payment rates 
at 90 percent confidence interval of plus or minus 2.5 percent or 95 
percent confidence interval of plus or minus three percent.

     Table 3: SNAP, Medicaid, EITC, and SSI Employ Similar Sampling
   Methodology Factors For Their Reviews to Determine Improper Payment
                                  Rates
------------------------------------------------------------------------
     Sampling Methodology Factors              Approach Employed
------------------------------------------------------------------------
Statistical Method                     Probability sampling
Sample Selection                       Stratifies or allows for
                                        stratification
Sample Representation                  All recipients in active cases
                                        generally represented
Estimate Precision                     Reports estimates at high levels
                                        of precision
------------------------------------------------------------------------
Source: GAO analysis.DGAO-16-708T

Several Differences among the Selected Programs, Including How Cases 
        Are Factored into the Improper Payment Rate Calculation, Likely 
        Affect the Resulting Improper Payment Rates
    We found differences between SNAP and Medicaid, EITC, and SSI in 
how reviews are conducted to determine improper payments and how cases 
are factored into the improper payment rate calculation. Some of the 
procedural and methodological differences in the improper payment rate 
calculation among these programs likely affect the resulting improper 
payment rates.
How Case Reviews Are Conducted
    There are some differences between how reviews are conducted to 
determine improper payments in SNAP and the three other Federal 
programs for low-income individuals we reviewed, such as the reporting 
time frame, Federal or state involvement in the review, and the extent 
of the review. (See Table 4.)

 Table 4: Key Aspects of How Reviews Are Conducted to Determine Improper
    Payments in SNAP and Select Other Federal Programs for Low-Income
                  Individuals (EITC, Medicaid, and SSI)
------------------------------------------------------------------------
                      Time frame of
                    improper  payments                      Extent of
     Program        reported in agency   Review levels        review
                    financial reports
------------------------------------------------------------------------
Supplemental       Benefits that were   Two levels of    Contact the
 Nutrition          paid in the prior    review (state    recipient
 Assistance         year.                & Federal)
 Program (SNAP)
Medicaid           Benefits paid in     State review     Rely on case
                    the prior 3 years;   only             file, but
                    reviewing benefits                    permitted to
                    paid in \1/3\ of                      contact the
                    states each year.                     recipient
Earned Income Tax  Credits allowed in   Federal review   Contact the
 Credit (EITC)      the tax year 4       only             recipient
                    years prior.a
Supplemental       Benefits that were   Federal review   Contact the
 Security Income    paid in the prior    only b           recipient
 (SSI)              year.
------------------------------------------------------------------------
Source: GAO analysis.DGAO-16-708T.
a The EITC improper payment rate is determined from previously reviewed
  returns from the most recent year from which compliance information is
  available and that rate is used for the current year. For the improper
  payment dollar amount, the improper payment rate is multiplied by the
  amount of EITC claims in the current year, less the amount of revenue
  recovered or protected.
b According to SSA officials, the initial Federal SSI case reviews are
  subject to a secondary SSI review to ensure consistency. For the
  second review, five percent of cases initially reviewed are randomly
  selected, as well as all cases with payment errors.

    SNAP, Medicaid, EITC, and SSI differ in the time frames relied on 
to determine improper payment rate estimates reported in the same year. 
Specifically, SNAP and SSI report each year's improper payment rate 
based on reviews of benefits paid in the prior year, whereas Medicaid 
relies on multiple years of data and EITC uses older prior year data. 
For example, SNAP and SSI improper payment rates reported in their 
Fiscal Year 2015 agency financial reports were for reviews of benefits 
that were paid in Fiscal Year 2014. In contrast, Medicaid's annual 
improper payment rate stems from a 3 year rolling rate of state 
estimates. Each year, \1/3\ of the states produce an improper payment 
rate estimate for Medicaid; and thus, the nationwide fiscal year 
improper payment rate reported in the Fiscal Year 2015 agency financial 
report included reviews of benefit payments in Fiscal Years 2012, 2013, 
and 2014. EITC estimates the amount of improper payments in a current 
year, using an improper payment rate based on reviews done for tax 
returns filed 4 years prior. For example, the EITC improper payment 
rate of 23.8 percent, reported in the Department of Treasury Fiscal 
Year 2015 agency financial report is from the review of 2011 tax 
returns.
    The programs we reviewed also differed in the levels of government 
involved in the case reviews, as well as whether a secondary review is 
conducted for verification. Although they are both state-administered, 
SNAP and Medicaid differ in that both state and Federal officials 
review cases for SNAP, but according to Department of Health and Human 
Services (HHS) officials, states alone review cases for Medicaid. 
Specifically, for SNAP, Federal officials review a subsample of cases 
to verify the accuracy of state reviews, and if differences are found, 
the state's improper payment rate is adjusted. According to Federal 
officials, states are not involved in SSI and EITC reviews because 
these programs are federally-administered. However, according to SSA, 
there is a secondary review of SSI cases for consistency at the Federal 
level,\40\ while according to IRS, for EITC there is no systematic 
secondary review. When the SSI consistency review finding differs from 
the initial review finding, the case payment amount is adjusted and 
included in the improper payment rate computation.
---------------------------------------------------------------------------
    \40\ According to SSA officials, the SSI consistency reviews are 
done on five percent of reviewed cases, selected at random, as well as 
all cases with payment errors.
---------------------------------------------------------------------------
    The extent to which officials review information beyond what is in 
the recipient's case file also differs between the programs we 
selected, such as with Medicaid, which may affect improper payment 
rates. For example, SNAP reviewers must contact recipients to obtain 
information to independently determine eligibility and benefit amounts, 
while according to HHS officials, Medicaid reviews can be conducted 
from information solely in the case file. While this can result in SNAP 
reviewers finding additional information not included in the case file 
that was necessary to determine whether the benefit amount was correct, 
it can also result in reviewers not being able to complete the review 
if they cannot make contact with the recipient. Like SNAP, the SSI and 
EITC reviewers also generally contact recipients.\41\
---------------------------------------------------------------------------
    \41\ EITC reviewers check the accuracy of the taxpayer's 
eligibility and the amount claimed on tax returns and not the accuracy 
of a determination made by a caseworker from a client's application. 
Tax credit recipients self-certify their eligibility and claim and do 
not need to meet with caseworkers, nor submit up-front documentation as 
is required with other programs.
---------------------------------------------------------------------------
Cases Factored into the Improper Payment Rate Calculation
    Differences in how cases are factored into the improper payment 
rate calculation also exist among SNAP and the other Federal programs 
for low-income individuals we reviewed, which likely affect the 
resulting improper payment rates. These differences relate to how cases 
with insufficient information and those found to have certain kinds of 
errors are factored into the improper payment rate.\42\ (See Table 5.)
---------------------------------------------------------------------------
    \42\ Another difference across the four programs relates to 
adjustments that are made to the improper payment rate to account for 
improper payments that are recovered from the recipient by the Federal 
agency. Unlike SNAP, Medicaid, and SSI, the EITC includes recovered 
over-claims in its rate calculation, according to Federal officials. If 
IRS reviews of EITC cases, for which the credit has already been paid, 
determine that IRS should reduce or deny the EITC claim, the IRS must 
recover the amount that was previously paid. The amount of such over-
claims that are recovered is subtracted from the amount of the over-
claims determined by a reviewer, reducing the amount of improper 
payment used in computing the error rate.

Table 5: Key Aspects of How Cases Are Factored into the Improper Payment
  Rate Calculation for SNAP and Select Other Federal Programs for Low-
              Income Individuals (Medicaid, EITC, and SSI)
------------------------------------------------------------------------
                       Treatment of cases for   Errors excluded from the
       Program         which review cannot be     improper payment rate
                             completed a               calculation
------------------------------------------------------------------------
Supplemental          Dropped from sample, but  Case errors below $37
 Nutrition             an adjustment is made     (in Fiscal Year 2014) c
 Assistance Program                             Errors caused by a
 (SNAP)                                          policy change in the
                                                 120 days after
                                                 implementation
Medicaid              Full benefit amount       None
                       counted as error
Earned Income Tax     If taxpayer does not      None
 Credit (EITC)         respond, remains in
                       sample, but an
                       adjustment is made.b
                      If taxpayer responds,
                       but is unable to
                       provide documentation,
                       the full benefit amount
                       is counted as error.
Supplemental          Dropped from sample.      Errors caused by a
 Security Income                                 policy change in the 6
 (SSI)                                           months after
                                                 implementation
------------------------------------------------------------------------
Source: GAO analysis.DGAO-16-708T.
a A case review cannot be completed when an agency's review is unable to
  discern whether a payment was proper because of insufficient or lack
  of documentation.
b According to IRS officials, such cases are considered non-response
  cases and an adjustment is made to the improper payment rate
  calculation assuming that such cases have the same ratio of compliance
  to non-compliance characteristics as taxpayers who participate in the
  audits.
c SNAP has an error reporting threshold, which is the dollar amount
  beneath which a case error is not included in the error rate.

    For some cases, the reviewer may have insufficient information to 
assess the accuracy of the eligibility and benefit determination, and 
the programs we reviewed treated these cases somewhat differently in 
the improper payment rate calculation. For example, according to FNS 
officials, for SNAP, these cases are removed from the sample so that 
neither the benefit payments or any potential dollar error amounts are 
factored into the improper payment rate calculation, though the rate 
calculation may be adjusted depending on the proportion of reviewed 
cases in this category.\43\ According to SSA, such cases are removed 
from the SSI improper payment rate calculation, and no adjustment is 
made to the improper payment rate. In contrast, according to HHS 
officials, in Medicaid cases where there is insufficient information to 
make an error determination, the full benefit amount is counted as an 
error in the improper payment rate calculation. EITC policy on 
incomplete cases varies depending on whether contact is made with the 
taxpayer. Specifically, if the taxpayer responds to the audit inquiry, 
but is unable to provide the required documentation, the full amount of 
the credit is considered to be in error. However, according to IRS 
officials, if the taxpayer cannot be reached to participate in the 
audit, the case is not completed, and an adjustment is made to the 
improper payment rate calculation.\44\
---------------------------------------------------------------------------
    \43\ Under Federal regulations, FNS makes an adjustment to a 
state's error rate if more than two percent of the state's cases 
selected for review could not be completed, such as when the reviewer 
could not contact a recipient or the household refused to cooperate. 
See 7 CFR  275.23(b)(2)(iii).
    \44\ According to IRS officials, such cases are considered non-
response cases and an adjustment is made to the improper payment rate 
calculation assuming that such cases have the same ratio of compliance 
to non-compliance characteristics as taxpayers who participate in the 
audits.
---------------------------------------------------------------------------
    Generally, unlike the other Federal programs for low-income 
individuals we reviewed, SNAP excludes certain errors from its improper 
payment rate calculation. For example, as previously noted, SNAP 
excludes errors below a specific dollar threshold from its error rate 
calculation, while according to Federal officials, the other programs 
we selected did not exclude identified errors below a specific dollar 
threshold.\45\ FNS's data on payment errors suggests that the threshold 
has a direct effect on the SNAP error rate. Specifically, in our 
analysis of FNS's quality control data for Fiscal Year 2013, we found 
that 31 percent of all cases reviewed had errors that were below the 
threshold, six percent had errors that exceeded the threshold, and 64 
percent had no errors.\46\ Further, the reviewed cases determined to 
have errors below the threshold--which were not included as errors in 
the error rate calculation--accounted for 38 percent of all SNAP 
dollars paid in error. In addition, for SNAP, errors are not included 
in the rate calculation if they are related to recent program changes; 
within 120 days.\47\ Similarly, according to SSA officials, such errors 
are not included in the SSI rate calculation if they are found to have 
occurred within 6 months of a change.\48\ According to Federal 
officials, neither Medicaid nor EITC has such a provision.
---------------------------------------------------------------------------
    \45\ As previously noted, the Fiscal Year 2014 threshold below 
which SNAP improper payments were not included in the error rate, based 
on SNAP law, was $37.
    \46\ Percentages exceed 100 percent due to rounding.
    \47\ Under SNAP, errors resulting from the application of new SNAP 
regulations or implementing memorandum of changes in Federal law are 
generally to be excluded from the error rate if they are within 120 
days of the required implementation date. See 7 U.S.C.  2025(c)(3)(a) 
and 7 CFR  275.12(d)(2)(vii).
    \48\ According to SSA officials, errors caused by significant 
program changes are not included in the SSI rate calculation if they 
are found to have occurred within 6 months of the change; however, they 
stated that there have not been significant changes that would invoke 
this provision since 2005.
---------------------------------------------------------------------------
    Another difference between SNAP and the other programs we reviewed 
relates to bonuses to reduce error rates. Specifically, SNAP provides 
states with financial bonuses and sanctions to reduce or maintain low 
error rates, a policy which differs from Medicaid, EITC, and SSI.\49\ 
For Fiscal Year 2014 state improper payments, FNS selected ten states 
to share $24 million in bonuses for best payment accuracy and most 
improved payment accuracy.\50\ This policy differs from the other 
programs we reviewed likely due, in part, to differences in program 
structure. For example, according to Medicaid Federal officials, states 
have an inherent incentive to reduce Medicaid improper payments because 
they share in Medicaid program costs. Further, given that SSI and EITC 
are federally administered programs, they have no state-based 
incentives.\51\
---------------------------------------------------------------------------
    \49\ See 7 U.S.C.  2025 and 7 CFR  275.23-275.24.
    \50\ In a June 24, 2016 letter to states, USDA said that it will 
complete a thorough review of quality control systems in all states 
before making decisions about the disbursement of the payment accuracy 
bonuses. These payments had not been made, because of FNS concerns 
about the integrity of the state data, based on FNS reviews. The USDA 
OIG had previously found that states had used practices to weaken the 
quality control review process, including the use of third-party 
consultants and error review committees to mitigate individual errors 
identified by reviewers. See, USDA, Office of Inspector General, FNS 
Quality Control Process for SNAP Error Rate, Audit Report 27601-0002-
41, September 2015.
    \51\ However, according to SSA officials, the agency uses its 
annual performance appraisals to hold SSI managers, supervisors, and 
field office employees accountable for reducing improper payments.
---------------------------------------------------------------------------
    Despite differences among some Federal programs' improper payment 
rate calculations, Federal agencies are generally required to comply 
with relevant Federal laws governing the estimation of improper payment 
rates. We are currently assessing the SNAP improper payment rate 
calculation in light of these laws and the relevant OMB implementing 
guidance and plan to report on these findings in the future.
States and FNS Have Taken Steps To Address SNAP Recipient Fraud That 
        May Help Address Identified Challenges
    Fraud is a key indicator of program integrity and FNS and state 
agencies partner to address it. As previously noted, improper payments 
made to SNAP households may be caused by caseworker or recipient 
errors, and intentional errors made by recipients are considered fraud, 
as are other recipient and retailer actions that qualify as misuse of 
benefits. FNS and the states work together to address SNAP recipient 
fraud, employing various tools that are specifically targeted at 
detecting recipient fraud. These tools have evolved over time with 
changes to the SNAP program and the ways in which SNAP recipient fraud 
occur.
    In 2014, we reported that selected states said they employed a 
range of tools to detect potential SNAP recipient eligibility fraud, 
such as data matching and referrals obtained through fraud reporting 
hotlines and websites.\52\ Specifically, at that time, all 11 states 
that we reviewed had fraud hotlines or websites, and all matched 
information about SNAP applicants and recipients against various data 
sources to detect those potentially improperly receiving benefits, as 
FNS recommended or required. For example, all 11 states reported 
matching recipient data against prisoner and death files. In addition, 
we found that four of the states we reviewed used additional 
specialized searches to check numerous public and private data sources, 
including school enrollment, vehicle registration, vital statistics, 
and credit reports, to detect potential fraud prior to providing 
benefits to potential recipients.
---------------------------------------------------------------------------
    \52\ See GAO-14-641 (http://www.gao.gov/products/GAO-14-641).
---------------------------------------------------------------------------
    To address recipient trafficking of benefits--the exchange of 
benefits for cash or non-food goods or services, in 2014, officials in 
the 11 selected states reported that they took various actions 
recommended or required by FNS. For example, all 11 states reported 
tracking recipients who requested four or more replacement electronic 
benefit transfer (EBT) cards in a 12 month period. States issue an 
eligible household's monthly SNAP benefits on an EBT card, and 
recipients use the cards to purchase allowable food items at authorized 
retailers. FNS has required that states track recipients who request 
multiple EBT replacement cards because some recipients who have 
trafficked their benefits contact state agencies to report their sold 
cards as lost or stolen and receive new, replacement cards, which they 
then use for future transactions. For recipients identified through 
such tracking, states generally must warn them that the purchases they 
are making with their SNAP benefits through their EBT transactions, are 
being monitored. All 11 states also reported reviewing EBT transactions 
in an attempt to uncover patterns that may indicate trafficking, as 
recommended by FNS, though these efforts varied by state. For example, 
while Florida officials reported that they routinely review EBT 
transaction data for suspicious patterns, Texas officials reported that 
they only review transactions for individuals or households after they 
have been referred to them because of potential fraud. Further, eight 
of the 11 states reported using either automated tools or manual 
monitoring to detect postings on social media and e-commerce websites 
by individuals seeking to sell SNAP benefits, as recommended by FNS.
    However, we also reported in 2014 that these states noted that 
inadequate staffing levels limited the effectiveness of their actions 
to detect recipient fraud, though some states were exploring ways to 
address this issue. Among the 11 selected states, there was wide 
variation in the number of staff available to investigate potential 
SNAP recipient fraud, and investigators each had additional 
responsibilities unrelated to SNAP fraud investigations. Further, eight 
of the 11 selected states reported difficulties in conducting fraud 
investigations due to either reduced or maintained staff levels, while 
SNAP recipient numbers greatly increased from Fiscal Year 2009 through 
2013. To help address this issue, six of the states reported that they 
had implemented or were in the process of implementing state law 
enforcement bureau (SLEB) agreements at the time of our 2014 report. 
These agreements enable state SNAP investigators to cooperate in 
various ways with local, state, and Federal law enforcement agents, 
including those within the USDA OIG. For example, under these 
agreements, law enforcement agencies can notify the SNAP fraud unit 
when they arrest someone who possesses multiple EBT cards, and SNAP 
agencies can provide ``dummy'' EBT cards for state and local officers 
to use in undercover trafficking investigations. Some states also 
suggested changing the financial incentive structure to promote fraud 
investigations. To help address the increased caseloads and the 
resources needed to conduct investigations, we recommended that USDA 
explore ways that Federal financial incentives could be used to better 
support cost-effective anti-fraud strategies. At this time, FNS has 
decided not to pursue bonus awards for anti-fraud and program integrity 
activities.
    Also in 2014, some states reported that limitations of FNS's 
required approach to monitoring replacement card data also challenged 
their efforts to combat recipient fraud. Specifically, at the time of 
our review, four states reported that they had not initiated any 
trafficking investigations as a result of the EBT replacement card data 
monitoring required by FNS, and five states reported a low success rate 
for such investigations. Through our own analysis of replacement card 
data combined with EBT transaction data that suggested trafficking, we 
found indicators of potential SNAP trafficking in households with 
excessive replacement cards, suggesting that a more targeted approach 
than that required by FNS may improve states' efforts to identify 
recipient trafficking. As a result of these findings in 2014, we 
recommended that FNS establish additional guidance to help states 
analyze SNAP transaction data to better identify SNAP recipient 
households receiving replacement cards that are potentially engaging in 
trafficking, and assess how to better focus this analysis on high-risk 
households potentially engaged in trafficking. In response, FNS 
officials reported that they have provided some states with technical 
assistance on how to effectively utilize replacement card data as a 
potential indicator of trafficking and have plans to expand their 
assistance to states in this area. Specifically, FNS has worked with 
seven states to help them more effectively identify SNAP recipient 
trafficking using models that incorporate predictive analytics. FNS 
officials stated that the models use a variety of eligibility and 
transaction data, including replacement card data, and have 
demonstrated a significant improvement in effectiveness in these 
states. FNS officials also stated that they are providing four 
additional states with technical assistance in Fiscal Year 2016, and 
FNS is currently conducting a training program for state staff to teach 
them how to build predictive models that incorporate the use of card 
replacement data.
    Further, although an FNS-recommended automated tool for monitoring 
potential SNAP trafficking on e-commerce websites was intended to 
replace the need for states to perform manual searches on these 
websites, we found the tool to be of limited use. Specifically, our 
testing found that manual searches returned more postings indicative of 
potential SNAP trafficking than the automated tool, and that most of 
the postings detected through manual searches were not detected by the 
automated tool. As a result, in 2014 we recommended that FNS reassess 
the effectiveness of the current guidance and tools recommended to 
states for monitoring e-commerce and social media websites, FNS 
officials reported that they continue to provide technical assistance 
to states on the effective use of social media and e-commerce 
monitoring. FNS officials also reported that the agency conducted an 
analysis in 2016 to evaluate states' current use of social media in 
their detection of SNAP trafficking, and they plan to use information 
from that analysis to determine how best to present further guidance to 
state agencies on using social media to combat trafficking.
    In 2014, we also found that FNS had increased its oversight of 
state anti-fraud activities by issuing new regulations and guidance, 
conducting state audits, and commissioning studies on recipient fraud 
since Fiscal Year 2011.\53\ Despite these efforts, we found that FNS 
did not have consistent and reliable data on states' anti-fraud 
activities because its reporting guidance lacked specificity. For 
example, FNS's guidance did not define the kinds of activities that 
should be counted as investigations, resulting in data that were not 
comparable across states. This limited USDA's ability to monitor states 
and find more effective ways to combat recipient fraud. To improve 
FNS's ability to monitor states and obtain information about more 
efficient and effective ways to combat recipient fraud, we recommended 
in 2014 that FNS take steps, such as guidance and training, to enhance 
the consistency of what states report on their anti-fraud activities. 
As of May 2016, FNS reported that it had redesigned the form used to 
collect consistent recipient integrity performance information and 
expect it to be implemented in Fiscal Year 2017, pending approval from 
OMB.\54\ FNS also published an interim final rule on January 26, 2016 
(effective March 28, 2016) that increased the frequency with which 
states are required to submit the form to FNS from annually to 
quarterly.\55\ As of June 2016, FNS officials reported that they had 
provided four separate trainings to approximately 400 state agency and 
FNS regional office personnel, covering the new and modified elements 
of the final draft form and the corresponding instructions.
---------------------------------------------------------------------------
    \53\ See GAO-14-641 (http://www.gao.gov/products/GAO-14-641).
    \54\ See GAO-16-719T (http://www.gao.gov/products/GAO-16-719T).
    \55\ SNAP Requirement for National Directory of New Hires 
Employment Verification and Annual Program Activity Reporting, 81 Fed. 
Reg. 4159.
---------------------------------------------------------------------------
    Chairman Conaway, Ranking Member Peterson, and Members of the 
Committee, this completes my prepared statement. I would be pleased to 
respond to any questions you may have at this time.
GAO Contact and Staff Acknowledgments
    For questions about this statement please contact Kay E. Brown at 
(202) 512-7215 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3250405d455c59577255535d1c555d441c">[email&#160;protected]</a> Contact points for our Offices of 
Congressional Relations and Public Affairs may be found on the last 
page of this statement. GAO staff who made key contributions to this 
testimony include Rachel Frisk, Alexander Galuten, Kathryn O'Dea Lamas, 
Jean McSween, Daniel Meyer, and Srinidhi Vijaykumar.
Appendix I: GAO Analysis of the Effect of State Policy Flexibilities on 
                          SNAP Payment Errors
    We used a multi-step approach to assess the expected effect of each 
of the 33 state policy flexibilities we identified on the SNAP improper 
payment rate.\1\ First, we reviewed prior GAO work, and FNS and USDA 
Office of Inspector General (OIG) documents, that describe the 
characteristics of policies that may affect the SNAP improper payment 
rate. See Table 6 for a description of the policy characteristics we 
identified and the expected effect of those characteristics on the 
likelihood of errors. We then obtained a description of each state 
policy flexibility using the 2013 USDA State Options report, the 2016 
USDA waivers database, and other FNS documents.\2\ We analyzed which 
Federal and state policy changes had the identified characteristics, 
and then we assessed the likely cumulative expected directional effect 
of each policy on the improper payment rate, depending on whether the 
policy change simplified or complicated program rules or increased or 
decreased caseworker paperwork, among other characteristics. For 
flexibilities that had multiple characteristics with potentially 
opposite effects on the likelihood of errors, we selected what we 
considered to be the primary effect, based on a review by two analysts. 
However, for some policies, we were unable to determine the primary 
effect and therefore categorized those policies as having a mixed 
effect--essentially, these policies had characteristics that suggested 
they both increased and decreased the likelihood of errors.
---------------------------------------------------------------------------
    \1\ These 22 options and 11 waivers come from USDA's most recent 
state options report (current as of September 2013) and USDA's waivers 
database (current as of March 2016). We excluded options and waivers 
that had been adopted by fewer than five states at the time of our 
review; this meant that we excluded no options and 12 waivers.
    \2\ In conducting this analysis, we did not analyze Federal or 
state laws or regulations, and all descriptions and analysis of the 
various policy flexibilities are based on the documents and research we 
reviewed.

 Table 6: Characteristics of State Policy Flexibilities GAO Examined and
   How They Might Potentially Affect Supplemental Nutrition Assistance
                      Program (SNAP) Payment Errors
------------------------------------------------------------------------
                                                 Effect on Likelihood of
        Factor               Characteristic               Errors
------------------------------------------------------------------------
   Program rules                 Simplify                  <d-arrow>
                               Complicate                  <u-arrow>
Requirements for                         Less              <d-arrow>
     participants                    More                  <u-arrow>
      to provide
      information
Caseworker paperwork                     Less              <d-arrow>
                                     More                  <u-arrow>
Characteristics of                       Less error-prone  <d-arrow>
   eligible popu-        More error-prone                  <u-arrow>
          lation
 Others, such as                 Simplify                  <d-arrow>
   program admin-              Complicate                  <u-arrow>
    istration or
       procedures
------------------------------------------------------------------------
Source: GAO.DGAO-16-708T
Note: We did not review program laws and regulations, but we identified
  when descriptions of flexibilities addressed similarities across
  programs. Greater similarity in program rules decreases household and
  caseworker confusion, as caseworkers may be responsible for
  determining eligibility for multiple programs.

    We grouped the 33 state policy flexibilities into four categories, 
those that: potentially reduced the likelihood of errors; potentially 
increased the likelihood of errors; likely had a mixed effect; or 
likely had no effect. Tables 7, 8, 9, and 10 divide the policy 
flexibilities into these categories, describe each, and provide our 
assessment of each flexibility's likely effect on errors.

   Table 7: Seventeen Options and Waivers That Potentially Reduce the
 Likelihood of Supplemental Nutrition Assistance Program (SNAP) Payment
                                 Errors
------------------------------------------------------------------------
   Option/ Waiver           Description               Explanation a
------------------------------------------------------------------------
           Flexibilities that simplified program requirements
------------------------------------------------------------------------
Simplified           Requires participants to   Results in participants
 Reporting option     report only if their       reporting fewer changes
                      income rises above 130     and reduces the amount
                      percent of the Federal     of paperwork that
                      poverty guidelines,        caseworkers must
                      instead of requiring a     process.b In 2005, USDA
                      variety of changes to be   estimated that
                      reported, including        simplified reporting
                      household composition,     could have reduced the
                      income, and expenses.      improper payment rate
                                                 by 1.2 to 1.5
                                                 percentage points.c
Simplified           Requires participants to   Results in participants
 Reporting--Certifi   submit a periodic report   reporting changes less
 cation Length        with household             frequently and reduces
 option               information at set         the amount of paperwork
                      intervals instead of       that caseworkers must
                      requiring changes be       process.
                      reported within 10 days
                      of their occurrence.
Simplified Income    Excludes certain types of  Increases uniformity in
 and Resources        income and resources       requirements across
 option               from SNAP eligibility      multiple programs for
                      and benefit                low-income individuals,
                      determination              which SNAP recipients
                      requirements that are      may simultaneously
                      excluded under state       receive and which are
                      TANF or Medicaid policy.   administered by the
                                                 same caseworkers in
                                                 some states. Therefore,
                                                 this reduces program
                                                 complexity and the
                                                 potential for confusion
                                                 by participants and
                                                 caseworkers.
Simplified Self-     Simplifies the method for  Results in participants
 Employment           determining the cost of    having to provide less
 Determination        doing business in cases    documentation and
 option               where an applicant is      simplifies paperwork
                      self-employed.             for caseworkers.
Standard Medical     Establishes a standard     Eliminates the need for
 Deductions waiver    medical deduction in       participants to provide
                      lieu of calculating        proof of all medical
                      actual medical expenses    expenses and
                      for individuals who are    streamlines eligibility
                      disabled or elderly.       and benefit
                                                 determination
                                                 procedures for
                                                 caseworkers by reducing
                                                 the amount of
                                                 information to be
                                                 verified and
                                                 documented.
Standard Homeless    States can use a standard  Eliminates the need for
 Housing Cost         deduction from income of   participants to provide
 option               $143 per month for         proof of all shelter
                      homeless households with   expenses, which
                      some shelter expenses.     streamlines eligibility
                                                 and benefit
                                                 determination
                                                 procedures for
                                                 caseworkers by reducing
                                                 the amount of
                                                 information to be
                                                 verified and
                                                 documented.
Standard Utility     Establishes a standard     Eliminates the need for
 Allowances (SUAs)    utility allowance in       participants to provide
 option               lieu of using actual       proof of all utility
                      utility expenses. States   expenses and
                      that further make the      streamlines eligibility
                      SUA mandatory for all      and benefit
                      households opt out of      determination
                      the requirement to         procedures by reducing
                      prorate SUAs for           the amount of
                      households that share      information caseworkers
                      living space. These        need to verify and
                      states are also required   document. Further,
                      to use a SUA that          reduces the likelihood
                      includes the heating and   of a calculation error
                      cooling costs of public    because the caseworker
                      housing residents with     no longer has to
                      shared meters that are     prorate certain cases.
                      charged only for excess
                      utility costs.
Transitional         Establishes a set benefit  Reduces participant
 Benefits option      amount for families        reporting burden and
                      transitioning off TANF,    reduces caseworker
                      or other state-funded      paperwork requirements
                      cash assistance,           at a time when the
                      eliminating participant    household's situation
                      reporting requirements     may be particularly
                      and reducing caseworker    subject to fluctuation.
                      processing during the
                      transition period.
Averaging Student    Students enrolled at       Reduces caseworker
 Hours waiver         least half-time in an      burden associated with
                      institution of higher      needing to confirm the
                      education, are             exact number of
                      ineligible to              employment hours each
                      participate unless they    week.
                      meet at least one of
                      several criteria. One
                      criterion allows
                      students to participate
                      if they are employed for
                      a minimum of 20 hours a
                      week. The waiver allows
                      state agencies to
                      average the number of
                      hours worked over a
                      month in determining
                      compliance with the
                      student work
                      requirement.
Interest Income      Enables state agencies to  Reduces the amount of
 Verification         waive verification of      verification the
 waiver               income from interest and   participant needs to
                      dividends if less than a   supply and the amount
                      certain amount.            of information the
                                                 caseworker needs to
                                                 verify.
Recertification      Allows the state to waive  Reduces the frequency
 Interview for        the recertification        with which
 Elderly or           interview for households   recertification
 Disabled             in which all adult         interviews need to
 Individuals with     members are elderly or     happen, thus reducing
 No Earned Income     disabled and have no       the opportunity for the
 waiver               earned income.             caseworker to discover
                                                 changes in
                                                 circumstances that
                                                 would need to be
                                                 documented and
                                                 verified.
------------------------------------------------------------------------
   Flexibilities that modified procedures for receiving and processing
                               information
------------------------------------------------------------------------
Online Applications  Allows SNAP applicants to  May ease the completion
 and Case             apply for benefits         of paperwork for the
 Management           online. Many state         participant and the
                      websites also allow        caseworker.
                      clients to view            Participants can
                      information about their    complete applications
                      case or report changes     and submit paperwork
                      in factors that affect     online. For the
                      eligibility or benefit     caseworker, information
                      levels.                    provided on-line may be
                                                 easier to document,
                                                 retrieve, and process.
Call Centers         Allows states to reduce    May ease participant
                      the time local offices     reporting of required
                      spend answering phone      household changes. May
                      calls concerning general   also reduce burden on
                      SNAP information and       local offices.
                      application and benefit
                      status, conducting
                      certification
                      interviews, handling
                      customer complaints, and
                      processing changes. In
                      some states, call
                      centers go beyond these
                      functions to directly
                      certify and re-certify
                      households.
Modernization        Allows states to take      May simplify program
 Initiatives          modernization              administration, for
                      initiatives which          example, through
                      include a range of         specialization of
                      innovative managerial      caseworker tasks, as
                      and technology solutions   this enables staff to
                      to increase efficiency.    focus on certain
                                                 aspects of the
                                                 eligibility process,
                                                 thus increasing
                                                 efficiency and
                                                 potentially reducing
                                                 errors.
Document Imaging     Allows states to use       May simplify program
                      document imaging to scan   administration by
                      paper documents and        making applicant
                      convert them to digital    documentation
                      images that are stored     electronically
                      in an electronic format.   available, thus easing
                                                 the certification
                                                 process
Early Denial         FNS regulations allow      May help households
 Waivers              households 30 days to      avoid a disruption in
                      provide verification       benefits due to missing
                      prior to denying the       paperwork. Thus, this
                      household's application,   may prevent applicants
                      in cases of missing        from having to re-
                      documentation. Under the   apply, which introduces
                      waiver, state agencies     more opportunities for
                      may deny an application    error, than if the
                      if the applicant fails     households had provided
                      to provide verification    necessary verifications
                      within 10 days of the      to continue their
                      state agency's request.    benefits.
                      However, the client
                      still has the right to
                      provide the information
                      by the 30th day and if
                      she or he does so, the
                      application must not be
                      denied.
Reinstatement        Allows states to           May prevent applicants
 waiver               reinstate recently         from having to re-
                      ineligible households      apply, reducing
                      without requiring a new    application volume and
                      application if the         the opportunity for
                      household provides         participant or
                      verification required to   caseworker error.
                      reestablish eligibility
                      during the calendar
                      month following the
                      effective date of
                      closure.
------------------------------------------------------------------------
Source: GAO analysis of information in USDA's 2013 State Options report,
  USDA's SNAP Certification Policy Waiver Database (updated as of March
  2016), and other FNS documents.DGAO-16-708T.
Note: In conducting this analysis, we did not analyze Federal or state
  laws or regulations, and all descriptions and analysis of the various
  policy flexibilities are based on the documents and research we
  reviewed.
a Flexibilities may have had multiple characteristics that suggested
  opposite effects; in those instances we selected what we considered to
  be the over-riding or primary effect.
b Whether the caseworker needs to process a change, which the caseworker
  comes to know about but that the participant was not required to
  report, depends on whether the state has a policy to act on all
  changes.
c See U.S. Department of Agriculture, Food and Nutrition Service, The
  Effect of Simplified Reporting on Food Stamp Payment Accuracy, October
  2005.


   Table 8: Three Options That Potentially Increase the Likelihood of
         Supplemental Nutrition Assistance Program (SNAP) Errors
------------------------------------------------------------------------
   Option/ Waiver           Description               Explanation a
------------------------------------------------------------------------
Comparable           Can disqualify SNAP        Adds a step for
 Disqualification     applicants or recipients   caseworkers to
 option               who fail to perform        determine whether
                      actions required by        disqualifications in
                      other Federal, state, or   other programs are to
                      local means tested         be imposed for SNAP.
                      public assistance
                      programs. A state agency
                      has the option to select
                      the types of
                      disqualifications within
                      a program that it wants
                      to impose on SNAP
                      recipients.
Child Support-       Can disqualify             Adds a step for
 Related              individuals who fail to    caseworkers to
 Disqualification     cooperate with child       determine whether an
 option               support enforcement        applicant or
                      agencies, who are in       participant met these
                      arrears in court-ordered   conditions, thereby
                      child support payments,    increasing the
                      or both.                   opportunity for error.
Simplified           Averages expenses that     Requires an additional
 Deduction            are billed more or less    calculation to average
 Determination        often than on a monthly    a bill across several
 option               basis. For example, if a   months instead of
                      household receives a       counting the bill in
                      single bill in February    the month it was due.
                      which covers a 3 month
                      period, the bill may be
                      averaged over February,
                      March, and April.
                      Conversely, a one-time
                      only expense can be
                      averaged over the entire
                      certification period in
                      which they are billed.
------------------------------------------------------------------------
Source: GAO analysis of information in USDA's 2013 State Options report,
  USDA's SNAP Certification Policy Waiver Database (updated as of March
  2016), and other FNS documents.DGAO-16-708T.
Note: In conducting this analysis, we did not analyze Federal or state
  laws or regulations, and all descriptions and analysis of the various
  policy flexibilities are based on the documents and research we
  reviewed.
a Flexibilities may have had multiple characteristics that suggested
  opposite effects; in those instances we selected what we considered to
  be the over-riding or primary effect.


  Table 9: Four Options That Likely Have a Mixed Effect on Supplemental
           Nutrition Assistance Program (SNAP) Payment Errors
------------------------------------------------------------------------
   Option/ Waiver           Description                Explanation
------------------------------------------------------------------------
Simplified           State agencies can act on  If a state chooses to
 Reporting--Action    all changes reported       act on all changes,
 on Change option     during the certification   then caseworkers may
                      period, or to act only     have to process more
                      on certain changes. This   household changes.
                      option allows states       However, this option
                      that have combined SNAP/   could also lead to less
                      Temporary Assistance for   participant and
                      Needy Families (TANF)      caseworker confusion
                      programs to more           due to aligned program
                      seamlessly integrate. It   requirements.
                      avoids a situation where
                      the TANF program has
                      acted on a change, but
                      SNAP has not, and
                      decreases caseworker
                      burden by aligning the
                      programs.
Ineligible Non-      Although ineligible non-   If the state chooses to
 Citizens Income      citizens cannot receive    prorate income, this
 and Deductions       SNAP benefits, their       adds another step to
 option               income is relevant to      the eligibility
                      the SNAP determinations    determination process,
                      for other eligible         increasing program
                      individuals who live in    complexity. However,
                      their household. States    according to FNS,
                      have various options for   prorating for all
                      counting the income and    ineligible non-citizens
                      deductions of ineligible   (as opposed to only for
                      non-citizens, including    some) may simplify
                      to prorate these           program administration
                      amounts.                   because of uniform
                                                 eligibility rules.
Broad Based          BBCE makes households      In states that adopted
 Categorical          categorically eligible     BBCE and, in effect,
 Eligibility (BBCE)   for SNAP because they      eliminated SNAP asset
 option               qualify for a non-cash     limits, participants no
                      TANF or state funded       longer need to provide
                      benefit, such as a         documentation of assets
                      pamphlet or 800 number.    and caseworkers no
                                                 longer needed to verify
                                                 these amounts. At the
                                                 same time, in states
                                                 that adopted BBCE and,
                                                 in effect, increased
                                                 the SNAP gross income
                                                 limit, it may result in
                                                 greater numbers of
                                                 households with earned
                                                 income participating in
                                                 SNAP. According to
                                                 USDA's data on causes
                                                 of error, income is the
                                                 most common cause of
                                                 error when determining
                                                 benefit amounts.
Drug Felony          Federal law permanently    The effect of this
 Disqualification     disqualifies people from   option on the
 option               SNAP participation if      likelihood of errors
                      they have been convicted   depends on whether a
                      of a state or Federal      modified ban or no ban
                      felony offense, based on   is adopted. Under a
                      behavior which occurred    modified ban, the level
                      after August 22, 1996,     of case complexity
                      involving the              appears to be similar
                      possession, use or         to what it would be
                      distribution of a          under a lifetime ban,
                      controlled substance.      as the caseworker would
                      State legislatures can     still need to delve
                      opt out of the penalty     into the participant's
                      entirely or choose to      criminal justice
                      impose less severe         background to ascertain
                      restrictions through a     what crime was
                      modified ban.              committed. However, in
                                                 a state with no ban,
                                                 case complexity would
                                                 be eased, as the
                                                 caseworker would no
                                                 longer need to research
                                                 the client's criminal
                                                 justice background.
------------------------------------------------------------------------
Source: GAO analysis of information in USDA's 2013 State Options report,
  USDA's SNAP Certification Policy Waiver Database (updated as of March
  2016), and other FNS documents.DGAO-16-708T.
Note: In conducting this analysis, we did not analyze Federal or state
  laws or regulations, and all descriptions and analysis of the various
  policy flexibilities are based on the documents and research we
  reviewed.


    Table 10: Nine Options and Waivers That Likely Have No Effect on
     Supplemental Nutrition Assistance Program (SNAP) Payment Errors
------------------------------------------------------------------------
   Option/ Waiver           Description                Explanation
------------------------------------------------------------------------
Child Support        Treats legally obligated   Has no effect on the
 Expense Income       child support payments     amount of information
 Exclusion option     made to non-household      participants need to
                      members as income          provide nor does it
                      exclusion rather than a    change case processing,
                      deduction. This option     as a household's child
                      helps to encourage         support payment still
                      payment of child support   needs to be assessed,
                      by excluding the amount    verified, and
                      paid from being            documented.
                      considered part of the
                      payer's gross income.
Work Requirements    Individuals who fail to    Does not change case
 and                  comply with SNAP work      processing, as
 Disqualification     requirements without       caseworkers still have
 option               good cause are             to undertake the
                      ineligible for program     disqualification/
                      benefits and               sanction process.
                      disqualified from SNAP
                      for certain periods of
                      time, depending on how
                      many prior instances of
                      non-compliance there
                      have been. The law gives
                      states the options to
                      (1) set disqualification
                      periods longer than
                      these minimum mandatory
                      periods, (2) make the
                      disqualification
                      permanent upon the third
                      occurrence, and (3)
                      sanction the entire
                      household if the head of
                      household fails to
                      comply with work
                      requirements.
Names for SNAP       As of Oct. 1, 2008, the    Has no effect on the
 option               name for the Food Stamp    likelihood of errors.
                      Program changed to
                      Supplemental Nutrition
                      Assistance Program
                      (SNAP). At the state
                      level, state agencies
                      may adopt the new
                      program name SNAP,
                      continue to refer to
                      their program as the
                      Food Stamp Program, or
                      choose an alternate
                      name.
Electronic Notices   Allows the states to       Affects the method of
 waiver               issue electronic notices   communication with the
                      to clients who elect to    client, not program
                      receive notices via e-     requirements. Has no
                      mail rather than paper     effect on the amount of
                      mail.                      information
                                                 participants need to
                                                 provide, nor does it
                                                 change case processing.
Not Pay for Postage  Waives the use of postage  Has no effect on the
 for Change Reports   paid envelopes for         information that
 waiver               change report forms.       participants need to
                                                 report and the
                                                 caseworkers need to
                                                 verify.
Postpone Expedited   Allows the state to        Delays the information
 Service Interviews   postpone the               participants need to
 waiver               certification interview    report and that
                      for certain expedited      caseworkers need to
                      service households for     verify; thus it does
                      up to 2 months, provided   not ease program
                      that household identity    requirements but rather
                      is verified and staff      changes the timeframes.
                      have attempted to          If a case were selected
                      contact the household      for quality control
                      for interview.             review and the
                                                 interview had not yet
                                                 been completed due to
                                                 the waiver, differences
                                                 in the quality control
                                                 determined benefit
                                                 amount and the actual
                                                 amount that were
                                                 discovered through an
                                                 interview would not be
                                                 considered an error
                                                 because of the
                                                 existence of the
                                                 waiver.
Provide Paper Copy   Allows the state to waive  Has no effect on the
 of Online            its obligation to          likelihood of errors.
 Application waiver   provide a copy of the
                      online application
                      information to clients
                      who do not request a
                      copy.
Telephone Interview  Enables states to allow    Has no effect on the
 In-Lieu of Face-to-  interviews via telephone   amount of information
 Face Interview       in lieu of a face-to-      participants need to
 waiver               face interview without     provide, nor does it
                      the need to document       change case processing.
                      client hardship.           FNS has reported that
                                                 it found little
                                                 evidence that the
                                                 likelihood of errors
                                                 was affected by the
                                                 interview method.
On-Demand Interview  Allows the state to waive  Has no effect on the
 waiver               interview scheduling       amount of information
                      requirements, allowing     participants need to
                      clients the option to      provide, nor does it
                      call the state to          change case processing.
                      complete the interview
                      during business hours
                      within a certain time
                      period.
------------------------------------------------------------------------
Source: GAO analysis of information in USDA's 2013 State Options report,
  USDA's SNAP Certification Policy Waiver Database (updated as of March
  2016), and other FNS documents.DGAO-16-708T.
Note: In conducting this analysis, we did not analyze Federal or state
  laws or regulations, and all descriptions and analysis of the various
  policy flexibilities are based on the documents and research we
  reviewed.

          This is a work of the U.S. Government and is not subject to 
        copyright protection in the United States. The published 
        product may be reproduced and distributed in its entirety 
        without further permission from GAO. However, because this work 
        may contain copyrighted images or other material, permission 
        from the copyright holder may be necessary if you wish to 
        reproduce this material separately.
GAO's Mission
    The Government Accountability Office, the audit, evaluation, and 
investigative arm of Congress, exists to support Congress in meeting 
its constitutional responsibilities and to help improve the performance 
and accountability of the Federal Government for the American people. 
GAO examines the use of public funds; evaluates Federal programs and 
policies; and provides analyses, recommendations, and other assistance 
to help Congress make informed oversight, policy, and funding 
decisions. GAO's commitment to good government is reflected in its core 
values of accountability, integrity, and reliability.
Obtaining Copies of GAO Reports and Testimony
    The fastest and easiest way to obtain copies of GAO documents at no 
cost is through GAO's website (http://www.gao.gov). Each weekday 
afternoon, GAO posts on its website newly released reports, testimony, 
and correspondence. To have GAO e-mail you a list of newly posted 
products, go to http://www.gao.gov and select ``E-mail Updates.''
Order by Phone
    The price of each GAO publication reflects GAO's actual cost of 
production and distribution and depends on the number of pages in the 
publication and whether the publication is printed in color or black 
and white. Pricing and ordering information is posted on GAO's website, 
http://www.gao.gov/ordering.htm.
    Place orders by calling (202) 512-6000, toll free (866) 801-7077, 
or TDD (202) 512-2537.
    Orders may be paid for using American Express, Discover Card, 
MasterCard, Visa, check, or money order. Call for additional 
information.
Connect with GAO
    Connect with GAO on Facebook (http://facebook.com/usgao), Flickr 
(http://flickr.com/usgao), Twitter (http://twitter.com/usgao), and 
YouTube (http://youtube.com/usgao).
    Subscribe to our RSS Feeds (http://www.gao.gov/feeds.html) or E-
mail Updates (http://www.gao.gov/subscribe/index.php).
    Listen to our Podcasts (http://www.gao.gov/podcast/watchdog.html) 
and read The Watchblog (http://blog.gao.gov/).
    Visit GAO on the web at www.gao.gov.
To Report Fraud, Waste, and Abuse in Federal Programs
    Contact:

  Website: http://www.gao.gov/fraudnet/fraudnet.htm
  E-mail: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a4c2d6c5d1c0cac1d0e4c3c5cb8ac3cbd2">[email&#160;protected]</a>
  Automated answering system: (800) 424-5454 or (202) 512-7470
Congressional Relations
    Katherine Siggerud, Managing Director, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4b38222c2c2e393e2f200b2c2a24652c243d">[email&#160;protected]</a>, (202) 
512-4400, U.S. Government Accountability Office, 441 G Street NW, Room 
7125, Washington, D.C. 20548.
Public Affairs
    Chuck Young, Managing Director, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="afd6c0dac1c8cc9eefc8cec081c8c0d9">[email&#160;protected]</a>, (202) 512-4800 
U.S. Government Accountability Office, 441 G Street NW, Room 7149 
Washington, D.C. 20548.

    The Chairman. Thank you, Ms. Brown.
    Mr. Yost, 5 minutes.

STATEMENT OF HON. DAVE YOST, AUDITOR, STATE OF OHIO, COLUMBUS, 
                               OH

    Mr. Yost. Thank you, Mr. Chairman.
    The Chairman. You need to push your microphone closer.
    Mr. Yost. Chalk it up to nervousness, Mr. Chairman.
    Thank you, Chairman Conaway, Ranking Member Peterson, and 
Members of the Committee. I appreciate the opportunity to 
testify today, and particularly want to recognize my friend, 
Representative Gibbs from Ohio, and Representative Fudge, for 
their service on this Committee.
    Recently, our team audited EBT card usage to identify 
indicators of fraud or misuse. The main goal of the audit was 
not to find cases of fraud, but to search for structural 
weaknesses in the program that heighten risk.
    Our findings lead me to conclude that there are likely 
millions of dollars of fraud in Ohio's $2.5 billion program. 
The problems we found will not resolve, of course, the Federal 
deficit, but fraud and poor management undermine public support 
for this program.
    We looked at a 6 month period in 2015. I have attached my 
entire report to my testimony. And in the interest of time, I 
will just point out a few of the more troubling findings. We 
identified 36 instances where dead people received benefits 
more than a year after their death. In some cases, someone was 
still using the card. Federal law requires at least an annual 
comparison of death records against beneficiaries, so the 
number should have been zero. There were actually more than 
1,800 people who continued to receive benefits after their 
death, but for a period of less than 1 year. We also found 
1,337 recipients with balances greater than $2,300; about twice 
the maximum benefit for a family of eight: 173 had balances of 
more than $5,000, including one who had more than $20,000 
balance. If you can bank thousands of dollars, I would 
respectfully suggest you are not in immediate need.
    States may only expunge benefits after an entire year of 
dormancy, but if a card is used just once, even for a can of 
soda, that 1 year clock resets and balances can continue to 
grow.
    We also saw some unusual card activity. When was the last 
time any of us went to the grocery store and walked away with a 
bill of exactly $100, with no cents charged? We found 183,400 
even-sum transactions, even-dollar transactions, worth $28.5 
million. The scatter graph that you see on your monitors, your 
iPads, illustrates that there are sets of transactions by 
retailer that would provide fertile ground for further 
investigation, looking at those at the top. Or how often have 
you checked out of the grocery store at precisely the same time 
every month, and had exactly the same total every month, for 6 
months in a row? We found that, and you can see the graphic 
there. We also found multiple purchases by one person at the 
same retailer, within the same hour. A person we have dubbed 
Recipient 9, used their card to make six purchases within 1 
hour, totaling $1,555. When did you last spend that much on 
groceries?
    Recipients can use their benefit cards in other states, and 
we expected to see usage in our neighboring states. We did not 
expect to find usage in states as far away as Florida and Texas 
and Minnesota. We found $28.7 million that were spent outside 
of Ohio. More than \1/3\ of that spent in far-flung states. Are 
these recipients living in the other states, or selling 
benefits, or double-dipping? Important questions to answer.
    The Federal Public Assistance Reporting Information System, 
PARIS, which has previously been cited, uses data matching to 
identify people who might be receiving duplicate benefits.
    In conclusion, I do not believe that fraud is rampant in 
Ohio, but it does exist and it is significant. Food stamp fraud 
hardens the hearts of good people, and deafens their ears to 
the sound of hunger. Every dollar wasted or fraudulently spent 
is a dollar that could be used for its intended purpose to feed 
the poor. For those who hunger and those who pay the bill, we 
owe a greater effort toward integrity.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Yost follows:]

Prepared Statement of Hon. Dave Yost, Auditor, State of Ohio, Columbus, 
                                   OH
    Good morning Chairman Conaway, Ranking Member Peterson, and Members 
of the Committee. Thank you for the opportunity to testify today. I 
particularly want to recognize Ohio Representatives Gibbs and Fudge for 
their service on this Committee.
    My name is Dave Yost. I am the Auditor of the State of Ohio, one of 
five constitutional officers elected statewide.
    Recently, our team audited EBT card usage data to identify 
indicators of fraud or misuse. The main goal of the audit was not to 
find cases of fraud, but to search for structural weaknesses in the 
program that heighten risk. Our findings lead me to conclude that there 
are likely millions of dollars in fraud in Ohio's $2.5 billion program.
    The problems we found will not resolve the Federal deficit, but 
fraud and poor management undermine public support for the program.
Ohio SNAP Audit Findings
    We looked at a 6 month period in 2015. I have attached the entire 
report to my testimony, but in the interest of time, I will point out a 
few of the more troubling findings.
Deceased Recipients
    We identified 36 instances where dead people received benefits more 
than a year after their death. In some cases, someone was still using 
the card. Federal law requires at least an annual comparison of death 
records against the list of beneficiaries--so the number should have 
been zero. (There were actually more than 1,862 people who continued to 
receive benefits after death, but for a period of less than a year.)
Excessive Card Balances
    We also found 1,337 recipients with balances greater than $2,300--
about twice the maximum benefit for a family of eight. Some 173 had 
balances of more than $5,000--including one with more than $20,000.
    If you can bank thousands of dollars, you are not in immediate 
need.
    States may only expunge benefits after an entire year of dormancy. 
But if the card is used just once--even for a can of soda--that 1 year 
clock resets and balances can continue to grow.
Unusual Card Activity
    When was the last time you went grocery shopping and walked away 
with a bill of exactly $100 and no cents? We found 183,400 such 
examples of $100 or more--totaling $28.5 million.
Even Dollar Transactions
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Or, how often have you checked out at the grocery store at 
precisely the same time every month and had the exact same total every 
month, 6 months in a row? We found that.
Unusual Card Activity
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    We also found multiple purchases by one person from the same 
retailer within the same hour. A person we've dubbed Recipient No. 9 
used their card to make six purchases for $1,555--all within 1 hour! 
When did you last spend that much on groceries?
One Hour Transactions
One Recipient, One Hour, Two Retailers, Six Transactions
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Recipients can use their benefit card in other states, and we 
expected to see usage in our neighboring states. But we didn't expect 
to find usage in states as far away as Florida, Texas and Minnesota. We 
found $28.7 million spent outside of Ohio, more than a third of it 
spent in far-flung states. Are these recipients living in other states, 
or selling benefits, or double-dipping?
Where is Ohio money going?
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Federal Public Assistance Reporting Information System (PARIS) 
uses data-matching to identify people who might receive duplicate 
benefits in two or more states. But the states only have to submit 
information once a year and are not required to report on SNAP. This 
important program needs to be strengthened.
Multiple Reports
    In total, we reviewed seven different reports that identify 
retailers and individuals with suspect activity. Merely being on such a 
report does not mean that a person committed fraud.
    But we found nearly 1,100 recipients who appeared on five of the 
seven reports and more than 1,400 retailers flagged on four reports.
    Appearing on one report might be meaningless. Showing up on most of 
them is what we in law enforcement refer to as a clue.
Benefits of Auditing and Data Mining
    There is much more in the report, but all of it points to two 
things: weaknesses in the system that can be exploited to commit fraud, 
and a set of tools that can be used to manage the program better, much 
better.
    This is not limited to Ohio. Only about \1/4\ of the states have 
undertaken this sort of audit, but the results are similar across the 
country.
    Mr. Chairman, I am grateful that this Committee is undertaking 
study and reform. Our report makes some suggestions, and you will hear 
others. But, I would suggest an overarching principle for reform: 
Block-granting this program to the states.
    While we can identify the problems, the solutions are often less 
obvious. The only iron rule in government, it seems, is the Law of 
Unintended Consequences. When the Federal Government makes a change and 
there are unintended consequences, we all feel the pain if a reform 
fails. If the states develop their own management systems, failures 
will be limited to that state, and the successes and innovations will 
be there for others to copy.
    I do not believe that fraud is rampant in Ohio, but it does exist, 
and it is significant. Food stamp fraud hardens the hearts of good 
people and deafens their ears to the sound of hunger. Every dollar 
wasted or fraudulently spent is a dollar that could be used for its 
intended purpose: to feed the poor. For those who hunger, and for those 
who pay the bill, we owe a greater effort toward integrity.
                              [Attachment]
Ohio Department of Job and Family Services_Auditor's Report on the 
        Supplemental Nutrition Assistance Program for the Period 
        January 1, 2015 Through June 30, 2015
Hon. Dave Yost, Auditor of State
Table of Contents
    Auditor's Report
    General Background
    Deceased Recipients
    Duplicated Recipients
    Unusual Card Activity

          Even Dollar Transactions
          Replacement Cards
          Out-of-State Activity
          Manual Card Entries
          Full Benefit Withdrawal Transactions
          Excessive PIN Attempts
          Invalid Card Attempts
          Multiple Consecutive Transactions
          Recipients and Retailers Identified on Multiple Reports

    Excessive Card Balances
    EPPIC Reports Use
    Overall Recommendations
Auditor's Report
  Ohio Department of Job and Family Services
  30 East Broad Street, 32nd Floor
  Columbus, OH 43215

    We have audited the Ohio Department of Job and Family Services' 
(the Department) Supplemental Nutrition Assistance Program (SNAP--
formerly known as Food Stamps) Electronic Benefit Transfer Card (EBT) 
usage data and other pertinent information for the period January 1, 
2015 through June 30, 2015, under the authority of Ohio Revised Code 
Section 117.11.
    We have performed the procedures enumerated in this report to 
identify anomalies which may indicate higher risks related to misuse, 
fraud, or other concerns regarding SNAP EBT Card transactions and 
inquired whether procedures were in place to mitigate the identified 
risks.
    The information that follows describes the procedures performed 
during our audit and the related results for each procedure. Our 
analysis was based on information provided by the Department directly, 
including reports for analysis they obtained from a service 
organization; the completeness and accuracy of which we could not 
verify. The Department indicated they reviewed the reports prior to 
providing them for audit. Because retailer and recipient information is 
confidential according to the Food and Nutrition Act of 2008 at 7 
U.S.C. 2018(c) and 7 CFR 278.1(q), we have not included any names or 
other identifiers in our report results.
    This engagement was not a financial or performance audit, the 
objectives of which would be vastly different. Therefore, it was not 
within the scope of this work to conduct a comprehensive and detailed 
examination of the SNAP EBT Card activity or test for compliance with 
program requirements and other Federal regulations, or evaluate for 
efficiencies of the processes.
    On May 26, 2016, we held an exit conference with the Department's 
management and discussed the contents of this report. A response was 
received on June 8, 2016 and was evaluated and included in our working 
papers.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Dave Yost,
Auditor of State,
Columbus, Ohio,
May 26, 2016.
General Background
    The Department is the single state agency responsible for 
administering the SNAP program in Ohio. During Fiscal Year (FY) 2015, 
the Department reported approximately $2.5 billion in SNAP benefits 
issued to 824,231 primary recipients on behalf of their assistance 
groups (referred to throughout this report as recipients); 
approximately $1.3 billion of which was issued during our 6 month audit 
period. The Department utilizes a state-supervised, county-administered 
approach for the SNAP program. As a result, certain processing 
functions are performed by the 88 County Departments of Job and Family 
Services (CDJFS). The Department's Client Registry Information System--
Enhanced (CRIS-E) determines eligibility and benefit amounts based on 
income, dependents, and other information entered by the 88 CDJFS. The 
Ohio Benefits System (a new integrated eligibility system) is expected 
to replace CRIS-E in 2017. Any recommendations referenced to CRIS-E 
would also apply to the new eligibility system. The CDJFS are also 
tasked with maintaining the documentation to support the information 
entered into CRIS-E and for following up on recipient issues.
    The Department has also contracted with a service organization, 
Xerox, to perform various functions related to the SNAP EBT Card 
process, including:

  <bullet> issuing EBT cards to SNAP recipients based on eligibility 
        information from CRIS-E;

  <bullet> loading available benefits onto the EBT cards each month 
        based on information from CRIS-E;

  <bullet> expunging expired benefits from the cards based on rules 
        provided by the Department;

  <bullet> processing food purchase transactions from the retailers 
        (provided to the United States Department of Agriculture's, 
        Food Nutrition Services (FNS)); and

  <bullet> requesting reimbursement for food purchases on behalf of the 
        retailers from FNS.

    The EBT cards are automatically loaded each month with the 
recipients' benefits issued. The recipients are then able to use their 
benefits to purchase (claim) food at retailers authorized by FNS by 
swiping their card and entering their PIN. FNS has maintained 
responsibility for the identification and investigation of fraud 
related to retailers, although oftentimes contracts with other agencies 
for this function; the state is responsible for the identification and 
investigation of fraud related to recipients.
    We requested and the Department provided several CRIS-E reports and 
Electronic Payment Processing Information Control (EPPIC--Xerox report 
package system) reports, in order to perform our audit. We also 
requested listings of deceased individuals from the Ohio Department of 
Health for 2010 through 2014. In addition, we inquired with the 
Department and ten selected CDJFS regarding procedures used to mitigate 
the identified risks. All amounts included in this report have been 
rounded to the nearest dollar, unless otherwise indicated.
Deceased Recipients
    7 CFR 272.14(c)(1) requires that states shall provide a system for:

          Comparing identifiable information about each household 
        member against information from databases on deceased 
        individuals. States shall make the comparison of matched data 
        at the time of application and no less frequently than once a 
        year.

    If benefits are issued and loaded onto EBT cards on behalf of 
deceased individuals, there is a higher risk those benefits will be 
obtained and used by an unauthorized individual. This risk is further 
increased if benefits are not terminated timely. Under the current 
process, the Department receives files weekly from the United States 
Department of Commerce--National Technical Information Services' (NTIS) 
database listing all deceased individuals. The listing is uploaded and 
stored within CRIS-E and CRIS-E matches to recipient data at midnight 
that evening. When CRIS-E matches a new deceased record with an 
existing recipient, an error alert is generated for the recipient's 
case file record. The CDJFS case worker is to review and verify the 
alert and take appropriate action. However, because of the current 
``pay and chase'' process in place, if these alerts are not worked 
timely, there is an increased risk and effort in recouping 
inappropriate benefits claimed. Using the 2010 through 2014 deceased 
files obtained from the Ohio Department of Health, we performed the 
following procedures:

  (A)  We compared deceased individuals to benefit recipients in CRIS-E 
            and identified 1,862 instances in which a deceased 
            individual was issued benefits during the audit period. We 
            then evaluated the date of death to determine if it was 
            prior to January 1, 2014 to evaluate the Department's 
            compliance with 7 CFR 272.14(c)(1) which only requires they 
            perform the match to deceased individuals ``no less 
            frequently than annually'', resulting in a possibility of a 
            12 month lapse between the date of death and the update of 
            CRIS-E records. We identified 36 instances in which the 
            individual's date of death was prior to January 1, 2014 
            and, thus, the CRIS-E file should have been updated prior 
            to our audit period. The Department issued an estimated 
            $24,406 in benefits to these recipients; $13,598 of which 
            was claimed for nine of these recipients, resulting in 
            questioned costs for the claimed amount included in the FY 
            2015 State of Ohio Single Audit Report. The Department's 
            related corrective action plan was also included in the 
            State of Ohio Single Audit Report.

  (B)  We haphazardly selected 20 deceased individuals from those 
            remaining in the deceased file (excluding the items matched 
            from step A above). For each individual selected, we 
            verified CRIS-E was updated within 1 year from the date of 
            death and the individual's benefits were terminated, per 
            the code of Federal regulations. There were claims paid to 
            the recipient number after the date of death, however, all 
            20 of these individuals were part of a larger recipient 
            group that would be associated with the same recipient 
            number.

                          Recommendation No. 1
------------------------------------------------------------------------
 
-------------------------------------------------------------------------
    We recommend the Department implement additional procedures to
 reasonably ensure the CDJFS caseworkers are reviewing and verifying the
 CRIS-E error alerts and taking appropriate action timely to reduce the
 risk that benefits are being claimed by an unauthorized individual. The
 Department should:
 
    <bullet> Conduct additional mandatory training with CDJFS
     caseworkers pertaining to the review and resolution of CRIS-E
     errors alerts generated for deceased individuals, including more
     timely resolution of alerts.
 
    <bullet> Implement a process to prioritize these alerts for the
     CDJFS caseworkers to follow up on based on number of fields
     matched.
 
    <bullet> Perform quarterly reviews, at a minimum, of all CRIS-E
     error alerts generated for deceased individuals and reasonably
     ensure they are being investigated and resolved timely by the
     CDJFS.
 
    <bullet> Consider implementing an automated control in CRIS-E to
     terminate eligibility for recipients when all data related to the
     deceased individual matches to the data provided by the NTIS.
 
    <bullet> Investigate the recipients specifically identified in our
     testing to ensure any necessary repayments are received or
     additional actions are taken.
------------------------------------------------------------------------

Duplicated Recipients
    If one individual is assigned multiple recipient numbers, there is 
a higher risk the individual will be issued duplicate benefits, which 
could result in unallowable and/or fraudulent benefit claims paid. When 
a new applicant's information is entered into CRIS-E, a recipient 
number is assigned to the applicant. If the CRIS-E edit checks identify 
this individual may already be assigned a recipient number, an error 
alert is generated for the CDJFS caseworker to review/investigate the 
alert and take appropriate action. These error alerts are generated to 
help ensure one individual is not assigned multiple recipient numbers. 
In addition, during the application entry process, the caseworker is to 
ensure the [S]ocial [S]ecurity [N]umber provided is valid by checking 
it in a CRIS-E subsystem, which interfaces with the United States 
Social Security Administration's (SSA) database. Using the overall 
benefits listing report from CRIS-E, we performed the following 
procedures:

  (A)  We identified all individuals on the recipient listing who had 
            the same name and date of birth, but with different 
            [S]ocial [S]ecurity [N]umbers and recipient numbers. There 
            were 153 instances identified where an individual's name 
            and date of birth was associated with more than one 
            recipient number for a total of 322 recipient numbers. We 
            were able to determine that, in 104 of the 153 instances, 
            each individual had a valid [S]ocial [S]ecurity [N]umber 
            and were, therefore, separate individuals. For the 
            remaining 49 instances related to 98 recipient numbers, one 
            of the [S]ocial [S]ecurity [N]umbers was not a valid 
            number. The Department indicated that, in 37 of these 
            instances, the [S]ocial [S]ecurity [N]umber was 
            inaccurately entered initially. Once the mistake was 
            identified, the CDJFS case worker entered the correct 
            [S]ocial [S]ecurity [N]umber and a new recipient number was 
            generated. However, there were 12 instances related to 24 
            recipient numbers in which benefits, totaling $17,878, were 
            issued for the same months and the recipient could have 
            received duplicate benefits. This amount was included in 
            the questioned costs reported in the FY 2015 State of Ohio 
            Single Audit Report. The Department's related corrective 
            action plan was also included in the State of Ohio Single 
            Audit Report.

  (B)  We compared [S]ocial [S]ecurity [N]umbers to all recipient 
            numbers in CRIS-E. There were four instances identified 
            where two recipient numbers were associated with the same 
            [S]ocial [S]ecurity [N]umber for a total of eight recipient 
            numbers. We were able to determine no overlapping benefit 
            payments were made to four of these recipient numbers 
            because a new recipient number was assigned when the 
            individual reapplied due to changes in their eligibility. 
            In the other four cases, the recipient numbers were created 
            within the system for test purposes and were not actual 
            recipients.

                          Recommendation No. 2
------------------------------------------------------------------------
 
-------------------------------------------------------------------------
    We recommend the Department implement additional procedures to
 reasonably ensure the CDJFS caseworkers are reviewing and investigating
 the CRIS-E error alerts and validating the [S]ocial [S]ecurity [N]umber
 provided during the application process. The Department should:
 
    <bullet> Conduct additional mandatory training with CDJFS
     caseworkers pertaining to the application entry process. The
     training provided should specifically address how to review,
     investigate, and resolve errors alerts generated during the
     applicant entry process and reiterate the importance of validating
     the [S]ocial [S]ecurity [N]umber in the SSA subsystem.
 
    <bullet> Implement a process to prioritize these alerts for the
     CDJFS caseworkers to follow up on.
 
    <bullet> Perform quarterly reviews, at a minimum, of all CRIS-E
     error alerts generated for possible duplicated recipients and
     reasonably ensure they are being investigated and resolved timely
     by the CDJFS.
 
    <bullet> Consider implementing an automated control in CRIS-E to
     perform a real-time [S]ocial [S]ecurity [N]umber check to ensure a
     valid [S]ocial [S]ecurity [N]umber is entered prior to the
     determination of eligibility.
 
    <bullet> Investigate the recipients specifically identified in our
     testing to ensure any necessary repayments are received or
     additional actions are taken.
------------------------------------------------------------------------

Unusual Card Activity
    In many instances, fraud or other issues may be identified through 
data analysis. Xerox has made several standard ``fraud'' reports 
available to the Department and 88 CDJFS within the EPPIC reporting 
system. These reports can be used to identify possible anomalies or 
unusual occurrences pertaining to EBT card activities. We requested 
several EPPIC reports for our audit period from the Department, who 
reviewed the reports provided by Xerox prior to releasing them to us. 
We then reviewed the reports to identify anomalies which may indicate 
higher risks related to misuse of EBT cards.
Even Dollar Transactions
    We identified even dollar purchase transactions exceeding $100. 
Even dollar transactions are not common when purchasing food, 
particularly at small retailers where inventories are more limited. 
This risk could be less at large retailers where recipients are more 
likely to use their full benefit amount, typically issued in whole 
dollars. Therefore, excessive even dollar transactions associated with 
a certain recipient and/or retailer could signify potential fraudulent 
activity. The total even dollar transactions for our audit period were 
as follows:

------------------------------------------------------------------------
                                            Total         Total Dollar
  Total Retailers   Total Recipients    Transactions         Amount
------------------------------------------------------------------------
          13,200            129,141           183,437       $28,503,733
------------------------------------------------------------------------


  (i)  We prepared a graph showing all retailers utilized by recipients 
            for even dollar transactions and the total number of these 
            transactions per retailer to identify outliers.
Even Dollar Transactions
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  (ii)  We analyzed all even dollar transactions exceeding $100 to 
            identify retailers and recipients with multiple 
            occurrences. The following tables list the top 10 small 
            retailers (i.e., those retailers not part of a chain 
            representing higher risk) and recipients.

            Small Retailers--Highest Even Dollar Transactions
------------------------------------------------------------------------
      Retailer No.         Total Dollar Value      No. of Transactions
------------------------------------------------------------------------
                1                 $146,971                     690
                2                 $119,133                     707
                3                 $115,993                     716
                4                 $112,900                     776
                5                  $94,356                     597
                6                  $89,918                     457
                7                  $80,971                     370
                8                  $68,516                     264
                9                  $59,636                     236
               10                  $59,238                     291
                        ------------------------------------------------
  Total................           $947,632                   5,104
------------------------------------------------------------------------


              Recipients--Highest Even Dollar Transactions
------------------------------------------------------------------------
      Retailer No.         Total Dollar Value      No. of Transactions
------------------------------------------------------------------------
                1                  $11,504                      60
                2                   $4,626                      12
                3                   $3,740                       6
                4                   $3,258                       6
                5                   $3,119                       6
                6                   $3,096                       6
                7                   $3,000                       6
                8                   $2,908                       9
                9                   $2,760                      11
               10                   $2,734                       8
                        ------------------------------------------------
  Total................            $40,745                     130
------------------------------------------------------------------------

  (iii)  We analyzed one recipient in our top 10 who also made 
            significant even dollar purchases at one of the top 10 
            small retailers listed above. Below are the results.

                Recipient No. 2 Even Dollar Transactions
------------------------------------------------------------------------
                    Date and Time of      Amount of
 Transaction No.      Transaction        Transaction        Retailer
------------------------------------------------------------------------
             1     1/3/2015 12:00               $575            No. 1
                             a.m.
             2     1/3/2015 12:04               $196            No. 1
                             a.m.
             3     2/3/2015 12:01               $575            No. 1
                             a.m.
             4     2/3/2015 12:03               $196            No. 1
                             a.m.
             5     3/3/2015 12:01               $575            No. 1
                             a.m.
             6     3/3/2015 12:02               $196            No. 1
                             a.m.
             7     4/3/2015 12:00               $575            No. 1
                             a.m.
             8     4/3/2015 12:02               $196            No. 1
                             a.m.
             9     5/3/2015 12:00               $575            No. 1
                             a.m.
            10     5/3/2015 12:03               $196            No. 1
                             a.m.
            11     6/3/2015 12:01               $575            No. 1
                             a.m.
            12     6/3/2015 12:04               $196            No. 1
                             a.m.
                                     -------------------
  Total..........                             $4,626
------------------------------------------------------------------------


                          Recommendation No. 3
------------------------------------------------------------------------
 
-------------------------------------------------------------------------
    <bullet> The Even Dollar Transaction Report should be used as a
     monitoring tool to identify recipients with a significant number of
     even dollar transactions and implement procedures to investigate
     unusual activity.
 
    <bullet> As noted in the table above for Recipient 2, the dates,
     times of use, and same dollar amounts indicate an unusual pattern
     of use of the EBT card. The Department should review the individual
     transactions for each recipient and retailer identified in our
     testing to determine whether the amount and time the transactions
     were completed are unusual and should be further investigated.
 
    <bullet> The outliers identified in the retailer graph above should
     be reviewed to determine if there is anything unusual about the
     transactions associated with these retailers and if these retailers
     should be referred to the appropriate investigative agency.
 
    <bullet> As other anomalies are noted pertaining to retailers, the
     information should be forwarded to the appropriate investigative
     agency.
------------------------------------------------------------------------

Replacement Cards
    7 CFR 274.6(b)(5), effective November 2013, states, in part, ``The 
state agency may require an individual member of a household to contact 
the state agency to provide an explanation in cases where the number of 
requests for card replacements is determined excessive. If they so 
require, the state agency must establish a threshold for the number of 
card replacements during a specified period of time to be considered 
excessive. That threshold shall not be less than four cards requested 
within 12 months prior to the request . . .'' The Department has 
determined that four or more replacement cards issued during a 12 month 
period is considered excessive. We identified recipients that were 
issued replacement cards four or more times (``excessive replacement 
card recipients'') during our audit period. Excessive replacement cards 
issued to recipients could indicate the cards are being sold or 
otherwise traded for cash or other commodities, requiring the recipient 
to request additional cards. There were 1,431 recipients that were 
issued four or more replacement cards during our audit period. We also 
compared the number of recipients receiving excessive replacement cards 
to excessive replacement card recipients in 2011 for the same months; 
2011 was the last year similar procedures were conducted. See the 
results in the graph below.
Excessive (Four Or More) Card Replacements
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    We also compared the fluctuation percentage for recipients with ten 
or more replacement cards to the total number of SNAP recipients. In 
2011, we determined recipients issued ten or more replacement cards 
over the life of the EBT card program starting in March 2006 were 
excessive and reviewed accordingly. A decrease in the number of 
recipients with ten or more replacement cards issued was expected if 
recommendations made in the 2011 audit were implemented. There was a 
decrease in the percentage of recipients with ten or more replacement 
cards issued from 2011 to 2015 for the same 6 month period, and 
therefore, it appears that the Department implemented procedures to 
reduce the number of replacement cards issued.

------------------------------------------------------------------------
                                                         % of Recipients
                     Total Excessive     Total SNAP       with Frequent
      Period        Replacement Card     Recipients        Replacement
                        Recipients                            Cards
------------------------------------------------------------------------
          2011                  17           832,677          0.02042%
          2015                   2           824,231          0.00024%
------------------------------------------------------------------------


                          Recommendation No. 4
------------------------------------------------------------------------
 
-------------------------------------------------------------------------
    Implement procedures to review the Card Issuance & Replacement
 Report to reasonably ensure that excessive replacement cards issued are
 investigated and any possible fraudulent activity resulting from
 excessive issuances is investigated and action taken.
------------------------------------------------------------------------

Out-of-State Activity
    We identified all EBT card activity occurring out of state. If EBT 
cards are excessively utilized out of state, this could indicate the 
recipient does not live within state lines, is receiving benefits in 
more than one state, and/or exchanging their EBT card with others for 
cash and/or other commodities. The total purchase transactions made out 
of state were:

------------------------------------------------------------------------
       Recipients         Number of Transactions       Total Amount
------------------------------------------------------------------------
          118,316                  909,177              $28,725,305
------------------------------------------------------------------------

  (i)  We prepared a graph showing all retailers utilized by SNAP 
            recipients out-of-state and the total number of 
            transactions per retailer to identify outliers.
Out-of-State Activity
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  (ii)  We removed all the border state activity from the listing and 
            identified the following top 10 non-contiguous states with 
            the most activity:

------------------------------------------------------------------------
 
------------------------------------------------------------------------
State              Total      Total Amount    Top Two Cities within the
                 Recipients                              State
                    with
                  Activity
------------------------------------------------------------------------
Florida               9,174      $2,125,844  Orlando            $119,130
                                             Jacksonville       $104,091
Georgia               5,065      $1,149,962  Atlanta            $124,922
                                             Decatur             $58,833
Minnesota             4,733        $678,023  Marshall           $596,709
                                             Minneapolis         $17,893
Texas                 2,458        $662,746  Houston             $92,770
                                             San Antonio         $48,944
Tennessee             4,823        $623,976  Memphis             $70,824
                                             Sevierville         $58,100
North Carolina        3,150        $590,430  Charlotte          $106,496
                                             Fayetteville        $24,478
South Carolina        3,215        $469,114  Myrtle Beach       $134,017
                                             Columbia            $32,816
New York              2,207        $454,060  Brooklyn            $75,394
                                             Bronx               $61,914
Illinois              2,783        $451,144  Chicago            $159,528
                                             Rockford            $12,718
Alabama               1,808        $414,881  Tuscaloosa          $51,448
                                             Birmingham          $32,136
               -----------------------------
  Total              39,416      $7,620,180
------------------------------------------------------------------------

  (iii)  Next, we identified all the border state activity from the 
            listing and noted the following:

----------------------------------------------------------------------------------------------------------------
 
----------------------------------------------------------------------------------------------------------------
State                      Total      Total Amount     Top Two Cities within the State     Distance to City from
                         Recipients                                                             Ohio Border
                            with                                                               (approximate)
                          Activity
----------------------------------------------------------------------------------------------------------------
West Virginia                20,887      $5,846,885  Mason                    $1,335,979  1 mile
                                                     Huntington                 $932,926  3 miles
Kentucky                     26,471      $5,049,361  Ashland                  $1,361,317  1 mile
                                                     Covington                  $496,206  1 mile
Michigan                     12,328      $2,295,295  Lambertville               $345,344  4 miles
                                                     Detroit                    $335,095  52 miles
Pennsylvania                 11,299      $2,208,820  Erie                       $303,357  32 miles
                                                     Hermitage                  $285,184  5 miles
Indiana                       9,850      $2,125,093  Richmond                   $496,068  5 miles
                                                     Fort Wayne                 $267,538  20 miles
                       -----------------------------
  Total                      80,835     $17,525,454
----------------------------------------------------------------------------------------------------------------

  (iv)  Since recipients living in counties bordering other states may 
            use their card significantly within those bordering states, 
            we removed all purchases made in a bordering state for any 
            recipients whose county of residence bordered that state 
            and analyzed the remaining activity. We identified the top 
            10 recipients with the most out-of-state activity:

------------------------------------------------------------------------
                             County of       Total         Number of
Recipient No.     State      Residence       Amount       Transactions
------------------------------------------------------------------------
1              Pennsylvan  Franklin            $2,775                 31
                ia
2              Michigan    Cuyahoga            $2,722                  3
3              New York    Cuyahoga            $2,155                  1
4              South       Seneca              $2,056                  4
                Carolina
5              Kentucky    Butler              $1,663                 10
6              Colorado    Montgomery          $1,608                 11
7              Florida     Stark               $1,543                 24
8              Illinois    Franklin            $1,533                  8
9              Mississipp  Ashtabula           $1,471                  7
                i
10             Arkansas    Lucas               $1,442                 36
------------------------------------------------------------------------


                          Recommendation No. 5
------------------------------------------------------------------------
 
-------------------------------------------------------------------------
    <bullet> Implement additional monitoring procedures to review the
     Out-of-State Activity Report and investigate recipients utilizing
     their EBT card multiple times out of state.
 
    <bullet> Determine whether the large amount of out-of-state usage is
     due to travel required by employment or other valid reasons.
 
    <bullet> Consider additional procedures to verify the recipient is
     not also receiving benefits in other states, which would require
     corroboration with those states.
 
    <bullet> The outliers identified in the retailer graph above should
     be reviewed to determine if there is anything unusual about the
     transactions associated with these retailers and if these retailers
     should be referred to the appropriate investigative agency.
 
    <bullet> As other anomalies are noted pertaining to retailers, the
     information should be forwarded to the appropriate investigative
     agency.
------------------------------------------------------------------------

Manual Card Entries
    We identified all purchase transactions associated with manual card 
entries. These entries involve keying in the card number and PIN at the 
point of sale either because the card swipe did not work or because the 
EBT card was not present. Excessive manual card entries could indicate 
the benefits are not being utilized by the intended recipient, or there 
are issues with the EBT cards themselves.

------------------------------------------------------------------------
                                           Total
 Total Retailers   Total Recipients     Transactions      Total Amount
------------------------------------------------------------------------
        10,188            109,172           679,236        $17,338,056
------------------------------------------------------------------------

  (i)  We prepared a graph showing all retailers utilized by recipients 
            for manual card entry transactions and the total number of 
            these transactions per retailer to identify outliers.
Manual Card Entry
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  (ii)  We identified the top 10 retailers with the highest dollar 
            amount associated with manual card entries.

------------------------------------------------------------------------
      Retailer No.               Amount                Transactions
------------------------------------------------------------------------
                1                 $152,717                   2,813
                2                 $148,435                     814
                3                 $128,127                   1,950
                4                 $124,986                   2,800
                5                 $120,149                   2,251
                6                  $92,091                   1,416
                7                  $89,761                   1,533
                8                  $85,404                   1,795
                9                  $82,671                   1,591
               10                  $81,736                   1,551
                        ------------------------------------------------
  Total................         $1,106,077                  18,514
------------------------------------------------------------------------

  (iii)  We also identified the top 10 recipients with the highest 
            dollar amount associated with manual card entries.

------------------------------------------------------------------------
      Retailer No.               Amount                Transactions
------------------------------------------------------------------------
                1                   $8,055                      98
                2                   $7,885                     161
                3                   $7,003                     101
                4                   $6,578                     268
                5                   $6,347                     123
                6                   $6,184                     266
                7                   $6,017                      71
                8                   $5,946                     602
                9                   $5,942                     135
               10                   $5,908                     110
                        ------------------------------------------------
  Total................            $65,866                   1,935
------------------------------------------------------------------------


                          Recommendation No. 6
------------------------------------------------------------------------
 
-------------------------------------------------------------------------
    <bullet> Implement procedures to review the Manual Card Entry Report
     and investigate recipients with an excessive number of manual card
     entries to determine the reason the EBT cards are not being swiped.
     These procedures could include recipient inquiry and the review of
     additional EPPIC reports.
 
    <bullet> The outliers identified in the retailer graph above should
     be reviewed to determine if there is anything unusual about the
     transactions associated with these retailers and if these retailers
     should be referred to the appropriate investigative agency.
 
    <bullet> As other anomalies are noted pertaining to retailers, the
     information should be forwarded to the appropriate investigative
     agency.
------------------------------------------------------------------------

Full Benefit Withdrawal Transactions
    We identified all individual purchase transactions where at least 
the full monthly benefit amount awarded was withdrawn in a single 
purchase transaction. This could indicate the recipients were 
transferring their benefits to others for cash or other commodities, or 
they had other resources available indicating they may no longer be 
eligible for benefits. There were 96,367 recipients with 152,740 full 
benefit withdrawal transactions totaling $25,430,189.

  (i)  We prepared a graph showing all retailers utilized by recipients 
            for full benefit withdrawaltransactions and the total 
            number of these transactions per retailer to identify 
            outliers.
Full Benefit Withdrawal Transactions
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  (ii)  Next, we identified all recipients with one purchase 
            transaction that exceeded three times their benefit 
            issuance amount, as identified in the table below. We 
            performed this additional analysis as it could be 
            reasonable to use 1 month's benefit issuance in one 
            transaction; however, the use of three times the benefit 
            issuance amount in one transaction would seem more unusual.

------------------------------------------------------------------------
    Total Recipients        Total Transactions         Total Amount
------------------------------------------------------------------------
              274                      274                  $57,218
------------------------------------------------------------------------

      The ten highest dollar transactions were identified.

------------------------------------------------------------------------
                                      Transaction Date/  Monthly Benefit
   Recipient No.     Total Purchase         Time             Amount
------------------------------------------------------------------------
             1              $1,323    3/4/2015 12:02              $194
                                                p.m.
             2              $1,281    2/20/2015 3:45              $194
                                                p.m.
             3              $1,273    5/26/2015 5:21              $194
                                                a.m.
             4              $1,242     6/2/2015 5:56              $156
                                                a.m.
             5              $1,108    3/4/2015 12:03              $194
                                                p.m.
             6              $1,073    3/29/2015 5:44              $194
                                                p.m.
             7              $1,063    5/22/2015 11:24             $194
                                                a.m.
             8              $1,027     6/2/2015 5:56              $194
                                                a.m.
             9                $898    6/25/2015 1:01              $163
                                                a.m.
            10                $781    2/20/2015 1:12              $194
                                                p.m.
------------------------------------------------------------------------


                          Recommendation No. 7
------------------------------------------------------------------------
 
-------------------------------------------------------------------------
    <bullet> Review the Full Food Assistance Balance Withdrawal Report
     to identify recipients with a significant number of full benefit
     withdrawal transactions and review the individual transactions to
     determine if there are any unusual patterns identified. If
     anomalies are identified, determine methods and implement
     procedures to investigate these recipients.
 
    <bullet> If the recipient carries a large accumulated balance on
     their card, investigate the reason for the large balance as
     detailed in Recommendation No. 12 below.
 
    <bullet> The outliers identified in the retailer graph above should
     be reviewed to determine if there is anything unusual about the
     transactions associated with these retailers and if these retailers
     should be referred to the appropriate investigative agency.
 
    <bullet> As other anomalies are noted pertaining to retailers, the
     information should be forwarded to the appropriate investigative
     agency.
------------------------------------------------------------------------

Excessive PIN Attempts
    We identified all recipients who exceeded their allotted four PIN 
attempts (as determined by the Department). If four unsuccessful PIN 
attempts are made, the card is automatically locked and cannot be used 
until the recipient resets the PIN. If a recipient has an excessive 
number of unsuccessful PIN attempts, this could indicate the individual 
is not the rightful owner of the card. We identified a total of 7,938 
recipients with 18,878 unsuccessful PIN attempts; 880 of these 
recipients had an excessive number (more than four) of PIN attempts, as 
detailed below.
Excessive (More Than Four) PIN Attempts
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                          Recommendation No. 8
------------------------------------------------------------------------
 
-------------------------------------------------------------------------
    Implement procedures to review the Excessive PIN Attempts Report to
 identify recipients with a significant number of PIN attempts, and
 determine the reason for the excessive attempts. Consider reviewing
 EPPIC transaction history reports to identify any other unusual
 activity that may indicate an unauthorized individual was utilizing the
 card.
------------------------------------------------------------------------

Invalid Card Attempts
    We identified all purchase transactions attempted on an invalid 
card (reported as lost, damaged, stolen, etc.). Transactions attempted 
on an invalid card could indicate an unauthorized individual attempted 
to use the card. There were a total of 12,906 excessive (more than 
four) transactions attempted on an invalid card relating to 1,898 
recipient accounts, as shown below:
Excessive (More Than Four) Transactions Attempted on Invalid Card
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                          Recommendation No. 9
------------------------------------------------------------------------
 
-------------------------------------------------------------------------
    Review the Transactions Attempted on Invalid Card Report to identify
 recipients with a significant number of transactions attempted on an
 invalid card assigned to them, and determine the reason for the
 excessive attempts. Consider reviewing EPPIC transaction history
 reports to identify any other unusual activity that may indicate an
 unauthorized individual was utilizing the card.
------------------------------------------------------------------------

Multiple Consecutive Transactions
    We identified multiple purchase transactions occurring on one 
recipient account within 1 hour, shown in the table below, by month. If 
the card or benefits are being used excessively within a short amount 
of time, especially utilizing a single retailer, this could indicate 
the card is being exchanged for cash and/or being used by multiple 
unauthorized individuals.

------------------------------------------------------------------------
   Month      Retailers    Recipients     Transactions        Amount
------------------------------------------------------------------------
January            1,921        2,628             15,835        $365,124
February           1,686        2,211             13,245        $315,923
March              1,887        2,570             15,561        $341,215
April              1,890        2,576             15,529        $353,262
May                2,114        2,875             16,363        $357,229
June               2,144        2,887             16,387        $364,422
            ------------------------------------------------------------
  Total           11,642       15,747             92,920      $2,097,175
------------------------------------------------------------------------

  (i)  We prepared a graph showing all retailers utilized by SNAP 
            recipients for multiple transactions within 1 hour and the 
            total number of these transactions per retailer to identify 
            outliers.
Multiple Transactions Within One Hour
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  (ii)  We identified the top 10 recipients with the highest dollar 
            amount of transactions within a 1 hour period during the 6 
            month period tested.

------------------------------------------------------------------------
                                 No. of 1       No. of
 Recipient No.   Transactions    hour time     Retailers   Amount of All
                                  periods       Visited     Transactions
------------------------------------------------------------------------
           1              48              7             2        $2,343
           2              54              7            20        $2,335
           3              68              6            23        $2,079
           4              44              7            17        $1,920
           5              26              5             5        $1,879
           6              23              4             4        $1,825
           7              31              4             2        $1,707
           8              12              3             7        $1,671
           9               6              1             2        $1,555
          10              24              4             8        $1,545
               ---------------------------------------------------------
  Total.......           336             48            90       $18,859
------------------------------------------------------------------------

  (iii)  We analyzed an individual 1 hour period for Recipient No. 9 in 
            our top 10. Below are the results.

------------------------------------------------------------------------
                                                             Amount of
Transaction No.    Transaction Date/Time     Retailer No.   Transaction
------------------------------------------------------------------------
            1         1/31/2015 7:57 p.m.              1           $201
            2         1/31/2015 8:01 p.m.              1           $189
            3         1/31/2015 8:04 p.m.              1           $269
            4         1/31/2015 8:42 p.m.              2           $262
            5         1/31/2015 8:49 p.m.              2           $262
            6         1/31/2015 8:52 p.m.              2           $372
                                                          --------------
  Total........                                                  $1,555
------------------------------------------------------------------------


                          Recommendation No. 10
------------------------------------------------------------------------
 
-------------------------------------------------------------------------
    <bullet> Review the Multiple Transactions Within 1 Hour Report to
     identify recipients with a significant amount of transactions
     within multiple 1 hour periods. Identify the retailers utilized in
     these instances to determine whether the same retailer was utilized
     during the period. If the same retailer is utilized multiple times
     within the same period, this could indicate the card is being
     exchanged for cash and/or used by multiple ineligible individuals.
     If anomalies are identified, determine methods and implement
     procedures to investigate these recipients.
 
    <bullet> The outliers identified in the retailer graph above should
     be reviewed to determine if there is anything unusual about the
     transactions associated with these retailers and if these retailers
     should be referred to the appropriate investigative agency.
 
    <bullet> As other anomalies are noted pertaining to retailers, the
     information should be forwarded to the appropriate investigative
     agency.
------------------------------------------------------------------------

Recipients and Retailers Identified on Multiple Reports
    Using all eight of the EPPIC reports noted above, we identified 
recipients and retailers that appeared on more than one of the reports. 
If a recipient or retailer appears on multiple reports, there is a 
higher possibility that fraud or other questionable activity is 
occurring. There were 151,360 recipients appearing on multiple reports, 
as follows.
Recipients Identified on Multiple Reports
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      There were 11,681 retailers appearing on multiple reports, as 
            follows.
Retailers Identified on Multiple Reports
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                          Recommendation No. 11
------------------------------------------------------------------------
 
-------------------------------------------------------------------------
    <bullet> Utilizing all the standard EPPIC reports available,
     recipients and retailers appearing on multiple reports should be
     identified since this could be an indicator of fraudulent activity.
     Review the data periodically to identify outliers and other
     anomalies and investigate those occurrences.
 
    <bullet> The 37 retailers identified in our testing on five reports
     should be referred to the appropriate authorities for
     investigation.
------------------------------------------------------------------------

Excessive Card Balances
    7 CFR 274.2(h) states:

          (1) If EBT accounts are inactive for 3 months or longer, the 
        state agency may store such benefits offline.

                  (i) Benefits stored off-line shall be made available 
                upon reapplication or re-contact by the household;
                  (ii) The state agency shall attempt to notify the 
                household of this action before storage of the benefits 
                off-line and describe the steps necessary to bring the 
                benefits back on-line;

          (2) The state agency shall expunge benefits that have not 
        been accessed by the household after a period of 1 year. 
        Issuance reports shall reflect the adjustment to the state 
        agency issuance totals to comply with monthly issuance 
        reporting requirements prescribed under  274.4.
          (3) Procedures shall be established to permit the appropriate 
        managers to adjust benefits that have already been posted to a 
        benefit account prior to the household accessing the account; 
        or, after an account has become dormant. The procedures shall 
        also be applicable to removing stale accounts for off-line 
        storage of benefits or when the benefits are expunged. Whenever 
        benefits are expunged or stored off-line, the state agency 
        shall document the date, amount of the benefits and storage 
        location in the household case file.

    In addition, the Department indicated the EBT contract 
requirements, approved by FNS, state:
    Section 2.2.2.4  Benefit Expungement--
          The Contractor must track aging at both the account and 
        benefit level. Each food assistance benefit begins aging at the 
        time it becomes available to the client. The EBT account begins 
        aging at the point that the first benefit becomes available. 
        Subsequently, each time that the client completes a 
        transaction, the account aging clock is reset to start anew, 
        even if one or more benefits have been expunged.
          No benefits may be expunged until the account aging clock has 
        reached 365 calendar days. Once the account has reached 
        expungement age, only those benefits that have been available 
        to the client for 365 or more calendar days shall be expunged. 
        If one or more subsequent benefit authorizations for the same 
        client account have been available to the client for less than 
        365 calendar days, they are not expunged. They must remain 
        online until each has reached full expungement age. If an 
        account that has had all benefits expunged is reactivated 
        because the client has again become eligible, the account must 
        be treated in the same manner as a new account in terms of 
        benefit aging and expungement timeframes.

    An excessive benefit balance carried on an EBT card could signify 
the benefit balance has accumulated more than a period of 1 year 
increasing the risk of noncompliance with requirements. This could also 
indicate the recipient had additional resources available and was no 
longer in need of the benefits, allowing the benefits to be distributed 
elsewhere. Using a listing of all recipients with card balances greater 
than $2,300 (nearly double the maximum benefit amount for a family of 
eight), we identified a total of 1,337 recipients with a balance 
greater than this threshold on their card during the audit period, as 
listed below:

------------------------------------------------------------------------
     Balance Range:          Total Recipients      Total Balance Carried
------------------------------------------------------------------------
    $2,300-$2,999                       706              $1,813,619
    $3,000-$3,999                       323              $1,104,199
    $4,000-$4,999                       135                $595,857
    $5,000-$5,999                        69                $374,777
    $6,000-$6,999                        40                $254,692
    $7,000-$7,999                        31                $230,454
    $8,000-$8,999                         6                 $50,765
    $9,000-$9,999                        14                $131,772
  $10,000-$10,999                         3                 $31,512
  $11,000-$11,999                         2                 $22,658
   $12,000-12,999                         2                 $24,685
  $13,000-$13,999                         1                 $13,827
  $14,000-$14,999                         1                 $14,496
  $15,000-$15,999                         0                       0
  $16,000-$16,999                         1                 $16,910
  $17,000-$17,999                         1                 $17,471
  $18,000-$18,999                         1                 $18,757
  $19,000-$19,999                         0                       0
  $20,000-$20,999                         1                 $20,610
                         -----------------------------------------------
  Total.................              1,337              $4,737,061
------------------------------------------------------------------------

    We also obtained information from the Department, provided by 
Xerox, for each of the 1,337 high balance recipients listed above to 
show when their EBT card was last utilized. We found the high balance 
recipients last accessed their account/used their card in the following 
calendar years:

------------------------------------------------------------------------
      Calendar Year
  Recipient's  Account       Total Recipients      Total Balance Carried
      Last Accessed
------------------------------------------------------------------------
             2012                         7                 $23,221
             2013                        19                 $63,585
             2014                        72                $248,640
             2015                     1,165              $4,143,677
                *                        74                $257,938
                         -----------------------------------------------
  Total.................              1,337              $4,737,061
------------------------------------------------------------------------
Date Not Provided.

    We reviewed a Xerox report documenting which recipients had 
benefits expunged during our audit period. Eight of the 26 (30.8%) 
recipients listed above who last accessed their accounts in 2012 and 
2013 were not listed on the expungement report covering our 6 month 
period. The Department provided further information to indicate 
benefits for these eight recipients had been fully expunged prior to 
our audit period. However, these recipients continued to be eligible 
based on the redeterminations performed by the counties and, therefore, 
continued to earn benefits. Since the contract agreement requires 
benefits to be available for 365 days before expungement, their 
balances continued to accumulate even though they were not being used. 
See the timeline below for further information for one of these eight 
recipients. In addition, the Department indicated that no date was 
available for the 74 recipients for which no date was provided because 
those recipients had not accessed their benefits since at least July 
2009 (the beginning date of the report provided). Of the 20 recipients 
selected for testing, ten were listed on the expungement report 
covering our 6 month period. In addition, the Department provided 
documentation for the other ten selected recipients from these 74 to 
show their benefits had been fully expunged prior to our audit period.
Timeline of Activities for Recipient One of Eight
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                          Recommendation No. 12
------------------------------------------------------------------------
 
-------------------------------------------------------------------------
    <bullet> Investigate the remaining 54 of the 74 accounts identified
     above where a date the account was last accessed was not provided
     and verify the card balances loaded over a year ago were expunged
     as required by 7 CFR 274.2(h)(2).
 
    <bullet> Utilize the standard EPPIC report that includes all
     recipient cards that have not been utilized in a year, the date the
     account was last active, and the benefits expunged to assist in
     monitoring card balances. Ensure Xerox immediately expunged those
     benefits to comply with the requirements of 7 CFR 274.2(h)(2).
 
    <bullet> Implement procedures as allowed in 7 CFR 272(h)(1) to store
     any benefits not utilized for 3 months off-line. Only reactivate
     the benefits upon reapplication or re-contact by the recipient.
 
    <bullet> Inquiries should be made at the time of reapplication or re-
     contact to determine why benefits had not been used and whether
     additional income or resources are available to the recipient that
     had not been reported to ensure continued eligibility is
     appropriate.
------------------------------------------------------------------------

EPPIC Reports Use
    (A) We inquired with the Department to determine whether they were 
using the EPPIC reports provided by Xerox. Department personnel 
indicated they do not use the reports for monitoring purposes. They 
indicated it is the CDJFS' responsibility to generate and review EPPIC 
reports, investigate fraud allegations, and recoup overpayments from 
recipients. The Department indicated it conducts quarterly meetings 
with CDJFS investigators and provides technical assistance and training 
to the CDJFS pertaining to EPPIC report use and investigations.
    (B) We selected ten counties: Cuyahoga, Franklin, Hamilton, Holmes, 
Huron, Logan, Lucas, Montgomery, Muskingum, and Pickaway. We inquired 
with the CDJFS in these counties to determine:

  i.  Whether the CDJFS utilized the EPPIC reports;

  ii.  If sufficient and knowledgeable personnel were assigned to fraud 
            identification and investigation;

  iii.  What procedures were in place for fraud identification and 
            investigation;

  iv.  Whether training was provided by the Department;

  v.  If quarterly meetings were conducted with the Department; and,

  vi.  The steps that are taken when possible fraud is identified.

        Based on the responses provided by the ten selected CDJFS:

      <bullet> There are no procedures in place to review EPPIC reports 
            to identify anom-
              alies for possible investigation. Investigations are not 
            initiated until the
              CDJFS receives a complaint or referral. At that point, 
            the EPPIC reports
              are utilized only as they relate to the specific 
            recipient under investigation.

      <bullet> The Department does provide training and conducts 
            quarterly meetings
              with the CDJFS for reviewing recipient family, income, 
            and other informa-
              tion to identify potential fraud during the application 
            process. The Depart-
              ment also provides training on how to handle a complaint 
            and the cor-
              responding investigation. However, the Department does 
            not provide train-
              ing pertaining to EPPIC report monitoring and how to 
            identify anomalies
              and other outliers related to fraud and misuse of the EBT 
            cards.

      <bullet> Seven of ten CDJFS either do not have personnel 
            dedicated full time to
              SNAP fraud identification and investigation, have only 
            one investigator, or
              have had significant turnover and vacant positions in 
            their fraud section.

                         Overall Recommendations
------------------------------------------------------------------------
 
-------------------------------------------------------------------------
    Since resources are often limited at the CDJFS, the Department
 should take a more proactive role in identifying possible fraud related
 to EBT cards and centralize the function. Centralizing this function at
 the Department level would allow specific personnel to become more
 experienced and adept at identifying and investigating anomalies and
 help focus the resources of both state and county personnel. In
 addition to the recommendations made throughout this report, we
 recommend the Department:
 
    <bullet> Regularly review EPPIC reports and identify anomalies and
     other outliers for investigation. The information could then be
     passed to the CDJFS or appropriate authorities for investigation.
 
    <bullet> Provide additional training to CDJFS personnel to help them
     better understand the EPPIC report data and how to proceed with
     investigations. The training materials provided should be
     maintained and readily made available to the CDJFS for reference.
 
    <bullet> Conduct meetings with CDJFS personnel periodically to
     ensure all questions and concerns are addressed and investigations
     are being performed properly.
 
    <bullet> Update and formally document the policies and procedures
     regarding the SNAP eligibility and fraud review/investigation
     process, including any changes made as a result of these
     recommendations. Communicate these policies and procedures to all
     affected staff, both state and county. Periodically review and
     update the policies and procedures to ensure they remain current
     and are sufficient.
 
    <bullet> Ensure all procedures completed are documented and the
     documentation is maintained in accordance with established records
     retention policies.
------------------------------------------------------------------------

Ohio Department of Job and Family Services Supplemental Nutrition 
        Assistance Program--SNAP Franklin County Clerk's Certification
    This is a true and correct copy of the report which is required to 
be filed in the Office of the Auditor of State pursuant to Section 
117.26, Revised Code, and which is filed in Columbus, Ohio.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Clerk of the Bureau.

Certified June 28, 2016.

    The Chairman. Thank you, Mr. Yost. I appreciate that.
    The chair would remind Members that they will be recognized 
for questioning in order of seniority for Members who were here 
at the start of the hearing. After that, Members will be 
recognized in order of arrival. And I appreciate Members' 
understanding.
    I recognize myself for 5 minutes.
    Ms. Brown, help me understand. The $38 floor is unique to 
SNAP, and it is figured into the 3.7 percent error rate, or is 
it not? Which is it?
    Ms. Brown. Well, what we understand from the threshold is 
it has come up and down over the years, but this most recent 
change gave us a good indicator that it probably did have an 
effect on the error rate. The rate had been going down for 
years, and when the threshold was changed from $50----
    The Chairman. No, no, I mean, mechanically, errors inside 
the threshold are they included in the error rate for the 3.66, 
or are they not?
    Ms. Brown. Right.
    The Chairman. Just the errors that we do find.
    Ms. Brown. Yes. The errors that are below the threshold are 
not included in that error rate.
    The Chairman. All right, so the error rate of 3.66 is 
understated by, I think your testimony said 38 percent?
    Ms. Brown. Yes. There is a percentage, let me double check 
that just to make sure, but, yes, 38 percent.
    The Chairman. Yes, that would equate to a 5.1 percent error 
rate if we included the safe harbor transactions?
    Ms. Brown. I don't think you can make that connection, 
because what we actually did was we looked at the percent of 
errors that were under the threshold, and then we looked at the 
percent of dollars that those errors made up.
    The Chairman. Okay, so help me understand.
    Ms. Brown. It is complicated.
    The Chairman. The 3.66 then would be understated, it is 
fair to say we don't know how much it is, but it is understated 
by some amount.
    Ms. Brown. Correct.
    The Chairman. Okay.
    Ms. Brown. Yes.
    The Chairman. All right. I appreciate that. Are there other 
means-tested programs that have a failsafe like this in their 
error rates.
    Of all the other ones that we are comparing to, they track 
all the errors?
    Ms. Brown. We only looked at the four and SNAP was the only 
one that had that.
    The Chairman. Okay. I appreciate that.
    Ms. Shahin, would you walk us through the differences, when 
we start talking about fraud and error rates, give us the 
specifics between those two, and trafficking, let me throw that 
one in, error rates that are touted as being low versus fraud, 
which is not included in those error rates, I don't believe. 
Would you walk us through that briefly?
    Ms. Shahin. Yes, sir, and thank you so much, because there 
can be confusion over that.
    The error rate relates to improper payment. It could be an 
over-issuance or an under-issuance that is added together, it 
is an improper payment. The person received too much or they 
received too little.
    When that happens, it happens at the state administrative, 
and we look to see where did that error come from. We find that 
about 62 percent of those mistakes or errors come from the 
state agency, about 38 percent of them come from the client. 
Just to give you an example, the state agency might not take 
action on a reported income change in the timeframe required, 
or a change in household composition. Mostly it is--Kay is 
right, most of it is related to income, which becomes more 
dynamic the more you have a population that is working. And we 
have seen a great deal of increase in the working families.
    The Chairman. Right. So then USDA defines fraud then as 
what? Retailers and----
    Ms. Shahin. Yes. Fraud, we are talking really about an 
intentional, purposeful action on the part of a client or a 
retailer. Trafficking is an excellent example of that. That is 
when a client, and a retail is the most common kind, they 
collude together to say ``I want cash for my SNAP benefits. I 
will give you 50 on the dollar, 80 on the dollar.'' Then the 
retailer gets the full amount into their account, and the----
    The Chairman. In this example, the retailer would charge 
$100 on the card and give the recipient back some percentage of 
that?
    Ms. Shahin.--it could be $50, $70, $80 whatever agreement 
they came to, yes.
    The Chairman. Okay.
    Recently, there was in the news a very large bust, $13 to 
$16 million, and it appeared to be conducted from storefronts 
that didn't even a business there. Is there not a site visit 
associated with the retailer approval process?
    Ms. Shahin. Yes, sir, there is a site visit that is 
involved, and we have made a lot of improvements actually in 
the area of denying stores up-front because we are doing better 
work in that area. Are you talking about the one down near 
Miami?
    The Chairman. It was in Florida, yes, ma'am.
    Ms. Shahin. Opa Locka. Yes.
    The Chairman. Yes, ma'am.
    Ms. Shahin. So that is a really good example of the work of 
state law enforcement, our USDA OIG. Our agency actually were 
the first to get the hotline call. We did some investigation. 
It looked like trafficking was happening. It was referred over 
to OIG and they said, ``Yes, this is a criminal case we want to 
go after.'' So it takes a little bit more time to get those 
done because they are taking criminal action.
    The Chairman. Right, but my understanding of that one is 
the storefronts were just that; there were no businesses 
associated with it. There wasn't actually a retail shop there 
for folks to actually buy food.
    Ms. Shahin. Yes. That is not the way I understand it but 
that is really good to know, so I can go back and check on 
that.
    [The information referred to is located on p. 915.]
    The Chairman. All right.
    Ms. Shahin. Okay?
    The Chairman. Well, thank you. I appreciate that. My time 
has expired.
    Ms. Shahin. Sure. Can I just mention one thing on the 
threshold?
    The Chairman. Yes, ma'am.
    Ms. Shahin. Would you mind? On the threshold, I just----
    The Chairman. No, I don't mind.
    Ms. Shahin. On the threshold, the $37 was actually a part 
of the 2014 Farm Bill. So that threshold exists in the law.
    The Chairman. Right. No, I understand.
    Ms. Shahin. And I do want to make sure that folks know that 
while it doesn't count in the error rate, the states must 
provide us all of their errors, whether they are below the $37 
or not, because they have to take action on anything they find 
in an over- or underpayment.
    The Chairman. Even if it is below the threshold.
    Ms. Shahin. Even if it is below, yes, sir. Absolutely. It 
is not in the error rate but it is a part of their reporting, 
and they must take action on it.
    The Chairman. All right, thank you. I appreciate that 
clarification.
    Ms. Shahin. Thank you.
    The Chairman. Ranking Member Peterson.
    Mr. Peterson. Thank you, Mr. Chairman.
    Ms. Shahin, I mentioned in my opening remarks that I am not 
the big fan of having these different standards. And I realize 
that in most cases it doesn't make a whole lot of difference. 
But, in North Dakota, people qualify for benefits that, if they 
were in my district in Minnesota, they don't. It is just not 
right, in my opinion. One question I have is with the LIHEAP 
situation. Minnesota is not one of those states where we had a 
lot of people on this dollar LIHEAP payout so that they were 
qualifying, and we raised it to $20, didn't we? Is that what we 
did? And CBO was saying at the time that the states wouldn't 
spend the $20 to qualify people. So what ended up happening? 
Did it knock a lot of people off the rolls that were on there 
before, or not, or what happened?
    Ms. Shahin. Yes, on LIHEAP, and I am not anywhere near as 
good keeping numbers in my head, so let me just say I will go 
back and check and make sure I did this right, but I believe 
there were about 17 states that were doing the nominal, and I 
believe around 12 to 13 went ahead and brought their nominal 
LIHEAP up to the $20 to meet the law as it was provided for. 
The remainder did not. Once again, as you are suggesting, these 
are options and choices that we do have for states in terms of 
their flexibilities and ways they can approach the program. We 
have the national standards, but there are places and 
flexibilities that provide for that kind of thing.
    [The information referred to is located on p. 915.]
    Mr. Peterson. In the categorical eligibility, which 
apparently was done to simplify the administration, that was 
the idea that it was supposed to be the same as welfare 
benefits. When we changed the welfare law back in 1996 and we 
allowed the states to do different levels, and all that sort of 
stuff. In the 2014 bill, I had discussions, and I brought up 
that we should raise the bottom 130 percent to some other 
number, and make it standard across the whole country and 
eliminate this. And some people didn't want to do that because, 
even though they were from states that would have actually cut 
people off of benefits, they were against it because it made it 
look like they were raising benefits. It got in the whole 
political thing. My question is, if we had a situation where we 
had one standard and that was it, and the states couldn't have 
a different level, would that eliminate some of these errors, 
would that reduce the error rate, or would that improve the 
situation or not?
    Ms. Shahin. Actually, this might be a good question for Kay 
as well, but I do know that with fraud-based categorical 
eligibility it can reduce errors because of the streamlined 
administration, there are certain things, you are using a 
different program that you already have in your state, that is 
already means-tested, and you are using its income and asset 
limits for determining the eligibility of the SNAP participant. 
But in the end, you still have to work the case, you still have 
to determine what the benefit is, and you still have to get 
really close to that 100 percent net to be eligible for a 
benefit. In other words, you might be eligible for the program 
but not for the benefit because of that. So that is kind of an 
important distinction as well.
    It can have a positive effect on the error rate in terms of 
reducing it. I think that Kay has some thoughts on how it also 
might be a policy that can increase error rates.
    Mr. Peterson. Well, yes.
    Ms. Brown. Right. When we looked at this at broad-based 
categorical eligibility in particular, we did find that it did 
have some aspects that really helped simplify the process of 
determining eligibility, including the fact that many states 
were no longer looking at assets that applicants had when they 
came to apply. But the other side of that is, because states 
could go up to a higher income level for eligibility, they were 
allowing more people who had earned income to receive benefits, 
and that is one of the areas that is the highest likelihood to 
cause errors.
    Mr. Peterson. So both of you think it kind of cuts both 
ways?
    Ms. Brown. Yes. We said it had a mixed effect.
    Mr. Peterson. Thank you. Thank you, Mr. Chairman.
    The Chairman. The gentleman's time has expired.
    Mr. Lucas, 5 minutes.
    Mr. Lucas. Thank you, Mr. Chairman. And the Ranking Member 
will remember in the joys of the 2012, 2013, and 2014 Farm 
Bill. There were a number of times when we tried to do things 
in a variety of places, in a really logical fashion, and that 
created the most problems. Trying to be reasonable, rational, 
and logical. It didn't mean that we weren't trying to do the 
right things, it just meant that, in a few places, some of our 
colleagues preferred the irrational to the rational. By the 
way, I like all my colleagues.
    That said, Ms. Shahin, would you discuss for a moment the 
historic nature, the Food and Nutrition Service has always been 
responsible for retail fraud. The states have been tasked with 
looking at individual fraud cases, and as we mentioned here in 
a variety of areas, things changed in the 2014 Farm Bill 
included the fraud reduction pilot projects to expand that 
collaborative effort between state and Federal Government to 
prevent and detect retailer fraud. That was necessary because 
they increased the significant number of authorized retailers 
to participate in the program. And it provided states with some 
dedicated resources to help maintain that integrity. Can you 
expand for a moment on how USDA has implemented those pilot 
projects for a couple of minutes?
    Ms. Shahin. Yes, sir. Thank you for the question. The 
provision in the farm bill, one of the ways that we found that 
we could very quickly implement that is that we already have 
relationships with a lot of states through what are called 
State Law Enforcement Bureaus. And we call them SLEBs because 
we love acronyms, but also because it is much shorter. Those 
SLEB agreements, we looked at those to see how we could enhance 
those agreements to make them more useful, more effective, and 
use them to take on these pilot ideas, because we already have 
them in place. We added some aspects about the SLEBs actually 
working with us and helping us on the recipient fraud side. 
That was really important because if you will remember, the 
provision said they had to be doing a good job on recipient 
fraud, and that is not something that is real common across the 
country. This really helped us to put that in to get the SLEBs 
working with us on the recipient and the retailer side, and 
also provides for giving them a reporting mechanism so that we 
could see how we are doing.
    So that is how we have implemented it. We have SLEBs in New 
York and California, and Texas, a few other large places where 
that urban environment that you were looking for us to include, 
we have that in there as well. So that is how we are 
implementing it.
    On the funding for states on recipient fraud, we have put 
out about $10 million in grants to states, competitive grants 
to states, to improve their recipient integrity.
    Mr. Lucas. Is it fair to say that you see value in the 
authority that has been given to states to investigate retail 
fraud, and would it be a good idea to increase even more their 
authority to pursue that avenue?
    Ms. Shahin. The jury is probably still out a little bit. We 
need a little bit more time working with states. I think that 
the key here is really, Mr. Lucas, it is two sides of a coin, 
and if we are doing all this work on the retailer side and we 
aren't taking care of the recipient side, we are not going to 
stop the fraud and trafficking. You have to hit both sides of 
this coin. And so we would really like to see states putting 
their efforts--I know it is hard. I know it is hard on the 
recipient trafficking side, but we are working with some to get 
some tools out there for them. The GAO audit gave us a lot of 
opportunity. We are improving our reporting mechanism that way 
too. I would like to see us make a little bit more headway 
first in that area.
    Mr. Lucas. Thank you. Auditor Yost, let's talk for just a 
moment. Your comments about Ohioans using their benefits in 
Texas and Florida, and places like that, those are the kind of 
stories that stir up the public back home and make it more 
difficult to provide the assistance to our fellow citizens. 
Expand, if you would, about the nature of that. And I assume 
you would agree that is an alarming thing from your earlier 
comments.
    Mr. Yost. There may be individual hard luck fact patterns 
that would justify it.
    Mr. Lucas. We all go to funerals. Yes.
    Mr. Yost. But, the numbers we are seeing raise questions 
about the integrity of the administration of the program. 
Obviously, if you are living in Florida, you shouldn't be 
getting your EBT card out of Ohio. We saw almost $600,000 of 
Ohio benefits being spent in tiny Marshall, Minnesota. Fewer 
than 14,000 people. That number, as a former prosecutor, just 
makes me go, ``Huh.''
    Mr. Lucas. My time has expired, Mr. Chairman. I yield back.
    The Chairman. The gentleman's time has expired.
    Mr. Scott, 5 minutes.
    Mr. David Scott of Georgia. Thank you, Mr. Chairman.
    It might be good for us to understand the purpose of these 
hearings, and the purpose of these hearings is to see if 
cutting the food stamp program is the answer to the issues of 
fraud and the error rates.
    Now, my concern is this, that when we come to whatever 
conclusions we come to, that we cannot determine how we fix 
this problem with just an attitude of we have to cut the food 
stamp program. Everything that I have heard has indicated that, 
whether it be the error rates, the overpayment rates, those are 
internal, structural, administrative issues. When it comes to 
the other area of fraud, that is on the outside. That is an 
enforcement issue.
    And so if we back away from this and look at it for what it 
is, the answer to fraud, the answer to the error rates are all 
management of our resources, to be able to correct those, not 
on wholesale attitude because somebody talks about 1,000 people 
from the dead. Well, that is neither the dead folks' fault or 
whoever is benefitting. If you know that that is the case, then 
you structurally change that.
    Because here is my concern, if we just make our 
manifestation as the answer to this problem is totally on 
cutting the food stamp program, we miss the whole issue. Ninety 
percent of all the households that get food stamps have 
children, have seniors, have disabled, and a growing number of 
veterans. When you start dealing with finding solutions to 
these problems, the panacea for that is not cutting the 
program, it is putting the resources where they are needed to 
correct it, to enforce against these abuses.
    And so I wanted to ask you all on the panel, don't you 
agree that what I am saying is the best approach for this, 
going forward, and that is particularly because if 90 percent 
of these folks have people in that household who have no other 
means. We have 1.7 million veterans receiving food stamp 
benefits. Somebody somewhere ought to say why is that. Isn't 
this a structural problem? And that is growing.
    I just want to really use my little time here to stress how 
we really go at this, because there are some issues here in 
fraud, but cutting the food stamp program is not the answer to 
that. It is putting the resources in place to enforce that 
situation and get these people who are doing that. If we have 
the error rate and the overpayment, that is within the USDA. 
Perhaps they don't have the resources, the manpower to 
effectively correct the situation.
    Where am I going wrong on this, any one of you, and where 
am I going right?
    Ms. Shahin. If it is okay with you, Mr. Scott, I will 
start.
    I think that the key point that you are making there that 
identifying the problem is step one. Step two is fixing it.
    Mr. David Scott of Georgia. Yes.
    Ms. Shahin. And that is the key, and that is what we need 
to look towards in any of these. A payment error rate, it may 
be low but that doesn't mean it is low enough. We should always 
be looking to do better. We should always be looking to 
improve. I honestly believe that the states believe this and 
want this as much as I do. I believe that they care in this 
program. Partnering with our states to make sure that when we 
identify problems, we get those fixed. That is critical. That 
is on the improper payment side of it.
    Mr. David Scott of Georgia. Well, let me ask you this. I 
only have 15 seconds, because the
    Ms. Shahin. Yes, sir. Okay, sorry.
    Mr. David Scott of Georgia.--the purpose of this hearing is 
reauthorization of the food stamp is coming up, and one of the 
reasons we are having all these hearings on food stamps is to 
determine whether or not cuts in the program or across the 
board, without understanding the intricacies of what you all 
have explained, is the reason. Do you think cutting the program 
just arbitrarily will fix any of these things, or a better 
allocation of resources?
    Ms. Shahin. I think that SNAP is a program that works and 
works well. I think that the various hearings you have had, you 
have heard a lot of support for a program that does work, that 
meets its goals. That doesn't mean it can't be better. That 
doesn't mean there aren't things we can do to make it better.
    Mr. David Scott of Georgia. Right.
    Ms. Shahin. We should always be striving for that.
    Mr. David Scott of Georgia. Thank you, Mr. Chairman.
    The Chairman. The gentleman's time has expired.
    Mr. Gibbs, 5 minutes.
    Mr. Gibbs. Thank you, Mr. Chairman.
    Mr. Yost, thank you for doing this work on the audit. We 
have seen in Ohio news reports about the excessive card 
balances. Seems like over a certain period of time the balances 
might make sense, it is commonsense things. Unusual card 
activity. You talk about 1 hour transactions, people spending 
$1,000 in less than an hour, or the unusual card activity where 
you have even balances and the same balances after every month, 
on the same time, same date of following months. In your audit, 
were you able to determine if there were any triggers, does 
USDA have any triggers or mechanisms that red flag these so 
that there is oversight to bring this back, or did your audit 
look at that or not?
    Mr. Yost. Thank you, Representative Gibbs. The key, I 
believe, is on the retail side. I have run a lot of 
investigations in my time as a county prosecutor, and I have 
done both recipient fraud cases, which are very, very difficult 
to prove, and we never really get repayment because these folks 
are typically in need to begin with. Fraud doesn't work unless 
it is monetized, and that requires the retailer. The bang for 
your buck is to organize this around data mining to find 
exactly the kinds of indicia that you just cited in your 
question, and to use those indicators to open high quality, 
targeted investigations on the folks that are providing the 
dollars for this type----
    Mr. Gibbs. Let me go to USDA, Ms. Shahin. Does USDA have 
any protocols in place that red-flags when they see unusual 
activity, or that a reasonable person could say, ``Hey, this 
doesn't make sense?''
    Ms. Shahin. Yes.
    Mr. Gibbs. What is the process?
    Ms. Shahin. Yes, sir. I am so excited you asked this 
question because we definitely do. We actually have what we 
call our alert system, and it is looking at eight million 
transactions around the country every day, and it is making 
connections and looking and doing these data analytic things. 
And so we have a watch list, we have the ALERT system that 
gives us information, and then we have people who then look at 
that information. We can actually make cases for trafficking 
just by the data alone. If we can't do it that way, we will 
send investigators out as well and go undercover. But we can 
even do it from the data.
    Mr. Gibbs. Do your investigators go out to the retail 
stores where you see this happening and audit their records and 
investigate them when it is flagged?
    Ms. Shahin. They go undercover is what they do. It is not 
really an audit of their paperwork, it is an undercover to try 
and see if they can get them--well, that sounds bad--but they 
go in to see, are you going to let me sell you my benefits, or 
let me buy something that I shouldn't be able to buy, because I 
can only buy food with this card, but if you let me buy 
something else we have a problem. So they do those kind of 
things. But the thing that I wanted to mention that is very 
exciting and helpful, maybe for Mr. Yost, is that we give 
states our list of disqualified retailers so that they can go 
in and look at those stores and see who of their recipients 
shopped there, and then look at those and see, ``Okay, do I see 
any transactions here that look weird.'' The kind of 
information that Mr. Yost has in his report is exactly the kind 
of stuff we are looking for states to do, to use their EBT 
vender to get reports and get the kind of activity and bring 
these things together.
    Mr. Gibbs. Okay, my time is going to run out. I want to----
    Ms. Shahin. I am sorry, I am excited.
    Mr. Gibbs. That I all right. Is there cross-referencing 
between states of participants to make sure that we don't have 
people in Ohio that are also receiving benefits in Illinois, 
are we doing cross-referencing checks with the technology?
    Ms. Shahin. Right. Now then, I don't know if you want me to 
talk about out-of-state transactions, or if you want me to talk 
about duplicate participation.
    Mr. Gibbs. I want to make sure that----
    Ms. Shahin. But the duplicate----
    Mr. Gibbs.--if one is not signed up for food stamps help in 
Ohio----
    Ms. Shahin. Yes.
    Mr. Gibbs.--but then somehow I have an Illinois address of 
a relative in Chicago, I can sign up so I can draw down, 
illegally, of course.
    Ms. Shahin. Commit fraud is what you are you talking about. 
Absolutely. What we ask on the high balances or the out-of-
state transactions, or any of that, we ask states to take a 
look at those on a regular basis. Ohio actually has a pretty 
good system in place.
    Mr. Gibbs. But is there cross-referencing between states?
    Ms. Shahin. Yes. Now, the cross-reference between states, 
we actually just finished a pilot of five southeastern states, 
it is called the National Accuracy Clearinghouse. And that 
actually looked at doing checks for duplicate participation 
among the states. And we have had very promising results from 
that. In fact, we sent a report to Congress in May, and we are 
looking at what our next steps are going to be on that because 
it is real-time data. Mr. Yost mentioned Public Assistance 
Reporting Information System, PARIS. That is not real-time 
data, so this is a real-time data kind of thing, and depending 
on if the states are using it and putting the information in, 
it can be very, very effective.
    Mr. Gibbs. Thank you, Mr. Chairman. My time has expired.
    The Chairman. The gentleman's time has expired.
    Mr. Walz, 5 minutes.
    Mr. Walz. Thank you, Mr. Chairman. And thank you to all the 
witnesses for being here. In the spirit of trying to find a 
balance between compassion, smart economic policy, and being 
good stewards of taxpayer dollars, that is our responsibility, 
because Mr. Yost, you are correct that if a dollar is lost to 
either fraud or error, that is a dollar not going to its 
intended purpose, and it is critical to try and balance some of 
these things.
    Ms. Shahin, if I could ask, it is my understanding after 
the OIG report you are taking 50 states and all the 
territories, you are doing a quality control measurement 
process by the end of the year, is that correct?
    Ms. Shahin. That is correct. That is correct.
    Mr. Walz. Has that been done before?
    Ms. Shahin. It hasn't. No, this is the first time that we 
have dug quite as deep as we are with the----
    Mr. Walz. What are you going to be looking at? Just if you 
can give me the 50,000 view on that.
    Ms. Shahin. Sure. Sure. We are looking doing a QC review, 
can I give a little bit of history first?
    Mr. Walz. Sure.
    Ms. Shahin. We don't have much time. Anyway, states do a 
sample of their cases. They pull that sample and then the QC 
reviewer is going to look at that case in that sample month and 
see if the benefit that they are receiving in that month is 
correct. They are going to have to look at the original month 
as well, so there is a lot of work that has to go into that. We 
do a Federal re-review as well.
    We started seeing some things that were happening that gave 
us pause. Then OIG did their audit and that gave us more pause. 
We started going in to look at states to see if they were 
complying with some of our rules, and the concern was the 
introduction of any kind of bias. Now, bias doesn't have to be 
intentional. It could be totally unintentional. That is not the 
point. It is a bias that is introduced that we are going to 
have to adjust for. These reviews, we are going in to dig 
really deep and make sure that there is all the documentation 
in the file that should be, and if there is not, ask the state 
to do a corrective action that makes sure that we are getting 
all of the documentation, that the use of things like error 
review committees, that they are done properly as after-the-
fact, as a learning mechanism, not a before-the-fact, as a 
mitigation of the errors. All kinds of things.
    Mr. Walz. And it is your belief that this QC review and 
these type of procedures will help the states and help you 
reduce those error rates and those fraud rates even further?
    Ms. Shahin. I absolutely do believe that what we are doing 
right now will get us to the right place in determining what 
our improper payment rate is.
    Mr. Walz. Does this have a----
    Ms. Shahin. Absolutely.
    Mr. Walz. Does reducing this fraud have the same quality as 
many things? If you are attacking a problem, the first part of 
it, even the first 90 percent, seems to be easier, and then you 
get to the last bit it gets harder and harder as you get 
smaller. And we should strive for zero. I think that is the 
goal we should all have.
    My question is, are the fraud or the errors that are taking 
place, now that it is a relatively small number, we are talking 
97 percent correct, three percent roughly in there, does it get 
much harder to get after that three percent, or is it the same 
type of activity that was done before that we are just better 
at catching it?
    Ms. Shahin. I think that, first off, I would really want to 
emphasize that we are talking improper payments. So this really 
isn't fraud. There may be a small----
    Mr. Walz. That is right.
    Ms. Shahin.--but this is really that they are giving people 
the right amount. I do think that the lower it gets, the harder 
it is to hone in on what we can do to make it better. That 
doesn't mean that we don't do that. I would say that also 
states have done an extraordinary job over the last 10 or 20 
years, actually, in doing a lot of things to bring that error 
rate down. Things like technology, using technology, doing 
business process improvements, the simplified policies that 
Congress has made available to them has been very important 
because that also----
    Mr. Walz. That brings me to this point. Mr. Yost brought up 
something, and I do think people are kind of baffled by this 
and I do think it makes them a little skeptical. The payments 
after death, or whatever, is it a requirement to run those data 
matches like they did?
    Ms. Shahin. Thank you. Actually, yes, they have to run them 
a minimum of once per year.
    Mr. Walz. Could Ohio run them more if they wanted to?
    Ms. Shahin. They certainly could. Absolutely. You can run 
it as often as you want.
    Mr. Walz. Mr. Yost, what would preclude you from running 
that, say, quarterly? You would catch it sooner then.
    Mr. Yost. Actually, in the State of Ohio it does get run 
more frequently. Those are referred to the counties and they 
simply don't have the resources to follow up with them.
    Mr. Walz. Yes. And my last question, just because you 
brought up a good point, and I heard you say a community in 
Minnesota, and your numbers were pretty staggering that that 
would hit that. That seems to me to be one of those situations. 
Has somebody gone out there and see who is physically there and 
what is actually happening in that, because it must be one 
retailer at one place? I don't want to jump to conclusions, and 
I am glad my colleague said that. People travel out-of-state 
for family emergencies, they travel, just because you are 
hungry doesn't mean you don't go to a funeral, or you don't go 
somewhere to see a relative. But when a number like that comes 
up, that suspends all belief. Do you get to go out there? If I 
could just ask on that. Did somebody----
    Mr. Yost. We did not.
    Mr. Walz. Okay.
    Mr. Yost. We did not.
    Mr. Walz. All right. Thank you, Mr. Chairman.
    The Chairman. The gentleman's time has expired.
    Mr. Davis, 5 minutes.
    Mr. Davis. Thank you, Mr. Chairman. And thank you to the 
witnesses.
    Ms. Brown, if I could start with you. Is USDA doing enough 
to address actually even more recipient fraud? I know this has 
been brought up. Can you give us your take on some of the 
solutions that you think USDA can implement, or solutions you 
think we might be able to implement?
    Ms. Brown. Well, it is interesting, I was trying to think 
back, when I started doing this work in 2006, the main focus 
was on retailer fraud, and we started to pester USDA to do a 
little bit more on recipient fraud. And starting in about 2011 
they really did begin to step up and take some action, because 
what we saw was you can address it at the retailer level, but 
we really felt like there needed to be a focus on the recipient 
level as well.
    We have seen them make some very good progress in this 
area, and our recommendations to them have been on ways that 
they can continue to improve their focus on recipient fraud, 
and a lot of that is the kinds of things that they did in Ohio 
where they are looking at data analytics, and trying to link 
different clues together to help them identify fraud.
    Mr. Davis. And which states, top three, do you think are 
doing the best job of identifying fraud?
    Ms. Brown. Well, we only looked at 11 when we looked at 
that, and each of them had strengths and weaknesses. I know 
that some states focus more of their resources on having more 
investigators to look at whether the information that 
applicants provide is accurate, but I am not sure that we have 
an answer on how effective that has been.
    Mr. Davis. Okay. Mr. Yost, what changes do you recommend to 
Federal law to allow state auditors to conduct more thorough 
and meaningful reviews of SNAP spending?
    Mr. Yost. There are three broad categories. The first is a 
series of just technical changes that are listed in our report. 
There are some useful improvements that could be made at the 
Federal structure as it exists. The second is to allow 
purchase-level data to the states. For example, the $1,500 in 1 
hour purchase, over six transactions, we have no idea what they 
bought. There are some reasons why knowing what is purchased 
and where can help us to lead to those that are monetizing 
benefits.
    Mr. Davis. Not to limit what they can purchase, just 
knowing what they did purchase. Right?
    Mr. Yost. Yes, exactly. What they did purchase.
    Mr. Davis. I mean it seems like it would be obvious, since 
we all have those rewards cards and we go to the grocery store, 
and they seem to print out the coupons of everything that I 
buy.
    Mr. Yost. Yes.
    Mr. Davis. The technology is already there.
    Mr. Yost. The database is there, the information exists. I 
do not have access to it. Neither do my colleagues.
    And finally, because of the difficulty in structuring these 
rules, block granting this to the state makes a great deal of 
sense because we will have a variety of innovations. When the 
Federal Government makes a mistake on making a very hard 
decision, and these are hard decisions, these are hard-luck 
stories, the iron law of unintended consequences means that 
everybody in the country suffers. If we allow the states to do 
it, when a state gets it wrong, only the people in that state 
are affected, and the innovations, the success stories are 
there with empirical proof for everybody else to pick up on.
    Mr. Davis. I agree. Anything that you would also recommend 
we do at our level?
    Mr. Yost. Thank you. I hope that you will find our report 
useful.
    Mr. Davis. Well, thank you. I am sure we will. And I will 
yield back the balance of my time.
    The Chairman. The gentleman yields back.
    Ms. Fudge, 5 minutes.
    Ms. Fudge. Thank you very much, Mr. Chairman. And thank you 
all for being here today.
    And forgive me if I sound somewhat concerned, I am, since 
this is our 16th SNAP hearing. I wonder if we do anything other 
than deal with SNAP in this Committee.
    Mr. Yost, I am obviously from Ohio. Thank you especially 
for being here today. But let me just ask you. You mentioned in 
your testimony, as well as in your written testimony, you 
suggest there are hundreds of millions of dollars of possible 
fraud in our program in Ohio, but you really have no basis to 
say that. If you look at the fact that balances on a card are 
not fraudulent necessarily. If you look at the fact that, 
heaven forbid, somebody would travel to Florida, a poor person, 
certainly they should leave their neighborhoods. If you look at 
the fact that you have nothing to tie one thing to another, how 
do you make a suggestion that there is over $100 million in 
fraud in the State of Ohio? I am having problems figuring that 
one out.
    Mr. Yost. What I said was millions, which would mean more 
than $2 million. I would not suggest that----
    Ms. Fudge. Okay, that is fine. So tell me how do you draw 
that conclusion?
    Mr. Yost. And the basis for that is the multiplicity of 
structural weaknesses in the management of the program. We are 
spending $2\1/2\ billion. Now, I want to reiterate that that 
doesn't mean that there should be cuts to the program----
    Ms. Fudge. No, I didn't ask that question. Let me just ask 
this question.
    Mr. Yost. Yes, ma'am.
    Ms. Fudge. How much actual fraud did you find?
    Mr. Yost. We were not looking for actual fraud, ma'am. The 
purpose of the audit was to test the structure.
    Ms. Fudge. Why would you even make a statement about how 
much fraud you think there is if that wasn't the purpose of the 
audit?
    Mr. Yost. Because I have been asked numerous times why do 
these structural matters, what do these structural weaknesses 
mean. I am trying to give it a sense of the order of magnitude.
    Ms. Fudge. What did it cost us to do the audit?
    Mr. Yost. I don't recall the precise number, ma'am.
    Ms. Fudge. Well, from a report from the Columbus Dispatch, 
they indicate that there was actually about $31,000 in fraud 
found, and that the audit cost $48,000. I am just trying to get 
to the point to figure out what it is you are trying to tell 
us, because I can't figure that out from what you wrote or what 
you said. At one point you are saying you weren't trying to 
find fraud, but that is basically all you have been talking 
about is fraud. I am still having a problem making the 
connection.
    Let me just ask this question. Do you audit other Federal 
programs?
    Mr. Yost. Yes, ma'am, under the Federal Single Audit Act, 
we do the Federal single audit for all Federal programs.
    Ms. Fudge. What have you found in other programs?
    Mr. Yost. That is a very broad question. Can you help me 
understand what you are looking for?
    Ms. Fudge. This is a very broad statement. Have you found 
fraud in Medicare or Medicaid, and at what level?
    Mr. Yost. Sure. We find misspending in a variety of 
programs. We issued a report last year about some in the 
Department of Education.
    Ms. Fudge. Are you concerned about those as much as you are 
concerned about this?
    Mr. Yost. I am concerned about all of the misspending I 
find, ma'am.
    Ms. Fudge. What about crop insurance, what has your audit 
found about that?
    Mr. Yost. I don't know that we have ever looked at crop 
insurance, and I don't know what the risks associated on it 
are.
    [The information referred to is located on p. 916.]
    Ms. Fudge. Ohio is an agricultural state. It is a Federal 
program.
    Mr. Yost. I am sure that it is. I don't know if we have 
looked at it.
    Ms. Fudge. I am truly not trying to give you a hard time, I 
am just trying to determine how you come to a conclusion that 
there is significant fraud in the State of Ohio without any 
basis upon which to make that conclusion.
    Mr. Yost. I disagree that there is no basis, ma'am. Our 
examination----
    Ms. Fudge. Well, that was the first question I asked you, 
what are you basing it on?
    Mr. Yost. And then you cut me off. I told you that the 
systems that we found, the weaknesses suggest that, the fact of 
the matter is nobody is looking at this stuff. When matches 
come back to the counties, they are under-resourced and unable 
to pursue it. The data mining happened before.
    Ms. Fudge. But again, you have no proof.
    Mr. Yost. We actually put it together. And when you look at 
the money that is being spent on even-dollar transactions, 
$1,500 of groceries in 1 hour, ma'am. Really?
    Ms. Fudge. And what percentage of the----
    Mr. Yost. If that doesn't sound like fraud----
    Ms. Fudge.--total is that? What percentage of the total is 
$1,500?
    Mr. Yost. It is an example that is illustrated----
    Ms. Fudge. What what percentage is $1,500 of the total 
money spent on food stamps in the State of Ohio?
    Mr. Yost. Once again, ma'am, that was not the focus of our 
program.
    Ms. Fudge. I am just asking a question. You raised the 
$1,500, I didn't.
    Mr. Yost. As an example to explain what my basis is. If you 
look at the even-dollar transactions slide from our program----
    Ms. Fudge. Mr. Yost, I am asking the questions.
    Mr. Yost. Well, I am trying to answer it, ma'am.
    Ms. Fudge. No, I just asked you what percentage, if you 
don't know, just say that and that is fine.
    Mr. Yost. Yes, it is infinitesimal.
    Ms. Fudge. Okay. I yield back, Mr. Chairman.
    The Chairman. The gentlelady's time has expired.
    Mr. Abraham, 5 minutes.
    Mr. Abraham. Thank you, Mr. Chairman. And I thank the 
witnesses for being here.
    Ms. Shahin, I will start with you first. Ninety-seven 
percent success rate, three percent error rate, which sounds 
good but in reality when we are dealing with the kind of money 
you guys are, that is $2.6 billion, if my math is right, you 
could give $1,000 to everybody over 18 in this United States. 
So it is a big deal. And to the previous $1,500 is important to 
me, and I am sure it is to most people, but it is a big deal.
    My point is, if a surgeon in a hospital has a three percent 
error rate, if a bank under Dodd-Frank has a three percent 
error rate, they are penalized severely. I understand that 97 
sounds good, but in the overall scheme when we are talking 
billions of dollars, three percent matters. It really does.
    Again, if Mr. Yost in Ohio, the USDA, they are not on time, 
is that what you said, Ms. Brown, about not releasing a 2015 
error report?
    Ms. Brown. Correct.
    Mr. Abraham. All right. I guess the question is, if Mr. 
Yost can do this in Ohio, we have great data, why can't other 
states do it and give this data to you guys to give us a 2015 
error rate?
    Ms. Shahin. Sure. Thank you for the question. It might be a 
little bit longer answer than you were hoping for, but----
    Mr. Abraham. Well, just give me the short one.
    Ms. Shahin. Keep it short, okay. What Mr. Yost looked at is 
the back-end, and what the improper payments and the error rate 
are about is the front end. It is the certification process. So 
when we----
    Mr. Abraham. We don't have the computer technology to do 
that now, is that what you are telling me?
    Ms. Shahin. No, it is not that there isn't technology that 
supports that, there absolutely is, but what I am saying is 
that once we realized that we might have a problem with bias 
because of certain rules not being followed, it is really not a 
matter of just looking at a computer, it is a matter of needing 
to go into the states and actually looking at those case files 
and seeing what happened. It is very investigative, very 
research-focused. And we will have all 50 states and the three 
territories done and an error rate announced by December.
    Mr. Abraham. When was it supposed to be due?
    Ms. Shahin. June 30 is when we would normally do it.
    Mr. Abraham. It is about 6 months behind.
    Ms. Shahin. It is.
    Mr. Abraham. Right. And I don't mean to cut you off.
    Ms. Shahin. And I appreciate----
    Mr. Abraham. Okay, let me go to another question.
    Ms. Shahin. Okay.
    Mr. Abraham. Did you say that there is now a higher 
percentage of working people receiving SNAP?
    Ms. Shahin. Yes, sir. Absolutely. About 42 percent of our 
participants live in households with earnings. They are working 
but they are not working enough.
    Mr. Abraham. Right, and again, that just goes back to my 
statement----
    Ms. Shahin. Okay.
    Mr. Abraham. Mr. Scott said, unfortunately, we have 1.7 
million veterans that are now receiving SNAP.
    Ms. Shahin. Absolutely.
    Mr. Abraham. It is a structural problem, but not with the 
USDA, it is a structural problem with our economy, just not 
providing jobs for these poor folks that are trying to make 
ends meet. We will do that.
    Ms. Shahin. Well, we are working on that too, Mr. Abraham, 
and we would love to come and talk to you about it.
    Mr. Abraham. Well, we would love to get people the jobs 
they want, and the jobs that provide a living wage instead of a 
minimum wage.
    Ms. Shahin. Exactly. Yes, sir.
    Mr. Abraham. Mr. Chairman, that is all the questions. I 
yield back.
    The Chairman. The gentleman yields back.
    Mr. McGovern, 5 minutes.
    Mr. McGovern. Thank you, Mr. Chairman. And thank you all 
for being here.
    I agree with Mr. Abraham in the sense that we need to do 
everything we can to get our economy moving so we can get 
people the jobs that pay a livable wage. But what we shouldn't 
do in this Committee is make it more difficult for them, and 
especially our veterans, during a time when the economy is 
still in recovery. We have a lot of people up here talking 
about removing the waiver for our able-bodied adults without 
dependents. That would take away that waiver from Governors, to 
be able to help some of these people who can't find a job or 
who can't get in a job training program, and a lot of veterans 
will lose their food benefit as a result of it. And if anybody 
can give me a reason or rationale how making somebody hungry 
will help them get a job more quickly, I am all ears.
    Mr. Yost, I have been trying to figure out what this 
hearing is all about, but then you mentioned a phrase that sent 
alarm bells off in my mind, basically saying that we should 
block grant the SNAP Program. And I worry about that because 
this is a good program. There are 48 million people in this 
country who struggle with food insecurity and hunger, and I 
want to make sure that those people get the benefits that they 
are entitled to. And we have a system right now where FNS and 
OIG and GAO and Congress can do oversight to make sure that 
states are, in fact, taking this benefit for food and getting 
it to the people in need. You turn it over to states and I 
don't know what the oversight is going to be, or what the 
guarantee is that people will actually spend that money to help 
struggling families, and to help people who are hungry. This 
notion of block granting this program is a really bad idea. We 
have a lot of people that are hungry, quite frankly, who are 
eligible for this benefit and who don't get the benefit.
    And I just have a couple of questions. Ms. Shahin, do you 
have all the tools and resources you need to identify 
suspicious behavior and remove bad actors from the program? I 
mean are there additional things that we can do here to help 
you get at these bad actors?
    Ms. Shahin. Well, does a Federal agency ever say no to 
additional resources?
    The Chairman. I need your microphone on, ma'am.
    Ms. Shahin. Sorry. I don't think I am supposed to talk that 
way. Let me just talk a little bit about the fact that a lot of 
what we have done, a lot of support that we have gotten from 
Congress already really has helped us to improve our automated 
systems, like that ALERT system that I was talking about. You 
have given us resources, we have centralized our retailer 
management system, and so we now are in one place that lets us 
target our resources, and you have supported that through 
funding as well. We appreciate that. You have given us dollars 
for states and things like that. I think that we need to 
continue our efforts.
    We have seen some really good results, we have seen 
improvement, and we need to keep on that path.
    Mr. McGovern. Right. So, Ms. Shahin, Mr. Yost raised the 
issue that households sometimes shop at stores outside of Ohio.
    Ms. Shahin. Yes.
    Mr. McGovern. That is allowed, right? Is that allowed?
    Ms. Shahin. Actually, nationwide, and Ohio is right in with 
the nationwide average, out-of-state transactions are about 
three percent of the SNAP purchases.
    Mr. McGovern. Right, but it is allowed, right? It seems to 
me that it would be important, since people sometimes, as Mr. 
Walz said, sometimes travel out-of-state. I think he mentioned 
Marshall, Minnesota. I just got to do a quick Google search, 
and Marshall, Minnesota, is the home of Tyson's meat packing 
and meat processing. I mean lots of hourly jobs there. I am not 
saying this is the answer to everything, but it is also 
possible that people, in order to comply with all the rules and 
regulations that we have put forward, travel outside of state, 
work at temporary jobs, work at jobs that are only a few weeks 
in length, and use their benefit there. Is that correct?
    Ms. Shahin. That is very correct. There are all sorts of 
reasons why benefits would be used in a different state. Border 
states, it is very common. Working or just shopping at the 
best-price supermarket or the closest supermarket could be in 
the state because you live close by, in that sense. But also, 
it is important to remember that when we had coupons, they 
could be used across states, and with EBT they have to be 
interoperable.
    Mr. McGovern. Right.
    Ms. Shahin. The key is you have the audit trail and if you 
find things that are suspicious you can look at them.
    Mr. McGovern. Right. It is important that people be able to 
have some flexibility with their EBT card. I just point out 
that, going back to what Ms. Fudge said, that is why the 
follow-up is important.
    Ms. Shahin. Yes.
    Mr. McGovern. Yes, there may be examples where there are 
examples of fraud, but there also may be examples where people 
are using these benefits outside of the state because they are 
working outside of the state. And that is an important thing to 
remember.
    Ms. Shahin. Sure.
    Mr. McGovern. I thank you all for being here.
    The Chairman. The gentleman's time has expired.
    Mr. Newhouse, 5 minutes.
    Mr. Newhouse. Thank you very much, Mr. Chairman. And I want 
to thank all of you for being here and contributing to this 
discussion, Mr. Yost, Ms. Brown, and Ms. Shahin. I especially 
want to thank you for your enthusiasm that you exude on this 
topic. I can tell that this means a lot to you, and I 
appreciate your hard work on this.
    I would agree with Mr. McGovern, looking for ways that we 
as Congress can help in this whole issue, because the biggest 
travesty would be that people who are actually in need of food 
are literally having food taken out of their mouths because 
someone else is gaming the system. And so that is something 
that we should definitely be concerned with.
    In my home state, I am from the State of Washington, I can 
proudly say that we have a model SNAP Workforce and Training 
Program that really does exceptional work in helping 
beneficiaries find employment. And given how SNAP allows states 
this kind of flexibility to implement certain aspects of their 
programs, are there any states that have a noticeably lower 
error or fraud rate? If so, do we have a sense of how we can 
achieve that in looking to other states for models?
    Ms. Shahin. Sure. Absolutely. Actually, one of the things 
that we do, we have funding that we call state exchange 
funding, and we use those funds for taking states to places 
where really good administration is happening. Error rates are 
low or an employment and training program is really good, any 
kind of thing like that we really want states to share with 
each other, and we have funds that allows for that kind of 
thing. So that is one important part of it.
    The states get together, actually, on a regular basis. They 
have a trade association that brings them together once a year 
where they share with each other. It is called NAPIPM, and 
please don't ask me what that stands for.
    Mr. Newhouse. Say it again.
    Ms. Shahin. NAPIPM. That is the group, and it is all about 
payment accuracy though. They get together and they share a lot 
of best practices. We also have keys to a low error rate and 
provide best practices on what we call our Partner Web, where 
states have access to share and consider those kinds of things.
    A lot of different things can go into a lower error rate. 
We like to share those things that are successful.
    Mr. Newhouse. Yes, thank you very much. I appreciate that. 
Could you also help me understand what happens when a SNAP 
payment error or fraud is discovered, either by the state or by 
FNS? Are funds somehow recouped or are underpayments made, or 
exactly how does corrective action happen?
    Ms. Shahin. Thank you. Yes, that is an important thing. 
Every error, even the ones that are under the threshold, must 
be reconciled. If an overpayment occurred, then the state must 
go to the client and recoup those funds. It doesn't matter if 
it was the state's fault or the state's mistake that caused the 
error, it still has to be recouped. If they get too little, 
they have to also make that adjustment and give a supplemental 
payment to the household to make it right.
    Mr. Newhouse. The state does.
    Ms. Shahin. The state has to do that. It is Federal funds 
still. It is still our Federal dollars that go to the benefits. 
Yes.
    Mr. Newhouse. And one last question, Ms. Brown, states have 
the authority to waive asset tests for beneficiaries in their 
states. Help me understand this, when that data is not 
collected, it can remove a tool to identify instances when 
errors can and do occur. Do we typically see a reduction in 
recorded error rates when asset tests are performed versus when 
they are not?
    Ms. Brown. Well, asset tests can be a source of error. 
Anything that requires a caseworker to go through and check on 
things and manipulate the numbers can be a source of error. But 
when asset tests are removed, then that takes away that extra 
responsibility and the extra checking, and can actually lower 
the error rate.
    Mr. Newhouse. It can lower the error rate of the benefits 
payments?
    Ms. Brown. It can lower the state's error rate if they have 
large numbers of program recipients where the caseworkers are 
not checking their assets. When they check an asset, they go to 
a bank, they ask for the amount of savings that people have, 
and it is a number of extra steps. And so if they don't check 
that at all, which is what happens in many states in BBCE, then 
that is just one whole lump of potential errors that is off the 
table, which is why the error rate in a state can go down.
    Mr. Newhouse. Well, I can see my time has expired, but I 
would like to further understand that and so maybe we can, 
after the hearing talk about that.
    Ms. Brown. Sure. Broad-based categorical eligibility is one 
of the most complicated issues that we are trying to figure 
out.
    Mr. Newhouse. Right. Okay. Thank you.
    The Chairman. The gentleman's time has expired.
    Mr. Newhouse. Thank you.
    The Chairman. Ms. Adams, for 5 minutes.
    Ms. Adams. Thank you, Mr. Chairman. And thank you to all 
the witnesses for your testimony.
    SNAP is a very important program for the 12th District in 
North Carolina that I represent. Mecklenburg County, for 
example, has 154,000 individuals participating in the program, 
more than any other county in our state. SNAP benefits are 
already inadequate to help a needy family put food on the table 
through the end of the month. Complex application requirements 
may reduce the number of individuals that receive SNAP 
benefits, but they also increase the rate of administrative 
errors at the state and county levels. Streamlining application 
and recertification requirements will reduce errors within the 
SNAP program, and more importantly, it will help more people in 
need be able to purchase food through the program.
    Ms. Brown, I recently introduced the Closing the Meal Gap 
Act of 2016 to strengthen the SNAP program, and to authorize 
benefits at a level that will actually help people put food on 
the table through the end of the month. And one of the 
provisions in the bill is to permanently authorize a standard 
medical expense deduction for seniors and disabled individuals 
that apply for SNAP benefits. A standard medical deduction, for 
example, would allow seniors to submit only $35 in out-of-
pocket medical expenses in order to claim this deduction when 
applying for SNAP benefits. It is estimated that if a standard 
medical deduction was permanently authorized for all states, 
that seniors claiming the deduction would see an increase of $7 
to $69 in monthly SNAP benefits.
    How would establishing a standard medical deduction in 
every state reduce errors in processing SNAP benefits for 
seniors?
    Ms. Brown. We took a look at that particular waiver and we 
determined that that is the kind of thing that would both make 
it easier for the participant, and have them not have to 
collect quite so much information when they were applying, and 
also make it easier for the caseworker, because they would have 
less calculations that they would have to do. Those two things 
combined would likely decrease the errors associated with that 
kind of application.
    Ms. Adams. Thank you. As a follow-up, state options are 
something that we have spent a lot of time discussing in this 
Committee. In your work with states, do you feel they would 
largely agree that options like simplified reporting, for 
example, should be mandatory?
    Ms. Brown. Well, simplified reporting is one of the biggest 
factors that states cite as a likely way to reduce error rates. 
I can't speak to whether states would want things to be 
mandatory or not, that probably varies from state to state, but 
it is one of the options that can reduce error rates. When you 
think about the fact that this program has gone from 26 million 
people in 2007, to 48 million in 2013, I am sure that 
caseworkers would say anything that could be done to decrease 
their workload and make it a little bit easier would be 
appreciated.
    Ms. Adams. Yes. Thank you. For our state, and my district 
in particular, where we have high unemployment rates, and, as 
has been mentioned here, people don't make enough money. I mean 
they are working two and three jobs, minimum wage and even 
less, and that also adds to the problem.
    Finally, Ms. Shahin, let me ask you, if you would clarify 
the Federal rules for dealing with SNAP accounts that go 
unspent.
    Ms. Shahin. So----
    The Chairman. Microphone.
    Ms. Shahin. Sorry. I believe it was the 2008 Farm Bill, if 
I remember correctly, set the rules around--it is called 
expungement. If a household's account is not touched for 12 
months, it is totally inactive, then those benefits are 
expunged. Now, there is an option that states have, we don't 
have many states that take it but it is available to them, they 
can, at 6 months, take the account offline. The account 
continues to accrue its benefits, but it is not available 
because it has been taken offline. And so if the household is 
looking to have those funds, they try to use the card and they 
can't, they will call the worker and those funds can be put 
back into active status.
    Ms. Adams. All right, thank you, Ms. Shahin. I really 
wonder why eligible people might not spend the money when they 
need the food.
    But I yield back, Mr. Chairman.
    The Chairman. The gentlelady yields back.
    Mr. Benishek, 5 minutes.
    Mr. Benishek. Thank you, Mr. Chairman.
    Mr. Yost, I have some questions for you about this data 
that you have presented. And it seems to me that there is 
suspicion for fraud over a lot of the things like the even-
dollar, who investigates that? How is that done? Is that the 
Feds' problem or the state? This kind of issue that you brought 
up here, they seem all suspicious to me. I mean, the same 
transaction. What happens to this data that you audited, and 
did somebody act on this?
    Mr. Yost. And my colleagues here may wish to add to this 
answer. The traditional division of labor is that the Federal 
Government goes after the retailers, and the state government 
is assigned to go after the recipient level. With all respect, 
and as a former prosecutor, going after recipients is a lot 
like trying to solve drug trafficking by locking up the guy 
that uses heroin, and has one hit and putting him in prison. We 
have seen across the country that just isn't a very effective 
way to approach it.
    That being said, at the state level when something gets 
referred back it always ends up down at the county level. Some 
counties have some resources to deal with that. Most of them 
don't.
    Mr. Benishek. So it is like it is up to the state 
prosecutor. So then like when the----
    Mr. Yost. At the recipient level.
    Mr. Benishek. Who finds this data? You found this data and 
then what do you do with it? You have to refer it to the state 
prosecutor then to investigate it, and then he refers it to the 
county prosecutor?
    Mr. Yost. In Ohio, the county prosecutor is the only state 
prosecutor. But this transaction that is up here, that report 
had never been run before we did it. No one had gone back to 
look at it. I don't know who the recipients are here, and I 
can't tell a county prosecutor who the recipients are. I think 
that there are some synergies that we could explore.
    Mr. Benishek. Well, who would have to tell? Okay, all 
right----
    Ms. Shahin. May I----
    Mr. Benishek.--Ms. Shahin, you are excited here----
    Ms. Shahin. Thank you.
    Mr. Benishek.--go ahead.
    Ms. Shahin. Thank you. I am because, actually, remember I 
talked about that ALERT system that looks at the data? We don't 
talk about what we look at because then the retailer will know 
what we are looking at and they will change it, so we kind of 
try and keep it a little bit of a secret. But all of the things 
that Mr. Yost is talking about are all things that are 
available through a state's EBT vendor or through our system. 
So there is an opportunity for synergy here.
    Mr. Benishek. Then what do you do about it?
    That is what I want to know, what do you do about it?
    Ms. Shahin. Sure. What we do when we find suspect 
retailers, we had 1,900 retailers last year that we 
disqualified for trafficking. Out of business. They will never 
be a SNAP retailer again.
    Mr. Benishek. Yes, was an individual prosecuted in that? 
Because you can always like change from ABC News Mart to----
    Ms. Shahin. No, sir, we--these----
    Mr. Benishek.--CBS New Mart. You know what I mean? I mean 
that seems to be a simple thing to do.
    Ms. Shahin. That is a very good question. A very good 
question. First off, we can do most of ours through an 
administrative process. So that works out fairly quickly. We 
can get them disqualified administratively. They have an appeal 
process, but we can do that. And so we share that data then 
with the state, for them to look at the people who shop there. 
Now, to the point of you are going to move down the way, that 
is one of the things that we have improved, when I was talking 
about some of the improvements we have been making. We really 
need to make sure that the guy that was disqualified can't come 
back some other kind of sneaky way. We have put some processes 
and procedures in place to make sure that that doesn't happen, 
because that is really important, you are right. I move across 
the way and I just buy a different store. No. If you have been 
permanently disqualified----
    Mr. Benishek. But nobody is actually prosecuted for this 
kind of thing, it doesn't sound like.
    Ms. Shahin. Well, no, when OIG actually takes it on as a 
criminal case, that does go to court. That is the thing like 
what you were talking about Mr. Chairman.
    Mr. Benishek. Well, how many times a year does that happen?
    Ms. Shahin. I am sorry?
    Mr. Benishek. How many times a year does that happen where 
somebody actually goes to court? Yes.
    Ms. Shahin. Okay, now are we talking about the recipients?
    Mr. Benishek. No, I am talking about these retailers.
    Ms. Shahin. Okay. Okay. For the retailers. I don't have 
that information because that is through OIG, but I can get it 
for you. Could we get back to you on that, on how many that 
do----
    Mr. Benishek. Well, yes, I guess.
    [The information referred to is located on p. 916.]
    Ms. Shahin. Sure.
    Mr. Benishek. It doesn't seem to me that it is that much of 
a penalty if you just get cut off. You just get a new corporate 
name and you start doing business again.
    Ms. Shahin. But you can't do that. We are going to catch 
you. They have to give us all the information about who is in 
any way connected to this business. So even if they try to----
    Mr. Benishek. Well, it is easy to get around that.
    Ms. Shahin. We do a lot of checks, and we require a lot of 
documentation.
    Mr. Benishek. All right, thank you.
    My time is up.
    Ms. Shahin. Can I just speak for 1 second?
    The Chairman. Yes, ma'am.
    Ms. Shahin. There was the question about states that do a 
really good job on the recipient fraud side----
    The Chairman. Yes, ma'am. Very quickly.
    Ms. Shahin.--and I couldn't answer. I do have an answer for 
that, and there is one, and, Mr. Chairman, it is your state. 
And if you haven't noticed, it is my state too.
    The Chairman. I got you.
    Ms. Shahin. They do a good job on the front-end with data 
broker work, and they do a great job on the other end with an 
in-house data analytics. They are one of our stars in that 
area.
    The Chairman. Well, I appreciate the advertisement.
    Mr. Ashford, 5 minutes.
    Ms. Shahin. We will send Ohio there.
    Mr. Ashford. Do you have any--I am sorry. Thank you, Mr. 
Chairman. This really is a key hearing. I am sorry I was late, 
I was at another hearing. I spent 16 years in Nebraska 
Legislature, and before that working with the county and state 
on many of these issues, so it is a massively difficult issue 
to put one's arm around.
    I had a number of questions, most of them have been 
discussed. Let me just ask Mr. Yost. In Ohio, going after or 
pursuing fraud on the recipient level is very, very difficult, 
clearly. Hard to identify right away, and what do you do with 
it, tell me just a little bit more, maybe you have already 
answered this, but how does that sort of investigatory work 
interface with what Ms. Shahin has talked about, because I 
think that is what she is talking about? But, do you notify 
USDA, or the Inspector General, of a pattern of recipient 
fraud, or what do you do and how do you relate to that?
    Mr. Yost. Again, our office is not primarily the 
investigative agency here, so I----
    Mr. Ashford. Okay.
    Is it the county or state?
    Mr. Yost. There is an Ohio investigative group that has 
jurisdiction over this that is housed under the Governor's 
Administration.
    Mr. Ashford. Okay. What is the magnitude in Ohio of this 
fraud on the recipient level? When does it rise to the level of 
sort of actionable----
    Mr. Yost. Well, again, there can be an individual case that 
comes into attention either by a flag or by an alert 
caseworker, and that is referred at the county level to what 
would be the DA in most states.
    Mr. Ashford. Okay. And so when the caseworker, and this 
gets a lot of--spent years working on--with this issue with the 
magnitude of the caseloads, and maybe I have a general question 
as to what everyone would suggest we do to try to alleviate 
some of that, because that is a massive problem in Nebraska, as 
it is everywhere, the caseloads are huge. It would take a 
caseworker to really take the initiative generally, correct?
    Mr. Yost. Yes, and you have to prove intent to do a 
criminal conviction----
    Mr. Ashford. It can't be just sort of a mistake kind of 
thing.
    Mr. Yost. Which is why it is so much easier to use data 
mining and attack this at the retailer level where the 
monetization is actually happening.
    Mr. Ashford. But the recipient level though is a pathway 
into discovering fraud on the--or the retailer level as well, I 
assume. I mean that is where some of this comes from, or no? 
Not really, or----
    Mr. Yost. Well, it can be but, frankly, if we had in drug 
trafficking the kind of deep database that we have for the SNAP 
purchases, we would never do the monkey move-up, get the first 
level, get them to snitch on the next level and move up the 
food chain, we would go straight to the top of the food chain 
and use this data. That is the way it makes sense.
    Mr. Ashford. Okay. Ms. Brown, thank you, can you----
    Ms. Brown. Yes, I was just going to mention that when we 
did our work where we looked at 11 states and what they were 
doing about fraud, we did hear that the investigators had very 
heavy caseloads, and we also heard that in instances where they 
found intentional violations, it was very difficult to get 
prosecutors to pick up those cases because they are small. But 
the other option to remember though is that they can be 
referred to a hearing in the office itself, and at least be 
administratively disqualified from receiving further benefits.
    Mr. Ashford. And once it goes into that administrative 
process too, everybody is alerted, those who know about the 
case are alerted to how this happened and so forth and so on, 
that may or may not lead to other investigatory opportunities 
that would involve someone other than the recipient. It would 
involve the retailer, possibly.
    Ms. Brown. Yes, right.
    Mr. Ashford. Yes. Ms. Shahin, do you have anything to add 
to that? It wasn't really a question.
    Ms. Shahin. No, I think that what you are getting at though 
is something that I really appreciate, which is looking at how 
we can work together.
    Mr. Ashford. Sort of, yes.
    Ms. Shahin. It really is two sides of the coin. And I don't 
disagree with Mr. Yost that the states' job on the recipient is 
a tough one, but there are a lot of tools and a lot of things 
that we can work on, a lot of grants that we are doing, the 
data analytic model that we have developed, South Carolina has 
shown great new recent results. Last year they didn't 
disqualify any recipients. In the first 9 months of this year, 
they disqualified 185.
    Mr. Ashford. Right.
    Ms. Shahin. It lets them target those minimal resources by 
using a model that really makes sense for them.
    Mr. Ashford. Thank you. I am over time. Thank you, Mr. 
Chairman.
    The Chairman. The gentleman's time has expired. Mr. Allen, 
5 minutes.
    Mr. Allen. Thank you, Mr. Chairman. And thank you panel for 
giving us some real inside information on what is going on out 
there. Of course, we hear lots about this in our districts as 
well.
    I was wondering, I have a couple, he is a disabled veteran 
and she is a homemaker, and has to take care of him, and they 
were on the program, and pretty much he has a specific diet he 
has to eat, and she is very nutrition-conscious. And their 
problem is that there was an enormous amount of availability to 
them that they didn't need, so they kind of wanted to give that 
to somebody else. How does that work, because when they talked 
to their, I guess whoever they reported to get this benefit, 
they basically said take it or leave it. In other words, you 
had to take this much and you could not say, ``Okay, my 
neighbor needs more, and we have heard stories of folks who are 
going without,'' do you administer requests like that? And if 
there is no way to do that, how could you implement something 
like that?
    Ms. Shahin. Wow, that is a pretty amazing story. And I 
guess I would just start with that the amount of benefit they 
receive is based on the rules and the regulations. You have 
this many people in your family, you have this much earned 
income, you have this much unearned income, you have these 
kinds of deductions and this is what you are eligible for. The 
state couldn't really say you are eligible for this, but since 
you don't want all of that we will give you less, because we 
would call that an error. They gave an under-amount. The 
challenge here is how do they take their compassion and their 
generosity and make that work for others, since they feel 
blessed themselves. I think that there are a variety of ways to 
do that. I would imagine through perhaps their church, their 
food bank, and other opportunities volunteering----
    Mr. Allen. Well, and that is what they did, they got off 
the program and their church and I guess other organizations 
were able to fill that need. But you have heard about the cards 
and you can buy them for 50 on the dollar, I mean couldn't 
there be some kind of a requirement where whoever that card is 
issued to has some kind of identification to prove that that is 
exactly who they are? Because we know in some of these drug 
busts I have heard of these folks having multiple numbers of 
these EBT cards. What can we do on that as far as restraining 
that problem?
    Ms. Shahin. Okay, I will take the second one first because 
we also hear the stories of drug busts, a whole pile of EBT 
cards. We would certainly hope that that state law enforcement, 
since we do have relationships with a lot of state law 
enforcement, but even if we don't, that somehow they get that 
information to the state SNAP agency so they can do 
investigations on those cards and see what may have happened, 
how did that happen, is this an indication of something that we 
need to investigate, do we need to refer it to our fraud unit 
those kinds of things.
    Mr. Allen. Well, I mean it is obvious that they are trading 
their EBT card for drugs.
    Ms. Shahin. It definitely raises the red flag, doesn't it?
    Mr. Allen. Right.
    Ms. Shahin. It absolutely does.
    Mr. Allen. Yes.
    Mr. Yost, you have any comment as far as your auditing and 
what kind of issues we got there, and how we can fix that ID 
problem?
    Mr. Yost. One thing that would help some, wouldn't cure it, 
put the picture of the recipient on the card.
    Mr. Allen. Yes. Yes, and is that too expensive to do, or is 
there a reason we are not doing that?
    Ms. Shahin. It does cost more to have the photo on the EBT 
card than not.
    Mr. Allen. Picture ID. But the ultimate saving----
    Ms. Shahin. But it is a state option.
    Mr. Allen. Yes. Yes.
    Ms. Shahin. It is a state option.
    Mr. Allen. Is it? Okay.
    Ms. Shahin. If they want to do that, they can do that. That 
is a state option. One of those flexibilities.
    Mr. Allen. Okay. I yield back.
    The Chairman. The gentleman's time has expired.
    Mr. Costa, 5 minutes.
    Mr. Costa. Thank you, Mr. Chairman. I am going to offer 
some observations, and I hope they are viewed in a constructive 
fashion. This is the 16th hearing that I believe we have held 
on the SNAP program. In California, we have, of course, the 
highest number of recipients, for a combination of reasons, and 
based on the data that has been collected by the Food and 
Nutrition Service, in my district we have more recipients under 
this program than perhaps any Congressional district in 
California. It is a district that has a lot of interesting 
social, economic breakdowns in terms of contrasts of a lot of 
poverty and a lot of wealth. And it seems to me the whole 
challenge here and the whole purpose of the SNAP program is to 
give people in America, the richest country in the world, the 
ability to have a helping hand, and how we have programs that 
really allow them, the overwhelming majority of them who are in 
assistance, whether it is through SNAP or Women, Infants, and 
Children program, sometimes it is a combination of both, to be 
able to become self-sufficient. And the overwhelming majority 
of them want to become self-sufficient. People fall on hard 
times for a lot of reasons, and we have a lot of challenges out 
there. Out of the 2+ million households that are receiving SNAP 
benefits in California, 50,000 of them are in my district.
    And so I know the focus today is on error rates, and the 
sixteenth hearing that we have had, error rates by states and 
trying to focus on fraud, waste, and abuse. And I understand 
that we should never, ever tolerate any fraud, waste, or abuse 
of taxpayer dollars that are spent for good purposes and good 
intentions, but having looked at this both at the state level, 
when I was in the legislature, and now in Congress, one can 
take the position that maybe we shouldn't have the program. And 
I would disagree, but I can understand where some people may 
come to that conclusion. But the fraud, waste, and abuse in 
terms of error rate is among the lowest of a whole host of 
Federal programs that we provide support for. I would like to 
focus our efforts, I mean if there are some good ideas on how 
we can narrow that error factor in 1\1/2\ percent or so, I 
believe, on fraud, waste, and abuse, and if we can get it even 
lower, that is good. But it seems to me the real focus ought to 
be able to give people an opportunity to get off the 
assistance. We have programs in my area like the Fresno Bridge 
Academy that has been very successful at doing that, and we 
want to expand it. The pilot projects in Washington State, and 
other places that I am aware of, we want to try to figure out 
how we can more effectively get people off the assistance. 
Certainly, we spend a lot of money on this.
    And so what can we do to that end? And I don't know if any 
of the witnesses want to opine. I have used most of my time in 
making my observation.
    Ms. Shahin. Do you all mind? Okay. I will take your----
    Mr. Costa. Forty seconds or less.
    Ms. Shahin.--few minutes left, Mr. Costa. Thank you. We 
also have put a great deal of focus. I will admit to you that 
for a number of years we were not paying this much attention to 
the employment and training services that we have available to 
us. But a few years ago, we actually put our money where our 
mouth was. We have put resources to it, we have put resources 
not only in our national office but out in the regions. Now, 
why is that important? Because states really weren't 
necessarily used to how to do employment training as a part of 
the SNAP program. We have really beefed-up the technical 
assistance, we have a SNAP to Skills, it is very job-driven 
because that is one of the things we wanted to pay special 
attention to. What are the jobs, and train for those jobs. It 
is a really important way of looking at work services.
    You are absolutely right, Fresno has one of our E&T pilots, 
and we are very excited about it. It is multigenerational, it 
is an approach that is very interesting to us, and testing that 
and taking a look at it and seeing if that is something that we 
can then take on as a best practice to other states. We are 
excited about that.
    The Chairman. The gentleman's----
    Ms. Shahin. Mr. Newhouse mentioned Washington State----
    The Chairman. Ma'am, the gentleman's time has expired.
    Mr. Costa. Thank you, and we should expand it. Thank you, 
Mr. Chairman.
    The Chairman. In order to get through this me need to keep 
moving.
    Mr. Thompson, 5 minutes.
    Mr. Thompson. Thank you, Chairman. Thanks to the members of 
the panel for being here, for being a part of the process, 
which has been a very thorough, comprehensive process of 
looking at an important program, making sure that we are doing 
it right, meeting people's needs, that we are minimizing errors 
and obviously fraud. And today we are focused on errors.
    Now, one of the numbers when I first came in, and I 
apologize if this was already covered, but I had heard that one 
of the statistics was, and correct me if I am wrong, I thought 
I heard today we have 48 million citizens that are utilizing 
the SNAP program.
    Ms. Brown. Forty-eight million in 2013. Today it is 46 
million. It has gone down slightly.
    Mr. Thompson. Okay, gone down. All right. My first 
question, and thanks for clarifying that number for me.
    Ms. Shahin, when a state agency or the USDA is reviewing 
certain case files, are there certain procedures that a case 
file reviewer must follow? For example, is a single phone call 
sufficient, or are there Federal requirements or guidelines 
USDA enforces, or is it left up to the state agency in terms of 
how they gather the required information?
    Ms. Shahin. If I am not mistaken, what you are talking 
about is in the QC review. Is that what you mean, is in the QC 
review they have to actually, in that sample month, basically 
determine whether or not the benefit that they received that 
month was correct. They basically have to work the case all 
over again. They have to do the verifications, they have to do 
the interview, all of those have to happen, and all of that has 
to be documented in the file very clearly. That is what the 
state review is all about is doing all of that work. And it is 
very similar to the original certification. It is a rigorous--
--
    Mr. Thompson. Just to clarify too though, some of the 
questions were about where the accounts have been inactive and, 
therefore, frozen until maybe a recipient chooses to try to use 
a card, cannot, and that that kind of triggers, are those 
benefits just fully restored, or does it go through that kind 
of a thorough process to make sure that there is still 
eligibility, they haven't been successful finding better 
employment or employment, or those types of things?
    Ms. Shahin. Absolutely. Yes, and that is one of the things 
that states do when they take it offline. Then they are going 
to discuss, you had not touched it for this period of time, 
have there been changes in your circumstances, we need to take 
a look at this. And they can even do some of their own data 
matches that they have available to them to see what might be 
going on for that household or family.
    Mr. Thompson. Very good. My next question is for any of the 
witnesses. Since the SNAP program obviously is a taxpayer-
provided assistance for those folks who are in need. What 
percentage of SNAP payments made in error are recovered, and 
how is this tracked and does it include payments that are 
errors and payments as a result of fraud, and exactly how is 
that payment recovered?
    Ms. Shahin. I think that is mine. Okay, so when they go 
through the QC review process, any cases that is found to be an 
error, whether it is an overpayment or an underpayment, and no 
matter of the threshold, all of them have to then be corrected 
and reconciled and made correct. That means that if they 
received an overpayment, then the state must recoup that money 
from the client, no matter whose fault it was. Now, remember, I 
don't know if you were in here, but 62 percent of the errors 
happen through the state administrative process, 38 percent 
happen by client mistakes. And so as a part of that, and you 
mentioned fraud, so when they look at that and they see the 
over-issuance, they are going to have to recoup, and they are 
also going to have to look at that case and think, ``Was this a 
mistake on the part of the client.'' Let's say it wasn't a 
state error, is this a mistake on the part of the client, did 
they misunderstand, or were they trying to pull something over 
on me. Was there an intent to do that. If that is the case, 
then they have to refer that to their fraud unit as well. So 
any case that is found in error.
    On the other side, if it is an underpayment they have to 
give them a supplemental payment for that.
    Mr. Thompson. Very good. Thank you, Mr. Chairman.
    The Chairman. All right, just to clarify before the 
gentleman's time is yielded, Ms. Shahin, I know that you are 
saying that they have to do that on the overpayments. What is 
the percentage of overpayments that are actually collected?
    Ms. Shahin. Well, it should be----
    The Chairman. I know, but----
    Ms. Shahin. It should be----
    The Chairman. We don't track that?
    Ms. Shahin. Well, we do, and we are going to actually be 
getting better information. I mentioned that we are revising 
our reporting form from the states, so we will be getting more 
information on this. But they have to do the recoupment. They 
actually get to keep 35 percent, that is a part of the statute. 
They get to keep some of that. If they can't recover it, then 
they have to refer it to Treasury Offset, and then those funds 
are recovered in that manner.
    The Chairman. I don't have any idea what a Treasury Offset 
is. What is that?
    Ms. Shahin. Treasury Offset----
    The Chairman. Next month's benefit is offset?
    Ms. Shahin.--it is like taking their tax return. The 
government will----
    The Chairman. These folks aren't filing tax returns.
    Ms. Shahin. I am sorry?
    The Chairman. These folks--okay.
    Ms. Shahin. Well, some of them do have tax returns. Some of 
them.
    The Chairman. All right, so this would come out of their 
earned income credit?
    Ms. Shahin. It could come out, yes. And actually, the 
Treasury Offset Program, I don't have the information right off 
the top of my head, but that might be something you would be 
interested to know the billions of dollars we have recovered 
that way.
    The Chairman. Now, does the state get 35 percent on 
underpayments, do the states get 35 percent of the underpayment 
as well?
    Ms. Shahin. Of the underpayments? No, sir.
    The Chairman. Okay. Ms. Lujan Grisham, 5 minutes.
    Ms. Lujan Grisham. Thank you, Mr. Chairman. And I too am 
really interested in making sure that a benefit in a program 
that I actually think highly of, particularly in terms of its 
both intended beneficiary group, given that I am still 
representing one of the most hungry states and hungry 
populations in the country per capita, but also think that in 
spite of what are considerable and significant shortcomings in 
the oversight and quality work by USDA, that most states do a 
fairly effective job at keeping the administrative costs low.
    I believe that you are aware of the many concerns that we 
have in New Mexico's program, which are longstanding, at least 
8 years. And, in fact, USDA, by all accounts, has done very 
little with this knowledge. It is incredibly disturbing to me 
to continue, as recent as last night, on national news to hear 
the allegations from beneficiaries who meet the qualifications 
for emergency benefits, which means that they are at risk of 
being homeless, there is no food in the house, they are raising 
kids, and that state employees in New Mexico are adding 
benefits to their applications so that they don't get dinged. 
This is apparently one place where USDA will ding you, it is 
like the veterans wait list, that if you don't move those 
applications timely, because they are emergencies, then you are 
in trouble. What our state is doing is they falsify those 
records. And, in fact, the person who the court believes to 
date was most involved in falsifying those records, in a report 
to USDA, it was confirmed that it was okay that that person 
manage the improvements to the New Mexico program. The courts 
and others have disagreed with you, and that person is no 
longer, who pleaded the Fifth, I might get this a little wrong, 
20 times, 100 times, multiple times in court, is no longer 
going to be able to try to rectify this program.
    Now, in a government oversight hearing, we finally, 
bipartisanly, got the Under Secretary Concannon to agree that 
this should be referred to the OIG for investigation, because 
prior to that, the idea was that USDA would provide technical 
assistance to the state to investigate itself, which is 
untenable and really goes to the larger question. We are not 
creating environments where we are protecting the 
beneficiaries, protecting the benefits, holding states 
accountable, or holding bad actors accountable. And I think 
that the genesis of this hearing, while we might disagree about 
the policy of the program, we definitely want it to be 
administered correctly.
    Since all of these hearings, and, in fact, I am going to 
quote Concannon who said, ``New Mexico has the most fouled-up 
SNAP program in the country.'' And yet we were just doing 
technical assistance.
    I am interested to know what progress you have made in New 
Mexico, and given what you now know about New Mexico, what are 
you going to do to hold states accountable? All right, so I get 
that we want the tools for the beneficiaries who are bad 
actors, and the grocery stores, and the drug dealers, and all 
those bad actors, I have no tolerance for it, but I expect the 
state administrators to do their job and to be held accountable 
in the same way, which is why I am not a big fan of block 
grants because then you can't even get the data when the states 
aren't doing their job. How are we doing?
    Ms. Shahin. Okay.
    The Chairman. Microphone.
    Ms. Shahin. Okay. Lots of information there. Lots of 
questions there. I am going to try and take what you have 
asked, but if I don't get it all please----
    Ms. Lujan Grisham. I just want an update.
    Ms. Shahin. Yes.
    Ms. Lujan Grisham. Yes.
    Ms. Shahin. Okay. First off, thank you for mentioning the 
U.S. OIG. The Under Secretary did send the request to them on 
June 15. We have heard from them. They have initiated an 
independent review and investigation. Part of that we did get 
on the phone with them to say we have a lot of other things 
that we need to work on in New Mexico. We want to make sure we 
don't impede your investigation in this. Is there anything you 
want us to do.
    Ms. Lujan Grisham. And you want to protect those 
beneficiaries.
    How are you going to----
    Ms. Shahin. That is right. That is absolutely right. And 
you are absolutely correct that actually integrity is two sides 
of the same coin, and that coin has access on one side. 
Integrity is also the access to the program. Receiving the 
right benefit, when you are eligible, timely. Whether you are 
talking about an expedited or a regular program, you do that.
    Ms. Lujan Grisham. Thank you, Ms. Shahin, the Chairman is 
overly patient with me. I am always over time. But it does 
speak to your question, Mr. Chairman, which is we need data 
about whether or not accountability is really occurring at all 
levels.
    The Chairman. The gentlelady's time has expired.
    Mr. LaMalfa, 5 minutes.
    Mr. LaMalfa. Thank you, Mr. Chairman.
    Ms. Brown, coming back to some of the previous testimony, 
in the 2014 GAO report there was discussed a great deal of 
fraud within the program, as well as many factors limiting the 
effectiveness of detection tools that would be coming from the 
USDA. But during the same year, USDA actually touted their 
record of their payment accuracy rate and work reducing the 
fraud. As you mentioned earlier, in the identified report there 
is concern that USDA and the Food and Nutrition Service do not 
have reliable or relevant data, so it is pretty difficult to 
actually determine how they got to these numbers and figures 
they are labeling as a successful venture, when multiple state 
investigations are getting different numbers at the same time. 
FNS was pushing the use of monitoring software, which I 
understand to be described as the really simple syndication, or 
the RSS, technology, which is known to be outdated, and the 
report found only one state of eleven that it surveyed found it 
to be effective.
    My question is, in your opinion, which is also based on 
GAO's overall findings on fraud, is USDA doing enough to not 
only implement more effective methods to prevent fraud before 
it happens, but also to improve the data they have so we 
actually have a more accurate picture of the figures of fraud. 
As they mentioned in this statement, it is pretty sketchy. How 
would you really bottom line address that to how are we going 
to have a better, more accurate picture overall of fraud with 
this kind of issue going on at the state level, and with 
previous technology?
    Ms. Brown. Well, one of the things that you mentioned was 
trying to get a handle on the extent of recipient fraud. And 
what we asked USDA to do was take a look at their reporting 
form on that because we don't have a measure, like there is X 
percent of recipient fraud in the country or in any state. But 
in lieu of that, USDA has a reporting form that Ms. Shahin has 
mentioned that they are modifying, and that form has how many 
investigations are done, how many administrative 
disqualifications, how many prosecutions, that kind of thing, 
that at least gives some kind of measure about state effort. 
And what we found was that the information that was coming in 
on that form to date was not good because different states were 
interpreting what they were supposed to be reporting, what 
constituted an investigation, for example, differently. We 
asked them to fix that form, and they have, in fact, they have 
developed a new form, I think it is a----
    Mr. LaMalfa. Let me break in, is this part of the RSS, or 
the really simple syndication system?
    Ms. Brown. That is a second issue that I want to make sure 
I address too.
    Mr. LaMalfa. But, those are two different ones.
    Ms. Brown. Yes. And so the form thing, they are working on 
that and they are waiting for OMB to approve it, and they are 
doing training on it.
    The RSS feed is about the fact that there is some concern 
that traffickers are using e-commerce and social media sites to 
try to traffic their benefits. They might be trying to trade 
for cash or even trade for a place to stay, or other types of 
nonfood goods and that is not----
    Mr. LaMalfa. And when you find this type of transaction 
going on, on social media, do you have the means to come down 
upon that immediately and firmly?
    Ms. Brown. Well, we did some studies and did find examples 
of that. Not a huge amount, but we did find examples. And our 
recommendation to USDA was that the types of guidance they were 
giving the states on how to get a handle on that and get out in 
front of it, the states didn't find it very helpful. And so it 
was just a lot of data through the RSS feeds that you are 
talking about. And we found that just by looking at an e-
commerce site and doing a manual search, we found better 
information than they did through all this data that was coming 
to them that USDA was recommending. We suggested that they 
improve that process and----
    Mr. LaMalfa. I am about out of time, so just the bottom 
line, do you feel that the USDA is doing enough right now to 
implement more effective methods?
    Ms. Brown. I think they are taking steps in all of the 
areas that we recommended. I don't think they are quite there 
on any of them yet.
    Mr. LaMalfa. Well, the steps as they play out, will that be 
enough, or is it going to be still behind the curve ball?
    Ms. Brown. Well, what we looked at was just some elements 
of fraud at the state level, and there are many other 
opportunities that we have talked about today that are 
instances where USDA and the states can work together more 
closely to share their data and find ways to identify fraud.
    Mr. LaMalfa. Thank you. My time has expired. Thank you, Mr. 
Chairman. I yield back.
    The Chairman. The gentleman's time has expired.
    Just a couple of nits and nats. Ms. Shahin, the 
clearinghouse the tests that you did, how many states were 
involved in the clearinghouse?
    Ms. Shahin. It was five states.
    The Chairman. Okay.
    Ms. Shahin. Do you want to know which they were?
    The Chairman. No, that is okay.
    Ms. Shahin. Okay.
    The Chairman. It was five.
    Ms. Shahin. Okay.
    The Chairman. And then on people who are disqualified, 
retailers disqualified under your administrative procedures, is 
that public information, is that available for the public to 
know? Should we publicize that better and shame these people?
    Ms. Shahin. Yes, sir. Actually, it goes onto, I can't 
remember the name of it. I think it is called SAMS. It gets 
posted.
    The Chairman. All right, it would be the retail 
establishment, XYZ Food Mart. Are the individuals who----
    Ms. Shahin. It would be the owner. The owner's name.
    The Chairman. The owner.
    Ms. Shahin. Yes----
    The Chairman. The individual themselves who----
    Ms. Shahin. You bet, because remember that he might sell 
that store now, okay, and if he sells it, he is going to have 
to pay a penalty for having sold it because the 
disqualification wasn't enough, so we are going to charge him a 
penalty.
    The Chairman. Yes.
    Ms. Shahin. But that new owner may keep the same name of 
the store.
    The Chairman. Right. I got you. All right.
    Ms. Shahin. So we want the owner's name.
    The Chairman. All right. Mr. Denham, did you want to ask a 
question?
    Mr. Denham. No.
    The Chairman. Okay. Well, thank you all for being here. Ms. 
Shahin, your first bite at the apple, the USDA may never let 
you come back. Your way is too candid. But thank you. Good job.
    Ms. Brown, thank you.
    Mr. Yost, you had one slide up there that showed the same 
transactions for 6 months in a row, right after the EBT cards 
refreshed. I used to be an auditor back in my misspent youth, 
and that is suspicious. And it wasn't your task to go find that 
individual or look at that retailer to see if there were other 
similar transactions going on, that couldn't be the only time 
that retailer perpetrated that deal with that one individual. 
There had to be other individuals doing it as well. And so 
there is plenty of meat in your information, your data mining, 
for me to say that this should have been fodder for additional 
investigations. I understand the challenge of small-dollar 
defalcations and small-dollar errors, but nevertheless, each of 
those chip away at the public integrity, the public support. 
Mr. Yost, you said it really well in terms of why we need to 
get this right over and over. I am a little concerned with the 
quest to get the error rate down by making it easier to not 
make errors. Errors are there, tracked errors to find out if 
people are getting benefits they shouldn't get, or didn't get 
benefits they should. If we just simply make it easier to not 
make errors then I don't know that that is necessarily the 
proper quest that we should be on. But all this fits into the 
overall pattern. My colleagues from time to time on the other 
side of the aisle gripe about the number of hearings we have 
had. We spend $80 billion a year on this program. It is worthy 
of several hearings to understand what is going on, and so I am 
not embarrassed by it. And, quite frankly, I have no way to 
compel them to come to these hearings. They show up on their 
own. If they don't like it, they can stay home.
    But nevertheless, I appreciate our witnesses being here 
this morning and giving us some good information.
    We might have some follow-up things to talk about as well, 
particularly the offsets or the way to get back the 
overpayments on the error rates, even the ones that we do 
track. The fact that the error rate is understated, many point 
to that as a point of honor, and knowing that the data is just 
not inclusive of all the errors because of the floor that is 
under this program, and none of the other means-tested 
programs. That is good information to have this morning as we 
continue to get this right. Forty-five million Americans are 
dependent on this. The rest of the Americans who are paying for 
this need to know that it is being administered correctly and 
properly. And I appreciate all of your efforts across the 
spectrum of how you make that happen.
    Under the rules of the Committee, today's hearing will 
remain open for 10 calendar days to receive additional material 
and supplemental written responses from any of the witnesses to 
any of the questions by a Member.
    This hearing of the Committee on Agriculture is adjourned. 
Thank you.
    [Whereupon, at 12:08 p.m., the Committee was adjourned.]
    [Material submitted for inclusion in the record follows:]
     Supplementary Material Submitted by Jessica Shahin, Associate 
Administrator for SNAP, Food and Nutrition Service, U.S. Department of 
                              Agriculture
Insert 1
          The Chairman. Okay.
          Recently, there was in the news a very large bust, $13 to $16 
        million, and it appeared to be conducted from storefronts that 
        didn't even a business there. Is there not a site visit 
        associated with the retailer approval process?
          Ms. Shahin. Yes, sir, there is a site visit that is involved, 
        and we have made a lot of improvements actually in the area of 
        denying stores up-front because we are doing better work in 
        that area. Are you talking about the one down near Miami?
          The Chairman. It was in Florida, yes, ma'am.
          Ms. Shahin. Opa Locka. Yes.
          The Chairman. Yes, ma'am.
          Ms. Shahin. So that is a really good example of the work of 
        state law enforcement, our USDA OIG. Our agency actually were 
        the first to get the hotline call. We did some investigation. 
        It looked like trafficking was happening. It was referred over 
        to OIG and they said, ``Yes, this is a criminal case we want to 
        go after.'' So it takes a little bit more time to get those 
        done because they are taking criminal action.
          The Chairman. Right, but my understanding of that one is the 
        storefronts were just that; there were no businesses associated 
        with it. There wasn't actually a retail shop there for folks to 
        actually buy food.
          Ms. Shahin. Yes. That is not the way I understand it but that 
        is really good to know, so I can go back and check on that.

    Yes. Every firm that was authorized at the Opa Locka flea market 
was visited prior to authorization. In addition, since July 2015, FNS 
has consistently required proof of the owner's inventory purchases 
prior to authorization.
Insert 2
          Mr. Peterson. Thank you, Mr. Chairman.
          Ms. Shahin, I mentioned in my opening remarks that I am not 
        the big fan of having these different standards. And I realize 
        that in most cases it doesn't make a whole lot of difference. 
        But, in North Dakota, people qualify for benefits that, if they 
        were in my district in Minnesota, they don't. It is just not 
        right, in my opinion. One question I have is with the LIHEAP 
        situation. Minnesota is not one of those states where we had a 
        lot of people on this dollar LIHEAP payout so that they were 
        qualifying, and we raised it to $20, didn't we? Is that what we 
        did? And CBO was saying at the time that the states wouldn't 
        spend the $20 to qualify people. So what ended up happening? 
        Did it knock a lot of people off the rolls that were on there 
        before, or not, or what happened?
          Ms. Shahin. Yes, on LIHEAP, and I am not anywhere near as 
        good keeping numbers in my head, so let me just say I will go 
        back and check and make sure I did this right, but I believe 
        there were about 17 states that were doing the nominal, and I 
        believe around 12 to 13 went ahead and brought their nominal 
        LIHEAP up to the $20 to meet the law as it was provided for. 
        The remainder did not. Once again, as you are suggesting, these 
        are options and choices that we do have for states in terms of 
        their flexibilities and ways they can approach the program. We 
        have the national standards, but there are places and 
        flexibilities that provide for that kind of thing.

    The Agricultural Act of 2014 modified the link between a 
household's receipt of Low-Income Home Energy Assistance Program 
(LIHEAP) benefits and its eligibility for the Supplemental Nutrition 
Assistance Program (SNAP) heating or cooling standard utility allowance 
(SUA) by requiring that the LIHEAP payment exceed $20 annually and be 
received in the current or immediately preceding 12 months. These 
changes primarily impacted the 17 states that had implemented nominal 
LIHEAP payments. FNS provided detailed implementation guidance, policy 
clarifications, and technical assistance to these 17 states. FNS 
encouraged these states to move forward with implementation in a manner 
that follows the intent of the law.
    To date, 13 states have increased their minimum LIHEAP payments to 
greater than $20: California, Connecticut, Delaware, District of 
Columbia, Maine, Massachusetts, Montana, New York, Oregon, 
Pennsylvania, Rhode Island, Vermont, and Washington State. Four states, 
Michigan, Wisconsin, New Jersey, and New Hampshire, chose not to 
increase payments and no longer apply the SUA automatically to 
households that receive LIHEAP. In the states that did not increase 
their LIHEAP payments, impacted households continued to receive SNAP 
benefits but likely experienced a reduction in benefit levels.
    FNS will continue to monitor each SNAP state agency's compliance 
with this requirement and will quickly address potential challenges. 
LIHEAP is a state-administered program under the Federal oversight of 
the Department of Health and Human Services (HHS). States have the 
authority to determine how to use their LIHEAP funding, in accordance 
with that program's requirements. LIHEAP is not administered or funded 
by the USDA and USDA does not have the authority to regulate state's 
administration of LIHEAP. USDA has consulted with HHS in order to 
ensure mutual understanding of the new requirements that now govern the 
SNAP/LIHEAP link and will continue to coordinate with HHS to address 
any issues that arise.
Insert 3
          Mr. Benishek. But nobody is actually prosecuted for this kind 
        of thing, it doesn't sound like.
          Ms. Shahin. Well, no, when OIG actually takes it on as a 
        criminal case, that does go to court. That is the thing like 
        what you were talking about Mr. Chairman.
          Mr. Benishek. Well, how many times a year does that happen?
          Ms. Shahin. I am sorry?
          Mr. Benishek. How many times a year does that happen where 
        somebody actually goes to court? Yes.
          Ms. Shahin. Okay, now are we talking about the recipients?
          Mr. Benishek. No, I am talking about these retailers.
          Ms. Shahin. Okay. Okay. For the retailers. I don't have that 
        information because that is through OIG, but I can get it for 
        you. Could we get back to you on that, on how many that do----
          Mr. Benishek. Well, yes, I guess.

    FNS has consulted with the Department of Agriculture's Office of 
Inspector General (USDA OIG) to provide this response. The USDA OIG 
takes as many actions as are necessary in any given year. For example, 
in FY 2015, for cases involving SNAP fraud directly attributed to 
retailers, USDA OIG had 352 indictments, and 504 convictions with 
monetary results totaling $65.2 million. Note: Indictments and 
convictions often do not align one-for-one in any given year. The 
average time between indictment and conviction is 14-18 months (or 
potentially longer in some cases) so they may not occur within the same 
year.
                                 ______
                                 
 Supplementary Material Submitted by Hon. Dave Yost, Auditor, State of 
                                  Ohio
          Ms. Fudge. This is a very broad statement. Have you found 
        fraud in Medicare or Medicaid, and at what level?
          Mr. Yost. Sure. We find misspending in a variety of programs. 
        We issued a report last year about some in the Department of 
        Education.
          Ms. Fudge. Are you concerned about those as much as you are 
        concerned about this?
          Mr. Yost. I am concerned about all of the misspending I find, 
        ma'am.
          Ms. Fudge. What about crop insurance, what has your audit 
        found about that?
          Mr. Yost. I don't know that we have ever looked at crop 
        insurance, and I don't know what the risks associated on it 
        are.

July 7, 2016

  Hon. Marcia L. Fudge,
  Member of Congress,
  Cleveland, OH.

    Dear Representative Fudge:

    I was taken aback yesterday during the House Committee on 
Agriculture's SNAP hearing when you asked me if the Ohio Auditor of 
State's office audits the Federal Crop Insurance Program. It turns out 
my surprise was for good reason: Crop Insurance is not a Federal 
program administered by the state and is not included on the states' 
Federal schedule to be audited.
    The Federal Crop Insurance Program you referenced is administered 
by the U.S. Department of Agriculture's Risk Management Agency (RMA). 
RMA selects and pays private insurance companies to sell and service 
the policies. Crop insurance claims are paid by the private insurance 
company directly to the farmer. The State of Ohio is not involved in 
the process.
    I hope this information is helpful as you continue to review SNAP 
and assess all the programs that fall under the direction of the 
Department of Agriculture.
            Sincerely,
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
Hon. Dave Yost,
Auditor, State of Ohio.

CC:

Hon. K. Michael Conaway, Chairman;
Members of the House Committee on Agriculture.
                                 ______
                                 
 Submitted Letter by Tracy Wareing Evans, Executive Director, American 
                   Public Human Services Association
July 18, 2016

  Hon. K. Michael Conaway,
  Chairman,
  House Committee on Agriculture,
  Washington, D.C.;

  Hon. Collin C. Peterson,
  Ranking Member,
  House Committee on Agriculture,
  Washington, D.C.

    Dear Chairman Conaway and Ranking Member Peterson:

    I write today on behalf of the American Public Human Services 
Association (APHSA), which represents the state and local public human 
services administrators responsible for implementing and managing the 
Supplemental Nutrition Assistance Program (SNAP). We have a long-
standing interest in assuring that SNAP provides long-term, positive 
impacts for the population it serves directly and the nation at large. 
APHSA is committed to a human services system that supports stronger 
and healthier individuals, families, and communities through positive 
and sustainable outcomes, and SNAP plays a critically important part.
    We appreciate this opportunity to submit a written statement for 
the record following your hearing of July 6, 2016, ``Past, Present, and 
Future of SNAP: Evaluating Error Rates and Anti-Fraud Measures to 
Enhance Program Integrity.'' States take seriously the issue of SNAP 
program integrity and want to see this program administered properly in 
every respect, including its quality control (QC) procedures. Over the 
years, we in partnership with the Food and Nutrition Service (FNS) have 
steadily improved SNAP's performance despite tight budgets and the 
program's size and complexity. We will continue to work with FNS to 
maintain and further strengthen this record.
    The July 6 hearing covered both trafficking (the prohibited use of 
converting benefits to cash through a cooperating retailer) and errors 
made during the eligibility determination process. States have primary 
responsibility for eligibility errors, and our comments below focus on 
this issue and its associated QC procedures. (While FNS has primary 
responsibility for retailers and trafficking, states also devote 
resources to taking appropriate action against recipients who traffic 
their benefits.)
    As you are aware, the USDA Office of Inspector General (OIG) 
submitted a report in September 2015 criticizing both FNS and the 
states for shortcomings in SNAP QC. Following this report and its own 
recent intensive reviews, FNS has begun informing states that some are 
seriously out of compliance with a variety of SNAP QC requirements. FNS 
has asked states to develop corrective action plans if they concur. The 
FNS reviews have covered more than 30 states so far and we understand 
are scheduled to be completed in all states by late December 2016.
    SNAP QC procedures are extensive and detailed. FNS and the states 
have partnered for many years to understand and properly implement 
training protocols and administrative techniques to assure QC is done 
well. We and FNS have engaged in countless conference workshops, 
trainings, conference calls, monitoring visits, and other joint 
activities to implement these procedures in the best way possible. The 
last step in this process is that FNS reviews a subsample of state QC 
cases and confirms their validity before error results are finalized 
and published.
    Given the closely intertwined responsibilities that FNS and states 
have in administering SNAP and its QC procedures, and the continuous 
communication taking place between us, it is not our purpose to assign 
blame for any problems that exist but instead map out a productive and 
mutual path forward to mitigate systemic factors that have helped 
produce the current controversy. As outlined below, we believe that a 
combination of simpler program rules, rapid modernization of 
eligibility and verification methods, and a far more intentional system 
of training and communication are critically important first steps. 
More significantly, we call for a far broader and more outcome-focused 
way of assessing SNAP's performance and impacts, perhaps augmented by 
an independent analysis of what metrics are most important to consider 
and how they should be administered.
    Program simplification--As APHSA and its members have urged for 
many years, simpler SNAP rules would reduce the opportunities for 
errors in the first place, as well as reducing administrative burdens 
for states and confusion for customers. SNAP's profusion of eligibility 
factors attempts to reflect precisely every type of and change in these 
factors--perhaps a desirable goal in theory, but they are now so 
numerous and so complex that we doubt there is any longer a net benefit 
to this approach. Many SNAP households have frequent changes that 
strain our resources to constantly track and verify them. SNAP formerly 
had a very sensible tolerance level of $50 in budget changes before an 
error was cited, but the 2014 Farm Bill lowered that figure. Minor 
variations in circumstances should not be included in eligibility 
factors and their associated QC reviews.
    SNAP should also become more aligned with other major assistance 
programs, including Medicaid, the Temporary Assistance for Needy 
Families program, housing, child care, and similar programs--such as by 
counting income the same way, among many other possibilities. Again, 
doing so would enhance program integrity, reduce confusion, and 
streamline administration.
    Modernization to take full advantage of electronic information--
SNAP must be aggressively modernized in the way it collects, uses, and 
verifies eligibility information. The program is still far too paper-
based, is too hampered by outmoded technology, makes insufficient use 
of existing electronic data, and focuses too little on the creation of 
new databases. For example, SNAP and other human services programs need 
access to a central data source such as the Federal Data Services Hub, 
and the data within it must be considered already verified for SNAP 
use. Further, FNS and other Federal agencies must revisit how 
proprietary data sources used in eligibility determination are shared 
and paid for; while some of this data is available free for Medicaid, 
states must pay for the same data again to access it for SNAP, an 
obvious unnecessary use of scarce funds.
    Pilots such as the National Accuracy Clearinghouse, which is 
testing a multi-state recipient database, are promising and should be 
quickly implemented for a variety of other creative ideas in generating 
and sharing information. Potentially helpful innovations like these 
demand a much higher priority and much faster timetables than we have 
seen to date. Progress on these fronts could alone reduce or eliminate 
many of the integrity concerns we currently face.
    Training and communication--Despite how closely we work with FNS, 
the recent reviews have highlighted that far too much confusion still 
exists around what QC procedures are permissible and how a long list of 
technical issues should be interpreted and resolved. Our state members 
report that there are regional variations in guidance and training 
provided by FNS; a range of interpretations about the meaning of FNS 
manual material; different rulings by FNS on the same issue over time; 
and, in the current round of reviews, the flagging as violations of 
practices that were already known to FNS and were even part of approved 
corrective action plans. They also note a number of mistakes and 
misinterpretations in what the OIG findings assert. We believe that 
alternative training approaches would yield major progress toward 
resolving these problems, for example online, national training events; 
simultaneous training of both policy and quality control staff, and of 
both Federal and state staff, in the same events; and outside 
facilitation and analysis that can help sustain the impacts of training 
for all staff, regardless of the roles they play.
    We continue to work closely with FNS to resolve these concerns, and 
understand that FNS is bringing regional leaders together for intensive 
new training and is updating the QC Handbook. We stress that the lack 
of consistency must be aggressively addressed in fairness to all 
states.
    A broader approach to assessing SNAP--Beyond the more immediate 
changes above, APHSA urges that we work promptly toward a more 
comprehensive assessment of SNAP's performance and impacts that 
demonstrate how SNAP has made the lives of individuals and families 
better. SNAP must of course remain grounded in accuracy and timeliness, 
but the program accomplishes so much more: supporting gainful 
employment, stabilizing family budgets, and improving nutrition and 
other factors in well-being. The intense and nearly exclusive focus on 
current QC metrics leaves little staff time and capacity--either state 
or Federal--to pay proper attention to these significant and broad 
impacts. SNAP plays important roles in preventing downstream, ``heavy 
touch'' problems and in strengthening families in multiple other ways, 
and these outcomes must be given their proper weight.
    An independent study of SNAP program integrity--APHSA also believes 
there could be great value in having an independent, outside party 
study SNAP's QC and integrity procedures, such as was done to resolve 
QC concerns in the 1980s by the National Academy of Sciences. This 
analysis should examine which measures are most relevant and useful for 
evaluating SNAP's success and how they should be administered. It 
should focus particularly on what SNAP could learn from how other 
government programs are measured, how SNAP's broader impacts can be 
practically evaluated, and how improvements in administration can best 
be incentivized.
    APHSA and its members are preparing detailed policy proposals to 
cover the above issues and others in advance of SNAP's upcoming 
reauthorization, and we will share those with you when they have been 
completed. In the meantime we will of course cooperate with FNS to end 
violations warranted by evidence found in the current reviews. However, 
this experience has reminded us again of the very serious need for a 
fresh look at SNAP QC and how the entire program can be made better. We 
offer the expertise and experience of our members as we undertake this 
important effort, and look forward to working with you in any way we 
can.
    Thank you again for this opportunity. If you have any questions 
please contact Larry Goolsby, Director of Strategic Initiatives, at 
[Redacted] or [Redacted].
            Sincerely, 
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
Tracy Wareing Evans,
Executive Director.


 
               SUPPLEMENTAL NUTRITION ASSISTANCE PROGRAM

             (PAST, PRESENT, AND FUTURE OF SNAP: IMPROVING

      INNOVATION AND SUCCESS IN EMPLOYMENT AND TRAINING PROGRAMS)

                              ----------                              


                      TUESDAY, SEPTEMBER 13, 2016

                  House of Representatives,
                                 Subcommittee on Nutrition,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 10:01 a.m., in 
Room 1300 of the Longworth House Office Building, Hon. Jackie 
Walorski [Chairwoman of the Subcommittee] presiding.
    Members present: Representatives Walorski, Thompson, Gibbs, 
Crawford, Benishek, Yoho, Moolenaar, Conaway (ex officio), 
McGovern, Lujan Grisham, Aguilar, Ashford, DelBene, and Costa.
    Staff present: Caleb Crosswhite, Jadi Chapman, Mary Nowak, 
Mollie Wilken, Stephanie Addison, Lisa Shelton, Liz 
Friedlander, Faisal Siddiqui, John Konya, Nicole Scott, and 
Carly Reedholm.

OPENING STATEMENT OF HON. JACKIE WALORSKI, A REPRESENTATIVE IN 
                     CONGRESS FROM INDIANA

    The Chairwoman. Good morning. Welcome to today's hearing 
entitled, Past, Present, and Future of SNAP: Improving 
Innovation and Success in Employment and Training Programs.
    I would like to say good morning and welcome to today's 
Nutrition Subcommittee hearing. Thank you to everyone for being 
here, and thank you, in particular, to our witnesses for your 
participation and valuable insights.
    We are continuing the series of hearings looking at the 
past, present, and future of the Supplemental Nutrition 
Assistance Program, or SNAP, by examining employment and 
training, or E&T, programs. While we know that a job is the 
surest way to get out of poverty, it can be difficult for 
individuals to find a job that matches their skills, or to gain 
the skills needed to fill the jobs available in an area. This 
is why Congress created employment and training components in 
various welfare programs to help low-income individuals obtain 
the skills and training they need to find and keep a job.
    SNAP E&T and other workforce training programs exist to 
ensure that the safety net is a temporary stop for able-bodied 
adults. They build up valuable skills. They lend a helping hand 
to those bouncing back from adversity. Each state SNAP E&T plan 
is approved and overseen by USDA. States are required to 
operate a SNAP E&T program and have considerable flexibility to 
tailor their state's program to their specific needs and 
economic circumstances. Among the services SNAP E&T programs 
offer are job search training, work training, educational 
programs, and job retention. Some states operate their programs 
with mandatory participation, while others make it voluntary. 
Some coordinate their workfare programs through one central 
agency, while others are more separated.
    Recognizing the transformative impact that a job can have 
on someone trying to lift him or herself out of poverty, the 
2014 Farm Bill authorized SNAP E&T pilot projects to test 
innovative strategies. In March of 2015, the USDA awarded ten 
states grants that carry rigorous reporting and evaluation 
requirements in order to ensure quality and evidence-based 
information. We are fortunate to have representatives from 
three of the ten states here with us today.
    Though the final evaluation of the pilots is not 
anticipated until 2021, today's hearing will be useful to learn 
what factors influenced each state's pilot design, what 
strategies are being tested, and how these states intend to 
utilize the pilot results within their core E&T services 
offered by the state.
    I want to close my remarks with one final point. Our safety 
net programs are indispensable, but for those that are able to 
work, the safety net should be a temporary stop and not a final 
destination. This is something that has been echoed by 
Republicans and Democrats alike. In his second State of the 
Union address, Franklin Delano Roosevelt told Congress, ``Work 
must be found for able-bodied but destitute workers.'' He 
extolled not only the obvious financial benefits of a job, but 
also the benefits to the mind, body, and spirit as well. And 
while President Roosevelt took a government-centric approach to 
create jobs, the core principle behind it remain, if you can 
work, you should work.
    Today, we will examine programs that help those who can 
work secure and keep a job and look at new, innovative 
approaches to make these programs more effective.
    I thank each of our witnesses again for being here and I 
look forward to hearing from you.
    [The prepared statement of Mrs. Walorski follows:]

    Prepared Statement of Hon. Jackie Walorski, a Representative in 
                         Congress from Indiana
    Good morning and welcome to today's Nutrition Subcommittee hearing. 
Thank you to everyone for being here and thank you, in particular, to 
our witnesses for your participation and valuable insights.
    We are continuing the series of hearings looking at the past, 
present, and future of the Supplemental Nutrition Assistance Program, 
or SNAP, by examining employment and training, or E&T, programs.
    While we know that a job is the surest way to get out of poverty, 
it can be difficult for individuals to find a job that matches their 
skills, or to gain the skills needed to fill the jobs available in an 
area. This is why Congress created employment and training components 
in various welfare programs to help low-income individuals obtain the 
skills and training they need to find and keep a job.
    SNAP E&T and other workforce training programs exist to ensure that 
the safety net is a temporary stop for able-bodied adults. They build 
up valuable skills. They lend a helping hand to those bouncing back 
from adversity.
    Each state SNAP E&T plan is approved and overseen by USDA. States 
are required to operate a SNAP E&T program and have considerable 
flexibility to tailor their state's program to their specific needs and 
economic circumstances.
    Among the services SNAP E&T programs offer are job search training, 
work training, educational programs, and job retention. Some states 
operate their programs with mandatory participation, while others make 
it voluntary. Some coordinate their workfare programs through one 
central agency, while others are more separated.
    Recognizing the transformative impact that a job can have on 
someone trying to lift himself or herself out of poverty, the 2014 Farm 
Bill authorized SNAP E&T pilot projects to test innovative strategies. 
In March 2015, the USDA awarded ten states grants that carry rigorous 
reporting and evaluation requirements in order to ensure quality, 
evidence-based information. We are fortunate to have representatives 
from three of the ten states here today. Though the final evaluation of 
the pilots is not anticipated until 2021, today's hearing will be 
useful to learn what factors influenced each state's pilot design, what 
strategies are being tested, and how these states intend to utilize the 
pilot results within their core E&T services offered by the state.
    I want to close my remarks with one final point. Our safety net 
programs are indispensable, but for those that are able to work, the 
safety net should be a temporary stop and not a final destination. This 
is a something that has been echoed by Republicans and Democrats alike. 
In his second State of the Union address, Franklin Delano Roosevelt 
told Congress, ``Work must be found for able-bodied but destitute 
workers.'' He extolled not only the obvious financial benefits of a 
job, but also the benefits to the mind, body, and spirit as well. And 
while President Roosevelt took a government-centric approach to 
creating jobs, the core principle behind it remain: if you can work, 
you should work.
    Today, we will examine programs that help those who can work secure 
and keep a job and look at new, innovative approaches to make these 
programs more effective.
    I thank each of our witnesses again for being here and I look 
forward to hearing from you.

 OPENING STATEMENT OF HON. JAMES P. McGOVERN, A REPRESENTATIVE 
                 IN CONGRESS FROM MASSACHUSETTS

    Mr. McGovern. Thank you. And I want to thank Chairwoman 
Walorski for convening this hearing, and I want to thank all of 
our witnesses for being here today to share your experiences 
and findings. I am looking forward to hearing about these pilot 
programs. As I understand it, there is a lot of innovative work 
being done, and perhaps some ideas that we can draw upon in the 
future.
    We need to remember, however, to look at these pilot 
programs in terms of the bigger picture. Employment and 
training is funded by a block grant of $90 million per year. 
This funding level hasn't been updated since 2004, and SNAP E&T 
funding is extremely limited compared to the number of 
recipients who could potentially be eligible for services. And 
it is important to note that some states aren't even using all 
of their grant funding. I point this out not to be critical of 
these jurisdictions. I know there are a lot of pressures on 
states, but there are gaps in funding, and we know we aren't 
reaching everyone who needs assistance.
    In fact, while there are about 44 million people receiving 
SNAP benefits, only about three million are served by SNAP E&T 
programs. And with the ABAWD waivers expiring, at least 500,000 
able-bodied adults are being kicked off of SNAP. A lot of these 
individuals lack education, and are unskilled. Many of them are 
veterans who are returning to the United States after serving 
our country, and trying to get reoriented back into life here, 
but without adequate E&T program funding, I am not sure what 
will happen to them.
    Given the diversity of the SNAP population, it is important 
to underscore that there isn't a one-size-fits-all solution. 
And I would like to remind my colleagues of the testimony 
Secretary Vilsack gave this Committee in 2014, that the pilots 
are an important component to helping SNAP recipients towards 
self-sufficiency, but they are only one tool states can use to 
engage this high-risk population.
    I also appreciate hearing that the states testifying before 
us today use case management to achieve successes in their 
programs. I would like to remind Members of the Subcommittee 
that case management costs money. We need to provide our states 
with the resources needed to continue the good work in this 
area as well. So, I am pleased to see states taking innovative 
approaches to these employment and training pilots, and I look 
forward to learning more about how these programs can help our 
most vulnerable neighbors.
    I also just want to point out, yes, we are all dedicated to 
trying to help able-bodied people be able to get employment and 
to get a job, but we also need to understand that a big chunk 
of able-bodied people who are on SNAP right now work. And one 
of the challenges is finding a job that actually pays a livable 
wage. So contrary to the perception out there that everybody on 
SNAP doesn't work, that is just not the case. We have many, 
many, many recipients, the majority of able-bodied people, who 
do work, who work hard to support their families, but still 
earn so little that they need to rely on SNAP.
    So I look forward to the hearing, and I yield back my time.
    The Chairwoman. Thank you. The chair would request that 
other Members submit their opening statements for the record so 
the witnesses may begin their testimony, and to ensure that 
there is ample time for questions. The chair would like to 
remind Members they will be recognized for questioning in order 
of seniority for Members who were here at the start of the 
hearing. After that, Members will be recognized in order of 
arrival. I appreciate Members' understanding.
    The gentleman from California, Mr. Costa, is not a Member 
of the Subcommittee, but has joined us today. Pursuant to 
Committee Rule XI, I have consulted with the Ranking Member, we 
are pleased to welcome him to join in the questioning of the 
witnesses.
    Witnesses are reminded to limit their oral statements to 5 
minutes. All of the written statements will be included in the 
record.
    I would like to welcome our witnesses to the table. I now 
recognize Ms. DelBene to introduce our first witness.
    Ms. DelBene. Thank you, Madam Chair. I am very pleased to 
introduce David Stillman from my State of Washington. He is the 
Assistant Secretary of the Economic Services Administration at 
Washington State's Department of Social and Health Services, 
where he is responsible for a number of Washington's public 
assistance programs and benefit programs. David oversees more 
than 4,000 employees, 80 offices, and a $2 billion budget, with 
a focus on transforming government to better serve families in 
need.
    Prior to accepting his current position, David served for 
over 5 years as Director of the Department's Division of Child 
Support. Among his achievements, he is a 2001 recipient of the 
Governor's Distinguished Manager Award; the highest recognition 
for a state's government manager. David received his B.A. from 
Whitman College, and his J.D. from the University of Puget 
Sound School of Law. He truly does excellent work on behalf of 
so many, and I am just thrilled that you are here with us 
today. Thanks for joining us.
    And I yield back.
    The Chairwoman. Thank you. We also have Mr. Jon Anderson, 
Deputy Director, Georgia Division of Family and Children 
Services, Office of Family Independence, Atlanta, Georgia. 
Welcome. I would also like to yield now to Mr. Costa to 
introduce our final witness.
    Mr. Costa. Thank you very much, Madam Chair. And thank you 
for the courtesy of allowing me to participate in this 
morning's Subcommittee hearing.
    I am honored to introduce Mr. Pete Weber, a friend, a 
gentleman who I've known for many years, who retired in 2001 to 
dedicate himself to community and economic development for the 
people who live in the San Joaquin Valley.
    Mr. Weber is the founder of the Fresno Bridge Academy, 
which was recently selected by the United States Department of 
Agriculture as one of the ten national pilot programs that we 
are going to be hearing about this morning, aimed at increasing 
income and self-reliance of families eligible for food stamps. 
He makes a compelling case. I know because I have visited the 
Fresno Bridge Academy many times. His work with the Fresno 
Bridge Academy led to the James Irvine Foundation Leadership 
Award last year for creative and inspirational leadership 
benefitting the people of California. I have had the pleasure 
of knowing Pete for many years, as I have said, and come to 
respect his involvement in many of the various segments of our 
community. And for so many reasons, I want to thank you for 
that dedication to, in today's testimony, those who are 
challenged and who have very difficult economic circumstances 
by trying to provide a helping hand through the SNAP Program to 
improve their lives and make them independent. And so we will 
look forward to his testimony.
    The Chairwoman. Thank you, Mr. Costa. Mr. Weber is also 
accompanied today by Ms. Kim McCoy Wade, CalFresh Branch Chief, 
Department of Social Services, Sacramento, California. Thank 
you to all of our witnesses.
    Mr. Stillman, please begin when you are ready.

          STATEMENT OF DAVID STILLMAN, J.D., ASSISTANT
          SECRETARY, ECONOMIC SERVICES ADMINISTRATION,
           WASHINGTON DEPARTMENT OF SOCIAL AND HEALTH
                     SERVICES, OLYMPIA, WA

    Mr. Stillman. Good morning, Chairwoman Walorski and Ranking 
Member McGovern, and thank you also, a gracious thank you to 
Representative DelBene for her introduction.
    In Washington, under the leadership of Governor Inslee, and 
with the support of our Congressional delegation, we have 
elected to make TANF, SNAP, and the SNAP employment and 
training programs part of our WIOA state plan. I begin there, 
and hopefully, you will have the chance to look at the slide 
that has been put into your packets, that looks a little bit 
like a superhighway. I think that it is really important to 
note that, with Congress' help, we have been able to push a 
reset button on how we deliver our workforce system support 
services across the entirety of what we do and how we do it in 
Washington State.
    The WIOA priority populations intersect and overlap with 
those populations that we serve with TANF and SNAP, and so many 
other parts of our program. In fact, we are really happy to be 
able to work with our Departments of Commerce, Vocational 
Rehabilitation, the State Board for Community and Technical 
Colleges, our Department of Labor equivalent in employment 
self-sufficiency, and really through that combination of SNAP, 
employment and training, and the other parts of our basic food 
program, put this effort at the center lane of our superhighway 
to focus our attention on the alleviation of poverty.
    So that is my set of bureaucratic statements, but I would 
be remiss if I didn't mention or begin with more of a client-
centric perspective. So I am going to talk about Taylor. Taylor 
is a single mom with two kids. She enrolled into the Basic Food 
Employment and Training Program in Seattle, part of the Seattle 
Jobs Initiative, one of our stellar community-based 
organizations, and the Highline College in the fall of 2012. I 
hope you will pay attention to this anecdote. She was working 
as an L.P.N., barely able to make ends meet, and through the 
support that she received at SJI and Highline College, she was 
able to complete her program and receive services such as 
transportation, required school items, and utility assistance. 
She took some time away to help an ailing parent, and was able 
to re-enter the program, and is now working 32 hours a week at 
$26 an hour plus benefits.
    So what do we take away from that? We should take away that 
life is not seamless, and that is so true for so many of the 
clients that we serve. It is also a takeaway that there is a 
need for the availability of coaching and career navigation 
services, support service funds, and that Taylor's success is 
equally attributable to the efforts of the local community 
investment that is involved in the SNAP employment and training 
funds.
    I will quickly make reference to the second slide that I 
provided, which shows how there is skin in the game, dollars in 
the game, that are invested from the local level on up to draw 
down these important Federal funds. This is not about a state 
bureaucracy, although many of the funds are needed to build and 
sustain infrastructure. This is about local dollars matching 
Federal dollars in order to build a really important and 
critical program for the clients that we serve.
    In addition, Washington has been blessed as being one of 
the ten states awarded a grant under the recent farm bill, 
where we are testing some additional innovative approaches for 
work registrants that receive SNAP. Our pilot Resources to 
Initiate Successful Employment, or RISE, is using that rigorous 
gold standard evaluation and a randomized control process. We 
intend to increase engagement in unsubsidized employment 
opportunities, increase participant earnings, and reduce 
reliance on public assistance by using comprehensive case 
management, the ability to attend training, and participate in 
the soft or vocational work skills referred to in our state as 
Strategies for Success, and the opportunity to engage in work-
based learning opportunities, yet another opportunity for us to 
partner with our WIOA service providers in Washington State.
    I will finish again with another client story. J.P. entered 
RISE with high barriers: homelessness, chemical dependency, 
mental health, a criminal record, and a lack of a driver's 
license, just to name a few. With the case management support 
that we were able to provide, and as a result of assistance 
from an unexpected source; the Division of Child Support, J.P. 
was able to obtain regular visits with his son, who he had not 
had contact with over 5 years. He has now secured sobriety 
housing, reduced the barriers which has allowed him to engage 
in Strategies for Success training, and is on his way, this is 
a work in progress, to earning a chemical dependency 
professional certification, and engaged in an internship 
program.
    I invite you to think about what the takeaways are there, 
with true system integration and SNAP E&T at the heart of that 
service delivery.
    Thank you.
    [The prepared statement of Mr. Stillman follows:]

   Prepared Statement of David Stillman, J.D., Assistant Secretary, 
                                Economic
  Services Administration, Washington Department of Social and Health 
                         Services, Olympia, WA
SNAP E&T, Washington's Basic Food Employment and Training Program and 
        SNAP E&T Pilot, Resources to Initiate Successful Employment
Program Success Stories
BFET Success Story I
    Taylor enrolled into the Basic Food Employment and Training (BFET) 
program at Seattle Jobs Initiative (SJI) and Highline College in fall 
of 2012. Taylor's pay as a Licensed Practical Nurse was barely enough 
to make ends meet for her and her two children. SJI provided Taylor 
with education, career navigation, and help with transportation, 
required school related items, and utility assistance. Taylor completed 
her program with a 4.0 GPA in June of 2013.
    Taylor stepped away from the BFET program for 7 months to care for 
her ailing mother and then reengaged with SJI in December 2013. SJI 
assisted Taylor with resume' revision, mock interviews and employer 
follow ups. She also attended SJI's job seekers club to complete online 
applications. Taylor was hired in February 2014 as a registered nurse 
at Kindred Healthcare in Shoreline. She is working 32 hours per week 
and is earning $26 per hour + full benefits.
BFET Success Story II
    Alvin, a new Washington resident, was couch surfing and looking for 
work. He attended a resource fair in October 2013 where he enrolled in 
the BFET program at Neighborhood House of Washington (NHWA). Alvin 
expressed a desire to work as a Forklift Operator since he had 
warehouse work experience, but needed certification. NHWA connected him 
with Puget Sound Training Center (PSTC), another BFET partner, to 
obtain the necessary training.
    NHWA and PSTC coordinated their employment and training services to 
assist Alvin find employment. While Alvin was completing Forklift 
Operator training at PSTC, NHWA assisted him with resume writing, mock 
interview and online applications. In addition, NHWA leveraged their 
Working for Housing Stability program to secure permanent, affordable 
housing for Alvin. In December 2013, Alvin was hired by Randstad 
Staffing as a Forklift Operator full time earning $12.75 per hour. 
Alvin is now self-sufficient paying for his own rent.
RISE Success Story
    J.P. entered RISE with high barriers; homelessness, chemical 
dependency, mental health, criminal record, and lack of driver's 
license just to name a few. The case manager outlined a plan to assist 
with housing, engage the client in mental health services, wok on self-
empowerment, and connect the client with the Division of Child 
Support's (DCS) Alternative Solutions program, to assist with driver's 
license reinstatement, obtaining a reasonable child support order, and 
a reduction of outstanding debt.
    As a result of the assistance from DCS, J.P. was able to obtain 
regular visits with his son, who he had not contact with for over 5 
years. J.P. secured sobriety housing and reduced significant barriers 
allowing him to engage and complete Strategies for Success (SFS) 
training. During his attendance in SFS training, J.P. developed an 
interest in using his story to give back to others. Following SFS 
training, J.P. began working towards earning Chemical Dependency 
Professional certification and has engaged in an internship program.
    These stories represent the majority of Washington's E&T 
participants. Currently, over 60 percent of BFET participants enter 
employment upon completion and will receive a ten percent wage increase 
within a year.
Basic Food Employment & Training Overview
    The Washington State Basic Food Employment and Training (BFET) 
program \1\ is an important part of Washington State's comprehensive 
workforce development system serving the needs of low-income 
individuals, indigent workers, and employers. The vision of the BFET 
program is to assist Basic Food (SNAP) recipients in obtaining livable 
wage employment and to achieve self-sufficiency.
---------------------------------------------------------------------------
    \1\ The Basic Food Employment and Training (BFET) program is 
Washington State's name for the Federal Supplemental Nutrition 
Assistance Program (SNAP) Employment and Training (E&T) program.
---------------------------------------------------------------------------
    BFET offers job search, training, education, and workfare 
activities to improve BFET participant's employment prospects and wage 
earning potential. The program serves Basic Food recipients, age 16 and 
older, who are not participating in the state's Temporary Assistance 
for Needy Families (TANF) program. Participants volunteer to take part 
in these services to improve skills and self-sufficiency.
History of BFET
    While the Supplemental Nutrition Assistance Program has had a 
requirement to include an employment and training component since 1998, 
most states programs have consisted of a referral to a job search 
program. This was the case in Washington until our BFET program started 
as a pilot in October 2005 in one community in Seattle. In this pilot, 
Washington leveraged the little used 50/50 funding option by leveraging 
community resources to match Federal SNAP E&T funds in order to develop 
a comprehensive job's-driven program. It began with one community 
college and four community-based organizations (CBOs). Knowing that 
these organizations are already serving low-income populations, the 
plan was to leverage each agency's current work and strengths to 
maximize the resources available to the Basic Food recipient; this 
would empower the client to achieve financial independence from public 
assistance.
    Starting small gave Washington the time to prove the concept and 
develop the required plan and tools needed to effectively deliver the 
BFET services. The partnership held strategic planning meetings to 
intentionally and thoughtfully scale what had become a successful model 
into a statewide program gradually, as to make the service delivery and 
administration sustainable. Each time the program expanded to a new 
area of the state, infrastructure was built for support.
    In Federal Fiscal Year (FFY) 2009, the BFET partnership included 
twelve community and technical colleges and six CBOs in four counties. 
The program grew to encompass all 34 community and technical colleges 
throughout Washington State within 5 years. As of FFY 14 BFET not only 
included the community and technical colleges, but also twenty CBOs in 
eighteen counties. Today, the BFET program includes all 34 community 
and technical colleges and 46 CBOs in 30 of the 39 counties within 
Washington State.
BFET Service Delivery Model
    BFET leverages collaborative partnerships with state, educational 
and community agencies to provide services. These partnerships are 
formed under contracts between the Washington State Department of 
Social and Health Services (DSHS) and numerous agencies including the 
Washington State Board for Community and Technical Colleges (SBCTC), 
Employment Security Department (ESD), and several community-based 
organizations (CBOs). This collaborative partnership leverages each 
partner's particular strength. Community and technical colleges provide 
education and training to increase an individual's employability while 
ESD and CBOs assist the job ready individual in entering the job 
market. Many BFET Participants are co-enrolled with multiple agencies 
to maximize simultaneous BFET services.
    The BFET program uses the fifty percent reimbursement model to fund 
BFET services. This reimbursement model helps ensure sustainability 
because the program is not vulnerable to limited 100 % and allows for 
growth-based on each community's capacity to provide match funding. 
Since it leverages state, local and private funds, it increases 
existing capacity for colleges and CBOs. Finally, this funding model 
creates new funding streams for colleges and CBOs to pay for much 
needed support services while ensuring partnership because everyone has 
invested in the program.
    Each partner agency is a BFET ambassador to the community, 
recruiting, assessing and placing Basic Food recipients in BFET 
activities. For example, we have many CBO partners who already work 
with vulnerable populations or homeless individuals and families. These 
agencies are able to use BFET 50% funds to bolster the programs they 
are already using to serve this population; therefore increasing the 
scope of services and number of participants they can reach and 
positively impact. This increases the presence of the BFET program and 
makes the program more accessible to all Basic Food recipients.
Program Highlights for FFY 2013-2015
Program Growth Over Last 3 FFY[s]
    As more colleges and CBOs partnered with BFET, the number of 
participants served increase.

------------------------------------------------------------------------
                Year                        Number of Participants
------------------------------------------------------------------------
               FFY 2013                               16,246
               FFY 2014                               19,115
               FFY 2015                               20,583
------------------------------------------------------------------------

Employment Outcomes
    Washington State tracks the percentage of BFET participants who 
enter employment after participating in the BFET program.

------------------------------------------------------------------------
                Year                              % Employed
------------------------------------------------------------------------
               FFY 2013                                   58%
               FFY 2014                                   61%
               FFY 2015                                   61%
------------------------------------------------------------------------

Wages
    Washington State tracks the average median wage of participants 
employed after participating in the BFET program. Also tracked is the 
wage progression 1 year after participating in the BFET program.

------------------------------------------------------------------------
                     Starting Median     Median Wage        % of Wage
       Year               Wage          after 1 year        increase
------------------------------------------------------------------------
      FFY 2013              $11.00            $11.97                9%
      FFY 2014              $11.28            $12.37               10%
      FFY 2015              $11.63            $12.97               12%
------------------------------------------------------------------------

Comparative Study
    Washington State completed a comparative study of 1,165 BFET 
participants who enrolled into the BFET between January and March 2009. 
This group was compared to a similar group of Basic Food recipients 
eligible for, but not participating in BFET. The study evaluated the 
earnings gain and loss of each group for 5 years. The study 
demonstrated that BFET participants increase their earning potential 
year over year in comparison to the Basic Food only group.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Coordinating with Other Employment and Training Programs
    BFET is part of Washington State's comprehensive workforce 
development program. As such, BFET services are integrated with other 
employment and training programs throughout the state, such as 
Workforce Innovation and Opportunity Act (WIOA), Temporary Assistance 
for Needy Families (TANF), Employment Pipeline, Office of Refugee and 
Immigrant Assistance (ORIA), Limited English Proficiency Pathway (LEP), 
and Refugee Special Employment Needs (RSEN).
Workforce Innovation and Opportunity Act (WIOA)
    The BFET program is a partner in the Workforce Innovation and 
Opportunity Act (WIOA) Combined state plan. At the local level 
providers integrate our services with those they are already providing 
as both WIOA and BFET service sites. BFET is recognized as a WIOA 
partner due to its increased services provided to Basic Food recipients 
not participating in the state's Temporary Assistance for Needy 
Families (TANF) program. These services include: job search, self-
directed job search, job search training, educational services, skills 
training, and post-employment support services. BFET collaborates with 
the Workforce Training Board, ESD, and SBCTC to identify target and 
emerging industries, develop career pathways and credentials that will 
be available to participants.
Temporary Assistance for Needy Families (TANF)
    DSHS has developed streamlined pathways for TANF recipients to 
transition to BFET to assist low-income families move toward long-term 
self-sufficiency.
Employment Pipeline
    Employment Pipeline is a DSHS administered program available for 
individuals looking to find immediate employment. Employment Pipeline 
assists DSHS clients navigate the various employment and training 
programs and resources, assess employment need, complete referrals, and 
provide retention services. BFET and Employment Pipeline collaborate at 
the same community events to access resources.
Office of Refugee and Immigrant Assistance (ORIA)
    BFET partners with ORIA to assist refugees and immigrants 
transition into Washington State's workforce. ORIA works in partnership 
with the BFET program to ensure that refugees access available 
employment and training services.
    ORIA BFET program helps people receiving Basic Food benefits get 
jobs through voluntary participation in job search, training, 
education, or workfare activities that promote self-sufficiency.
Limited English Proficient Pathway (LEP)
    LEP program helps refugees and parents receiving Temporary 
Assistance for Needy Families benefits to become employed.
Refugee Special Employment Needs (RSEN)
    The RSEN program helps refugees with substantial barriers to 
employment receive intensive case management, social adjustment 
counseling, and employment placement services.
Local Integration
    BFET's reimbursement model provides program flexibility to adapt 
BFET services into local employment and training initiatives. BFET 
partners are integrating their BFET services with stable housing 
initiatives and special population needs.
Sharing Best Practices
    Washington State has had the opportunity to assist other states in 
developing and strengthening their SNAP E&T programs. Other state 
agencies, nonprofit agencies, and educational institutions have visited 
Washington State to learn how we started our BFET program, our service 
delivery model, our strategic planning group, and technology interface. 
We continue to be happy to provide this technical assistance to our 
peers nationally.
    The BFET program hosts an annual training forum for our BFET 
partners. This venue allows for the sharing of best practices with 
partners, strengthening our coordination of services, and develops 
local partnerships. The training forum provides an opportunity for 
other state agencies to learn best practices from our local partners.
    Seattle Jobs Initiative (SJI) through their Center of Excellence (a 
grant awarded recently) is directly assisting state agencies develop 
their SNAP E&T programs. SJI was one of the original four CBOs when 
Washington State started the BFET program. They have learned first-hand 
the best practices used in the BFET program and therefore well equipped 
to introduce BFET best practices.
Washington's SNAP E&T Pilot
    Washington was one of ten states awarded a grant under the recent 
farm bill, and will be testing innovative approaches for work 
Registrants receiving SNAP. Washington's pilot, Resources to Initiate 
Successful Employment (RISE) will use a rigorous evaluation and 
randomization process to test effectiveness. The goal of the pilot's is 
to increase engagement of Basic Food work registrants in unsubsidized 
employment opportunities; increasing participant earnings; and reducing 
reliance on public assistance.
    Washington's BFET program is an effective program, bolstering 70% 
employment outcomes. The pilot was created to focus on the 30% gap 
experienced by BFET clients who were not successful, due to the 
multiple barriers impeding their ability to obtain employment resulting 
in self-sufficiency.
    Through the RISE program, we have contracted with 24 Community 
Based Organizations (CBOs), the State Board of Community and Technical 
Colleges, the Work Force Development Council) in each pilot county, the 
Division of Child Support, and the Employment Security Department. The 
CBOs and SBCTC will be providing direct services to RISE participants. 
The WDCs role is to create work-based learning opportunities. Lastly, 
ESD has been contracted to deliver a required training, Strategies for 
Success, which was created by DSHS, CBOs, the colleges and employers 
identifying various skills needed to be successful in employment and 
maintain self-sufficiency.
RISE Program Overview
    The goal of RISE is to enhance Washington's current BFET program by 
adding a standardized approach to comprehensive case management (CCM), 
ability to attend training in soft/work skills referred to as 
Strategies for Success (SFS), and the opportunity to engage 
participants in Work-Based Learning (WBL) opportunities.
    Comprehensive case management includes coaching, navigation and 
providing or referring participants to other services as needed. SFS 
trainings are instructor-led discussions, which include topics such as 
balancing work and life stress management, problem solving, and 
critical thinking, which assist with enabling individual's to deal 
effectively with the demands and challenges of everyday life. Case 
Managers conduct Assessments and create Individual Employment Plans to 
ensure for a successful pathway for participants. These additional 
services will assist clients in barrier resolution and gaining 
experience needed to become self-sufficient. RISE partners with the 
Division of Child Support, Alternative Solutions Program to ensure non-
custodial parents are not arbitrarily penalized as they participate, 
and to reduce child support challenges.
    Work-based learning can include unsubsidized and subsidized 
employment, pre-apprenticeships, work-study, internships, career 
exploration and development of a career pathway, and the integration of 
vocational skills and employability skills with on-the-job-training, 
community jobs, transitional jobs, and employer engagement.
    The pilot operates in four counties: King, Pierce, Spokane, and 
Yakima and is available to SNAP work registrants who identify three or 
more barriers to employment and meet the target populations identified 
for the pilot, which are: homeless, veteran, limited English 
proficiency, the long term unemployed, and non-custodial parents owing 
arrears.
    Washington anticipates providing pilot services to 14,000 
participants over the 3 year grant period. Participants are randomly 
assigned to receive either RISE (treatment group) or BFET (the 
comparison group) services on a 50/50 ratio, with youth assigned at a 
70/30 ratio. RISE is funded 100% for the pilot term, with the 
requirement that all providers work towards identifying a 50% non-
Federal match yearly, to ensure sustainability of these services and a 
smooth transition to operating a BFET program.
RISE Pathway
    The RISE pathway begins with comprehensive case management focusing 
on barrier reduction. As participants move towards the ability to 
engage in activities, assessments are completed and participant are 
registered in SFS training. Comprehensive case management (CCM) plays 
an integral role in supporting the client as they engage on their 
pathway to success. Once SFS is completed, case managers complete an 
Individual Employment Plan and progress to training, education or work-
based learning and/or job search activities and co-enrollment in BFET.
    The core services of the program are comprehensive case management, 
strategies for success, and work-based learning services. Secondary 
services include BFET services, to include: service coordination, 
navigation of financial and academic resources, job readiness training, 
job search, vocational education, and retention and career advancement 
services.
RISE Today
    Providers continue to conduct outreach and marketing activities to 
engage potential participants. The RISE pilot has faced challenges in 
working with providers identifying potential eligible work registrants, 
initially due to DSHS's limitations in sharing client contact 
information. Recently, DSHS obtained approval to share a list of 
potential RISE participants.
    With the first year coming to a close, the program has reflected on 
the importance of the CCM throughout the RISE pathway. Preliminary 
results have shown the effectiveness of the model in providing a solid 
foundation to assist on the path of self-sufficiency.
    As we enter into year 2 of the RISE pilot, DSHS expects enrollments 
to increase, based on continued and more direct outreach by providers. 
We anticipate an increase in participants moving through the RISE 
Pathway and co-enrolling with the BFET program to obtain sustainable 
living wage.
                        PowerPoint Presentation
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairwoman. Thank you, Mr. Stillman.
    Mr. Anderson, begin when you are ready.

 STATEMENT OF JON ANDERSON, DEPUTY DIRECTOR, OFFICE OF FAMILY 
INDEPENDENCE, GEORGIA DIVISION OF FAMILY AND CHILDREN SERVICES, 
                          ATLANTA, GA

    Mr. Anderson. Madam Chair, Members of the Committee, thank 
you for allowing me to speak to you about the receipt and use 
of this employment and training grant. Our Division believes 
that everyone that can work should work. We developed this 
grant proposal in coordination with our Georgia Department of 
Labor and local workforce investment agencies.
    In our traditional employment and training program, we 
focused our efforts on able-bodied adults without dependent 
children, or the ABAWD population. Prior to a statewide waiver 
in 2009, we ran our ABAWD Program under the mandatory option. 
The old ABAWD Program was extremely cumbersome to administer. 
It took time to hire staff, train them, and let that staff gain 
proficiency in their jobs, and that usually coincided with the 
ending of the program in that county. And Georgia has always 
used the county-to-county-based approach.
    These counties that we served were drastically different 
from year to year. This inhibited us from being successful in 
developing long-term relationships with organizations and 
community partners that could assist us with getting the ABAWDs 
employed, and most importantly, keeping them employed.
    Our ABAWD placement activities at that time consisted 
mostly of in-house functions, such as filing, answering phones, 
janitorial services. Our focus was to get the ABAWDs to meet 
the work requirement, and not get them into long-term 
employment that led to self-sufficiency. With long-term job 
placement in mind, we applied for this employment and training 
grant to more comprehensively assist our ABAWD population. We 
looked at how the medical community approaches comprehensive 
care management to find ways to address the source of why an 
ABAWD was not able to gain and sustain employment. We have 
several levels of assessment for each ABAWD, each assessment is 
validated and expanded upon to ensure that we have addressed 
all the barriers.
    The barriers to employment must be addressed if we are to 
be successful in our goal of getting ABAWDs to self-
sufficiency. These barriers include, but are not limited to, a 
lack of education, substance abuse, mental health issues, and 
others. We understand that these individuals need hands-on, 
coordinated, intensive services to address most or all of their 
barriers. We also knew that relationship development with other 
state and private organizations was key to the success of our 
pilot. We have worked diligently to develop these relationships 
within our pilot counties.
    The importance of coordinated case management services to 
the success of an ABAWD cannot be underestimated. On the human 
side, it can be scary for some ABAWDs to make new 
relationships. Our customers develop professional relationships 
and trust with our staff. I receive an e-mail from one grant 
participant on Friday of last week that expressed her thanks to 
our staff. She described her anxiety and uncertainty of 
attending the program orientation. After attending the 
orientation, she felt inspired and now has a sense of hope 
about her future.
    The grant has allowed us to target market trends and jobs 
that will lead to long-term, successful employment. 
Coordination with our technical schools and certificate 
programs are included. Initially, our grant was to serve those 
who have been unemployed for 12 or more months. We saw very 
quickly the need to expand that to any unemployed ABAWD was 
essential to our success, so we are now serving all ABAWDs that 
are selected for the pilot.
    With the pilot implementation, we completed a phased 
rollout. As of July 1 of this year, all pilot counties are 
fully operational, and even though we are just a few months in, 
we are already seeing some great outcomes. We have been able to 
place 60 ABAWDs in a variety of jobs, some of them starting at 
$12 an hour, and some that go up to $20 an hour. One population 
that we did not anticipate to serve in our grant was drug 
felons. On July 1, 2016, Georgia removed the restriction of 
drug felons from participating in the SNAP Program.
    Our Department of Corrections and Pardons and Paroles have 
some valuable re-entry programs, however, coordinating with 
employers that are willing to take a chance on a felon is 
problematic, leading to ABAWD to a dependency on SNAP. Thus 
far, we have been able to assist at least one parolee to gain a 
$12 an hour job, and is no longer receiving SNAP benefits.
    In closing, I want to thank you again for this opportunity 
to speak to you, and the funding that you made available to 
states to try innovative programs like this, that will help us 
move more people to long-term employment and self-sufficiency.
    Thank you.
    [The prepared statement of Mr. Anderson follows:]

 Prepared Statement of Jon Anderson, Deputy Director, Office of Family 
    Independence, Georgia Division of Family and Children Services, 
                              Atlanta, GA
Georgia SNAP Works 2.0
          A coordinated multi-agency assessment and case management 
        delivery system.

    This information is being presented for the purpose of providing 
testimony to the Members of the Agriculture Committee's Nutrition 
Subcommittee regarding the Past, Present and Future of SNAP: Innovation 
and Success in Employment and Training Programs.
Pilot Overview
    Georgia was awarded $15 million as a grant recipient of the Fiscal 
Year 2015 Pilot Projects to Reduce Dependency and Increase Work 
Requirements and Work Effort under the Supplemental Nutrition 
Assistance Program (SNAP) Grant Application. The Project, titled 
Georgia SNAP Works 2.0: A coordinated multi-agency assessment and case 
management delivery system, was written in partnership with the Georgia 
Division of Family and Children Services (DFCS), the Georgia Department 
of Labor (GDOL) and the Georgia Local Workforce Investment Agency 
(GLWIA) to provide services to Able Bodied Adults without Dependents 
(ABAWDs) in ten Georgia counties (See Map Attached).
    Through this partnership, 2,500 mandatory participants in Georgia's 
Employment and Training Program (called SNAP Works) will receive 
coordinated case management services through an integrated system that 
is based on a medical HMO. Primary case managers work closely with 
secondary case managers (specialists in partner organizations), each 
applying their respective expertise to meeting the needs of 
participants and continuously sharing information and insights via a 
centralized web-based system.
    The ten counties providing pilot services were selected based on 
their number of ABAWDs, and the location of SNAP Works offices relative 
to the GDOL and GLWIA location in the county, so as to limit 
transportation as a barrier to participation. Diversity of the client 
population was also a factor in selecting the ten counties. Georgia 
chose to operate in the second largest urban county in the state, 
several smaller rural counties, as well as three counties in the 
coastal region. The GDOL also researched the areas for the availability 
of high-demand jobs as well as proximity to a technical school for 
participants who may need further training before being able to accept 
employment.
    For the purposes of the pilot, it was determined that approximately 
2,500 individuals would be selected to be in the pilot services group, 
and approximately 2,500 in the control group as indicated by the 
Independent Evaluator. The target population was selected to be ABAWDs 
who are 18-49 years old and have been unemployed for more than 12 
months. Furthermore, all of the counties selected to provide grant 
services were designated as mandatory for participation for ABAWDs 
residing in the project area. Georgia's E&T Program operated as a 
mandatory program until the economic downturn in 2008. When the program 
operated from 2009 to 2013 as a voluntary program, the participation 
rate fell below five percent. Concerns about the ability to attract 
clients to the grant operating as a voluntary program led to the 
decision for the pilot to be a mandatory program. In a mandatory 
program, clients are contacted by mail to attend an orientation. Those 
failing to attend are sanctioned from 1 to 6 months depending on the 
number of violations, if good cause is not determined. To successfully 
engage the numbers of clients needed to participate during the 3 year 
study, this type of outreach to clients, along with consequences for 
failure to participate, were deemed necessary.
Grant Objectives
    The intent of Georgia's pilot project was to develop and test 
methods of employment and training programs, and services specifically 
designed to increase the number of SNAP work registrants who transition 
to unsubsidized employment, increase the earned income of work 
registrants, and reduce the reliance of work registrants on public 
assistance. The project design involves a mix of strategies that 
support rapid attachment to employment, including: three-tiered 
participant assessment and employment plan development, education and 
training, job search, intensive case management, community partner 
support services, rehabilitative services for individuals with barriers 
to employment, and other necessary services such as substance abuse 
treatment. This multiple strategy approach is intended to reach 
individuals with a variety of barriers related to chronic unemployment, 
such as low skills or limited work experience.
    For the purposes of the grant, the following career pathways were 
selected: manufacturing, warehousing, transportation, medical, 
automotive, building maintenance and welding. In all of the selected 
areas, these industries have numerous training and job opportunities 
for a variety of backgrounds, interests and barriers. Many of the 
programs required for entry into the selected industry do not require a 
GED, and some do not require a background check. These career pathways 
were also selected because they are not exclusively entry-level and 
most pay above minimum wage. The original goal of the grant was to 
provide opportunities to clients to once and for all foster true and 
meaningful reduction of reliance on public SNAP assistance in the 
state, therefore the selected career pathways were intended to provide 
participants with a living wage of no less than $12.00 per hour.
    Initially, Georgia DFCS SNAP Works case managers conduct a brief 
Participant Employability Assessment to confirm the participant as a 
mandatory work registrant as well as to determine whether participants 
meet the criteria for the grant. If selected, the participant will then 
be referred to GDOL case managers for primary case management. Each 
participant is assigned a GDOL primary case manager who guides the 
participant from beginning to end, while coordinating the efforts and 
inputs of all partner case management contributions.
    Upon receipt of the referral from DFCS and the results of the 
initial assessment, GDOL staff conduct a second employability readiness 
assessment of the participant's skills, experience, education, 
credentials, work readiness/soft skills, and barriers. The primary case 
manager develops a customized Individual Employment Plan (IEP) for each 
participant, with the establishment of an occupational goal, a career 
path, potential barriers, and a mitigation plan for those barriers. If 
the GDOL primary case manager determines a participant is immediately 
employable, the customer will receive pre-employment and work readiness 
services as needed, and a staff-assisted and self-directed job search 
will begin. If the GDOL primary case manager determines the participant 
needs educational or training prerequisites prior to employment in the 
chosen occupation, the participant will be referred to the appropriate 
GLWIA for education and training services.
    The GLWIA case manager guides the participant to successful 
completion of a training program as provided through the Georgia 
Technical College System and other approved Georgia education and 
training providers. They outline available training options within the 
participant's preferred career pathway and utilize DFCS and GDOL 
assessment results, including identified barriers, to drive the 
activities. After training is completed, the case manager will refer 
participants back to GDOL for job placement and advisement on 
employment options.
Pilot Update
    Shortly after notification of the grant award, DFCS and GDOL 
project staff began meeting to ensure that the pilot was implemented as 
outlined in the grant application. This included development of 
participant workshops, hiring grant positions, developing a 
communication protocol between the agencies, developing training 
documents, as well as GDOL developing the web-based system used for 
case management documentation.
    Additionally, we have been working closely with the U.S. Department 
of Agriculture (USDA) and its evaluation contractors, Mathematica 
Policy Research and its partner MDRC, to ensure the pilot has a strong 
study design. Training sessions were held for DFCS, GDOL and GLWIA case 
management staff beginning in November 2015. MDRC conducted training 
for grant staff on how to conduct random assignment in late January 
2016. Shortly after receiving OMB approval, random assignments to the 
grant began in February 2016 in two pilot counties. Additional counties 
were added monthly with all ten counties operational by July 1, 2016.
    Referrals to the pilot begin with DFCS inviting clients in the ten 
pilot counties to attend orientation. A report of mandatory ABAWDs is 
received weekly in each county and orientation letters are generated 
from this report. Each county has a monthly quota of participants 
required to volunteer for a chance to receive the enhanced services, 
based on the 5,000 total clients the pilot is to have served after a 24 
month enrollment period.
    A cornerstone of the evaluation is random assignment to either 
pilot services, or to the control group (regular E&T Program services), 
which will demonstrate the degree to which the pilot participants are 
successful in securing good jobs. Participants not volunteering for the 
pilot are still required to participate with the regular SNAP Works 
Program.
    Attendance at orientation was initially low, with less than 10% 
participating, resulting in the majority of the pilot counties failing 
to meet the random assignment goal. This necessitated a request to 
change the original pilot target (only inviting ABAWDs unemployed 12 
months or longer to orientation) to include to all ABAWDs regardless of 
the time unemployed. This change, along with implementing some outreach 
procedures to participants, such as placing phone calls to clients 2 
days before orientation, has improved outcomes in all ten pilot 
counties and increased interest in the pilot. SNAP eligibility staff is 
required to discuss the ABAWD status in detail with clients at SNAP 
intake and case renewal as well as to provide information on the pilot.
    With all ten counties fully operational and strategies implemented 
to attract participants and increase participation, in August 2016 DFCS 
met referral goals. Currently over \1/2\ of recipients who have been 
selected to receive pilot services have attended their first GDOL 
orientation. Of these initial referrals, there are several success 
stories that would not have been possible without the pilot and the 
partnership of DFCS, GDOL, GLWIA and other pilot partners working 
together to secure a successful outcome.
1. Systemic Success Stories
    An essential core of Georgia's grant is a case management `primary 
care' approach, where critical community partners coordinate their 
respective services to address the employability of SNAP recipients. 
For example:

  a.  M.K. is a veteran suffering from behavioral and substance abuse 
            issues that are negatively impacting his ability to search 
            for--and obtain/hold--employment. Collaborative services 
            from the GDOL, Veterans Services, and community substance 
            abuse treatment are being coordinated by the SNAP program, 
            to mitigate barriers to successful employment.

  b.  C.W. is a young lady with developmental and educational 
            challenges, who has no work history. She is currently 
            unable to pass prerequisite tests to enter post-secondary 
            training opportunities. Collaborative services from DFCS, 
            GDOL, Georgia Vocational Rehabilitative Agency and a local 
            WIOA workforce partner are coordinating their efforts to 
            secure a supportive and work-based on the job training 
            opportunity.

  c.  Y.S. is a young man who was released from prison after being 
            incarcerated for 7 years. Working with GDOL's knowledge of 
            employers willing to employ people with a criminal 
            background, the client was able to find a job shortly after 
            joining the program with EmployBridge, making over $12.00 
            an hour and is no longer receiving benefits. With the 
            network of partners afforded to him through this pilot, he 
            is continuing to work on the barriers many prisoners face 
            at re-entry.
2. Employment Outcomes
    All grant participants receive pre-employment workshops and career 
guidance assistance from GDOL, and receive assistance creating and 
posting an on-line resume in the Employ Georgia system. These resumes 
are searchable by employers and provide automatic job matches and 
alerts to both interested employers and the job seeker participant.
    Below are just a few examples of employment outcomes gained through 
the collaborative efforts of the program. Given the early stages of 
this evaluation study, long-term analysis will continue regarding the 
wage career laddering growth of these and all participants.

  a.  J.J. obtained employment with Chenga Security at the CDC, working 
            as an Asset Protection Officer, earning $20.45 per hour. 
            She is an Army Veteran with prior experience in Human 
            Intelligence Collection, a Bachelor's Degree in Criminal 
            Justice and a Master's Degree in Forensic Psychology, all 
            of which support this career path.

  b.  A.D. obtained employment with the Argos USA Corporation working 
            as a CSR Field Technician, earning $15 per hour. She 
            previously had 7 years' experience as a hospitality clerk, 
            with only a GED certification.

  c.  C.C. obtained employment at Transportation Security 
            Administration at Hartsfield Jackson International Airport 
            working as a Transportation Security Agent, earning $14 per 
            hour. She previously worked as a graphic artist instructor, 
            with a Bachelor's Degree in Media Arts, but was interested 
            in a career change.

  d.  C.W. obtained employment with Chime Solutions working as a Health 
            Plan Specialist, earning $14 per hour. He previously worked 
            various jobs as a warehouse worker, baker and customer 
            service representative, with a Bachelor's Degree in 
            Culinary Arts. He is now most interested in pursuing a 
            sales and customer service career path.

  e.  O.S. obtained employment with the Coca Cola Bottling Company as a 
            Warehouse Associate/Forklift Operator, earning $13.62 per 
            hour. He previously worked as a security officer and 
            customer service representative. Having only a high school 
            diploma, he sought a forklift operator's license to pursue 
            employment in the high demand logistics career path.

  f.  R.C. obtained employment with Gainesville Fire Protection working 
            as a Fire & Sprinkler System Assistant, earning $12.50 per 
            hour. He previously worked as a sales representative in 
            telephone communications.

  g.  D.K. obtained employment with Direct Hit Logistics (DHL) as a 
            materials handler, earning @ $5,000 per quarter (@ $11 per 
            hour). Having no high school diploma, she hopes to pursue 
            her GED, and then continuing education as a forklift 
            operator to progress in the logistics occupational path.

  h.  V.S. obtained employment with the DeKalb County Sheriff's Office 
            as a Detention Officer, earning $2,507 per month (@ $14 per 
            hour).
3. Education & Training
    As envisioned by the grant, participants who are experiencing a 
credential deficit as an employment barrier are obtaining necessary 
education and training services in a demand occupational pathway.

  a.  A.M. has completed her first two certificates of completion for 
            her Claims and Adjuster and Property and Casualty Agent 
            pre-licensing courses, with one course remaining in 
            Accident and Sickness Claims. Upon completion, she will be 
            taking her State Licensing examinations.

        She worked previously as a sales clerk, and has an Associate's 
            Degree in computer systems.
        At the time of this summary, this is a medium to high demand 
            occupation in the Metro Atlanta area, with over 500 
            openings noted in the past year and an average annual 
            salary of $46,580-$75,270.

  b.  O.S. (noted in the Employment Outcomes above), obtained 
            certification as a Forklift Operator.

        At the time of this summary, this is a medium to high demand 
            occupation in the Metro Atlanta area, with over 540 
            openings noted in the past year and an average annual 
            salary of $24,030-$33,710.

  c.  T.R. is currently attending a state technical college, pursuing 
            Heating, Ventilation and Air Conditioning technology 
            certification.

        He previously worked as a warehouse pallet operator, and 
            possesses a high school diploma with no post-secondary 
            education.
        At the time of this summary, this is a medium to high demand 
            occupation in the Metro Atlanta area, with over 530 
            openings noted in the past year and an average annual 
            salary of $32,020-$49,160 per year.

  d.  P.B. is just commencing activities at a local university, 
            pursuing Digital Marketing credentialing.

        He previously worked as a warehouse receiving associate and 
            package handler, possesses a high school diploma with no 
            post-secondary education.

    With all counties currently operational, the very extensive data 
provided by the grant evaluator, Mathematica, is being used daily to 
analyze the progress in each of the ten counties to determine where the 
process is working well, where improvements are needed, and to suggest 
possible solutions. Very early analysis has shown that participants in 
rural areas still struggle with transportation needs despite being 
provided a monthly allowance, necessitating the need to find 
alternative resources. Grant partners have also met to discuss other 
ways to lessen the transportation barrier such as providing services in 
multiple locations as well as giving participants more options in 
scheduling activities to lessen the need to report to a GDOL office 
several days a week.
    There have also been a few early findings that were not expected 
when the grant was submitted. For example, more than 50% of the 
participants possess a high school diploma or higher, with fewer 
needing education or a certificate before being deemed as work ready. 
It was anticipated in the grant application that more than \1/2\ the 
pilot's participants would need to receive further training, adult 
education/GED or to obtain a certificate before being work ready.
Challenges
    Georgia was notified in 2015 that several counties would no longer 
be eligible for the waiver exempting ABAWDs from the ABAWD time-limit 
on the receipt of benefits to three in 36 months if not participating 
in a work activity. Three of Georgia's 159 counties became time-
limited, including Gwinnett County, one of the areas selected for the 
pilot.
    Participation from the ABAWD population in E&T services in Georgia 
has been a challenge for many years leading to a high rate of clients 
sanctioned for non-participation. The implementation of the time-limit 
ABAWD program in Gwinnett County has necessitated changing the 
orientation in that county to include an enhanced explanation of rights 
and responsibilities, with many ABAWDs still not aware that 
participation in the grant will help them remain eligible for benefits 
while working with GDOL on the job search, or while attending an 
education or training activity. Fewer clients are attending 
orientations in Gwinnett, one of the counties that was expected to have 
a large number of participants seeking further training due to a robust 
technical school presence in the area.
    Anticipating the level of participation per county and staffing 
appropriately has also been a challenge, along with staff turnover. 
Some of the smaller pilot counties have one case manager conducting 
orientations as well as meeting individually with participants. 
Adjustments had to be made to hire more staff than anticipated in some 
areas and to designate staff as floaters available to assist in 
multiple counties. This has presented an opportunity for information 
sharing between staff from partner agencies to regularly meet, talk 
about any issues and participant needs, and gain the knowledge needed 
to assist the partner agency if the need arises.
Conclusion
    These early outcomes show the promise of this pilot for providing 
positive outcomes for the Able Bodied Adult without Dependents 
population in Georgia. In conclusion, this level of information sharing 
and skill-building among multiple partners is unprecedented and is 
providing lasting solutions needed to address barriers that have led to 
long-term unemployment and reliance on SNAP. Early indicators 
demonstrate that as the Georgia partners continue to collaborate and 
communicate, the pilot will afford much needed information on how best 
to serve the ABAWD population.
    Georgia is grateful for the opportunity to participate in this 
pilot.
SNAP Works FFY 2017 Service Area E&T Pilot Grant Counties
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                          Pilot Study Counties
------------------------------------------------------------------------
 
------------------------------------------------------------------------
Bulloch                              Douglas
Chatham                              Glynn
Cherokee                             Gwinnett
Clayton                              Henry
Dekalb                               Rockdale
------------------------------------------------------------------------


    The Chairwoman. Thank you, Mr. Anderson.
    Mr. Weber, please begin when you are ready.

   STATEMENT OF PETER WEBER, FOUNDER, FRESNO BRIDGE ACADEMY, 
   FRESNO, CA; ACCOMPANIED BY KIM McCOY WADE, J.D., CalFresh 
                    BRANCH CHIEF, CALIFORNIA
         DEPARTMENT OF SOCIAL SERVICES, SACRAMENTO, CA

    Mr. Weber. Madam Chair, Ranking Member, Members of the 
Committee, thank you so much for giving us the opportunity to 
provide this testimony. And, Congressman Costa, thank you for 
your kind introduction, and in particular for your devoted 
support of the Fresno Bridge Academy.
    The Fresno Bridge Academy is a program of Reading and 
Beyond, a nonprofit organization in Fresno County. It has been 
operating since 2010. In 2012, Reading and Beyond partnered 
with the Fresno County Department of Social Services to focus 
its attention on lifting SNAP beneficiaries out of poverty, and 
to do so in a way that generates positive returns for 
taxpayers.
    Prior to the start of the E&T pilot in January of this 
year, the Fresno Bridge Academy had enrolled more than 1,200 
families in the program, and by the end of last year, we had 
graduated more than 800 of those families. About 75 percent of 
those families entered the program unemployed. The rest of them 
were underemployed. About 81 percent of academy graduates have 
achieved success, meaning that they either obtained employment 
or significantly increased their wage income if they entered 
the program unemployed. Eighty-five percent of those placed in 
employment retained their jobs a year later, and importantly, 
within 18 months of enrollment, 30 percent of those enrolled 
had achieved full self-reliance, meaning that they had over-
incomed.
    The Fresno Bridge Academy is a unique two-generation 
program that works with all members of a family to overcome any 
and all barriers to employment. I want to acknowledge that 
self-selection contributes to the success of the program. The 
Bridge Academy is an all-voluntary program. People don't have 
to enroll. They don't have to remain enrolled for the 18 month 
duration of the program. They do so because they are motivated 
to improve the prospects for themselves and their families.
    Let me give you an example to help illustrate how the 
program works. When USDA Under Secretary, Kevin Concannon, 
visited the Fresno Bridge Academy in December of 2015, he met a 
family that was comprised of a man, for confidentiality 
purposes we will call him Jose, his wife, who we will call 
Maria, and two teenage sons. They were both unemployed, they 
both had criminal records. They had one car. Jose had to come 
to the Fresno Bridge Academy for the most part using his 
bicycle. Their children were struggling academically. By the 
time the Under Secretary met with them, the Bridge Academy had 
worked with Jose to get him trained as a warehouse technician, 
and helped him land a job as a forklift driver in a 
manufacturing company. We had worked with Maria to help get her 
criminal record expunged. We had worked with the two children. 
Both of the parents had undergone a number of life skills 
workshops, including how to manage a household budget while 
their public assistance dollars were diminishing. Now, that was 
20 months ago. Today, Jose is still employed by the same 
company. He has received two promotions. He is now receiving a 
wage of $15 and change per hour in a county where the average 
wage is about $21 an hour. This is a job with benefits. The 
family is completely off public assistance. The oldest son just 
graduated from high school and has joined the Navy, and the 
youngest son has a 3.6 GPA.
    We have 800 more success stories like that. And as Paul 
Harvey would have said, ``And here is the rest of the story.'' 
For every taxpayer dollar invested in the Fresno Bridge 
Academy, the program is returning $5.50 back to the taxpayers. 
We know that because Fresno County contracted for the 
development of a cost-benefit model that measures the economic 
impact of the program, not only on families but also on 
taxpayers. We call it the Fresno Bridge Academy ROI model. A 
document that describes the methodology used to do the ROI 
calculation has been delivered to your Committee staff.
    And I realize I am running out of time, and so I am going 
to tell you more about the E&T pilot during the Q&A portion of 
the hearing.
    [The prepared statements of Mr. Weber and Ms. McCoy Wade 
follow:]

  Prepared Statement of Peter Weber, Founder, Fresno Bridge Academy, 
                               Fresno, CA
    Reading and Beyond's Fresno Bridge Academy has demonstrated its 
ability to help families move from public assistance to self-reliance 
since 2010. In 2012, it partnered with the Fresno County Department of 
Social Services to focus primarily on SNAP beneficiaries (formerly food 
stamps, a.k.a. CalFresh in California). The need for services as 
described in this document has increased significantly since the start 
of the Great Recession. The SNAP Employment and Training (E&T) program 
has served as our primary source of funding for delivery of services to 
help SNAP beneficiaries obtain employment, boost wages and transition 
to self-sufficiency.
    Between May 2010 and December 2015, the Bridge Academy enrolled 
almost 1,200 families. As a result of being awarded a USDA grant to 
become one of ten nationwide SNAP E&T pilots to help inform public 
policy on how to increase wage income and self-sufficiency, recruitment 
has significantly accelerated. More than 1,500 families have already 
been enrolled in 2016 to participate in the pilot.
    The Fresno Bridge Academy has been effective in employment 
placement and job retention among adults who are most in need. Since 
the Bridge Academy's launch in May 2010, more than 80 percent of 
participants have attained and retained new employment and/or 
significant wage progression. This success rate allows about 30 percent 
of families to achieve self-reliance by the time of graduation from the 
18 month program.
    The Fresno Bridge Academy has achieved high cost-effectiveness by 
partnering with organizations that provide an array of services needed 
by families to overcome barriers. The model is based on eight core 
principles:

  b Dual-Generation Theory of Change. The entire family is enrolled--
        all the adults and children living in the home.

  b Comprehensive Wrap-Around Services. In addition to job training, 
        assistance obtaining a GED and help with job placement, adults 
        in the family are provided a wide range of life skills, and 
        children in the family are mentored and tutored.

  b Mentorship. Every family is assigned a Career and Family Navigator 
        who stays with the family from date of enrollment until program 
        completion.

  b Place-Based. Bridge academies are located in neighborhoods of 
        concentrated poverty to deliver services where people live.

  b Integrated. The FBA has achieved high cost-effectiveness by 
        partnering with organizations that provide an array of services 
        needed by families to overcome barriers. The FBA has a network 
        of more than 175 service providers that offer a wide range of 
        services to participating families. It has helped place its 
        graduates with more than 200 employers.

  b Jobs With Upward Mobility. The FBA subscribes to what it calls an 
        ``A-B-C'' approach, helping heads-of-household obtain the 
        education, training and life skills needed to get A job, then a 
        Better job, then a Career.

  b Evidence-Based. The effectiveness of FBA interventions has been 
        validated by respected researchers from across the nation.

  b Outcomes-Based. The FBA rigorously measures income gains, job 
        retention and attainment of self-reliance for its participating 
        families, as well as program ROI for taxpayers.

    The Fresno Bridge Academy is the first E&T Program in the nation to 
build a cost-benefit model that monetizes the social benefits of the 
interventions provided. A document providing a detailed description of 
the methodology used to determine ROI has been delivered to staff of 
the House Agricultural Committee. The model uses standard economic 
discount rate techniques; cohort comparison analysis; publicly 
available data on the benefits of certain interventions; and, reasoned 
assumptions about the causal effects of improved outcomes and how long 
impacts are expected to persist.\1\ As an illustration, for the FBA 
Class that graduated in March 2014, every $1 spent on the program 
generated total benefit of $22.28, with $16.78 of the benefits going to 
the participating families and $5.50 going to taxpayers.
---------------------------------------------------------------------------
    \1\ ROI assumptions (including Causal Percentage and Fadeout 
Factor) were determined based upon the review of ROI models and 
research studies which employed similar methods.
---------------------------------------------------------------------------
    The Fresno Bridge Academy is successful because of its commitment 
to research-based and evidence-based practices. The Fresno Bridge 
Academy components have been validated by researchers from Chapin Hall 
at the University of Chicago (2012). Four specific characteristics of 
successful workforce development programs were uncovered by these 
researchers, including the following: (1) providing support services 
and case management; (2) flexible programming and service delivery; (3) 
family engagement in programs; and (4) focusing on the quality of job 
placement.
    Research conducted by The Center on Budget and Policy Priorities 
also supports the Fresno Bridge Academy model. These researchers 
conducted a scan of common characteristics across effective E&T 
programs or approaches, which include providing education or 
remediation to allow individuals with low educational levels to access 
industry-specific training programs; individualized, hands-on-work to 
build life-skills (setting goals, time management, making good 
decisions, stress management, etc.); and, provision of supportive 
services (transportation and flexible funds to help purchase items to 
help individuals work or look for work). All of these elements are 
embedded within the Fresno Bridge Academy model.
    In a more recent study by the Annie E. Casey Foundation (2014), 
researchers investigated the effectiveness of a ``two-generation 
approach'' (also known as ``dual generation approach'') in helping 
families achieve economic self-reliance, which is the basis of the 
Fresno Bridge Academy model. Researchers discovered that some of the 
Federal and state programs designed to help low-income families 
overcome their daily challenges operate in isolation from one another; 
and that these programs focused on either the children or parents, but 
not both. This study details the three key components of a two-
generation strategy, all embedded within the Fresno Bridge Academy 
model: ``(1) Provide parents with multiple pathways to get family-
supporting jobs and achieve financial stability; (2) Ensure access to 
high-quality early childhood education and enriching elementary school 
experiences; and, (3) Equip parents to better support their children 
socially and emotionally and to advocate for their kids' education.''
    Due to the success of the model, the Fresno Bridge Academy was 
selected as one of ten national SNAP E&T pilots to significantly scale-
up services and test innovative strategies that may speed the process 
of families attaining self-reliance. The Fresno Bridge Academy has been 
expanded from three to nine sites and will now be able to serve more 
than 2,000 additional families. The Pilot Program targets work 
registrants in specific urban and rural populations of Fresno County 
that are comparable to those of the neediest counties in California; 
moreover, these areas exhibit both a high rate of poverty (more than 
20%) and unemployment (more than 8%).
    The Fresno Bridge Academy's SNAP E&T Pilot Program builds on the 
traditional Bridge Academy Model, adding the following interventions:

  1.  Wage subsidies. Although we only offer wage subsidies for 
            employers willing to hire the hardest to employ, or to 
            employers offering premium wages, we thought the program 
            would benefit by having some ability to compete with the 
            TANF program, which offers wage subsidies.

  2.  Education Navigators. Many of the people we serve do not have 
            high school diplomas or GED's. We have found that 
            traditional GED programs are too slow and impersonal. We 
            have an in-house, highly individualized program that 
            enables our participants to get their GED's much faster. 
            And those same navigators help support the vocational 
            training of our participants.

  2.  Incentives. The Bridge Academy is an entirely voluntary program. 
            SNAP beneficiaries are not required to enroll and don't 
            have to remain enrolled for 18 months. We find that 
            participants will sometimes want to drop out of the program 
            after they have been placed in a job. We want them to stay 
            enrolled, so we offer them a small cash benefit payable 
            only if they complete the 18 month program. And we offer 
            them a small cash benefit for every unit of instruction 
            they complete to continue to upgrade their skills after 
            they have been placed in employment.

    The program conducts an in-depth assessment to determine the 
participant's appropriate ``pathway'' or case plan and potential family 
needs that may be a barrier to sustained employment. Once the 
participant's case plan has been developed they will be placed in one 
or more (typically more) of the following activities:
1. Education
  a.  Academic support geared to assist participants in obtaining their 
            GED or High School Diploma and/or Associate's or Bachelor's 
            Degree.

  b.  Structured activities designed to improve language proficiency, 
            math and reading skills, digital literacy, test taking 
            skills, and other subjects depending on the needs of the 
            participants.
2. Job Training
  a.  Following an assessment process, participants are enrolled in 
            vocational training suited to their aptitudes and interests 
            and for jobs that are available in the local economy.
3. Job Search
  a.  Group and one-on-one soft skills development including resume 
            preparation, cover letter writing, interviewing strategies, 
            up-to-date job search techniques, etc.;

  b.  Direct assistance with job search and applications including 
            identifying best company and positions matches based on 
            their hard skills and interests.
4. Wraparound Services
  a.  On-going case management conducted by Career/Family Navigators.

  b.  Additional topics to be addressed: nutrition, health, civic 
            engagement, parenting, housing, Earned Income Tax Credit 
            (EITC), financial literacy, and financial management.

  c.  Resolution of various employment barriers including; childcare, 
            transportation, clothing, tools, work licenses, housing, 
            and enrollment among others.

  d.  Mentoring and tutoring of children, particularly to help them 
            read and do math at grade level, get exposure to the arts, 
            and show up for class.
5. Subsidized Employment
  a.  Subsidized employment will be provided to approximately \1/3\ of 
            participants to encourage employers to hire the hardest to 
            hire SNAP recipients, or to employers offering premium 
            wages.

    In order to enhance upward mobility of participants, the pilot 
program will partner with training organizations to offer more career 
ladder programs in the evenings and weekends. A partnership with the 
Fresno County Economic Development Corporation is in place to assist in 
placing participants in high-wage, high-demand occupations in high-
growth industry clusters. Participants will be offered incentives to 
continue to upgrade their skills after first employment. The program 
will provide 1 year retention monitoring to ensure sustainability of 
outcomes and participants will be provided incentives to retain contact 
with Career & Family Navigators.
    The Pilot participants are being recruited and enrolled over a 
period of 18 months that started in late January 2016, and families 
will remain enrolled for approximately 18 months, with total Pilot 
duration of 36 months. In accordance with a protocol developed with 
Mathematica, the program evaluator contracted by the USDA Food and 
Nutrition Services Agency, participants are assigned to one of three 
groups:

  b One group will receive the standard Bridge Academy services;

  b The second group will receive the enhanced services described 
        above; and

  b The third group will receive no services.

    Outcomes will be evaluated against a similarly sized control group 
with comparable demographic characteristics. The Fresno Bridge 
Academy's SNAP E&T Pilot Program is aimed at overcoming past obstacles 
to attainment of self-reliance and at heightening the program's ability 
to achieve two overarching goals: (1) Participants are self-reliant and 
no longer receiving SNAP benefits, and (2) Family quality of life has 
improved. Specifically, the primary goals of the pilot program are as 
follows:

  <bullet> Replicability will be demonstrated by expanding to six urban 
        neighborhoods and three rural communities in Fresno County.

  <bullet> At least 75% of the participants in the program will obtain 
        and retain employment or receive wage increases at least 50% 
        higher than the then-current rate of inflation;

  <bullet> At least 45% of the participants will achieve self-reliance 
        and will no longer be eligible for receipt of SNAP benefits; 
        and

  <bullet> The pilot will produce a minimum 4 to 1 return on investment 
        to taxpayers, i.e., for every $1 of taxpayer funds expended, 
        the pilot will produce a verifiable reduction of $4 in taxpayer 
        outlays for SNAP benefits and an increase in the income taxes 
        paid by the program participants.
                                 ______
                                 
  Prepared Statement of Kim McCoy Wade, J.D., CalFresh Branch Chief, 
        California Department of Social Services, Sacramento, CA
    California is moving to significantly expand both the quantity and 
quality of Employment & Training (E&T) services offered by the 58 
county human services agencies to the 4.4 million participants in SNAP 
(known as CalFresh). The state, the counties, private service 
providers, employers and other workforce stakeholders are working in 
partnership to assist more participants than ever before in obtaining 
good jobs, securing better wages, and attaining careers that lead to 
self-sufficiency.
    SNAP E&T Priorities: A total of 33 of California's 58 county human 
services agencies, serving the majority of the state's SNAP E&T 
eligible population, plan to offer a voluntary SNAP E&T program in the 
upcoming Federal fiscal year, up from 25 counties in the current year. 
The California Department of Social Services (CDSS) is prioritizing 
three strategies to support and strengthen California counties' SNAP 
E&T programs:

  1.  Outcomes. CDSS is focused on measuring outcomes for participants 
            by strengthening reporting systems throughout the state. To 
            this end, CDSS will facilitate the collection of employment 
            and wage data for SNAP E&T programs through a new data 
            sharing agreement with the California Employment 
            Development Department (EDD). This agreement is in part a 
            result of the existing outcome measurement efforts of 
            counties like San Francisco, which in tracking 752 
            participants found that: 46% have earnings 18 months after 
            exiting E&T; 53% are no longer receiving SNAP benefits at 
            that point; and overall, there is a 123% increase in 
            earnings from 6 months pre- and 6 months post-E&T 
            participation. CDSS is also exploring the possibility of 
            joining a centralized, statewide data-matching workforce 
            hub that may be accessed by local and regional workforce 
            boards, SNAP E&T programs, and other workforce programs to 
            support accurate, comprehensive data collection across this 
            sector.

  2.  Comprehensive Job-Driven Approach. California counties are 
            weaving together job training, especially vocational and 
            certificate programs; barrier removal; and case management 
            to deliver effective workforce services to SNAP 
            participants that lead to better jobs, wages, and careers. 
            As an example of this effort, CDSS and our county partners 
            are forging a new partnership with the state's workforce 
            development system, as many priority populations, services 
            and outcomes align with SNAP E&T. CDSS also has been chosen 
            as one of ten states to participate in the ``SNAP to 
            Skills'' program administered by the USDA Food and 
            Nutrition Service. SNAP to Skills provides multifaceted 
            technical assistance in the design and development of 
            better and stronger job-driven SNAP E&T programs. These 
            models provide for tailoring to the local and regional job-
            market--both to the employment sectors and to the employee 
            population, including special populations like veterans, 
            those recently released from prison, and first generation 
            college students.

  3.  Public-Private Partnerships to Deliver E&T Services. Next fiscal 
            year, California's 33 SNAP E&T counties will contract with 
            more than 40 organizations across the state, most of which 
            are nonprofit agencies. Over 20% of county E&T budgets are 
            for these contractual services, an increase of $7.8 million 
            over the current fiscal year. Many contracts are for third-
            party reimbursement programs, which are programs operated 
            by non-government providers that self-fund at least \1/2\ 
            of their costs to serve the SNAP population and receive the 
            available Federal match. Under this model, Fresno County is 
            participating in the national, ten site pilot with Reading 
            and Beyond's Bridges Academy. Other counties are piloting 
            an innovative third-party intermediary model known as 
            ``Fresh Success:'' under this model, Sacramento and Santa 
            Clara counties are partnering with their local community 
            colleges and Contra Costa County with a local nonprofit 
            organization to deliver E&T services.

    Recommendations: Based on the experiences of CDSS and the counties 
operating and expanding SNAP E&T, we respectfully recommend for the 
Committee's consideration:

  1.  Further Alignment between Workforce Investments, such as those 
            funded through SNAP, Temporary Assistance to Needy Families 
            (TANF), and the Workforce Innovation and Opportunity Act 
            (WIOA), to deliver unified services to our families and 
            streamline administration, reporting, and service delivery.

  2.  Allow E&T Wage Subsidies to Engage More Employers, especially to 
            encourage taking a chance on more vulnerable employees. San 
            Francisco County's JOBS NOW! uses local funds to partner 
            with private employers to great success. Allowing SNAP E&T 
            funds to be used for subsidized wages would allow more 
            counties and more employers to participate.

  3.  Continue 100% and 50/50 Match Funding to ensure high-quality 
            services, rigorous outcome measurement, and effective 
            oversight.

    Work Success Stories: The state, counties, private service 
providers, employers, and other stakeholders are working together with 
USDA to provide rigorous outcome data. Equally compelling are the 
individual stories of graduates of SNAP E&T programs, like this one 
from San Francisco:

          Hello, my name is Denise Baker and I'm fifty years old. I was 
        born and raised in Oklahoma City. I came from a middle class 
        family of six. I didn't have it rough growing up. I came from a 
        family who valued morals and ethics. But when I became an 
        adult, I chose the wrong path in life chasing the cares of this 
        world and going down the wrong path knowing right from wrong. 
        And yet, I chose to be a part of the wrong crowd.
          Because I chose wrong ways, it took me to places I didn't 
        want to be in like jails and prison and that became my way of 
        life for the next 27 years. It was then when I hit rock bottom 
        because of the vicious cycle of drug use that I couldn't seem 
        to change my life in an atmosphere that was unhealthy for me 
        that I became suicidal. And before I could carry it out, I 
        heard a voice inside me saying, ``Call your daughter who lives 
        in California!'' So I did. I told her what was going on in my 
        life and I needed to change. She sent for me and from that very 
        moment, my life changed forever! She brought me to a place in 
        San Francisco in hopes to find help for me, and she did. Here 
        is where hope became possible.
          I applied for General Assistance and SNAP benefits and the 
        job resources became unlimited! I started participating in SNAP 
        E&T activities and heard about the JOBS NOW! program. The UCSF 
        EXCEL internship program is part of the wage subsidy tier of 
        JOBS NOW! After being accepted to the program I participated in 
        a 10 week classroom skills training with one of the E&T 
        training providers, and learned how to use Microsoft Office, 
        professional communication, and improved my public speaking 
        skills by presenting on topics to my classmates.
          After completing the skills training, I started a 4 month 
        subsidized employment internship with the UCSF Medical Center. 
        After completing my internship I was offered a full-time 
        temporary position with the UCSF Medical Center Human Resources 
        department. I am responsible for turning paper into digital and 
        I love my job and the people I work for and with. It has been 
        very rewarding for me to be a part of a society of working 
        people.
          Through this experience I have a new-found respect for people 
        who work hard every day to provide for their families while 
        also helping others improve their work skills. Thanks to 
        programs like SNAP E&T and JOBS NOW!, I now believe in myself 
        and know that I am employable and can become a productive 
        member of society by doing the right thing because it's the 
        right thing to do!
          Thank you for taking a chance on someone like me who didn't 
        believe that I could be a success story. I am doing great and 
        I'm still employed with UCSF Medical Center to this very day. 
        There are so many people who have not been given this 
        opportunity for change. I feel programs like SNAP E&T in San 
        Francisco help a lot of people come out of their rut and low to 
        no income situations.

    Thank you for including the California Department of Social 
Services, our counties, our clients, and our partners in this important 
discussion of Employment and Training opportunities, so more 
participants in SNAP can achieve better jobs, wages, and careers.

    The Chairwoman. Thank you. Thank you, panel.
    We understand that each state operates a SNAP employment 
and training program. Can you three just quickly talk about 
each of your states' core E&T program, and what services are 
offered across the state, including how you engage recipients 
to begin with? Mr. Stillman, I will just start with you, if you 
could quickly summarize that.
    Mr. Stillman. Thank you very much for the question, Madam 
Chair.
    The core of the program really is focused through a 
partnership with community-based organizations and community 
colleges. In Washington State, we were very fortunate in the 
mid-1990s to have some very creative folks who came together in 
the Seattle area to build a relationship between the 
nonprofits, community-based organizations and the community 
college, to meet a need for clients who were leaving TANF, 
still on food assistance, and our mantra is, ``Get a job, keep 
a job, earn more money.'' In that context, they were leaving 
public assistance but not really succeeding in terms of having 
a livable wage job. So our legislature and, of course, with the 
support of Federal funding, we took the opportunity to spread 
that across the entire state. The core of our program is in 
each and every community college with foundational 
relationships, and with the community-based organizations and 
nonprofits.
    The Chairwoman. Thank you. And, Mr. Anderson, and, 
specifically, how do you engage recipients?
    Mr. Anderson. We engage our recipients, we send out letters 
to them, and we have orientation that they come in and we 
explain the workfare program and how to comply with that. We 
have one county where we have a contract with our Goodwill that 
has ten certificate programs that can help employees get to 
jobs that can help them gain good, long-term employment. It is 
voluntary, so participation in the voluntary program is 
disappointing to us. We started, for example, in the beginning 
of January 2016, we had 6,100 ABAWDs participating in the three 
counties that we were operating in, and at the expiration of 
the 3 month time limit we were down to 2,590 that were actually 
participating in jobs or workfare that could allow them to 
continue to receive benefits.
    The Chairwoman. I appreciate it. Mr. Weber, can you also 
discuss your core program and how you engage recipients?
    Mr. Weber. Sure. We are place-based. We have nine academies 
within Fresno County. The county Department of Social Services 
gives us the contact information for every single SNAP 
beneficiary within those neighborhoods. We then call them, 
invite them in to a meeting in which we discuss the program 
with them, and then enroll those who are interested in signing 
up for what is an 18 month program.
    The core services are comprehensive. We provide everything 
from education support to employment training, to life skills 
training, and we also engage the children. We have a separate 
source of funding to engage the children so that we are 
addressing the family holistically.
    The Chairwoman. I appreciate it. Mr. Anderson, just a real 
quick follow-up. We know that each state can require mandatory 
participation of SNAP recipients subject to the work 
requirements, however, the majority of states offer voluntary 
participation. What factors did Georgia consider when 
implementing mandatory participation in both the core E&T 
program, as well as to test mandatory participation in the 
pilot projects? Can you speak about that?
    Mr. Anderson. Sure, I would be happy to. Traditionally, we 
ran the program pilot in 2009 as a mandatory program, and 
participation even at that time our success rates were fairly 
low, just because we didn't have those coordinated services to 
address all the barriers that the ABAWDs may need. In 2009, we 
switched over to a voluntary program as all states received a 
waiver with that, and we are beginning to see in those areas 
that there was a need to change our focus to not just helping 
get to the work requirement to more helping them become self-
sufficient, find jobs that could become self-sufficient. As 
part of our grant, we were able to look with our other partner 
agencies that focused on work to try to find ways in emerging 
market trends and jobs that would be coming available for these 
types of individuals that don't have college degrees, to get 
certificate programs or some vocational training that can help 
them get into good-paying jobs.
    The Chairwoman. And then just quickly, how do you 
interface, Mr. Anderson, with TANF, for example?
    Mr. Anderson. With the TANF Program, we currently separate, 
we have siloed thinking on that. Our TANF Program focuses more 
on families with small children, and trying to help the 
pregnant women and parents with small children get employment. 
And then on the E&T grant, we have always focused on the other 
side of the population; those adults that don't have children, 
to try to focus in that area. They have had siloed thinking in 
the past. We have started thinking more about, as we look at 
the employment services side of it, a lot of the basic job 
responsibilities and functions are similar on developing 
resources, and trying to help individuals address barriers.
    In one of our pilot counties, we have started looking at 
combining the supervision, not mixing the responsibilities of 
the actual employee, but combining the supervision of the TANF 
employment services staff with the pilot county employment and 
training staff so that we are maximizing our resources in both 
programs.
    The Chairwoman. Okay. I appreciate it.
    I will have to stop you there. I now recognize Ranking 
Member McGovern, for 5 minutes.
    Mr. McGovern. Thank you. This is to Ms. McCoy Wade or Mr. 
Weber. As you know, SNAP has a 3 month time limit for adults 
not raising minor children. If those individuals cannot find a 
job or a qualifying job training program within 3 months of 
receiving SNAP then they are cut off. States can waive the time 
limit in areas with high unemployment. California is currently 
taking advantage of the waiver. Presumably, that has been 
important, since some parts of your state continue to have 
unemployment that exceeds ten percent.
    Now, some in Congress have called to end the waivers 
altogether. What would that mean for California? Do we provide 
you with enough funding to create qualifying work slots for 
this group, and can they find them elsewhere, or would some 
individuals who are willing to work be cut off from food 
assistance?
    Ms. McCoy Wade. Thank you, Congressman, for the question. 
Yes, in California, we are anticipating the end of the waiver 
in parts of the state in about 18 months, and we are engaged in 
a lot of planning on that because we do think the rule would be 
very harshly felt by families. And it is very complicated, 
frankly, to administer and administer accurately.
    No, we do not have enough jobs and enough job training and 
enough job slots. We are currently very excited that about \1/
2\ of our counties currently have a voluntary E&T program, and 
as of October, eight more are coming on. So we are growing our 
capacity, but not nearly enough to meet the hundreds of 
thousands of folks in California who are working and are 
looking to improve their skills.
    Mr. McGovern. Now, some of my colleagues have called for 
TANF-style work requirements in SNAP. Could we accomplish the 
kinds of innovative programming that you provide under a TANF 
work requirement framework in SNAP, what do you think of that 
approach for the SNAP Program?
    Ms. McCoy Wade. Well, we are learning from our colleagues 
in Washington that the best approach really is to put skills 
and training at the front of the line, and give folks that work 
experience that allow them to have a long-term, life-changing 
path to better wages and a better career. So that is the model 
that we are going for. What is the assessment up-front, that 
case management, that barrier reduction that puts them on a 
path to sustainability.
    Mr. McGovern. Yes.
    Mr. Weber. If I may add to that, Congressman. And this is a 
perspective from a businessperson. I am a retired CEO of a 
couple of companies.
    I would rather hire somebody who wants to work, rather than 
somebody who is being forced to work.
    Mr. McGovern. Yes.
    Mr. Weber. I would also suggest from a taxpayer perspective 
that an investment in developing the skills and capacities so 
that people can get a job and sustain that job over time, is a 
very important consideration for this Committee.
    Mr. McGovern. Thank you. Let me ask another question. Ms. 
McCoy Wade, Mr. Weber, or Mr. Stillman. Low-income adults can 
face a lot of challenges to finding a job, or finding a job 
with advancement opportunities. Two of the biggest problems I 
hear that people have are with transportation and affordable 
child care. Without those in place, even skilled workers can 
find it hard to take and keep a job. Can you tell me if these 
are real concerns for your clients, and give us some examples. 
And SNAP E&T gives states Federal matching funds to provide 
transportation and child care for people in job training 
programs. Is that important and could we do more? What would 
you recommend to Congress on that front?
    Mr. Stillman. I could not recommend more highly the 
utilization of resources to address transportation issues. 
After housing, transportation is really the second highest cost 
barrier to a struggling family living in poverty or living on 
low wages. And it is really critically important that we 
consider those challenges. Even in a place like Seattle which 
has some wonderful public transportation, going north and south 
is great, going east and west is not. And so we have to take 
into consideration, even in a community like that where we can 
see the benefits of mass transportation, that there are 
transportation challenges that exist for our clients.
    I will finish by saying I was remiss in not talking about 
how many clients we have: 21,000 clients avail themselves in 
Washington State, and one of the ways we do address that is 
through having an integrated service delivery system. So the 
child care, for example, that you referenced, I completely 
agree that it is necessary for families to have access to child 
care, along with all the other supports. Fortunately, in 
Washington State, we deliver those services relatively 
seamlessly in an intake process that includes TANF, SNAP, child 
care, and even some of our Medicaid Programs. So we have the 
opportunity to interface with our clients in a single setting, 
and then plant the seed, if you are on TANF but leave TANF, 
don't forget there is SNAP E&T in your future.
    Mr. McGovern. Mr. Weber, Ms. McCoy Wade?
    Mr. Weber. Yes, thank you. I would concur with that. Let me 
explain that in Fresno, we have nine sites; six of them urban, 
three of them rural. Particularly, in the rural communities, 
transportation is really, really critical because the 
availability of jobs is constrained.
    As to child care, it is the single funding issue that we 
struggle with the most. It is a real problem.
    Mr. McGovern. Thank you. Thank you.
    The Chairwoman. Thank you. Congressman Benishek, you are 
recognized for 5 minutes.
    Mr. Benishek. Thank you, Madam Chair.
    Mr. Weber, I was kind of interested in this 
multigenerational thing of how you engage the whole family. 
What are you doing with the kids?
    That is the first thing that popped into my mind.
    Mr. Weber. Yes. When a family is enrolled with the Fresno 
Bridge Academy, we do two assessments. One assessment is of the 
head of household, to see what kind of vocational training, 
what kind of education they need. A lot of these people don't 
have high school degrees, so we have to do GEDs, and so on and 
so forth. Then we try to connect that to jobs that are 
available in the current economy. What are their aptitudes, 
interests, what vocational training can we deliver to them. The 
second assessment is of the family as a unit. What are the 
family's issues and needs? And with regards specifically to the 
children in the family, our focus is primarily on four 
indicators. Are they reading at grade level, are they doing 
math at grade level, are they getting exposure to the arts, are 
they showing up for class? If they are not, then we will work 
with them. We'll refer them. We have referrals. We work with 
175 different service providers in Fresno County to deliver all 
kinds of services to adults as well as to children.
    Mr. Benishek. Like making sure the kids get to school?
    Mr. Weber. We work to make sure that kids get to school. 
Let me explain, Congressman, that our first conversation with a 
family that has children is always about the children. It is 
about the children and how they are doing, because in the end, 
we have to motivate the adults in the family to want to work. 
And if you are going to motivate them to work, the best way to 
do that is by encouraging them to think about the future of 
their kids. And then you turn the conversation to how do we 
help you become the best possible role model for your children. 
That is our approach.
    Mr. Benishek. And that seems to work then?
    Mr. Weber. It works very well. More than 80 percent of our 
families are finding success.
    Mr. Benishek. These are the people that come to you though. 
They pretty much have to come to you?
    Mr. Weber. We call them and then invite them to an 
orientation meeting, and then explain what the program is. We 
ask them to make a commitment for 18 months. Now, we generally 
place them in jobs, most of them, within the first 6 months, 
but we stay with them because we want to make sure that the 
outcomes are sustained.
    Mr. Benishek. How many people, that you contact, end up 
participating in the program?
    Mr. Weber. It is a difficult question to answer because we 
get the contact information from the county. We make the calls 
and then oftentimes the numbers are no longer good, the people 
aren't there----
    Mr. Benishek. What about the people that actually show up 
for one visit, how many of those people end up participating in 
the program?
    Mr. Weber. About 77 percent of the people who come to our 
orientation meetings signed up.
    Mr. Benishek. Well, no, I appreciate your work in this, 
and, frankly, having a private-public partnership, to me, is 
really the way to go because with most of these comprehensive 
services, there are people in the community that are better 
attuned to helping those folks than the feds, frankly. So I 
really appreciate the work that you are doing, and the 
opportunity to learn more about it.
    So what is the obstacle for doing this more widely through 
the state? Is it simply the funding? Is most of your funding 
then coming from the E&T funds that are provided?
    Mr. Weber. We are funding-constrained. We think that we 
ought to be able to do what we are doing. We are currently 
expanding, well, we have expanded into a second county. We are 
going to expand into two more counties in October of this year.
    Mr. Benishek. So how much money exactly are you spending 
then in Fresno? What is the amount of your spending to do this 
program you are talking about?
    Mr. Weber. This is going to be probably a little 
extraordinary, but our cost per family is $1,800 per family 
over 18 months. The reason we are so cost-effective is because 
we access every possible service available to families through 
other organizations, through community colleges, through the 
ROP Programs, through the WIOA, through countless nonprofit 
organizations. One of our eight core principles is we don't 
duplicate anything that already exists. So we are very, very 
cost-effective, and that is the reason we are able to produce 
such a high return for taxpayers on the investment of taxpayer 
dollars.
    Mr. Benishek. All right, thank you very much, all of you, 
for your testimony today. And, Mr. Weber, I am out of time. 
Thanks.
    Mr. Weber. Yes, sir.
    The Chairwoman. Thank you. I recognize Congresswoman 
DelBene, for 5 minutes.
    Ms. DelBene. Thank you, Madam Chair. And thanks to all of 
you for being with us today.
    I get to brag a little bit about my state today because 
Washington State has really been a true leader in E&T programs. 
In May 2013, I introduced the Enhancing Employment and Training 
Through Education Act, a 3 year competitive grant fund to 
encourage states to provide targeted employment and training 
programs, similar to what we have had in Washington State. We 
had a very successful program called Basic Food Employment and 
Training, what we call BFET, and this bill was the basis for 
the SNAP E&T pilots that were in the farm bill.
    As many know, E&T programs differ widely in participation 
and success, and even at the height of the recession, 60 
percent of those enrolled in Washington's BFET Program found 
employment, and in one study less than \1/2\ remained on 
government assistance 2 years after the program. This is the 
kind of success that Washington State has produced, and the 
kind of success we are all hoping to see in these pilots. 
Helping people find good-paying, long-term employment in a 
high-demand industry is the best way to ensure that everyone 
has access to economic opportunities.
    And these investments we make not only have an incredible 
effect on our economy, but also on people's lives, so I thank 
you so much for all of the work that you are doing.
    Mr. Stillman, you talked a little bit in your testimony 
about this, but can you expand on what we have learned from the 
BFET Program, the original program, that informed the new pilot 
program that we have, RISE, and what you look forward to 
learning from RISE that we can use, going forward?
    Mr. Stillman. To reiterate just a bit, what we have learned 
from the original program is that community engagement matters, 
and the phrase that I used earlier, ``Having skin in the 
game,'' matters. So those are things that bring together that 
alchemical combination of local partnership, local educational 
partnership, local community-based organization partnership, 
employers and industries in a way that is completely different 
than a top-down-administered program. And it is really that 
opportunity that we are trying to leverage as we look at the 
experience of our clients in that prior program. Just because 
we are super proud of what we did before doesn't mean that we 
didn't take note of the, let's say, 35 percent or so of the 
clients who were still struggling within the program. And we 
looked at things like housing, we looked at the criminal 
justice involvement, we looked at transportation, and 
recognized that there are some things in common that we really 
need to focus our attention on if we are going to lift everyone 
up through that process.
    Just as a closing note, as your comments referenced, even 
during the post-recession time, we had some wonderful success. 
The last slide that I provided all of you shows a cohort of 
progression from that 2009 timeframe forward. And it is really 
building on that experience, building on what we have learned 
about the needs of families, the needs of individuals, whether 
they are ABAWDs or families, how do we deliver tailored and 
unique services that also align with sector needs, business 
needs, in a way that can help grow the entire economy and grow 
families.
    Ms. DelBene. And why do you think some states fail to make 
use of all their E&T funds, and what difference has this made 
for Washington State?
    Mr. Stillman. Boy, commenting on why other states won't 
take advantage of that is a challenge for me. Perhaps I should 
start by saying thank you, because in some odd way, the failure 
of other states to take advantage of that has meant that we 
have had more opportunity in some instances to draw down some 
additional resources. That is a sad commentary in terms of a 
loss. I would say, if I were trying to put on the hat of a 
state that hadn't done this, it is that sometimes we get caught 
up in simply trying to deliver services within a silo. We are 
going to do TANF, we are going to do SNAP, we are going to do 
child care, we are going to do Medicaid, we are going to do all 
of these things together, and we fail to have a view of the 
client across that set of systems, and really understand that 
life does happen to our clients and we need to be able to 
deliver those services in a much more braided way. But day-to-
day demands of a bureaucracy and service delivery can be 
extremely challenging and it can be very difficult to pull back 
and see that big picture.
    Ms. DelBene. Yes. Thank you so much. I am running out of 
time and so I yield back.
    The Chairwoman. Thank you. Mr. Crawford, you are recognized 
for 5 minutes.
    Mr. Crawford. Thank you, Madam Chair. I appreciate it.
    The culture today, we put an awful lot of emphasis on a 
need for a 4 year degree to be successful in this country, and 
unfortunately, we do that to the detriment of our youth. But we 
have a huge gap as a result in technical and vocational jobs 
that are good-paying jobs that aren't being filled. I am 
wondering how you, and this is to all of you, I am wondering 
how you are using E&T programs to meet the job needs within 
your state and communities in light of the gap in skills in 
vocational occupations. Anybody want to weigh-in on that?
    Mr. Stillman. So if I may, I would be happy to jump in. In 
my role at the Department of Social and Health Services, I have 
the advantage of sitting on the Washington State Workforce 
Board. As part of the Workforce Board, we have adopted not just 
college-ready but career-ready as part of our thinking, and it 
really speaks to that point that you brought up about 
vocational readiness, community college certificates, and other 
gateways or doorways to employment and to success. We need to 
be less narrow-minded, if you will, about how we prepare our 
students in middle school, high school, and even into 
apprenticeships and other non-4 year college settings. That is 
a critical part of what we need to do.
    Once again, by being part of a larger system and talking 
about this from the perspective of the individual and the 
family, we can see those opportunities and see where a single 
focus on a 4 year college education is really a disadvantage to 
this larger group of people.
    Mr. Crawford. Anybody else want to weigh-in on that?
    Ms. McCoy Wade. Sure. Just three comments, in California, 
certainly, one of the fastest growing components for us is 
vocational training and certificate training. That is 
absolutely a growth area for us. Second, we have a new 
agreement with the community college system in California to 
make sure the community colleges and E&T are a bridge. And 
third, by joining our WIOA folks at the table, the WIOA plan in 
California specifically says tailor to the local and regional 
job market. It is not a job to nowhere, it is a job to a job in 
your community. That is very much a core part of our planning.
    Mr. Crawford. Thank you. I appreciate that. One of the 
other things that we hear repeatedly, at least in my district, 
is the decline of soft skills in the workplace. I wonder if you 
might weigh-in on soft skills development possibly as a pre-
employment type of a workshop or something along those lines, 
because we hear that repeatedly from our employers because they 
feel like we can train this individual ourselves, but the soft 
skills are not being modeled appropriately. When we talk about 
mentorship programs or pre-employment, can you comment on that?
    Mr. Weber. Yes. You are absolutely right, we hear that 
repeatedly from employers in our area: we can train the hard 
skills, just give us people who will show up for work and so 
on. And they love people coming out of the Fresno Bridge 
Academy because they have already shown that they will show up 
for training, that they will have some motivation. And so that 
is why our people are sought after.
    Let me also address your earlier question. One of our eight 
principles at the Fresno Bridge Academy is what we call our ABC 
approach, and the ABC approach is get a job, then get a better 
job, and then get a career. We are talking about people often 
who don't have high school degrees, so they are not going to 
get 4 year degrees before they get employed. We want to get 
them into a job at a job that has upward mobility, and then 
continue to upgrade their skills so they get a better job, and 
all of this aimed towards a career. So we start from the family 
up. We start with what are their interests and aptitudes, and 
so on, so that this is going to stick and they are going to 
want to continue to advance their skills.
    Mr. Crawford. Excellent. Mr. Anderson, did you want to 
comment on that?
    Mr. Anderson. Yes. In Georgia, we have never focused on a 4 
year degree. We understand a lot of these folks, and as Mr. 
Weber said, they don't have high school diplomas. So we 
developed a contract with our North Georgia Goodwill 
Association, and they have helped with ten career pathways that 
help people get certificates, and some of those include 
advanced manufacturing operations, production technicians, 
electronic assembly and soldering, floor installation, 
custodial, forklift training, general construction, and highway 
safety, those types of jobs that people don't have to have 
degrees for. So we haven't ever focused on 4 year degrees 
because we believe there are jobs out there, if they are the 
right kind of job, that can get them self-sufficient quickly.
    Mr. Crawford. Excellent.
    Mr. Anderson. Yes.
    Mr. Crawford. I appreciate it. And, Mr. Stillman, I will 
give you the last 20 seconds.
    Mr. Stillman. Thank you. Well, I would like to point out 
that we sometimes think of things as being sequential: get a 
job, I don't need any more help. And so in relation to your 
question about soft skills, one of the things that we try to 
focus on is problem resolution, even after employment, so that 
we can offer that sort of coaching, that, ``Hey, you didn't 
show up to work today;'' ``Hey, you are not getting along with 
a coworker today; how can we help you,'' how can we help you 
keep that job. It isn't just getting a job, it is keeping that 
job, and then building on that success in order to achieve that 
long-term career goal. So you are exactly right to wonder about 
the need for it, and it is important that we then support the 
resources we need to make that happen.
    Mr. Crawford. Thank you. I appreciate it. I yield back.
    The Chairwoman. Thank you. Mr. Costa, you are recognized 
for 5 minutes.
    Mr. Costa. Thank you very much. Again, I want to thank the 
Subcommittee because we are really talking about setting the 
groundwork here for the next farm bill, and how we try, 
hopefully, to come together in a bipartisan effort as we look 
at reauthorization of the SNAP Program and the WIC Program, and 
this testimony is important to setting that stage.
    When we first looked at reforming welfare in the mid-1990s, 
I remember very clearly in California that we were struck on 
the issue of employment and training, and how many of the folks 
that we were trying to help didn't have the necessary 
educational standards. They didn't have the high school 
diploma. And so we had to spend the time providing that 
education so that they could then step into the training, so 
that they could then have the opportunity for meaningful job 
placement.
    To Mr. Weber and Ms. McCoy Wade, I know that the complete 
evaluation of the employment and training program will not be 
finalized before the next farm bill, but we will have some 
preliminary data that we can refer to and look to expand the 
program. But given that you are already producing these very 
good, positive, significant outcomes, shouldn't we be investing 
now in programs that have been shown to generate such positive 
social and fiscal benefits?
    Mr. Weber. Well, Congressman Costa, the answer in short is 
yes. Most of us have read Moneyball in Government, and we want 
the rigorous kind of analysis that is being made available 
through the E&T pilots, but those results are not going to be 
reported in full until 2021.
    Mr. Costa. Well, and that is part of the challenge because 
we are going to be putting together, we hope, in the next year, 
18 months, the farm bill, and a lot of predeterminations are 
going to be made.
    Mr. Weber. So we know that there are lots, lots of people 
out there who want the kind of assistance that we can provide, 
and so anything that can be done to provide added funding, we 
are not constrained by people's interest in this program we are 
constrained by funding.
    Mr. Costa. All right.
    Yes. Ms. McCoy Wade, because a couple of other questions I 
want to ask before my time expires. No, go ahead.
    Ms. McCoy Wade. I was just going to add that we do----
    Mr. Costa. Did you want to comment on this?
    Ms. McCoy Wade. We do know something about what works in 
job training, both from the Bridge's Academy work before the 
pilot, but also from our TANF Programs and from the Recovery 
Act funding of subsidized employment, in particular, giving 
employers extra incentive to take a chance on some of these 
employees with limited history, more barriers, maybe some soft 
skills challenges. There are things we do know and can invest 
in before.
    Mr. Costa. In your department, looking at the Fresno Bridge 
Academy and doing evaluation, obviously, it is a very 
extraordinary program that improves lives and gives an 
opportunity to become independent. Based on your calculations 
that the $5.50 is being returned to the taxpayers for every 
taxpayer dollar invested, how much of that savings do you think 
in the outlays for SNAP benefits takes place?
    Mr. Weber. The direct benefits out of the $5.50 to the SNAP 
Program is $1.51: $1.83 is attributable to the fact that people 
are now paying income taxes, whereas before they were not. And 
the rest of it is a combination of a number of different 
factors, including, for example, the benefit of having a GED 
and what that means in terms of lifetime earnings and taxes 
paid, and so on.
    Mr. Costa. We obviously think that you are doing a terrific 
job, but when we look at, clearly, in Washington State, you 
have done some very groundbreaking work, I believe, but how 
much of this is, in terms of the firsthand evidence on the 
program and improving lives of some of the poorer families in 
our communities, is this program being able to be replicated?
    Mr. Weber. Well, we started, as you know, Congressman, in 
two locations in Fresno. We are now in nine locations within 
Fresno County, one in San Joaquin County, two coming up, one in 
Napa County, and one in Madera County. So it is very 
replicable. It is very scalable. We just started the E&T pilot 
in January of this year. We have already enrolled 1,563 
participants in the E&T pilot this year.
    Mr. Costa. Mr. Stillman and Mr. Anderson, there is a little 
bit of time left, but what advice would you give the Members of 
this Subcommittee and the full Committee as we look towards 
reauthorization next year in the farm bill as it relates to the 
SNAP Program and the WIC Program?
    Mr. Stillman. Well, I would keep it simple. Let's not break 
what is working.
    Mr. Costa. Yes.
    Mr. Stillman. Let's focus our attention on some additional 
outcome-type orientation. I know there were questions asked 
earlier about things like a work participation rate. As the 
TANF side of the house, it makes me cringe to think about the 
output measures that are associated with that, but I do 
understand the need for public accountability. So let's 
identify some outcome measures that we can all agree to. 
Further integration with the workforce system, particularly 
where we can rely on intermediaries, whether it is the Fresno 
Bridge Academy, Seattle Jobs Initiative, where we can use 
intermediaries that are at the community level to emphasize how 
we deliver those services. If you can help build an 
infrastructure that influences us, motivates us, pushes us in 
that direction, and still leaves us some room for local 
creativity, that is what I would urge you all to consider as 
you move forward.
    The Chairwoman. Mr. Anderson, can you answer that in 10 
seconds?
    Mr. Anderson. I agree with Mr. Stillman.
    The Chairwoman. Perfect. There you go.
    Mr. Costa. My time has expired. Thank you, Madam Chair.
    The Chairwoman. Thank you. The chair recognizes Mr. Yoho, 
for 5 minutes.
    Mr. Yoho. Thank you, Madam Chair. And I appreciate 
everybody being here. This is such an important topic, as we 
know, as we go into the next farm bill. And we need to take 
what is working well, refine it, and make it work better.
    Mr. Weber, the Fresno Bridge Academy said it is an 18 month 
program, it is self-enrollment. How do people sort themselves 
out? Is it by want?
    Mr. Weber. I am sorry, I didn't get the last part of your 
question.
    Mr. Yoho. How do they determine to go into that? Are they 
encouraged to go into that----
    Mr. Weber. Yes. We basically recruit them and we sell the 
program to them. In the end, they have to decide that they want 
to make this difficult transition. It is very clear to us that 
we don't have to do the difficult work of navigating the hard 
pathway from where they are to where they can be.
    Mr. Yoho. So these are the more motivated people that want 
to improve their lives.
    Mr. Weber. There is a self-selection process that is 
involved in this thing, yes.
    Mr. Yoho. Are you finding a certain age group demographic? 
Is it younger families, is it a family, per se, a nuclear 
family? And I don't want to define a nuclear family for 
anybody, but it is a family structure that works for them, or 
is it a single individual, male or female?
    Mr. Weber. I would suggest to you that it is all over the 
place.
    Mr. Yoho. Okay.
    Mr. Weber. It is all over the place. The average age of our 
participant is 35 years, but it ranges all the way from very 
young----
    Mr. Yoho. As you are screening people to go into the 
program, or that decide to go into that program, what traits 
are you finding people are looking for? Do they have certain 
people skills or technical skills, or is it just a strong 
desire or want to change their life?
    Mr. Weber. I think it is motivation. It is a strong desire 
to change their life. Now, I should tell you that a lot of the 
people that we talk to are people who are deeply depressed, 
they don't like the conditions of their lives. And so it is not 
like they are chomping at the bit to do something, they are 
desperate. This is the last line of assistance that they have 
and they are desperate to try to change their lives. Primarily, 
that is true where they have children. And it is mostly----
    Mr. Yoho. I can remember those days because I was in that 
lot, and I didn't want to stay there.
    Mr. Weber. Yes.
    Mr. Yoho. You have 30 percent of the people that come out 
of that, 30 percent become self-sufficient in an 18 month 
period of time.
    Mr. Weber. That is correct.
    Mr. Yoho. That seems incredibly successful.
    Mr. Weber. It is.
    Mr. Yoho. And then you have expanded to how many different 
locations, nine, did you say?
    Mr. Weber. We have nine sites in Fresno County. We are 
opening up three sites in other counties: one we have already 
opened, two are opening in October.
    Mr. Yoho. And when you say it costs you $1,800 per 
graduate, that is the cost in your program. Where does that 
funding come from?
    Mr. Weber. That is SNAP E&T funding 100 percent funding, as 
well as some 50/50 funding.
    Mr. Yoho. SNAP E&T.
    Okay, and then, let's see, blow this up here. You were 
talking about, Mr. Weber, I wanted to ask you another question 
here. In your testimony, you mentioned the Bridge Academy 
offers a wage subsidy for the employers. Can you go into more 
detail about how and why Academy is doing this, and I guess the 
big thing is, is providing subsidies sustainable long-term?
    Mr. Weber. Yes. Good question. So let me first point out 
that the results that I have reported today are for the 
traditional Bridge Academy services that did not include wage 
subsidies. Under the E&T pilot, we have requested authorization 
to offer wage subsidies. We have requested that because, 
particularly with some of the hardest to hire people, we have 
to compete with TANF people who do offer subsidies. And so that 
was an issue for us. Having said that, the wage subsidies that 
we are offering are much lower than those of TANF because, 
quite frankly, we are highly motivated by the notion of doing a 
program that is very cost-effective, and that produces good 
returns for taxpayers, and so we are driven by cost-
effectiveness.
    Mr. Yoho. Right. Boy, and it sounds like you are doing a 
good job on that. And at 18 months, I assume those subsidies 
are gone or they are starting to wean off.
    Mr. Weber. The subsidies are gone with 6 months.
    Mr. Yoho. Okay. And I think that is a good investment.
    Mr. Anderson, out of the 6,100 people that applied for your 
program, and it went down to 2,100, what accounted for only the 
30 percent, roughly, participation? Again, is it the motivation 
of the individual?
    Mr. Anderson. It is the motivation of the individual. We do 
try multiple times to get the individual to come in for an 
orientation and talk with them. Three letters, several phone 
calls to try to get them in. And those that just don't respond 
are the numbers that we reflected.
    Mr. Yoho. And then so many times you get in a meeting like 
this or you hear in the news that one group wants to take 
benefits from somebody else. We don't want to do that, we want 
to empower the people to let them know they are needed. We need 
people. Everybody working, we want to empower their lives so 
that they have the quality life that they can achieve in this 
country. As you guys have already given us a lot of information 
as we talk to people, that is really where we want to go and 
empower people to get in, move up, and get out.
    And so I appreciate you all being here. Thank you for your 
time.
    The Chairwoman. Thank you. Mr. Ashford, you are recognized 
for 5 minutes.
    Mr. Ashford. Well, thank you, Madam Chair.
    I agree, and thank you for being here. This is incredibly 
important. I spent a number of years as an executive director 
of the Housing Authority in Omaha. We faced these issues every 
day, and I applaud all of you for what you are doing.
    We discussed, in this Committee, on various occasions the 
idea that how far we take people to a certain point, the cliff 
occurs, and they are afraid to jump off because of fear of 
losing security, food or housing, or child care, whatever it 
is. And that seems to be the challenge we all face on the 
Federal level is what can we do to mould Federal law.
    I have spent some time in Washington State and in my years 
in the Nebraska Legislature, I worked quite a bit on juvenile 
justice reform, and have been incredibly impressed by the 
holistic approach that Washington State takes to evidence-based 
remedies for some of these juvenile justice issues. I apologize 
if this has been asked or answered, but I guess I would like to 
know, again, can we just go down the line, starting with Mr. 
Stillman. If you were to say to me what changes in Federal law 
and the farm bill should we make to make this more commonplace, 
this attitude of breaking down the silos, make it more 
commonplace and incent states, because certainly our State of 
Nebraska, we should be accessing the Federal funds that are 
available to get into to make these programmatic changes. We 
are not doing that. So in some sense, Nebraska needs to take 
the initiative. But what changes in Federal law would you, or 
could you see the Federal Government doing to ease this 
process?
    Mr. Stillman. One thing I would say immediately, and that 
should be structurally obvious from the answers that we have 
given up until now, has to do with the challenge that we face 
when we are working within our silos. We are having to, as the 
Bridge Academy does, reach out and talk to people after they 
have been to one place and another place and another place. And 
although the term data sharing is overused these days, what we 
need to focus on are the barriers to a common intake process 
where our clients, our customers, are not expected to go from 
place to place to place to place in order to participate in 
these programs. That onus is on us, but I would say it is also 
on you to identify those places where, because of the funding 
strains, because of the private information restrictions that 
are built into Federal law, we are really hampered by the 
opportunity to seize the moment when the clients are in front 
of us. So that would be one thing that I urge you to think 
about carefully, and would be happy to talk about more in-depth 
at some other time.
    Mr. Ashford. Thanks, Mr. Stillman. Mr. Anderson?
    Mr. Anderson. Yes, Congressman, thank you. One of the most 
important things for us is that we don't make changes to 
Federal law that will ultimately hamper the states' effort to 
do this. Georgia, specifically, is working with the Seattle 
Jobs Initiative Group, I don't know if you are familiar with 
them, to try to find ways to get non-state and non-Federal 
dollars to support the 50/50 match on moving the employment and 
training program forward, to try to put more people into jobs 
and long-term self-sufficiency. So we are already moving in 
that direction in Georgia to try to look at that. But, the 
biggest thing, and I want to bring up what Mr. Stillman had 
said before, it is extremely important to try not to mirror the 
work participation rate that is in the TANF Program and the E&T 
Program because if you look at what is going on, even though it 
is a great goal and it is a great objective, there are a lot of 
states that have trouble meeting those goals because each 
individual is different, each individual's needs are different. 
They have different barriers that may have to be addressed, and 
those are kind of hard to get to in a statewide number.
    Mr. Ashford. Thank you. Mr. Weber?
    Mr. Weber. Congressman, as you know better than I, there is 
no absence of antipoverty programs in the Federal Government. 
The problem is that most of those programs are very siloed. 
They are very fragmented. And so anything that can be done that 
encourages innovation, that is driven from the family up, that 
is to say where public-private partnerships can collaborate on 
outcomes-oriented approaches such as have been described today, 
would be a tremendously beneficial thing to do.
    Mr. Ashford. Thank you. Ms. McCoy Wade.
    Ms. McCoy Wade. And I would echo what has been said about 
alignment between programs, and the right kind of outcomes and 
the right kind of public-private partnerships, but just really 
add that subsidized employment is a missing piece here because 
we want people to be in real jobs with real work experience.
    Mr. Ashford. Right. Thank you. This is very helpful. Thank 
you, Madam Chair.
    The Chairwoman. Thank you. The chair recognizes Mr. Gibbs, 
for 5 minutes.
    Mr. Gibbs. Thank you. Thank you, Madam Chair. Thank you for 
being here today, supporting good people finding meaningful 
work, and supporting their families, and self-respect, and all 
that.
    Recently, in my district I held a roundtable discussion on 
possible SNAP reforms, and we had all different types of 
entities in there, and one thing that came out that was people 
that work with SNAP recipients, they talked about the trouble 
that a lot of their constituents have with literacy programs, 
budgeting benefits, and handling their finances in general. 
Does any of your state E&T Programs include financial literacy 
training? If so, what kind of results have you seen? So that is 
open to anybody who wants to answer. Mr. Weber, I see you 
getting ready.
    Mr. Weber. Yes, absolutely. It is critically important. A 
lot of the people that we deal with don't even have bank 
accounts. So we have partnerships, for example, a partnership 
with Wells Fargo in Fresno County where they provide financial 
literacy. And, of course, it is in their best interests because 
then they are encouraging people to set up bank accounts with 
them. Maybe shouldn't have mentioned that in light of the 
recent history with Wells Fargo, but nevertheless, there it is.
    Mr. Gibbs. Anybody else want to comment, Mr. Stillman?
    Mr. Stillman. I would just echo what was said before. It 
really is life skills, whether they are about literacy or 
financial literacy, are really critical to that. It is about 
building the foundational skills that you need to move ahead, 
to plan, and to have enough bandwidth to withstand some crisis 
down the road. And so talking about building that is really 
important.
    Mr. Gibbs. Okay. Mr. Stillman, there are a lot more 
organizations which seem to work in this area. As to 
duplication, with all the different organizations that you deal 
with, how do you coordinate the co-enrollment with various 
programs so you don't have duplicating services? And we have 
heard a little bit about the silo issue, how do you coordinate 
so that we get the most bang for our buck and the most 
efficiencies?
    Mr. Stillman. Well, we are very fortunate in Washington to 
have a fairly robust information technology backbone, and don't 
ask me what it stands for, eJAS, and it is an IT backbone that 
allows multiple participants in the process, meaning our Labor 
Department, our State Board for Community and Technical 
Colleges, our own staff, to essentially communicate across the 
system. So first we start with a comprehensive evaluation to 
understand what our clients need. We do that evaluation on a 
routine basis to try to update what is needed for that family 
or individual, and then have this backbone system to be able to 
properly communicate. And that is really critical among all 
these silos that we do more than just an every-now-and-then 
interaction.
    Mr. Gibbs. So we want to make sure that we have programs in 
place, the incentives there, so that we don't have the 
duplication when we look at the next farm bill, I guess.
    Mr. Stillman. Yes. And if we are all using the same 
measures and the same system to communicate with, we can drive 
out some of that duplication.
    Mr. Gibbs. Also, Mr. Stillman, in your testimony, 
employment rates have increased to 61 percent over the last 2 
years. What accounts for the 40 percent of the participants 
that didn't gain employment? What is keeping them from getting 
a job?
    Mr. Stillman. Well, the many tens of thousands of people 
who participate are all throughout the state. And so our 
communities are not all the same. There were questions earlier 
and testimony referencing areas of high unemployment, so 
Washington is blessed to have mountains and oceans and really 
good stuff, but we also have big urban settings and then many 
more rural settings where we have high unemployment rates. So 
some of that lack of job attachment is really due to the fact 
that there aren't as many opportunities out there for 
individuals to----
    Mr. Gibbs. That leads me to my next question. My next 
question was, in rural counties there might not be the job 
opportunities, and you just stated that. How does it look when 
we are looking at availability of opportunities to help these 
recipients in job training programs? Do you kind of look in 
their area, in their locale, what is available and try to 
tailor those job training programs to what is available? 
Because it would be different in Washington State, I know there 
is a big difference between the eastern part of the state and 
the western part of the state, so do you kind of look at that, 
at what is available, and tailor those job training programs to 
that locale?
    Mr. Stillman. We do. And, in fact, that is one of the 
reasons that the utilization of the community-based 
organizations and the community colleges is so critical, 
because each of those colleges in Washington are centers of 
excellence around particular industries or particular sectors. 
Focusing on the need of that particular area, whether it is 
water issues, salmon restoration, aircraft and other 
manufacturing, we have these different centers where we are 
really trying to build the capacity not only of the 
individuals, but build the capacity of the community to support 
the employers that have made a decision to invest in that local 
community.
    Mr. Gibbs. Good. Thank you. I yield back.
    The Chairwoman. Thank you. The chair recognizes Ms. Lujan 
Grisham, for 5 minutes.
    Ms. Lujan Grisham. Thank you, Madam Chair. And I want to 
thank the panel. I hope it is clear that this Committee, in a 
bipartisan effort, really wants to make these benefits work in 
a way that assists people to move out of poverty. I am in the 
unfortunate situation at every one of these hearings to, if you 
don't already know, remind the panel that New Mexico finds 
itself in a really difficult situation where we have some of 
the highest poverty rates, highest food insecurity rates, 
highest unemployment rates now in the country. And given that 
oil and gas continues to be unstable and low, which is, in 
addition to ag, one of our large economic sectors, it has been 
really challenging.
    I used to work in state government, and one of the most 
successful programs that we ran at the time was an employment 
program for older folks. So it is the Older Workers' Program, 
we sort of reinvented it, much in the way, Mr. Stillman, that 
you describe your partnerships and the successes in Washington. 
The key is that we were very careful about mandates versus 
voluntary aspects, recruitment and training of participation, 
and a real productive relationship with the economic sector and 
the business sector. Now, that has fallen apart in the state, 
but I am interested really, do you have advice, twofold, first, 
for states that find themselves in the situation that New 
Mexico is in, and second, add to that overarching challenge 
that it is clear and public knowledge that New Mexico has been 
mismanaging its SNAP Program for decades, that is has taken 
decades to get a Federal investigation, that a district court 
has now required an independent advisor, and the states' real 
effort here with the threats of losing the administrative match 
for SNAP is still to go after beneficiaries. And there is no 
doubt in my mind that there are some issues with beneficiaries 
and fraud, small, but they pale in comparison to mandatory work 
requirements, no investment in education, employment training, 
no incentives, no policies in the farm bill that really put 
states both in a proactive and an accountable mechanism to move 
people off poverty. What advice do you have for me and my 
state?
    Mr. Stillman. That is a tall order. Let me start with that.
    Ms. Lujan Grisham. That is why they have a tall 
Congresswoman.
    Mr. Stillman. I want to go back to the client. I think that 
is where we all need to begin. We need to go back to the 
family, go back to the individual and understand where they are 
coming from, and ask ourselves whether the service delivery 
that we have today is meeting them where they are at, as 
opposed to trying to, I don't know, put that proverbial square 
peg in a round hole. So that would be the place where I would 
begin.
    I also referenced earlier how important it is in Washington 
that we do integrated service delivery, meaning that we are, 
again, looking at the entire client. As they present themselves 
to us, we are not trying to look at this piece of data or that 
piece of data, we are really trying to dig a little bit deeper. 
Yes, we need your demographic information, but we need to 
understand the circumstances of your children, whether there 
are mental health or developmental issues that are brought to 
bear, and the design an intervention that is about that need, 
about that need at that time, and then follow through.
    Ms. Lujan Grisham. I actually completely agree with you. 
How would you envision that getting into policymaking that 
creates the right balance so that, for example, if you have 
mandatory participation in these programs, sounds great, right? 
If you say you will lose a benefit, that is an accountability 
measure, if you don't come to an appointment, but I have two 
developmentally disabled children, twins, with an under-funded 
special education component, a 10 year wait on the DD waiver, 
and they are sick, and I can't get to that appointment because 
I am constrained, and my choices are leaving those 
developmentally disabled children alone at home sick, or 
meeting that missed appointment requirement, and the fact that 
most states do not have integrated systems for universal 
applications, triggers to make sure that if you are eligible, 
even though we have said that in Federal law, if you are 
eligible for this Medicaid benefit, then you are eligible for 
these other benefits. And yet we are fighting. And there are 
many court actions around the country saying, is your state 
really doing that. What is the right incentive to make sure 
that states are moving in the direction that Washington is? I 
mean what can this Committee do to assure that that becomes the 
standard bearer in the farm bill?
    Mr. Stillman. Well, you mentioned earlier that you are not 
a fan of coercive actions against clients. At least I 
interpreted your opening statement in that regard. And trying 
to coerce states to do things is equally as challenging. It is 
an organic system. We are people too. So forcing us to do 
something is not the right answer. Incenting us to do things, 
for example, that family that you referenced, they probably 
have a medical home. Those kinds may have the opportunity to go 
to an education location or a child care, a respite location. 
And if there are places where that family is going already, 
then let's look at that opportunity to bring in and bridge 
service deliver there, and not expect Mom to do ten things when 
she can hardly do one thing to help make sure those kids are 
safe. That is how I would go about trying to address that 
problem in your state.
    Ms. Lujan Grisham. And I am out of time and I really 
appreciate that. And I know that the Chairwoman has really 
worked on cliff issues, but you have just described that you 
would have to choose between those benefits in most states. 
Thank you.
    The Chairwoman. Thank you. The chair recognizes Mr. 
Thompson, for 5 minutes.
    Mr. Thompson. Madam Chair, thank you so much for hosting 
this hearing. Thanks to each member of the panel for bringing 
your expertise here.
    I wanted to follow back around on the employment and 
training components of SNAP. We have so many families, so many 
people who are living in poverty and find themselves in need of 
support. And, quite frankly, I see employment and training as 
an exit ramp, an exit ramp out of poverty. Many of our poverty 
programs have almost been like anesthesia; it is meant to make 
you feel more comfortable living in poverty versus providing an 
off ramp.
    And so I am pretty pleased that later today, this 
afternoon, we will have on the floor a bill that I have been 
working on for a number of years, it is H.R. 5587, 
Strengthening Career and Technical Education Training for the 
21st Century Act. I wanted to share with you just a couple of 
the bullets of that and get your assessment, what you think 
about whether this is an improvement, it is a reauthorization, 
but it is really a modernization of the Perkins Act. I think it 
is a transformation of it. Whether, in your assessment, whether 
this will help the types of people who you are working with 
each and every day, in terms of employment and training related 
to SNAP. This change provides a workforce alignment. It 
actually brings business and industry to the table so that when 
we provide training, at the end of the day it is not just 
completing education, it is a family-sustaining job that is 
there. It is really focused on high-wage, high-demand positions 
that we know are out there in every community, but there is a 
skills gap between folks who need a job or a better job, and 
those employers that need that number one asset that they have, 
which is a qualified and trained worker.
    There is easier access to the dollars for states and for 
the districts, for the providers of this training. Quite 
frankly, it reduces the application bureaucracy and 
requirements to facilitate that. I will be honest with you, 
there is less Washington and there is more state and local 
level, closer to the people who have the need, in terms of 
authority and decision-making. And it does push career 
awareness down into the early middle schools, which I know we 
have a lot of kids that are being served, but this is an 
investment for the future, I guess.
    I appreciate, in the time I have left, hearing from you of, 
does this sound like we are on the right course for this vote 
this afternoon?
    Mr. Stillman. So I have to say that I am not as familiar 
with the specifics of the bill, but the principles that you 
have laid out seem very sound to me. I think that any time I 
can help you solve a problem, that helps me solve my problem, 
it is that classic win-win. And so with employers and industry 
at the table, articulating their needs in a way that we can 
advance the interest of our clients to fulfill those needs, 
clearly, that is a win-win.
    I will say that high-wage and high-demand jobs are 
relatively few in number in contrast to the very large number 
of individuals that participate in SNAP, even in our TANF 
Program. So sometimes that seems like the nirvana of where we 
want our families to go, and we have to remember that we have a 
large number of families in our communities that need some very 
basic attention before they get to the top.
    Mr. Thompson. Right.
    And the hope is this restores all the wrongs on the ladder 
of opportunity, that we all start at the bottom and climb our 
way up.
    Mr. Stillman. I couldn't agree with you more.
    Mr. Weber. Congressman, from what I have heard, and again, 
I am not familiar with the bill, but I would strongly support 
the principles. We all have to understand that addressing 
poverty starts with the families, and it starts with connecting 
them to employment opportunities that are available in their 
local community. This is something that we don't know sitting 
in Washington. We know it locally. And then there is a question 
of connecting those two pieces. What is the training that we 
need to provide to these people, both in hard kills and soft 
skills, to get them from here to there. And so what you are 
describing, would be very helpful in that direction.
    Mr. Thompson. Mr. Anderson?
    Mr. Anderson. I agree with both of my fellow panelists on 
this one, but as a principle, the more you allow states to 
provide input and what works for their state is certainly 
welcome news for our state.
    Mr. Thompson. All right. Thank you everybody. Thank you, 
Madam Chair.
    The Chairwoman. Thank you. The chair recognizes Congressman 
Moolenaar, for 5 minutes.
    Mr. Moolenaar. Thank you, Madam Chair. And I want to thank 
all of you for being here and your testimony. And I came in at 
the tail end. I had another committee meeting. But I know that 
you had spoken about some of the work you do partnering with 
different community organizations, community colleges, the 
private-sector, and I just wondered if you could be more 
specific in terms of how those partnerships work. Is it 
something where you provide the funding, they provide a 
service, is there a shared responsibility, and how do you reach 
out to the different organizations? I would welcome any of your 
input.
    Mr. Weber. Sure.
    Mr. Moolenaar. Mr. Weber.
    Mr. Weber. Thank you, Congressman. We started the Fresno 
Bridge Academy in 2010 with 14 service providers, all of which 
had their own sources of funding to provide some of the 
services the families needed. Today, we are at 175 service 
providers. With one exception, they all have their own sources 
of funding.
    What has happened in the war on poverty in the last 52 
years is we have all of these siloed programs. They come down 
on silos from Federal Government. They tend to remain in silos 
coming down from the state government, and frankly, even at the 
local agency level, at the local government, they tend to be 
compliance-oriented.
    What needs to happen is you need to start from the family 
up, figuring out what it is that is needed and then making the 
connections to these families.
    So the single most important role that we play in the 
Fresno Bridge Academy is we have what we call a career and 
family navigator that is assigned to a family from the day that 
they enroll in the program until they graduate from the program 
18 months later. The role is to help them develop an 
individualized family plan, connect them to service providers, 
and then support them as they get on the on ramps to the 
pathway that they have to traverse, and very, very importantly, 
help bolster their confidence as they traverse the pathway, 
because for a lot of them poverty is hard. They have been beat 
down pretty hard. And so, it is amazing to see their self-
confidence grow as they get their GEDs, and as they complete 
their vocational training, as they get into their first job, 
and so on. So that is the way we do it. The one exception is we 
have a contract with our economic development corporation to 
help us place our graduates with companies that have 50 or more 
employees, because they have the relationships with those 
companies.
    Mr. Stillman. And----
    Ms. McCoy Wade. Let me just briefly telescope out. So the 
hub of the program is with the SNAP Program, and in our case in 
California, the county and some cases with the state, and in 
those counties to respond to the needs of the employer market 
and the employee population, you often engage a range of 
contracts with your community college, with your Office of 
Adult Ed., with Goodwill industries, with a prisoner re-entry 
program that is targeted, and all of those folks are bringing 
matched dollars to the table to match with the SNAP E&T. But 
you have a diverse portfolio of services to serve, again, match 
your employees with your employers. So that is how we 
absolutely rely on the public-private partnership to be locally 
tailored.
    Mr. Stillman. And in our state, one of the things that I 
think we have done a little bit differently is through our 
employment pipeline, identified medium and large employers that 
have high turnover and moderate and high jobs. So I won't name 
names, I didn't ask them ahead of time about that, but 
essentially, look at turnover, and look at that cost center 
that employers are experiencing. It is expensive to hire, 
train, hire, train, hire, train. So how might we help screen, 
how might we help train in a way that we use Federal and state 
resources, local community resources, to help that employer 
with their sustained need for employment, and then deliver job-
ready employees, and then stay with them as their employment 
continues so that they can not only get that first job, but get 
a better job.
    And we have to look at some unique industries. People might 
not think of call centers as an industry, but there really is 
an industry sector there that goes all the way up to the 
Federal Government, having some pretty decent jobs in call 
center-like settings where, if we can help a person start out 
at a low level and work their way through that, developing good 
customer service skills, good problem-solving skills, they will 
have a career that is meaningful.
    Ms. McCoy Wade. And one example to add is a major hospital, 
which also has a nice administrative ladder, a lot of clerical 
entry, but then a real career ladder there for folks, and a lot 
of slots.
    Mr. Anderson. And in Georgia, part of what we have done 
with this grant is look at job forecasting and job marketing 
across the state to see what jobs are coming up and available, 
and we are actually doing assessments of the individual to see 
if they might fit that criteria for any of those jobs, and 
actually going through and asking them the questions and doing 
a systemic way of finding out what job will be best for them. 
So that is part of what we are looking forward to in the 
outcomes of our grant.
    Mr. Mooelnaar. Okay, thank you very much. Thank you, Madam 
Chair.
    The Chairwoman. Thank you. I want to thank the witnesses 
for being here today. I think that this was an amazing amount 
of information that continues to point us in the direction of 
moving forward and continuing to always look for ways, even 
outside of the box, to continue to shape and mould these models 
that we are looking at. I have learned so much listening to you 
all today, and I really appreciate it. And I think that it also 
gives us, for the first time, good evidence-based research 
coming right out of your areas, the states that you represent, 
which is going to be incredible for the days ahead. So I just 
want to thank you for your remarks. Thank you so much for 
indulging us today.
    Under the Rules of the Committee, the record of today's 
hearing will remain open for 10 calendar days to receive 
additional material and supplementary written responses from 
the witnesses to any question posed by a Member.
    This hearing of the Subcommittee on Nutrition is adjourned. 
Thank you.
    [Whereupon, at 11:34 a.m., the Subcommittee was adjourned.]


 
               SUPPLEMENTAL NUTRITION ASSISTANCE PROGRAM

  (THE PAST, PRESENT, AND FUTURE OF SNAP: OPPORTUNITIES FOR IMPROVING 
                            ACCESS TO FOOD)

                              ----------                              


                      WEDNESDAY, NOVEMBER 16, 2016

                  House of Representatives,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Committee met, pursuant to call, at 10:00 a.m., in Room 
1300 of the Longworth House Office Building, Hon. K. Michael 
Conaway [Chairman of the Committee] presiding.
    Members present: Representatives Conaway, Neugebauer, 
Lucas, Thompson, Gibbs, Crawford, Gibson, Benishek, Walorski, 
Allen, Bost, Abraham, Moolenaar, Kelly, Peterson, David Scott 
of Georgia, Costa, Walz, McGovern, DelBene, Vela, Lujan 
Grisham, Kuster, Nolan, Bustos, Aguilar, Plaskett, Adams, 
Graham, and Ashford.
    Staff present: Caleb Crosswhite, Callie McAdams, Haley 
Graves, Jadi Chapman, Matt Schertz, Paul Balzano, Scott C. 
Graves, Stephanie Addison, John Konya, Lisa Shelton, Liz 
Friedlander, Matthew MacKenzie, Nicole Scott, and Carly 
Reedholm.

OPENING STATEMENT OF HON. K. MICHAEL CONAWAY, A REPRESENTATIVE 
                     IN CONGRESS FROM TEXAS

    The Chairman. Again, Rob, thank you for those long years of 
service to our Committee, to Congress, and to the people. We 
appreciate it.
    So with that, this hearing on the Committee on Agriculture, 
entitled, Past, Present, and Future of SNAP: Opportunities for 
Improving Access to Food, will come to order.
    Mr. Neugebauer, will you open us with a prayer?
    Mr. Neugebauer. Thank you.
    Father, we just come before you today, and to praise you 
and thank you for the gracious and loving God that you are. 
Father, we thank you for the opportunity that you give us to 
live in this United States of America. Father, there are so 
many challenges, both here in our country and around the world, 
and I pray for wisdom for all of those that are in authority, 
that you have put in authority, that they would have the wisdom 
and the courage and the strength to make the decisions that 
make this world and make this country better. We thank you for 
the families represented here today, and we ask that you 
continue to bless our great nation. In your son's precious name 
we pray. Amen.
    The Chairman. All right, thank you.
    Over the course of the 114th Congress, we have heard from 
55 witnesses at 15 different hearings in our series on the 
Past, Present, and Future of SNAP. We have heard from witnesses 
discussing their experiences as SNAP recipients, from state 
agencies implementing SNAP across the country, from charitable 
partners that work with SNAP recipients, from innovative 
organizations receiving SNAP funding to help improve and target 
SNAP programs, from retailers who sell food and provide access 
to healthy foods in their local communities, and from a wide 
range of partners, implementers, government agencies, and 
stakeholders.
    These witnesses have expressed an array of opinions on the 
successes and failures of SNAP at serving people in need of 
nutritious, wholesome food. They have shared great 
accomplishments, but have also pointed out that there is room 
for improvement. The findings of our 2 year review are being 
compiled into a comprehensive report that we plan to release 
next month.
    As we begin the 16th and final hearing of our series, the 
individuals we have with us today represent organizations at 
the forefront of improving access to healthy food. At this 
point, we have all heard about food deserts and concerns about 
whether those receiving SNAP benefits can actually make healthy 
purchases with the benefits they receive. The organizations 
represented here today are working to address those concerns in 
unique and innovative ways. It is my hope that some of the 
ideas discussed in this hearing can be applied more broadly 
throughout the SNAP programs to enhance program delivery.
    As we have discussed time and again, SNAP is not a one-
size-fits-all program. Different communities have different 
needs, and there are different gaps in SNAP delivery. So I am 
looking forward to hearing how the steps that today's witnesses 
have taken target the unique needs of the communities they each 
serve.
    As the Chairman of the House Agriculture Committee, I am 
especially cognizant of the challenges that many who live in 
rural America face in accessing healthy food. Online purchases, 
whether or not they are made through SNAP, can increase access 
to fresh foods for customers in rural and urban communities 
alike who are not near, or able to travel to, a fresh-food 
retailer. Companies like Amazon are well known for their online 
presence, and our other witnesses, while perhaps less well 
known, are in some cases already delivering groceries to 
customers through online purchases.
    While these online platforms certainly increase access to 
food, online sales also raise implementation questions related 
to shipping, product freshness, product availability, and cost. 
It is my hope that some of these questions can be answered, or 
at least explored, in this hearing.
    As a taxpayer and a steward of taxpayer dollars, I want the 
dollars that go toward SNAP to be well spent. SNAP dollars that 
are used inefficiently are SNAP dollars that are not feeding 
people, or helping them learn about healthy eating, or helping 
them find work and are lifting them off the programs that they 
are on. SNAP dollars should provide the greatest benefit 
possible and allow for the maximum improvement in nutrition for 
the households that need them. Hopefully, innovations in how 
customers make their food purchases will prove to be one such 
way that these efficiencies can be gained.
    Before I conclude, I would like to recognize my good friend 
and colleague and neighbor, Randy Neugebauer. Randy was first 
elected in 2013, a special election, an election I am not 
unfamiliar with. Over the past 13+ years, Randy has served on 
this Committee, as well as Financial Services and, I guess, 
Science, Space, and Technology. He has been a good friend, a 
good neighbor, he has served well, and he is leaving us at the 
end of this Congress to pursue other issues. Let this be a full 
warning to the rainbow trout populations across all of North 
America that Randy will have more fly fishing time available as 
a result of his turning this page in his life, and I couldn't 
wish him anything but the best. And God speed, Randy, on 
whatever chapters are ahead of you, going forward. I appreciate 
your service to the constituents of District 19, and by 
extension, your work here in Congress as well. So thank you, 
buddy.
    Mr. Neugebauer. Well, thank you.
    The Chairman. God speed.
    Mr. Neugebauer. Thank you, Mr. Chairman. And, well, it has 
been a great honor. I come from an area where agriculture is 
extremely important, but agriculture is important to the entire 
nation. I have gotten to serve with a bunch of great folks in 
this room, and every Chairman I have served with is still on 
the Committee, and which says a lot about this Committee.
    I think one of the things, having served on other 
committees, is I have always appreciated the bipartisan way 
that this Committee works to make sure that Americans can 
continue to enjoy the safest, cheapest food in the world, and 
the best fiber, and so I am thankful for that. And, Mr. 
Chairman, I have certainly enjoyed serving with you, and thank 
you for asking me to be your Vice Chairman. And, it is a great 
Committee, and this is an important Committee to our country, 
and I am going to miss the friendships and the relationships 
that we have been able to make here. But the other people that 
I want to thank is those hundreds of farmers and ranchers over 
the years that have come before this Committee, gotten off 
their tractor or gotten off their horse, or left their company 
to come up here and make sure that we understand how important 
the things and the decisions that we make in this Committee 
impact those farm families across our country. So our thanks go 
out to them. And thank you for the time for allowing me to 
speak.
    The Chairman. Well, God speed.
    I would also like to recognize Dan Benishek and Christopher 
P. Gibson, who are also concluding their service in Congress. 
Those two have also served for 4 years now. And, Dan, I 
appreciate your work on our Committee. And on the other side we 
have Gwen Graham and Brad Ashford and Ann Kirkpatrick, we also 
recognize and appreciate their service. They joined us in the 
114th Congress and will be moving on. I appreciate their work, 
and as the letter to Rob said,* ``this is a bipartisan group of 
folks who work together to try to improve food and how that 
food is grown, all those things are our responsibility.''
---------------------------------------------------------------------------
    * The document referred to is retained in Committee file.
---------------------------------------------------------------------------
    So with that, I would like to thank our witnesses for being 
here. We will recognize them in a minute.
    [The prepared statement of Mr. Conaway follows:]

  Prepared Statement of Hon. K. Michael Conaway, a Representative in 
                          Congress from Texas
    Over the course of the 114th Congress, we have heard from 55 
witnesses at 15 different hearings in our series on the Past, Present 
and Future of SNAP. We have heard from witnesses discussing their 
experiences as SNAP recipients, from state agencies implementing SNAP 
across the country, from charitable partners that work with SNAP 
recipients, from innovative organizations receiving SNAP funding to 
help improve and target SNAP programs, from retailers who sell food and 
provide access to healthy foods in their local communities, and from a 
wide range of other partners, implementers, government agencies, and 
stakeholders.
    These witnesses have expressed an array of opinions on the 
successes and failures of SNAP at serving people in need of nutritious, 
wholesome food. They have shared great accomplishments, but have also 
pointed out that there is room for improvement. The findings of our 2 
year review are being compiled into a comprehensive report that we plan 
to release next month.
    As we begin the 16th and final hearing of our series, the 
individuals we have with us today represent organizations at the 
forefront of improving access to healthy food. At this point, we have 
all heard about ``food deserts'' and concerns about whether those who 
receive SNAP benefits can actually make healthy purchases with the 
benefits they receive. The organizations represented here today are 
working to address those concerns in unique and innovative ways. It is 
my hope that some of the ideas discussed in this hearing can be applied 
more broadly throughout SNAP to enhance program delivery.
    As we have discussed time and again, SNAP is not a one-size-fits-
all program. Different communities have different needs, and there are 
different gaps in SNAP delivery. So I am looking forward to hearing how 
the steps that today's witnesses have taken target the unique needs of 
the communities they each serve.
    As the Chairman of the House Agriculture Committee, I am especially 
cognizant of the challenges that many who live in rural America face in 
accessing healthy food. Online purchases, whether or not they are made 
through SNAP, can increase access to fresh foods for customers in rural 
and urban communities alike who are not near--or able to travel to--a 
fresh food retailer. Companies like Amazon are well known for their 
online presence and our other witnesses, while perhaps less well known, 
are in some cases already delivering groceries to customers through 
online purchases.
    While these online platforms certainly increase access to food, 
online sales also raise implementation questions related to shipping, 
product freshness, product availability, and cost. It is my hope that 
some of these questions can be answered, or at least explored, in this 
hearing.
    As a taxpayer myself, and as a steward of taxpayer dollars, I want 
the dollars that go toward SNAP to be well spent. SNAP dollars that are 
used inefficiently are SNAP dollars that are not feeding people, or 
helping them learn about healthy eating, or helping them find work and 
ultimately lifting them off of the program. SNAP dollars should provide 
the greatest benefit possible and allow for the maximum improvement in 
nutrition for the households that need them. Hopefully, innovations in 
how customers make their food purchases will prove to be one such way 
those efficiencies can be gained.
    Before I conclude, I would like to take a moment to thank my friend 
Randy Neugebauer for his service as the Vice Chairman of this 
Committee. Over the past 13 years, he has faithfully served this 
Committee and the people of West Texas, and I wish him nothing but the 
best as he enters this new chapter. Randy, you will be missed.
    I would also like to recognize the other Agriculture Committee 
Members leaving at the end of this Congress. Dan Benishek and 
Christopher P. Gibson have served on the Committee for the past 4 
years. Gwen Graham, Brad Ashford, and Ann Kirkpatrick all joined the 
Committee for the 114th Congress. I appreciate the time and effort that 
each of you have given to this Committee. You all have been great 
colleagues to work with, and you will be missed.
    With that, I thank our witnesses for being here today, and I 
recognize Ranking Member Peterson for any comments he would like to 
make.

    The Chairman. I will turn now to Mr. Peterson for any 
comments that he would like to make.

OPENING STATEMENT OF HON. COLLIN C. PETERSON, A REPRESENTATIVE 
                   IN CONGRESS FROM MINNESOTA

    Mr. Peterson. Thank you, Mr. Chairman. And I want to also 
give my best to Randy. I remember when you first were elected, 
and were we in Amarillo or Lubbock? Amarillo?
    Mr. Neugebauer. Amarillo.
    Mr. Peterson. Yes. We went to dinner, I think it was, the 
first time I met you way back when. So Randy has done a great 
job. And the other Members that are leaving the Committee, 
their service is appreciated because they have been part of the 
reason we have been successful and been able to work in a way 
that is constructive for the American people. We look forward 
to doing that into the future, and wish everybody well in 
whatever they are going to be doing in the next chapter of 
their lives.
    So thank you, Mr. Chairman. It is nice to be back, and I 
welcome everybody to the Agriculture Committee today.
    We are continuing the Committee's review of SNAP by looking 
at what food providers are doing to improve access to food. 
There are a lot of different approaches to this, and I am 
looking forward to hearing testimony today from our witnesses.
    Maybe I am wrong, and my staff says this is our 18th SNAP 
review. Whatever it is. And I believe that this is the final 
hearing this year.
    The Chairman. Yes.
    Mr. Peterson. So we have covered a lot of issues, but the 
overwhelming theme of the testimony has shown that while there 
are some areas for improvement, SNAP works. We have also heard 
testimony opposing efforts to block grant SNAP, and on the 
importance of keeping SNAP within the farm bill. So I hope that 
we can keep these themes in mind as we start work on the farm 
bill next year.
    And again, I welcome the witnesses and look forward to 
their testimony, and I thank the chair for holding today's 
hearing. I yield back.
    The Chairman. I thank the gentleman.
    I also want to brag on Jackie Walorski and James P. 
McGovern. They have been the Chairwoman and Ranking Member of 
the Subcommittee on Nutrition. They have shepherded this work 
for 2 years. And I now turn to Mrs. Walorski for comments that 
she might have.

OPENING STATEMENT OF HON. JACKIE WALORSKI, A REPRESENTATIVE IN 
                     CONGRESS FROM INDIANA

    Mrs. Walorski. Thank you, Mr. Chairman. As you point out, I 
guess we are debating, I think it is the 16th hearing in the 
series examining the Past, Present, and Future of SNAP, but who 
is counting, right, James? I want to thank you for your 
leadership and commitment to giving this program such a 
comprehensive review. I also want to thank my Ranking Member on 
the Nutrition Subcommittee, Mr. James P. McGovern. I have 
learned, James, so much, and I so much appreciate your 
friendship during this time.
    When I took the gavel of the Subcommittee, it was clear 
that you were a dedicated and admired leader in the fight 
against hunger, and it has been an absolute pleasure to work 
alongside of you. And I will never forget the event we did 
together in the beltway here, when James walked in, he was like 
a rock star icon, and I will never forget it. While we have our 
differences, we share the common goal of working together 
against poverty and hunger in this country. We have been able 
to accomplish a lot on a bipartisan basis in the last 2 years.
    This series of hearings has been an eye-opener for me. I 
have learned so much. I hope it has been for the other Members 
of the Committee as well. We have heard from the broadest range 
of stakeholders possible; from SNAP recipients themselves, to 
government agencies, to those who are on the frontline of the 
fight against poverty. We have found successes and innovative 
solutions, and we have identified gaps in the system and areas 
for improvement.
    As I have said before, no one program will end hunger or 
poverty. Everyone; Federal, state, and local governments, not-
for-profits, and the private-sector, academia, and recipients 
themselves, has a role to play in this fight. SNAP is only one 
part of our country's safety net, but this Committee's job is 
to make it as effective and efficient as possible, and ensure 
that it works in tandem with other Federal, state, and private-
sector programs.
    I look forward to hearing from our witnesses today as we 
explore opportunities to improve access to food. The future of 
SNAP is full of promising innovations in food delivery, 
purchasing, and other areas. These are innovations we cannot 
ignore, but we must balance innovation with program integrity 
to ensure that taxpayer dollars are spent effectively.
    I want to thank each of the witnesses for being here and 
lending your expertise.
    And, Mr. Chairman, I yield back. Thank you.
    The Chairman. The gentlelady yields back. Any comments, Mr. 
McGovern, you might make?

 OPENING STATEMENT OF HON. JAMES P. McGOVERN, A REPRESENTATIVE 
                 IN CONGRESS FROM MASSACHUSETTS

    Mr. McGovern. Thank you, Mr. Chairman. I too want to thank 
my colleague, Congresswoman Jackie Walorski. I have the 
privilege of serving with her on the Nutrition Subcommittee, 
and she is a great friend and a great leader, and I look 
forward to continuing to work with her on these issues.
    So after 18 hearings what have we learned? We have learned 
that the SNAP Program is a powerful tool for improving 
nutrition, insulating families against hardship, and lifting 
people out of poverty. It is effective, and it is efficiently 
run. The very modest benefit, which averages about $1.40 per 
person, per meal, helped to keep over ten million people out of 
poverty in 2012, including almost five million kids. So when I 
reflect on the lessons learned from our hearings on SNAP during 
the 114th Congress, I think about the overwhelming support of 
testimony that we have heard from witnesses about the structure 
of the SNAP Program, and its ability to reduce food insecurity 
among our most vulnerable constituents.
    We have learned that charities do great work, but they 
can't do it alone. We have learned that it is a bad idea to 
radically change the SNAP Program. It is working as intended. 
Not once have we heard from our witnesses that block granting 
SNAP will reduce hunger or strengthen this program. In fact, we 
have heard the opposite. And if we want to talk about improving 
access to food, we should be discussing ways to increase SNAP 
benefits. If anything, the average benefit of $1.40 per person, 
per meal, is too low.
    The American Recovery and Reinvestment Act of 2009 
temporarily increased SNAP benefits, and we saw an increase in 
food expenditures by low-income households, a reduction of food 
insecurity, and improvements in diet quality, especially 
amongst children. We ought to find ways to increase access to 
food by piloting the use of SNAP benefits online, strengthening 
employment and training programs, expanding SNAP education, 
incentivizing the purchase of more nutritious foods. We ought 
to address the issue of the cliff, among many other things. All 
of that would require an increased investment, but I think the 
return on that investment would be enormous.
    Now, I have no idea what a Trump Administration, coupled 
with a Republican Congress, means for the future of SNAP or 
other safety net programs. I am worried. Quite frankly, I am 
terrified. But I spend a lot of time on this stuff. I spend a 
lot of time with people on SNAP. They don't fit a stereotype. 
Many aren't employed, and most of them work. The majority who 
benefit from SNAP are kids and senior citizens. These are good 
people. They are our neighbors. And yet too often they are 
ridiculed, and their plight is belittled in the halls of this 
Congress. That is wrong.
    So after 18 hearings, we have learned from both Majority 
and Minority witnesses that SNAP is not only a good program, 
but a very good program. It works. And if next year, the 
Republican leadership wants to block grant or cut the program, 
or put more hurdles in place to deny people a benefit to put 
food on their table, be prepared for one hell of a fight, 
because this is a fight worth having. No one, and I mean no 
one, should go hungry in the United States of America.
    I thank the Chairman. I yield back my time.
    The Chairman. The gentleman yields back.
    Now, we will turn to our witnesses, finally. I thank each 
and every one of you for being here. We have Mr. Eric French, 
who is Director of Grocery at Amazon, Seattle, Washington. We 
have Mr. Gunnar Lovelace, Founder/Co-CEO, Thrive Market, Marina 
del Ray, California. We have Mr. Michael Beal, Chief Operating 
Officer for Balls Food Stores in Kansas City, Kansas. Ms. 
Pamela Hess, Executive Director of Arcadia Center for 
Sustainable Food and Agriculture in Alexandria, Virginia. And I 
would like to ask Mr. Lucas to introduce our final witness.
    Mr. Lucas. Thank you, Mr. Chairman. I would like to 
introduce Melinda Newport, the Director of the WIC/Child 
Nutrition Programs for the Chickasaw Nation's Department of 
Health, this morning. She has been with the Chickasaw Nation 
since 1990, and lives in Stonewall, Oklahoma. I would note for 
the record, from the perspective of both herself and myself as 
good Okies, this is Statehood Day in Oklahoma, 109th 
anniversary of Oklahoma joining the Union. So for all of you 
who are not familiar with that, you know something extra now.
    Again, Melinda, thank you for joining us this morning, and 
we look forward to hearing about the great work going on in 
Oklahoma.
    I yield back, Mr. Chairman.
    The Chairman. Well, I thank the gentleman. I was not aware 
that today is Statehood Day for Oklahoma, so good stuff there.
    Mr. Lucas. It wasn't Republic Day, but Statehood Day.
    The Chairman. I got you.
    All right, with that, Mr. French, the floor is yours for 5 
minutes.

STATEMENT OF ERIC FRENCH, DIRECTOR OF GROCERY, AMAZON, SEATTLE, 
                               WA

    Mr. French. Thank you, Chairman Conaway, Ranking Member 
Peterson, and Committee Members. My name is Eric French, and I 
am Amazon's Director of Grocery.
    Amazon's mission is to be Earth's most customer-centric 
company. That isn't just a motto; rather, it is how we approach 
every product or service we design. We start with the customer 
and work backwards. This approach has served our customers and 
Amazon well. This is also the approach we take as we envision 
the future of the SNAP Program.
    We are very excited about the prospect of bringing SNAP 
into the 21st century. The benefits of doing so are quite 
clear. SNAP recipients would have access to value, selection, 
and convenience that isn't always available in their own 
community. Not every community is home to a grocery store, let 
alone multiple stores, that carry a broader selection of foods 
and provide the opportunity to comparison shop.
    For the elderly and individuals with disabilities, even a 
nearby grocery store can be difficult to access due to mobility 
challenges. In single-parent families, and those lacking 
transportation, they still confront challenges in getting to 
the grocery store, even if there is one nearby. Access to 
online grocery shopping can mitigate all of these challenges 
and more.
    E-commerce provides value by enabling consumers to choose 
the most affordable options when making purchase decisions; 
allowing them to stretch limited budgets further. Amazon's 
customers expect to find the lowest prices across our vast 
selection, so we do the hard work for them. We monitor prices 
both off-line and online in order to make sure we offer the 
lowest prices available. And just as we have throughout the 
history of e-commerce, we will invent new ways of delivering 
products to our customers in a secure manner.
    We also know that SNAP payment security is top-of-mind for 
policymakers. Current SNAP regulations require the use of a 
customer PIN at checkout. The capability to accept PINs for 
online debit transactions is not widespread, largely because 
technology exists to more effectively secure transactions and 
authenticate customers. As a technology company and e-commerce 
retailer, Amazon continues to innovate around security and 
authentication to protect our customers.
    I would like to share two principle recommendations with 
the Committee as you continue to examine what the future of 
SNAP should look like.
    First, we believe that the SNAP regulations should be 
modernized to take into account e-commerce. The current SNAP 
regulations were written for a brick-and-mortar SNAP Program, 
yet there are unique opportunities and challenges associated 
with the SNAP Program in the e-commerce space. The Committee 
and USDA should consider modernizing the SNAP Program 
regulations to take into account the many lessons-to-learn 
expected from the online pilot. Amazon stands ready to share 
our expertise and be part of this process.
    Second, we believe that the regulations around payments 
should not be technology-specific, but should provide 
flexibility for innovation, and to take into account e-commerce 
transactions. Amazon shares the goal of ensuring online SNAP 
payments are secure. PINs may make sense in a brick-and-mortar 
setting, but they are expensive to implement online, and are 
not the best available technology. Regulations should provide 
some flexibility for innovation around security to better 
protect SNAP recipients, and mitigate new security risks that 
may emerge. Congress and the USDA should develop a framework 
that ensures the security of these transactions without 
prescribing a specific technology with can quickly become 
obsolete.
    In conclusion, Amazon is very excited about the interest of 
Congress in exploring the benefits of expanding the SNAP 
Program to e-commerce. We are excited about this prospect and 
stand ready to assist Congress and the USDA during the upcoming 
pilot program and beyond.
    Thank you for inviting me to testify. I look forward to 
your questions.
    [The prepared statement of Mr. French follows:]

    Prepared Statement of Eric French, Director of Grocery, Amazon, 
                              Seattle, WA
    Thank you, Chairman Conaway and Ranking Member Peterson. My name is 
Eric French, and I am Amazon's Director of Grocery.
    Amazon's mission is to be Earth's most customer-centric company. In 
everything we do--every product or service we design--we start with the 
customer and work backwards. This approach has served our customers--
and Amazon--well, and this is also the approach we're taking as the 
U.S. Department of Agriculture (USDA) explores opening the SNAP program 
to e-commerce. Given our extensive experience in e-commerce, our 
demonstrated commitment to excellent customer service, and our more 
recent investment in e-commerce grocery delivery, Amazon looks forward 
to the opportunity to work with the USDA to ensure a successful 
expansion of the SNAP program into e-commerce, which we believe can 
improve access to nutritious foods, selection, and value for SNAP 
households.
I. The Benefits of SNAP E-Commerce Grocery Delivery
    The current SNAP program is limited to traditional brick-and-mortar 
channels, which can create significant limitations and challenges for 
the individuals and families the SNAP program is intended to support. 
Not every community is home to a grocery store, let alone multiple 
stores that drive competitive pricing and selection. For the elderly, 
and individuals with disabilities, even a nearby grocery store can be 
difficult to access due to mobility challenges. In addition, single 
parent families and those lacking access to reliable transportation 
also may struggle to get to a grocery store.
    The current restriction on redeeming SNAP benefits online limits 
the ability of those with food insecurity to stretch their SNAP dollars 
by comparison shopping and allocating SNAP dollars where they can 
provide the most benefit. Those with special dietary needs (e.g., 
gluten intolerance, diabetes) also face limited options and selection 
when they have access to only what their nearest grocery store carries.
    The promise for extending the SNAP program to e-commerce is that 
those with food insecurity can benefit from the same access to value, 
selection, and convenience that many of us enjoy.
A. Value
    E-Commerce allows consumers the unprecedented ability to choose the 
most affordable options in making purchase decisions, allowing them to 
stretch limited food budgets further. This option should be accessible 
to those with food insecurity, who could benefit the most.
    Amazon's customers expect to come to Amazon and find the lowest 
prices across our vast selection, so we do the hard work for them. 
Amazon monitors prices--both offline and online--in order to make sure 
we offer the lowest prices available.
B. Selection
    E-commerce retailers have the ability to offer massive selection to 
customers by leveraging fulfillment networks and sophisticated 
logistics systems that can determine where best to store items to 
ensure the quickest, most efficient delivery to customers. Knowing how 
to leverage such resources is something Amazon not only excels at, but 
has also developed significant technology to accomplish. The 2 day, 1 
day, and same day shipping Amazon has become famous for has been 
enabled by this technology and our fulfillment network, and has 
fostered our expansion into grocery retailing and delivery. As a 
result, we can offer SNAP recipients access to a broad selection of 
SNAP-eligible foods to meet their dietary needs and preferences.
C. Convenience
    By allowing for doorstep delivery, e-commerce also provides SNAP 
recipients with a new level of convenience. This is particularly 
important for those with mobility challenges, lack of easy access to 
reliable transportation, and working and parenting schedules that make 
getting to the grocery store a challenge, as well as those in food 
deserts.
II. Potential Challenges
    While Amazon already carries an extensive selection of SNAP-
eligible healthy, staple foods, we're constantly innovating around the 
challenge of delivering perishable foods cost-effectively so that the 
savings can continue to be passed on to our customers. We leverage our 
significant logistics tools and fulfillment network to accomplish this, 
and this will become easier as we continue to scale our grocery 
delivery. We continue to iterate and learn, and hope to have the 
opportunity to apply our extensive knowledge to the SNAP space and 
enable a successful expansion of the program to e-commerce, which would 
provide tremendous benefits to SNAP recipients.
A. Potential Challenges and Opportunities with Delivery
    Theft of grocery deliveries has been raised as a concern by 
Committee staff, and this challenge is not limited to the SNAP e-
commerce delivery space; this is a challenge the e-commerce model has 
confronted more broadly, but one that has been largely mitigated over 
the years. Amazon is constantly inventing on behalf of customers, 
including inventing new ways to deliver products. Two examples of 
recent innovations include Amazon Fresh attended delivery and Amazon 
Lockers. In the unlikely event a package is stolen, Amazon has a 
longstanding record of offering customers refunds or replacements for 
missing deliveries, and this would extend to customers using SNAP 
benefits should the program be expanded to e-commerce.
B. Online EBT Payments
    Current SNAP regulations require the use of a customer PIN at 
check-out, and this requirement extends to the online redemption of 
SNAP benefits under the USDA online demonstration project. The 
capability to accept PINs for online debit transactions is not 
widespread, largely because alternative technology exists to more 
effectively secure transactions and authenticate customers. For 
example, Amazon allows for PIN-less debit because the PIN does not 
necessarily provide better security or authentication than other tools 
and technology currently available. As a technology company and an e-
commerce retailer, Amazon continues to innovate around security and 
authentication to protect our customers and maintain their trust.
III. Recommendations
    The USDA's current SNAP regulations were written for a brick-and-
mortar SNAP program. While Amazon is encouraged by the willingness of 
Congress and the USDA to explore the benefits of the online redemption 
of SNAP benefits, we also urge consideration of the unique 
opportunities and challenges of e-commerce. Rather than simply 
extending the existing SNAP regulations to e-commerce (assuming a 
successful pilot), there should be some consideration of the unique 
characteristics of e-commerce retail and grocery delivery. Modernizing 
the SNAP program should also include modernization of the regulations, 
taking into account the many learnings expected from the online 
demonstration project. Amazon stands ready to share our expertise and 
be a part of this process.
    Amazon agrees the goal of online SNAP benefit redemption should be 
for door-step delivery; after all, this is one of the largest value 
propositions of e-commerce and has been offered by Amazon since our 
founding in 1995. While Amazon offers customers flexible options for 
grocery delivery, such as attended delivery, the USDA should explore 
additional options for food delivery under the SNAP program. Amazon is 
aware of food delivery programs in communities like Baltimore that 
employ a neighborhood-based pick-up option as a way to mitigate the 
potential challenges with door-step delivery.
    Amazon shares the goal of ensuring online SNAP payments are secure. 
Security and customer trust are central to everything Amazon does and 
creates, and we invest heavily in protecting our customers and securing 
payments. As outlined earlier, more effective tools and technology 
currently exist to secure online transactions and authenticate 
customers. PINs should be a floor rather than a ceiling in securing 
online payments, and the SNAP program should provide some flexibility 
for innovation around security to better protect SNAP recipients and 
mitigate new security risks that may emerge. Amazon would like to work 
with Congress and the USDA to develop a framework that ensures the 
security of these transactions without prescribing specific 
technologies that could quickly become outdated. Furthermore, allowing 
for flexibility in meeting security standards could allow for broader 
participation of e-commerce grocery retailers, which would benefit SNAP 
recipients by offering them greater selection in online retailers.
IV. Conclusion
    Amazon is excited that Congress and the USDA support the 
exploration of online SNAP benefit redemption.
    By enabling online redemption of SNAP benefits, recipients would 
have access to Amazon's wide variety of SNAP-eligible food options 
available for home delivery. This would open up new options for 
millions of SNAP recipients, while providing our existing customers who 
are SNAP recipients with the ability to stretch their SNAP dollars and 
choose the payment type that is best for them. We are excited about 
this prospect and stand ready to assist Congress and the USDA during 
the upcoming pilot program and beyond.
    Thank you for inviting me to testify. I look forward to your 
questions.

    The Chairman. Let the record reflect he ended his statement 
with an extra minute left. Thank you, Mr. French.
    Mr. Lovelace, your 5 minutes.

 STATEMENT OF GUNNAR LOVELACE, FOUNDER AND CO-CHIEF EXECUTIVE 
           OFFICER, THRIVE MARKET, MARINA del RAY, CA

    Mr. Lovelace. Chairman Conaway and distinguished Members of 
the Committee, it is an honor to be here with you all today, to 
be able to testify about how technology and expanding access to 
healthy food has the potential to save billions of dollars in 
downstream medical costs in our economy.
    My name is Gunnar Lovelace. I am the founder and co-CEO of 
Thrive Market. Our mission is to make healthy living easy and 
affordable to everybody. The way that we do that is we buy 
directly from brands and cut out all the middlemen, offering 
the highest quality organic groceries that you would get at a 
normal health food store, but at 25 to 50 percent off. Instead 
of making money on the product sales themselves, we charge a 
$60 annual membership fee, which allows members all over the 
country to be able to order online and be able to get those 
groceries shipped to their home. For every paid membership, we 
give a membership away to a low-income family, a veteran, a 
teacher, or a student.
    The mission of making healthy living affordable and 
accessible to everybody is something that is deeply personal to 
me. I grew up very poor, with a single mom, saw how hard she 
worked to make healthy choices. And when my mother remarried, 
my stepfather was running a food co-op out of a farm, where I 
got to see firsthand the power of group buying as a way to make 
food more affordable and build community.
    As I progressed in my entrepreneur career, starting and 
selling a couple of software companies, I felt like there was 
an incredible opportunity to disrupt access to healthy food 
with technology. In the last 2 years, we have been able to do 
that with our investors, our co-founders, our hardworking 
employees, and our members. We have gone from one employee 
working out of my house, to working out of the backroom of a 
church, to now more than 600 employees nationally. This is a 
vision that we care about very, very deeply. We have raised 
over $140 million from 350 investors, and it is something that 
we are excited to continue.
    As we know, we face huge health epidemics in this country 
that are really systemic from pervasive lifestyle diseases. 
More than 70 percent of our population is overweight or obese. 
We spend $245 billion a year on diabetes-related illnesses, 
$444 billion a year on heart-related illnesses. These are just 
two examples of lifestyle diseases that are largely driven by 
dietary habits. The numbers are only increasing in a negative 
trend, and they disproportionately affect low-income 
communities.
    Today, you can buy almost anything online, but you cannot 
use your SNAP benefits to use e-commerce to get healthy food 
for less. This is a classic example of the digital divide, and 
it is something that we have been focused on, because 50 
percent of the families that are in our giving program that 
receive free memberships are on SNAP.
    One of the biggest concerns that we have heard about 
bringing SNAP online is the potential for fraud and abuse. We 
understand the concern, yet e-commerce is a fundamentally 
database-driven technology that allows for extreme precision 
and classification of reporting, meaning that 100 percent of 
the funds that go towards purchasing online can go towards 100 
percent approved SNAP products. Not only that, we are able to 
provide incredibly precise, transparent, and real-time 
reporting to the USDA on aggregate purchasing behavior in a way 
that doesn't exist amongst current national retailers who 
accept SNAP.
    On June 27 of this year, we launched a national campaign in 
support of the USDA committing to a firm timeline to bring SNAP 
online. We assembled a broad coalition of influencers, 
bloggers, nonprofits, and brands that we work with, to have a 
synchronized conversation around this that drove over 325,000 
petitions, 400 million media impressions around this issue. And 
we understand that SNAP is a very complex, often controversial 
program, and we applaud the USDA and their efforts to have a 
thorough, deliberate, and transparent process.
    Partially in response to our campaign, the USDA committed 
to a specific timetable of launching a pilot program in a few 
key states in the first half of 2017. We have obviously applied 
for this program. We are excited to be part of it, but even if 
we don't get into the pilot in the first wave, we are excited 
to see that SNAP is coming into the 21st century.
    Philosophically speaking, one of the things that is so 
gratifying about the work that we do, and I know that you guys 
can all relate to this, is that helping people access healthy 
food, helping people live a healthier lifestyle, is a hyper-
scalable organizing principle that transcends ideology. It 
doesn't matter who you are, where you live, what the color of 
your skin is, everybody wants to feel good in their bodies, 
everybody wants the same thing for their children. And when we 
help people access healthy food for less, we are empowering 
families across this country, we are empowering communities, 
but we are also dealing with major macroeconomic issues with 
spiraling medical costs.
    It is an honor to be here to discuss how technology can 
drive innovation. We are excited to be part of that with SNAP 
in the long-term. We are building all sorts of other health 
incentive programs. So we look forward to the opportunity to 
collaborate, and we look forward to your questions.
    Thank you so much.
    [The prepared statement of Mr. Lovelace follows:]

 Prepared Statement of Gunnar Lovelace, Founder and Co-Chief Executive 
               Officer, Thrive Market, Marina del Ray, CA
    Chairman Conaway and distinguished Members of the Committee, thank 
you for having me here today to testify regarding how technology can 
expand access to healthy food in a way that can save billions of 
dollars in downstream medical expenses.
    My name is Gunnar Lovelace and I'm the Founder and Co-CEO of Thrive 
Market, the fastest growing health food e-commerce company in history.
    Thrive Market's mission is to make healthy living easy and 
affordable for everyone. We do that by buying from health food brands 
directly, cutting out the middlemen and passing those savings along to 
our members, who pay $60 a year for access to the club. For every 
paying member we give away a free membership to a low-income family, a 
veteran, a teacher or a student, through our Giving program.
    The desire to make healthy living affordable to everyone is 
something that is informed by personal experience. I grew up poor with 
a single mom and saw how hard she worked to make healthy choices for 
our family. When my mother remarried, my stepfather was running a food 
co-op on an organic farm, where I got to see firsthand the power of 
group buying as a way to make food more affordable and build community.
    Later, as I progressed in my entrepreneurial career--starting and 
selling two technology companies--I always felt like there was an 
opportunity and responsibility to disrupt access to healthy food with 
technology. Together with my co-founders, our investors, employees and 
members, we have brought this vision to life at Thrive Market. Since 
launching the business in 2014, we have grown from one employee working 
out of my house, to more than 600 employees nationally working out of 
multiple locations in three states. We have raised over $160 million in 
investment capital from over 350 value-aligned investors.
    Through our Giving program, we partner with NGOs nationally to 
distribute free memberships and also accept applications on our site. 
Earlier this year we rolled out a program called Spread The Health, 
where our members may contribute a portion of their grocery savings 
directly to Thrive Gives members, offsetting the cost of their first 
few purchases through stipends. This helps people who are struggling 
with the affordability of healthy food, or don't have geographic access 
to grocery stores selling healthy food in their community. We also try 
to break down the educational barriers that some face by providing 
recipes, starter kits, and other content that helps make healthy living 
more accessible.
    This is all critically important right now, because our country is 
facing a health crisis. The emergence of lifestyle diseases is an 
epidemic ravaging our economy and our communities. More than 70% of our 
population is overweight or obese: 29.1 million Americans have 
diabetes. We spend $245 billion on diabetes and $444 billion on heart 
disease each year. These are just two examples of lifestyle diseases 
partly caused by dietary habits. And these numbers are only increasing. 
These lifestyle diseases disproportionately affect low income 
individuals, and we need to do something to help the 46 million 
Americans who are depending on SNAP benefits to feed their families and 
themselves.
    My testimony will briefly discuss how technology can help break 
down barriers for low income families in the United States, many of 
whom lack access to healthy food. I will then discuss some of the gaps, 
including the fact that SNAP benefits still cannot be used online, and 
will propose some solutions to help address these barriers.
    The proliferation of technology, specifically information 
technology, has increased in ways that no one could have predicted. 
Presently, 75% of individuals living in poverty have a smartphone. 
Through their smartphone, they can now order goods and services that 
may have previously been out of reach to them, either geographically, 
or in some cases, financially. Some goods and services benefit from the 
direct-to-consumer channel that the Internet has made possible, in that 
brands can reach their consumer directly instead of operating through a 
middleman, and can reduce their prices accordingly. For example, Amazon 
sells books at about 50% less than they could be purchased for at 
bookstores, because they don't have the retail costs and markups that a 
bookstore charges. Thrive Market is able to achieve cost savings of 
approximately 25-50% off retail prices, by buying directly from our 
suppliers, bypassing traditional distribution channels, stripping out 
all intermediary costs, and passing those cost savings directly to our 
members.
    The Internet, then, makes goods more financially affordable, and 
more geographically accessible, which is especially relevant as it 
relates to food, as 23 million people around the country live in food 
deserts, areas without access to healthy food. One in five children are 
classified as food-insecure. Another fact of note is that only 30% of 
families living in poverty own a car, which means that their mobility 
is severely limited when it comes to purchasing groceries. For years, 
people have only been able to buy the food that is in their 
neighborhood, and have been dependent on the decisions of grocers and 
farmer[s'] markets to open in their areas, variables that are out of 
their control.
    Now all that is changing, thanks to the Internet and the 
proliferation of smartphones, even for those living in poverty. At 
Thrive Market, we have given away tens of thousands of free memberships 
to families all over the country, many of whom are buying healthy, 
natural products for the first time. We have also given away hundreds 
of thousands of dollars in stipends to help our lowest-income members 
afford to buy the food on our site, which is priced to be in line with 
the retail prices of conventional equivalents.
    It's amazing that in the 21st century you still can't use SNAP 
benefits online, but one can buy almost anything else online. This 
example of the digital divide has been a focal point for us because 
more than 50% of the families in our Giving program are on government 
assistance. We know that 83% of all SNAP benefits go to a household 
with a child, senior or disabled person, lifting 4.7 million Americans 
out of poverty each year. Every $1 spent on SNAP results in $1.73 of 
economic activity. Given increased levels of Internet connectivity, if 
SNAP were brought online nationally, the positive effect on our 
nation's most vulnerable populations would be immediate and dramatic.
    The biggest concern we've heard about bringing SNAP online from 
various stakeholders were questions about how fraud was going to be 
managed. There was a concern that funds would be used to buy products 
that are not SNAP approved. The power of e-commerce is that it is 
fundamentally a database driven technology that allows for precision in 
classification and reporting. This means we can easily categorize the 
grocery products in our database which are SNAP approved. Not only do 
we have full control of what recipients can spend their money on, we 
also can provide extremely precise and transparent reporting to the 
USDA on purchasing behavior in a way that doesn't easily exist amongst 
current retailers accepting SNAP.
    On June 27th of this year, we launched a national campaign in 
support of the USDA bringing SNAP online. We assembled a broad 
coalition of influencers, brands, media partners, NGOs, celebrities and 
bloggers to drive a synchronized conversation nationally around this 
issue. By utilizing our network to spread the word about the need to 
bring SNAP online, we galvanized a coalition, gathered 325,000 
signatures in support, and generated 400 million media impressions, all 
in just 3 months.
    In response to our campaign, the USDA has committed to a specific 
timetable for launching an online SNAP pilot program in a few key 
states in the first half of 2017. We are in the process of applying to 
be a part of that pilot, and regardless of whether we as a company are 
a part of the pilot, we are encouraged that tangible steps are being 
taken to bring SNAP into the 21st century.
    We would strongly encourage the USDA to roll out the pilot more 
quickly, and then to expand the pilot nationally in a rapid time frame, 
so that all American families across the country can access healthy 
food.
    Innovation in the SNAP program is vital. From a pure economic 
perspective, if we are going to have a $74 billion annual SNAP program, 
we need to make sure that the food we are giving families isn't causing 
them to get sick, resulting in increased taxpayer costs to the medical 
system downstream via ballooning lifestyle diseases.
    Conclusion: Helping people to get healthy is a hyper-scalable 
organizing principle that transcends ideology. It doesn't matter who 
you are, where you live, what the color of your skin is, or whether you 
are a liberal or conservative. Everyone wants to be healthy and 
everyone wants the same thing for their children. A robust Federal 
effort to push forward innovation in the SNAP program and expand the 
program quickly, so that all SNAP participants can participate, will 
help save billions of dollars in health care spending in the long run, 
and will help low-income families in our country live healthier, 
happier lives.

    The Chairman. Thank you, Mr. Lovelace. I appreciate that.
    Mr. Beal, 5 minutes.

      STATEMENT OF MICHAEL J. BEAL, J.D., VICE PRESIDENT,
  SECRETARY, AND CHIEF OPERATING OFFICER, BALLS FOOD STORES, 
             KANSAS CITY, KS; ON BEHALF OF NATIONAL
                      GROCERS ASSOCIATION

    Mr. Beal. Good morning, Mr. Chairman, Ranking Member 
Peterson, and Members of the Committee.
    My name is Mike Beal, and I am the Chief Operating Officer 
of Balls Food Stores. It is an honor and privilege to be here 
with you today.
    Balls Food Stores is a locally owned, third generation, 
family-owned company, started by Mollie and Sidney Ball in 
1923. We currently own and operate 27 retail grocery stores in 
the greater Kansas City metropolitan area under a few different 
banners, but primarily Hen House and Price Chopper Foods. Our 
stores are full-service supermarkets, and have accepted SNAP as 
a form of tender, essentially since each location opened.
    Balls Food Stores provides jobs in our local community for 
approximately 3,200 teammates. We operate a small distribution 
center that operates primarily to allow us to buy large 
quantities of merchandise, and to purchase and distribute local 
produce for our stores. Balls Food Stores is one of the early 
adopters of the buy local produce movement nationally; so much 
so that we worked with the Kellogg Foundation in their efforts 
to develop a distribution model to bring fresh, nutritious, and 
affordable food to consumers around the country.
    Balls Food Stores is a member of the National Grocers 
Association, and I was honored when NGA asked me to share our 
story and successes with the Double Up Food Bucks Program with 
this Committee. I believe our success with the program has been 
fantastic for the communities, our stores served, and our SNAP 
customers who are now able to stretch their benefits further, 
while purchasing local produce and supporting local farmers in 
our communities.
    The Double Up program operated by Balls Food is a result of 
a collaboration between Balls Food and five other entities. The 
primary goals of the program are: first, provide access to and 
increase affordability of fresh fruits and vegetables for 
recipients of SNAP benefits; second, provide greater 
opportunities for local farmers to increase their income by 
selling more produce locally; and third, provide more dollars 
to the local community.
    In 2015, we launched a pilot Double Up program in four of 
our Price Chopper stores. A fifth Price Chopper was added in 
late 2015. Because of our success, we were able to convert the 
pilot to a year-round program, operating in all 14 of our Price 
Chopper stores in 2016.
    The premise of the Double Up program is very simple: for 
each dollar a SNAP customer spends on local produce, using an 
EBT card to pay, that customer earns a dollar to spend on fresh 
produce on a future shopping trip, up to $25 per day in 
earnings. The earnings by the SNAP customer are accumulated 
throughout the year until that customer notifies our cashier 
that they want to spend some or all of their earnings on any 
type of produce on a later shopping trip.
    The execution of the Double Up program relies primarily on 
technology currently being used by many grocers. First, we 
designate local produce items using a simple product code for 
each locally grown item. Second, our point-of-sale system is 
programmed to look for transactions in which local produce 
items are purchased using an EBT benefit card for payment. And 
last, when customers shop at our Price Chopper stores using 
their loyalty card, that customer's earnings from the purchase 
of local produce items is then accumulated by our loyalty 
software system for future produce spending by that customer, 
whether or not an EBT card is used on the future purchase. This 
allows our SNAP customers to purchase healthy produce items 
throughout the year.
    Additional components of the program are properly 
identifying local produce items using specific signage in the 
produce department, properly training store produce teammates, 
management teammates, and cashiers, and establishing 
relationships with local farmers. A solid distribution system 
for local products is crucial to having a strong program, as 
this adds to the local produce variety. If there isn't a fairly 
good selection of locally grown produce items that are well 
marked in the produce department, customers get frustrated and 
are less likely to use the program.
    Much of the success of our program can be attributed to our 
cashiers, who have been tasked with the job of explaining the 
program to SNAP customers. Many customers believed there was a 
catch, because no one gets something for free for doing 
something they would like to do if they had the financial 
resources to purchase healthier food products. The pilot was 
designed so that the purchase history of SNAP customers could 
be measured over time to determine if the program has led to 
the purchase of healthier food items by SNAP customers. Our 
program partners are currently analyzing our massive data 
collection to confirm healthier purchase habits by SNAP 
customers.
    There were 9,874 different unique customers that 
participated in our pilot program, and those customers 
accounted for over 23,400 Double Up transactions. Over 60 
percent of the Double Up dollars earned were redeemed; a very 
high redemption rate, according to other grocers. The high 
redemption rate in our stores has actually increased to over 70 
percent as of May 2016.
    We at Balls Food Stores strongly believe that the Double Up 
program has encouraged our customers to eat healthier, and to 
try new fruits and vegetables. We believe the Double Up program 
is very feasible and can be replicated by most grocers around 
the country. In just a few months, thousands of SNAP families 
were able to take part in the Double Up pilot program. Programs 
like Double Up are important in that they incentivize 
customers, without mandating a purchase of healthy food. In my 
opinion, a free market-based program is always preferable to a 
mandated government program.
    Thank you, and I welcome your questions.
    [The prepared statement of Mr. Beal follows:]

Prepared Statement of Michael J. Beal, J.D., Vice President, Secretary, 
  and Chief Operating Officer, Balls Food Stores, Kansas City, KS; on 
                 Behalf of National Grocers Association
    Good morning Mr. Chairman, Ranking Member Peterson, and Members of 
the Committee. My name is Mike Beal, and I am the Chief Operating 
Officer of Balls Food Stores. It is an honor and a privilege to be here 
with you today.
    Balls Food Stores is a locally owned, third generation, family 
owned company started by Mollie and Sidney Ball in 1923. Our company is 
currently led by David Ball, who follows his father, Fred Ball, a 
person who was known nationally in the grocery industry for his 
innovation, character and charity to our community. Balls Food Stores 
currently owns and operates 27 retail grocery stores in the greater 
Kansas City, Kansas and Missouri metropolitan area under a few 
different banners, but primarily Price Chopper and Hen House. Our 
stores are all full service supermarkets and have accepted SNAP as a 
form of tender essentially since each location opened.
    I started working with our company during my senior year in 
college. After receiving my Bachelor degree in Civil Engineering at the 
University of Kansas in 1979, I returned to the University of Kansas to 
earn a Masters in Business Administration, all the while working with 
the company in our stores. After completing my Masters in 1981, I 
worked in our stores until returning to school to earn a Juris 
Doctorate degree from the University of Missouri at Kansas City. I 
practiced law for 9 years in the areas of corporate mergers and 
acquisitions, general corporate law and corporate finance, before 
returning to Balls Food Stores in 1998 to become its Chief Financial 
Officer. In 2012, I assumed the position as the Chief Operating Officer 
of Balls Food Stores.
    Balls Food Stores provides jobs in our local community for 
approximately 3,200 teammates, including a subsidiary that produces 
some of the best pies in the country for many grocers around the 
country. We have hundreds of teammates that have worked for us longer 
than 20 years and we operate a small distribution center that operates 
primarily to allow us to buy large quantities of merchandise at 
discount and to purchase and distribute local produce to our stores and 
other local grocers. Balls Food Stores was one of the early adopters of 
the buy local produce movement nationally, so much so that we worked 
with the Kellogg Foundation in their efforts to develop a distribution 
model to bring fresh, nutritious and affordable food to consumers 
around the country. Our company was a founding member of our grocery 
wholesaler, Associated Wholesale Grocers, Inc. (AWG), a member 
cooperative supplying over 3,800 stores in 35 states.
    The Price Chopper banner or trade name we operate is licensed to us 
by AWG. There are 37 other retail grocery stores in the Kansas City 
metropolitan area that also use the Price Chopper trade name in their 
business. Those 38 stores are owned and operated by four other families 
who are also members of AWG.
    Balls Food Stores is a member of the National Grocers Association 
(NGA), and I was honored when NGA asked me to share our story and 
successes with the Double Up Food Bucks (DUFB) program with this 
Committee. I believe our success with the program has been fantastic 
for the communities our stores serve and the Supplemental Nutrition 
Assistance Program (SNAP) customers who are now able to stretch their 
benefits further while purchasing local produce and supporting local 
farmers in our communities.
    The DUFB program operated by Balls Food Stores is the result of a 
collaboration of a number of entities: Good Natured Farms, Inc., the 
Fair Food Network, the University of Kansas Medical Center, the Mid-
America Regional Council, and the Health Care Foundation of Greater 
Kansas City. The primary goals of the program are to: (1) provide 
access to and increase affordability of fresh fruits and vegetables for 
recipients of SNAP benefits, (2) provide greater opportunities for 
local farmers to increase their income by selling more produce locally 
and (3) provide more dollars to the local community.
    The idea for the DUFB program was brought to us by Diana Endicott, 
the owner of Good Natured Family Farms. Diana has partnered with our 
company for the better part of 15 years and has introduced to us over 
150 family owned local farmers operating within 200 miles of Kansas 
City. Ms. Endicott is well known nationally for her work with local 
farmers, local farm initiatives and healthy eating initiatives. It was 
while working with the Kellogg Foundation and their healthy, 
affordable, local food initiative that Diana was introduced to Dr. Oran 
Hesterman, the President of the Fair Food Network. Dr. Hesterman had 
some creative ideas to increase markets for local farmers and provide 
healthier food options for people. Initially, the DUFB program was 
piloted by the Fair Food Network in Michigan at local farmers' markets. 
While successful, there was a realization that offering the program at 
retail grocery stores would reach more SNAP customers and provide an 
opportunity to better evaluate SNAP recipients' purchasing habits over 
time because grocers have the capacity to retain customer purchase 
data. Local farmers' markets typically do not utilize technology that 
will permit anyone to analyze customer purchase data.
    In 2015, we launched a pilot of DUFB in four of our Price Chopper 
stores in the Kansas City area. Because of the initial success of the 
program, a fifth Price Chopper store was added late in the summer of 
2015. We experienced tremendous success with the pilot and were able to 
convert the pilot to a year-round program operating in all 14 of our 
Price Chopper stores in 2016. It is the goal of Balls Food Stores and 
the other partners in the DUFB program to extend the DUFB program to 
the remaining 37 Price Chopper stores in the Kansas City area in 2017.
    The premise of DUFB is very simple: for every dollar a customer 
spends on local produce using an EBT card to pay, that customer earns a 
dollar to spend on produce from any source on a future shopping trip, 
up to $25 per day in earnings. The ``earnings'' by the SNAP customer 
are accumulated throughout the year until that customer notifies our 
cashier that they want to spend some or all of their earnings on any 
type of produce on a later shopping trip.
    The execution of the DUFB program relies primarily on technology 
currently being used by many grocers: (1) we designate local produce 
items using a unique product code for each locally grown item, (2) our 
point of sale system (POS) is programmed to look for transactions in 
which local produce items are purchased using an EBT benefit card for 
payment and (3) when customers shop at our Price Chopper stores using 
their loyalty card (which is free to customers), that customer's 
earnings from the purchase of local produce items is then accumulated 
by our loyalty software system for future spending by that customer, 
whether or not an EBT card is used on the future purchase and whether 
or not local produce is purchased in the future. This allows our SNAP 
customers to purchase healthy produce items throughout the year (even 
at times when locally grown items are not as plentiful because of 
growing seasons) and to purchase all of their produce for their holiday 
family meals, if desired.
    The beauty of the DUFB program we operate is its simplicity--our 
SNAP customers shop like they normally do using their loyalty cards 
(which also provide discounts off of many other grocery items sold in 
our stores) and pay using their EBT card, with the only difference 
being that the purchase of locally grown produce items with their EBT 
card earns them incentive dollars to buy more nutritious fruits and 
vegetables. A SNAP customer doesn't have to enroll in our DUFB program 
and they don't need to remember to bring anything back to the store to 
redeem their incentives.
    Additional components of the DUFB program that contribute to its 
success are properly identifying local produce items to customers using 
specific signage in the produce department, properly training store 
produce teammates, management teammates and cashiers and establishing 
relationships with local farmers to purchase their products. Many 
grocers around the country have relationships with local farmers in 
place; however a solid distribution system for those products is 
crucial to having a strong DUFB program as this adds to the local 
produce variety available to SNAP customers. If there isn't a fairly 
good selection of locally grown items that are well marked in the 
produce department, customers get frustrated and are less likely to use 
the program.
    Our cashiers inform SNAP participants of the money they've earned 
by purchasing local produce. We have seen SNAP customers purchase 
enough local produce that their entire produce order during their next 
trip is given to them free of charge, which is fantastic.
    Much of the success of our program can be attributed to our 
cashiers. Our cashiers have been tasked with the job of explaining the 
program to SNAP customers, and they have done an excellent job making 
sure our customers understand the program, which items are eligible for 
the Double Up match, and most importantly, why they are receiving these 
benefits to redeem in the store. One thing we learned very early in the 
program was that many customers didn't use the program initially 
because they thought it was too good to be true. Many customers 
believed there was a ``catch'' because ``no one gets something for 
free'' from doing something they would otherwise like to do if they had 
the financial resources to purchase healthier food products for their 
family. It was only because of our cashiers that our customers 
understood that ``free'' really meant free as a result of purchasing 
local produce.
    As I have previously mentioned, this program has seen tremendous 
success in our stores. The pilot was designed so that the purchase 
history of SNAP customers could be measured over time to determine if 
the DUFB program has led to the purchase of healthier food products by 
those customers. Our program partners are currently analyzing our 
massive collection of purchase data history in our POS system to 
confirm healthier purchase habits by SNAP customers. In addition, 
during the pilot, one of our program partners interviewed both SNAP and 
non-SNAP customers, along with some of our store teammates, to learn 
their thoughts about the DUFB program. In total, 1,422 customers were 
interviewed: 104 of whom were DUFB participants, 332 SNAP customers who 
did not participate in the DUFB program and 986 non-SNAP customers. 
Fifty five store teammates also were interviewed about their experience 
with the program and the value it provides to customers.
    The DUFB participants surveyed reported that they generally had 
increased their purchase and consumption of fruits and vegetables, 
which we would all agree are healthy food choices. In addition, those 
same customers reported that they were budgeting differently for 
groceries because of the DUFB program.
    Of the 332 SNAP customers not participating in the DUFB program, 
most of them stated that they were very or somewhat likely to 
participate in the DUFB program on their next visit. The consensus of 
the 986 customers surveyed who were non-SNAP customers was that the 
DUFB program helps SNAP customers save money, encourages healthier 
eating habits and supports local farmers.
    The survey of our 55 teammates reported that our cashiers found the 
DUFB program was easy to implement, our cashiers expressed appreciation 
for a program that helps lower income families eat healthier (more than 
a few of our cashiers were once SNAP recipients themselves), our store 
directors felt that our produce departments had a greater focus on 
locally grown produce as a result of the DUFB program and our store 
directors expressed appreciation for participating in the DUFB program 
and would welcome the opportunity to participate in the program in the 
future.
    There were 9,874 different customers that participated in the pilot 
program and those customers accounted for over 23,400 DUFB transactions 
starting in June of 2015. On average, our pilot stores saw 2,670 SNAP 
customers per month during the pilot program. The stores in the pilot 
program had between 8.7% and 14.5% EBT business as a part of their 
regular business. We were very pleased that, between June and the end 
of December 2015, over 60% of the DUFB dollars earned were redeemed, 
representing over $42,200 in produce purchases by those customers. That 
is a very high percentage of redemption according to all the grocers we 
have talked to about redemption of any store incentive program. The 
high redemption rate in our stores has actually increased to over 70% 
as of the end of May 2016. In addition, Balls Food Stores experienced 
over a 12% increase in sales of local produce items at the pilot stores 
compared to the prior year.
    We at Balls Food Stores believe strongly that the DUFB program has 
encouraged our customers to eat healthier and try new fruits and 
vegetables. We believe the DUFB program is very feasible and can be 
replicated by most grocers around the country as long as those grocers 
have a loyalty system to accumulate earning incentives. Most non-SNAP 
customers were supportive of the DUFB program and most SNAP customers 
who hadn't used the program were likely to use the program in the 
future. DUFB customers reported that the program is easy to use and 
helped them save money while eating healthier. Importantly, the 
potential reach of the DUFB program in grocery stores is immense. In 
just a few months, thousands of SNAP families were able to take part in 
the DUFB pilot program.
    Although there is compelling evidence that diets rich in fruits and 
vegetables can lower the risk of many chronic diseases, cost has been a 
major barrier to purchasing fresh produce. Programs like DUFB are 
important in that they incentivize customers without mandating the 
purchase of healthy food. In my opinion, a free market based program is 
always preferable to a mandated government program. Providing a program 
like DUFB in our stores has allowed our SNAP customers to learn more 
about healthy eating, to try new produce, and to stretch their SNAP 
dollars further, without spending more out of their pockets. We are 
helping customers and their families afford fresh produce and are 
working to improve their health by offering this program.
                               attachment
Double Up Food Bucks Kansas City Pilot Program
May 2016

Cheryl A. Gibson, Ph.D., Heather Valentine, M.S., R.D., Sarah 
Liljegren, B.S., The University of Kansas Medical Center
Table of Contents
  Figures
  Tables
  Acknowledgements
  Executive Summary
  Introduction
  Methodology
  Customer Survey Data

    Non-SNAP Customers
    SNAP Customers not using DUFB
    SNAP Customers using DUFB
    Grocery Store Assessments

  Price Chopper Employee Interviews

    Cashiers
    Store Directors

  Transaction Data
  Recommendations
  Discussion
  Summary
  Appendices
    Appendix A: Survey for Non-SNAP Customers
    Appendix B: Survey for SNAP Customers not using DUFB
    Appendix C: Survey for SNAP Customers using DUFB
    Appendix D: Grocery Store Assessment
    Appendix E: Cashier Interview Instrument
    Appendix F: Store Director Interview Instrument
Figures
  Figure 1. Pilot DUFB Price Chopper Locations
  Figure 2. Locations of Surveys Completed by Non-SNAP Customers
  Figure 3. Age of Non-SNAP Customers
  Figure 4. Sources of Information about DUFB
  Figure 5. Level of Support from Non-SNAP Customers
  Figure 6. Locations of Surveys Completed by SNAP Customers not using 
    DUFB
  Figure 7. Age of SNAP Customers not using DUFB
  Figure 8. Sources of Information about DUFB
  Figure 9. Likelihood of DUFB Participation During Next Grocery Store 
    Visit
  Figure 10. Locations of Surveys Completed by DUFB Participants
  Figure 11. Age of DUFB Participants
  Figure 12. Sources of Information about DUFB
  Figure 13. Level of Difficulty to Identify Fruits and Vegetables
  Figure 14.Time Spent to Purchase Fruits and Vegetables
  Figure 15. Overall Ease of Program Use
  Figure 16. Amount of Fresh Fruits and Vegetables Bought
  Figure 17. Amount of Fresh Fruits and Vegetables Consumed
  Figure 18. Amount of Potato Chips, Candy, and Cookies Consumed
  Figure 19. Ease of Program Implementation According to Cashiers
  Figure 20. Length of Time to Complete DUFB Transaction
  Figure 21. Cashier Readiness after Training
  Figure 22. DUFB Earned
  Figure 23. DUFB Redeemed
Tables
  Table 1. Most Commonly Reported [ZIP] Codes of Non-SNAP Customers
  Table 2. Most Commonly Reported [ZIP] Codes of SNAP Customers Not 
    Participating in DUFB
  Table 3. Most Commonly Reported [ZIP] Codes of DUFB Participants
  Table 4. Top Local Products Purchased with DUFB
  Table 5. Top Products Purchased with DUFB Rewards
Acknowledgements
    Special acknowledgements are extended to the many individuals and 
organizations for their contribution to the development and fulfillment 
of this evaluation report. We thank the Health Care Foundation of 
Greater Kansas City and the Franciscan Sisters of St. Mary, which 
provided funding to support the pilot evaluation project. We are 
grateful to Oran Hesterman, Fair Food Network, for supporting the 
expansion of the Double Up Food Bucks program into the metropolitan 
area. We express our gratitude to Price Chopper, especially David Ball, 
for agreeing to pilot the nutrition incentive program in his Kansas 
City stores. We are grateful for Diana Endicott, Good Natured Family 
Farms, who pushed for a grocery store pilot project to be implemented 
and evaluated in Kansas City.
    The evaluation team also thanks the individuals who took the time 
out of their demanding schedules to participate in the interviews. 
These individuals provided insight into how to enhance the Double Up 
Food Bucks program, providing suggestions on implementation, training, 
operations, and continued maintenance. Additionally, we thank the 
following individuals at Price Chopper who were instrumental in the 
evaluation project. We thank Bill Esch for his help in facilitating the 
interview process with cashiers. We also express gratitude for Scott 
Bayne's help in understanding units of locally grown produce sold and 
sales figures. Appreciation is also extended to Lindy Zimmerman, who 
shared volumes of transaction data with us so that we could track 
purchasing habits and redemptions.
    The evaluation team acknowledges Donna Martin, Mid-America Regional 
Council, for her thoughtful review of the findings, and her input 
during the drafting of the final evaluation report. Finally, we thank 
the many research assistants who contributed to the completion of the 
evaluation project: Ahnna Nanoski, Katie Green, Leslie Gedminas, 
Rebecca Mount, Scott Misamore, Taylor Craven, and Zach Boal.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] >

Executive Summary
    Double Up Food Bucks (DUFB) is a program designed to increase 
access to and affordability of fresh fruits and vegetables for 
beneficiaries of the Supplemental Nutrition Assistance Program (SNAP). 
The DUFB program was launched at four Price Chopper locations in the 
Kansas City metropolitan area in the summer of 2015. A research team at 
the University of Kansas Medical Center conducted a mixed-methods 
evaluation to assess the program's impact as well as benefits and 
challenges to the program. Overall, feedback gained about the program 
was positive and supportive.
Customer Surveys

  <bullet> Non-SNAP customers were supportive of the program and 
        thought it provided benefits for SNAP customers, including 
        saving money and eating healthier.

  <bullet> SNAP customers who had not used the program reported they 
        were likely to utilize the program during their next visit to 
        the store.

  <bullet> DUFB participants reported that the program was easy to use 
        and was helping them eat healthier as well as save money.
Price Chopper Employee Interviews
  <bullet> Price Chopper employees enjoyed helping a portion of their 
        customers eat healthier and save money.

  <bullet> Employees reported that the program was easy to implement 
        and did not add a burden on the time to process transactions.

  <bullet> Store directors were satisfied with their participation in 
        the program and reported they would choose to implement the 
        program again.
Transaction Data
  <bullet> Transaction data displayed a redemption rate of 61% through 
        the end of 2015.

  <bullet> A total of over 8,600 unduplicated customers participated in 
        the program from June through December.

  <bullet> An increase of local produce sold was seen across the pilot 
        stores.
Recommendations
  <bullet> Recommendations for enhancing implementation of the program 
        emphasize increased communication and awareness of the program, 
        for both grocery store employees and program customers.
Introduction
    The Double Up Food Bucks (DUFB) grocery store pilot program was 
launched in the Kansas City metropolitan area in the summer of 2015. 
Four Price Chopper stores were included in the pilot program, with 
stores located in both Kansas and Missouri. See Figure 1 for these 
Price Chopper locations that piloted the DUFB program. The Price 
Chopper store on Roe Boulevard launched the DUFB program on June 11, 
2015, while the other three stores launched the program on July 1, 
2015. Although not included in the evaluation plan, a fifth store 
(located on State Avenue) began implementing the program in September 
due to customer requests.
Figure 1. Pilot DUFB Price Chopper Locations
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


------------------------------------------------------------------------
    Store                              Location
------------------------------------------------------------------------
          1   4301 State Ave, Kansas City, KS
          2   4950 Roe Blvd, Mission, KS
          3   9550 Blue Ridge Blvd, Kansas City, MO
          4   12220 S. U.S. Hwy. 71, Grandview, MO
------------------------------------------------------------------------

    The goal of the DUFB program is to increase access to and 
affordability of fresh, nutritious fruits and vegetables for 
beneficiaries of the Supplemental Nutrition Assistance Program (SNAP). 
Additionally, the program aims to support local farmers and the local 
economy. To achieve these goals, the program provides a match of $1 
that can be spent on any fruits or vegetables when customers purchase 
$1 of local produce using their SNAP benefits on their Electronic 
Benefit Transfer (EBT) card. The program utilizes Chopper Shopper 
loyalty cards to track the local produce purchases and the earned 
incentives. Earned Double Up Food Bucks can be used that same day or 
saved for future use. The DUFB program has previously been implemented 
successfully in several areas nationwide, including Michigan, Arizona, 
New Mexico, New York, Ohio, Oklahoma, Oregon, and Utah.
    Mid America Regional Council (MARC) in collaboration with Fair Food 
Network (FFN) contracted with the University of Kansas Medical Center 
to evaluate the incentive program at the four Price Chopper pilot 
locations. The primary objective of the evaluation was to track the 
implementation process of DUFB and provide insight for methods to 
improve this process for potential replication at other grocery stores. 
The evaluation sought to meet this objective by assessing customer 
viewpoints through the administration of intercept surveys, in-depth 
interviews with cashiers and store managers, environmental scans of the 
store environment and assessment of transaction data.
Methodology
    Evaluation of the Double Up Food Bucks (DUFB) program involved a 
mixed-methods approach including customer surveys, Price Chopper 
employee interviews, and analysis of transaction data.
    Feedback from Price Chopper customers on the DUFB program was 
garnered using surveys conducted by trained research assistants at the 
participating grocery stores. The survey sampling plan and schedule was 
developed and implemented based on times SNAP customers most frequently 
shopped at the stores. Surveys were conducted on weekdays and weekends 
as well as during daytime and evening hours to help capture customers 
who may shop at different times and days of the week.
    In addition to conducting customer surveys, interviews were 
completed with Price Chopper employees to gain feedback about their 
experiences with implementation of the program. Interviewers met with 
Price Chopper cashiers, produce managers and store directors, utilizing 
standardized interview instruments. Interviews were digitally recorded, 
transcribed, and analyzed for themes across all responses.
    Program transaction data was shared by Price Chopper and used to 
examine purchasing trends by program customers. Excel was used for data 
analysis.
Customer Survey Data
    To evaluate the perceptions of Price Chopper customers about the 
Double Up Food Bucks (DUFB) program in the Kansas City metropolitan 
area, trained research assistants from the University of Kansas Medical 
Center (KUMC) surveyed individuals at the four pilot grocery stores. 
The administration of intercept surveys took place over the span of 4 
months, from July through October of 2015. Surveyed individuals 
included: (1) non-SNAP customers, (2) SNAP customers who had not used 
the DUFB program, and (3) SNAP customers who had used the DUFB program.
    As the survey data was collected, responses were entered into a 
database. Once surveying was completed, the responses were verified 
against the hard copies and analyzed.
    The following section provides a summary of responses gathered from 
the three customer groups.
Non-SNAP Customers
    Nine hundred eighty six (n=986) surveys were completed by non-SNAP 
customers. Of the store locations, 229 (23%) non-SNAP customer surveys 
were completed at Blue Ridge, 215 (22%) were completed at Grandview, 
151 (15%) were completed at State Avenue, and 391 (40%) were completed 
at Roeland Park (see Figure 2). See Appendix A for the survey 
instrument utilized for non-SNAP customers.
Figure 2. Locations of Surveys Completed by Non-SNAP Customers 
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    When asked in what [ZIP C]ode they resided, respondents gave 
answers representing 83 different [ZIP C]odes. Many participants 
indicated that they live in Wyandotte County (KS) or Jackson County 
(MO). See Table 1 for the five most commonly reported [ZIP C]odes of 
non-SNAP customers.

    Table 1. Most Commonly Reported [ZIP] Codes of Non-SNAP Customers
------------------------------------------------------------------------
                     Number of
   [ZIP] Code       Respondents         City        County       State
------------------------------------------------------------------------
         64134           144 (15%)  Kansas City  Jackson      MO
         64030           109 (11%)  Grandview    Jackson      MO
         66103             85 (9%)  Kansas City  Wyandotte    KS
         66102             82 (8%)  Kansas City  Wyandotte    KS
         66205             65 (7%)  Mission      Johnson      KS
------------------------------------------------------------------------

    Additionally, participants were asked to share the year they were 
born, which was used to calculate their approximate age. As shown in 
Figure 3, respondents represented a variety of age ranges with the 
largest portions of individuals indicating that they were either in 
their 50s (n=199, 20%) or in their 60s (n=199, 20%).
Figure 3. Age of Non-SNAP Customers
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    When asked if they had heard of the DUFB program before shopping 
that day, a majority indicated that they had not heard of the program 
(n=821, 83%). As displayed in Figure 4, of those who had heard about 
it, the most common sources of information included the grocery store 
(n=116) and a flyer/brochure (n=20). Other sources of information 
listed include TV, word of mouth, and social media.
Figure 4. Sources of Information about DUFB
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    Those who had heard of DUFB before shopping that day were asked to 
share what they knew about the program. Many respondents commented that 
the DUFB program is meant to save people money on groceries (n=88) as 
well as that the program involves buying produce and/or local produce 
(n=54).
    Individuals who had not heard of the program were asked if they had 
learned about DUFB while in the store that day, perhaps seeing within-
store signage, talking with produce staff, cashiers sharing information 
about DUFB, etc. A majority responded that they had not received any 
information (n=774 out of 851, 91%) while the remaining 9% of 
respondents (n=77) reported that they heard of the program that day 
while shopping in the store.
    When asked if they thought there were any benefits to the program, 
a majority (n=773 out of 874, 88%) responded affirmatively, stating 
there were benefits to DUFB participation. Of those who reported 
benefits, the most common perceived benefits of the DUFB program 
include that it helps people save money (n=389), encourages individuals 
to eat healthier or eat more fruits and vegetables (n=256), and that it 
supports local farmers or the local economy (n=105). Some respondents 
were unsure if there were benefits to the program (n=59, 7%) and 42 
(5%) indicated that they did not think there were benefits to the 
program.
    Finally, non-SNAP customers were asked about their level of support 
for a program that provides small amounts of extra money to low-income 
families to buy more locally grown fresh fruits and vegetables. About 
75% of respondents indicated that they were very supportive of DUFB 
(see Figure 5 for the distribution of responses to this particular 
question).
Figure 5. Level of Support from Non-SNAP Customers
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

SNAP Customers Not Using DUFB
    Three hundred thirty two surveys (n=332) were completed by SNAP 
customers that had not participated in DUFB. Of the four store 
locations, 71 (21%) surveys were completed at Blue Ridge, 48 (14%) were 
completed at Grandview, 114 (34%) were completed at State Avenue, and 
99 (30%) were completed at Roeland Park (see Figure 6). See Appendix B 
for the survey instrument utilized for SNAP customers that had not 
participated in DUFB.
Figure 6. Locations of Surveys Completed by SNAP Customers not using 
        DUFB
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] >
        
    When asked to indicate the [ZIP C]ode in which they reside, 
respondents gave answers representing 49 different [ZIP C]odes. Similar 
to the non-SNAP respondents, a majority of participants indicated that 
they live in Wyandotte County (KS) or Jackson County (MO). See Table 2 
for the five most commonly reported [ZIP C]odes of SNAP respondents not 
using DUFB.

    Table 2. Most Commonly Reported [ZIP] Codes of SNAP Customers Not
                          Participating in DUFB
------------------------------------------------------------------------
                     Number of
   [ZIP] Code       Respondents         City        County       State
------------------------------------------------------------------------
         66104            54 (16%)  Kansas City  Wyandotte    KS
         66102            49 (15%)  Kansas City  Wyandotte    KS
         64134            32 (10%)  Kansas City  Jackson      MO
         64030             26 (8%)  Grandview    Jackson      MO
         66101             22 (7%)  Kansas City  Wyandotte    KS
------------------------------------------------------------------------

    Additionally, participants were asked to share the year they were 
born, which was used to calculate their approximate age. Many 
respondents were either in their 30s (n=100, 30%) or in their 20s 
(n=89, 27%). Figure 7 displays the distribution of ages of SNAP 
customers not using DUFB.
Figure 7. Age of SNAP Customers not using DUFB
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    When asked if they had heard of DUFB before shopping that day, a 
majority indicated that they had not heard of the program (n=235, 71%). 
Of those who had heard about it, the most common sources of information 
included the grocery store (n=56), a flyer/brochure (n=19), or a friend 
or family member (n=9). Other sources of information listed included 
cashiers and the Special Supplemental Nutrition Program for Women, 
Infants and Children (WIC). Figure 8 summarizes sources of information 
about DUFB reported by survey respondents.
Figure 8. Sources of Information about DUFB
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    Those who had heard of DUFB before shopping that day were asked to 
share what they knew about the program. The most common responses 
include that the program helps people save money (n=25) as well as that 
the program involves buying produce (n=32).
    When asked their reasoning for not using the DUFB program that day, 
the most commonly reported reasons were that they did not know about 
the program (n=64), that they weren't buying produce that day (n=21), 
or that they did not have money on their EBT card (n=21).
    Finally, respondents were asked how likely they were to participate 
in the program the next time they were shopping at the store. A 
majority (n=232, 70%) indicated that they were very likely to 
participate in DUFB during their next store visit. Only 3% (n=10) 
reported that they were not very or not at all likely to participate. 
See Figure 9 for the distribution of responses to this question.
Figure 9. Likelihood of DUFB Participation During Next Grocery Store 
        Visit
 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
        
SNAP Customers Using DUFB
    One hundred four surveys (n=104) were completed by SNAP customers 
who had participated in the Double Up Food Bucks program. Of the four 
store locations, 17 (16%) DUFB customer surveys were completed at Blue 
Ridge, 27 (26%) were completed at Grandview, 34 (33%) were completed at 
State Avenue, and 26 (25%) were completed at Roeland Park. Figure 10 
graphically displays the distribution of responses by store. The survey 
instrument used with SNAP users who had used DUFB can be found in 
Appendix C.
Figure 10. Locations of Surveys Completed by DUFB Participants
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    When asked the [ZIP C]ode in which they reside, participants 
reported 23 different [ZIP C]odes. A majority of respondents indicated 
that they lived in either Wyandotte County (KS) or Jackson County (MO). 
See Table 3 for the five most commonly reported [ZIP C]odes of surveyed 
DUFB participants.

    Table 3. Most Commonly Reported [ZIP] Codes of DUFB Participants
------------------------------------------------------------------------
                     Number of
   [ZIP] Code       Respondents         City        County       State
------------------------------------------------------------------------
         66102            20 (19%)  Kansas City  Wyandotte    KS
         66104            12 (12%)  Kansas City  Wyandotte    KS
         64134            11 (11%)  Kansas City  Jackson      MO
         64030            11 (11%)  Grandview    Jackson      MO
         66101              8 (8%)  Kansas City  Wyandotte    KS
------------------------------------------------------------------------

    Survey respondents also were asked in what year they were born. 
Individuals were most commonly in their 30s (n=33, 32%) followed by 
their 20s (n=25, 24%). See Figure 11 for a distribution of age ranges 
of survey respondents.
Figure 11. Age of DUFB Participants
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    When asked if the SNAP customer had heard of DUFB before that day, 
20% of respondents (n=20) reported that they had not while 80 
respondents (80%) reported that they had received some information 
about the program. Those who had heard of DUFB before that day 
indicated learning of the program from a variety of sources. The most 
commonly reported sources included the grocery store (n=58), followed 
by a flyer/brochure (n=12). Of those who had heard about DUFB from an 
unlisted source, the most commonly reported response was information 
gained from a cashier or a Price Chopper employee working in the 
produce section. See Figure 12 for the distribution of responses to 
this question.
Figure 12. Sources of Information about DUFB
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    When asked if they had used the program to purchase fruits and 
vegetables that day, 48 (46%) responded that they had. Of those who had 
not (n=56, 54%), their reasons for not using the program that day 
include that they did not need produce (n=24), they did not have money 
on their EBT card (n=8), or they just did not understand the program 
(n=6).
    For those SNAP customers who had used the program that day, the 
most commonly reported fruits they purchased that day include apples, 
peaches, and bananas. Additionally, the vegetables most commonly 
reported as purchased that day include tomatoes, onions, and cucumbers.
    SNAP customers who had used the program that day were asked 
questions about the ease of use. A majority of respondents (n=43, 88%) 
indicated that it was very or somewhat easy to identify which fruits 
and vegetables were eligible for DUFB incentives. Only five respondents 
reported it was somewhat difficult while one respondent reported it was 
very difficult (see Figure 13).
Figure 13. Level of Difficulty to Identify Fruits and Vegetables
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    SNAP participants also were asked about the point of sale and how 
long it took to purchase the fruits and vegetables eligible for the 
DUFB incentives while at the register. As displayed in Figure 14, a 
majority of respondents reported that it took about the amount of time 
that they might have expected. Four individuals responded that it took 
a little longer than they expected but none of the respondents reported 
that it took a lot longer than they expected.
Figure 14.Time Spent to Purchase Fruits and Vegetables
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    Additionally, survey respondents were asked how easy it was to use 
the program overall that day. A majority of respondents indicated it 
was very or somewhat easy to use the program. Two participants 
responded that it was somewhat difficult to use the program but none 
responded that it was very difficult. See Figure 15 below.
Figure 15. Overall Ease of Program Use
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    Most participants responded that the program was clear and there 
were no confusing aspects. Only a few individuals commented on the need 
for more or better produce signage to indicate what produce was 
eligible for the DUFB incentives.
    Of those surveyed DUFB customers who had used the program that day, 
a large portion reported that it was their first time using the program 
(n=29, 63%). Of the respondents who indicated it was not their first 
time using the program, 22% reported that they had used Double SNAP at 
a farmers' market. Eighteen percent (18%) of individuals responded that 
it was their first time using DUFB in a grocery store while 82% 
indicated they had used DUFB during a previous visit.
    Only 15 survey participants gave a response for how many times they 
had used DUFB within the past year. Of these individuals, most reported 
using the program two to three times in the past year.
    Of the 20 SNAP recipients who responded to being asked about how 
participation in DUFB might have affected their eating habits, 12 
participants reported the amount of fresh fruits and vegetables that 
they buy has increased because of the DUFB program. As shown in Figure 
16, surprisingly, one individual indicated a decrease in the amount of 
fruits and vegetables purchased.
Figure 16. Amount of Fresh Fruits and Vegetables Bought
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    Additionally, participants were asked if the amount of fresh fruits 
and vegetables that they eat has changed due to the DUFB program. As 
shown in Figure 17, more than \1/2\ of respondents (55%) reported that 
this amount had increased.
Figure 17. Amount of Fresh Fruits and Vegetables Consumed
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    Respondents also were asked about their consumption of potato 
chips, candy, and cookies and if participation in DUFB might have 
altered their eating habits of those items. As displayed in Figure 18, 
about 70% of respondents (n=14) indicated their consumption of these 
items had remained the same while 25% (n=5) reported that it had 
decreased.
Figure 18. Amount of Potato Chips, Candy, and Cookies Consumed
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    Importantly, about 50% (n=8) of survey respondents that were asked 
if they had found themselves budgeting differently since participating 
in the DUFB program indicated that they had.
    For those who responded that they were budgeting differently, they 
were then were asked to describe how DUFB is affecting the way they 
budget. Most commented that it helps them save money and helps them 
afford fruits and vegetables more easily. For example, one respondent 
replied, ``I have extra money to spend on fruits and vegetables'' and 
another commented that due to being able to budget for groceries 
differently, ``My kids eat more fruits and veggies.''
    Finally, survey respondents were asked if they had any 
recommendations for improving the DUFB program. Many respondents 
indicated that they did not have any recommendations or they thought 
the program is great as it is. A few individuals suggested developing 
more awareness and better communication about the program, particularly 
from the store cashiers. Others suggested having more local produce 
options. One respondent commented about the need for the DUFB program 
to be in every Price Chopper store throughout the metropolitan area.
Grocery Store Assessments
    In addition to conducting customer surveys, KUMC research 
assistants completed grocery store evaluation checklists during their 
visits to each of the Price Chopper locations. This checklist served as 
an environmental scan of the store's produce section (see Appendix D). 
The assistants evaluated the quantity and quality of available produce 
and confirmed the presence or absence of locally grown produce signage. 
During the visits, research assistants were asked to evaluate factors 
such as the clarity of DUFB signage, whether there was an adequate 
amount of DUFB signage present, the amount and quality of available 
local produce, the presence or absence of local produce cooking 
demonstrations, and to note the availability of Spanish signage. One 
hundred and seven (n=107) grocery store assessments were completed 
during the pilot.
    Seventy-eight of the assessments (89% out of 88) indicated that the 
clarity of the signage for DUFB produce was unambiguous; it was obvious 
the produce was locally grown. Further, clarity of the signage seemed 
to improve over time. For instance, at the beginning of program 
implementation some signs displayed produce as ``homegrown'' which may 
have caused some confusion for customers as to whether that produce was 
considered locally grown and qualified for the program. Notes from the 
grocery store assessments indicated that on occasion there were 
``local'' signs posted but it was unclear to what specific produce the 
sign applied. Additionally, some posted signs designated produce as 
local but lacked any DUFB program logo, which may have made it unclear 
to SNAP customers if the produce qualified for the program.
    Some stores had sections in the produce department devoted entirely 
to locally grown fruits and vegetables, which made it easy to identify 
those products that qualified for the DUFB program. Large banners were 
also displayed to advertise the DUFB program. These banners were eye-
catching and clearly defined the program's target audience as SNAP 
recipients. Further, at times, local produce signage would also include 
where the particular product was grown (e.g., Grown by Twin Co. Family 
Farms in Rich Hill, Missouri). Overall, modifications to the program 
signage improved over time, with greater visibility and clarity as to 
what produce qualified for the program.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    In addition to within-store signage, Mid-America Regional Council 
used several other methods to advertise and promote the program. These 
methods include print advertising, social media posts, and billboards 
(a total of seven) in various locations.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    Grocery store assessments also examined whether the amount of 
program signage was adequate. A majority of the assessments (n=71 out 
of 86, 83%) indicated an appropriate amount of signage. Research 
assistants noted an abundance of flyers about the DUFB program 
available to SNAP customers. They also observed that the flyers were 
easily accessible to the customers. Stores placed DUFB information 
tables near the produce section, which contained flyers that customers 
could take with them. Occasionally, store employees were stationed at 
the tables so that they could explain how the program worked to 
incoming customers.
    The evaluation checklist also included questions about the locally 
grown produce that was available. Signs and flyers were available at 
the store that listed produce as ``LOCAL THIS WEEK''. Research 
assistants compared the actual amount of locally grown fruits and 
vegetables available in the produce department to this listing. The 
listing of local fruits and vegetables varied from visit to visit as 
the season progressed. Approximately 72% (n=57 out of 79) of grocery 
store evaluations indicated the amount of local produce was stocked 
adequately. However, on several occasions only a limited number of the 
listed items could be found. For instance, blackberries were often 
included on the local produce listing but were unable to be located by 
the research assistants. 
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    Research assistants rated the quality of the local produce as 
``good'' consistently. Approximately 92% of assessments (n=76 out of 
83) indicated that the quality of the local produce on the day of 
assessment was fresh and in good visible condition.
    Research assistants were also asked to take note of other factors, 
such as the presence of cooking demonstrations and the availability of 
Spanish language signage. Although cooking demonstrations did not take 
place during a majority of the occasions that research assistants were 
present at the stores (91%, n=93 out of 102), there were often local 
produce samples available to customers for taste-tests (such as 
tomatoes or cantaloupes). Finally, on only approximately \1/3\ (n=36 
out of 102, 35%) of assessments, research assistants indicated Spanish 
language signage was available at the store. However, program flyers 
and local produce listings included information in both English and 
Spanish.
Price Chopper Employee Interviews
    Interviews with Price Chopper employees were conducted to gain 
feedback about facilitators and challenges to the process of 
implementing the DUFB program. Standardized guides were used to 
complete interviews with employees of the four participating Price 
Chopper stores. Interviews were digitally recorded, transcribed 
verbatim, and analyzed to discover themes across the responses to each 
open-ended question.
    Interviewed employees included cashiers and store directors, as 
well as other employees in roles such as service manager and produce 
manager.
Cashiers
    Fifty-two cashiers (n=52) were interviewed about their experiences 
with the DUFB program. Of the four participating locations, 18 
interviews were conducted at Roeland Park, ten at Blue Ridge, 19 at 
Grandview, and five at the State Avenue location. The interview 
instrument utilized with cashiers can be found in Appendix E.
Length of Time Employed as a Cashier
    The amount of time the cashiers had been working for Price Chopper 
was averaged in years. Overall, the mean number of years working at a 
particular store was approximately 4.3 years across all four stores. 
Cashiers interviewed at Roeland Park reported working for an average of 
3.1 years, Blue Ridge 6.4 years, Grandview 4.2 years, and KCK 3.8 
years.
Ease of DUFB Implementation
    When asked to rate how easy the DUFB program was to implement, 
using a Likert scale from 1 (very difficult) to 5 (very easy), the 
majority of cashiers (n=37, 72%) reported it was either easy or very 
easy to implement. As displayed in Figure 19, 11 cashiers (21%) 
indicated it was neither easy nor difficult to implement while four 
cashiers stated DUFB was difficult or very difficult to implement.
Figure 19. Ease of Program Implementation According to Cashiers
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    Cashiers who indicated it was difficult or very difficult to 
implement DUFB also reported they received no formal training. One 
cashier stated, ``I learned by word of mouth. I did not have 
training.'' Another cashier who rated the ease of DUFB implementation 
as difficult still did not understand the program fully when she 
stated, ``. . . the cash back thing was confusing.'' While another 
cashier struggled initially with implementation stating, ``I really 
didn't understand it [DUFB] was only for food stamps, but now I get it. 
Just getting used to it.''
Factors Affecting Ease of Implementation
    Cashiers were asked to share what was easy or difficult about 
implementing the DUFB program. Most cashiers reported the 
implementation of the DUFB program was straightforward. They described 
several aspects of the process, which made DUFB easy to carry out. 
First, the cashiers emphasized the importance of having specific codes 
to enter into the register to identify the local foods eligible to earn 
incentives. One cashier's statement captured the sentiments of others 
when she stated, ``. . . just having the code we have to type for it 
[DUFB] makes it really easy.''
    Second, many cashiers stated that a listing of locally grown items 
that are eligible for DUFB made the transaction process easier, too. 
This listing helped cashiers know that the items needed to be keyed in 
as locally grown and food bucks would be earned. In contrast, a few 
cashiers at one store stated they had difficulty identifying what 
produce was locally grown and generated DUFB incentives. As one cashier 
shared, ``I think the most difficult part for a cashier is just the 
knowledge of what was local and what wasn't.''
    Many cashiers indicated the use of technology facilitated the 
earning and redemption process. For example, the auto-generated 
computer screen popup allowed the cashiers to press ``acknowledge'' on 
their registers and the customer was able to redeem food bucks easily. 
As a cashier stated, ``the easy part is it's just a code to put in.'' 
Another cashier explained the ease of implementation when she stated, 
``I mean it's just simple because all it is, once you buy the local, 
then you match with any kind as long as you have the EBT card. It's 
just plain and simple. The computer tells you the rest.''
    Others stated the process was made easier by hands-on training. One 
cashier summarized the points of view of other cashiers about the ease 
of implementation when supplemental training was given. She stated, ``. 
 it was easy `cause [sic] they explained the program to us . . . 
kind of went over with us. They gave us the information and what codes 
we use and like told us how to actually do it on the registers.''
    Several other cashiers mentioned that there were difficulties with 
implementation of DUFB. They stated most problems occurred at the 
beginning of adopting the program into the stores. Many cashiers found 
the amount of information shared during the training session to be 
overwhelming. They felt ``trying to understand everything at the 
beginning'' with only one training session made implementing the 
program difficult. However, over time, the cashiers indicated the 
program was easier to implement.
    Many cashiers shared that the most difficult part of the program 
was getting the SNAP customer to understand the process. Several 
cashiers reacted in the same manner, stating ``. . . but the difficult 
part was like sometimes explaining what it [DUFB] was . . . it's when 
you try to explain it to customers. The customers don't get it. So I 
have to keep trying to explain it.'' Similarly, another cashier stated, 
`` trying to explain that the first time they have to buy local 
and second time they can buy anything they want to. Learning how to 
explain it to customers.'' Other cashiers shared examples of how they 
struggled to explain the DUFB process to SNAP customers. They stressed 
the need for additional help for the customer to understand how the 
program works. As one cashier lamented, ``even though we have posters 
up and brochures, we have people out there. they still didn't know what 
we were talking about.''
Extra Time To Process a DUFB Transaction
    Cashiers were asked how much extra time a DUFB transaction demanded 
compared to a regular, non-DUFB transaction. As displayed in Figure 20, 
over 70% of respondents (n=37) reported that a DUFB transaction 
required either the same amount of time or less than 1 minute extra 
compared to a usual transaction. One-fourth of cashiers (25%, n=13) 
thought it took over 1 minute more to complete a DUFB transaction 
compared to a regular transaction.
    Two of the cashiers were not sure if a DUFB transaction took less 
or more time compared to a typical transaction.
Figure 20. Length of Time to Complete DUFB Transaction
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

Number of DUFB Transactions Processed
    Cashiers were asked to estimate how many DUFB transactions they 
have processed since the pilot program began in their particular store. 
Responses varied considerably from less than five transactions to more 
than 15 per day four times per week. The average number of transactions 
across the four stores was 118. At the Grandview store, which had the 
most SNAP transactions of the pilot stores, cashiers reported an 
average of 285 transactions that were processed since the DUFB program 
initially began in their store.
Readiness To Implement DUFB After Training
    Cashiers were asked to think about the training they received to 
work on DUFB and then rate how ready they were to work on the program, 
using a scale from 1 (not being ready at all) to 4 (being very ready). 
As displayed in Figure 21, the majority of cashiers (n=40, 77%) 
reported they felt very or quite ready after the training.
Figure 21. Cashier Readiness after Training
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

Factors Affecting Readiness To Implement DUFB
    When cashiers were asked why they thought they were ready or not 
ready to implement the DUFB program after training, most cashiers 
indicated the extent of training was sufficient to execute the program 
effectively. Many comments about the readiness to implement the program 
were similar. For example, comments shared included,

          ``. . . the training covered everything you needed to know 
        going into it.''
          ``. . . it [the training] couldn't be more direct than 
        that.''
          ``. . . it's such an easy program to run.''
          ``. . . it's an easy process.''
          ``It's just kind of self-explanatory.''
          ``The training was sufficient.''
          ``Well, I felt I was ready because they explained it.''

    Others felt the training was sufficient but expressed the need to 
``get the hang of it.'' They shared that DUFB was similar to any other 
new program to be implemented, ``it's just a matter of getting used to 
it.'' Cashiers who indicated they were not at all ready or not ready to 
implement DUFB did not receive formal training. They reported the only 
training they received was ``by word of mouth.'' As one cashier 
described, ``it was just kind of word of mouth kind of thing. There 
were several weeks that went by before I knew that I was supposed to 
hit acknowledge.'' Another stated, ``I learned from asking other 
cashiers what to do next,'' while another cashier admitted, ``I'm gonna 
be completely honest. I didn't even get the training. I missed that 
day. I came into work the day afterward and just kind of picked up on 
it.'' Additionally, two individuals who stated they were not ready to 
implement DUFB also continued not to be clear about eligibility, asking 
the interviewer, ``is it only for food stamp customers?'' and sharing 
the comment, ``I owed the customer cash back.''
DUFB Appreciation
    When interviewers asked the cashiers to state what they like or 
appreciate about the DUFB program, the overwhelming response was that 
it helps SNAP customers eat healthier. Many similar comments, such as 
``it [DUFB] goes toward helping families so that they eat healthy . . 
'' and, ``. . . it gives them an opportunity to buy more healthier 
stuff . . . easier for them to buy because it gets expensive for fruits 
and vegetables.'' Others stressed how they appreciated helping children 
of low income families eat healthier through the DUFB program, noting, 
``a lot of fruits and vegetables are very, very important in a child's 
meal'' and, ``. . . they're trying to promote healthy eating. We see a 
lot of customers that buy just junk food, preprocessed food, not the 
healthiest choice for their kids. And now you're seeing a little bit 
more fruits and veggies.'' Another cashier responded, ``I feel they eat 
a little more healthier. And for the kids, too. So, I think it's a 
great program.''
    Additionally, many cashiers expressed how much they appreciated how 
DUFB helps SNAP customers save money. Many stated how the program helps 
families, ``get more money back to use for any produce, not just 
local.'' Others stressed how they really like the program because 
``they [the SNAP customers] can stretch that dollar with DUFB.'' One 
particular cashier communicated their appreciation because ``. . . it 
helps most of our elderly customers that we have because sometimes they 
don't get as much on their EBT . . . And I like the fact that I can go 
and help them out.''
    Other cashiers appreciated how the DUFB program supports local 
farmers. As one cashier summarized these feelings, ``. . . it's good 
for local farmers.'' Not only did they value how DUFB benefits local 
farmers but they also appreciated how the program supports the economy 
and increases Price Choppers' business. The cashiers described how the 
entire process benefited more than just the SNAP customer. As one 
cashier captured the opinions of others, ``. . . people come in and 
they bring in a lot of money and they come back in. It increases our 
profits. And helps guarantee my job.''
Suggestions To Improve the Double Up Food Bucks Program
    Cashiers were asked for suggestions to improve the DUFB program. 
Most recommendations fell into three categories: (1) to increase 
customer awareness and knowledge of the program, (2) to expand the 
program to include all fruits and vegetables, and (3) to expand the 
eligibility of the program to include non-SNAP customers.
    Many cashiers suggested additional training to help the customer 
understand how the program works. They recommended the need to seek 
different ways to explain the program to SNAP customers because the 
current strategies were not working well and customers continue to be 
confused and had misperceptions about the DUFB program. The cashiers 
indicated that many of their customers still did not understand how to 
take part in the program. They gave several examples of confusion by 
SNAP customers, sharing ``. . . they think they have to do like 
separate transactions for Double Up Bucks and then for their regular 
food.'' and ``they don't really know what they are entitled to . . .'' 
Moreover, other cashiers mentioned it would be helpful to teach 
customers how to use the produce. They stressed the importance of 
providing examples of different ways to prepare the locally grown 
produce. Similarly, one cashier encouraged food demonstrations to 
improve the DUFB program, ``. . . if we had in-house demos . . . people 
don't know how to use the squash. If we had more demos to get that 
produce out in front.''
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    Several cashiers recommended expansion of the program to include a 
larger variety of local items. They felt more individuals would 
participate in the program if there were more options. Further, other 
cashiers wanted the DUFB program to allow all fruits and vegetables, 
not just locally grown ones. As a cashier stated, ``I don't think it 
should have to be locally grown produce at first. . . . I think it 
should be all the produce because people buy a lot of different 
varieties. If they are more into the exotic type of foods, they won't 
get the local points.'' Another stated, ``if they had more options 
[larger variety of fruits and vegetables], they would be more likely to 
use the program.''
    Many cashiers recommended the program expand to include those who 
are not eligible for SNAP benefits. Several cashiers thought it was 
``unfair'' to those who were struggling financially but not SNAP-
eligible. Fairness to others was a common theme among cashiers with one 
stating this shared opinion, ``I think it would be a good idea to be 
fair to let everybody have access to that [DUFB]. I don't have EBT. It 
would sure help me out a lot. I've even had a couple of customers ask 
me why they can't have it. Because they ask about it and they don't 
think it's fair.'' Similarly, another cashier recommended, ``. . . some 
type of way to help give those customers something, so it's not just 
like you have to be on EBT to get it.'' Another cashier stated, 
``Honestly, I would like it [DUFB] to be given to everyone'' while yet 
another remarked, ``I think it should be for everybody, not just people 
that are on food stamps.''
Store Directors
    Three store director interviews were completed. One store director 
represented two of the participating Double Up Food Bucks locations 
(i.e., Roeland Park and State Avenue). The results of the interviews 
with the store directors are presented below for each question asked. 
The interview instrument utilized with store directors can be found in 
Appendix F.
Most Useful Aspect of DUFB Startup
    When asked to think back to when DUFB was first implemented at 
their store and to identify what was most useful to them for starting 
the program, store directors emphasized the importance of having one-
on-one conversations with employees and customers. One director 
commented that the directors of the four stores who were rolling out 
the DUFB program met as a group and walked through the program at the 
Roeland Park grocery store, which was the site that launched the 
program ahead of the other locations. One store director commented that 
it was helpful to see how the Roeland Park store was implementing the 
program and by doing so, it made the implementation of the program at 
his store much simpler.
Additional Supports Needed
    When asked what would make the program easier to implement, two 
store directors indicated they did not require additional help to 
execute the DUFB program fully. Although the directors did not report 
needing additional help, in-store activities were organized by the 
directors to support the DUFB program. For example, the service manager 
called a storewide meeting to discuss the program and answer employee 
questions to supplement the DUFB training session.
    Additionally, another store director met with each employee 
individually to ensure employees understood the program completely. At 
a different store location, other activities were noted as influential 
in supporting DUFB. The store manager indicated they placed a large 
sign in the produce section about DUFB and positioned an individual 
near the front of the store to explain the program to incoming 
customers to support the DUFB program. One store director commented 
that in the beginning of the pilot, it took time to get the word out 
about DUFB and make certain store staff understood how the program 
works. One store director did comment that the redemption procedure for 
DUFB incentives was ``a little bit confusing at first'' and would 
welcome activities to bolster the understanding of how this process 
works.
Adequacy of Training for Cashiers and Produce Department Staff
    Collectively, the store directors reported the training for 
cashiers and produce department staff was adequate. One director 
commented, however, that the DUFB training was a ``little repetitious 
at first.'' According to another store director, the training for the 
produce department staff was adequate as it was ``pretty easy and self-
explanatory.'' That same director reported the program might have been 
a little more challenging at first for cashiers because they did not 
handle many local and/or organic produce typically but as time passed, 
the cashiers became acclimated to the process.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

Additional Training for Staff
    When the store directors were asked if they provided additional 
DUFB training, one store director reported no additional training was 
conducted while the other two store directors provided supplementary 
training to their staff. Because one store had new employees coming on 
board frequently during the pilot, the director indicated training was 
an ongoing process to make certain employees were informed about DUFB. 
The other store director provided additional one-on-one training with 
their grocery store staff to enhance the employees' understanding of 
the DUFB process. This store director commented that the implementation 
process ``would have gone better with a little more additional 
training.''
Recommendations for Training Enhancement
    Although one store director indicated the DUFB program was ``a 
pretty easy program to implement and understand'' and did not have 
suggestions, other store directors had recommendations to enhance the 
training of employees. One recommendation for enhancement of the DUFB 
training was to develop a training video that explains in detail 
important aspects of the program. A store director commented that it is 
critical for the grocery store team to understand how and why they are 
implementing the program and providing visual aids might be very 
helpful in supporting this effort. Another store director responded 
that reviewing with employees what local produce is stocked within the 
store might be very beneficial. In this manner, the employees can 
identify local produce easily and in turn, could facilitate the 
transaction process for cashiers.
Ease of Processing DUFB By Cashiers At Point of Sale
    When asked to think about the point of sale--when customers get or 
use their DUFB cards/points with cashiers--and the level of difficulty 
for cashiers to process DUFB, two store directors reported that it was 
challenging at first, particularly the first week or 2 of 
implementation. However, they reported it became easier as the cashiers 
adjusted to the process. One director commented that the redemption 
process was the cashiers' most challenging part of the program. A major 
obstacle that affected the process at this store was due to a computer 
issue. For example, if the customer had previously earned DUFB points 
and returned later to buy produce, then the cashier would be prompted 
on the screen to acknowledge if earned points were to be used for the 
current produce purchases. Then, if the cashier pressed the acknowledge 
key and the customer had earned more points than they were redeeming 
that day, then the transaction statement would indicate the customer 
was owed money back. To exacerbate the computer issue further, this 
store serves a large Women, Infants, and Children (WIC) population, 
which also affected the DUFB purchasing process. Many of these 
customers purchased local produce with their WIC vouchers, which led to 
confusion by the cashiers. Due to the computer issue, the cashiers' 
tills would not reconcile with the appropriate balance. The cashiers 
were then placed in an uncomfortable position because they wanted their 
tills not to have variances.
Feedback from Cashiers About Processing DUFB
    All store directors interviewed indicated cashiers at their store 
have responded positively to the program. They reported not hearing any 
negativity towards the DUFB program. The store directors reported the 
DUFB program is met with very positive feeling from the cashiers. For 
example, one store director commented the cashiers are positive about 
the program because they can see how it benefits the SNAP customer and 
increases the business of their grocery store. As a result, the 
cashiers feel the program helps to promote their job security.
Lessons Learned Or Recommendations for Improving Process
    When asked about any lessons learned or recommendations for making 
the DUFB process better, one store director responded it is beneficial 
for the cashiers to ask the customer the extent of their knowledge 
about the DUFB program or at least mention the program at the beginning 
of the transaction when they first notice the customer is using an EBT 
card. Another store director commented about the importance of ``just 
learning the experience of going through it with the customer.'' Store 
directors mentioned that the lessons learned are to understand the 
importance of ``on-the-job experience'' and ``cashiers processing many 
transactions until it becomes routine,'' which are necessary components 
to the process.
Produce Signage for DUFB-Eligible Items
    Store directors were asked to think about the signage in their 
stores for DUFB-eligible produce and to indicate how well the produce 
signs work for DUFB. In response, each of the store directors indicated 
they thought the produce signs worked well for the program. One 
described the signage at their store as an ``evolution.'' He explained 
how they upgraded the signs across the pilot program period to improve 
how the program was described. Although he mentioned the signs included 
a lot of information, providing cues that the SNAP customer will 
recognize immediately is helpful in promoting DUFB-eligible produce.
Feedback from Produce Managers About DUFB Signage
    When asked if store directors had heard any feedback from produce 
managers about how well the DUFB signs worked, the store directors 
reported receiving very few comments from the produce managers about 
signage. They indicated, however, that all of the produce managers were 
supportive of the DUFB program. One store director stated that the 
produce manager would only provide feedback if there were complaints or 
if the produce manager felt the signage was not working well. Because 
he had not received any complaints or remarks about signage from the 
produce manager, he believed all was working well. Another store 
director mentioned that the signage was fine. However, he mentioned the 
availability of some of the local items that were advertised was 
inconsistent and their store had to adjust accordingly.
Lessons Learned Or Recommendations for Produce Signage
    Store directors were asked about lessons learned or recommendations 
to improve produce signage. All store directors stated the signs worked 
well. One store director commented that ``bigger is better when it 
comes to the signs'' because the store needs to grab the SNAP 
customers' attention. He commented, for example, that at the beginning 
of the pilot period, the signs might not have been as effective because 
they were too small and blended in with the surroundings.
Additional Marketing Strategies To Promote DUFB
    Interviewers shared with the store directors that Fair Food Network 
and Mid-America Regional Council used many different strategies to 
communicate and market DUFB to customers and then asked if any 
additional marketing strategies were used to promote DUFB to their 
customers. The store directors mentioned different strategies to 
promote the program. One strategy was to talk directly with customers, 
usually at the point of sale, and let them know the benefits of the 
program.

          ``One thing we did . . . was to tell the customer at the 
        checkout point of sale that this was a great way to spread out 
        their ability to have fresh fruits and vegetables on their 
        table every week instead of just a one-time purchase per month. 
        And that they could actually save, you can accumulate and save 
        the benefit for later.''

    Another strategy included placing tables near their produce section 
that contained information about the DUFB program to help inform SNAP 
customers.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

Effective Strategies
    When asked what strategies to promote the DUFB program were most 
effective, the store directors reported the one-on-one interaction with 
the customers, particularly having cashiers explain the program, was by 
far the most effective strategy. One challenge, however, was to make 
certain all cashiers were explaining the program properly at the point 
of sale.
Experience With Volunteers and Demonstrations
    When asked to describe their experience with volunteers and store 
demonstrations, only one store director reported the presence of 
cooking/food demonstrations. He described the demonstrations as 
excellent and reported the way in which individuals who led the 
demonstrations explained the DUFB program to customers was excellent, 
too. He was impressed by how much detail was shared with customers 
about the DUFB program during the demonstrations. The two other store 
directors commented that they did not have cooking demonstrations but 
did have other type of demonstrations, such as samples of local 
produce. The store directors stated that the individuals who led the 
demonstrations were polite and pleasant. Additionally, one store 
director commented the presence of the University of Kansas Medical 
Center students, who were surveying at the store and were able to 
explain the program in-depth to the customers they talked to, was an 
effective strategy to increase the understanding of the DUFB program.
Lessons Learned Or Recommendations for Marketing the Program
    The interviewers asked the store directors if they had any lessons 
learned or recommendations for marketing the DUFB program to customers. 
One store director commented that discussing the program one-on-one 
with the customers and spreading information about the program by word 
of mouth is the best marketing strategy. Another store director 
described the lessons learned about how to market the program in this 
manner:

          ``I would have to say that the important thing to do, is that 
        you have to be aggressive at the front end of it. You can't 
        slide into it gradually and I'm talking about from a knowledge 
        standpoint. Everybody has to be on the same page when you're 
        starting it. You can't ramp up speed as you go because what 
        that means is that you've got people out there that can't 
        explain the program. And what we saw or experienced was that 
        the program started off slowly but that it gained strength 
        steadily through the year and you want that to happen. But it 
        can't happen if you don't have people that are willing to 
        explain it and know what they're talking about.''
Feedback from Customers About DUFB
    Interviewers asked store directors to share what they have heard 
from SNAP customers about DUFB. The store directors shared that the 
feedback from customers about the program has been positive. As 
reported by one store director, the customers enjoy the ability to put 
healthier foods on the table. Additionally, the customers appreciate 
the flexibility of being able to redeem their rewards across time and 
the freedom to choose when to use their incentive dollars. However, 
this same store director also commented that numerous SNAP customers 
are not knowledgeable about how to prepare many of the local fruits and 
vegetables. He suggested it would be beneficial to include more 
education on the preparation of these items. Another store director 
shared what customers have communicated about DUFB:

          ``The customers like it. Many of them now understand the 
        program so they look forward to using their food bucks and 
        actually plan their buying around the fact that they're earning 
        money. It's part of their budget now.''
Change in Purchasing Behaviors By Customers
    When asked if the store directors have heard from any customers 
that DUFB changed their purchasing behaviors, two store directors 
responded affirmatively. One director stated customers are more willing 
to try new fruits and vegetables, which they had not consumed 
previously. Another director reported hearing how customers are 
budgeting differently so that they can purchase additional fruits and 
vegetables with their earned incentives.
Changes in Your Customer Base
    The interviewers asked the store directors if their stores have 
experienced any changes in customer base because of DUFB. In response 
to this question, one store director commented that it was too 
difficult to know because the store was being remodeled during the same 
months DUFB was being piloted. Another store director reported he has 
noticed more customers ask for organic or local produce. Finally, 
another store director commented:

          ``It would be hard to know [about changes to customer base] . 
        . . But what it does for us, because we're the only store or 
        company that's doing this in Kansas City, at least at the 
        current time, it makes that customer a dedicated customer. In 
        other words, they're going to come back because of that so that 
        strengthens our customer base. And over time, that should 
        continue to happen.''
Locally Grown Produce Purchased By Stores
    Interviewers asked store directors if they believed their stores 
purchased more locally grown produce because of the presence of the 
DUFB program. All store directors indicated they saw an increase in 
purchases of locally grown produce by their store. One director 
commented that DUFB ``pushed'' sales of local produce. Another store 
director reported that he was not definite about overall sale increases 
but was positive about the store purchasing additional quantities of 
specific locally grown items.
Greater Focus on Locally Grown Produce
    When asked if they felt their produce department had a greater 
focus on locally grown produce because of the DUFB program, the store 
directors all responded affirmatively. Additionally, the store 
directors mentioned that displays with information about DUFB and 
tables featuring locally grown produce contributed to the focus on 
local fruits and vegetables. One store director stated that they had 
promoted locally grown produce in the past but the DUFB program was 
more effective.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

Unexpected Benefits
    The interviewers asked store directors if there were any unexpected 
benefits from having DUFB at their stores. Two directors did not 
believe any unexpected benefits emerged from their participation in the 
DUFB program. However, another store director commented that the 
presence of the DUFB program provided an opportunity to have a dialogue 
between the customer and cashier or produce team member. This 
opportunity for dialogue was beneficial because it meant the customers 
were placing trust in the Price Chopper employees to explain about 
locally grown items. It also provided an opportunity for the employees 
to help customers with selecting quality produce and deciding upon what 
and how much to purchase. Overall, he thought having that interaction 
was an unexpected positive benefit, deriving from the DUFB program.
Challenges To Implementing DUFB
    Store directors reported implementation challenges that were out of 
their control, such as computer issues. For example, one store director 
reported that the Double Up points were not visible on the customers' 
receipt. Customers wanted to be able to view the amount earned on the 
locally grown produce purchases. The main challenge to another store 
director was the struggle to increase the SNAP customer's understanding 
of the DUFB program. He commented that many SNAP customers still do not 
understand the process and the benefits of the program.
Advice to Other Grocery Stores
    When interviewers inquired about what advice they would give to 
other grocery stores planning to implement a similar program, store 
directors stressed the importance of education and communication about 
the DUFB program. They emphasized communication should occur in 
parallel with the customers and the grocery store team. For example, 
one store director emphasized how important it was to avoid the 
situation where the customer becomes excited about being able to use 
the DUFB program only to have store employees unable to answer 
questions about the program correctly. He also called attention to 
making certain the SNAP customer understands the program fully, 
including how participation involves long-term benefits.
Improvements Or Recommendations
    Interviewers asked the store directors to share ideas about 
improvements or recommendations for the DUFB program. Store directors 
did not share any major recommendations to improve the program. One 
director commented that word of mouth was very important for building 
the DUFB program. He stressed the importance of finding ways to enhance 
this mode of communication. Another store director recommended that the 
Price Chopper stores acquire a greater variety of locally grown 
produce, which will help promote the DUFB program.
Satisfaction With the Store's Participation
    Overall, the store directors expressed satisfaction with their 
store's participation in the program. As commented by one store 
director:

          ``Very satisfied because I think it's a plus for the company. 
        It's a plus for the customers to eat healthier. I just really 
        don't see any negatives with the program at all.''

    Another director indicated his store has had a positive experience 
with the DUFB program. Further, he welcomed the opportunity to see the 
program continue and expand into other Price Chopper stores.
Implement DUFB Again
    When the store directors were asked if they had it to do over 
again, would they implement DUFB at their grocery store, all store 
directors responded affirmatively. The directors stated they would 
definitely agree to implement the program again at their store.
Transaction Data
    Transaction data from the four Price Chopper locations 
participating in the Double Up Food Bucks pilot program was used to 
analyze the amount of money SNAP users had earned with DUFB as well as 
the amount that had been redeemed. Additionally, the data was used to 
examine which local products were most commonly being bought with the 
program and on which products DUFB users were spending their earned 
rewards. The Roeland Park store launched DUFB on June 11th while the 
remaining three stores launched DUFB on July 1st. Transaction data 
provided by Price Chopper was used to look at DUFB program usage from 
June through December 2015.
    From the launch of the program through the end of 2015, Price 
Chopper customers earned approximately $42,300 across the four stores 
using the DUFB program. As displayed in Figure 22, August was the 
highest-earning month with a total of nearly $12,000 earned across the 
four stores.
Figure 22. DUFB Earned
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Through the end of 2015, DUFB customers had redeemed a total of 
nearly $26,000 on produce using the program. September had the highest 
total redemption of $5,800 (see Figure 23).
Figure 23. DUFB Redeemed
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The total redemption rate (i.e., percentage of earned DUFB rewards 
that had been redeemed) as of December 2015 across the four stores was 
approximately 61%.
    Transaction data was also used to examine what types of produce 
participants were using the program to purchase. Some of the top local 
products customers were purchasing to earn rewards include green bell 
peppers, beefsteak tomatoes, watermelon, cabbage, and cucumbers. Table 
4 shows total amounts of these local products purchased by DUFB 
customers across the four stores.

             Table 4. Top Local Products Purchased with DUFB
------------------------------------------------------------------------
               Product                            DUFB Earned
------------------------------------------------------------------------
     Green bell peppers                                $5,610
     Beefsteak tomatoes                                $5,210
             Watermelon                                $5,140
                Cabbage                                $4,350
              Cucumbers                                $3,230
------------------------------------------------------------------------

    Some of the top produce items customers were using their earned 
rewards to purchase include russet potatoes, iceberg/shredded lettuce, 
watermelon, red grapes, and bananas. Table 5 shows the amount redeemed 
on these five products.

            Table 5. Top Products Purchased with DUFB Rewards
------------------------------------------------------------------------
               Product                            DUFB Earned
------------------------------------------------------------------------
        Russet potatoes                                $1,780
Iceberg/shredded lettuce                               $1,630
             Watermelon                                $1,090
             Red grapes                                $1,050
                Bananas                                  $960
------------------------------------------------------------------------

    The number of unduplicated customers that participated in the 
program through the end of 2015 equals over 8,600 individuals across 
all four participating stores. Although a majority of DUFB participants 
only utilized the program at one store, some participants used the 
program at two or three different locations.
    Price Chopper also shared data about overall sales of local produce 
for their pilot stores, which displayed an increase after DUFB 
implementation. From June-December of 2014 to June-December of 2015, a 
12% increase in units/pounds of local produce sold was seen across the 
four pilot stores. Additionally, a 4% increase in sales of local 
produce (in dollars) was seen across the four stores. Although this 
number varies from units sold, it was indicated that these local 
products were sold at a lower retail price. Thus, Price Chopper 
customers were purchasing more local produce but paying less for these 
products.
Recommendations
Recommendations To Enhance Implementation
    Based on surveys, interviews, environmental scans, and transaction 
data, the following are recommendations to enhance implementation of 
the DUFB program in grocery stores.

  <bullet> Development of a formal, standardized training session 
        enhanced with video, PowerPoint slides or other visual aids 
        that are available to all store employees. Training should be 
        made available to all new employees before they are positioned 
        at the registers.

  <bullet> A refresher course should be offered for those employees who 
        struggle to understand the program. ``Hands-on'' training at 
        the register should take place to help cashiers through the 
        entire process, from the beginning of a SNAP transaction to the 
        end when cashiers share with customers the amount of incentives 
        earned. Continue to have one-on-one conversations with 
        employees and customers to answer questions and ensure 
        employees understand the program completely.

  <bullet> A system should be in place at each participating store to 
        make certain all cashiers have completed training and 
        understand how to implement the DUFB program correctly.

  <bullet> A detailed script should be made available to all employees 
        that addresses frequently asked questions about DUFB.

  <bullet> A listing of locally grown fruits and vegetables eligible 
        for DUFB at each register, which is updated as needed, should 
        be easily accessible to the cashiers so that they know what 
        locally grown produce is available at any given time.

  <bullet> Store directors considering adopting the DUFB program should 
        be invited to visit stores that have implemented the program.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
Suggestions To Improve, Maintain, and Replicate the DUFB Program
    The following suggestions aim to provide guidance for future 
grocery stores that choose to implement the program, based on what was 
found to have worked well during the pilot program and what were 
reported as areas that could use improvement.

  <bullet> Increase customer awareness and knowledge of the program.

    <ctr-circle> Place tables near the produce section that provide 
            information about DUFB and feature locally grown produce.

    <ctr-circle> Encourage cashiers to explain the program to SNAP 
            customers.

    <ctr-circle> Provide samples of locally grown produce for taste-
            testing.

    <ctr-circle> Provide examples of how to prepare various locally 
            grown fruits and vegetables.

  <bullet> Expand the program to include additional quantities and 
        wider variety of fruits and vegetables.

    <ctr-circle> Make certain fruits and vegetables advertised on the 
            listing of locally grown produce are on the shelves.

    <ctr-circle> Seek other locally grown fruits and vegetables, 
            typically not offered at grocery stores.

  <bullet> Expand the eligibility of the program to include non-SNAP 
        customers.

    <ctr-circle> Consider offering incentives for those who are 
            struggling financially but who are not eligible for SNAP 
            benefits.
Discussion
    Double Up Food Bucks is a program designed to increase access to 
and affordability of fresh fruits and vegetables for beneficiaries of 
the Supplemental Nutrition Assistance Program (SNAP). The DUFB program 
was launched at four Balls Price Chopper locations in the Kansas City 
metropolitan area in the summer of 2015. During the summer and fall of 
2015, a research team at the University of Kansas Medical Center 
conducted a mixed-methods evaluation to assess the program's impact as 
well as benefits and challenges to the program. Overall, feedback 
gained about the program was positive and supportive.
    Survey data gathered from Price Chopper customers shows that non-
SNAP participants are supportive of the program and believe it allows 
SNAP participants to save money while eating healthier. Another benefit 
non-SNAP users see in the program is supporting local farmers. SNAP 
participants who had not used the program mainly reported their lack of 
knowledge about the program as their reason for not participating. A 
majority of SNAP beneficiaries reported they were likely to use the 
program during their next visit to the store. SNAP participants who had 
used DUFB reported that the program was easy for them to use, helped 
increase their fruit and vegetable intake, and was helping them save 
money.
    Interviews conducted with Price Chopper employees also displayed 
positive feedback. Employees were supportive of the program and enjoyed 
the fact that it was able to help a portion of their customers to eat 
healthier and save money. Additionally, they reported that the program 
was easy to use, after an initial adjustment period, and that using the 
program did not require additional time to process transactions. The 
store directors all agreed that they were satisfied with DUFB and would 
choose to implement the program again.
    Transaction data from DUFB show that, as of December 2015, DUFB 
customers had earned a total of $42,000 and redeemed a total of $26,000 
across the four stores using the program. This equates to a redemption 
rate of approximately 61%. Popular products purchased using the program 
include bell peppers, tomatoes, watermelon, and potatoes. Overall, an 
increase in sales of local produce was seen across the pilot stores.
    Recommendations for improving the program focus on increased 
communication and education about the program, both for customers and 
for grocery store employees. Having a formal, standardized training for 
employees would be beneficial for ensuring all employees have a good 
understanding of the program. Additionally, introducing an education 
component about preparation of local produce would be helpful for those 
customers who may struggle knowing how to prepare certain items.
Summary
    Results from this evaluation demonstrate that implementation of the 
DUFB program is feasible and replicable in grocery stores. Non-SNAP 
customers were supportive of the program and SNAP customers who hadn't 
used DUFB reported they were likely to utilize the program in the 
future. Additionally, DUFB participants reported the program was easy 
to use and helped them save money while eating healthier. Further, DUFB 
participants showed a high redemption rate of their earned rewards. 
Grocery store employees reported positive experiences with implementing 
the program. Finally, an increase in local produce sold was seen across 
the four pilot stores.
Appendices
Appendix A: Survey for Non-SNAP Customers
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

Appendix B: Survey for SNAP Customers Not Using DUFB
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

Appendix C: Survey for SNAP Customers Using DUFB
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

Appendix D: Grocery Store Assessment
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

Appendix E: Cashier Interview Instrument
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

Appendix F: Store Director Interview Instrument
    As you may know, Double Up Food Bucks is being piloted at grocery 
stores in the Kansas City metropolitan area. We'd like to understand 
from your perspective, what has been working well with Double Up Food 
Bucks, what hasn't been working well, and how you would improve the 
program. This interview will take about 20-25 minutes and is 
confidential--your answers will be compiled with those from other 
managers across the pilot grocery stores. Do you have any questions 
before we start?
    Please think back to when you first implemented Double Up Food 
Bucks in your store.

  1.  Please think about the training you received to start up DUFB in 
            your store.

      <bullet> What was most useful for starting DUFB?

      <bullet> Were there additional supports that you wish you had 
            received to imple-
              ment the DUFB program?

  2.  When you think about the training for cashiers and produce 
            department staff . . . 

      <bullet> Was the training adequate?

      <bullet> Did you provide additional training for your staff?

      <bullet> What recommendations do you have for enhancing the 
            training?

    Please think about the point of sale--when customers get or use 
their DUFB cards/points with cashiers . . . 

  3.  From your perspective, how easy or challenging was it for 
            cashiers to process DUFB?

      <bullet> What feedback, if any, have you heard from cashiers 
            about processing
              DUFB?

      <bullet> Do you have any lessons learned or recommendations for 
            making that proc-
              ess better?

    Please think about the signage in the store of DUFB-eligible 
produce .  

  4.  From your perspective, how well did the produce signs work for 
            DUFB?

      <bullet> What feedback, if any, have you heard from produce 
            managers about the
              sign work?

      <bullet> Do you have any lessons learned or recommendations for 
            produce
              signage?

  5.  Fair Food Network and Mid-America Regional Council used a lot of 
            different strategies to communicate and market DUFB to 
            customers.

      <bullet> Did you use any additional marketing strategies to 
            promote DUFB to
              your customers?

      <bullet> What strategies do you feel were most and least 
            effective and why?

  6.  Please describe your experience with the volunteers and/or demos.

  7.  Overall, do you have any lessons learned or recommendations for 
            marketing the program to customers?

    When you think about your customers . . . 

  8.  What feedback have you been hearing from customers about DUFB?

  9.  Have you heard from any customers that DUFB changed their 
            purchasing behaviors? If so, how?

    Other outcomes

  10. Has your store experienced any changes in your customer base as a 
            result of DUFB? If so, in what way?

      <bullet> From a purchasing perspective, do you believe that your 
            store purchased
              more locally grown produce by having the DUFB program?

      <bullet> Do you feel your produce department had a greater focus 
            on locally grown
              produce because of the DUFB program?

  11. Did any other unexpected benefits emerge from having the DUFB 
            program at your store?

    Overall . . . 

  12. What have been any other challenges we haven't mentioned so far 
            with implementing DUFB?

  13. What advice would you give to other grocery stores planning to 
            implement a similar program?

  14. What improvements or recommendations would you have for the DUFB 
            program?

  15. Overall, how satisfied have you been with your store's 
            participation in the program and why?

  16. If you had it to do over again, would you agree to implement DUFB 
            at your grocery store?

    The Chairman. Thank you, Mr. Beal. I appreciate that.
    Ms. Hess, 5 minutes.

         STATEMENT OF PAMELA HESS, EXECUTIVE DIRECTOR,
             ARCADIA CENTER FOR SUSTAINABLE FOOD &
                  AGRICULTURE, ALEXANDRIA, VA

    Ms. Hess. Thank you. My name is Pamela Hess, I am the 
Executive Director of Arcadia, and I am beyond excited to be 
here this morning.
    I came to the nonprofit food world from national security 
journalism. I covered the wars in Iraq and Afghanistan, and 
consequently, I spent a lot of time visiting people who had 
been injured, at Walter Reed. And as you know, the signature 
injury of those wars is a lower limb amputation.
    So fast-forward to 2013 when I joined the nonprofit Arcadia 
Center for Sustainable Food & Agriculture, as Executive 
Director, here in D.C. Arcadia is dedicated to, among other 
things, dismantling the barriers to a healthy diet, which, in 
D.C., tend to be geography and income, and we reconnect the 
urban core to the rural economy.
    The first time I went into the low-food access 
neighborhoods that we serve, I saw a remarkable number of 
people in wheelchairs and on crutches with amputated limbs, and 
I thought they were war veterans. My staff told me I was wrong; 
they have diabetes.
    So here is some perspective. There are about 1,500 
amputations from the wars in Iraq and Afghanistan, over 10 
years of war, a result of a very diabolical and determined 
enemy. Do you know how many diabetic amputations there are in 
the United States in a given year? Let's look at 2010: 73,000 
in 1 year. This is not a health system problem, or at least not 
just a health system problem, this is also a food system 
problem. It is about what you eat. But what you eat is largely 
dictated by the food that is convenient and affordable to you. 
For most low-income people in this city, that means processed 
and convenience foods, the excessive consumption of which 
correlates strongly with chronic diseases like diabetes, heart 
disease, hypertension, obesity, and many forms of cancer. We 
can't condemn people for making bad choices if they don't have 
a choice to begin with, at least not a convenient and 
affordable one. So Arcadia's mobile markets are trying to 
change that.
    Our mobile markets are rolling farm stands that sell a 
complete healthy diet at affordable prices and convenient 
locations. You have our schedule in front of you. We make 14 
regular weekly stops in our area.
    Because we exclusively serve low-income neighborhoods, we 
accept eight forms of tender at least, each of which has unique 
rules. For instance, we double SNAP for fruits and veggies as 
well as proteins, and the fruits and veggies come through the 
Food Insecurity Nutrition Incentive Program that you all funded 
in the last farm bill, and we thank you for that because it is 
making a powerful impact on our customers. But all of those 
forms of tender make for a really complex point of sale that 
can be frustrating for my staff, a few members of whom are here 
today, and certainly for our customers.
    So in 2015, we helped design and started using a custom 
iPad-based mobile point of sale system that we use out at our 
mobile markets. Our partner is Perigee Labs. It is called the 
Arcadia Farmers Register, and like other point of sale systems, 
it speeds transactions and improves our accounting, and it 
helps us manage our inventory. But more importantly, it 
collects data that gives us keen insight into what our SNAP 
customers are purchasing, where, when, and how they are using 
FINI to maximize their nutrition per dollar. As near as I can 
tell, we are the only farmers' market or farm stand using 
something like this.
    And so here is what we know from our data, and first the 
big picture. Our customers, the vast majority of whom are low-
income, have pumped nearly $468,000 in new revenue into the 
rural economy, into the hands of farmers in the Mid-Atlantic 
since 2012. That is a powerful vote for healthy food.
    Since 2012, the mobile market's annual revenues have 
increased by more than 400 percent, with no marketing budget, 
while serving some of the poorest neighborhoods in D.C. That is 
another vote. It is all by word-of-mouth.
    Because we locate in the neighborhoods where folks who use 
SNAP live, work, or go to school, we have a disproportionate 
impact on this community.
    So let's be clear. We are small, we are adorable, we roll 
around town selling vegetables out of the back of the green 
bus. So let's modulate our expectations here. We do less than 
two percent of all farmers' market business in Washington, 
D.C., but we redeem 30 percent of all SNAP benefits at farmers' 
markets in Washington, D.C., and that is because we are 
convenient, we are affordable, our food is first quality, it is 
not gleaned, it is not borrowed from other farmers' markets at 
the end of the day. And if you still wonder whether people on 
SNAP want healthy food, here you go. In 2012, our average SNAP 
customer took home about $7.50 worth of food from the mobile 
market. That has nearly tripled to $19 per SNAP transaction at 
the mobile market in this last year. So FINI encourages healthy 
purchases. And again, this is what you all funded in the farm 
bill. Our SNAP customers are the most likely among all of our 
low-income customers to reach into their pockets for cash to 
buy even more food. That is important because it means our SNAP 
customers value the food enough to buy it without the 50 
percent discount they are getting from FINI. When our SNAP 
customers also use cash, they spend an additional $6.93 per 
transaction, on average, and that goes straight into local 
farmers' pockets.
    In 2015, 70 percent of our SNAP transactions included 
produce. In 2016, the total was 81 percent. That is a bold 
upward trend for produce.
    So let me repeat that, because of FINI, the popularity of 
produce is trending up.
    Now for the nitty-gritty. The top four products sold to our 
SNAP customers in 2016 were fruits and veggies. We sold 972 
pounds of apples, 860 pounds of peaches, 514 pounds of onions, 
409 pounds of kale. In the last 2 years since we instituted our 
point of sale system, we have sold 675 pounds of apples, 1,475 
pounds of peaches, 1,098 pounds of cantaloupe, 812 pounds of 
potatoes, and 796 pounds of kale. We are demonstrating every 
day that if you make wholesome food affordable and convenient, 
low-income people will purchase it and consume it in ever-
increasing amounts. That is good for the rural economy, and it 
is great for public health.
    I look forward to your questions. Please ask me about 
Yvonne Smith, one of our customers.
    [The prepared statement of Ms. Hess follows:]

 Prepared Statement of Pamela Hess, Executive Director, Arcadia Center 
           for Sustainable Food & Agriculture, Alexandria, VA
    Thank you, Mr. Chairman, and to the Ranking Member for having me 
here today.
    I came to the nonprofit world from journalism. I covered the 
military and the CIA for nearly 20 years. I covered the wars in Iraq 
and Afghanistan, and consequently I spent a lot of time visiting people 
who had been injured visited at Walter Reed. As you know, the most 
visible injury of those wars is a lower limb amputation.
    Fast forward to 2013 when I joined the nonprofit Arcadia Center for 
Sustainable Food & Agriculture here in D.C. Arcadia is dedicated to 
among other things dismantling the barriers to a healthy diet.
    The first time I went out on Mobile Markets in the low-food access 
neighborhoods we serve, I saw a remarkable number of people in 
wheelchairs and on crutches, with amputated limbs. I thought they were 
war veterans. I was wrong. They were victims of diabetes.
    There have been about 1,500 amputations from 10 years of war, 
resulting from the work of a very diabolical and determined enemy. Do 
you know how many diabetic amputations there are in this country? In 
2010 alone, about 73,000.
    This isn't just a health system problem. This is a food system 
problem: what you have access to, what you can afford, and what you 
consume.
    There are two food systems. There is the one most of us enjoy, 
where you can access just about anything you want, whenever you want. 
But if you have limited income and lack reliable transportation, you 
are primarily eating what's in your immediate neighborhood, which for 
most low-income people in Washington, D.C., means what's available from 
convenience stores and fast food.
    If we are going to address the galloping rates of chronic disease 
which cost the United States somewhere north of $300 billion a year, 
healthy foods need to be just as ubiquitous, inexpensive and appealing 
as the processed and convenience foods that so many of us--regardless 
of income--eat regularly. If you have ever tried to diet, you know how 
hard it is. If you can't afford healthy food or access it conveniently, 
it is almost impossible to make a sustained change in your diet.
    And we all pay the price for the bad quality diets most Americans 
eat. Beyond the human cost, as a nation we all bear the burden in 
increased health care costs, insurance premiums, Medicaid, Medicare, 
and lost productivity.
    Arcadia is trying to fix that, here in Washington.
    Our nonprofit was established in 2010 by restaurateur Michael 
Babin.
    We work in three interlocking mission areas:
Sustainable Agriculture
    We grow food on our vegetable farm in suburban Virginia on the 
grounds of the National Trust for Historic Preservation's Woodlawn-
Pope-Leighey. We train military veterans to be farmers on that same 
land, which incidentally was once cultivated by George Washington 
himself after he resigned his military commission. So we are increasing 
the supply of wholesome food and farmers to grow it in our region.
Farm and Nutrition Education
    Then we use the farm as a campus for school children to learn about 
agriculture, connect the food they eat to where it originates, and to 
get them excited about healthy food. It works: we see a 29 percent 
increase in the number of kids who like eating beets after they attend 
a field trip to our farm. So we are building demand for wholesome food 
even as we add to the supply.
    But none of that does any good if you don't have a way of getting 
that food into the hands of the people who need it the most.
Food Access
    That is where our market-based distribution model comes in. We have 
two Mobile Markets. The Mobile Markets are rolling farm stands that 
stock a complete healthy locally grown diet--from fruit and vegetables 
and herbs to milk, pastured and grass fed meat, eggs, and sustainably 
sourced fish. We take the farm stand to neighborhoods without a 
quality, affordable source of food. We pop out our awning, set up 
tables and tents and within about 30 minutes, have a fully functioning 
farmers' market. We do this at 14 regular weekly stops in low-food 
access neighborhoods--places with high use of SNAP (the supplemental 
nutrition assistance program), low-car ownership and typically no store 
that can support a healthy diet within about a mile. We serve areas 
where people don't have much money, rely on public transportation, and 
have limited geographic access to wholesome food.
How the Mobile Markets Work
    The Arcadia Mobile Markets prove that if you make high-quality food 
affordable and convenient, you can change the way people eat. Because 
our work centers on low-income communities, it is especially applicable 
to this discussion.
    Healthy food needs to be just as ubiquitous, cheap and appealing as 
the processed and convenience foods that so many of us--regardless of 
income--eat regularly. If you have ever tried to diet, you know how 
hard it is. If you can't afford healthy food or access it conveniently, 
it is almost impossible to make a sustained change in your diet.
    This is not an emergency food pantry, as necessary as those are. 
Our customers spend their own resources--be it their own money or a 
nutrition benefit--to select the most nutritious, fresh, local food. 
They buy it. They value it. They eat it.
    We accept at least eight forms of tender--SNAP, WIC, Senior FMNP 
vouchers, Produce Plus vouchers, cash, debit, credit and our own 
coupons. Each of the forms of tender has their own rules. We also 
double WIC and Senior vouchers, but those are only for produce. PPP is 
good for $10 in produce and is not doubled.
    We make it affordable by matching SNAP purchases at the register 
for fruits, veggies, and proteins dollar for dollar. What that means 
for our customers is a 50 percent discount on the highest quality food 
possible. Our fruit and vegetable SNAP sales are matched through the 
Food Insecurity Nutrition Incentive program the Congress funded in the 
last farm bill via our partner Wholesome Wave. It is a game changer, 
which our data demonstrates.
    Our SNAP protein sales or clean, grass-fed, pastured meat, eggs, 
and milk--and our fruit and veggie match for WIC and Senior FMNP 
vouchers--are matched by other donors, including the Bainum Family 
Foundation, William S. Abell Foundation, Power Supply, Inova, George 
Washington University's Inversity program, and Alston & Bird.
Leveraging Technology to Increase Food Access
    As you can imagine, this makes for a complex, and sometime 
confusing point of sale. To make our transactions and our financial 
reporting easier, in the winter of 2014 we put up a request on Facebook 
for someone savvy with technology to help us create a point of sale 
system we could use on the Mobile Market to easily ring up our 
transactions.
    Perigee Labs stepped up to partner with us, and they designed an 
elegant, iPad-based point of sale system--a glorified cash register--
that we can use at our market stops to ring up sales that does all that 
math for us without a WiFi connection. Because we are a nonprofit and 
want to minimize costs, we built this for a second-generation iPad, 
available refurbished for around $250.
    The Arcadia Farmers Register speeds customer transactions, manages 
inventory, and expedites financial reporting. Because it associates 
every transaction with the form of tender used to purchase it, the 
location, time, and price, it also yields valuable data on the food 
purchasing patterns of our customers. Arcadia is now working with the 
city of Washington to use the data to inform and design food policies 
and interventions that encourage the purchase of nutrient dense foods.
    The Arcadia Farmers Register is a scalable solution to creating a 
national database of healthy food purchasing behaviors available free 
of charge to government policy makers and public health researchers. It 
can also be used to ascertain prices at farmers' markets nationwide, 
and to improve the farm business valuation system used to determine 
capital lent to small farmers.
    It was used this year by ten organizations and farms across the 
nation who are also working in healthy food access.

  Real Food Farm in Maryland,
  Grow Ohio Valley in West Virginia,
  The Kellyn Foundation in Pennsylvania,
  Waterloo Greens to Go in Iowa,
  Healthy Here in New Mexico,
  Vegas Roots in Nevada,
  Seacoast Eat Local in New Hampshire,
  Good Food Bus in Maine,
  DC Urban Greens in Washington, D.C., and
  Mill City Grows in Massachusetts.
Data Gathering
    But the more we used the Farmers Register, the more we began to see 
its transformational value: the data on the back end. Because of the 
Arcadia Farmers Register, we understand what our customers buy, what 
they want, how they use their Federal nutrition benefits, and how they 
combine them with cash or other benefits to maximize the healthy food 
their families get.
    We can analyze the impact interventions like cooking demonstrations 
and coupons have on promoting products and changing behaviors. We no 
longer go ``on our gut'' or anecdotally to determine what works in 
improving our customers' diets. We can rely on cold, hard data.
    The question is often asked: what are SNAP customers using the 
benefit to buy?
    As a rule, people in my line of work have relied primarily on self-
reporting surveys of SNAP customers to answer that question. While 
useful, the results can be a little unreliable. Ask me what I had for 
breakfast this morning and I am far more likely to admit to my oatmeal 
at 7 a.m. than I am to the donut chaser at 10 a.m. The Arcadia Farmers 
Register tracks what customers who use SNAP purchase at every stop, 
every day, every week, every season.
    Because they choose what they want and spend their own resources, 
we know they are eating the food. We can measure actual changes in 
purchasing patterns, track improvements, and figure out what works to 
increase our customers' consumption of the most nutritious foods.
Results
    First, the big picture:

  <bullet> Our customers, the vast majority of whom are low income, 
        have pumped more than $468,000 in new farm sales into the rural 
        economy in the Mid-Atlantic--revenue farmers would not 
        otherwise have without the Arcadia Mobile Markets as they do 
        not have access to these customers.

  <bullet> Since 2012, Mobile Market annual revenues have increased by 
        more than 400 percent with no marketing budget while serving 
        the poorest neighborhoods in Washington, D.C. This remarkable 
        increase in revenue has occurred almost entirely through word 
        of mouth. Our sales have increased because our customers love 
        the food and the prices

  <bullet> Although the Mobile Markets represent less than two percent 
        of total farmers' market revenues in Washington, D.C., we 
        redeem about 30 percent of all SNAP benefits used at farmers' 
        markets in the city. We have a disproportionate impact on the 
        SNAP-using community. We attribute this to our locations--we 
        are convenient to SNAP customers--to our prices, to the high 
        quality and variety of offerings, and to our customer service.

  <bullet> In 2012, our average SNAP customer took home about $7.50 of 
        food from the Mobile Market That has nearly tripled to about 
        $19 per SNAP transaction. That means our SNAP customers tried 
        this food and doubled down using their EBT cards. They have 
        increased their demand and consumption of nutritious food.

    The impact of FINI: FINI encourages healthy purchases:

  <bullet> Our SNAP customers are the most likely among all low-income 
        customers to reach into their pockets for cash to buy even more 
        food. This is important because it means that these customers 
        so value the food they get they are willing to spend their own 
        money on it without getting the 50 percent discount. This is 
        proof the FINI program works and meets a need.

  <bullet> More proof the FINI program is creating converts. While SNAP 
        customers only used cash in two percent of their transactions 
        during the past two season, those two percent are strong users, 
        with an average amount of additional cash spent at $6.93 per 
        transaction. Compare that to the next highest users, PPP 
        customers, who are getting $10 in free fruits and veggies. PPP 
        customers who spend cash spend an average of $2.22. Keep in 
        mind that SNAP can be spent on any food at any store. In 
        contrast, PPP is free and can only be used for produce at 
        farmers' markets in D.C. This statistic, while complex, is 
        important because it demonstrates that SNAP customers are 
        willing to invest more of their own resources, which could be 
        spent on any SNAP eligible item, on produce and then invest 
        their own money.

  <bullet> We did 3,769 SNAP transactions over the last two seasons. 75 
        percent of all SNAP transactions went for produce. That number 
        is trending up, from 70 percent [in] 2015 to 81 percent in 
        2016.

  <bullet> The increase in produce sales to SNAP customers is 
        remarkable considering the similar increase in D.C.-funded 
        Produce Plus benefits. That means overall demand for healthy 
        produce is sharply increasing.

    SNAP customers spent more than $37,000 on produce during the past 
two seasons, \1/2\ of the total attributable to FINI:

  <bullet> 1,675+ pounds of apples.

  <bullet> 1,475+ pounds of peaches.

  <bullet> 1,098+ pounds of cantaloupe.

  <bullet> 812+ pounds of potatoes.

  <bullet> 796+ pounds of kale.

    The popularity of produce is trending up:

  <bullet> The top 4 four products sold to SNAP customers in 2016, 
        based on transactions, are `Produce'--they are in fact six of 
        the top ten. Our SNAP customers have other choices--they can 
        also buy meat, eggs, cheese and milk. But they increasingly 
        choose fruits and vegetables, and more of them.

  <bullet> That is a dramatic change from 2015, when produce cracked 
        the top four only once: apples.

    In 2016 our top 4 SNAP purchases, all of which leveraged FINI 
funds:

  <bullet> 972 pounds of apples, a 38 percent increase over 2015.

  <bullet> 860 pounds of peaches, a 40 percent increase over 2015.

  <bullet> 514 pounds of onions, an 83 percent increase over 2015.

  <bullet> 409 pounds of kale, a six percent increase over 2015.

    More than 70 percent of our transactions occur with verified low-
income customers using some form of nutrition benefit. Here's what we 
know since we implemented the Farmers Register in 2015. It is just a 
taste of what our customers took home from us for the last two seasons.

  <bullet> 7,865 customers bought 14,467 lbs of local peaches.

  <bullet> 7,810 customers bought 13,879 lbs of local apples.

  <bullet> 1,984 customers bought 7,473 lbs of local watermelons.

  <bullet> 2,385 customers bought 9,814 lbs of cantaloupe.

  <bullet> 3,706 customers bought 5,195 lbs of kale.

  <bullet> 2,871 customers bought 4,258 lbs of summer squash.

  <bullet> 2,277 customers bought 4,019 lbs of sweet potatoes.

  <bullet> 2,160 customers bought 5,587 lbs of cabbage.

    Nutrition incentives change lives.
    One of our customers, Yvonne Z. Smith, shared her story with me. 
Yvonne is 64, in her own home in Washington, D.C.'s Ward 8. She has 
crippling arthritis and is on disability--like many seniors in this 
country she is at particular risk of food insecurity. Until this year 
she was diabetic. Because her housing costs are more than 50 percent of 
her income, she qualifies for SNAP--a total of $16 a month. It's not 
much, but it helps.
    She uses SNAP at the Mobile Market, so her $16 becomes $32. She 
leverages PPP get even more produce and also uses cash.
    She has cut all processed foods and simple sugars out of her diet. 
She cooks collards and kales in big batches in a crockpot twice a 
month, freezes them, and eats them three times a week. She has raw 
salads four times a week. The magnesium in the greens cuts down on the 
inflammation from arthritis. She eats brown rice and only rarely white 
potatoes.
    Yvonne is now free from diabetes. The Mobile Market's rich, 
seasonal selection of affordable, sustainably grown vegetables is 
critical to her transformation and ongoing health.
    ``Organic is seen as something only for the rich. Having access to 
vegetables that you might not try is important,'' she told me. 
``Mushrooms, for example. I use them when I cook beef and that means I 
cut down on the amount of beef because of the texture, and (Arcadia 
has) them more reasonable than grocery stores.''
    ``I am the person for whom just a little help is important,'' she 
told me. ``It is the access to the vegetables within blocks of me that 
made all the difference, and the (incentives).''
About Arcadia
The History of the Arcadia Center for Sustainable Food & Agriculture
    Washington, D.C. restaurateur Michael Babin founded Arcadia to fix 
a problem he first came into contact with when trying to source local, 
responsibly well-grown fruits and vegetables for his restaurants. The 
supply was small and the price was high.
    He asked himself: if this is so difficult for me, what does that 
mean for the rest of Washington? That question quickly led him to the 
public health crisis engendered by our food system: exceptionally 
effective at producing nutrition-free calories that are cheap at the 
point of sale but devastatingly expensive for public health. With few 
nutritious choices, constrained resources, and limited transportation, 
low-income communities suffer disproportionate rates of chronic disease 
that result from our industrial food system--diabetes, hypertension, 
heart disease and obesity. The health care cost to the United States 
annually is staggering--nearly $\1/2\ trillion.
    Babin created Arcadia, a 501(c)[(3)], in 2010 to innovate solutions 
to the gaps he saw in the local food system with the mission of 
improving public health through food.
    He established Arcadia on the National Trust for Historic 
Preservation's Woodlawn-Pope-Leighey site in Alexandria, Va., just 14 
miles from the nation's capital. Woodlawn is the first property the 
Trust ever purchased to save, and Arcadia has returned agriculture to 
this historic farm. This land was Dogue Run Farm, once part of George 
Washington's Mount Vernon. But its significance for the local food 
movement goes well beyond the first President.
    In 1846, 2 decades before the Civil War and the Emancipation 
Proclamation, timber merchants bought the then--2,000 acre--property 
from Washington's family. These merchants were, not insignificantly, 
Quakers and abolitionists, and they had a plan for the property: 
Woodlawn would be a slavery-free farming community that would prove to 
the rest of the South that slavery was not necessary for a farm to 
thrive. They sold plots to free African-Americans, Irish and German 
immigrants, and other Quakers. They established the mansion as an 
integrated school for the town's children and created an integrated 
militia to protect the citizens. As a ``free labor zone,'' for the 
first time in the Woodlawn's history, it was a profitable farming 
operation.
    Arcadia, like the Quakers before us, is using food and agriculture 
to advance social justice.
    Standing on the shoulders of those who came before, Arcadia is 
partnering with the National Trust for Historic Preservation to 
transform the 126 acre Woodlawn-Pope-Leighey estate into a true Center 
for Sustainable Food & Agriculture.
    Just 25 minutes from Washington, D.C., Arcadia at Woodlawn will 
offer a landmark destination farmhouse restaurant, year-round farm 
stand, farm cafe, Virginia wine and cider tasting room, and craft food 
pavilion that will link the property's inspiring legacy of social and 
racial justice to food equity, public health, and the strengthening of 
the regional food system. Arcadia's programming and events will be 
expanded to include food policy conferences, lectures, culinary and 
gardening classes, edible landscaping, art and design events, and an 
expanded veteran farmer training program, enriched school programs, and 
experiential agriculture.
    Arcadia at Woodlawn will once again reclaim the central role the 
property has historically occupied, serving as a beacon for food 
justice, environmental sustainability, and a healthy food system.
    Arcadia has launched a $20 million capital campaign to fund the 
rehabilitation of the historic farm buildings and finance new 
construction.

    The Chairman. Thank you, Ms. Hess. You will need to learn 
to talk a little quicker.
    Ms. Newport for 5 minutes.

       STATEMENT OF MELINDA R. NEWPORT, M.S., R.D./L.D.,
          DIRECTOR, WIC AND CHILD NUTRITION PROGRAMS,
         CHICKASAW NATION DEPARTMENT OF HEALTH, ADA, OK

    Ms. Newport. Good morning, Mr. Chairman, and Members of the 
Committee. Thank you for the invitation to present testimony 
today. I would particularly like to acknowledge Congressman 
Lucas, and thank you for your many years of service to Oklahoma 
citizens.
    My name is Melinda Newport, I am Director of WIC and Child 
Nutrition Programs with the Chickasaw Nation. I bring you 
greetings from Bill Anoatubby, Governor of the Chickasaw 
Nation.
    The Chickasaw Nation has more than 63,000 citizens, and our 
jurisdictional boundaries encompass 13 counties in south 
central Oklahoma. We administer several USDA FNS programs, as 
well as a variety of nutrition-related demonstration and 
research projects. As a registered dietician, having worked at 
the national level on many challenging nutrition program issues 
over the last 30 years, I am pleased to share the innovation in 
our Healthy Hunger-Free Kids Act Demonstration to End Childhood 
Hunger, also known as Packed Promise.
    Although we administer a number of Federal, state, and 
Tribally funded nutrition programs, we still find there are 
gaps in rural areas; evidenced by the fact that 15 percent of 
households remain food-insecure. One in four children in 
Oklahoma experience hunger. Transportation is often an issue 
among the food-insecure clients, and limited access to grocery 
stores with quality food choices in rural areas is common. To 
help eliminate these barriers, as well as the stigma often 
associated with food-assistance programs, the idea for direct 
mail food benefit via an online grocery shopping experience was 
conceived. The Packed Promise project is designed to test the 
viability of an online ordering system and home delivery of 
food benefits to household with school-age children who qualify 
for free school meals. A unique feature of the Packed Promise 
project is the partnership between the Chickasaw Nation and 
Feed the Children, a nonprofit food assistance organization. 
This public-private partnership with Feed the Children provides 
logistics experts, a broad network of volunteers, and the food-
buying power to allow an increased number of children to be 
served for far fewer dollars. Families choose from five food 
packages comprised of nutrient-dense, shelf-stable food items 
from a food ordering website. A couple of examples of the food 
packages may be found in the printed version of this testimony. 
Each child receives one 25 pound box of shelf-stable foods, 
plus a $15 fresh check to purchase fresh or frozen fruits and 
vegetables at Chickasaw Nation WIC-authorized retailers or 
farmers' markets. This benefit provides adequate food for an 
evening meal, plus one snack each day, intended to supplement 
the National School Lunch Program.
    The overall goal for the food package is to provide a well-
balanced, nutrient-dense food benefit that offers commonly 
accepted foods, while providing exposure to a few unfamiliar 
wholesome food options. Food requiring minimal preparation were 
included to accommodate the potential that youth may prepare 
meals on their own.
    The direct mail food benefit is intended to alleviate 
episodic food insecurity by delivering the food package at the 
time of the month when SNAP benefits would likely have run out. 
To date, Packed Promise has provided benefits to an average of 
3,500 children for each of the past 9 months.
    USDA has commissioned a rigorous independent evaluation of 
the project to be performed by Mathematica Policy Research to 
look at the change in the prevalence of food insecurity among 
children, improvement in diet quality, and evaluation of costs 
associated with the project.
    A couple of anecdotes I would like to share. A grandmother 
shopped with her grandchildren to let them choose their fruits 
and vegetables with their FRESH check. One child chose a 
pineapple. The grandmother was unfamiliar with how to cut up a 
fresh pineapple, so she looked up a how-to video on YouTube. 
Her children loved it, and she said it was their first time to 
try fresh pineapple. A grateful father called to express 
appreciation for the program, and said it not only helps 
financially, but it has also changed some of his family's 
eating habits, such as eating more beans, tomatoes, and 
vegetables they do not normally choose to buy. He said this has 
provided healthier options for his family.
    Chairman Conaway, we appreciate the Committee's commitment 
to ensuring the viability, strength, and quality of Federal 
nutrition programs, and in particular, a focus on innovations 
that might enhance the effectiveness of our country's largest 
nutrition safety net program.
    In conclusion, it appears online ordering of foods and 
direct shipment to the home is a viable model for addressing 
food insecurity for rural families, while ensuring access to 
more nutritious foods. Investment by Federal nutrition programs 
and targeted foods of high nutritional quality, and educational 
support to assist families in using those optimally, is 
critical to reducing food insecurity, as well as avoiding many 
costly chronic diseases, as we have heard.
    Thank you for the opportunity to share our experience. I 
look forward to answering any questions you may have.
    [The prepared statement of Ms. Newport follows:]

 Prepared Statement of Melinda R. Newport, M.S., R.D./L.D., Director, 
   WIC and Child Nutrition Programs, Chickasaw Nation Department of 
                            Health, Ada, OK
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    Mr. Chairman and Members of the Committee, thank you for the 
invitation to present testimony today. I would particularly like to 
acknowledge Mr. Frank D. Lucas, our Representative from Oklahoma, and 
thank you for your many years of service to our citizens.
    My name is Melinda Newport, M.S., R.D./L.D., Director, WIC and 
Child Nutrition Programs, Nutrition Services, for the Chickasaw Nation. 
I bring you greetings from Bill Anoatubby, Governor of the Chickasaw 
Nation. The Chickasaw Nation administers several United States 
Department of Agriculture (USDA) Food & Nutrition Services (FNS) 
programs, as well as, a variety of nutrition-related demonstration and 
research projects. As a registered dietitian having worked at the 
national level on many challenging nutrition program issues for more 
than 30 years, I am pleased and honored to testify today.
    Chairman Conaway, we appreciate the Committee's commitment to 
ensuring the viability, strength and quality of Federal nutrition 
programs and, in particular, a focus on innovations that might enhance 
the effectiveness of our country's largest nutrition safety net 
program. Increasing access to and availability of nutritious foods for 
families in rural areas is a challenge. On behalf of the Chickasaw 
Nation, thank you for this opportunity to share regarding innovations 
in our Healthy Hunger Free Kids Act Demonstration to End Childhood 
Hunger, also known as Packed Promise.
    The Chickasaw Nation has more than 63,000 citizens and our 
jurisdictional boundaries encompass all or part of 13 counties in 
south-central Oklahoma.
Common Access Barriers to Nutritious Foods
    In spite of the Chickasaw Nation's administering a dozen or so 
Federal, state and Tribally funded nutrition programs, we still find 
there are gaps in rural areas, evidenced by the fact that 15.5% of 
households remain food-insecure. Children's development, health, and 
well-being depend on access to a safe and secure source of food. In 
Oklahoma, 25.6% of children are food-insecure, meaning they either go 
hungry or do not receive the minimal nutritional amounts set forth by 
the USDA. Due to the rural nature of the Chickasaw Nation, many 
participants live in food deserts, the closest grocery store is often 
10 miles or further from their home. The Chickasaw Nation has observed 
that transportation is often an issue among the most food-insecure 
clients and limited access to grocery stores with quality food choices 
in rural areas is common. To help eliminate these barriers, as well as 
the stigma often associated with food assistance programs, the idea for 
a direct mail food benefit via an online grocery shopping experience 
was conceived.
Healthy Hunger-Free Kids Act to End Childhood Hunger Demonstration 
        Projects
    In 2014, USDA administered a competitive grant process with the 
purpose to test innovative strategies to end childhood hunger. This 
included alternative models for service delivery and benefit levels 
that promote the reduction or elimination of childhood hunger and food 
insecurity. USDA placed special emphasis in targeting areas or 
populations where there are currently elevated levels of food 
insecurity or gaps in nutrition assistance program coverage.
    The Chickasaw Nation's Packed Promise project was one of five 
projects awarded nationally through USDA's Demonstration Projects to 
End Childhood Hunger grant. Packed Promise is designed to test the 
viability of an online ordering system and home delivery of food 
benefits to households with school-age children who qualify for free 
school meals.
Packed Promise Project Design
    A unique feature of the Packed Promise project, is the partnership 
between the Chickasaw Nation and Feed the Children, a 501(c)(3), 
nonprofit food assistance organization with expertise and vast 
experience in global food operations such as: bulk food ordering, 
packaging, and delivery. Feed the Children provides logistics experts, 
a broad network of volunteers, and the food buying power to allow an 
increased number of children to be served for fewer food dollars. 
Working together in a mutually supportive partnership, the national 
public nutrition assistance and private food assistance systems can 
prevent and eradicate the unnecessary health problem of childhood 
hunger. Furthermore, the convenient geographic location of one of their 
distribution centers created an appealing efficiency. We also leveraged 
the existing website developed by Feed the Children for online food 
ordering for individuals and households and customized the content with 
Packed Promise branding.
    As the only viable access point to reaching children across rural 
Oklahoma, the Chickasaw Nation collaborates with school districts to 
identify students who have elevated levels of food insecurity. In order 
to be included in the demonstration area, school districts had to meet 
the following inclusion criteria--(1) a county with a diabetes 
prevalence rate of 15% or higher, (2) a county with 15% of households 
with children less than 18 years old who fall below the poverty line 
for income, (3) a county with a general population greater than 9% 
Native American, (4) exceed 50% free school meal eligible student 
population, ([5]) exceed the state wide average of 16.6% Native 
American student population, ([6]) located within the Chickasaw Nation 
jurisdictional boundaries.
    The home delivery portion of the project design creates an 
experience similar to online grocery shopping. Families choose from 
five food packages comprised of nutrient dense, shelf stable food items 
from a food ordering website. Each month participants order their food 
boxes via the website or by calling the Packed Promise team. Each 
eligible child receives one 25 pound box of shelf stable foods plus a 
$15 FRESH check to purchase fresh or frozen fruits and vegetables at 
Chickasaw Nation WIC authorized retailers or Farmers' Markets. 
Nutrition education, recipes, vendor information, and other project 
tips are also available on the food ordering website.
    The Packed Promise demonstration project provides an approximate 
retail value of $60 to $80 of food per month dependent upon the food 
package selected. Feed the Children, through their food buying 
expertise, volume purchasing, and use of donor relationships, is able 
to provide the food benefit for an average cost of $20.08 per food box. 
This benefit level provides adequate food for an evening meal plus one 
snack per day, intended to supplement the National School Lunch 
Program. Feed the Children competitively bid and awarded a contract to 
UPS to provide the delivery service.
    The Chickasaw Nation believes this innovative project will help 
alleviate food insecurity and improve diet quality, while proving to be 
a cost affordable food delivery model.
Nutritional Content of Food Package
    The updated Nutrition Standards for School Meals were reviewed 
alongside the Dietary Guidelines for Americans and MyPlate 
recommendations for the project's targeted student population. From 
this review, the need for increases in the protein, whole grain and 
vegetable food groups were identified to effectively fill the biggest 
nutrient voids experienced by school-age food-insecure students. Dairy 
and fruits are offered at every school meal, so the focus was smaller 
on these food groups. A committee of Chickasaw Nation registered 
dietitians was also mindful of fat and sodium content, and chose to 
primarily offer low-fat, minimally processed packaged choices with low 
to moderate sodium content.
    The overall goal for the food package is to provide a well-
balanced, nutrient dense food benefit that offers commonly accepted 
foods, while providing exposure to a few unfamiliar wholesome food 
options. Foods requiring minimal cooking or preparation were included 
to accommodate the potential that youth may prepare meals on their own.
    The Chickasaw Nation is aware that SNAP benefits are provided on a 
rolling month cycle. As SNAP benefit cycles end and food dollars run 
out, participants commonly report lack of food adequacy. As part of 
this implementation, participants answered questions regarding the week 
of the month in which they experience highest feelings of food 
insecurity, and, based on that, selected the week of the month in which 
they desire to receive their monthly direct mail benefit. The goal is 
that the direct mail food benefit will alleviate this episodic food 
insecurity by delivering a benefit during this critical time frame.
Packed Promise Implementation Facts
    The Chickasaw Nation implemented the Packed Promise demonstration 
project in February 2015 and has provided benefits to families for the 
past 9 months. On average, 1,500 households comprised of 3,500 children 
receive benefits each month. To date, Packed Promise has shipped 
793,000 pounds of food to vulnerable Oklahoma families. These families 
have redeemed $261,000 in fresh fruits and vegetables by using their 
FRESH checks delivered along with their food boxes.
    Approximately 65% of participants place their orders online, while 
the remaining 35% call Packed Promise specialists who place the 
participants' orders on their behalf.
    It was initially perceived that this most vulnerable population 
move or change their place of residence often. Over the course of the 
past 8 months, less than a fourth, 22.59%, of the Packed Promise 
participants have indicated a change of address.
Evaluation
    USDA commissioned a rigorous independent evaluation of each 
demonstration project. The evaluation is being performed by Mathematica 
Policy Research, Inc. The primary evaluation outcomes of interest are 
the change in the prevalence of food insecurity among children, 
improvement in diet quality, and evaluation of costs associated with 
the project.
Documented Success Stories

  <bullet> Grandmother and FRESH check experience--A grandmother shops 
        with her grandchildren to let them choose fruits and 
        vegetables. One child chose a pineapple. The grandmother was 
        unfamiliar with how to cut a fresh pineapple, so looked up a 
        ``how to'' video on YouTube. Her grandchildren loved it, and 
        she said it was their first time to try fresh pineapple!

  <bullet> Grateful father--A father called to express appreciation for 
        the program and said it not only helps financially, but it has 
        also changed some of his family's eating habits, such as eating 
        more beans, tomatoes and other vegetables they do not normally 
        choose to buy. He said it has provided healthier options for 
        his family.

  <bullet> Hummus--tried it, loved it!--A mother called and said that 
        her son had never tried hummus, but ``gave it a shot'' since it 
        was in the box. Now he takes it every day in his lunch for 
        school and buys celery with the FRESH check to dip in his 
        hummus!

  <bullet> Help at just the right time! Staff were able to connect with 
        a participant that had never placed an order before and was on 
        unpaid leave from work after having surgery. She said God had 
        answered her prayers when her phone rang and our staff was on 
        the line explaining the program and taking her order for food!

  <bullet> Christmas every month!--One mom called to place her monthly 
        order and expressed extreme gratitude for Packed Promise. She 
        stated that her family received the boxes every month, but to 
        this day her girls still act like it's Christmas when the boxes 
        arrive on the doorstep. They run to carry them inside and 
        squeal with excitement when opening the boxes!
Future Considerations
    As the Packed Promise demonstration is nearing the mid-point of its 
2 year implementation period, some adjustments are being considered. 
Since participants are limited to five food packages, modifications to 
the content of each package are being evaluated to increase variety and 
exposure to new foods, while alleviating repetitiveness. A goal of 
maintaining the overall nutritional composition will remain a priority.
    In our initial concept design, individual food item ordering was 
preferred versus ordering from a limited number of food packages. 
However, individual food item ordering presented multiple cost 
constraints such as maintaining adequate inventory of items, limiting 
bulk purchasing of items, and the take rate of specific short dated 
food items presents potential waste. In the nonprofit food assistance 
model, the ability to bulk order the contents of the food packages 
offers a significant cost savings and grouping items into food packages 
increases the inventory control. The Chickasaw Nation would be open to 
exploring an individual food item ordering model in a retail 
environment that would still gain access to volume purchasing, but 
would be able to offset some of the disadvantages through distribution 
of items to other store patrons if not ordered by program participants.
    The WIC Program EBT model allows the ability to prescribe specific 
nutrient dense food items and quantities for purchase at the 
participant's convenience. In the future, our preference would be to 
transition the $15 FRESH check benefit to an EBT card. With a check 
benefit, the entire amount of the check must be used all at once. 
Transitioning the fresh component to an EBT card would allow the 
participant to purchase produce as needed, would reduce stigma during 
shopping in the check-out lane, and the benefits for multiple children 
in a household could be aggregated on a single card.
Conclusion
    In conclusion, it appears online ordering of foods and direct 
shipment to the home is a viable model for addressing food insecurity 
for rural families, while ensuring access to more nutritious food 
choices. Food assistance programs continue to be a key factor in 
building healthy and economically strong communities. Investment by 
Federal nutrition programs in targeted foods of high nutritional 
quality, and educational support to assist families in using those 
optimally, is critical to reducing food insecurity, as well as, 
avoiding obesity, diabetes and other costly chronic diseases that 
compromise quality of life.
    Thank you, Mr. Chairman, and Members of the Committee for this 
opportunity to share our experience. I look forward to answering any 
questions you may have.
                               attachments
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


    The Chairman. Thank you, Ms. Newport.
    The chair will remind Members they will be recognized for 
questioning in order of seniority for Members who were here at 
the start of the hearing. After that, Members will be 
recognized in order of arrival. I appreciate Members' 
understanding.
    I recognize myself for 5 minutes.
    First off, thank you very, very much. I am not sure I have 
had five witnesses give us as much good news about a hard topic 
as you folks have just given us. It is particularly gratifying 
to see you are not waiting on the Federal Government, you are 
reaching out, you are doing things in your own spaces that you 
believe are in the best interest of Americans, and I really 
appreciate and thank you for that. Quite frankly, you are a lot 
more nimble at addressing issues than any government body can 
be, and I appreciate that.
    Mr. French, Mr. Lovelace, you both mentioned online 
transactions and security, can you flesh that out a little bit? 
How would that work without PIN numbers or without the normal 
circumstances with respect to a SNAP EBT card versus other 
credit cards that people might use? How would we know that the 
SNAP beneficiary that is using that card online is actually the 
person that is supposed to be using it? Can you walk us through 
a little bit of that?
    Mr. French. Sure. I will go first. First of all, like I 
mentioned in my testimony, we absolutely share the Committee's 
focus and prioritization on preventing fraud within the SNAP 
Program. I am probably not the best person to go super deep on 
the actual kind of technical implementation, so I am happy to 
follow up on that off-line, but what I can say is we have spent 
some time researching this and we do think that the current 
PIN-based solution is probably not the optimal solution; that 
there are alternatives out there, new mechanisms that are 
actually more secure. And, if we are selected into the pilot, 
we look forward to working with the USDA in exploring that 
further.
    The Chairman. Mr. Lovelace, your thoughts on that?
    Mr. Lovelace. Yes, to your point, the PIN issue I think has 
been one of the primary reasons that getting SNAP online has 
moved slowly. And I know that one of the primary processors 
fell out of the program, and I think that caused a major delay. 
We had been talking to the USDA more than 2 years ago about 
trying to accept transactions online, and I know it was a 
payment processing issue was one of the primary concerns.
    I think that the beauty of e-commerce is it is a database-
driven technology so it allows for us to categorize our 
products. When people are purchasing online we filter our 
entire catalogue by different lifestyle preferences or 
different types of users. So we can completely filter the 
catalogue for somebody who is on SNAP and is making a SNAP 
purchase, in a way that only allows for funds to go to SNAP-
approved products. And I think one of the challenges that 
exists in the current retail economy is that it is very hard to 
actually get reporting on aggregate purchasing behavior. Where 
are these funds going, how are they being used, it is like a 
black box. And yes, there is data, but it is actually very hard 
to get down in very granular reporting. And the beauty of using 
e-commerce is that it is so transparent. We provided real-time 
when we met with the USDA, we said, ``Hey, we can give you a 
real-time API look into our database if you want, and we can 
provide transparency.''
    The Chairman. Sure. I appreciate that.
    Mr. Beal, you mentioned your Double Up Program, and also 
evaluating, as Mr. Lovelace talked about, the purchasing 
patterns of the folks who were in your tests. Can you tell us 
how you fund your Double Up program? Does your own company do 
that, or do you partner with not-for-profits, how do you make 
everybody whole and still get the extra food for the 
recipients?
    Mr. Beal. Yes, thank you. Initially, during the pilot 
program, it was our understanding, at least we were told, that 
the program was funded by a philanthropist, and they wanted to 
demonstrate that the program that was initially implemented in 
farmers' markets up in the State of Michigan could be 
replicated and expanded with greater access to consumers in 
retail grocery stores. That was in 2015.
    In 2016, it is my understanding that some of our local 
partners, and about three of those partners are nonprofits, 
have applied for a grant, and apparently received a grant from 
the USDA to expand the program out. And that is my 
understanding for 2016, sir.
    The Chairman. All right. And your evaluation on purchasing 
patterns for the folks who use your Double Up Food Bucks, you 
said that was in process. When do you think you will have that 
information?
    Mr. Beal. I would expect to have that done within the next 
couple of months. And contrary to what has been stated by some 
of the online retailers, we have the ability, if we needed to, 
to provide real-time reporting of SNAP purchasers' history down 
to the very item. We can replicate the entire receipt of any 
consumer, just like when you go into a Best Buy or Home Depot, 
retailers that I think all of you can relate to, they have all 
that purchase detail. So it is just a mass of data out there, 
but with the proper set-up, there is no problem reporting on 
any of that.
    The Chairman. Well, thank you. Every Member wants to ask 
questions. And again, thank you all for being here.
    Mr. Peterson, I recognize you for 5 minutes.
    Mr. Peterson. Thank you, Mr. Chairman.
    I represent an area that is very large, rural, remote, and 
I don't know, this might be a good idea, but I think that 
everybody on the Committee and you guys should go to Ponemah, 
Minnesota, before we do this, because----
    The Chairman. Is that part of the Chamber of Commerce pool 
and get everybody----
    Mr. Peterson. Well, it is on the Red Lake Reservation which 
is an Indian Reservation, which is 900,000\2\ miles, and I 
think it is an hour and some to any grocery store, and you 
can't get there unless you are going there. And the road ends 
and it isn't the end of the world, but you can see it from 
there. Or you go to Grygla or Waskish or Funkley, in Mr. 
Nolan's district. Those folks are having trouble now accessing 
SNAP. Maybe this is a good idea, they will be able to, but they 
don't have Internet a lot of them either, and the stores up 
there don't have Internet. Who is going to pay for delivering 
this stuff out there? If they can use their SNAP benefits, and 
if somebody will pay for the delivery and we don't take it out 
of the SNAP money, it might be a good idea. If we are going to 
do some kind of a demonstration or pilot project, one of the 
areas should be some place like this, so we see what happens in 
that kind of a situation. Because I have a lot of those places 
in my district, and I think Mr. Nolan has in his district, and 
there are other places in the country as well. I am not even 
sure there are maybe two towns in my district where you can get 
delivered groceries. I am not even sure about that.
    When they are doing these pilots, are they looking at 
having additional appropriations to pay for the delivery, or is 
there going to be no charge for the delivery, how is that all 
going to work? I don't know who wants to answer that.
    Mr. Lovelace. It is our understanding that we would be 
paying for the delivery, and our business model is set up to be 
able to do that. We are also leveraging existing last-mile 
infrastructure which makes it a lot more efficient for us. And 
we share your concern about those types of extremely rural 
communities. We did a program recently with the Sioux up in 
North Dakota where we delivered groceries to some of the most 
disadvantaged folks.
    Mr. Peterson. Whereabouts in North Dakota?
    Mr. Lovelace. I don't know exactly where it was, but I know 
it was on the Sioux Reservation. And, to your point, there are 
many times in the winter where groceries aren't even being 
delivered, and it is one of the highest rate of diabetes in the 
country.
    Mr. Peterson. Yes.
    Mr. Lovelace. I am not going to speak for Amazon, but we 
are prepared to be able to make a way to be able to absorb the 
shipping costs.
    Mr. Peterson. Are you going to undermine the few stores 
that we have out there if you take away their business?
    Mr. Lovelace. I think that is a fair concern. Our products 
are pretty different than the types of products that they would 
be offering, because we specialize in organic groceries, but I 
think that one of the things that we have seen is that while 
there is concern about existing retailers or health food stores 
with our model, because we are so disruptive with pricing. What 
we are seeing is that 50 percent of our customers are in the 
Midwest and the South, so we are bringing a new customer into 
the market that is wanting to do this.
    And, to another point that you made, the data that we have 
seen is 70, 75 percent of low-income communities have a 
smartphone. And so while they may not have Internet, they are 
able to purchase using their smartphone.
    Mr. Peterson. If they can get cell service.
    Mr. Lovelace. Yes.
    Mr. Peterson. I mean my farm up north, I don't have cell 
service.
    Mr. Lovelace. Yes, you have to go to a local hill or 
something.
    Mr. Peterson. If you can help us get more cell phone 
towers, we would appreciate it.
    Mr. Lovelace. Yes. That is----
    Mr. Peterson. I mean it is a nice thing sometimes because 
nobody can get ahold of you.
    How about Amazon, are you guys willing to eat the delivery 
fee, or how does that work?
    Mr. French. Yes, sure. So right now, we deliver non-
perishable groceries nationwide. So all the people in your 
areas have the ability to order non-perishable grocery products 
on Amazon right now. We offer perishable grocery products 
through our Amazon Fresh Service, which is available in a 
number of regions, including many of the states in which the 
USDA has proposed to run the pilot. In terms of the fees, we 
have a few different ways that customers can buy groceries on 
Amazon, some of which do require a membership fee or have 
delivery charges. The SNAP funds would definitely not go 
towards that. If accepted into the pilot, we are absolutely 
interested in working with the USDA on ways to structure an 
implementation of the pilot to reduce and potentially eliminate 
those membership fees or delivery charges.
    Mr. Peterson. Thank you. Thank you, Mr. Chairman. My time 
has expired.
    The Chairman. The gentleman yields back.
    Mr. Neugebauer, 5 minutes.
    Mr. Neugebauer. Thank you.
    Mr. French, did you say that you have applied to be a part 
of the pilot program with the USDA?
    Mr. French. Yes, we have applied.
    Mr. Neugebauer. And so I guess when you said what you are 
doing nationwide on non-perishable, and then you are doing 
regional for the perishable foods, are those regions primarily 
in major metropolitan areas at this particular point in time?
    Mr. French. Yes. The Amazon Fresh Service, which is our 
service for delivering full-line grocery assortment, including 
perishable groceries, tends to be more concentrated in urban 
and suburban regions right now. Certainly, our intent over time 
would be to be able to service SNAP customers nationwide, with 
some combination of the various programs and services that we 
have for delivering grocery products on Amazon.
    Mr. Neugebauer. Would that be partnering with suppliers in 
those regions to cut down on the distance to the final 
customer?
    Mr. French. Yes. It is tough for me to comment on the exact 
specifics of how we do it and what the implementation specifics 
would be until we are actually accepted into the pilot program. 
So, unfortunately, there is not much more I can share on that.
    Mr. Neugebauer. Mr. Beal, you said that the pilot incentive 
program has been successful. So when you talk to your customers 
who are SNAP recipients, what are the top reasons that they 
give you that they want to participate in this incentive? Why 
are they responding to that incentive? What do they say to you 
about that?
    Mr. Beal. I believe that we provided electronic copies so 
there will be more detail of the program report that was 
actually prepared by our five partners, but generally speaking, 
the participants reported that they were better able to afford 
healthier fruits and vegetables, that they shifted more of 
their purchasing from prepared foods, center store, be it 
cereals, the processed foods that a lot of consumers buy, 
towards fresh fruits and vegetables. You will see in the report 
too that they have shifted their purchasing habits, provided 
healthier eating options for their families as a result of this 
program.
    Mr. Neugebauer. Mr. Lovelace, you kind of got into the 
conversation a little bit about the technology of making sure 
that people that are actually the SNAP recipients are the ones 
receiving the food. I think both of you maybe alluded to the 
PIN technology may not be the answer to that. I was a little 
surprised at that because, I mean when these recipients are 
going into a grocery store today, they are using a PIN, and in 
many cases the grocer may or may not know whether that person 
using that card that has the PIN, is actually the person. 
First, what kind of downside is there to the PIN; and second, 
what is the technology that you would recommend?
    Mr. Lovelace. Yes. We are actually prepared to use a PIN 
infrastructure. We haven't specifically been pushing for that. 
Obviously, we believe in things being as efficient and secure 
as possible.
    And to the earlier point, one of the main reasons that 
there has been a delay in bringing this on, even though it was 
mandated in the 2014 Farm Bill, is the issue of PINs and the 
balkanization of the processors and how that works.
    My understanding is that there has been progress with the 
processors, and that there are going to be several states in 
the Northeast, especially in the first phase of the pilot, and 
that it will be a PIN-based technology approach, which we are 
comfortable implementing. From the beginning in our 
conversations with the USDA, we said we would be happy to 
absorb the technology costs associated with making those types 
of secure transactions work.
    In a world where you don't use PINs you look at actual 
fraud amongst credit card transactions in terms of people that 
are using credit cards that aren't actually theirs, it is 
actually incredibly low. I think that there is a case to be 
made that it could be very much like a credit card transaction, 
where you don't use a PIN.
    That said, we are not advocating for that specifically, and 
we would have to all study that together and find----
    Mr. Neugebauer. Well, I know the credit card industry is 
working on ways to prevent online fraud by using cards, and 
certainly that technology
    Mr. Lovelace. Yes. It is a real issue, but when you look at 
the total transaction size, it is still such a small part of 
it. But, we are not advocating necessarily to abandon PINs.
    The Chairman. The gentleman's time has expired.
    Mr. Scott, 5 minutes.
    Mr. David Scott of Georgia. Thank you, Mr. Chairman.
    Let me direct this question to Mr. French and Mr. Lovelace. 
You are aware that there are efforts underway to restrict what 
SNAP recipients can purchase in the grocery store, such things 
as food monitoring, food surveillance, to determine that. And 
my concern is, and I want to see if it is your concern, that 
the expansion of SNAP to be used online could make it easier to 
restrict and limit the amount of food, the types of food, and 
purchases that are bought with SNAP dollars. How do you make 
sure that this is not happening?
    Mr. Lovelace. That is, obviously, a complex question, and I 
haven't honestly spent all that much time thinking about that 
particular aspect of it. I think you are hitting on privacy 
issues. I personally think it is a good thing that there is the 
ability to see transparently and accurately where funds are 
going, given it is a massive taxpayer program. At the end of 
the day, the approach to all of this has to be data-driven, so 
what are the types of products that people can use with SNAP 
that are actually going to be healthy for them, and my hope is 
that the data can transcend any ideological ideas around that.
    Mr. David Scott of Georgia. All right. Let me be more 
specific here. Let me go to you, Mr. French. How would Amazon 
ensure that all of the items, all the food purchases that a 
SNAP recipient can get in the grocery store are the same that 
he can get online, and that there are no efforts in between to 
use this online service as a way to restrict the food stamp 
recipient from getting the same thing that he can get. Because 
it is almost impossible, and many have already said that with 
brick-and-mortar at the grocery store, you really can't 
restrict that. That is not my concern, we fought that battle, 
but online there could be a way that you can use that 
instrument to limit the ability of food purchases by food 
stamps. So what would Amazon put in place to make sure that 
doesn't happen?
    Mr. French. Sure. Yes. It is difficult for me to comment on 
the exact specifics of how we would implement that, but what I 
can tell you is at Amazon, we are all about starting with the 
customer and working backwards, all about ensuring a great 
customer experience, and all about offering customers low 
prices, vast selection, and great convenience. And so we 
absolutely share the Committee's interest in offering SNAP 
recipients access to as wide a range of foods as possible, and 
to do anything counter to that would be counter to Amazon's 
intention to offer vast selection.
    Mr. David Scott of Georgia. Now, there is also a growing 
movement and they use this term, healthy foods, right, we fight 
that battle, that limit the items that the food stamp recipient 
can get only to healthy foods. And there is no definition for 
that, but that is another way. So what would Amazon's position 
be on limiting items that can be purchased with stamp benefits 
to only healthy foods?
    Mr. French. Sure. Again, it is a little difficult to 
comment on the exact specifics of implementation until we are 
accepted in the pilot; but, what I can say is we absolutely 
believe in offering customers vast selection, offering them as 
many choices as possible, and in the case of SNAP recipients, 
offering them access to as broad a range of foods as possible 
to----
    Mr. David Scott of Georgia. Yes. Okay, thank you.
    Ms. Melinda Hess, didn't you want to share a story of 
Yvonne Smith?
    Ms. Hess. Yes.
    Mr. David Scott of Georgia. Let me ask you something, and 
you showed how drastically she changed her diet. This hits home 
with me because, in my State of Georgia, I have 1,121,495 
people in my State of Georgia, adult population who have 
diabetes. That is 14.2 percent of the people. So I wanted to 
ask you how do we reach people effectively and give them the 
tools to change their life like Ms. Yvonne Smith did?
    Ms. Hess. Yvonne is one of our SNAP customers, and if you 
all haven't read the longer testimony, she is 64 years old, she 
is a homeowner, because her housing costs are more than 50 
percent of her income, she qualifies for SNAP. She gets $16 a 
month. With our bonus bucks, dollar-for-dollar, we double that 
to $32. She is able to access some other promotional programs 
for fruits and veggies, so she gets an additional $80 on top of 
that per month. And with this, she buys vast quantities of 
greens and salad greens. She cooks them up in giant batches and 
eats them all month. And what she told me this week is that she 
has brought her diabetes under control. She no longer suffers 
from it, by completely changing what she eats. She cut out all 
processed food, all starchy white foods. She is a true 
believer, and she gave me permission to share her story.
    Mr. David Scott of Georgia. Thank you.
    Ms. Hess. There is an old saying, which is pay the farmer 
or pay the doctor, and I promise you paying the farmer is way 
cheaper. So that is sort of the basis of our promotion of SNAP 
and the FINI incentive program.
    You have to attack it from a couple of----
    Mr. David Scott of Georgia. I am sorry.
    The Chairman. We will do a second round, your time has 
expired.
    Ms. Hess. It is?
    The Chairman. Yes.
    Mr. Lucas, for 5 minutes.
    Mr. Lucas. Thank you, Mr. Chairman.
    First, I would like to turn to Director Newport. Chickasaw 
Nation has historically been very innovative, very aggressive 
in trying things, but we have, in addition to the Chickasaw 
Nation, 37 other federally recognized Tribes in Oklahoma. Can 
you discuss for just a moment, I assume it is not just 
Chickasaws, but the other Tribes in the state too are trying, 
with the flexibility that they have been given at different 
times, to be more innovative, correct, in delivering services 
and meeting the needs?
    Ms. Newport. Yes, sir. Those opportunities are available to 
any Tribe, in most cases.
    Mr. Lucas. And to you knowledge, not just the Chickasaws, 
and you can't speak for anyone else, I realize, but the spirit 
of innovation of the Chickasaws is also out there in the other 
Tribes too. We are trying hard in Oklahoma to maximize these 
opportunities.
    Ms. Newport. Yes. I think there are unique innovations in 
different Tribes around the state that have tried different 
initiatives to better serve their clientele.
    Mr. Lucas. Mr. Beal, I live in the third District of 
Oklahoma, kind of the west side of the district, the southern 
part of the Great Plains, east of the Rockies, some really 
rather interesting climates. And when I look at the concept of 
the Double Up Food Bucks program to encourage the purchase of 
local produce, a lot of times where I live, seasonally, there 
are not many options locally. With this kind of a program, my 
neighbors would say if it works and it works well, and it is so 
impressive, should people who live in areas where there are not 
local produce options always, should there be a greater 
opportunity to use not just local but more local than that. And 
I am sure your folks have looked at these issues, correct?
    Mr. Beal. Well, we originally started our local produce 
program right after 2000, and while that may be the situation 
in Oklahoma, we would look to parts of the country that are 
both south of us and to the west of us as having greater 
growing opportunities than what we have in Missouri, just 
because of the weather is a great function of that. Our local 
produce program, for the most part, the majority of the items, 
90 percent of the items, the season starts in mid-to-late May, 
continues throughout October. But we do have some local items 
that come in earlier that are--might be grown in greenhouses 
and the like. So it is something that you do have producers 
that are producing year-round, but with higher costs, that have 
a different business model. But we have defined for ourselves 
our local market as being within 200 miles of Kansas City, and 
we work with over 150 local family farmers in that market.
    Mr. Lucas. Okay, you have answered my question about what 
local is then. Okay.
    To Mr. French, kind of like Ranking Member Peterson, I do 
sort of live at the end of the world too. And, of course, my 
grandparents always referred to the catalogue houses, the 
entities in this country and commerce that existed before the 
Internet, the Sears and Roebucks of the world, and the Spiegels 
and the Montgomery Wards, who came into existence because of 
parcel post, and before the Postal department took a package 
delivery, if you lived out in the countryside, you didn't have 
many other options than the local merchant. But with the 
evolution of parcel post, the ability to deliver packages 125 
years ago, you could buy almost anything from those giant 
catalogues, a point that has always been made to me.
    Now, we have evolved to the present time, working on the 
quality of the transportation system, there are a number of 
private delivery companies who deliver in my area, and all over 
the world. Some are a little better than others at finding me. 
Some have a damn hard time finding me consistently. So I am 
sure in your market model, you are working with the delivery 
services to constantly improve that concept, right, so that my 
5 pound can of whatever winds up within 5 miles of my house?
    Mr. French. Yes, correct. We have worked very hard over the 
last 20 years to develop a reputation for world-class 
operational excellence, and that reputation encompasses a 
number of dimensions, including what you are articulating, 
which is the ability for customers to order an item on Amazon 
and have it arrive in the time period that they expect, and 
have it arrive safely. So yes, absolutely that is something 
that we take very seriously. And as we think about the 
opportunity to serve SNAP recipients, it is something that we 
would certainly be looking to extend to a new customer set.
    Mr. Lucas. Thank you, Mr. French. I yield back, Mr. 
Chairman.
    The Chairman. The gentleman yields back.
    Mr. McGovern, 5 minutes.
    Mr. McGovern. Well, thank you. And I want to thank all of 
you for being here today. It is important that we talk about 
new approaches that could be taken to improve access to food.
    I am pleased that the USDA has begun the process of 
reviewing applications for the online purchase pilot, which was 
authorized in the last farm bill, and I look forward to 
continuing our work to make it possible for SNAP recipients to 
purchase groceries online. It is an important step forward.
    It is also great to see FINI grants being put to good use 
to increase the consumption of fresh fruits and vegetables. 
Using a FINI grant, my home State of Massachusetts is in the 
process of expanding a pilot statewide to provide a dollar-for-
dollar match on SNAP recipients' purchases of local fruits and 
vegetables. But, I have said in the past the most important 
thing we can do to improve access to nutritious food is to 
increase the current SNAP benefit, and provide low-income 
Americans with more money to purchase nutritious foods.
    Now, Ms. Hess, your testimony makes a very strong point 
about the need for food to be affordable for those who are low-
income. What do you think the impact could be on your farmers 
and on your customers if we simply increase the SNAP benefit 
overall, and what do you think would happen to your farmers and 
customers if we cut the SNAP benefit?
    Ms. Hess. The impact would be profound, and we have an 
example here in D.C. that demonstrates it. The Produce Plus 
Program is a D.C. benefit for low-income people, $10 free 
fruits and vegetable voucher. And we have lines around the 
block, 90, 100 people waiting to get $10 in free fruits and 
vegetables every day at the mobile market when the program is 
going.
    The base sales each year are about $22,000, but the Produce 
Plus sales are $77,000, and we turn people away all the time 
because we run out of vouchers. There is a massive demand for 
this stuff. And what people need are the resources to be able 
to access it.
    The profound impact that increasing the amounts of 
affordable and ubiquitous healthy food could have on public 
health is staggering. Right? We are looking at $\1/2\ trillion 
that we are spending on treating diseases that we don't have to 
have, they are caused by the food that we eat. So if we change 
the food that everybody eats, and I am not just talking about 
low-income people, I am talking about all of us. What, 39 
states, 40 percent of the people are overweight and obese. I am 
overweight. It is hard to eat healthy. And if you add on top of 
that the barriers to access, like you live 5 miles from a 
grocery store and you don't have a car, and you don't have any 
money at the end of the month after you have paid for your 
diabetes medication, I don't know how you would expect to 
change anything.
    And here is what is so important about it. I know everybody 
is on different sides of this issue politically, but people 
can't parent well and raise happy, healthy children who are 
ready to learn, and you can't work well if you are hungry, if 
you are wondering where your next meal is coming from, or if 
you had to spend your lunch money taking a cab because you were 
late for work that morning. It is super frustrating to me that 
this fundamental thing that is the sort of basis of all human 
health is even a debate.
    Mr. McGovern. Right.
    Ms. Hess. If you cut anything, it should not be peoples' 
food.
    Mr. McGovern. Yes. And I like your statement about pay the 
farmer or pay the doctor. One of the problems with the way we 
budget up here in Congress is that we all have our little areas 
of jurisdiction. And so your point about the fact that healthy, 
nutritious food actually is like medicine, it keeps us well, 
can prevent diabetes, which is a lifelong illness, it could 
prevent heart disease, it could prevent obesity. And so by 
doing this right, there are all these avoidable healthcare 
costs that you don't have to pay for. Kids who go to school, 
who are hungry, don't learn. There is a cost to that. Workers 
who go to work, who are hungry aren't as productive. There is a 
huge cost here, and sometimes we are looking at our little 
narrow area here, but the cost of hunger and food insecurity in 
this country is enormous.
    I gather from your testimony that you believe that access 
to healthy food is much more important than teaching people 
about healthy food. Maybe you can tell me a little bit more 
about that.
    Ms. Hess. Yes.
    Mr. McGovern. Not that the teaching help really was bad, I 
am just simply saying that we can teach all we want, but if you 
don't have access to it, so what.
    Ms. Hess. What you said. Ideally, these things go hand in 
hand, and this answers also Mr. Scott's question. The first 
building block that you have to have is a lot of affordable, 
really high-quality food that people actually want to eat. The 
next step then is making sure that people know what to do with 
it and people get exposed to it. We do a lot of taste tests at 
the mobile market, we do cooking demos, we have a cookbook that 
we give to our low-income customers so that they are inspired 
to cook at home. But I have to tell you, just focusing on 
cooking skills is pretty shortsighted because you can give 
everybody all the skills they want, and even send them home 
with some knives and cutting boards, but if they don't have 
anything to cut, you haven't changed a thing.
    One of my customers who is a Navy veteran and has a 3 year 
old, she turns off the gas in her house on the summers to save 
$30 so that she can continue to eat well, and she eats mostly 
raw fruits and vegetables through the summer.
    So the chaos and the difficulty in being poor should not be 
underestimated, and it starts by making food affordable, high 
quality, and ubiquitous.
    Mr. McGovern. Right. Thank you.
    The Chairman. The gentleman's time has expired.
    Mr. Gibbs, 5 minutes.
    Mr. Gibbs. Well, thank you, Mr. Chairman. And you are 
right, this is a very interesting panel. Of all the hearings we 
have had on food stamps, it is--and I love it because the 
technology, and former Chairman Lucas was talking about as well 
as former Chairman Collin Peterson, about living at the end of 
the world. I can see Amazon delivering food to these areas by 
drone, so hopefully we can get FAA regulations so that it 
works.
    But what I want to talk a little bit about is the 
technology part that interests me. A few months ago, we had the 
Auditor of the State of Ohio in to testify. He did an audit in 
Ohio and what was going on in the SNAP Program. And we found 
out there is some fraud. I don't think it is a widespread 
problem, but there is some, and so we tried to address it as 
best as we can. And we found out things like there were issues 
about some people had huge balances and weren't using it, so 
that was tying money up. We also discovered in one of our 
hearings that if we could go to crediting the cards twice a 
month instead of once a month, that might help the food 
recipients with their cash flow and budgeting.
    My questions to Mr. French and Mr. Lovelace is, and I know 
Mr. Lovelace talked about the database, and that technology. 
The technology ought to help us in real-time catch instances 
where there could be fraud. And we have had testimony that some 
of the retailers can be fraudulent and we had testimony in his 
auditor's report where somebody had come in the 1st of the 
month and spent the exact amount of dollars, like $200, and 
then go 8 minutes later to another retailer and spent another 
$200. Every month it is very odd. I can't go to the grocery 
store and spend the same amount to the penny every month. And 
so I guess you want to comment a little bit about the 
technology? Could you flag those in real time, just kind of 
like you can do with credit cards now. If I use my credit card 
and it doesn't look like my normal expenditures, I will get an 
e-mail from my credit card company asking if this is me, so can 
you? I don't know if you want to expand on that. Because you 
hear about technology, people get concerned maybe the 
possibility of more fraud, but it is the other way around. So 
go ahead.
    Mr. French. Sure. Like I mentioned earlier, we absolutely 
share the Committee's focus and prioritization on preventing 
fraud in the SNAP Program. At Amazon we take customer trust and 
information security incredibly seriously. And so if given the 
opportunity to participate in the USDA's pilot program, we 
absolutely look forward to the opportunity to leveraging the 
same world-class engineering that we use across Amazon to 
protect information security to the SNAP Program on Amazon.
    Tough to comment on some of the exact specifics and the 
specific areas you were mentioning, but it is absolutely----
    Mr. Gibbs. Well, I want to ask you a question. A thought 
came to my mind. Because my understanding, the state runs the 
programs for the USDA, right? And so somebody in Ohio goes in 
and uses their SNAP card, and it looks weird, the state has to 
flag it, the question may be that the state is not doing their 
job. How would Amazon or your outfit interact with the 
databases, or maybe you want to talk about that?
    Mr. Lovelace. My understanding is the processors for SNAP 
are very much like a merchant account for a credit card. So 
there is this layer of merchant account processors that verify 
security, all their types of fraudulent flagging systems, which 
are real time. That is why sometimes when you make a purchase 
and you put the wrong address, just normally with a credit 
card, the transaction isn't approved. So there are all sorts of 
best practices that exist today that can be applied to the SNAP 
Program which will allow for a lot of security around that.
    And to your point, obviously, there is understandable 
concern about fraudulent use and abuse, but I believe that 
there is going to be dramatically less of that, given the way 
that there is so much transparency and reporting using a 
database-driven technology, like e-commerce.
    And, we looked at a study of a family in a food desert in 
downtown Los Angeles, for example, not people on SNAP but just 
in a food desert, and 90 percent of the grocery purchases are 
happening at a little bodega or liquor store, or a fast-food 
market. So what we are dealing with here is one of the beauties 
about being able to ship groceries nationally to people, be 
able to provide that, is that we can eliminate that in a very 
dramatic swoop.
    Mr. Gibbs. Great. I think regulation, legislation needs to 
try to keep up with the technology, because we can actually 
make real improvements and serve people that really need the 
help.
    So I yield back. Thank you.
    The Chairman. The gentleman's time has expired.
    Ms. DelBene, 5 minutes.
    Ms. DelBene. Thank you, Mr. Chairman. And thanks to all of 
you for being with us today. I appreciate it. And I am very 
interested in this pilot and the possibilities that it can 
bring to make sure that we are providing healthier, fresh, 
local food to a broader population, and definitely folks who 
have been under-served.
    You definitely can buy anything online, and there is no 
reason that that can't be true for SNAP participants as well, 
and we can learn a lot from CSAs that exist today that are 
providing some similar services. And definitely bringing these 
types of foods to more rural, traditional food deserts is 
certainly worth exploring, and so I appreciate the work that 
you are doing.
    I had a question for you, Mr. French. And thank you for 
being here today from Seattle. I read in your testimony, and I 
know you mentioned this in your opening statement, that you 
believe the PIN-based technology being used for SNAP EBT is not 
necessarily more secure than other available technologies. And 
so I was wondering wouldn't that change in the authentication 
method mean we would have to revamp the systems that are 
currently being used by the states?
    Mr. French. I am actually probably not the best person to 
go into that in a ton of detail. It is a good question, but let 
us follow up with you on that. It is a good question.
    Ms. DelBene. And is that something that generally would be 
supported in terms of the change of how that system would 
work----
    Mr. French. I am sorry, can you say it again?
    Ms. DelBene.--by others? Well, I was kind of asking others 
if folks thought the PIN-based technology or changing that to 
something that is more universal would be something that is 
important to others. Does anyone have a----
    Mr. Lovelace. Yes, so the delay in bringing SNAP online has 
been the processors and the ability to do the PIN-based 
transactions online. That is what our understanding is, in the 
communications with USDA officials over the last 2 years.
    We transparently haven't heard a lot of discussion about 
moving away from the PIN system, but rather, the focus has been 
how do we make sure that there are processors in place that can 
handle the PIN-based system online, in a way that people like 
us can interact with in a real-time way. So there hasn't been a 
lot of discussion from our conversations with USDA about moving 
away from a PIN-based system.
    We are not necessarily saying that we shouldn't move to 
more standard-based credit card transaction processes, but, our 
approach to it has been we are totally willing to absorb and 
build a special user interface just to support PIN-based 
transactions.
    Ms. DelBene. Yes. Okay, thank you. Okay, did anyone else 
want to say something? I couldn't tell. Go ahead.
    Mr. Beal. If I could inject just a thought, and we are a 
brick-and-mortar retailer, but I would say with regard to PIN-
based transactions, I know from our business, which is regular 
business with credit cards, our amount of fraud has increased 
by about 12 times, and I have also shared those concerns with 
other grocers, a large grocer out of St. Louis, because we do 
not have PIN-based transactions now on general credit cards. 
EMV card, and I know we are getting off subject, but with 
dealing with security with credit card transactions, the lack 
of a PIN-based system for credit cards has greatly increased 
our fraud in a brick-and-mortar store. So it is hard for me to 
envision as a grocer how it would be more secure without 
something like that, as just an anecdotal response.
    Ms. DelBene. Thank you.
    Ms. Hess. If I may. Farmers' markets are really hobbled by 
the need to have that, it is the MarketLink, it is a PIN-based 
program. They cost about $500 each, and so typically, a 
farmers' market will have one, and anyone who is using SNAP 
goes to the market manager, they run their SNAP cards, they get 
tokens, they go to the farmers. There are a lot of problems 
with that program. If we can handle the security issues and get 
it so we can run EBT cards directly off of a Square, or a 
similar card reader, that really just opens up farmers' markets 
to a lot more SNAP transactions and a lot more healthy food for 
a lot of people, and it saves market managers a lot of trouble 
and cost. I spend about $100 a month just on my data fee for 
the MarketLink.
    Ms. DelBene. Yes. Okay, thank you.
    And I know folks talked a little bit about cell service, 
but I also think broadband access, WiFi access can be very 
difficult for many folks in rural areas, or folks who don't 
have a reliable online connection anywhere, or even technology 
available. Do you have a sense of how much that would impact 
access for potential SNAP recipients who may want to use these 
types of services, but don't regularly have any type of 
connection to do so?
    Mr. Lovelace. The data we have looked at is that 75 percent 
of low-income communities do have a smartphone. Obviously, that 
is not perfect, but that is pretty profound. Whereas, broadband 
Internet access or desktop computers have dramatically lower 
rates. So while I believe in getting broadband infrastructure 
to everybody, the practical realities and the time to market is 
so dramatically more expensive than it is to increase high-
speed smartphone, cell phone access.
    Ms. DelBene. Yes.
    Mr. Lovelace. So in terms of solving that problem, not only 
for this issue, but just broader educational access issues, the 
fastest way is going to be Third World developing countries who 
just skipped the hard infrastructure and have gone straight to 
cellphone. So I think that that is the fastest way for us to 
solve this problem ubiquitously.
    Ms. DelBene. Yes. Okay, thank you. My time has expired. I 
yield back, Mr. Chairman.
    Mr. Crawford [presiding.] Thank you. I recognize myself for 
5 minutes.
    Mr. Beal raised a topic that we probably don't have enough 
time to talk about in the 5 minutes that I have to address 
this, but I want to start a conversation about brick-and-mortar 
stores and how they differ from the online vendors. What role 
might you play in enhancing access? For example, in my 
district, it is very rural, we have, obviously, small towns, 
but even remote areas I would classify not just rural but 
remote. And so a scenario, for example, a town of 3,000, they 
have a grocery store, but around that town of 3,000, 15-20 
miles away or more, small towns, a town of 300, and the best 
they can hope for is a convenience store. And so as a grocer 
that occupies that space in the small town of 3,000, could you 
become a distributor? Does it fit your model to go out to those 
small towns in a refrigerated truck and be able to deliver non-
processed foods? Because as we have heard, and I know this to 
be the case, our healthcare statistics are on an upward 
trajectory in rural America. And the irony is that, in my 
district, for example, we are one of the most productive 
agriculturally in the nation, and yet we are in a food desert. 
And it has to do with access to non-processed food.
    So if you would, kind of go into some detail about how you 
might be able to fit in that role to sort of serve as a 
distributor.
    Mr. Beal. Thank you. I will tell you that we are currently 
doing that today.
    Mr. Crawford. Good.
    Mr. Beal. We supply our local produce to other grocers 
around the Midwest, not just the Kansas City area. We sell 
local produce to grocers in Springfield, Missouri, 3 hours 
away, about 200 miles. We sell local produce to grocers up in 
Nebraska, over 3 hours away. And so it is a very good question, 
and for us particularly, it wouldn't be a challenge because we 
are currently doing that, and we see ourselves in that role. We 
distribute to our stores and to other stores over $5 million 
worth of locally grown produce every single year, and it is 
growing.
    I mentioned in my presentation that the distribution system 
is critical, and in visiting with Ms. Hess, on the panel, that 
was one of the questions I asked her before we started. But 
that distribution system is important, but we are set up to do 
that. And so it does provide a very important role in the 
distribution of these benefits to other potential markets.
    Mr. Crawford. Well, one of the benefits I get from being on 
the latter end of the questioning is some of the dialogue that 
has taken place up to this point. Mr. Peterson mentioned this, 
in the remote areas, and obviously, we have talked about 
Internet access, broadband being an issue in rural communities, 
and, Mr. Lovelace, you addressed that with regard to enhanced 
cell phone infrastructure. And one of the things that Mr. Lucas 
addressed was the seasonality associated with those fresh foods 
is also a challenge. Grocers are in a unique position to 
address that, as you mentioned, using greenhouses and sourcing 
beyond just the local region. How does that play into your 
distribution model?
    Mr. Beal. Well, we currently purchase produce from around 
the country. Okay, so we will bring in produce using common 
carriers from California, from Arizona, New Mexico, Georgia, 
and Florida, and obviously, that isn't local produce to us, but 
we source specialty products for our stores to make them a 
class above our competition. That is kind of one of the things 
that we try to do. But, having a facility to be able to do 
that, having trucks to distribute is critical. We are not our 
primary supplier to our stores for our groceries, our center 
store, because we have a wholesaler to do that, but what we 
have found in working with our wholesaler, who is in excess of 
a $10 billion company, I know that is peanuts when it comes to 
the Amazons of the world, but what we have learned, it is 
oftentimes more difficult the bigger the entity is to source 
from local because, first, the local provider can't provide 
enough product for the big boys to service all of their 
customer needs. And so there has to be kind of matching of the 
growers with the markets that they serve to make it as 
efficient as possible.
    Walmart would have a very difficult time of providing local 
produce, because there are only slots in a warehouse that are 
available for perishable products, because they have to be 
refrigerated and stuff. Not to say they can't do it, but the 
challenge is a little bit greater. It is for our wholesaler, 
because they have tried to roll out a program. And that is 
where we fit into that role much more uniquely than what they 
are able to.
    Mr. Crawford. Real quick, I have 20 seconds. Were there any 
tax incentives that facilitated that decision for you to 
implement that model, or was it just something, a naturally 
occurring business phenomenon?
    Mr. Beal. No, there were no tax incentives. It was 
consistent with our model of focusing on fresh and local, and 
working with our local farmers and ranchers. As I mentioned, we 
had been working with them for over 15 years to start with, so 
it was a natural transition and expansion of the program for 
that.
    Mr. Crawford. Thank you. I appreciate it. My time has 
expired.
    I recognize Ms. Adams for 5 minutes.
    Ms. Adams. Thank you, Mr. Chairman. And thank you to all of 
our panelists for being here today and for your insight.
    Many communities throughout the 12th District in North 
Carolina that I represent are located in food deserts, 
resulting in many of my constituents not being able to purchase 
a variety of fresh and nutritious foods from a local grocery 
store. I did want to just add that just a week and a half ago 
we opened in my district, in a food desert, the Renaissance Co-
op, which is now owned and operated by the community. It is 
very, very successful. For 18 years, we did not have a grocery 
store there. It was an abandoned strip shopping center. It has 
all been renovated, and it is a great project, great fruits and 
vegetables there. As a matter of fact, last week I shopped 
there myself. But that is one example of what can happen.
    But for those who are able to afford a smartphone or 
Internet access, online purchasing of food using SNAP benefits 
does have the potential to offset some of the negative 
consequences of not having a grocery store in a neighborhood. I 
do look forward to USDA's progress in the pilot program. I hope 
the Department and food retailers will continue to develop new 
ways to reach customers in under-served communities, such as 
many that I have in North Carolina. As a matter of fact, in 
Charlotte, which is the area that I am going to be representing 
coming January, we have interest and some concerns about many 
of the food deserts there.
    But, as we conclude our 18th hearing, or 16th, whatever it 
has been, on the SNAP Program, I would also like to take a 
moment to remind Members that the SNAP Program can only be as 
effective as how much we choose to fund it. So that is really 
important. Any new requirements to increase financial 
incentives for purchasing fresh foods or to expand the 
assistance and finding a job-training program must be paid for, 
and not become unfunded mandates on state and county 
governments, because they are having difficulties as well.
    My first question, Mr. Lovelace, how can retailers reach 
SNAP participants that do not have a smartphone or Internet 
access? Are you looking at telephone as maybe a possibility?
    Mr. Lovelace. Yes, it is a good question. Honestly, I don't 
have a good answer for it. We are actively working with, and 
communicating with, cell phone providers and broadband cable 
providers to piggyback on programs that they have targeting 
low-income communities that don't have Internet access. So that 
is something that we spend time doing out of our Giving 
department. And beyond that, I don't have a better response to 
your question.
    Ms. Adams. Thank you very much. Mr. Beal, the cost of 
produce has been identified as a major barrier for improving 
access to fresh fruits and vegetables, particularly in the 12th 
District in Charlotte that I represent. How has partnering with 
other public and private entities enabled your stores in Kansas 
City to be able to pay for the in-store credit or earnings that 
a SNAP participant gains each time they buy produce through the 
Double Up Food Bucks Program?
    Mr. Beal. Well, the program, and the first year of the 
pilot year was funded by an outside third-party philanthropist. 
That was 2015. And working with our local partners, three of 
whom are nonprofit entities, they applied for a grant from the 
USDA to expand the pilot program to all of our 14 Price Chopper 
stores that we own in 2016. So we pay market price for our 
local produce to our local farmers because they deserve a fair 
price, and so it is on part with what we would be paying for 
produce from our wholesaler anywhere else that we would obtain 
the product. But the funding mechanism for the program is in 
part through a USDA grant that one of our local partners has 
provided for 2016.
    Ms. Adams. Thank you.
    Mr. French, have you been in conversations with USDA about 
effective applications for online payment transactions or other 
elements that should be included in any application that is 
developed to interface between the food retailer, USDA, for 
processing these SNAP purchases online?
    Mr. French. Sure. We have been in active discussions with 
the USDA for some time now. They have been a great partner 
throughout this process. We appreciate the rigorous and 
thoughtful approach they are taking to the pilot program. It is 
obviously quite complex, and so we appreciate, again, the 
thoughtful approach they are taking.
    The PIN-based solution, as we have talked about a couple of 
times now, again, our perspective is we share the focus and 
prioritization on preventing fraud in the SNAP Program, but we 
think there are new technologies that are superior to PIN-based 
solutions for doing so.
    Ms. Adams. Thank you. I am out of time, Mr. Chairman. Thank 
you. I yield back.
    The Chairman [presiding.] The gentlelady yields back.
    Mr. Allen, 5 minutes.
    Mr. Allen. Thank you, Mr. Chairman. And thank you all for 
being here today and sharing this information.
    One of the previous hearings, I believe with the 
representatives from USDA about fraud, I suggested something 
like a picture ID EBT card, and the response was, well, that is 
too expensive. As we address fraud, as far as the PIN numbers, 
I mean is that the same kind of pushback you are getting is 
that, hey, that is cost-prohibitive, yet how do we actually 
control this fraud? I mean what do you think is holding up this 
whole process as far as fraud and abuse goes?
    Mr. Lovelace. Are you talking about just credit card 
transactions in general?
    Mr. Allen. Yes, and the PIN numbers and that. I mean what 
is the real push? Is that the folks who distribute--well, USDA 
distributes the EBT cards, so why can't we do a PIN number 
system, I guess is what----
    Mr. Lovelace. I mean we are going to do a PIN system.
    Mr. Allen. Okay.
    Mr. Lovelace. That is how it is going to go down for the 
first pilot, for sure.
    Mr. Allen. Right.
    Mr. Lovelace. It is a PIN-based system. And the reason why 
the implementation to get SNAP online was delayed in the first 
place was that the processors that typically handle these 
transactions for SNAP, one of the major processors pulled out 
of the SNAP Program altogether.
    Mr. Allen. Okay.
    Mr. Lovelace. So that caused a huge delay. But everything 
that I understand from our conversation about integrating with 
SNAP to be able to accept transactions online has been around 
using the existing PIN-based program online.
    Mr. Allen. Okay.
    Mr. Lovelace. Again, we are not against other more 
efficient processes, but we haven't been pushing for that. 
Knowing how controversial the program and where the concerns 
are, our goal is to be as frictionless as possible, and try to 
just make the existing system as improved as possible.
    Mr. Allen. Yes. Where we have these food deserts, for 
example, and this is a problem we have to address, and you are 
talking about addressing it with online and then, of course, 
deliveries. Have we looked at working through not-for-profit 
food distribution? Mr. Beal, you talked a little bit about 
that, but in every community there probably has to be a food 
bank or something that you could distribute through, that is 
not-for-profit, that would reduce the cost of shipping and all 
these other things that might add onto the cost of providing 
for this program? Yes, sir.
    Mr. Beal. If you don't mind if I answer that, but we 
currently do provide produce to a couple of nonprofit entities, 
one of which specifically addresses the needs of the food 
desert community in downtown Kansas City, with local produce. 
And so we work with a couple of different entities towards that 
end.
    Mr. Allen. Yes. Would that be a possibility as far as 
online is concerned? In other words, you would get the order 
online and then you would have a local not-for-profit, you 
could say, ``Okay, this is what we have.''
    Mr. Lovelace. Yes, we do that currently.
    Mr. Allen. You do? Okay.
    Mr. Lovelace. Yes. We did a program with a church community 
group in Flint where we have been donating groceries. So it is 
something that we think about. We raised money last holiday 
season for two million meals with Feeding America and their 
local food bank. We work with over 150 national nonprofits, and 
it is something that we are very focused on.
    Mr. Allen. Good.
    Mr. Lovelace. And there is a lot of great work being done 
by brick-and-mortar and nonprofits on the ground, and so our 
goal is to be good partners to that.
    Mr. Allen. Yes. Is Amazon doing the same thing?
    Mr. French. So we are constantly inventing on behalf of 
customers. That extends to the various delivery methods we have 
for delivering products to customers, our extended delivery 
service through our Amazon Fresh Program, and our Amazon 
Lockers Program are both examples of where we have innovated in 
the delivery method for how we get products to customers. If we 
are accepted to participate in the pilot, we absolutely would 
look forward to engage with the USDA on other ways that we 
could innovate and invent on behalf of customers and SNAP 
recipients, in particular.
    Mr. Allen. Okay. And the biggest complaint that I get from 
my constituents is the nutrition issue. When you are in a 
checkout line and people say, ``My goodness, what is going on 
here.'' If you can conquer that issue, it will make this 
program--we know diabetes, we know these things are costing the 
healthcare system. Yes?
    Ms. Newport. I was just going to share that our initiative 
addresses a couple of the things that you are saying. One being 
that we actually devise a choice of food packages, and all of 
the foods are nutrient-dense. And then we also, in partnership 
with Feed the Children, are able to offer this benefit monthly 
at approximately \1/3\ to \1/2\ of the cost of buying it in the 
retail market.
    Mr. Allen. Okay. Well, thank you. And please keep working 
on that.
    I yield back.
    The Chairman. The gentleman's time has expired.
    Mr. Costa, 5 minutes.
    Mr. Costa. Thank you very much, Mr. Chairman, and Members 
of the Committee. I apologize for not being able to participate 
in this hearing this morning, but I have had a hearing with 
Natural Resources occurring at the same time. But I do want to 
make a statement with regards to the many issues that have been 
raised as it relates to the SNAP Program, and the many hearings 
that this Committee and Subcommittee have held over the last 
year.
    Clearly, we have set the table as we prepare in the next 
Congress to look at the reauthorization of the farm bill, and 
the SNAP Program is an important part of the reauthorization of 
the farm bill. And I do have concerns about what policy 
decisions we will make. Certainly, we can look at efforts to 
improve the SNAP Program, and I would be willing to participate 
in that effort, but I would reject a proposal in the next farm 
bill to dramatically cut the SNAP Program. My district is 
struggling, and cuts to the program would be devastating and 
directly equate to taking food out of the mouths of children 
and families in my district.
    It is a bit of an irony in contrast that I have significant 
wealth in my district and significant poverty, and we happen to 
be an area where we grow so much of the food; \1/2\ the 
nation's fruits and vegetables, but yet notwithstanding that 
agricultural productivity, too often the food doesn't get to 
the place that it needs to be. The SNAP Program is an important 
bridge of that effort.
    The Bureau of Labor Statistics has indicated that we have 
twice the unemployment levels of other parts of the country. As 
it stands now, I have over 50,000, 50,000, think about that, 
households in my district that receive benefits. Seventy-nine 
percent of those households have a child under the age of 18; 
15 percent have one or more person that are 60 years or older. 
This is just the facts. And, of course, the drought conditions 
that we have had for the last 6 years in the San Joaquin 
Valley, in which we have gotten zero water allocation for a 
host of years, has further compounded the problems that are 
being faced where you have people who have no jobs because 
fields are unplanted, and jobs are, therefore, at a premium.
    So clearly, taking away food from people who need it is not 
a solution toward any improvements or efforts to deal with the 
SNAP Program in the next farm bill.
    One of those areas that we had testimony here in the 
Committee this year, is a way in which we can deal with, and 
that is the Fresno Bridge Academy. It is one of several 
programs around the country that is asking to take advantage of 
the SNAP Employment and Training pilot program to reduce 
dependency. Well, how do we reduce dependency? That is an 
important goal. In this program, under the Bridge Academy, we 
saw 77 percent of the participating SNAP clients come in 
unemployed that were underemployed, but 18 months later after 
they were part of this program, 83 percent of the clients had 
obtained employment or job advancement, and 32 percent had 
achieved complete self-reliance. So it is these kinds of 
efforts that I think we need to work on to develop and innovate 
across the country. The Fresno Bridge Academy is designed 
specifically to truly help people move to independence.
    And, notwithstanding the divide that we have in our country 
today, one thing every Member on this Committee can agree upon 
is that we want to make it more effective for people to be able 
to become self-sufficient and to feed their families. And, we 
can look forward to working together in the next Congress, as 
we reauthorize the next farm bill, on how we can bring together 
good bipartisan solutions that will do just that.
    So, Mr. Chairman, I thank you, and I yield back the balance 
of my time.
    The Chairman. The gentleman yields back.
    Mr. Thompson, 5 minutes.
    Mr. Thompson. Thank you, Chairman. Thanks to all the 
witnesses for being here.
    I am going to start with Ms. Newport. Has there been any 
problem with product delivery, particularly in terms of 
freshness of the items delivered?
    Ms. Newport. The items that are delivered are actually 
shelf-stable, for the most part, and so we have not had too 
many problems with the delivery, and we made adjustments where 
we needed to. Sometimes the address is a challenge, but for the 
most part, the foods are shelf-stable and so that has worked 
out well.
    Mr. Thompson. Very good.
    Mr. Beal, would this sort of program that you referred to 
be successful in retailers with significant use of self-
checkout systems?
    Mr. Beal. Yes, sir. The self-checkout systems can be 
programmed to provide a message to the consumer of both the 
Double Up Bucks earnings that that consumer has on that 
shopping trip, as well as what they have available to use on a 
subsequent shopping trip that would allow them to use some or 
all of that. There wouldn't be a problem with that.
    Mr. Thompson. All right.
    Mr. Lovelace, how do you define low-income individuals in 
your organization, and if the utilization of the online space 
for SNAP recipients moves forward, how do you plan to handle 
the membership fee that comes with the Thrive models, since, in 
regulation, you really can't treat SNAP recipients different 
than other customers?
    Mr. Lovelace. We have talked about that with the USDA 
extensively, and for every paid membership, we give away a 
membership to a low-income family; a veteran, a teacher, a 
student. So we are comfortable waiving the membership fee for 
all SNAP participants across the board, and that is something 
that we have discussed and doesn't seem to be a problematic 
issue in terms of implementation of the program. And, the way 
that we think about poverty levels is anybody who is double the 
poverty level qualifies for our low-income program. These are 
families across the country, they are veterans, they are 
teachers and students, and they apply directly through us and/
or through a network of nonprofits that we work with.
    Mr. Thompson. Okay, very good. USDA has obviously, well, I 
don't want to assume, that is a dangerous thing to do, but they 
have indicated to your organization that they would be 
satisfied with waiving that fee?
    Mr. Lovelace. Yes.
    Mr. Thompson. Okay.
    Mr. Lovelace. Yes, there is, obviously, that provision is 
in there for making sure that people aren't discriminated 
against, and obviously, we think that is a good thing, but in 
this case, this is something that they understood and was not a 
problem for them.
    Mr. Thompson. Okay, very good.
    Mr. French, how long does it take to have food delivered 
from these programs, and does it take longer to deliver to 
rural areas than it does urban, and is there a freshness 
concern when delivering to rural areas?
    Mr. French. Sure. We have a variety of different programs 
and formats that we use to deliver grocery products to 
customers. Like I mentioned earlier, we deliver non-perishable 
groceries to customers nationwide, and then through our Amazon 
Fresh service we deliver full-line grocery store, but including 
perishable items, in a number of regions throughout the 
country.
    Across those different programs and formats, we do have 
different value propositions with different shipping speeds as 
well. The Amazon Fresh service in particular does offer same-
day and next-day delivery of grocery products, which is 
obviously an important part of ensuring that the products 
arrive to the customers without freshness being an issue.
    Mr. Thompson. I may have my partners mixed up. Does Amazon 
work with the U.S. Postal Service in terms of some of the--like 
6 day delivery? Is that a part of the process that you use for 
delivery? Well, not 6 day, but 7 day, actually. I saw one of 
the Postal trucks on Sunday in one of my neighborhoods, and I 
assumed that they were probably delivering for Amazon or 
someone like that.
    Mr. French. Sure. Yes, we work with a number of different 
delivery providers, including the USPS.
    Mr. Thompson. Okay, very good.
    And, Ms. Hess. Ms. Hess, you work to change the eating 
habits of individuals. Is there an educational component to the 
mobile market model, and if so, can you walk us through what 
that looks like?
    Ms. Hess. Sure, thank you. We do cooking demonstrations, we 
do taste tests, we do some cooking classes with community 
groups as the opportunities come up, but again, if you don't 
have that in lockstep with increased access and affordable 
food, and really high-quality offerings and great customer 
service, you don't get to change much.
    We also teach little kids on our farm about healthy eating 
and the origins of healthy food. And we find that they go home 
and tell their parents, who then come out to the mobile market.
    Mr. Thompson. Very good. Seems like the younger you get 
them, the better.
    Ms. Hess. I think it is. And I just want to say one thing, 
as you guys look at SNAP, going forward, to cut it is sort of 
the very definition of penny wise and pound foolish. It is 
going to cost us all in the end.
    Mr. Thompson. Okay, thank you.
    Thank you, Mr. Chairman.
    The Chairman. The gentleman's time has expired.
    Ms. Lujan Grisham.
    Ms. Lujan Grisham. Thank you, Mr. Chairman.
    And, Ms. Hess, I couldn't agree with you more, and while we 
are having this hearing, and I appreciate the Chairman 
continuing to have SNAP hearings in the Committee, finding the 
balances so that we are innovative and thinking about ways, 
particularly, to garner better access, not just to food in 
general but healthy food that has the educational components 
and choice in areas where we have significant food deserts.
    Ms. Newport, like Oklahoma, New Mexico is incredibly rural, 
incredibly challenged currently in their getting hungry 
families fed. We still have the hungriest families in the 
country. Our children, when I first was elected, were the 
hungriest children in the country. We have done a little bit 
better. But interestingly enough, you are at 25 percent, we are 
at 27 percent of our children are hungry, and right now USDA is 
investigating the state for SNAP fraud. And when we are talking 
about fraud, we want to make sure beneficiaries and families, 
individuals in the community aren't doing things--and providers 
and contractors, that here I have a state that is falsifying 
records to deny access to some of the hungriest families in the 
country. All right?
    Striking these balances are very important, and making sure 
that we don't end up in an environment where we just create 
more hunger, and create newer generations of unhealthy 
populations, that makes no sense to me, when we have a benefit 
and a policy that could really make a difference.
    Ms. Newport, what would you suggest for a state like mine 
to create the infrastructure for programs like Packed Promise 
that would get us to the rural delivery aspects, better 
choices, and get us started in an environment where we are 
embracing the benefits of a SNAP investment to feeding hungry 
families, and to creating educated consumers for the future?
    Ms. Newport. Well, certainly, looking for opportunities to 
at least pilot some of those concepts and see where they are 
successful, and have a rigorous evaluation so that we really 
know what is worth doing, and we are not spending time on 
something that is not effective. I think also just keeping the 
conversations going. I look forward to talking with folks like 
Amazon and others who are sending out fresh products and doing 
it effectively to these areas that we both know are so remote, 
and have so little to pick from. We just keep pressing forward 
with examples of how to do it, and showing where it works best.
    Ms. Lujan Grisham. I would be happy to have anybody else on 
the panel respond. I appreciate some of the questions about 
what kind of options, choices, are we really getting fresh 
produce, because some of the programs that are widely available 
in a market, and how we are seeing studies that if you hire a 
dietician or a nutritionist, actually folks are spending much 
more wisely, particularly with SNAP benefits, in these 
communities, but also coming back and following through with 
preparing healthy means. And we are seeing an increase in 
spending overall in markets that do this, outside of the SNAP 
beneficiaries. But in rural areas, you don't have those kinds 
of markets. We have a lot of local farmers that are looking for 
ways, and they are already getting lots of support from USDA, 
but creating this infrastructure where all of these ideas 
coalesce in a way that is meaningful. Are there other things 
that we ought to be doing in New Mexico?
    Ms. Hess. If I may, there is a real need in this nation for 
strengthening the regional food systems, and instead of relying 
on people, which I love, but people flying food in from all 
over. People should be eating more and more locally. It is an 
important issue on the terms of national security as well. All 
it will take is one typhoon or one dirty bomb in the Port of LA 
to shut down our food system for a week or longer. And so it is 
important that localities now are building regional food 
systems that can support the food needs of people immediately 
around them.
    Ms. Lujan Grisham. Okay.
    Yes, sir?
    Mr. Beal. I would submit that the model that we have put 
together, working with our partners in the Kansas City metro 
area, fulfills a lot of what you have requested.
    One of the partners is the University of Kansas Medical 
Center, and so they provide dietary training to SNAP recipients 
on the Kansas side of the line, because Kansas is willing to 
work with them. Missouri wasn't willing to work with them, 
wasn't willing to submit to those individual SNAP customers 
notification about the program and stuff. We also work with the 
Health Foundation of Greater Kansas City, another nonprofit.
    They are providing healthier eating choices and education 
for those consumers, along with our dieticians that we have in 
our stores.
    Ms. Lujan Grisham. Thank you. My time is up. I just think 
these balances are incredibly important to recognize in this 
Committee. Thank you.
    The Chairman. The gentlelady's time has expired.
    Mr. LaMalfa, 5 minutes.
    Mr. LaMalfa. Well, thank you, Mr. Chairman. I apologize for 
my tardiness with competing committees here. So thank you to 
the panel for coming.
    I agree the online retail and delivery system has great 
potential. I hearken back to when milk was delivered to your 
doorstep back in the day, I actually thought it was weird to go 
to the store to buy milk. As a farmer, we go through that thing 
where people think food comes from the store. I always thought 
milk came from the back step. So I know better. That is dairy.
    But the platforms actually the USDA is being urged to look 
into, I am concerned with Thrive, for example. This is for Mr. 
Lovelace. You do have a whole page dedicated to being non-GMO, 
okay, that Thrive is passionately committed to creating a world 
that is free of GMOs. Okay. It is a controversial subject, I 
get it, but much potential around the world for helping with 
hunger on greater yields, et cetera, less chemical use. Much of 
what comes from these websites is non-perishable foods, so we 
are not going to see as much fresh fruit, fresh vegetables, and 
deemed as the most nutritious, with packaged items, et cetera. 
I guess where I might run up with a bit of a problem is that 
when we are talking just straight nutrition, that it isn't 
solidly proven that organic or non-GMO is more nutritious. It 
might be grown in a way that is more acceptable to folks, in 
some fashion there, but we do know that there is much more cost 
with that. So making our dollars go as far as possible, giving 
consumers the choices on price, whether they are concerned or 
not with something being GMO, we might harm ourselves a little 
bit if we are going to go only down that path. So if you would 
comment on that, Mr. Lovelace, a little bit, and how does your 
outfit decide the food that you categorize as SNAP-approved, 
and then the affordability of it, going forward, how do you 
arrive at that, please?
    Mr. Lovelace. Sure. I first acknowledge that the GMO debate 
is a controversial one. And we are not explicitly against GMOs. 
I think that there is a lot of competing data and it is very 
early in the process. I think one of the----
    Mr. LaMalfa. If I may, if a webpage does, indeed, say 
passionately committed to creating a world free of GMOs that 
is----
    Mr. Lovelace. Yes. We are committed to being seen as a 
place where you know when you buy food it doesn't have GMOs. 
And the challenge that I have personally with GMOs today is----
    Mr. LaMalfa. Well, your company would be free of GMOs? It 
says here a world free of it.
    Mr. Lovelace. The problem that I have with GMOs is that 
they are being sprayed with massive amounts of glyphosate, 
which studies are showing are coming into--90 percent of 
Americans are testing positive for glyphosate poisoning. So it 
is a very complex issue. I think there are opportunities where 
GMOs can be producing higher-yield foods with lower water.
    Mr. LaMalfa. Say that again please. The GMOs being sprayed 
with----
    Mr. Lovelace. With glyphosate. It is 90----
    Mr. LaMalfa. That doesn't define a GMO. A GMO is 
genetically modified in the field.
    Mr. Lovelace. Yes.
    Mr. LaMalfa. What you do to it after it comes from the 
field is something----
    Mr. Lovelace. Yes, so the food crops are being engineered 
to withstand glyphosate, which is an herbicide, and so that 
enters into the food stream, and 90 percent of Americans are 
testing positive for glyphosate.
    There is all sorts of early data. We feel like it is too 
early to be able to say definitively that it is safe to have 
GMOs in the food supply. That is our position on it.
    Mr. LaMalfa. So how do you decide what is going to be 
categorized as a SNAP-approved food within your----
    Mr. Lovelace. I mean there are very strict guidelines for 
what those are. And so we look very carefully at the USDA 
recommendations on that, and every category of product that 
is----
    Mr. LaMalfa. So you align with USDA regs?
    Mr. Lovelace. It is absolutely aligned with the USDA regs. 
There is no----
    Mr. LaMalfa. And how about affordability?
    Mr. Lovelace. Say again.
    Mr. LaMalfa. How do you do things in an affordable way? 
Keep the food as affordable as possible as well as----
    Mr. Lovelace. Well, we buy directly from the brands. We cut 
out all the distributors, all the retail markup, and all the 
shelf games that happen in the traditional retail model.
    Mr. LaMalfa. Okay, thank you. I have to jump around with 
the limited time here.
    Ms. Hess, it was mentioned you have developed an app that 
allows you to track what people have purchased at the mobile 
market there. So just real quickly on this technology, why is 
tracking this information, do you think, is useful? Is it a 
little bit intrusive?
    Ms. Hess. Yes. It is not intrusive because we are not 
tracking it to individuals, but what we get to see are the 
purchasing patterns that people have, and then we get to see 
what actually works in increasing the amount of healthy food 
that people take home with them. So if we do a kale cooking 
demo 1 week, we can track whether or not our kale sales shot up 
that week at that location, and were they sustained at that 
location. So it is a great way to tell--you can't change what 
you can't measure, so we are measuring what we are doing and--
--
    Mr. LaMalfa. So not just the 1 week or 2 on kale, but maybe 
a long-term----
    Ms. Hess. Right. Right. Ideally, that is what you come out 
with, right, because if everybody is eating more kale, then we 
will see some health benefits from that.
    Mr. LaMalfa. Thank you. I had better yield back. Thank you.
    The Chairman. The gentleman's time has expired.
    I want to thank our five witnesses this morning for being 
with us. Your written testimony and more extensive information 
is available. Thank you for what you are doing on your own to 
try to solve this issue. It is a wide-ranging issue, from food 
waste to affordability, misinformation about what is and isn't 
in the food, all those kind of things out there. Some of my 
colleagues have argued passionately about what they won't agree 
to this next year. This series of hearings was done in an 
attempt simply to find out what is working and what is not 
working. It was never intended to cut SNAP or to do anything to 
it but improve it. And if we can get the policies right, then 
we will figure out whether or not we can afford them. But 
getting the policies right is really the goal of these past 2 
years. My team will put together an extensive report on these 
hearings to be able to further the discussion as we move toward 
the legislative part of what our work is about. And we 
appreciate your help. If there is any additional information 
that you want to provide? Yes, sir. Yes, sir.
    Mr. David Scott of Georgia. I just want to thank you, Mr. 
Chairman, for these series of hearings, because this is a very, 
very, very, very important subject that this Committee grapples 
with. And it took a lot of leadership for you to do this. It 
has brought a lot of information and education about this 
issue. The one area that really points this out, and just for 
the record so you can understand the significance and the 
greatness of what you have done, is in this latest statistic 
from the Center on Budget and Policy Priorities that says, 1.7 
million struggling veterans are now using food stamps. In 
addition, more than \1/4\ of recent veterans reported service-
connected disabilities, which has made it harder for our 
veterans to provide for their families. And households with a 
veteran who has a disability that prevents him or her from 
working are twice as likely to not have access to adequate 
food. That alone, Mr. Chairman, gives great significance of 
what you have done, because you have uncovered some things of 
which this nation has been only dimly aware. And I want to 
thank you for that, and the nation thanks you for that.
    The Chairman. Right. Thank you, Mr. Scott. I appreciate 
that. That has not been a universal position with respect to 
many on the Committee, as the number of hearings we have had--

    Mr. David Scott of Georgia. Well, that is why I wanted to 
let you know.
    You deserve the recognition, because I know it has been a 
tough grind for you, but the nation appreciates it.
    The Chairman. Well, thank you, I appreciate that.
    Our Chairwoman and Ranking Member on the Subcommittee, Mrs. 
Walorski and Mr. McGovern, have been an integral part of all of 
that as well. And so, again, I appreciate it.
    Under the Rules of the Committee, today's hearing will 
remain open for 10 calendar days to receive additional 
materials and supplemental written responses from the witnesses 
to any question posed by a Member.
    This hearing of the Committee on Agriculture is adjourned. 
Thank you again.
    [Whereupon, at 12:05 p.m., the Committee was adjourned.]
    [Material submitted for inclusion in the record follows:]
                           Submitted Question
Response from Eric French, Director of Grocery, Amazon
Question Submitted by Hon. Trent Kelly, a Representative in Congress 
        from Mississippi
    Question. Mr. French, during your testimony you raised questions 
about the security of PIN technology, and you referenced other 
technologies that were as, or more, secure. To put a finer point on 
this part of your testimony, if the Department of Agriculture decides 
to implement with PIN technology as a requirement, is Amazon prepared 
to comply?
    Answer. Yes, Amazon is fully willing and will be prepared to 
implement the current PIN requirement in order to accept SNAP payments 
online. Our statement about PINs was meant to encourage the Committee 
and the USDA to develop a framework that ensures the security of these 
online transactions without prescribing specific technologies, which 
could quickly become outdated. Amazon stands ready to serve as a 
resource to the Committee and the USDA on this important issue.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
